<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2000</title>
<body><pre>[Senate Hearing 106-33]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 106-33
 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2000

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 4112/S. 2137

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
      YEAR ENDING SEPTEMBER 30, 1999, AND FOR OTHER PURPOSES deg.

                               __________

             Architect of the Capitol (except House items)
                      Congressional Budget Office
                       General Accounting Office
                       Government Printing Office
                      Joint Committee on Taxation
                        Joint Economic Committee
                          Library of Congress
                       Nondepartmental witnesses
                          Office of Compliance
                       U.S. Capitol Police Board
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
54-224 CC                   WASHINGTON : 1999

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-058458-2




                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                   ROBERT F. BENNETT, Utah, Chairman
TED STEVENS, Alaska                  DIANNE FEINSTEIN, California
LARRY CRAIG, Idaho                   RICHARD J. DURBIN, Illinois
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                           Christine Ciccone
                      James H. English (Minority)

                            C O N T E N T S

                              ----------                              

                        Wednesday, March 3, 1999

                                                                   Page
U.S. Capitol Police Board........................................     1
Architect of the Capitol.........................................    21

                       Wednesday, March 10, 1999

Joint Committee on Taxation......................................    87
Joint Economic Committee.........................................   103
Office of Compliance.............................................   105

                       Wednesday, March 17, 1999

Library of Congress..............................................   117
General Accounting Office........................................   165
Government Printing Office.......................................   189
Nondepartmental witnesses........................................   209

                       Wednesday, March 24, 1999

U.S. Senate:
    Office of the Secretary of the Senate........................   217
    Office of the Sergeant at Arms and Doorkeeper................   271
Congressional Budget Office......................................   293
  


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2000

                              ----------                              


                        WEDNESDAY, MARCH 3, 1999

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Robert F. Bennett (chairman) 
presiding.
    Present: Senators Bennett and Feinstein.

                       U.S. CAPITOL POLICE BOARD

STATEMENTS OF:
        HON. JAMES W. ZIGLAR, SERGEANT AT ARMS, U.S. SENATE, CHAIRMAN, 
            CAPITOL POLICE BOARD
        HON. WILSON LIVINGOOD, SERGEANT AT ARMS, U.S. HOUSE OF 
            REPRESENTATIVES, MEMBER, CAPITOL POLICE BOARD
        HON. ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL, MEMBER, CAPITOL 
            POLICE BOARD
        GARY L. ABRECHT, CHIEF, U.S. CAPITOL POLICE


              opening statement of hon. robert f. bennett


    Senator Bennett. The subcommittee will come to order.
    We want to welcome our new ranking member, Senator 
Feinstein from California. She has come back onto the 
Appropriations Committee and we are delighted to have her 
assigned to this subcommittee and have her serving as the 
ranking member.
    We also have another new member of the subcommittee, 
Senator Durbin, and look forward to working with him as well.
    One of the nice things about Senator Feinstein, along with 
all the other nice things she automatically brings to any 
assignment, is the fact that she is a member of the Rules 
Committee. There is an overlap in the Rules Committee area of 
jurisdiction and our area of responsibility. So we will have a 
coordination here between the Rules Committee function and this 
subcommittee's function that will be very welcome and I think 
very useful.
    Now, I cannot let the opening opportunity pass without 
talking about my current obsession, which is Y2K. As we 
noticed, yesterday was Y2K Day in the Senate and we passed two 
pieces of legislation on the floor of the Senate with respect 
to Y2K. I think we are making fairly good progress in a variety 
of areas.
    I will not revisit all of that, except to share with you 
the comment of my chief of staff for the Y2K committee. When we 
first got into this issue in the Banking Committee, he was my 
Banking Committee staffer and he quoted his grandmother, who 
said: ``Always sweep in front of your own stoop first.'' We are 
out sweeping in front of everybody else's stoop and we have to 
ask the question, is the legislative branch of government going 
to be Y2K-compliant?
    Now, those of you who testified before this subcommittee 
before know that I always raise it. I am putting you on notice 
that I will raise it again this morning and that the 
subcommittee is prepared to have another hearing on this issue 
later this year if in fact the Y2K preparedness warrants it. I 
can think of nothing more personally embarrassing to me than to 
have other parts of the economy all work and the legislative 
branch fail to work and have people say, well, he was out 
sweeping in front of everybody else's stoop, but he did not 
bother to look at the dust and debris that had accumulated in 
front of his own.
    So I am putting you on notice. I know that comes as no 
surprise because that is an issue that I have been so outspoken 
on for the last 3 years, but I wanted to make that clear.
    It is worth noting that OMB has set the 31st of March as 
the deadline for every executive agency to have things done so 
that the testing can start. We already know that there are 
executive agencies that will not meet that deadline. We think 
that is a decent deadline. It gives you 9 months for testing, 
which in some instances will be plenty. In others, like the 
Defense Department, it will probably not be, because the 
testing is in many ways the most time-consuming part of the Y2K 
challenge.
    If the agencies we hear from this morning are not ready by 
the 31st of March, then we plan to have some kind of additional 
hearing in April to have you outline when you plan to be ready 
and exactly where you are with respect to remediation.
    Now, Senator Feinstein, we appreciate again your being 
here, your joining us, and happy to have whatever opening 
statement you may care to make.
    Senator Feinstein. Thank you very much, Mr. Chairman. I 
want to say that it is a great pleasure for me to work with 
you. I find you very open and willing to discuss and share, and 
I want you to know that, in the best bipartisan spirit, I 
really appreciate that very, very much.
    For me, some of the numbers that I see on the Legislative 
Branch have been a surprise, and as we begin the process of 
this detailed review of the fiscal year 2000 battlefield I note 
that the Legislative Branch Subcommittee's total is 
$2,621,321,000, which is an increase of $269,521,000, or an 
11.5 percent increase from fiscal year 1999 enacted levels. For 
the Senate items only, the amount requested for fiscal year 
2000 totals $517,460,000, which is an increase of over $42 
million, or approximately 9 percent over last year's enacted 
level.
    Those are for me, who has only done city and county budgets 
really, a substantial amount. I expect that, because the 
budgetary constraints on the domestic discretionary budget will 
be tight again this year, the 302(b) allocation to this 
particular subcommittee will also be tight.
    I note that members of the Capitol Police Board are 
scheduled to testify first. As you know, the fiscal year 1999 
Omnibus Appropriations Act provided emergency funding of 
$106,782,000 to the Capitol Police Board to enhance security 
for the Capitol complex and the Library of Congress buildings 
and grounds. I have been privileged to hear the Chief's 
presentation at the Rules Committee. This includes additional 
police staffing of 260 to be brought on over a 2-year period to 
assist in implementing these security upgrades, which 
incidentally I support.
    It is my hope, Chief, that you will take some time during 
your opening remarks to outline for this subcommittee the 
impact these additional staff will have on an annualized basis 
to your budget request beginning with fiscal year 2001.
    I would like to thank the chairman for scheduling these 
witnesses to appear before us today, and I thank you very much, 
Mr. Chairman.
    Senator Bennett. Thank you.
    Our first panel is the U.S. Capitol Police Board, James 
Ziglar, and we welcome you, sir. This is your first experience 
before the subcommittee. I hope we will not continue to see the 
musical chairs phenomenon with respect to the Sergeant at Arms. 
Since I have been on this subcommittee, I have heard testimony 
from Howard Green, Greg Casey, and now you. We hope you are 
here for certainly as long as you want to be and for a good 
long time. We welcome you and welcome your expertise to this 
assignment.
    Along with Mr. Ziglar are some more familiar faces: Mr. 
Livingood, Mr. Hantman, and Chief Abrecht.


                             budget request


    The budget request for the police is $90.2 million, $81.2 
million for salaries and $9 million for general expenses. This 
is an 8.6 percent increase over the fiscal 1999 level. It 
supports the current FTE level of 1,251 civilian and uniformed 
officers.
    Before we begin with the testimony, I want to formally and 
publicly thank the Police Board and the police staff for your 
openness and your willingness to share with us the specifics of 
many of the challenges you are facing. Too often we have people 
who when they have problems try to hide them and hope that in 
hiding them they can make them go away.
    But you have been very open and candid with this 
subcommittee and I appreciate our relationship. I think this 
relationship makes it easier for us to help you. We know that 
sometimes you would rather not share some of your problems, but 
your willingness to do so I think is admirable and much 
appreciated.
    We want to work together with the police to help you get 
the infrastructure that you need. We recognize that the police 
provide an absolutely vital and, as was dramatically 
demonstrated last summer, life-threatening service for all of 
us. We sometimes take that protection for granted. It was a 
tragic incident that reminded us just how professional our 
Capitol Police force really is. I would be remiss if I did not 
publicly, through you, Chief Abrecht, thank you for all of the 
work that all of the men and women on the police force do to 
take care of us.
    So we will, I assume, begin with you, Mr. Ziglar as the 
Chairman of the Board.
    Mr. Ziglar. Thank you, Mr. Chairman and Senator Feinstein.
    With respect to the musical chairs comment you made, I hope 
that I do not contribute to that. But in keeping with your 
comment about Y2K, the Leader has explained to me that I will 
contribute to that if I do not get it fixed right. So if I am 
not here for next year's hearing, it is because we failed on 
Y2K and the Leader did not think kindly of it. But hopefully 
that will not occur.
    As you mentioned, this is my first occasion to be here and 
I am very pleased to be here. I am also very honored to be 
Sergeant at Arms of the Senate and I am looking forward to 
working with you.
    As you know, Senator, I worked here when your dad was a 
Senator, and so it is like coming home for me 35 years later.


                       introduction of associates


    I would like to introduce--well, you have already 
introduced them, Bill Livingood and Alan Hantman, the other two 
members of the Capitol Police Board, and make one comment, and 
that is in a very short period of time we have had an 
extraordinarily good working relationship. In addition to 
working together well, we have actually become friends and are 
enjoying each other.
    In fact, today is the first time that consolidated 
testimony among the Architect and the House and the Senate has 
been presented on a budget request, and we think that this 
demonstrates our unity.
    I would like to also introduce to you two other folks in 
the audience here, Doyle Frederick and Ozzie Girard. Doyle is 
the Chief of Staff of the Sergeant at Arms and Ozzie Girard is 
here working on security and police liaison issues for me. I 
did a little bit of reorganization in order to focus on those 
things.
    We have prepared a written statement which has been 
submitted for the record. In addition, I would like to just 
make a few comments.
    Senator Bennett. Your statement will appear in the record 
in full.


                           summary statement


    Mr. Ziglar. Thank you. I would like to just make a few 
comments, if I could, summarizing and somewhat expanding on it.
    Since I became Sergeant at Arms of the Senate, and 
particularly since I became Capitol Police Board Chairman, I 
have developed a very strong respect for the Capitol Police 
Department, the Chief and all of those folks that run it. It is 
a very professional and very capable organization. I have to 
tell you, having arrived right at the beginning of the 
impeachment process, which does not happen that often, with all 
sorts of incredible security problems and challenges, the 
Capitol Police performed superbly.
    There were very, very few glitches. It was a seamless 
performance in terms of security. I want to especially thank 
the Chief and officers for their performance in that.
    I think we all should be very thankful for and proud of the 
service that we get from the Capitol Police Department. Now, 
that is not to say, however, that over the next few years that 
we do not have some challenges that we are going to have to 
meet in terms of the security around here.
    During the next few years we are going to do a number of 
things. As you pointed out, we are going to add roughly 260 new 
officers to the police force, which is a massive infusion of 
new personnel, and that will create some transition challenges.
    We are going to upgrade the personal equipment for officers 
and we are going to upgrade the training for our officers. We 
are going to be implementing the massive physical security 
upgrades that are part of the omnibus authorization from last 
year, and that is Capitol Complex-wide.
    We are going to be developing or are developing a master 
plan to address some of the deficiencies in the Capitol Police 
infrastructure. And we are going to implement many of the 
recommendations of the recently released Booz-Allen and 
Hamilton report, having to do primarily with the administration 
and strategic planning part of the Capitol Police.
    The Congress has been very supportive of the Capitol Police 
and of the security issues around the Capitol. Just in the last 
few weeks literally, we have had a number of very important 
developments that have occurred. In the House, both the 
Appropriations and the authorizing committees have now approved 
the $106 million implementation plan, and we are hoping very 
soon to get approval on the Senate side so that we can begin to 
move ahead.
    Second, the appropriate House and Senate committees have 
approved the hiring of our 260 new personnel. With respect to 
the House, there are about 15 positions that they want us to 
provide additional justification for. We are in the process of 
recruiting and also developing a training program.
    Obviously, to bring that many personnel on board we are 
going to have to double the size of the training program and 
bring a little more efficiency into it in order to get them up 
to the professional level that we have for the rest of our 
officers.
    Third, the perimeter security program has now been approved 
by all parties and the Architect of the Capitol is doing a 
terrific job of getting it moving. I suspect Alan will talk 
more about that, either now or in his testimony later on today.
    So these three very critical elements of our security plan 
are now in place or just about in place and operating. We are 
very proud of the way the police have handled this and how 
quickly it has gone, and particularly for the support from the 
Congress on both sides.
    Another significant recent event was the release of the 
Booz-Allen and Hamilton study on the Police Department which 
particularly focused on administrative activities. They have 
recommended some changes in both the human resources, 
information technology, and financial management areas. One of 
the overarching recommendations was that the Police Department 
needs to have a strategic plan in this area. We had--actually, 
before that recommendation was final started the process of 
working with the Police Department on creating a strategic 
plan, and also moving quickly to take some action on a 
reorganization that is obvious, I think, to everyone that we 
need to do.
    In fact, when we leave here today we are going to a 2-day 
offsite Board workshop. We are not going to any luxurious 
place. We are just going outside the Capitol complex so that 
our telephones do not ring all the time. We will look at the 
Booz-Allen report in depth and come up with our 
recommendations; the master planning document on the facilities 
side; as well as some other implementation issues with regard 
to the omnibus authorization.
    Let us talk about Y2K.
    Senator Bennett. OK.


                                  y2k


    Mr. Ziglar. I was keeping you in suspense by putting it 
further down, not that it is not the number one priority.
    In my role as Sergeant at Arms of the Senate, I obviously 
have more than just the police part of the Y2K. I have been, 
particularly since the impeachment trial was over and I had a 
little bit more time, very involved in it. I was very involved 
in it when I first got here.
    I am feeling very comfortable, Senator, that we are doing 
the right things. I have reached beyond just our in-house 
people to have some outside folks take a look at it on an 
informal basis, just to make sure that there was nothing that 
seemed to be OK but was not. I am feeling good that we are--
although we may not have all things done by March 31 we are 
doing very well, and I suspect that you and I and Senator 
Feinstein will be talking about those issues in another budget 
hearing on March the 24th.
    But with respect to the Police Department, we identified 19 
critical missions systems. I have gone through each one of them 
with the police. We are now at the implementation stage, beyond 
validation, on at least ten of them, as I recall. I do not have 
that right in front of me. We are at validation on 14 of the 
19, and we are doing quite well on the renovation of the rest 
of them.
    There is only one system that at this point I think we are 
not exactly sure what we are going to do with, and that is the 
Motorola radio console system. The issue there, quite frankly, 
having looked at this thing in some detail, is not so much Y2K 
compliance, because we can get there. The issue is whether or 
not we are going to spend between $600,000 and $900,000 to 
replace that console system or we are going to do a patch.
    Now, without regard to Y2K the fact is that that system is 
very old, it is outdated, it is at the low end of the 
technological curve, and, more importantly, it has no 
redundancy in the system. From a police security point of view, 
it is not a very attractive situation. So to be quite honest 
with you, we are tending now, as a result of an additional 
technical meeting yesterday, toward replacement of the console 
system through an RFP process. Because there is a lot of good 
technology out there, we are not limited to the original 
supplier.

                          prepared statements

    I think that is probably what we will recommend and we are 
very close to making that decision. It really has to do with 
upgrading our technology as much as with Y2K.
    [The statements follow:]
                 Prepared Statement of James W. Ziglar
    Mr. Chairman and members of the Committee, I am pleased to appear 
before you to present the fiscal year 2000 Budget Request for the 
United States Capitol Police.
    Although I have been a member of the U.S. Capitol Police Board for 
a relatively short period of time, and Chairman for only two months, I 
have developed a strong respect for the capabilities and 
professionalism of the men and women of the United States Capitol 
Police. In particular, I would like to express my appreciation to Bill 
Livingood and Alan Hantman for their outstanding contributions as 
members of the Board and for their wise counsel during this learning 
period I am traversing. We have developed an excellent working 
relationship in a short period of time and this spirit of cooperation 
and unity is evident today in our testimony before this Subcommittee. 
For the first time, the members of the U.S. Capitol Police Board have 
submitted a single joint statement regarding the U.S. Capitol Police 
budget request.
    Mr. Chairman, the next few years will be a challenging time for the 
United States Capitol Police. The Department plans to add 260 police 
personnel to its ranks over a two year period; we will provide officers 
with upgraded personal equipment and training; we will make significant 
changes to the Department's administrative and operational 
capabilities; we will upgrade physical security equipment; and, under 
the direction of the Architect, we will make much needed improvements 
to the physical security barriers which protect the Capitol Complex. 
The challenge for the members of the Capitol Police Board will be to 
manage this change and to continue to meet the unique security needs of 
Congress during the transition.
    In accordance with the provisions of Public Law 105-277, the U.S. 
Capitol Police Board recently submitted to the authorizing and 
appropriations committees an integrated implementation plan detailing 
the needed police equipment upgrades and outlining the first phase of 
the security enhancements to the Capitol Complex and Library of 
Congress buildings and grounds. The segment of the implementation plan 
which addresses the personnel increase has been approved by all 
committees and we have initiated an aggressive recruitment agenda to 
fill the approved positions. Just last week, the House oversight and 
appropriation committees approved the remaining parts of the Security 
Enhancement Implementation Plan. We would very much appreciate your 
early consideration and approval of the remaining parts of the plan 
which will allow us to move ahead with the upgrade of police equipment 
and physical security technology. In an unprecedented fashion, the 
USCP, Architect of the Capitol, Library of Congress Police, and even 
the U.S. Supreme Court Police are working closely to coordinate the 
efficient execution of the Plan upon final approval.
    With regard to physical security upgrades, we have just received 
final approval for the Capitol Square Perimeter Security Plan. As you 
know, this plan addresses the need to upgrade the physical barriers 
that will surround the Capitol Square and the Senate office buildings. 
The new barriers will provide a higher level of security and will also 
be more aesthetically pleasing than the current structures. These 
initiatives, implemented under the guidance of the Architect, will 
provide long-term security for the Capitol Complex and meet current 
industry standards to protect against vehicular terrorist attacks. For 
your information, the security perimeter upgrades along Delaware Avenue 
and C Street on the Senate side are currently under design and we will 
be requesting approval to release funds to proceed with construction 
shortly.
    Last year, the Chairmen of the Legislative Branch appropriations 
and oversight committees tasked the General Accounting Office (GAO) to 
contract and oversee an evaluation of selected administrative 
operations of the U.S. Capitol Police (USCP) to identify opportunities 
to improve efficiency and cost effectiveness. The GAO selected Booz-
Allen & Hamilton to perform the evaluation and to conduct a management 
review of selected USCP administrative operations. Specifically, the 
review addressed the management of the financial services, human 
resources, and information technology operations. The members of the 
Board have been briefed by the staff of the General Accounting office 
and last week we were provided with the final report of Booz-Allen & 
Hamilton. Areas highlighted for emphasis during the briefing process 
included the need to establish an administrative structure to support 
the core mission; the need to develop a strategic plan; and the need to 
establish policies and procedures for all support activities. The Board 
is in general agreement with the findings and recommendations of the 
report.
    The Board and the USCP have begun addressing the issues raised in 
the report. Actions to be taken include preparing a draft 
reorganization plan; acquiring the resources for preparing the 
Department's strategic plan; and rectifying staffing deficiencies in 
the areas of financial management, information technology management, 
and human resources management. Many of the staffing issues were 
addressed in the staffing proposal which has now been approved by this 
Committee. In addition, the creation of an improved policy review and 
personnel evaluation process is under way.
    Once the Board has had the opportunity to fully review and discuss 
the information contained in the final report, we will make additional 
decisions on how to institute measures to improve the Department's 
administrative infrastructure to reflect best business practices. As a 
matter of fact, immediately following this hearing, the Board has 
scheduled a two and a half day workshop to discuss USCP activities and 
operations, with the Booz-Allen report being one of the agenda items 
for discussion. We will keep the Committees advised as we make progress 
toward implementing the recommendations contained in the report.
    Another important issue is the status of the U.S. Capitol Police 
Year 2000 computer compliance project. The police have identified 
nineteen mission critical systems which must become Y2K compliant. Thus 
far, we have renovated fourteen systems and have validated ten. The 
validation of two other systems is 98 percent complete. Currently, the 
U.S. Capitol Police have ten of their nineteen systems Y2K compliant 
and in operation. Of the remaining nine systems, two are 98 percent 
complete and one is 50 percent complete. The remaining six are being 
renovated in conjunction with the Office of the Senate Sergeant at 
Arms, the Metropolitan Police, or are otherwise the sole responsibility 
of the USCP. We project that we will have achieved full Year 2000 
computer compliance for all U.S. Capitol Police systems by September, 
1999.
    The increase reflected in the U.S. Capitol Police fiscal year 2000 
budget request is primarily a result of funds needed to sustain the 
revised longevity rates and differentials for Sunday, holiday, and 
evening shifts that were approved by the authorizing and appropriations 
committees for fiscal year 1999. It also includes the cost of the 
anticipated COLA and comparability pay increases, as well as personnel 
benefits.
    Also, it should be noted that the USCP fiscal year 2000 budget 
request includes an increase in funding to cover the Department's 
computer and telecommunications expenses. Additional funds are 
necessary to cover the needed improvements in the information 
technology area based on our own analysis and as recommended in the 
Booz-Allen report. We are proposing to include this funding in the USCP 
budget rather than continue to use resources from the budget of the 
Office of the Senate Sergeant at Arms. The Senate has provided the U.S. 
Capitol Police with extensive equipment and technical support over the 
past several years. The Board feels that the Chief and the Command 
staff, under the supervision of the Board, should have direct control 
over and accountability for the funds required to purchase and operate 
these systems. Therefore, we have proposed that these items be included 
in the U.S. Capitol Police Budget.
    The Capitol Police Board has approved security related projects 
that are included in the Architect of the Capitol's budget request for 
fiscal year 2000. These include such items as: Infrastructure for 
Security Installations which provides the infrastructure accommodations 
to support the continued installation by the Capitol Police of door 
controls, alarms, cameras and other security devices throughout the 
Capitol Complex; Security Project Support that will provide the AOC 
with technical staffing resources to coordinate, oversee, and implement 
the design and construction of capital improvements that were funded in 
the Omnibus Consolidated and Emergency Supplemental and Appropriations 
Act, 1999, Public Law 105-277; and, Secure Attic and Basement Areas for 
Senate Office Buildings, that will provide for the construction of 
physical barriers in various storage areas of the Senate. The Board 
also concurred with the AOC and LOC Book Conveyor System Security Plan 
that will provide for access control to the Library of Congress book 
conveyor system; and Collections Security that will provide for the 
continued installation of card readers and other security sensors and 
devices to protect the Library's collections.
    The U.S. Capitol Police Board is grateful for your efforts to pass 
and fund the pay parity and benefits package for our personnel last 
year. The greatest asset of any organization, whether public or 
private, is its personnel. The U.S. Capitol Police relies on the 
ability, dedication, and contribution of its personnel at all levels in 
order to meet its mission. Thanks to these pay and benefit initiatives, 
we believe that we are now in a better position to retain our 
experienced officers while attracting highly-qualified candidates.
    The members of the U.S. Capitol Police Board and I would like to 
express special thanks to this Committee for the strong support you 
provided to the U.S. Capitol Police in the aftermath of the tragic 
deaths of Officer Jacob Chestnut and Detective John Gibson. The 
outpouring of concern and support from members of Congress, the 
Congressional community, and the public helped to sustain the families 
of our fallen heroes and the men and women who continue to serve. We 
are pleased to report that pursuant to Public Law 105-223, the Board 
has made a substantial distribution from the Capitol Police Memorial 
Fund. This contribution was equally divided between the Chestnut and 
Gibson families.
    We look forward to working with the Committee as we strive to meet 
the challenges and demands of protecting the Capitol Complex and those 
who work and visit here. A detailed budget has been previously 
submitted to the Committee. Thank you for this opportunity to appear 
before you and we will be pleased to answer any questions you may have.
                                 ______
                                 
                 Prepared Statement of Gary L. Abrecht
    Mr. Chairman and members of the Committee, I am honored to appear 
before you today to discuss the fiscal year 2000 Budget Request for the 
United States Capitol Police.
    As you are aware, 1998 proved to be a difficult and challenging 
year. On July 24th, Officer Jacob J. Chestnut and Detective John M. 
Gibson were killed in the line of duty inside the United States 
Capitol. The service and sacrifice of these fine officers reminds us 
all of the inherently dangerous and unpredictable nature of our 
mission. The ability of Congress to safely and freely perform its 
legislative function is inextricably tied to the ability of the U.S. 
Capitol Police to perform its law enforcement, security, and protective 
function. The July 24th attack on the Capitol underscored that bond. So 
did the response from the Congress and the Congressional community to 
our loss. It was clear that the deaths of J.J. and John also struck a 
chord with the American people and individuals around the world because 
the Department was overwhelmed with expressions of sympathy and 
support. The kinds words of support and the donations of flowers, food, 
cards and letters helped us through this trying time. Likewise, people 
generously contributed to the Memorial Fund which Congress graciously 
established to aid the families of our fallen heroes. On behalf of the 
men and women of the U.S. Capitol Police, I would also like to thank 
Congress for granting the unprecedented honor of holding a 
Congressional Tribute for Officer Chestnut and Detective Gibson in the 
Rotunda of the Capitol.
    As difficult as it was, the mission of the Department proceeded. 
Shortly after the shootings, security was again heightened in the wake 
of the terrorist attack on the American embassies in east Africa. The 
recent military action in Iraq also raised the specter of terrorism. 
Through it all, the men and women of the U.S. Capitol Police rose to 
the challenge and performed their duty in a professional and effective 
manner. I am proud to be associated with such an outstanding group of 
individuals.
    In the aftermath of the shootings and the other incidents which 
affected security, a comprehensive security survey of the Capitol 
Complex was conducted at the direction of the Capitol Police Board. The 
security task force, which was comprised of security experts from 
federal law enforcement agencies and the private sector, used the 1995 
U.S. Capitol Police/U.S. Secret Service study as a base-line. The 
preliminary results of the study were transmitted to the committees of 
jurisdiction for their consideration and funding was provided for the 
recommended security upgrades through Public Law 105-277.
    In accordance with the provisions of Public Law 105-277, an 
integrated implementation plan was submitted to the authorizing and 
appropriations committees detailing the first phase of the security 
enhancements to the Capitol Complex and the Library of Congress 
buildings and grounds. The plan includes adding an additional 260 
police personnel to the Department, providing upgraded equipment to our 
officers, and obtaining state-of-the-art physical security equipment. 
The segment of the plan which addresses the personnel increase has been 
approved by all committees and we have begun an aggressive recruitment 
and training agenda to fill these positions and deploy additional 
officers in the field. Just last week, the House Administration 
Committee and Appropriation Committee approved the remaining parts of 
the Security Enhancement Implementation Plan. Your prompt consideration 
and approval of the remaining parts of the plan will allow us to move 
ahead expeditiously with these very important security issues.
    With the addition of 260 police personnel over a two-year period, 
my concern regarding the inadequacy of several of our facilities to 
meet the mission of the Department has deepened. Several facilities 
currently used by the U.S. Capitol Police can no longer adequately 
support the mission of the Department. Others are in need of repair and 
expansion or relocation to another site. In addition, our training 
facilities, which consist of three converted offices in the Ford House 
Office Building, are woefully inadequate to support our diverse 
training needs. The Committee has approved funding to the Architect to 
develop a comprehensive facilities needs assessment and space plan for 
the Department and other congressional entities. This study, known as 
the Capitol Complex Integrated Security Facilities Program, is 
currently underway. It will examine the long-term facilities 
requirements of the U.S. Capitol Police in the areas of training, 
administrative and security operations, and personnel support. We look 
forward to working with the Committee to address this critical issue 
once the final report has been submitted. In the short term, the 
Architect is addressing several issues relating to the condition and 
functionality of numerous facilities currently used by the police. Your 
favorable consideration of the Architect's repair and improvement 
requests will ensure that our personnel can be provided with clean, 
safe, and functional working environments until such time as the long-
term police facilities issues are resolved.
    As you are aware, last year the General Accounting Office (GAO) was 
tasked with conducting an evaluation of U.S. Capitol Police 
administrative operations in the areas of financial management, human 
resource management, and information technology management. I have been 
briefed by the GAO staff and last week was provided with the final 
report by their consultant, Booz-Allen & Hamilton. At the direction and 
supervision of the Board, we have begun addressing issues raised in the 
report. These actions include preparing a draft reorganization plan; 
acquiring the resources for preparing a strategic plan; and rectifying 
staffing deficiencies in the areas of financial management, information 
technology, and human resources management. In addition, the creation 
of an improved policy review and personnel evaluation process is under 
way. This report was issued at a propitious time for the U.S. Capitol 
Police. Our administrative infrastructure is being strained by the 
functions related to the expansion of the Department and associated 
security projects. This report will provide us with a blueprint to make 
needed adjustments to our administrative functions so they can 
effectively and efficiently support the core mission of the Department.
    Another issue which is critical to the core mission of the 
Department is the Year 2000 computer conversion. We have identified 
nineteen mission critical computer systems which must become Y2K 
compliant. Currently, we have renovated fourteen of these systems and 
validated ten. The validation of two additional systems is 98 percent 
complete. Currently, we have ten systems Y2K compliant and in 
operation. Of the remaining nine systems, two are 98 percent complete 
and one is 50 percent complete. The remaining six systems are being 
renovated in conjunction with the Office of the Senate Sergeant at 
Arms, the Metropolitan Police, or are otherwise the sole responsibility 
of the USCP. We project full Year 2000 computer compliance for all 
nineteen U.S. Capitol Police systems by September, 1999. It should be 
noted that, as a precaution, we have begun continency planning to 
ensure that our core life-safety, security, protective, and law 
enforcement operations can proceed unhindered in the event of 
significant, unanticipated Y2K disruptions affecting our critical 
computer functions.
    On a related matter, the USCP fiscal year 2000 budget request also 
includes funds to cover the Department's computer and 
telecommunications expenses. These funds were previously taken from the 
budget of the Office of the Senate Sergeant at Arms. If approved, the 
Department will reimburse the Senate Sergeant at Arms for these 
services. I would like to point out that should these amounts not be 
approved, they will need to be restored to the Senate Sergeant at Arms 
fiscal year 2000 budget.
    The majority of the increase contained in the U.S. Capitol Police 
fiscal year 2000 Budget Request is the result of funding needed to 
sustain the revised longevity rates and the differentials for Sunday, 
holiday, and evening shifts that were approved by the authorizing and 
appropriations committees in fiscal year 1999. In addition, funding is 
included to cover the anticipated COLA and pay comparability increases 
and associated personnel benefits.
    The final significant increase in the fiscal year 2000 budget is in 
the category of life-cycle replacement costs. It is essential to the 
operation of the Department that our officers utilize equipment which 
is up-to-date and able to meet the demands of police and security work. 
Therefore, we have requested funding to methodically replace physical 
security systems, vehicles, and police equipment. The life-cycle 
replacement of such items will ensure that we have ready access to 
modern, safe and fully functional equipment. The Department has been 
unable to adhere to the life-cycle replacement program, particularly 
with regard to fleet vehicle replacement, due to reprogramming and 
other funding restrictions in previous budget cycles.
    In closing, I would like to thank the Committee for your efforts to 
provide our personnel with salary adjustments during in fiscal year 
1999. In doing so, you helped us achieve pay parity with other similar 
federal law enforcement agencies. This action has resulted in improved 
morale, better retention, and an increase in the number of qualified 
applicants.
    I am proud of the level and quality of service the men and women of 
the U.S. Capitol Police provide on a daily basis. As we saw last year, 
securing the Capitol Complex is a daunting and dangerous task. With 
your continued support and guidance, I am confident that we will be 
prepared to meet the challenges and demands of the coming year.
    I will be pleased to answer any questions you may have.

    Senator Bennett. Do you have the money in your proposed 
budget for that replacement or would that be additional funds?
    Mr. Ziglar. No, sir, we have that money in the budget.
    Senator Bennett. OK. Thank you.
    Mr. Ziglar. With respect to the budget, you have outlined 
pretty much the numbers, the $9,187,000, which is a $7,106,000 
increase over the 1999 budget. I might also add that, Senator 
Feinstein, I think you noted that only $9 million of that $90 
million is for non-salary items. So it is quite clear that most 
of our dollars go to personnel, as it should be. I mean, that 
is what we are here to do, to provide that kind of security.
    Let me tell you a little bit about the breakdown of the two 
significant pieces of the $7 million above last year; 
$4,353,000 of that is salary-related or personnel cost-related, 
the COLA and some merit increases and things like that. So the 
biggest part of that $7 million is actually related to the 
salary item.
    The other large part is $1,761,000 for computer and 
telecom. There is a little history here I would like to tell 
you about, which I am sure you know. In the past the Sergeant 
at Arms budget has provided a large chunk of the money for 
computer and telecom support, that was not in the Capitol 
Police budget. We have on average over the last few years spent 
between $500,000 and $600,000 for computer-telecom, which has 
been unfortunately only at a bare maintenance level. It has not 
provided for any upgrade in the technology. So we have really 
fallen behind technologically in the Police Department.
    We are proposing, as the Appropriations Committee suggested 
that those telecom-computer items go into the Capitol Police 
budget and we not have them in the Sergeant at Arms budget. I 
think the House is inclined to go along with that now. At least 
I got that feeling from our discussions with them. And our 
$1,761,000, which of course is higher than the $500,000 or 
$600,000 that we have had in the past, represents technology 
upgrades, not just the maintenance level that we had been 
supplying.
    The other thing that I think is important is that in doing 
this in the Capitol Police budget, they will have the 
responsibility and flexibilities to manage their IT programs. 
Quite frankly they have in the past been forced to accept what 
the Sergeant at Arms technical people have said they are going 
to buy or they are going to use, as opposed to being able to 
independently evaluate what would be best in terms of 
technology for the police. So I think having it in the police 
budget, subject to oversight of this committee and obviously 
the House committee and the Capitol Police Board, is a good 
idea for making sure that we are at the cutting edge of 
technology.

                 compatibility with other Police forces

    Senator Bennett. Let me interrupt you with a question. It 
may be more appropriate later on, but while I am thinking about 
it let me just ask you now. As you move to replace some of this 
technology and communications equipment, what about making it 
compatible with other police forces on the Hill?
    You have the Library of Congress police force.
    Mr. Abrecht. I raised that issue yesterday actually at the 
meeting that we were discussing earlier, that we did want to 
achieve interoperability with the Library and the Supreme Court 
as a result of this.
    Senator Bennett. Right.
    Mr. Abrecht. And to the extent feasible with the 
Metropolitan Police Force as well, who surround us on every 
side.
    Senator Bennett. It has been my experience that every 
police department loves its own toys and they want to have 
their version. I do not mean to refer to these things as 
``toys'' because they are clearly not. But that kind of 
mentality does sometimes get in the way, and somebody who is 
going to disturb activities on Capitol Hill is not going to 
observe the niceties of, gee, I am now in the Supreme Court 
precinct, and now I am crossing over to the Library of 
Congress, and the Capitol Police and, as you say, Chief 
Abrecht, the Metropolitan Police as well.
    So I am willing to support the funding for the increase in 
the technology and an increased level, but I wanted to put that 
caveat in your conversation.
    Mr. Ziglar. Senator, if you will indulge me in a little 
anecdote from the impeachment trial. I had the good fortune to 
have known the Chief Justice for some 30 years, having clerked 
up at the Court when he was there and also worked with him at 
the Justice Department before then. During the course of the 
impeachment trial there were some pauses where he was sitting 
around and I was talking to him, and I raised this issue with 
him about compatibility of the technology between our police 
forces, and we chatted about it.
    He is very much supportive of it, in fact to the point that 
he had his communications chief over there give me a call. So 
we are very much committed to the idea that we ought to be able 
to talk to each other through all this technology.
    Well, let me close by thanking the committee and the entire 
Congress for the support that you have given the police, 
particularly during the last year when we suffered the tragic 
loss of Officers Chestnut and Gibson. The concern that was 
expressed by everyone I think gave great strength to those 
families, as well as to the entire Police Department.
    On a happier note, I am also pleased to report that just 
within the last couple of weeks we have made a sizable 
distribution to those families from the Police Memorial Fund, 
which was made possible by the generous contributions from lots 
of people both up here and around the country.
    So we thank you very much. We thank you for this 
opportunity, and my colleagues and I would be very happy to 
answer any questions you have.
    Senator Bennett. Thank you.

                              Y2K program

    I appreciate your comments about Y2K. It is my 
understanding that you still do not have your Y2K plan on 
paper, have not committed it to a formal document. Is that 
true?
    Mr. Abrecht. I do not think that is totally fair. I think 
we have done a tremendous amount of work with the GAO and we 
have submitted draft plans to them, and by the end of this 
month we will have a formal plan that they have agreed to.
    Senator Bennett. OK.
    Mr. Ziglar. Senator, if I could comment on that.
    Senator Bennett. Sure.
    Mr. Ziglar. I had a meeting separate from the Police 
Department with GAO to review the Police Department Y2K 
program. And while it is not on paper in the formal sense, GAO 
was quite comfortable with the progress that has been made 
there and the approach that has been taken, and brought a 
number of pieces of paper for me to review on that.
    Senator Bennett. Fine.

                           Management review

    Now let us go to the management review and recommendations. 
You are having a retreat this week to talk about that. Who is 
responsible for implementing the recommendations? Will that be 
hammered out in the retreat, the specific names?
    Mr. Ziglar. Yes, sir. In fact, Booz-Allen folks are coming. 
The people who actually worked on it are going to be spending 
Friday, I believe it is Friday morning with us. We will then 
iron out how exactly how we are going to approach it.
    The House has asked for us to give some feedback on the 
report, our reaction to it, by March 31 and a final plan on the 
implementation strategy by April 30. So we are on a time line 
from the House side and, frankly, I am hoping that we will be 
ahead of that time line and in process before those deadlines.
    Senator Bennett. Tell us about your efforts to cross-
service your accounting functions?
    Mr. Ziglar. Do you want to?
    Mr. Abrecht. I will be glad to.
    This is one of the three areas that we had asked for this 
evaluation to consider, because it is one of the areas where we 
knew we had difficulties. Our financial management system is 
very, very old. It runs on the Senate mainframe. It has serious 
problems. We have been looking for a solution to that problem.
    One of the things that Booz-Allen recommended is that we 
ought to get some other agency to cross-service that function. 
So I had my director of financial management, through the 
Legislative Branch Financial Managers Council look for a cross-
servicing option. The option that seems to be best suited to us 
is the General Accounting Office. They have offered to cross-
service that function for us. They have done some testing. It 
shows that it can be accomplished. We are very excited that 
that is probably the very best solution for us. They are 
planning to charge a very modest fee for this and it seems like 
the ideal solution for us. We are very excited and hopeful that 
the budget that you are considering today will be administered 
through their accounting system.
    Senator Bennett. You say they will charge you a modest fee. 
Do you experience concomitant savings by virtue of having that 
now done out, where the net cost stays the same? Or are we 
looking at increased costs?
    Mr. Abrecht. It is hard to tell, because the system that we 
are currently running on is essentially the Sergeant at Arms 
mainframe. So if there is any savings, it would be in the 
operating costs of the Sergeant at Arms mainframe. I expect 
that would be the only savings that would be involved. There 
may even be some additional staffing involved.
    It is a much better system. It requires, unfortunately, 
that we keep much better records than we currently do, so there 
are some additional personnel that will probably be required to 
make this work. They are provided for in the security 
enhancement plan.
    Senator Bennett. Are they provided for in this budget?
    Mr. Abrecht. No, they are provided for in the security 
enhancement plan. We anticipated that bringing on the 
additional officers and increasing the complexity of our 
physical security would ultimately have an additional impact on 
our infrastructure. So as part of the 260 additional personnel, 
we have a small number in there for administrative support. 
There are five for the Office of Financial Management to bring 
that operation up to snuff.

                           Payroll increases

    Senator Bennett. Do I understand correctly that, back to 
your point, Mr. Ziglar, about the payroll portion of the 
increase, that there are no increases in FTE's, that this is 
entirely COLA's and merit pay for your existing FTE's?
    Mr. Ziglar. Correct. The new FTE's that will come on 
through the enhancement plan are being funded through that 
enhancement plan through fiscal year 2000. In 2001 our budget, 
the Capitol Police budget, will reflect those additional hires. 
We estimate that cost to be about $12 million.
    Senator Bennett. How big a number do you use in the COLA, 
what percentage?
    Mr. Abrecht. We asked the Congressional Budget Office to 
provide us what they expect the COLA to be.
    Senator Bennett. I do not think it is going to be as high. 
Instinctively, I am saying that is an awful lot of merit 
increases to get the total.
    Mr. Abrecht. There are no merit increases actually at all. 
That was a misstatement. We have never been authorized to do 
merit increases, Mr. Chairman.
    In addition to the COLA's, there is $1.3 million in there 
which is the result of underfunding in the past. We have not 
been funded at our funded level in fact.
    Senator Bennett. I see.
    Mr. Abrecht. There is some attrition that has always been 
counted on and fortunately, thanks to the support of the 
committee in providing pay parity for our people in this last 
year, our attrition has gotten very, very low. We do not 
anticipate that we are going to lose nearly as many people.
    So the float that you get while you are replacing somebody 
who attrites is not going to be there this year.
    Senator Bennett. I see, OK.
    Mr. Abrecht. So in order to fund the budget at the 1,251 
level we are going to need more money than we had in the past 
year, because we really were underfunded.
    Senator Bennett. I see, OK.
    Mr. Ziglar. Mr. Chairman, Bruce Holmberg just handed me a 
note that the assumptions that we use is a 4.3 percent COLA and 
a half percent comparability pay, the assumptions that went 
into this budget.
    Senator Bennett. I will not argue with whoever does the 
numbers, but that strikes me as a pretty high COLA in an age 
when, according to Alan Greenspan, inflation is dead and we are 
nonetheless adjusting for it at the rate of 4 percent. That is 
fairly high.
    Mr. Ziglar. We may have some money to give back to you.
    Senator Bennett. Well, I will not hold my breath for that. 
[Laughter.]
    Mr. Abrecht. My only hope there, Mr. Chairman, is that--and 
this is my mantra that you have heard for many years--that we 
remain comparable with the executive branch.
    Senator Bennett. Right.
    Mr. Abrecht. Whatever you give, whatever the government 
ultimately gives to the executive branch, that we remain there.
    Senator Bennett. I think that is legitimate, and that is 
not an issue that we can address.
    You made reference to the rest of the increases coming out 
of a shifting of responsibility from the Sergeant at Arms to 
the police.
    Mr. Ziglar. A large part of it, not the entire amount.
    Senator Bennett. And of course that raises the question, is 
the Sergeant at Arms budget going to reflect a decrease by 
virtue of that shift? I have asked that question before and 
they have been unable to find the decrease. They just find the 
increase somehow.
    Are we going to see that again this year?
    Mr. Ziglar. It is a $500,000 number. This year, as you 
know, the Sergeant at Arms is asking for a relatively sizable 
increase that is reflective largely of technology and those 
sorts of things. So the answer is we are not going to plan to 
give $500,000 or $600,000 to the police this year, but we will 
try to parse it and respond to you when we come back on March 
24th.

                        Security upgrade project

    Senator Bennett. Can you talk to us about your security 
upgrade project?
    Mr. Abrecht. Absolutely. You will recall the context here 
was that in 1995 a substantial survey of the Capitol grounds, a 
security survey of the whole complex, was accomplished jointly 
with United States Secret Service. We had planned to do a 
review of that study in 1998, and after the tragedy on July 
24th we moved that up. We planned to do it in the fall and we 
started working on it right away.
    We brought in experts from several of the large executive 
branch agencies. The United States Marshals were very helpful, 
the Secret Service, people who have done this for the executive 
branch.
    From that we developed a number of recommendations, which 
ultimately were pared down some in the meetings with various 
committees and $106 million was included in the omnibus 
supplemental, including $25 million for personnel, which we 
have already discussed. The rest of it was primarily physical 
security upgrades, although there is some money in there to 
support the new officers, for equipment for them, for vests, 
for new weapons. But the bulk of it goes to physical security 
in a number of areas.
    Most of them I think have some law enforcement sensitivity, 
so I would rather not go into----
    Senator Bennett. Right.
    Mr. Abrecht (continuing). The nitty-gritty details. But 
obviously we are looking to protect the Congress against 
terrorists, terrorism fundamentally, in all the different ways 
that the Congress could be assaulted from a terrorist 
standpoint. We tried to address every one of them in this 
study.
    Senator Bennett. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.

                     Booz-Allen and Hamilton report

    I wanted to go and just speak for a moment about some of 
the Booz-Allen and Hamilton recommendations. It is my 
understanding that the report contains some specific 
recommendations on how you can improve operations in 
administrative areas. The chairman referred to certain cross-
cutting issues. I think the report also found that the current 
organizational structure neither facilitates communications 
between the operations and the administrative support functions 
nor integrates administrative support functions into the 
management process.
    It went on to say that as an organization the Capitol 
Police does not utilize formal strategic planning to help plan 
and direct changes in current administrative support activities 
which are needed to support future operational demands, and 
that your support operations lack current and complete 
operating policies and procedures.
    The report goes on to recommend that you create an 
assistant chief for administration, who would report directly 
to the police chief. In making this recommendation, they note 
that potential candidates should have operational and 
administrative experience. In addition, they say this 
individual should possess strong managerial skills, have a 
vision and an understanding of how an effective and efficient 
administrative structure can support police operations.
    They also say that this individual should institute a 
formal strategic planning process for administrative operations 
and that the objective should be a mission and vision for 
operations within the department. They identify key 
administrative functions that need to be developed and 
maintained with formalized policies and procedures that need to 
be followed to carry out the functions.
    My questions are: Do you agree with those recommendations 
and are you going to establish the position?
    Mr. Abrecht. I think that is one of the subjects that the 
Board will clearly be discussing on Friday. We have drafted a 
reorganization plan that follows Booz-Allen's recommendations 
almost to the letter, with some very minor tweaks based on 
things that we know that they perhaps do not know about our 
organization, and we are going to be discussing that with the 
Board. At least that is my--chairman?
    Mr. Ziglar. Senator, at an intellectual level, if the facts 
as presented in the report are accurate--and I have not had the 
opportunity, quite frankly, to do that level of due diligence 
on the Police Department. If the facts as presented are correct 
in terms of lack of integration of administrative functions and 
that sort of thing, then I think those recommendations are 
completely legitimate.
    I want to--and I come from a management background--do due 
diligence, and that is one of the reasons we are going to have 
six or seven people from Booz-Allen there on Friday morning, to 
ask a lot of questions and to put them to the proof that that 
is in fact the case. And if it is the case, absolutely I agree 
that that is what we need to do.
    Senator Feinstein. I am sort of familiar in my past life 
with police departments. It was my highest priority as mayor.
    Senator Bennett. I think that is an understatement.
    Senator Feinstein. And I brought the department up to its 
fully authorized strength and really pushed to bring it into 
the modern age. That is one of the most difficult things for 
police to do. I recognize that, and I do not want to be overly 
critical.
    I do, just from what I have read, sense that there is a 
deficit here and that that has to be recognized and it has to 
be met in some way. I guess what I want you to know is I am 
going to be watching to see if it happens.
    Mr. Ziglar. Would you mind being a consultant? [Laughter.]
    Mr. Abrecht. I assure you it is going to happen, Senator.
    Senator Feinstein. Because for some reason this always 
seems to threaten people and it should not. It really should 
not. And particularly here, because some of the concerns that 
you mentioned, Chief, are really very valid concerns, you know, 
and I think you need the most up to date and the best structure 
here.
    Well, let me ask, put the question this way. With respect 
to the absence of strategic planning for your administrative 
functions, do you agree with the conclusion of the report that 
you need to anticipate, anticipate modifying existing 
administrative capabilities to support your operations?
    Mr. Abrecht. Absolutely. I think--I hope the Congress will 
remember that we asked for this study. We determined that these 
weaknesses existed long before I ever heard of the name Booz-
Allen. We determined that we need to strengthen these three 
areas of our operation, that we had devoted perhaps too much of 
our resources to making sure that we got the job done and not 
enough to making sure that our infrastructure was in place.
    We asked that there be a study to give us some guidance on 
this, and that is exactly what this is and we intend to 
implement this aggressively and get it done in the immediate 
future.
    Senator Feinstein. Good.
    Mr. Abrecht. I assure you, I am not threatened by this 
study.
    Senator Feinstein. Well, no, I did not say you. I just said 
my experience has been that people are threatened by it.
    Mr. Abrecht. We want to get these problems behind us. I 
think a lot of them are a result of things outside, that have 
happened outside of our control. We took over the personnel 
functions of this Police Department, which used to be split 
between the Senate Disbursing Office and the House Finance 
Office, and we became our own personnel enterprise and we 
underresourced that when we took it over and we did not take 
the time and put enough effort into getting it up to speed.
    Senator Feinstein. Well, let me ask another question. Do 
you currently have the resources, both in terms of technical 
skills and available staff, to initiate the kind of review that 
is necessary to really look at this?
    Mr. Ziglar. The answer is that by and large I believe we 
do, but we will be reaching outside for some help. The form of 
that help is yet to be determined. But I feel like it is good 
to have somebody on the outside looking in and helping you with 
that.
    Senator Feinstein. And you have the budget to do that? I 
mean, it is budgeted?
    Mr. Ziglar. Yes.
    Mr. Abrecht. The security enhancement plan contains a 
contingency item where there is some money for studies, and we 
intend to use, with the committee's approval, some very small 
portion of that to assist us to facilitate these management 
studies and improvements.
    Senator Feinstein. All right.

                     Additional committee questions

    Mr. Chairman, I have some questions on the financial system 
itself. May I submit them for the record and ask them to answer 
them?
    Senator Bennett. Absolutely.
    Senator Feinstein. Thank you.
    Senator Bennett. Thank you very much. We appreciate your 
being here.
    Again, we appreciate the openness with which the Capitol 
Police has addressed these problems. It is very refreshing. We 
want to be as helpful as we can.
    Mr. Ziglar. We look forward, Mr. Chairman, to coming back 
and telling you of the progress that we have made.
    Senator Bennett. Very good.
    [The following questions were not asked at the hearing, but 
were submitted to the Board for response subsequent to the 
hearing:]
            Questions Submitted by Senator Dianne Feinstein
    Question. With respect to the lack of an efficient financial 
management system, Booz-Allen, & Hamilton felt that a needs assessment 
would be the first step in determining the future financial needs of 
the USCP. Has the USCP conducted a comprehensive needs assessment to 
determine your future system capabilities?
    Answer. Over a year ago, the USCP Office of Financial Management 
began a preliminary needs assessment by investigating the Federal 
Financial Management Systems used by other federal agencies and cross-
servicing options. The General Accounting Office (GAO) was cooperative 
and anxious to provide assistance in the solution of the USCP's 
financial management system deficiencies. The financial management 
system used by GAO was also widely used and accepted throughout the 
federal financial community.
    The General Accounting Office (GAO) Financial Management System 
(FMS) is American Management Systems (AMS) software available on the 
GSA Financial Management System Software (FMSS) schedule. As a 
contractor on this schedule, the system is certified by the Operations 
Compatibility Verification Team consisting of representatives from the 
Office of Management and Budget, Department of Treasury, and the 
General Services Administration as being compliant with the Joint 
Financial Managers Improvement Program (JFMIP) Core Financial System 
requirements which includes the Federal Managers' Financial Improvement 
Act (FMFIA), CFO Act, and OMB Circulars A-127 and A-130 related to 
federal financial systems. The AMS FMS is currently used by 38 federal 
agencies including the Internal Revenue Service, U.S. Customs Service, 
U.S. Marshals Service, and the Federal Law Enforcement Training Center.
    The remaining internal requirements relative to proprietary 
managerial reporting within the USCP will be developed as part of the 
strategic planning process. The FMS System has the capability to 
provide for such reporting.
    Currently, the USCP is in the process of procuring a facilitator to 
develop a strategic plan, using the guidelines of the Government 
Performance and Results Act, and organizational information from key 
USCP staff. The strategic plan will include a comprehensive needs 
assessment to determine the future financial system requirements for 
the USCP.
    Question. What were the results of the assessment?
    The results of the assessment will be available at the completion 
of the USCP's strategic plan which is projected to be awarded and 
completed within six months.
    Question. BAH also indicated that they thought that a cross-
servicing arrangement would be the most efficient way to proceed, 
rather than the purchase by the Capitol Police of a new system 
outright. Do you agree and are you currently pursuing a cross-servicing 
agreement?
    Answer. If an existing federal financial system meets the future 
financial management needs of the USCP, to be determined in the USCP 
strategic plan, a cross-servicing agreement would be the most efficient 
way to proceed. The General Accounting Office completed a cost 
comparison analysis based upon current USCP operations. The GAO paper 
showed that significant savings would be achieved in salaries, 
contractor support services, licensing fees, and computer time through 
cross-servicing. Further, this arrangement is consistent with the 
strategies contained in the Legislative Branch Financial Managers' 
Council which promotes cross-servicing wherever possible to achieve 
cost savings.
    Question. What analysis was done to support such an arrangement?
    Answer. An analysis was done by GAO based upon the current 
operation of the USCP including the volume of USCP transactions. Cost 
estimates for two alternative cross-servicing arrangements were 
completed. An analysis of purchasing a system for the USCP was not 
completed, however, the licensing fee for a cross-serviced USCP is 
$55,000 which is based on 25 percent of GAO's licensing fee. A final 
analysis will be completed with the USCP strategic plan.
    Question. If the USCP enters into a cross-servicing arrangement, 
does the USCP currently have the staffing both in terms of numbers and 
skills to effectively utilize the enhanced capabilities?
    Answer. The USCP does not have the staffing in terms of numbers or 
skills to effectively implement and utilize the enhanced capabilities 
of a new financial management system. A reorganization plan has been 
proposed based upon the structure of other small federal agencies, 
which includes establishing several key positions with specific 
financial management skill sets. The plan includes positions to 
accommodate the additional workload to implement the recommendations of 
the Booz-Allen and Hamilton Review and additional continuing financial 
management accountability, control, and planning duties. Although a 
cross-servicing arrangement will provide the required hardware and 
software for a financial management system, the Capitol Police must 
have professionally trained staff to implement, operate, and maintain 
the USCP financial information in the system. A reevaluation of the 
reorganization plan will be completed with the development of the USCP 
strategic plan.
                        ARCHITECT OF THE CAPITOL

STATEMENT OF HON. ALAN M. HANTMAN, AIA, ARCHITECT OF 
            THE CAPITOL
ACCOMPANIED BY:
        MICHAEL G. TURNBULL, ASSISTANT ARCHITECT OF THE CAPITOL
        LYNNE THEISS, EXECUTIVE OFFICER
        AMITA POOLE, SUPERVISING ENGINEER, CAPITOL BUILDING
        STUART PREGNALL, BUDGET OFFICER

                            opening remarks

    Senator Bennett. All right, we will now hear from Mr. 
Hantman.
    Mr. Hantman. Change chairs?
    Senator Bennett. Change chairs.
    [Pause.]
    Mr. Hantman. Thank you very much, Mr. Chairman.
    Senator Bennett. All right. Mr. Hantman, you were 
mercifully ignored in the questions in the last panel, but I 
gather that will not happen this time.
    The Architect has requested $287.3 million and, excluding 
the funds that Congress provided last year for the visitors 
center, this is a 43 percent increase over the fiscal 1999 
level, and we will obviously want to hear about that.
    Now, you are joined by the new Assistant Architect of the 
Capitol, Mr. Turnbull, who joined the office last June. Mr. 
Turnbull, we welcome you to your first hearing.
    Mr. Pregnall, we welcome you as well.
    Now, in addition to the Y2K issue, the committee's top 
priority for the Architect of the Capitol is the implementation 
of a financial management system that meets Federal accounting 
standards. The system that is chosen must be designed and 
utilized to provide the financial information required by the 
authorization and appropriations committees. It is critical, 
given the increase in funds and projects that the Architect is 
engaged in.
    Mr. Hantman is a very ambitious Architect and has 
undertaken a number of projects, some of which are long 
overdue, and we congratulate you, sir, on your initiative in 
doing that. The Capitol visitors center of course is one of 
those, but it is also a project that clearly needs a good 
accounting system so that we can understand where we are and 
what we are getting for that.
    We have received your testimony, sir. We will include it in 
the record in its entirety.
    Senator Feinstein, do you have any comments before we go to 
the witness?
    Senator Feinstein. No, please go ahead.
    Senator Bennett. All right. Mr. Hantman, we are here to 
hear what you have to tell us.

                           opening statement

    Mr. Hantman. Thank you, Mr. Chairman. Of course I am 
pleased to appear here. This is the third time I have appeared 
before this committee and I certainly look forward to 
continuing to work with you and with Senator Feinstein. I think 
the links between the Rules Committee and this committee are 
very important, and I look forward to working with you in 
making sure that we have that tie-in.
    As you mentioned, Mr. Chairman, the body of our written 
statement pretty well focuses on the fiscal year 2000 
appropriation request and we certainly intend to talk about 
that today. But there are also several appendices to the 
statement that really deal with issues that are fundamental to 
how we are restructuring this agency. A lot of changes have 
occurred.
    I have been here 2 years now as of last month and a lot of 
new criteria, Congressional responsibilities, have been placed 
upon this agency that did not exist before--the Congressional 
Accountability Act, the AOC Human Resources Act. All of these 
things--the advent of unionization on the Hill, the issues of 
life safety, of security, are things that really have come to 
the fore much more so than they had in the past. All of these 
things are touched upon in specific appendices related to the 
financial analysis.
    But what I would like to do is give you kind of an overview 
on some of these issues, talk about them, and then come back to 
some of the clear, fundamental building blocks we need to 
address--obviously, Y2K, the FMS system, and several of the 
other issues.

                     Botanic Garden reconstruction

    First, on the Capitol side, you joined us, Mr. Chairman, to 
celebrate the groundbreaking for the Botanic Garden 
Conservatory some months ago. I would like to report that that 
project was awarded under budget. At this point in time we have 
Clark Construction out there, as you know. We met some of their 
officers at the groundbreaking. They are proceeding very well.
    Our goal is to have the construction completed by September 
of the year 2000. Concurrently with that, the National Fund for 
the U.S. Botanic Garden, which is a $10 million privately 
raised component of funding, to complete that block area, to 
have outdoor facilities such as interpretive learning centers 
and a first ladies garden and butterfly gardens, and things 
that work contiguously with the Botanic Garden. That is 
scheduled to be constructed and completed concurrently with the 
Botanic Garden. In fact, the new chairman, Theresa Heinz, we 
just met earlier this week on that and she is very excited 
about this and hopefully raising some additional private 
funding, which we would have to change the legislation to be 
able to accept more funding from the private sector for 
educational programs and things of this nature.

                           prepared statement

    So we are excited about that. We think that project is 
moving forward well.
    [The statement follows:]
                 Prepared Statement of Alan M. Hantman
               general introduction and executive summary
    Mr. Chairman, I am pleased to appear before this Subcommittee to 
present the budget for the Architect of the Capitol. I look forward to 
continuing to work closely with this Subcommittee under your leadership 
in an open, professional and constructive manner.
    The body of this written statement focuses, of course, on this 
Agency's fiscal year 2000 appropriation request. Some things, however, 
are not quantifiable even at a budget hearing, but they are important 
to know. This is so because the framework of our request, the 
foundation it is built upon, is fundamentally influenced by the new 
direction this Agency is taking in response to Congress' mandate to 
provide cost effective quality service in support of its day to day 
activities.
    We have, therefore, provided appendices to this statement that 
address issues that are basic to how we are now doing business, and 
form part of the rationale for various aspects of our operating costs 
and the capital budget. These appendices also report on how the Agency 
is working to accomplish the legislative imperatives that the Congress 
has directed us to conform to, including:
    The AOC Human Resources Act, approved in 1994 which directs the 
Agency to establish and maintain a personnel management system 
incorporating fundamental principles found in modern personnel systems.
    The Congressional Accountability Act which created the Office of 
Compliance and the Compliance Board. The Accountability Act, among 
other initiatives, permitted Capitol Hill employees to unionize for the 
first time and placed the AOC under obligations to meet occupational 
safety and health standards.
    (a) Labor Management Relations
    (b) Occupational Safety and Health (Life Safety)
    (c) Civil Rights Laws
    Security issues have continued to be a high priority. Funding has 
been provided to this agency and the Capitol Police Board for a wide 
range of security initiatives.
    These appendices therefore discuss these issues as well as 
providing overviews of the issues of life safety, security, Agency re-
engineering efforts, etc. as follows:
    Appendix A--Life Safety
    Appendix B--Security
    Appendix C--AOC Human Resources Act
    Appendix D--Congressional Accountability Act
    Appendix E--Labor Relations
    Appendix F--Re-engineering.--The first year of a three year buy out 
program approved in the Fiscal Year 1999 Legislative Branch 
Appropriations Act to facilitate our re-engineering efforts has been 
defined in detail. Approval to proceed has been received from the 
Senate and we are withholding implementation pending Committee on House 
Administration action, in accordance with the legislation.
    Appendix G--Capital Projects
    Appendix H--Year 2000 System Status
    Appendix I--Financial Management System
    All of the initiatives above are supported by our Vision Statement 
and Core Values developed through our strategic planning process:
    Vision Statement.--We will be an innovative and efficient team 
dedicated to service excellence and to preserving, maintaining, and 
enhancing the national treasures entrusted to our care.
    Core Values.--Service Excellence; Stewardship; Integrity; 
Professionalism; Creativity; Loyalty; Respect and Diversity; and 
Teamwork.
    The detailed actions described in the appendices are focused on 
rebuilding this Agency into a unified, yet flexible, responsive and 
quality oriented instrument of the Congress. A brief summary of actions 
to date includes:
    Capital Projects.--Initiating the planning, drawings, contracts and 
construction for work on the $148.8 million of capital projects funded 
in fiscal year 1999 such as:
  --Renovation of Dirksen Senate Office Building.
  --Replacement of East Plant Chillers.
  --Rayburn Building Telecommunications and Fire Sprinklers.
  --Replacement of Roof, Longworth House Office Building 6th and 7th 
        Floors.
  --Design of Upgrade to the Cable Television System.
  --Capitol Visitors Center--Note: We are defining the scope for the 
        first increment of planning and validation work, as required by 
        legislation, so that the authorization of funds can be sought 
        from the committees having overview authority.
    Also, a contract for renovation of the U.S. Botanic Garden 
Conservatory has been awarded within budget and is now under 
construction. The contiguous privately funded National Garden will 
follow shortly. Another significant project is the rehabilitation of 
the U.S. Capitol Dome. Initial portions of the study for necessary 
renovations of the Dome have been completed and a contract has been 
awarded within the emergency appropriations budget allocation to 
perform the complex task of removing lead-based paint in the 
interstitial space between the inner and outer domes, and, after study, 
repainting the metal. This will permit the necessary detailed 
inspection of all cast iron elements to clearly define the scope of 
work for subsequent phases. Actual work on the site is anticipated to 
commence in March, upon approval to close the Rotunda for two to three 
weeks to erect the protective netting.
    Operations, Personnel Policies and Procedures.--On the operations 
side we have initiated programs to:
  --Install the computer aided facility management system (CAFM) 
        selected to track, coordinate, record and evaluate work 
        management cost and staffing data throughout the campus, as 
        well as to provide enhanced space management capabilities.
  --Improve communications between the agency and our oversight 
        entities, our clients, and other instrumentalities of Congress.
  --Upgrade internal administrative systems to achieve a Year 2000 fix 
        for our procurement, financial and inventory operations while 
        working with the GAO and other Legislative branch agencies to 
        procure and implement a modern financial management system.
  --Continue to evaluate and make recommendations on necessary steps to 
        provide business continuity for Congressional operations in 
        regards to internal and external items possibly affected by the 
        year 2000 problem.
  --Initiate an agency wide strategic planning process and implement 
        the first segments of the re-engineering program developed 
        through that process.
  --Facilitate initiatives with Senate Rules and Administration, the 
        Senate Sergeant at Arms, as well as their counterparts on the 
        House side, and the Capitol Police, to coordinate services, and 
        eliminate overlapping functions.
  --Reorganize Central Staff to better support the work of all of our 
        jurisdictions.
  --Rebuild our Human Resources Management Division.
  --Develop standardized policies and procedures for use by all AOC 
        jurisdictions across the campus.
  --Provide management training programs for managers at all levels, as 
        well as developing training opportunities to further enhance 
        skills of our employees.
Vision and Goals
    I believe, Mr. Chairman, that it is important for the Congress to 
know the philosophical underpinnings of these efforts, the foundation 
we are building upon, because there is no ``quick fix'' solution to 
what is required to rebuild and re-engineer business practices in this 
agency. Through our strategic planning process, we are building an 
organization that will be able not only to support the day to day 
workings of both houses of the Congress in an equitable and 
professional manner, but one that will be fully capable of performing 
its duties long after all of us have left Capitol Hill. It is important 
for us to build not only for today but also for the future--not only in 
our capital and maintenance projects, but also to build the proper team 
to perform the necessary day to day functions and services of this 
agency. This effort requires flexibility, including developing the 
proper mix of in-house staff, contractors, (both private and public 
sector), and temporary employees to be called upon as work load 
necessitates.
Congressionally Mandated Changes
    Change is necessary to assure that this agency makes its values and 
its vision part of our ``corporate culture'' so that all staff members 
truly make them the foundation of our work, the basis for how we do 
business. Many issues were identified and mandated for change in the 
Architect of the Capitol Human Resources Act, and in the Congressional 
Accountability Act. These include the requirement to develop human 
resources management programs consistent with the practices common 
among other federal and private sector organizations. In response, this 
agency has begun initiatives to: more clearly define job descriptions 
and job expectations so that everyone will know the requirements to 
successfully perform their jobs; create a viable job performance and 
evaluation system so that constructive feedback can be given to improve 
performance where necessary, and to recognize and acknowledge those who 
provide quality service and work towards the achievement of our vision 
and goals; assure that uniform and fair standards are developed, 
implemented and used throughout the Agency to the greatest extent 
possible with respect to working conditions, job postings, upward 
mobility, etc.; create a viable equal employment and conciliatory 
programs function that can fairly and efficiently address employee 
concerns in line with the Congressional Accountability Act; provide 
training opportunities to further enhance the trade and professional 
skills of our employees, including helping supervisors better 
communicate with, and monitor the work of, those who report to them.
    These initiatives are all in process and are part of the foundation 
upon which this Agency is being rebuilt. The Congressional 
Accountability Act created the Office of Compliance with the powers to 
monitor compliance with the Act, and granted the employees of this 
agency, among others on Capitol Hill, the right to form unions. As you 
are aware, AFSCME Local 26 has been designated to represent over 600 of 
our custodial and labor employees, and we are in the process of working 
with the union on a range of issues. Also, at this time, our Botanic 
Garden employees and a group of our temporary plumbers have formed 
collective bargaining units and are now represented by unions.
Review and Evaluation Methodology
    In order to address these realities and comply with these laws, 
this Agency has been undergoing an intensive review of all of its 
operations with the goal of continuously refining and improving the 
quality of our services to Congress and our visitors to Capitol Hill, 
while at the same time responding to the requirements of the laws 
addressed to our employees. As part of this review we are investigating 
how to minimize costs and maximize the efficient delivery of our 
services in fulfillment of our fiduciary responsibilities to the 
American Taxpayer.
    This is in line with recommendations regarding future restructuring 
of the Office of the Architect of the Capitol, which included 
investigating sensible ways to streamline the Architect's operation and 
logical areas in which to involve the private sector. Specifically, 
consideration of the private sector was suggested for routine 
maintenance and remedial work, in addition to the major AOC projects 
which are generally competitively awarded to private sector firms. Our 
on-going investigation therefore includes in-depth evaluations of: 
Logical areas in which to involve the private sector; Internal 
opportunities to re-engineer and consolidate existing staff and 
Opportunities to eliminate duplication of services with other 
instrumentalities of the House and Senate.
    To carry out this re-engineering process, this Agency has been 
authorized, subject to approval by our oversight committees, to 
implement early out and buy out programs.
Fiscal Year 2000 Budget Overview
    I would like to briefly address our fiscal year 2000 budget 
request. The Operating Budget requested for fiscal year 2000, 
$168,366,000, represents a 10.7 percent increase in operating costs. 
Thirty eight percent is due to mandated pay and benefits costs, thirty 
three percent is related to utility increases (mainly related to a 40 
percent water and sewer increase), and 17 percent is related to 
information resources management. It is hoped that future operating 
budget cost savings will be achieved through a three (3) year re-
engineering effort starting in fiscal year 1999 and continuing in 
fiscal years 2000 and 2001. Savings will be reflected in subsequent 
budgets. As stated earlier, House approval to implement the first year 
of the program is currently pending.
    The request in the Capital Projects portion of the budget is 
significant, $118,907,000. The magnitude of the fiscal year 2000 total 
for cyclical maintenance projects is very much in line with what we had 
projected in the benchmark analysis discussed in my last year's budget 
presentations. That analysis indicated that a ``campus-like'' complex 
of this age, monumental quality and magnitude could expect to expend an 
annual average of approximately 1.7 percent of the replacement value of 
the buildings and infrastructure. Based upon an estimated replacement 
value of $3.6 billion, 1.7 percent would equate to an average target 
reinvestment level of $61.0 million. Because of under investments in 
past years, we are now faced with an above average balloon payment of 
$102.6 million for cyclical maintenance projects. Each project must of 
course stand on its own, and we stand ready to discuss the validity of 
each of the 139 fiscal year 2000 projects at your convenience. They 
have been categorized and prioritized into Life Safety, Security, etc., 
for the purpose of analysis and decision making.
    Significant project costs included in this request are the 
Renovation of the Dirksen Building, and on the House side, the Cannon 
Garage renovation and the House Chamber Sound System. As I stated at 
last year's hearing, the ongoing study of the necessary repairs and 
repainting of the Capitol Dome would most likely lead to identification 
of increased complexity, and scope of the project, and therefore, cost. 
This project accounts for $28 million of the fiscal year 2000 budget 
request. The overall budget request is discussed in detail below. 
Several graphs follow which provide summary information on the budget 
request. The ``Fiscal Year 2000 Operating and Capital Budget by 
Categories'' breaks out the operating and capital request by 
significant categories. The ``Fiscal Year 2000 Operating and Capital 
Budget'' reflects the history of the Architect of the Capitol's budget 
since fiscal year 1993. The ``Fiscal Year 2000 Capital Requests by 
Category'' reflects the capital project categories and number of 
projects and funding requested in each. 
[GRAPHIC] [TIFF OMITTED] T08MA03.000


[GRAPHIC] [TIFF OMITTED] T08MA03.001


[GRAPHIC] [TIFF OMITTED] T08MA03.002


    In closing this introductory section Mr. Chairman, I believe that 
we are creating a foundation of communication and commitment to 
efficient quality service that has already begun to show positive 
results. I look forward to working with you and this Subcommittee in 
the coming year.
           role of the office of the architect of the capitol
    Mr. Chairman, I would like to take a brief moment to describe 
broadly the role of the agency before I describe our fiscal year 2000 
budget request and the changes that I see on the horizon. By law, the 
Office of the Architect of the Capitol (AOC) is the agency responsible 
for the structural and mechanical care, maintenance, cleaning, and 
operation of the buildings and facilities supporting the Congress, 
including the Capitol Power Plant. This responsibility extends to the 
Botanic Garden, the structural and mechanical care and maintenance of 
the Library of Congress Buildings and Grounds, as well as the Supreme 
Court Building and grounds which is funded in a different appropriation 
bill. The office also undertakes the design and construction of new 
facilities and the alteration of existing facilities.
    This Agency has focused significant energy on its first strategic 
planning process. The initial steps of this process involved seeking 
and considering guidance from this Committee as well as our other 
oversight bodies, and have led to the development of a vision of how we 
should proceed to structure our organization to deliver quality 
services to the Congress. The next steps in this process include 
developing specific action plans to achieve our stated goals. A guiding 
philosophy in this strategic planning process includes the need to be 
responsive to our oversight bodies.
    In performing our role, the AOC utilizes staff and private 
consultant expertise to provide the Congress with professional, timely 
and cost effective recommendations. The AOC also manages trade and 
service personnel who are charged with ensuring that the building 
systems operate efficiently and reliably in support of Congressional 
activities. The AOC also administers a wide variety of contracts for 
facility maintenance, professional design, technical and other 
services.
    Critical to achieving this role is the institutional knowledge that 
has accrued in the agency. The value of the long term role of the 
Architect as a neutral and professional advocate for the physical 
environment of the Capitol Complex has been historically recognized by 
the Congress, most recently when it established a ten year renewable 
term for the Architect. Such an advocacy role is no less appropriate 
for the core professional and trades staff. The merit of maintaining a 
long-term view for preserving and protecting the historical environment 
is self-evident. To the credit of the agency, Congressional activities 
have never been interrupted by failure of any major building system. I 
might add parenthetically at this time that since taking office I have 
come to appreciate the value of the institutional knowledge that 
permeates this agency. Considering the responsibilities of our Agency, 
those who provide the services are our greatest asset in carrying out 
our mission to the Congress. All re-engineering efforts we undertake 
recognize the devotion and service of our employees to the agency and 
to the Congress over many years and that they are to be treated, in a 
considered, caring and humane manner. The attached graph ``Full-Time 
Equivalent Employment Budget'' reflects the actual and projected 
reductions in the Architect of the Capitol's employment. 
[GRAPHIC] [TIFF OMITTED] T08MA03.003


    It goes without saying that many of the Congressional buildings are 
national treasures and require intimate knowledge and significant 
planning for their preservation. The U.S. Capitol, which is ``the 
people's building,'' for example, is a unique combination of National 
Capitol, museum, office building, meeting center, ceremonial site, and 
tourist attraction. The building's systems are required to support all 
of these activities while maintaining a secure and safe environment, 
and its architectural design, decorative arts and historical 
significance must all be carefully considered before undertaking any 
work or implementing any changes to the building.
    Another benefit of the neutral, bicameral role of the AOC is the 
ability to provide technical and professional coordination of ``joint'' 
activities. Over the years, the role of the office has broadened as a 
result. There are now functions and activities, such as the shuttle 
service and telecommunications, as well as Inaugural and Rotunda 
ceremonies, conducted or supported by the AOC, that are often not 
recognized as being within the scope of the office's professional, 
architectural and engineering roles, yet the Congress has acknowledged 
the merit of the AOC's neutral, bicameral coordination capacity.
    For over 200 years, an officer discharging the role of the 
Architect of the Capitol has provided to the Congress credible, 
professional expertise on these matters. During this time, the 
institution of the Congress has been served by an agency that has 
responded to changing Congressional needs, and will continue to do so.
                   fiscal year 2000 operating budget
    The past two years' appropriations requests were based on a 
comprehensive agency-wide planning and coordination process including 
all cyclical maintenance projects and building system enhancements. The 
thorough, systematic and programmed analysis led to a proposed five-
year capital budget based on that planning. The current request is 
prioritized into the categories of Life Safety, Security, Cyclical 
Maintenance, Technology and Management Systems, etc. I will now discuss 
our fiscal year 2000 budget request in detail. There are two major 
components to this budget request: an Operating Budget and a Capital 
Budget, as described below. The total budget that I bring to this 
Committee today amounts to $287,273,000, comprised of $168,366,000 for 
operating costs and $118,907,000 for capital costs. That amount, 
adjusted to reduce the House items, totals $233,884,000, of which 
$136,759,000 is for operating costs and $97,125,000 is for capital 
costs.
    Increases in the costs that comprise the operating budget totaling 
$168,366,000--that is, those costs that support operations and 
maintenance, including salaries, have risen by 10.7 percent. Most of 
this increase is attributed to increases in personal services, 
$6,162,000, utilities, $5,418,000, (which is mainly due to the 40 
percent increase in water and sewer rates) and $2,765,000 for 
information resource management. Increases for the maintenance of fire 
and life safety systems and other workload and price level changes have 
also been requested.
    There are opportunities for future savings within our operations 
budget, some of which will require modest investments to achieve, and 
others which we are proceeding with at this time. Under the overall 
category of ``utilities,'' we are confident that investing in modern 
automated control systems at the Power Plant will lead to more 
efficient use of fuels, and reduce the need for staff that presently 
manually monitor the heating and cooling equipment. We are presently 
evaluating two dozen proposals from firms to design these systems. 
Additionally, we recently completed the installation of energy 
efficient lighting fixtures across the campus. These lighting fixtures 
are already saving electrical energy. But the true savings will not be 
realized until after the contractor is reimbursed for the installation 
cost over an eight year period. As required by the Fiscal Year 1999 
Legislative Branch Appropriations Act, fiscal year 2000 funds have been 
requested to perform an energy survey of all Congressional buildings to 
identify energy conservation measures to achieve a 20 percent energy 
reduction by 2005. Further, although funds are not requested in this 
budget, we are proposing to our authorizing committees that a public/
private partnership be created to build a co-generation plant to assure 
an inexpensive and constant electrical source for the future.
    The following table indicates these increases by appropriation.


--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year 1999 Budget        Fiscal Year 2000 Request                 Change
                                                         -----------------------------------------------------------------------------------------------
                                                                FTE           Dollars           FTE           Dollars           FTE           Dollars
--------------------------------------------------------------------------------------------------------------------------------------------------------
Capitol Buildings Operating Budget......................             388      32,938,000             388      39,391,000  ..............      +6,453,000
Capitol Grounds Operating Budget........................              75       5,126,000              75       5,378,000  ..............        +252,000
Senate Office Buildings Operating Budget................             609      37,884,000             609      39,828,000  ..............      +1,944,000
House Office Buildings Operating Budget.................             649      30,115,000             649      31,607,000  ..............      +1,492,000
Capitol Power Plant Operating Budget....................              97      32,529,000              97      38,318,000  ..............      +5,789,000
Library Buildings & Grounds Operating Budget............             144       9,505,000             144      10,466,000  ..............        +961,000
Botanic Garden Operating Budget.........................              50       3,052,000              50       3,378,000  ..............        +326,000
                                                         -----------------------------------------------------------------------------------------------
      Total.............................................           2,012     151,149,000           2,012    168,366, 000  ..............     +17,217,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

               fiscal year 2000 five year capital budget
    The fiscal year 2000 capital budget request I present to you today 
flows from the five-year capital budget presented by this agency. It is 
grounded in a comprehensive and systematic agency-wide planning effort 
with in-depth involvement by all of the agency's clients. On the Senate 
side we included the Sergeant at Arms and the Secretary of the Senate. 
On the House side, we included the Sergeant at Arms, the Chief 
Administrative Officer and the Clerk of the House. The U.S. Capitol 
Police provided a detailed outline of their needs, and the Librarian of 
Congress was also extensively involved. A total of 209 capital projects 
have been identified for the five year period.
    There is a need to provide the Congress with such a five-year 
capital improvement budget to assist the Congress in making the wisest 
and best informed financial judgments based on a formal evaluation of 
future cost implications and with the assurance that we have undertaken 
a rigorous examination of related needs.
    The projects included in this budget, therefore, reflect all the 
needs that have been identified to date. We reviewed all of the 
projects that were requested and not funded last fiscal year to 
determine if they should be included in this year's request. We also 
closely examined all those projects that, based on last year's plan, 
had been projected for this fiscal year's request to make sure that 
their inclusion was also still valid. As stated above, also included 
are several significant new projects that were not envisioned last year 
for this budget. These are primarily in the fire and life safety areas 
and also include several client initiatives. We have adjusted the out 
years accordingly and I will continue to evaluate these needs and to 
update them to ensure that the capital budget is responsive to 
budgetary issues, programmatic changes, the condition of the buildings 
and their systems, and any other needs that may arise.
    At prior hearings, we discussed the potential of a future ``balloon 
payment'' that might result from the accumulated costs of deferred 
maintenance. I indicated that based on several infrastructure re-
investment models we were targeting an average annual reinvestment rate 
of approximately 1.7 percent of the replacement value as an order of 
magnitude funding level for the Capitol complex. Last year that figure 
amounted to roughly $59.3 million, which was in line with the 
$60,500,000 that we had requested for reinvestment. The actual funding 
that was approved totaled $43,700,000, thus leaving a one year 
reinvestment funding gap of $16,800,000. Based on the 1.7 percent 
benchmark, the reinvestment gap for fiscal years 1993 through 1999 
totals more than $155 million. For this reason we are requesting funds 
in fiscal year 2000 and projecting requirements in fiscal year 2001 
that exceed the average reinvestment benchmark. The attached graph 
``Cyclical Maintenance and Building Renovations'' charts the 1.7 
percent benchmark and the actual projected reinvestment in the Capitol 
complex. Also attached is a table on reinvestment ``Benchmark Data''. 
[GRAPHIC] [TIFF OMITTED] T08MA03.004



                 Architect of the Capitol benchmark data

                    [Fiscal year 2000 funding levels]

Current Facility Replacement Value......................  $3,600,000,000
                    ========================================================
                    ____________________________________________________
                                                          Annual renewal
                                                              percentage

AOC Benchmark (Based on Universities of Illinois, 
    Michigan, and Stanford and the Army Corps of 
    Engineers)..........................................            1.7 
Army Corps of Engineers (Budget Objective)..............            1.75
University Federal Research Cost Recovery (OMB A-21)....            2.0 
Conservative Commercial Depreciation at 40 Years (IRS 
    will accept a faster depreciation rate).............            2.5 
National Research Council of the Academy of Sciences:
    Low Range...........................................            1.5 
    High Range..........................................            3.0 
Fiscal year 2000 Capital Request (Request $118,900,000, 
    Less $16,300,000 Related to Technology/Management 
    Systems, Security, and New Facilities)..............            2.8 



    The capital budget that is being presented today is part of a 
multi-year funding plan that provides the Congress a clear view of what 
it will cost to maintain the Legislative Branch infrastructure in 
proper operating condition. The capital budget also identifies 
improvements that respond to new legally imposed standards and 
guidelines, such as improvements to meet the requirements of the 
Americans with Disabilities Act and the occupational safety and health 
standards especially as they relate to life safety issues. There are 
also several projects that will enhance the operations of the Congress, 
as well as new projects requested by our clients to serve their 
programmatic needs. Balancing the needs of maintaining the existing 
infrastructure while keeping pace with technological enhancements and 
program needs is clearly costly and it is sometimes difficult to spread 
these costs out over time in order to avoid significant peaks in the 
budgeting process. But I firmly believe that deferring these 
infrastructure reinvestment costs in the short to mid term can 
ultimately lead to far greater costs in the future. We are all also 
aware of the effect that technological pressures can have on aging 
building systems, especially from the perspective of being capable of 
delivering new telecommunications technologies.
    As discussed above, these projects have been categorized into 
similar types of projects that reflect various initiatives that we are 
now faced with. These include categories such as Life Safety, ADA, 
Security, Cyclical Maintenance, Technology--Management Systems and 
Improvement. The Improvement category has been broken out to reflect 
``Client'' requests and AOC initiatives. There are several client 
requests included in the Security and Life Safety categories.
    The following table ``Fiscal Year 2000 Budget Request by Category'' 
reflects the fiscal year 2000 capital request and the number of 
projects in each category along with the corresponding percentages. The 
same data is also reflected less the House Office Buildings.

    ----------------------------------------------------------------

                      ARCHITECT OF THE CAPITOL FISCAL YEAR 2000 BUDGET REQUEST BY CATEGORY
----------------------------------------------------------------------------------------------------------------
                                                                             Excluding House office buildings
                                Fiscal year                             ----------------------------------------
           Category                 2000     Percent   No. of   Percent  Fiscal year
                                  request             projects               2000     Percent   No. of   Percent
                                                                           request             projects
----------------------------------------------------------------------------------------------------------------
Life safety...................  $16,063,000     13.5       29      20.9   $9,556,000      9.9       18      15.9
ADA...........................    2,650,000      2.2        6       4.3    2,650,000      2.7        6       5.3
Security......................    2,550,000      2.1        5       3.6    2,550,000      2.6        5       4.4
Cyclical maintenance/            18,870,000     15.9        5       3.6   18,420,000     19.0        4       3.6
 improvement..................
Cyclical maintenance..........   54,319,000     45.7       58      41.7   43,739,000     45.0       51      45.1
Technology/management systems.    9,250,000      7.8        9       6.5    9,250,000      9.5        9       8.0
Improvement:
    AOC.......................    4,400,000      3.7       12       8.6    4,340,000      4.5       11       9.7
    Client....................   10,805,000      9.1       15      10.8    6,620,000      6.8        9       8.0
                               ---------------------------------------------------------------------------------
      Total...................  118,907,000    100.0      139     100.0   97,125,000    100.0      113     100.0
----------------------------------------------------------------------------------------------------------------

    ----------------------------------------------------------------

    A more detailed explanation of these categories follows.
    Life Safety--These are programs essential for complying with 
occupational safety and health standards, environmental and hazardous 
material protection, fire code compliance, and other regulatory matters 
affecting the general health and welfare of building occupants. The 
Congressional Accountability Act has placed significant emphasis on 
ensuring that the Capitol complex is free of hazards to the Members, 
Senators, staff and visitors.
    ADA--These are programs essential for complying with the Americans 
with Disabilities Act of 1990. Passage of the Congressional 
Accountability Act has reinforced the resolve to ensure that the 
Capitol complex is free of barriers to the Members, Senators, staff and 
visitors.
    Security--These are programs to meet the needs created by increased 
terrorist activity throughout the world. As a result there is a 
heightened sensitivity toward threats to security at the Capitol 
complex. In addition there are security needs to protect property such 
as the collections at the Library of Congress.
    Cyclical Maintenance--Several of the buildings in the Capitol 
complex are reaching an age and condition that necessitate major 
renovation or replacement of building systems. Various improvements are 
recommended to assure that these building systems continue to provide 
service to occupants.
    Technology--Management Systems--These are programs that reflect the 
internal (AOC) use of computer applications and telecommunications 
systems to improve the efficiency and effectiveness of operations.
    Improvement--Technology is changing far more rapidly than our 
existing building infrastructures can support and adapt to. This is 
especially true in the rapidly expanding area of telecommunications, 
but there is a corollary effect that is felt in any building system 
that uses any sort of electronic technology for operation or support. 
These are programs that reflect either the replacement of existing 
building systems to generate a significant operational improvement or 
benefit, or the installation of a new type of technology or system to 
create such an improvement or benefit.
    It is important to note that over $12.5 million of the $118.9 
million requested in fiscal year 2000 is for capital projects related 
directly to client requests, i.e., $6,350,000 for the Library of 
Congress, $5,380,000 for the House Chief Administrative Officer and the 
$785,000 balance by various Senate and House offices. I should point 
out that 6 major projects account for over 55 percent of the capital 
budget request: the Capitol Dome Project ($28 million), which is based 
on the parts of the ongoing project studies that have been completed to 
date, the Dirksen Building Renovation ($18 million), the Cannon Garage 
Renovation ($9 million), the Russell Subway Renovation ($6 million), 
and the replacement of Chillers at the Capitol Power Plant ($5 
million).
    The fiscal year 2000 budget request for the Architect of the 
Capitol also has been prioritized as directed by the House and Senate 
Committees on Appropriations. I have sub-divided the former three-
tiered system further to give greater detail to the Committees for 
their decision-making. The requested items now are identified by the 
following priority levels: 1-A, 1-B, 1-C, and 2-A, 2-B, and so on 
through 3-C at the lowest end of the priority scale.
    Both the categories and priorities will assist the Committee in its 
decision-making process. Clearly this request is large, and I am aware 
of the overall budgetary constraints and the realities of providing 
funding for all these requests. I want to assure the Committee that we 
will work with you and provide our best recommendations as the budget 
review process proceeds.
    It is also important to recognize that these requirements do not 
simply disappear if deferred. If projects requested for fiscal year 
2000 are deferred, the costs to accomplish them will rise due to added 
deterioration, increased maintenance costs to sustain the systems in 
the interim, inflation, and fluctuations in market conditions. The 
deferred projects also will then add to the fiscal year 2001 funding 
need.
    In past testimony, I detailed many of the reasons that there was 
such a large increase in the funding level required for the maintenance 
of our campus infrastructure. Rather than repeat those reasons 
verbatim, I will highlight them here:
  --Replacement of Aging Building Systems.--Several of the buildings in 
        the Capitol complex are reaching an age and condition that 
        require major renovation or replacement of building systems.
  --Technological Advances.--Technology, especially in 
        telecommunications, is changing far more rapidly than our 
        existing building infrastructures can support and adapt to.
  --Regulatory Compliance Requirements.--Programs essential for 
        complying with the Americans with Disabilities Act, the 
        occupational safety and health standards, security, life/
        safety, and environmental and hazardous material protection 
        have received very high priority in terms of advancing the 
        timetables for completion due largely to passage of the 
        Congressional Accountability Act.
  --Security.--Terrorist activity throughout the world has increased, 
        and as a result there is a heightened sensitivity toward 
        threats to security at the Capitol complex.
  --Infrastructure Reinvestment.--Replacement Value--We have developed 
        an annual investment rate of 1.7 percent of the replacement 
        value of the Capitol complex (exclusive of new construction) as 
        an order of magnitude guide for capital funding levels. In 
        comparison, the fiscal year 2000 request related to existing 
        facilities of $102.6 million is above this target due to the 
        funding gaps discussed earlier.
    The following table summarizes the funding levels presented in the 
five-year capital budget by category. Again, these categories include 
Life Safety, ADA, Security, Cyclical Maintenance requirements, 
Technology and Management Systems, and infrastructure Improvements. 
These five year projections will be reviewed, modified and updated each 
year as new information becomes available through detailed studies and 
evolving needs and priorities.

                                                              FIVE YEAR CAPITAL PROJECTIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                            Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year      Five Year
                        Category                               2000            2001            2002            2003            2004            Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Life Safety.............................................     $16,063,000     $19,910,000      $2,369,000        $800,000        $600,000     $39,742,000
ADA.....................................................       2,650,000       3,050,000       1,850,000       1,850,000         300,000       9,700,000
Security................................................       2,550,000      19,312,000       1,850,000      13,550,000         550,000      37,812,000
Cyclical Maintenance--Improvement.......................      18,870,000      25,059,000       1,950,000       5,575,000       5,350,000      56,804,000
Cyclical Maintenance....................................      54,319,000      38,437,000      23,664,000      30,324,000      17,336,000     164,080,000
Technology/Management Systems...........................       9,250,000       3,560,000       2,480,000       2,210,000       1,340,000      18,840,000
Improvement:
    AOC.................................................       4,400,000      17,026,000       3,894,000       4,150,000       2,100,000      31,570,000
    Client..............................................      10,805,000      23,155,000      28,200,000      56,050,000      13,800,000     132,010,000
                                                         -----------------------------------------------------------------------------------------------
      Total.............................................     118,907,000     149,509,000      66,257,000     114,509,000      41,376,000     490,558,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Mr. Chairman, I also wish to point out that this budget was 
prepared with the intent of requesting planning and design funding well 
in advance of large renovation and construction projects such as 
replacing the legislative call system and clocks, upgrading air-
conditioning--East Front Capitol, replacing high voltage switch gear 
and cables, House Chamber improvements, Senate Garage renovations, 
thermal storage and upgrading the book conveyor system in the Jefferson 
and Adams Buildings. Only design funding is requested for these large 
capital projects in fiscal year 2000 in order to prepare detailed 
designs and firm cost estimates for justifying appropriations requests 
for construction in later years.
    The following table indicates the capital budget increases for 
fiscal year 2000.

----------------------------------------------------------------------------------------------------------------
                                        Fiscal Year      Fiscal Year
          Capital Projects              1999 Budget      2000 Request        Change           Major Projects
----------------------------------------------------------------------------------------------------------------
Capitol Buildings: Capital Budget--       $10,745,000      $48,190,000     +$37,455,000  Rehabilitate Dome--
 39 projects.                                                                             $28,000,000; HRMD
                                                                                          Systems Development--
                                                                                          $3,600,000; Financial
                                                                                          Management System--
                                                                                          $3,300,000; Energy
                                                                                          Survey of Capitol
                                                                                          Complex--$2,000,000.
Capitol Grounds: Capital Budget--5            920,000          615,000         -305,000  ADA Requirements--
 projects.                                                                                $330,000; Renovation
                                                                                          of Former DC
                                                                                          Streetlights--$100,000
                                                                                          .
Senate Office Buildings: Capital           16,260,000       31,564,000      +15,304,000  Renovate Mechanical,
 Budget--28 projects.                                                                     Telecom & Restrooms,
                                                                                          DSOB--$18,000,000;
                                                                                          Upgrade Russell-
                                                                                          Capitol Subway--
                                                                                          $6,000,000.
House Office Buildings: Capital            12,024,000       21,782,000       +9,758,000  N/A.
 Budget--26 projects.
Capitol Power Plant: Capital Budget--       5,645,000        6,757,000       +1,112,000  East Plant Chiller
 10 projects.                                                                             Replacement--$5,000,00
                                                                                          0; Optimization of CPP
                                                                                          Operations--$500,000;
                                                                                          Thermal Storage
                                                                                          Facility--$500,000.
Library Buildings & Grounds: Capital        3,167,000        9,405,000       +6,238,000  Construct Book Storage
 Budget--25 projects.                                                                     Modules 2,3, & 4 Ft.
                                                                                          Meade--$4,000,000;
                                                                                          Collections Security--
                                                                                          $1,000,000.
Botanic Garden: Capital Budget--6     ...............          594,000         +594,000  N/A.
 projects.
                                     ---------------------------------------------------------------------------
      Total.........................       48,761,000      118,907,000     +70,146,0 00
----------------------------------------------------------------------------------------------------------------

    I assure you that I will continue to work closely with you and the 
Committee to review these requests to achieve a rational and adequate 
funding level to support the needs of Congress.
 strategic business planning effort: goals and processes for sensible 
                         agency re-engineering
    Clearly one of the greatest changes facing this agency has been to 
respond to the question of how to determine the appropriate resource 
levels necessary to meet our customers' needs. Recognizing that over 
the past seven years this agency has reduced FTE's by over 16 percent, 
we began a thorough re-examination of our agency through a management-
wide strategic planning process. With the core values defined, and 
focusing on service excellence, we evaluated alternatives to see what 
would be required to fulfill our congressional support role: including 
employing technology and best business practices, and the realignment 
of resources to fulfill our role. A second major aspect of this process 
has been to strengthen lines of clear and open communications between 
this agency and other support agencies as well as key Committees and 
staff. We have begun the implementation of necessary modern and 
efficient business procedures and systems to bring this agency into the 
21st century.
    We have addressed these concerns at every level in this initiative, 
and I would like to describe in some detail the results of our efforts 
thus far. In order to make reasoned and balanced recommendations to 
Congress I initiated a review and evaluation of three basic sources of 
information, each of which is required in order to develop a balanced 
profile of how the agency should be constituted and what policies and 
recommendations should be formulated. The first source of information 
was to speak with every individual within the agency. Soon after I took 
office I met personally with every key manager, and scheduled ``town 
hall'' type of meetings with all other members of the agency. I sought 
to hear what every AOC person thought about the present status of the 
agency and what the future direction of the agency should be. I 
encouraged communication, in private if necessary, on areas where staff 
were aware or suspicious of fraudulent, wasteful or abusive actions, 
and I also encouraged open expression of their views of how the 
agency's policies, procedures and management level respected employee 
rights and promoted a productive and positive workplace.
    The second source of information was through meeting with Senators 
and their staffs to see how well we were performing in terms of 
customer satisfaction. I also opened dialogues with my fellow House and 
Senate officers, including the Senate Sergeant at Arms and the 
Secretary of the Senate, seeking areas where we might together improve 
service delivery, or align our missions and structures more logically 
to eliminate duplicative efforts.
    Finally, the third source of information was to continue obtaining, 
reviewing and analyzing outside impartial resource information. I have 
broadened the scope of our preliminary peer group benchmarking analyses 
to include virtually all maintenance and technical functions. To carry 
out this peer group benchmarking, we embarked on a series of interviews 
with major corporations, building management and trade research 
organizations, and government agencies to see how we compare in terms 
of organizational philosophy, the relative mix of in-house and 
outsourced functions, the use of computerized facility management 
systems, and the types of maintenance and operations standards and 
performance metrics they use. Benchmarking and information gathering 
efforts will continue and be constantly updated.
    I have been reviewing and evaluating our operations, especially as 
they relate to quality service delivery, efficiency and who delivers 
each service. The process has involved a task force composed of the 
Superintendents of the House and Senate Office Buildings, and the 
Capitol Building, as well as the other jurisdictional areas within the 
agency. What I found was that significant re-engineering has already 
occurred throughout many areas of our jurisdiction. Some general 
examples include:
  --Changing tours of duties to accommodate reduced FTE's and still 
        respond to Congressional needs
  --A consolidation of shops within both the House and Senate office 
        buildings allowed for a reduced number of supervisors
  --Use of Job Order Contracts to perform small renovation projects 
        where it is more advantageous to have private sector 
        involvement rather than using our in house forces
  --Outsourcing of many areas of technical expertise, using private 
        sector contractors for design, estimating, legal and dispute 
        resolution services
  --Increased use of private sector vendors for custodial services, 
        having contracted out the Ford Building on the House side and 
        Webster Hall and Postal Square on the Senate side
  --Use of temporary staff for seasonal, short term, and renovation 
        work rather than staffing with long term FTE
    These new processes have been tested and implemented, best business 
practices confirmed with other facility managers, economic savings 
verified, and will be used as models as we continue our evaluations.
    I believe that the final configuration of this agency will maintain 
continuity of services by using a balanced mix of core staff with their 
institutional knowledge, quality assurance and dedication of service, 
as well as a flexible mix of outside vendors, private and public sector 
contractors, and temporary staff to provide cost effective, quality 
service to the Congress.
                              human factor
    At my request in 1997 the Senate authorized a limited two year buy 
out and early retirement program for the Senate Restaurants. The goal 
was to quickly re-engineer the functions of the Restaurant since the 
operation was losing money. That process was sensitively handled in 
conjunction with OPM, and some 40 employees opted to take early outs 
and buy outs. As a result we were able to re-engineer the Restaurant 
functions and we are now greatly reducing costs. We learned through 
this experience that with proper planning and implementation these are 
effective tools for re-engineering, and in fiscal year 1998 I proposed 
using this program as a model for additional efficiency initiatives. 
Both the House and the Senate agreed to a three year buy out-early out 
authority for selected areas of the agency with approval necessary for 
the initiatives for each of the three years. A plan was prepared and 
presented for the first years re-engineering program utilizing this 
authority. To date we have received approval from the Senate and are 
awaiting the Committee on House Administration's approval.
    As with the Restaurant program, funding for early out and buy out 
packages will be derived from the existing staff's budgeted costs for 
that fiscal year. The following fiscal year would be the point where 
any significant cost savings would begin to accrue as a result of such 
re-engineering.
    This type of program has been successfully used by the Library of 
Congress, the Government Printing Office, and especially by the General 
Accounting Office, which has given us much valuable information on 
their re-engineering efforts. The success already experienced in these 
several areas demonstrates that such programs are a valid way to 
achieve re-engineering and staffing mix adjustments. Significant re-
engineering must take into account succession planning to retain skills 
and knowledge lost when senior and long term staff leave. Some of that 
succession planning requires retraining existing staff to become multi-
skilled workers to take on a multitude of tasks. Some retraining is 
also needed to respond to new technologies that are advancing, 
especially in the areas of computer aided facilities management.
                               conclusion
    The task of completing the assessment of the agency's strengths and 
weaknesses, viewing them from a fresh perspective and striving to 
implement sensible and realistic conclusions is complex, but much 
progress has been made. I will continue with this rigorous examination 
of our services, how they compare with the private sector, and how the 
delivery of those services is viewed by our clients. This is an ongoing 
process.
    In conclusion, with respect to the capital budget, I readily 
acknowledge that the amount requested is large, and understand the 
pressures to achieve a balanced Federal budget in fiscal year 2000. The 
nature of our aging facilities, security and technology improvement 
needs, life safety and other mandated issues, all weigh in favor of 
funding the recommended projects. I know that this Committee and the 
Congress realize, that many of these projects are clearly necessary to 
properly conserve the ``peoples building'' and supporting structures 
for future generations.
    With respect to the operations budget as it relates to our mission 
and services, I am committed to continuing the process of re-
engineering the agency to develop an organization that will deliver 
efficient and cost effective services in a professional, equitable and 
bicameral manner. I will continue to report periodically on our 
progress as we examine these issues. I believe that we can become more 
effective and more cost-efficient and while fulfilling the core mission 
of the agency. With respect to our dedicated employees, I believe that 
we must be sensitive to their needs and humane as we proceed. The 
Office of the Architect of the Capitol will continue to be professional 
and effective in meeting the challenges ahead.
    Mr. Chairman, that concludes my statement and I shall be pleased to 
respond to any questions that you and the Committee may have.
                                 ______
                                 

                               Appendix A

 Architect of the Capitol Initiatives in Life Safety, Fiscal Year 2000 
                        Appropriations Hearings
                              introduction
    Over the past several years, the agency has undertaken a host of 
life safety initiatives. In the past year, however, due to an 
unprecedented series of small fires within the House office buildings, 
focus has been brought to bear on fire safety programs. Although no 
serious damage or personal injury was caused by the fires, the agency 
undertook a systematic and total review of the fire safety program. The 
agency found a general lack of consistency with the manner in which 
fire safety systems had been planned and carried out in the past. 
Further, maintenance and certification of fire safety systems were 
found to be inadequate. Significant steps have since been taken to 
correct these findings.
                      fire safety program overview
    The agency is in the process of developing and implementing a plan 
that is comprised of (a) restructuring and augmenting a newly 
centralized Life Safety Division to assure more thorough oversight over 
all AOC life safety plans and projects; (b) preparing to install 
upgraded fire protection systems in all the buildings that will 
facilitate appropriate enhancements as they become technologically 
possible, and (c) enhancing training to assure the proper inspection, 
testing and maintenance of installed systems. The potential 
acceleration of full implementation of this plan will require support 
from the House leadership and the House Administration Committee in the 
development of a plan for interim displacement of Members and 
Committees to enable concentrated work in certain areas of the House 
side of the Capitol and the House Office Buildings. The overarching 
goal is to provide the Capitol complex with fire protection systems 
that are state of the art insofar as possible in these historic 
structures.
    The ongoing program is a work in progress and is subject to 
comments, changes and creative input. Progress to date and current 
design initiatives are described to establish a basis of understanding 
of where we are and what remains to be done. The program addresses 
three critical areas--Standards of Operation--Planning, specification 
and internal controls for program development; Projects--Procedures, 
technical support and impact analysis; Maintenance--Inspection, testing 
and maintenance protocols.
              consultant support for fire safety programs
    In the preparation and presentation of fiscal 1998 and 1999 budget 
requests, life safety projects were placed in their own project 
category, and were given the highest priority. As each project was put 
forth for consideration, the agency established design/build criteria 
to meet current life safety standards while carefully integrating these 
systems into the Capitol complex's historic surroundings. Starting in 
March 1997 the agency procured the services of three firms to provide 
the technical expertise and the much needed resource support required 
within the Life Safety Division to address program requirements.
    In August 1997, the consulting firm of KCCT was hired to study exit 
doors throughout the complex and prescribe a plan of correction to 
permit proper egress in an emergency and facilitate the integrated 
installation of security devices as required by the U. S. Capitol 
Police. This work has included redefining the direction doors swing 
open, replacement of revolving doors, frame modifications to house 
security hardware and redesigning vestibules to accommodate egress 
requirements, all while maintaining a design that is compatible with 
the architectural surroundings.
    At the present time, 40 doors in the Capitol, House and Senate 
Office Buildings have been reconfigured to fully meet life safety 
requirements. Eighteen additional doors are under construction and 23 
more are being designed with construction to begin in a phased manner 
as soon as funds become available. Doors under design include the 
replacement of revolving and monumental doors throughout the Capitol 
complex.
    In October 1997, James Posey Associates was placed under contract 
to provide professional services, material and equipment necessary to 
provide construction documents for sprinkler protection (and other 
services) within the Rayburn House Office Building. The agency is 
currently reviewing design drawings and will be going for bid. This 
project will be tied in with the upgraded alarm system currently being 
installed.
    The firm of Gage-Babcock was placed under contract in September, 
1998, to respond to task orders as listed:
  --General Fire Protection Description of all facilities and complex 
        wide fire and emergency management systems; Omega Sprinkler 
        recall Count; Building Fire Protection System Survey and 
        Descriptions and Design interconnectivity of various life 
        safety systems and emergency master control centers
  --Design the replacement for existing fire pumps in the U.S. Capitol, 
        Russell Senate Office Building, and Longworth and Cannon House 
        Office Buildings.
  --Upgrade fire pump electrical feeds--Ford House Office Building.
  --Emergency signs and lighting and egress study to establish way 
        finding and directional/exit signage needs for each building's 
        fire protection and life safety and occupancy loads throughout 
        the complex.
  --Prepare requirements for a fire alarm system upgrade for ADA 
        compliance and identify areas of refuge for each building and 
        the requirements to meet National Fire Protection Association 
        standards in these areas.
  --Design sprinkler systems for Capitol Power Plant administration 
        building.
  --Review and develop emergency operation/emergency preparedness plan 
        for each building, using initial work completed by the AOC, 
        Sergeants at Arms and U.S. Capitol Police.
  --Provide sprinkler system design for the Longworth carry-out and 
        adjacent sundry area.
    At this time the agency has also entered into a Memorandum of 
Understanding with the U.S. Army Corps of Engineers to provide 
architectural, engineering and construction support services as 
required. The agency will be using their services while commissioning 
life safety systems in the field, after all the software programming 
has been done to the annunciator panels for the alarms and the 
transponders that are attached. The agency will also be using their 
services to execute the Maintenance of Fire Protection Systems 
Statement of Work. The Corps of Engineers, after taking the information 
gathered by Gage-Babcock, will finalize the task order document so that 
these services can be procured to maintain the existing systems 
throughout the complex as well as those systems that are currently 
being installed.
    While these are positive steps to remedy some of our concerns, 
there is much more to be done. Projects need to be completed and/or 
current conditions within existing systems need to be corrected. Many 
timelines to complete projects currently remain extended so as not to 
unduly inconvenience Members, but the agency looks forward to working 
with the oversight committees, the Capitol Police Board, and other 
involved parties to develop methods of accelerating their completion. 
The agency is engaging systems once each zone is fully programmed, 
commissioned and ready to go on-line without affecting the integrity of 
the rest of the system.
                         standards of operation
    In July 1998, the agency moved the Fire Protection Engineering 
Design reporting lines to the Executive Officer. This was done to 
strengthen their role in the organization so that the highest priority 
on such issues will be effectively implemented. With this move, the 
agency's program began to take a more cohesive shape and accelerate. 
The three critical success areas as outlined earlier were defined to 
meet our mission needs, provide the services required from the division 
as well as give the division performance measures for accountability. 
The Standards of Operation created by this program provide the 
specifications for design, materials and installation of systems. It 
answers the questions such as, ``What impact does a change in code have 
on what is installed, what we are planning to install and what is under 
design?'' and, ``What upgrades will it take for us to meet the new 
code; how long would it take; what physical changes are required; and, 
what resource implications are there?'' It creates the commissioning 
plan, the field testing plan as well as the records requirements to 
demonstrate that prescribed procedures were followed. (These are 
currently being formulated for review by senior staff early in 
February.)
    The Standards of Operation are the education portion of the 
program. As of this fiscal year, the Grinnell Fire Protection System 
training program has been offered for initial certification as well as 
a refresher course. Training courses are also being offered to support 
Life Safety programs, the Emergency Preparedness Planning process, etc 
for this fiscal year. This is the first time that such extensive 
training has been offered in this area. As an example, each person 
installing a system will be taught to know the cause and effect of not 
completing an entire zone or not installing all the elements required 
to make a system fully operational and ready to be tested, programmed 
and commissioned rather than waiting to the end of the job.
    The Standards of Operation are also being developed for the 
communication portion of the program. They will provide information on 
changes in technology, changes in codes, etc. and what it may or may 
not mean to the effectiveness of existing systems.
                              maintenance
    Under the agency's program, there are two types of maintenance 
programs required to have a successful life safety program. Under the 
Standards of Operation, records need be available and information will 
be provided by the Computer Assisted Facility Management (CAFM) system 
once it is fully installed and implemented. Preventive maintenance is 
the key to the longevity of the operating systems throughout the 
complex as well as the life safety systems in place and being installed 
at the present time.
    The agency's program utilizes National Fire Protection Association 
maintenance standards as a tool for the superintendents to schedule the 
necessary maintenance and documentation. In addition, the Life Safety 
Division will be doing inspections of maintenance work being performed 
as well as the relevant record keeping.
    Finally, the agency is working with the other support offices to 
coordinate work areas to keep egress paths clear and safe as part of an 
overall safety maintenance program.
                                projects
    There continue to be areas in the buildings that are unsprinklered. 
Funding has been requested to design and complete areas in O'Neill, and 
Rayburn House Office Buildings, and James Madison Building. Areas that 
have completed sprinkler designs in the Cannon Building are scheduled 
for completion by the end of this fiscal year. The Rotunda in the 
Cannon Building and large Committee rooms in the Longworth and Cannon 
Buildings require an assessment of today's fire protection technology 
to best meet the size of the space. Funding for areas of the Capitol 
that are currently not sprinklered is being requested in the future; 
alternative locations and methods of suppression must be found so that 
realistic time lines can be established to enable Members to continue 
to function within the building.
    Upgrades to the fire suppression systems for the food service areas 
that address today's cooking oils is requested in fiscal year 2000. A 
study to determine the need to replace the exhaust hoods in the Capitol 
is requested for fiscal year 2000 with the actual work to be 
accomplished in fiscal year 2002 (if required).
    Smoke detectors are being placed in rooms within the Capitol as 
they are being renovated. Unfortunately, to activate the detectors--
even to the existing alarm system, requires that an entire zone be 
completed. Due to access problems (requiring displacement of Members 
while work is occurring) there is not one completed zone on the House 
side (four of them are three or fewer suites short of a complete zone).
    A project impact analysis report procedure has been developed 
pertaining to the life safety system impacts on renovation/improvement 
projects. This is a newly implemented process, part of the project 
planning portion of our program, and indicates typical areas of 
consideration that will be reviewed with each project involving life 
safety elements. This tool will also be used when systems that support 
life safety are being modified such as water main replacements, room 
partitions installation, and electrical system work.
    It is believed that the work of KCCT and in-house design teams will 
remedy those doors identified as requiring modifications to meet as 
many egress path corrections as possible. (Historic preservation 
considerations are part of the assessment that is being made, and where 
there may be a physical impact on the building the change will be 
implemented to meet the standards while keeping the integrity of the 
building to the degree possible.) Funding is being requested in fiscal 
year 2000 to accomplish the installation and modifications as required. 
Gage-Babcock will be using this information (on door solutions) as well 
as their own campus-wide survey to compile signage requirements for 
exits and wayfinding for egress routes. The actual design of the signs 
will be done by another firm currently under contract with this agency 
for ADA signage needs.
    The agency has assembled a Task Force to address emergency 
preparedness within the complex. Each Superintendent is represented and 
actively participating. The first draft of the manual created with the 
U.S. Capitol Police and the Sergeants at Arms is currently out for 
review and comment to update changes in programs, plans and team 
members. The task assigned to Gage-Babcock, once comments are received 
on this global plan, is to assist each operating unit within the AOC in 
tailoring a manual to their operations.
                                summary
    To meet the life safety goal set for this agency, alternative work 
processes have been requested to be presented to accelerate the rate of 
life safety system upgrades and implementation. Several major elements 
have been identified as currently impeding this process:
  --Relocation space has not been identified to facilitate temporarily 
        moving a group of Members and/or Committees to provide access 
        to their suites and meeting rooms. This applies throughout the 
        House Office Buildings as well as the Capitol;
  --Design funding needs of a magnitude to be determined must be sought 
        to complete all systems--alarms, smoke detectors, sprinklers, 
        egress, etc, which needs are currently being addressed;
  --Manpower resources are not available in-house to install, 
        commission and maintain systems in an acceptable manner while 
        continuing to meet our day-to-day operational requirements. 
        External resources and the funds to support them need to be 
        provided as requested in the fiscal year 2000 budget.
                                 ______
                                 

                               Appendix B

      Architect of the Capitol Security Update, Fiscal Year 2000 
                         Appropriations Request
    The past year was a seminal year for security in the Capitol 
Complex. From the terrorist attacks both domestic and abroad, to the 
tragic deaths of Officers Chestnut and Gibson, to the ever increasing 
threats to our facilities and the Leadership, a heightened awareness 
and emphasis on planning and implementing appropriate security measures 
dominates the focus of the Capitol Police Board, the U.S. Capitol 
Police and the AOC. The AOC concentrated on supporting the efforts of 
the Capitol Police and the other law enforcement entities to improve 
the security within the Capitol Complex.
    The Omnibus Consolidated and Emergency Supplemental Appropriations 
Act, 1999, (Public Law 105-277), provided additional funding in the 
amount of $106 million for the implementation of the proposed security 
improvements. Plans are being developed for the utilization of these 
funds which will be submitted to the appropriate committees for 
approval. Upon approval of the plans, a complete obligation plan, which 
is also being developed, will be submitted to the House and Senate 
Committees on Appropriations for review and approval. In anticipation 
of moving forward with these plans in an expeditious manner, we are 
continuing to work closely with U.S. Capitol Police, Library of 
Congress Police, and even the U.S. Supreme Court Police, to coordinate 
these significant efforts that are unprecedented in the history of the 
Capitol Complex.
    Other proposed short and long term projects include the Capitol 
Visitor Center which is a key component of the systematic modernization 
and strengthening of the integrated security infrastructure program 
which has been presented to the Committee. In that regard, we received 
a substantial portion of the funding to construct the Capitol Visitor 
Center and are preparing to seek approval for the review and validation 
of the existing design and programmatic needs and modify them as 
necessary. The finalization of construction plans and specifications 
would follow after approval is received.
    A Memorandum of Understanding (MOU) was executed with the Capitol 
Police that established the division of responsibilities, and the 
processes and procedures to be followed when developing and 
implementing security projects. This memorandum continues to be an 
excellent matrix defining the processes and procedures important to the 
close working relationship between the two organizations.
    Briefly, the MOU assigns the responsibility for design, 
procurement, installation and maintenance of physical security barriers 
and other structures to the Architect of the Capitol while the Capitol 
Police's Physical Security Division is in charge of design, 
procurement, installation of other security systems, including 
intrusion and duress alarms, x-ray, scanning and other security systems 
for facilities. My office continues to provide infrastructure support 
for the implementation of these systems. This has resulted in a strong 
working relationship between the two organizations.
    The Omnibus Consolidated and Emergency Supplemental Appropriations 
Act, 1999 also transferred the responsibility for design, installation, 
and maintenance of security systems to protect the physical security of 
the buildings and grounds of the Library of Congress from the Architect 
of the Capitol to the Capitol Police Board to be carried out under the 
direction of the Committee on House Oversight of the House of 
Representatives and Committee on Rules and Administration of the 
Senate. In response to this change an additional MOU that will outline 
the process, procedures and responsibilities for the improved security 
programs of the Library of Congress is in the process of being 
finalizing by this Office, the Capitol Police and the Library of 
Congress. It is anticipate that this MOU will be forwarded to the 
appropriate committees for approval shortly.
    In addition to the planning for the programmatic, personnel and 
physical security needs provided for in the Omnibus Consolidated and 
Emergency Supplemental Appropriations Act, 1999, funding was provided 
in fiscal year 1999 to conduct a comprehensive Master Plan that will 
present the options for providing the current and future facility needs 
of the Capitol Police and the participating law enforcement entities 
operating within the Capitol Complex. These include a new shared 
offsite delivery center where all deliveries to the Capitol Complex can 
be properly screened, a shared training facility that would support the 
collective training requirements of the police, a modern command and 
communications center that is capable of monitoring and administering 
the existing and proposed security systems in a centralized and 
coordinated manner, as well as other support facilities not currently 
or adequately provided. The Master Plan is currently being finalized 
and will be submitted to the appropriate committees for review and 
approval as part of the planning approval process to support the 
development of the proposed new security and police facilities.
    The 1998 Supplemental Appropriations and Rescissions Act, (Public 
Law 105-174) provided $20 million to improved perimeter security for 
Capitol Square, as well as the streets surrounding the Senate Office 
Buildings. The Capitol Police Board has been directed to develop a 
specific plan for this project. The challenge is to sensitively 
integrate a sophisticated security program into the historic landscape 
of the Capitol Grounds and the fabric of the incomparable complex of 
buildings that grace Capitol Hill. The solution has been strongly 
influenced by the fact that the Capitol is the ``Peoples' Building'' 
and visitors must perceive it as such with reasonable access being 
provided. Perimeter fencing and other overly intrusive security 
measures have, therefore, been avoided.
    To meet this challenge, the Board organized a Task Force made up of 
key staff from the Architect's office, the House and Senate Sergeants 
at Arms, the Capitol Police, and nationally recognized architectural 
and security consultants. The Task Force reviewed the previous work 
done by various groups, including the schematic designs developed in 
the late 1980s that became known as the ``Whip's Plan'', and the 1995 
security evaluation requested by the Board and performed by the U.S. 
Secret Service and Capitol Police. The Task Force has completed this 
effort.
    The primary elements of the plan include improved security at all 
entrances to Capitol Square through the use of a combination of high 
impact vehicle barriers that are police activated at the most critical 
locations, or card activated egress from parking related areas. These 
are to be used in conjunction with a continuous string of security 
bollards similar to those designed for and installed at the White 
House. These bollards would replace the concrete planters and sewer 
pipes that had been temporarily put in place in the 1980s. Together 
with new high impact stone planter areas consistent with the Frederick 
Law Olmsted walls and the integration of electronic and other security 
systems at each entrance, a continuously secure perimeter would be 
created largely internal to the original Olmsted walls which, in many 
areas, are too low to meet security height requirements and are not of 
reinforced construction.
    At each of the Capitol Square access points, the incorporation of 
modern electronic and other security systems would be integrated with 
new barrier structures in the form of planters mentioned above and the 
replacement of the existing concrete sewer pipes and planters with 
security bollards of a design consistent with that being deployed at 
other government properties. The end result of the proposed changes 
would be significant improvements to both the security needs and 
appearance of Capitol Square.
    Subsequent to the submittal of this comprehensive plan for improved 
perimeter security for Capitol Square, approval was received by the 
Senate Committee on Rules and Administration, and is anticipated by the 
Committee on House Administration.
    The Senate Committee on Rules and Administration also specifically 
approved the Board's plan to improve the physical security elements 
protecting the Senate grounds and office buildings. Although this 
matter relates solely to the Senate, funding is included under our 
``Perimeter Security'' project in the ``Capitol Grounds'' appropriation 
for this purpose. To resolve the security concerns, the Board 
recommended that landscape elements and bollards similar to those 
recommended for Capitol Square be used to replace the existing 
``Jersey'' barriers, concrete planters and pipe sections. This solution 
maintains the necessary levels of security while softening the visual 
impact of these measures. The detailed construction plans and 
specifications are currently being completed and construction is 
scheduled to begin this summer.
    The Capitol Police Board approved five security related projects 
that are included in the Architect of the Capitol's request for fiscal 
year 2000. Infrastructure for Security Installations ($500,000), which 
as reduced by $250,000 from the fiscal year 1999 level, provides the 
infrastructure accommodations to support the continued installation by 
the Capitol Police of door controls, alarms, cameras and other security 
devices throughout the Capitol Complex. Security Project Support 
($550,000) will provide this Office with technical staffing resources 
to coordinate and oversee the design and construction of capital 
improvements to be implemented by this Office that were funded in the 
Omnibus Consolidated and Emergency Supplemental and Appropriations Act, 
1999. Book Conveyor System Security (Internal LOC Collections) 
($400,000) will provide for access control of the Library of Congress 
book conveyor system. Collections Security, LOC ($1,000,000) will 
provide for the continued installation of card readers and other 
security sensors and devices to protect the Library's collections. 
Secure Attic and Basement Areas, SOB ($100,000) will provide for the 
construction of physical barriers in various storage areas of the 
Senate.
                                 ______
                                 

                               Appendix C

Architect of the Capitol AOC Human Resources Act of 1995 Achievements, 
                Fiscal Year 2000 Appropriations Hearings
                              introduction
    The Congress passed the AOC Human Resources Act of 1995 in the 
Fiscal Year 1995 Legislative Branch Appropriations Act, Public Law 103-
283, approved July 22, 1994. The law required that the AOC develop a 
human resources management program consistent with modern practices 
common to Federal and private sector programs.
                 current human resources program focus
    Since April of 1997, the Human Resources Management Division 
(HRMD), under a new Director, has made the following areas a priority: 
Customer service delivery; program/policy development; service delivery 
systems re-engineering; personnel action and operational processing 
simplification.
    In order to accomplish these priorities as well as the daily human 
resource operational requirements, HRMD has, as a team, formed 
relationships across branches and functions to address these new 
challenges. The following information outlines HRMD's progress so far 
and identifies new directions for the coming year.
Program Guidance Completed
    The following program guidance was developed, distributed, and 
briefings provided to all Agency Supervisors:
    Training Program.--The training program was significantly 
revitalized and expanded to meet management and employee training 
needs. Specifically, we have:
  --Administered a wide range of training courses for AOC employees at 
        all organizational levels and of varied disciplines (copy 
        attached).
  --Published a new training guidance handbook which has been provided 
        to managers, supervisors and foremen during scheduled 
        informational meetings. The handbook addresses the overall 
        process for handling training requests and provides the 
        following information: a detailed listing of training videos 
        that are available for check-out or for viewing in the HRMD 
        learning resources center by AOC staff; guidance on staff 
        cross-training and job and non-job related training; 
        instructions for completing on-site as well as off-site 
        training requests; sample curricula and on-the-job training 
        suggestions for a wide variety of trade occupations; and a copy 
        of the General Services Administration's Facilities Management 
        Training Center Catalogue.
  --Implemented an automated training system to capture all training 
        activity and funds allocation.
    Hazard Pay/Environmental Differential--Guidance has been developed 
and provided for supervisors to use in requesting hazardous duty pay 
for appropriate work situations. The guidance provides for a number of 
steps to be taken by the supervisor prior to instructing employees to 
work in conditions that may be considered as hazardous duty. The 
guidelines provide for a health and safety review of the proposed 
working conditions, the applicable safety equipment, and other health/
safety considerations. Once this review is completed, the supervisor 
will follow the procedures outlined to request from HRMD the authority 
to grant hazardous duty pay to employees involved in that specific work 
assignment.
    Temporary Limited Duty Assignments.--Guidance was developed and 
provided for use by supervisors when considering requests from 
employees for limited duty assignments, on a short-term basis, while 
recovering from a non-work related injury or illness. This information 
identifies the initial steps employees must follow and the 
documentation necessary to clearly substantiate a medical limitation. 
With specific medical documentation, the supervisor can make a 
determination whether or not a limited duty assignment is possible 
based on the employee's medical limitations and mission needs.
    Reissuance of Policy on the Administrative Work Week.--Based on 
numerous questions about what constitutes the work week and 
inconsistent application of policies in different segments of the 
agency, we reissued the AOC policy and standardized procedures to all 
employees.
Programs and Policies That Are Completed And Ready For Union 
        Negotiations
    HRMD has completed the following program and policy guidance, which 
is awaiting negotiations with the Union. AFSCME Local 626 was elected 
by AOC employees earlier this year, representing laborer and custodial 
employees. As negotiations are completed for each policy, we will 
implement each of these initiatives. Our work on Program and Policy 
development is carried out in coordination and collaboration with Chief 
Employment Counsel and Chief Labor Relations Counsel. This ensures 
compliance with applicable laws and regulations including provisions of 
the Human Resources Act and the Congressional Accountability Act.
    Architect's Mobility Program (AMP).--With the assistance of a 
workgroup, we have revised the program guidelines. The program is 
designed to provide career growth opportunities for employees in lower-
graded, career-limiting positions. Anticipate beginning the program 
with 8 to 12 vacancies initially. This is to ensure that we are able to 
provide the necessary one-on-one assistance to the selecting official 
and the selected employee to develop a tailored training development 
plan. Once negotiations are complete we will provide informational 
sessions for employees and supervisors with detailed information about 
the Program, and operating procedures. Specific assistance will be 
given to employees on the application process, on completing the 
necessary forms, etc.
    Temporary Promotion Policy.--Completed the policy and procedures 
for supervisors to follow in proposing temporary promotions for 
employees. The policy provides for a uniform way of proposing, 
documenting, competing when necessary, and approving temporary 
promotions for AOC staff. Through this policy, Agency supervisors will 
be able to make a time-limited change of an employee's assignment, with 
corresponding time-limited increase in pay.
    Work Detail Policy.--Completed the policy and procedures for 
supervisors to follow in proposing details (temporary work assignments) 
for their employees. The policy provides for a uniform way of 
proposing, documenting and approving details for AOC staff. Through 
this policy Agency supervisors will be able to temporarily assign an 
employee to a different position or set of duties, without a change in 
pay. The employee that is temporarily assigned to a different position 
or duties continues to officially occupy his/her position of record.
    Classification Appeals Policy.--Completed development of a 
classification appeal process for employees to use when the 
classification of their position (job title, series and/or grade) is in 
question. The process ensures that a thorough review and analysis of 
the position is completed; a specific report of findings is provided; 
and that HR staff meet to discuss the findings with the employee and 
the supervisor. The policy also provides for a third party (a neutral 
reviewer) to conduct the review in cases where this may be more 
appropriate.
               additional human resources accomplishments
    Delegations of Authority.--In June 1997, the Human Resources office 
was granted full delegated authority to carry out the wide range of 
personnel actions necessary to support and carry out the mission of the 
Agency.
    Informational Briefings.--The Human Resource staff has been 
conducting informational briefings for groups of supervisors and 
managers in each jurisdiction. The briefings cover temporary limited 
duty assignments, hazardous duty pay/environmental differential, 
updates to the disciplinary process, the Architect's Mobility Program, 
the recently developed Training Handbook and other Human Resource 
program areas. The briefings are one method HRMD is using to develop an 
ongoing, cyclical dialogue with Agency supervisors to assure they 
understand the policies of the Agency and our intent to create 
standardized policies and procedures across all of our jurisdictions.
    Earlyout and Buyout Program for the Senate Restaurants.--Based on 
Congressional authorization, developed program guidance, operating 
procedures, informational materials and facilitated counseling sessions 
to help employees decide if they were interested in applying for a 
buyout and/or earlyout during November/December 1997. The overall 
process, which required about three months of staff effort, resulted in 
23 employees accepting the separation incentive. Through a second 
buyout program, in fiscal year 1998, an additional 17 employees 
accepted a buyout. These efforts have resulted in an estimated saving 
of $1 million per year for the Senate Restaurants.
    In developing the guidance and procedures to administer this 
authority, we benchmarked similar activities at other agencies and 
completed a successful programmatic review conducted by General 
Accounting Office (GAO) staff. Our experience with this authority is 
that it is an effective tool that holds much promise as a component for 
re-engineering other areas of the Agency.
    Enhancing Supervisory Skills Workshop.--With the assistance of a 
training consultant, we developed and administered this workshop for 
all AOC supervisors. The mandatory three-day training session addressed 
numerous topics with a focus on refreshing and enhancing supervisory 
skills. This workshop was the first of what will be a series of 
training opportunities aimed at improving the management and 
supervisory skills of AOC executives, managers, supervisors, foremen 
and assistant foremen. Major components of this workshop included 
segments to: enhance communications with employees; provide basic 
skills and the tools to effectively and promptly address conduct and 
discipline issues; address methods for providing positive reinforcement 
to staff; and, allowed an open discussion and review of pressing 
problems/issues.
    Streamlining the Discipline Process.--In an effort to improve the 
timely and fair handling of disciplinary cases, we examined AOC's 
current process and procedure to identify areas where processing time 
for these actions could be reduced, without changing the existing 
policy. A number of areas were identified where supervisors, HRMD, and 
the Hearing Officers could be more time efficient. To help reduce the 
time it takes to resolve a disciplinary case, we developed processing 
time standards. A decision was also made to obtain the services of 
independent contractors, skilled in handling hearings, to assume the 
duties that have been carried out by AOC managers. In doing this, we 
have added an additional degree of independent objectivity and 
consistency to the review of cases in addition to improving overall 
timeliness of handling a disciplinary action.
    Contract Administration Training Initiative.--In collaboration with 
the Procurement Division, HRMD led an initiative to promote the 
training of contract project officers. A comprehensive program plan and 
schedule was developed to facilitate a contract project officer and a 
contract administration course. The first phase of this training 
program is underway. This initiative will enable the agency to more 
efficiently and professionally handle the administration of contracts 
for services that will be performed for AOC.
    Position Management Review.--In coordination with the Budget 
Office, HRMD implemented an Agency-wide process that ensures completion 
of a budget analysis and a position management review prior to a 
position being approved for recruitment. The position management 
review, completed by this office, focuses on: the need for the 
position; duplication of effort or overlapping of functions; the 
appropriate supervisory span of control; and staffing alternatives to 
ensure the position is filled at the lowest possible grade (salary) 
level.
    Position Classification Studies.--Efforts in this area have 
resulted in:
  --Completion of a number of position classification review studies 
        including: raising the career ladder to the GS-13 level for 
        Architect positions in the Architectural Division; developing 
        GS-13 program manager positions in Engineering; developing GS-
        13 level positions in the Information Management Division.
  --Completion of a preliminary review of a random sample of Laborer 
        positions in the House, Capitol and Senate Office Buildings. 
        The review was completed in response to employee complaints 
        that their positions should be paid at a higher level. We found 
        that the majority of the positions were either properly graded 
        or were over graded. A broader study will be necessary to 
        better address this issue.
    A review of all the positions in the Botanic Gardens is currently 
underway to determine the proper titles, series and grades of these 
positions.
    Organizational Studies.--An organizational management review was 
completed for the Superintendent of the Capitol, resulting in a 
reorganization with consolidation of a number of shops. An 
organizational realignment, to consolidate the grounds staffs at the 
Supreme Court and the Library of Congress under the AOC Landscape 
Architect, was also completed. Currently, we are working with the 
Superintendent of the Senate Office Buildings, the Director of 
Engineering, and the Immediate Office of the Architect on a number of 
organizational issues.
    These efforts are part of our Strategic Planning and Organization 
Management efforts to develop sound, efficient, cost-effective staffing 
patterns for the Agency. This work will result in streamlined 
organizations with appropriate supervisor-to-employee staffing ratios. 
We also assess options that will facilitate the identification and 
development of centralized operations, and opportunities for multi-
tasked job assignments and upward mobility positions.
    AOC Electronic Job Announcements.--A procedure to ``post'' all AOC 
job vacancies on the Office of Personnel Management Job Information 
Home Page (www.usajobs.opm.gov) was developed and implemented. AOC 
vacancies can now be found by any interested applicant ``surfing'' the 
net. In addition, to foster increased opportunities for all AOC staff, 
we implemented a policy of advertising jobs Agency-wide. This replaced 
the existing practice of advertising jobs primarily at the jurisdiction 
level. This will not only provide more opportunities for current AOC 
staff, but ensures consideration of a broader pool of candidates. 
Should we anticipate that there would not be a broad cross section of 
available internal candidates, the vacancies would be advertised to all 
sources (both within the AOC and to outside sources). Our goal is to 
ensure that vacancies are filled using a fair and open competitive 
procedure.
    Human Resources Newsletter.--Developed and have been publishing a 
monthly Human Resources Newsletter, Employee Matters as part of the AOC 
Shoptalk. The newsletter provides AOC employees with current Human 
Resource information, program initiatives, upcoming events, training 
information, etc.
    Human Resources Web HomePage--A new resource for AOC employees who 
have access to the AOC intranet has been developed. Employees can now 
find out about Human Resources-related information and policies on-
line. Since this is just the beginning of our venture into the website 
design, we will continue to modify and enhance the HomePage based on 
feedback. Currently, the HomePage contains: Employee-wide notices 
issued by HRMD; A complete HR staff roster with contact numbers and 
service areas; The Uniform Policy and related documents; Issues of 
Employee Matters; Links to other sites such as TSP, Social Security and 
Federal Job Opportunities including AOC jobs A feedback link to E-Mail 
a message to HRMD-Link.
    In the near future, the site will be expanded to include: Every 
current AOC human resources policy; Mission-related information about 
HRMD and its branches, including each of the services and programs we 
provide.
                  human resources initiatives underway
    This is a brief summary of additional HRMD initiatives underway:
    CSRS to FERS Conversion.--AOC had over 900 employees who are 
eligible to convert from CSRS to the FERS Retirement System during the 
open season that continues through December 31, 1998. We had a 
comprehensive strategy in place to inform eligible employees of the 
process, considerations, financial implications, etc. HRMD provided 
one-on-one counseling and retirement comparisons to any interested 
employee who considered making the change. In addition, 79 employees 
participated in either FERS Transfer briefings and/or individual 
retirement transfer counseling sessions provided by HRMD.
    Awards Program.--An awards policy/program to establish a 
comprehensive incentives and recognition program, including provisions 
to pilot monetary and time off awards is being developed. Providing an 
incentive system, that recognizes performance, productivity and 
exceptional employee contributions toward fulfilling our mission, will 
serve to reinforce service excellence, professionalism, creativity, and 
teamwork AOC-wide.
    Performance Evaluation System (PES).--A plan has been developed to 
review and make necessary program and policy changes to revamp the AOC 
PES. Focus groups comprised of supervisors, foremen, employees and 
managers will be conducted to assist us in the initial phase of the 
review. A workgroup of AOC staff will be used to help develop proposals 
for necessary changes to revamp the system.
    Human Resources Process/Systems Re-engineering.--In the same 
fashion that the discipline process was streamlined to reduce 
processing time, we are systematically reviewing and revamping other HR 
processes and procedures so they are more responsive to management and 
employee needs. Even though this requires us to make a large investment 
of time, addressing these initiatives and the business of modernizing 
AOC's Human Resources programs are being approached with a great degree 
of enthusiasm by the HRMD staff. Our current focus is the re-
engineering of the operating processes and procedures followed by the 
Employment and Services Branch. Staff workgroups will systematically 
analyze, modernize, simplify and implement new ways of doing business 
in a number of areas including: recruitment, pay and benefits 
processing, retirement counseling and program administration, health 
and life benefits administration, etc.
    Labor Management Relations and Negotiations.--With the election of 
a union to represent approximately one-third of the Agency's workforce, 
HRMD now has additional program responsibilities to carry out in 
collaboration with the Labor Relations Attorney. HRMD is working with a 
wide variety and a significant number of day-to-day union issues as 
well as serving on the management negotiation team. They regularly 
participate in meetings with union officials to address specific issues 
or concerns and to provide information. The staff will be devoting a 
considerable amount of time to carry out negotiations with the union on 
a labor-management contract, as well as on specific policy issues.
    Forging New Business Relationships.--HRMD has been working with 
several organizations across the campus: The Capitol Police to 
establish joint efforts to successfully and safely deal with potential 
workplace issues; The Attending Physician's Office and the Occupational 
Health and Safety staff to develop better program linkages with regard 
to workers compensation, training and other program areas; and 
Participating in initial discussions with the Sergeant at Arms and the 
Chief Administrative Officer on potential areas for mutual cooperation.
    The staff is actively participating on several executive agency 
forums: a member of the Small and Independent Federal Agencies 
Personnel Group; a member of the Office of Personnel Management's Human 
Resource Accountability Workgroup; participate in the Classification 
and Compensation Society forums; and are actively involved in the 
Federal Safety and Health Council.
                  upcoming human resources initiatives
    This is a brief summary of additional HRMD initiatives on the 
horizon:
    Leave Administration.--Guidance and instructions being used by the 
various jurisdictions are being collected in an effort to assess how 
leave is administered across the AOC. We want to look at options for 
developing more standard policies and procedures for handling the 
various aspects of leave administration including: Process for 
requesting and approving leave (annual, sick, without pay, etc.); 
Process for annotating and documenting tardiness; Process for 
annotating, documenting and initiating action to address AWOL 
situations.
    Records Management--HRMD is reviewing the information AOC 
organizations currently maintain about the employment and conduct of 
individual employees with the goal of developing guidelines to 
standardize these practices. Individual supervisors and managers may 
find it convenient to maintain unofficial personnel records containing 
information about their employees for purposes of initiating personnel 
actions, tracking leave usage, and recommending discipline. The 
information maintained might duplicate some of that in the employee's 
Official Personnel Folder, but may include copies of additional 
material such as employee's counseling, incident reports, and 
supervisory notes. In order to provide consistency in the content and 
manner in which employee information is kept, HRMD will develop 
guidelines to govern what documentation may and may not be maintained, 
as well as general information on the employee's right to review it.
    Update and Revamp the AOC Conduct and Discipline Policy.--The AOC 
operating process and procedures for handling conduct and discipline 
matters will be reviewed and updated. The existing process is rather 
cumbersome and can be very time intensive. The necessary procedural 
steps in administering the disciplinary process will be streamlined.
    A Comprehensive Wage and Pay Administration and Hours of Duty 
Policy.--HRMD will look into developing a more uniform, comprehensive, 
way of addressing wage and pay matters to cover holiday pay, overtime, 
tours of duty, etc. This effort will standardize pay administration and 
work scheduling across the Agency and provide clear operating 
guidelines for AOC supervisors to follow.
    Workers' Compensation Program.--HRMD has initiated a concerted 
effort to develop a comprehensive program to address the high workers' 
compensation costs being incurred by the Agency. Our goal is to address 
injuries, case management, and work with the Department of Labor on a 
very proactive basis. We will develop specific initiatives, in 
conjunction with the AOC Health and Safety Office and with the 
Attending Physician's Office, to systematically address each aspect of 
workers' compensation, to provide for a return to work program and to 
aggressively pursue cases of potential fraudulent claims.
    Employee Safety and Protection.--In collaboration with the AOC 
Health and Safety Office, HRMD will continue to address employee safety 
and protection in the workplace. We have already drafted and 
implemented (with union concurrence) an employee uniform policy to 
cover employees currently authorized to use them. We need to address 
other employee personal protection issues such as protective clothing, 
eye protection, safety shoes, etc., to further support AOC health, 
safety, and training initiatives.
    Human Resources Management Information System.--Based on program 
and management needs, research is needed to actively pursue 
modernization of HR information management systems. The lack of an 
automated system results in very labor intensive efforts on behalf of 
Agency managers, administrative staff, the HR staff, and the 
Information Resources Management staff in completing day-to-day 
business transactions. An automated system would not only greatly 
reduce the necessary paperwork, but would also reduce the processing 
time for personnel actions and would facilitate generation of necessary 
Agency and Oversight Committees' reports. Such a system would be able 
to provide for: on-demand, accurate, management reports for program 
analysis; processing of personnel actions; personnel forms; position 
classification process; simple, protected, employee access to their 
personal pay, benefits, retirement, insurance, and other employment 
related information.
    Human Resources Process/Systems Re-engineering.--The staff will 
continue to re-engineer, streamline and revamp our operating processes 
and procedures with the goals of reducing processing time and providing 
more responsive customer services. Following the model we used in the 
conduct and discipline process (previously addressed in this report), 
we will complete a process to streamline and re-engineer operating 
processes and procedures in the Employment and Services Branch and then 
replicate the model in the Classification and Pay Administration 
Branch, the Management and Employee Relations Branch, and the Employee 
Development and Communications Branch.
    Our bottom line is to be more responsive in meeting the needs of 
our AOC customers, and provide timely, cost-effective HR services. We 
envision the Human Resources as a proactive partner and resource in 
advancing the AOC mission of being an innovative and efficient team 
dedicated to service excellence and to preserving, maintaining and 
enhancing the national treasures entrusted to our care.
                                 ______
                                 

                               Appendix D

   Architect of the Capitol Initiatives Regarding the Congressional 
      Accountability Act, Fiscal Year 2000 Appropriations Hearings
                              introduction
    Enacted in 1996, the Congressional Accountability Act of 1995 (the 
CAA) affords all AOC employees a means by which to present allegations 
regarding employment practices in an independent office in the 
legislative branch.
                      employment complaint process
    An employee who wishes to allege violations of the CAA may request 
counseling and mediation from the Office of Compliance. Individuals who 
wish to file such requests need not put in writing, or prove, any 
allegations during formal counseling, mediation or before entering the 
formal litigation process. At mediations the Agency may be asked to 
respond to any employment-related matters, including discrimination, 
wage and hour and family leave issues, or other workplace issues. The 
CAA and the Office of Compliance procedural rules require that all 
mediation and formal hearing proceedings remain strictly confidential 
and requires parties to sign agreements to that effect.
    If mediation does not satisfy an individual, he or she, or a 
designated representative, may initiate the litigation process by 
filing a formal complaint in the Office of Compliance or a civil action 
in Federal Court. (The Office of Compliance has ordered that Formal 
Complaint cases be kept strictly confidential.)
                            case statistics
    The Office of Compliance (OC) official figures are not yet 
available for Calendar Year 1998. Based on the OC reports for 1997, the 
first full year that the law was in effect, individuals filed 77 
requests for counseling naming the AOC as the employing office. In 
Calendar Year 1996, the number of requests for counseling naming the 
AOC as the employing office was 34. (The filing of such requests is a 
pre-requisite to filing a Request for Mediation upon which the OC first 
informs the AOC of the existence of a complaint from an employee.)
    accountability act and occupational safety and health provisions
    Section 215 of the CAA directs the Office of Compliance General 
Counsel, periodically and on request, to inspect any area or activity 
within the jurisdiction of employing offices, including all of the 
buildings within the Agency's jurisdiction with respect to compliance 
with occupational safety and health standards. (As of January 1998, the 
Library of Congress is also separately covered by the these 
provisions.) The OC General Counsel conducts inspections of all such 
locations at least once every Congress, but also on the request of an 
employee or an employing office.
    Beginning in 1997 and ending in 1998, the OC General Counsel 
conducted periodic inspections of all AOC locations. These inspections 
began in July 1997 and extended through June 1998. Also, the OC General 
Counsel conducted about 30 inspections of AOC facilities, based on a 
request by union officials or AOC employees. The Agency has been fully 
cooperative in this inspection process and has responded to the issues 
raised. The OC General Counsel issued citations on two occasions: on 
March 25, 1998, six (6) citations issued covering the storage of 
flammable substances throughout Capitol complex and two (2) concerning 
the trash sorting/recycling activities in the House Office Buildings. 
The Agency did not contest these citations and the conditions were 
immediately abated.
    In August 1998 the OC General Counsel raised concerns about the 
possible presence of legionella bacteria in certain locations within 
the West Cooling Tower of the Capitol Power Plant. AOC officials acted 
swiftly to ensure that employees at the plant were not adversely 
affected and that the conditions in the tower are regularly monitored. 
With the assistance of national experts in cooling tower operations and 
of the Attending Physician regarding employee health issues, AOC 
devised a plan that assured that no outbreak would occur. [Currently, 
the West Cooling Tower, during its scheduled shutdown for cleaning and 
maintenance, is also undergoing certain recommended structural changes 
to avoid any similar concerns in the future.]
    Pursuant to a request for inspection filed in April 1998 by an AOC 
employee collective bargaining agent, the Office of Compliance has 
conducted inspections to ensure the availability of emergency fire 
exits throughout the day and night in all of the buildings in the 
Capitol Complex. The Agency has accelerated its efforts to modify all 
the doors to address this concern.
                                 ______
                                 

                               Appendix E

  Architect of the Capitol Initiatives in Labor-Management Relations, 
                Fiscal Year 2000 Appropriations Hearings
                              introduction
    Provisions under the Congressional Accountability Act, Public Law 
104-1, gave AOC employees the right to join collective bargaining 
units. Since the Accountability Act's passage, three different groups 
of AOC employees have exercised this right. The following discussion 
describes labor--management relations activities that have taken place 
over the past two years.
                          formation of unions
    In August, 1997, the first bargaining unit at the Architect of the 
Capitol (AOC) was established. Approximately 600 laborers, custodians 
and other occupations were organized by AFSCME Council 26. Local 626 
was established as the bargaining agent for these employees.
    In November, 1998, AFSCME Council 26, Local 626 was certified as 
the exclusive representative of a production and maintenance unit at 
the United States Botanic Garden.
    On January 13, 1999, Plumbers Local Union No. 5, United Association 
of Journeyman and Apprentices et al. was certified as the exclusive 
bargaining agent, by the Office of Compliance, for a unit of plumbers 
employed by the AOC's Construction Management Division.
                           union negotiations
    The AOC and AFSCME Local 626 have completed negotiations on the 
following subjects: Uniforms for Senate Office Buildings and Capitol 
Building employees; Time Clocks for Capitol building employees; 
Official time and the Number of Designated Union Officials * \1\; Dues 
deduction; Architect's Mobility Program * \1\ and Ground Rules for 
Master Contract Negotiations.
---------------------------------------------------------------------------
    \1\ Tentative agreements have been reached on these items. 
Memoranda of Understanding negotiated between the AOC and AFSCME will 
become effective subject to ratification by AFSCME and final approval 
by the Architect.
---------------------------------------------------------------------------
                       labor--relations meetings
    At least 15 labor-management meetings have been held during the 
past year to discuss various issues, including staffing, time and 
attendance, training opportunities, change in work assignments, 
discipline, health and safety.
    Two receptions were hosted by the Architect for Local 626 elected 
officers, stewards and representatives in 1998.
                 allegations of unfair labor practices
    Eight unfair labor practice charges were filed by AFSCME Local 626 
during fiscal years 1998 and 1999 to date. Four were withdrawn, one was 
dismissed, settlement discussions are continuing on two other cases, 
and a most recently-filed charge is under investigation by the Office 
of Compliance.
                    collective bargaining agreements
    Presently, there is no collective bargaining agreement covering any 
AOC employees. Bargaining for a Master Agreement with AFSCME, for both 
of the units that it represents, will not commence until all 
negotiability issues are resolved, either formally or informally.
    Proposals and counter-proposals will be exchanged within 15 days 
following a final determination or resolution of the negotiability 
issues.
                                 ______
                                 

                               Appendix F

   Architect of the Capitol Reengineering Plan Including Buyout and 
      Earlyout Programs, Fiscal Year 2000 Appropriations Hearings
                              introduction
    The AOC's goal is ``To be an innovative and efficient team 
dedicated to service excellence and to preserving, maintaining, and 
enhancing the national treasures entrusted to our care.'' As such, the 
AOC embarked on a strategic goal of rebuilding the Agency into a 
flexible, responsive, and quality oriented instrument of the Congress 
through reengineering. The AOC requested buyout and early out authority 
to increase management's flexibility for reengineering the Agency. This 
authority was provided in Sec. 308 of the Legislative Branch 
Appropriations Act, 1999, Public Law 105-275, dated October 21, 1998.
                         reengineering program
    The AOC's reengineering program is designed as a cross-
jurisdictional, multi-dimensional effort. Through this program the AOC 
will: reshape its business approach through reengineering and increased 
use of automation; create cost effective programs and services using a 
multi-skilled workforce; consolidate programs and services with the 
deployment of staff across campus; and provide for timely succession 
planning.
    During fiscal year 1998, the general plan was presented to the 
Committee on Rules and Administration of the Senate and the Committee 
on House Oversight of the House of Representatives, as well as both 
Legislative Branch Subcommittees for Appropriations. The proposed 
Implementation Plan to reshape the Agency, as presented, will: Develop 
a mix of staff skills to meet mission needs; Cross-train current staff 
to be multi-skilled; Align and consolidate functional activities and 
programs to build efficiency and minimize redundant services.
    The use of buyout/earlyout authority was requested to stimulate 
turnover and NOT downsizing, thus providing a managed restructuring 
process. The Agency requested a three year process so as to manage the 
rate of turnover to ensure that the Agency could maintain customer 
service levels and fill critical needs.
    Based on work completed by the superintendents and other senior 
staff, the Agency identified the occupations and program areas for the 
first year of reengineering which: Have minimal interaction with 
congressional operations; have no security concerns; have easily 
defined tasks and duties; and have been evaluated against potential 
impact on the integrity of structural, electrical and mechanical 
systems.
                    authority for buyouts/earlyouts
    Section 308 of Public Law 105-275 authorizes The Architect of the 
Capitol to administer a three year voluntary separation incentive 
(buyout) program and voluntary early retirement (earlyout) program 
within the Agency. This authority does not include employees of the 
U.S. Senate Restaurants. The justification for this program is to 
facilitate reengineering and reinvesting in the Agency to meet both 
mission requirements and fiduciary responsibility. Prior to each annual 
buyout/earlyout program, the Architect must submit the Agency 
Reengineering Plan to the Committee on Rules and Administration of the 
Senate and the Committee on House Oversight of the House of 
Representatives for approval. The plan shall include the positions and 
functions to be reduced or eliminated, identified by organizational 
unit, occupational category, and pay or grade level; the number and 
amounts of voluntary separation incentive payments to be offered; and a 
description of how the Agency will operate without the eliminated 
positions and functions.
                                approach
    In preparation for implementing a reengineering effort which would 
utilize buyout authority to facilitate turnover, the AOC has taken the 
following steps: Benchmarked with technical experts (Building Owners 
Management Assoc., Office of Personnel Management, facility management 
experts such as GSA, Coca Cola, and several universities, GAO, etc.); 
Consulted with Arthur Andersen Consulting, Inc.; Reaffirmed operational 
selection criteria with Superintendents; Performed risk assessment for 
operational areas--task activity based; Determined the commercial 
availability of services and support; Planned next steps, including 
required organizational and operational support.
    To achieve the desired reengineering goal over the next three 
years, AOC's Year 1 approach for buyout and early retirement provisions 
ensures that the Agency, with in-house staff, will continue to perform 
duties that have direct impact on the integrity of structural, 
mechanical, and electrical facilities; and continue to perform critical 
services as defined by Members of Congress. This program is designed to 
assure that all AOC services are continued without interruption or 
diminution over the period.
                        key elements of the plan
    The maximum payout for a buyout will be $25,000. The cost of the 
buyouts will be paid from the salary savings realized through the 
employees' departure from the AOC payroll.
    The AOC will reinvest savings realized through this program into 
Agency operations and projects as well as in procuring services through 
outside vendors as appropriate.
    The Agency will reengineer positions that are vacated through this 
effort to provide for a complement of multi-skilled staff; positions 
that are restructured by filling at lower grade levels; and positions 
that will be used for the Architect's Mobility Program.
    Program and work process consolidation will be a part of this 
effort to ensure that economies and better efficiencies are realized.
    Union negotiations will need to be completed prior to 
implementation of the plan as it affects bargaining unit employees. The 
outcome of negotiations may affect the projections made in the plan.
    The proposed announcement to employees, of the buyout opportunity, 
must be made as soon as possible to realize the maximum possible 
savings.
                  determination of occupational groups
    The Superintendents of each jurisdiction, along with other senior 
staff, completed organizational reviews that resulted in the 
identification of occupational groups that provide the best 
opportunities for AOC-wide reengineering.
          jurisdiction categories for buyout/earlyout program
    Cross-jurisdictional tasks were analyzed for their potential to 
incorporate best business practices and to provide more cost effective 
programs and services. In addition, the Agency focused on the 
occupational groups that provided opportunities for:
  --Multi-skilled Staff.--Identified opportunities within the 
        occupational groups to introduce a multi-skilled workforce. 
        Sample position descriptions, vacancy announcements, and 
        training be used in staffing a multi-skilled workforce have 
        been developed and are ready for implementation.
  --Position Restructuring.--Identified potential cost savings by 
        restructuring the work assignments of journeyman-level 
        positions to ensure that work which could more appropriately be 
        performed by lower-graded staff is not a part of the day-to-day 
        assignments for journeyman-level staff.
  --Architect's Mobility Program.--Developed a program to provide 
        opportunities for career limiting positions. The Program, 
        currently being negotiated with the union, will be used to 
        retool positions identified within the jurisdictions. In 
        addition, it will also serve as a tool for Agency succession 
        planning in future years.
    The Reengineering Plan, using buyouts and earlyouts, will result in 
savings from eliminated positions and also provides additional savings 
and flexibilities through realigning and restructuring the Agency's 
organizations and its workforce.
  --Projected Reengineered Positions.--Positions were identified for 
        restructuring as multi-skilled jobs. Positions are projected 
        for use in the Architect's Mobility Program, and positions will 
        be retooled and reclassified (positions restructured to carry 
        out work at a lower grade level). The projected savings will be 
        reinvested for Agency operational support needs.
  --Program Consolidation--Work Process Consolidation is also a part of 
        these reengineering efforts. Examples of efforts in this area 
        include: consolidation of the U.S. Capitol House HVAC shop and 
        the U.S. Capitol Senate HVAC shop, which reduced the number of 
        supervisors through attrition; alignment of preventive 
        maintenance functions with evening staffing requirements in the 
        House and Senate; and consolidation of all landscaping and 
        ground maintenance functions for the Supreme Court and the 
        Library of Congress under the Agency's Landscape Architect.
  --Succession Planning.--The review of vacated positions to ensure 
        that AOC's future workforce embodies the knowledge and talents 
        to carry on the reengineering goals identified in the plan.
                     buyout program administration
Year 1 Buyout/Earlyout Occupational Groups/Program Areas
    Year 1 buyouts/earlyouts opportunities apply to positions that have 
been identified in individual jurisdictional plans. Due to mission/
program needs as specified by the Superintendents in the organizational 
analysis activity, some jurisdictions may not be offering buyouts in 
some of the occupations/program areas identified in the Year 1 
Reengineering Plan. Buyouts/earlyouts in subsequent years will be for 
different occupational groups/program areas.
Communications
    In order to effectively communicate buyout/earlyout information to 
AOC employees, the AOC will use a variety of written informational 
tools and in-person communications. Written communication tools will be 
used to convey the buyout/earlyout material (number and types of 
positions included in Year 1 plan, the application process, the 
timeframe for application and separation, etc.) Employees will have 
access to the information via memoranda, the employee newsletter, and 
the AOC intranet. Supervisors will also be provided guidance material 
to assist in information dissemination.
    A number of general employee briefings are planned to personally 
explain the application and selection process, the Federal retirement 
programs, leave and employee benefits considerations, etc. Individual 
retirement and separation counseling sessions will be provided by a 
retirement counselor to include retirement and benefits calculations 
and information.
    An informational hot-line will be used to provide general overview 
information and will provide the opportunity for employees to speak 
with a human resources advisor regarding a specific topic or question.
Labor Management Considerations
    Buyout and earlyout options will be offered to some members of the 
AOC bargaining unit. The Agency will submit the proposed AOC 
Reengineering Plan to the union to satisfy legally required union 
negotiations as to impact and implementation. The Agency's interest is 
to implement and effect the buyout/earlyout process, so as to allow 
employees to separate in the second quarter of the fiscal year, in 
order to realize the maximum possible savings and pay for the buyouts. 
While the Agency anticipates that the union shares a common interest in 
making buyouts/earlyouts available to bargaining unit employees, the 
timing and implementation of the process, for bargaining unit 
employees, will be contingent on completion of any required union 
negotiations. The outcome of negotiations may affect the projections 
included in this plan as to bargaining unit positions.
Process Information
    Eligibility.--Employees who agree to separate from the Agency 
through regular retirement, early retirement, or resignation are 
eligible to apply for a buyout if: they are a permanent AOC employee; 
they have continuously worked for the Federal government for the past 
12 months; and their current job classification and title is the same 
as the type of job category identified for the Year 1 buyout/earlyout 
program. Employees are not eligible to apply for a buyout if: they are 
a reemployed annuitant; they are a temporary employee (appointment pay 
plan designated as GG, or Davis Bacon (DB); they have previously 
received a buyout; they are or would be eligible for disability 
retirement; or they are employees of the U.S. Senate Restaurants.
    Application Package. Buyout/Earlyout Applications will be submitted 
to the Human Resources Management Division (HRMD) identifying the 
proposed type of separation, separation date, and appropriate employee 
information. The application will be included in the AOC Buyout/
Earlyout Application Package.
    Verification. HRMD will verify that the applicant: (1) is eligible 
for a buyout, (2) is ineligible for disability retirement, (3) is 
eligible for the type of separation indicated on the proposed 
separation date (regular retirement, earlyout, or resignation after at 
least 12 months of continuous service, (4) has been counseled by a 
Human Resources Advisor, (5) and any other provision negotiated with 
the union representing the bargaining unit to which the employee 
belongs.
    Selection. Since more applications for buyouts may be received for 
some of the occupations than the number of buyouts available, the 
Agency will use fair and objective criteria for deciding which 
applications will be approved. In this circumstance, the AOC will use 
employees' total length of Federal service as selection the criterion. 
Should a tie result in length of Federal service, AOC length of service 
will be used to break the tie.
    Payment. The amount of the buyout will be $25,000 or the amount of 
severance pay due on the date of separation, whichever is less. Payment 
is made in a lump sum, after deductions for Federal, state and local, 
and Medicare/FICA taxes, after the employee leaves the Agency. Buyout 
payments are also subject to garnishment for alimony, child support, or 
other debts. In addition, payment will be made to the Civil Service 
Retirement and Disability Fund in the amount of 15 percent of the final 
basic pay of each employee who is paid a buyout (as identified in 
Public Law 105-275).
    Separation. Employees selected for a buyout must separate through 
regular retirement, early retirement, or resignation during the buyout 
window.
    Delayed Separation. Superintendents of each jurisdiction may 
request the approval of the Architect to retain an employee, who has 
been selected to receive a buyout, until a specific separation date 
later than the separation date identified in the buyout window (but no 
later than June 30, 1999). The written request to the Director, Human 
Resources must indicate the way in which these employees' services are 
critical to the performance of the Agency's mission, certify that 
without the employees' services, the organization could not perform 
critical duties that have direct impact on the integrity of structural, 
mechanical, and electrical facilities; and/or could not perform 
critical services for the Congress.
    Restriction on Reemployment. Employees who accept a buyout may not 
be reemployed by the Federal government for a period a five years, 
including employment under a personal services contract. If reemployed 
within five years, employees must repay the entire buyout payment to 
the AOC. (Only under extreme circumstances may this provision be 
waived.)
Report Generation
    HRMD will provide each jurisdiction appropriate information to 
accurately track progress towards stated jurisdiction plans so that 
senior leadership is apprised of program progress.
                             annual report
    Following each buyout/earlyout, the AOC will compile an annual 
report to compare the actual results with the planned results. The 
Agency will forward the report to the House of Representatives 
Committees on House Oversight and Appropriations and the Senate 
Committees on Rules and Administration and Appropriations.
                                 ______
                                 

                               Appendix G

    Architect of the Capitol Status of Selected Capital Improvement 
           Projects, Fiscal Year 2000 Appropriations Hearings
Dome Rehabilitation
    The 130-year-old Capitol dome is undergoing a rehabilitation to 
ensure its structural integrity as well as its protection and 
preservation into the next century. Construction phasing was determined 
early in 1998; several studies and pilot projects and an interim master 
plan associated with the first phase were also completed, paving the 
way for the preparation of construction documents and the issuance of 
an Invitation for Bid. The phase one construction contract was awarded 
to The Aulson Company of Methuen, Massachusetts, on January 11, 1999, 
and the work will proceed while the staff and consulting team continues 
with additional studies and the production of design documents in 
preparation for phase two of the construction that is anticipated to be 
awarded mid-year 2000. The entire project is scheduled to be completed 
in the second quarter of calendar 2003.
U.S. Botanic Garden Conservatory Renovation
    The contract for the renovation of the U.S. Botanic Garden 
Conservatory was awarded to The Clark Construction Group, Inc., of 
Bethesda, Maryland, in September 1998. The company was issued a Notice 
to Proceed in the same month and extensive work presently underway is 
clearly visible to passersby. The renovation and reconstruction of the 
1933 Conservatory will totally replace and modernize its building 
systems while retaining its architectural character. The initial award 
is for the base renovation of the structure (including the interior 
landscapes) and installation of water treatment, security and 
environmental control systems. During 1999, the Architect may choose to 
award additional projects that are included in the contract as options 
if additional funds become available. The work is to be completed no 
later than September 5, 2000. Immediately thereafter, the staff of the 
U.S. Botanic Garden will install the plant exhibits in each house of 
the Conservatory.
Rayburn House Office Building Sprinkler Protection and 
        Telecommunication Improvements
    This project is intended to provide a sprinkler fire protection 
system for those areas of the building not presently covered (to 
supplement the existing fire protection system), a new 
telecommunication cable tray system to facilitate the installation of 
new telecommunications cabling systems throughout the building, and 
replacement of one emergency generator to support a new fire pump and 
other critical equipment in the Rayburn House Office Building. The 
Architect of the Capitol received 100 percent contract document 
drawings and specifications on January 27, 1999. The 100 percent Cost 
Estimate was received on January 29, 1999. Within the next two weeks, 
this office will review, make comments and send the comments to the 
consultant, James Posey Associates. The final submission is expected to 
be delivered to AOC by the end of February 1999. The project should be 
bid this spring and awarded this summer. It is anticipated that 
construction will take about three years.
Chiller Replacement in the East Refrigeration Plant, Capitol Power 
        Plant
    The existing chillers in the East Refrigeration Plant are over 
forty years old and utilize CFC-based refrigerants which are no longer 
manufactured while the replacement chillers will be considerably more 
efficient and will utilize an environmentally friendly refrigerant. A 
Commerce Business Daily announcement seeking consulting firms 
interested in performing the design for this project was issued last 
summer with proposals received from numerous highly qualified firms in 
the fall. Interviews for the final selection of a consultant should 
occur in February 1999 with award of a contract to follow. Upon award 
of the contract, design will proceed immediately with a study to 
confirm the exact configuration of the chiller replacement and 
development of a pre-purchase bid package for the chillers and other 
large equipment. This pre-purchase bid package should be bid and 
awarded this spring and summer. Final design of the entire project 
should be complete in early 2000.
Library of Congress Book Storage Facility at Fort Meade
    Bids are due on February 12, 1999, for the construction of Storage 
Module #1 and an adjacent office component and for initial site 
preparation and development work. There has been an unusually high 
level of response to the Invitation for Bids. The first storage module 
(of an anticipated total of 13) is 8,000 square feet and the office 
component 5,000 square feet. Construction is expected to begin in April 
1999 and be completed in July 2000. Future modules, not tied to 
additional office components, may be larger.
Roof Fall Protection Program
    The objective of this complex-wide program is the design and 
installation of roof fall protection systems on all buildings as 
required. At present the 30 percent construction documents are being 
reviewed for the U.S. Capitol and House and Senate Office Buildings. 
The documents will be completed before the end of fiscal year 1999. 
Earlier in the design phase are systems for Library of Congress 
Buildings and structures at D.C. Village. Attempts will be made to 
accelerate the completion of construction documents for other buildings 
so that construction might possibly begin subject to the availability 
of reprogrammed funds. The designs of systems for the U.S. Capitol 
Police Headquarters Building and Webster Hall are being given priority 
for acceleration due to the need to obligate annual funds for a 
combination of roof replacement and fall protection system 
installation.
Underground Storage Tanks
    In compliance with the December 22, 1998, EPA mandate and working 
under a Memorandum of Understanding with the Army Corps of Engineers, 
the Architect has temporarily closed all existing tanks. The Corps is 
working with AOC design consultants on the replacement of those tanks 
identified as essential in support of Congressional operations. Three 
diesel tanks have been designed and are with the Corps for costing. A 
fourth is being designed. A gas tank and gas station are being 
designed; conceptual plans are scheduled to be completed in early 
February 1999. The Corps is also involved with the design of the 
excavation and removal of five other tanks that have been out of 
service and are no longer needed. All of this work is scheduled to be 
completed by the end of June 1999.
K-9 Facility for the U.S. Capitol Police
    A facility to house twelve police dogs is under construction at 
D.C. Village. The facility is under roof and windows and doors have 
been installed. Interior work is underway including the configuration 
of the individual kennels. Completion is projected during February 
1999.
                                 ______
                                 

                               Appendix H

 Architect of the Capitol Status of Architect of the Capitol Year 2000 
          Readiness, Fiscal Year 2000 Appropriations Hearings
    The AoC developed a ``Year 2000 Compliance (Y2K) Plan'' in May 
1997. The plan originally focused on internal systems, but now the AoC 
views the project in two distinct, yet sometimes overlapping arenas: 
internal mission critical systems; and externalities. As the Y2K 
industry's focus has broadened to include external systems, so too has 
the AoC's focus. Now, there are significant resources being assigned to 
the development of a contingency plan for use in the event of an 
external utility failure.
    The status of the AoC's internal systems has been monitored by GAO 
in its quarterly reports to the Senate Appropriation Legislative Branch 
Subcommittee for four quarters now. The AoC provides input to GAO via 
the Mission Critical Systems inventory. This inventory was created as 
part of the initial AoC Y2K plan, and it is continually being updated 
with system progress and newly identified systems. It was created by 
the AoC's Y2K committee, and recently it has been reassessed through a 
series of meetings with each of the AoC jurisdictions. In addition, the 
inventory is being evaluated by Mitretek: an independent contractor. 
Currently, there are 36 systems on the Mission Critical inventory. 
These systems include building infrastructure systems: elevators; 
environmental control; Senate subway, as well as AoC operational 
systems: accounting; project scheduling; networks; etc. In the latest 
GAO report, the AoC identified 13 of the 36 mission critical systems as 
being implemented. So what is the status of the other 23 systems? Many 
of them are already Y2K compliant or not date-dependent, but lack the 
documentation to include them on the list of implemented systems. The 
remaining systems are being renovated and tested, or are having a work-
around developed and tested. The AoC has established June 30, 1999 as 
the completion date for testing all systems, and is confident that this 
date will be met. Additional funding to support vendor testing and 
certification, and various system upgrades will be requested from GAO's 
``emergency supplemental appropriations''. At this time, the AoC knows 
of no internal system that will result in a major disruption to 
operations because of its inability to properly process 2000 as a valid 
date. In addition, most of the building infrastructure equipment does 
not rely on computer-chip technology or has a manual override for 
contingency purposes.
    These building systems are of particular interest to their 
occupants, so it is appropriate to describe the status of some of them 
here.
    The Capitol Power Plant (CPP) does not generate or distribute any 
electrical power. It generates steam for heating the legislative 
buildings and chilled water for cooling, including phone rooms, 
computer rooms, and LoC generators. It is totally dependent on the 
District of Columbia water supply system for its massive consumption 
rate for generating steam and chilled water. The oil and coal fuel for 
steam generation will be stockpiled in late 1999.
    All electric power for the Capitol complex is provided by PEPCO.
    The fire and life safety systems have been certified compliant by 
the vendors. The Fire and Life Safety Office supports their claims, and 
additionally states that as a contingency all ``UL Listed'' fire alarms 
have manual overrides. A complex-wide vendor test and certification of 
all the fire alarms is being planned.
    The automated environmental control system directs the heating and 
cooling units in most of the Capitol complex buildings. The software is 
currently non-Y2K compliant, but the vendor keeps providing changing 
cost proposals for implementing an upgrade. Engineering is evaluating 
the upgrade and at the same time investigating a work-around as a 
contingency. The heating and cooling units can be operated manually as 
a more extreme contingency.
    There are 231 elevators throughout the Capitol complex, but only 65 
of them use computer-chip technology for controls or monitoring. There 
are four vendors that have implemented different versions of their 
systems. The various versions have been tested by AoC personnel, but 
the most frequently used vendor has been providing conflicting 
information about compliance. Only three elevators are in question, but 
our Elevator Engineering Division is preparing to upgrade them and is 
scheduling vendor tests and certifications for most of the other 
systems too.
    The Y2K project at the AoC has benefitted from the cooperative 
efforts of the Senate's Y2K committee activities, the support of AoC 
top-level management, and the active participation of the different AoC 
jurisdictions. The AoC is reasonably confident that its internal 
systems will continue operating without major disruptions into the next 
century. This does not mean that the AoC will reduce its emphasis on 
this project. Quite the opposite, the AoC is now taking a more pro-
active role in coordinating activities with outside organizations. The 
AoC attends meetings of the CIO Council on Y2K, the House's CAO 
Business Continuity & Contingency Plan meetings, and more. The AoC, 
under the direction of the Assistant Architect, is hosting its own 
weekly executive Y2K meetings, including sponsoring presentations by 
the major utility providers about their Y2K status and contingency 
plans. Representatives from the other legislative agencies are being 
encouraged to participant in these presentations. The briefing by PEPCO 
on February 16 is being followed by a March 9 meeting to formulate 
table-top exercises and failure simulations involving PEPCO, AoC and 
the U.S. Capitol Police. The other utility providers will be asked to 
sponsor the same testing and planning opportunities.
    This leads to the second focus of the Y2K project: externalities. 
Safe and inhabitable Legislative buildings are dependent on external 
utility suppliers. We do not control these suppliers, but we are 
addressing the issue in two ways: (1), we are discussing our concerns 
and developing mutually beneficial tests; and (2), we are developing a 
contingency plan that can be used in the event of a utility failure. As 
noted above, the AoC has scheduled presentations with each of the major 
utilities to learn about their Y2K preparedness and contingency plans 
and will continue a dialogue with each of them. The dialogue will 
assist us in identifying existing systems that may need attention and 
provide direction for contingency planning. Presentations are scheduled 
to be given by Bell Atlantic (March 2), the D.C. Water and Sewer 
Administration (March 9), Washington Gas (March 23) and the legislative 
phone providers will be addressing their systems as well under their 
separate responsible entities.
    The AoC's contingency planning is in the information gathering 
phase. The office of the Director of Engineering is conducting 
mechanical and electrical equipment surveys of each building. This will 
be used to document which equipment is necessary to maintain the 
building infrastructure. The Architect has directed a load capacity 
test of all emergency generators which primarily serve life safety 
functions. The Electrical Engineering Division will coordinate these 
tests and together with the equipment survey, the Director of 
Engineering's Office will develop a base-line of services. This base-
line will provide a picture of what can be operational in the event of 
a partial or total utility failure. It will also be used to identify 
which equipment needs to be supported by alternative power to more 
comprehensively maintain the buildings infrastructures. The AoC will 
propose reasonable ``Alternative Occupancy Plans'' that will address 
services that can be provided during a utility failure, as well as the 
time and cost of providing each proposal. These proposals will be 
developed by March, 31, 1999 and will be presented for Congressional 
approval. Funding for the occupancy plan will be requested through 
GAO's Y2K and emergency supplemental appropriations as necessary. The 
contingency plan will also include a ``Day-1 Plan'' detailing 
recommendations for staffing, computer room preparation, office 
automation preparation, as well as identifying tasks that will be 
undertaken to ensure the building operations are running smoothly.
    The AoC views the Year 2000 preparations as a good opportunity to 
develop a contingency plan that can be adapted to function as a general 
emergency preparedness plan. The same issues that are arising around 
the Y2K problems could happen any day at any time and disable one or 
more external utility provider. The specific Y2K contingency plan can 
be easily modified to be a non-specific emergency plan, and will also 
provide some direction for building modifications that might lead to 
more utility independent legislative buildings.
                                 ______
                                 

                               Appendix I

  Architect of the Capitol Financial Management System Improvements, 
                Fiscal Year 2000 Appropriations Hearings
                              introduction
    The AoC is pursuing the upgrading and integration of information 
systems and business practices in order to provide a business 
environment that provides timely access to reliable information. 
Currently, AoC's various systems do not share information or common 
data definitions. The implementation of a new Financial Management 
System (FMS) and the integration of other systems with FMS will be a 
major step towards AoC's system integration goal. The FMS 
implementation will also lead to the AoC's first preparation and audit 
of financial statements. These goals are fully consistent with the 
Vision Statement of the Legislative Branch Financial Manager's Council, 
which the agency adopted last year. The AoC is currently in the 
beginning stages of the FMS implementation.
    The AoC requires a new financial system that is compliant with 
Federal standards, easily integrated with other systems, provides 
timely and accurate information and contains electronic workflow 
capabilities. The new core financial system must be tightly integrated 
with inventory, procurement and fixed assets systems. It must also 
interface with the other AoC systems such as the facilities management 
system, the human resources system, and the project tracking system.
    The new Financial Management System, which will be compliant with 
all Federal standards, will be implemented in phases. The first phase 
will be the implementation of the core financial system (including the 
Standard General Ledger), an inventory module or system, and a payroll 
interface from the U.S. Department of Agriculture National Finance 
Center. Subsequent phases will include the implementation of a 
procurement system containing contract functionality, the integration 
of FMS with the agency's facility management system (CAFM) and the 
project tracking system (PS&C), the implementation of a fixed assets 
system, the enhancement of the labor distribution accounting, and the 
development of an executive information system.
    The AoC has included the members of the Legislative Branch 
Financial Group Manager's Council (LBFMC) in our financial systems 
implementation efforts and will continue to coordinate future tasks 
with LBFMC related to financial management. Further, the General 
Accounting Office has provided staff assistance throughout this effort 
and has agreed to continue its assistance through the evaluation and 
implementation phases.
                        accomplishments to date
    Implemented Y2K fix for accounting system.--In October, 1997, the 
AoC implemented a conversion of existing systems for an interim 
procurement, accounting and inventory system that was Y2K compliant. An 
interim solution was pursued because of time constraints relative to 
the year 2000. The interim system is referred to as CAS (Computer 
Application System). Although the CAS system meets AoC's needs in the 
areas of purchasing, payables and inventory, it is not compliant with 
federal standards and has limited budgeting and general ledger 
functionality. CAS was chosen as an interim solution because it was 
already being used for purchasing at the AoC and it was more cost 
efficient than modifying the previous accounting system. In addition to 
resolving the Y2K issue, the CAS system provided online processing 
capabilities, and integrated procurement, receiving, payment, and 
inventory functionality. Existing data residing on the UNISYS mainframe 
from the previous accounting system was converted to CAS, and the 
UNISYS system was eliminated.
    Hired consultant to validate our FMS requirements.--AoC contracted 
with a consultant to validate our FMS requirements and provide 
recommendations in the selection of a new FMS system. The consultant 
gathered our requirements, compared the requirements to the 11 
federally compliant financial packages offered on the GSA Financial 
Management Software Schedule and determined that 3 packages potentially 
meet AoC's requirements. The consultant also recommended that AoC 
consider an additional vendor since that vendor was the historical 
market leader in federal financial systems, and had software 
implemented in several Legislative offices. In addition, the consultant 
recommended that the AoC resolve several business practice issues 
before going forward with the procurement of a financial package.
    Hired Project Manager to implement FMS.--A project manager was 
hired in November, 1998 to implement the Financial Management System 
and to maintain the system upon the completion of the implementation. 
The new manager has recent experience managing the implementations of 
federal financial systems in 5 federal agencies as a consultant working 
for private industry. He also has previous experience managing 
financial operations as a government employee for 3 federal agencies. 
His expert knowledge of federal financial systems implementations and 
federal financial management procedures will ensure a successful 
implementation of the FMS system. The next step is the hiring of a 
small project team of systems accountants and financial management 
analysts to assist the project manager in the implementation of the 
system. This process is underway.
    Developed draft Statement of Work for FMS procurement.--The AoC is 
currently in the process of preparing a Request for Proposal (RFP) for 
the purchase of a core financial management system. The RFP will 
contain a Statement of Work specifying the software requirements and 
the implementation support required.
    The draft Statement of Work (SOW) has been developed and is 
currently being reviewed by AoC staff and GAO representatives. The SOW 
includes detailed requirements for the core financial system, 
inventory, procurement, fixed assets, system interfaces, reporting, and 
general technical requirements. The SOW also contains the requirements 
for contractor support required for implementing the first phase of FMS 
(core system and inventory).
    Developed draft Project Plan for FMS implementation.--A draft 
project plan has been developed that describes the project purpose, 
tasks, staffing and provides a risk management plan during 
implementation. Also provided is a detailed schedule of the 
implementation tasks required to be performed, and a schedule of the 
``pre-software selection'' tasks that need to be accomplished. The 
draft implementation plan covers a 17 month implementation period with 
a ``go live'' date of 14 months after the purchase of the software.
    The selection of a vendor and the purchase of the software is 
tentatively scheduled to be accomplished by the end of this calendar 
year. This schedule is dependent upon the appropriation of necessary 
funding (which is requested in fiscal year 2000), our procurement 
approach and the resolution of several business process issues 
(discussed in the next section).
               upcoming financial management initiatives
    Select FMS package.--The AoC plans to select and purchase a 
financial management package by the end of this calendar year. This is 
an aggressive schedule when considering the tasks that need to be 
performed to select a financial software package and it is being 
reviewed by the GAO. The requirements analysis performed by a private 
consulting company (discussed under the accomplishments section), 
recommended the resolution of 3 business practice issues prior to 
purchasing a system. The issues that affect the financial system 
requirements are as follows:
  --Time Tracking.--Time tracking is an important element in the 
        information required to manage facilities management activities 
        and construction projects. The consultant's report recommends 
        that the AoC define and standardize business practices to 
        capture detailed, real time costs for labor by project and 
        labor category across AoC. This will provide AoC leadership 
        adequate information for planning, estimating, and managing 
        work, and also enhance reporting capabilities to oversight and 
        appropriations committees.
  --Work Management.--Standard procedures are needed for performing 
        facilities management and construction management activities 
        across the AoC. Currently, each jurisdiction operates 
        differently, and there is a lack of consistent communication 
        across AoC jurisdictions with respect to resource usage. The 
        AoC also needs to review its segregated inventory practices and 
        consider aligning inventory and procurement procedures with 
        overall organizational inventory needs.
  --IRM Strategy and Infrastructure.--The AoC needs to clearly define 
        its business processes, organizations, business locations and 
        functions in order to develop an IRM strategy that achieves a 
        truly integrated business process. The information technology 
        architecture must be aligned with, and support the 
        organizations operation.
    Prior to issuing a Request for Procurement, the three issues 
discussed above will be addressed. Once the effect on the financial 
requirements are determined, the statement of work can be adjusted and 
the AoC can go forward with the procurement.
    Other tasks that AoC will perform prior to selecting a financial 
package are as follows:
  --The AoC will develop the criteria for evaluating the various vendor 
        proposals. As many as 11 proposals are expected to be received. 
        Effective evaluation criteria will result in AoC choosing the 
        best system to meet its requirements.
  --The AoC will arrange informal demonstrations of the vendor products 
        prior to issuing the procurement document. This will allow AoC 
        staff to gain preliminary knowledge regarding the vendors' 
        products prior to beginning the formal evaluation process.
  --After the receipt of the formal proposals, the AoC will 
        ``downselect'' the best qualified proposals and require the 
        vendors to perform Operational Capability Demonstrations (OCD) 
        to demonstrate how their software meets the stated 
        requirements. This process will allow AoC to determine if the 
        systems perform basic requirements in an efficient and user-
        friendly manner.
    Implement the Financial Management System (FMS).--The FMS project 
includes the implementation of a core financial system and the 
integration of the core system with other AoC existing and planned 
systems. The system will be implemented in phases as follows:
  --Phase 1.--Implementation of the core financial system and inventor 
        module. This will include the development of an interface with 
        the USDA payroll system and the conversion of data from the 
        existing financial system (CAS). The CAS system will be phased 
        out as the data is converted to FMS. Phase 1 is expected to be 
        complete by the end of fiscal year 2001.
  --Phase 2.--Implementation of a procurement system that provides 
        contractual functionality. This will include the integration of 
        the system with the core financial system. Also occurring 
        during Phase 2 will be the resolution of any implementation 
        issues from Phase 1. Phase 2 is expected to be completed by the 
        end of fiscal year 2002.
  --Phase 3.--Integration of the Facilities Management System and the 
        Project Tracking System with FMS. This may also include the 
        integration of a new Time and Attendance system and the 
        development of an Executive Information System. This phase is 
        expected to be completed by the end of fiscal year 2003.
    Inventory Improvements.--The AoC is currently in the process of 
improving its inventory operations to increase controls over the 
safeguarding of assets and provide consistency across the jurisdictions 
in the application of inventory procedures. A complete reconciliation 
of the actual ``in-stock'' inventory to the inventory accounting 
records is in process. Procedures are being enhanced to ensure the 
continued accuracy of the information. A regularly occurring cycle 
count process is also being put in place. These activities will not 
only enhance control over inventory operations, they will also 
facilitate the FMS implementation and eventual auditing of financial 
statements.

                 removal of Parking on Maryland Avenue

    Senator Bennett. Let me interrupt you with a very tiny 
item, but nonetheless, given its source, I need to pursue it. A 
very senior member of the United States Senate approached me 
and said: You are the chairman of that subcommittee, are you 
not? I said yes.
    He said: I run every day in that area, my daily run. And I 
have watched the progress in the Botanic Gardens and the areas 
being fenced off and so on. He said: In the course of fencing 
it off, you have eliminated parking spaces for about 100 people 
who work on Capitol Hill, and I never see any construction 
equipment in the area of the parking spaces. Can you not 
restore those parking slots for the individuals who work on the 
Hill who are now inconvenienced?
    I do not know enough about construction and safety and the 
rest of those things to answer his question. But given his 
seniority and his position over me in another circumstance, I 
promised him I would raise it, and I think it is something I 
would like to be able to go back and report to him on.
    Mr. Hantman. First of all, Mr. Chairman, alternative 
parking locations have been found for the people whose spots 
have been dislocated from Maryland Avenue, many of whom are in 
my agency.
    Senator Bennett. Oh, so you hear about it directly.
    Mr. Hantman. I do, sir.
    But we have worked with the House Sergeant at Arms and 
their parking people to find alternative locations for these 
folks. What we have done essentially is in closing Maryland 
Avenue we have reserved the space for the contractors for the 
U.S. Fund, the National Fund area as well. We will have two 
different contractors working on two separate contiguous 
projects. So we appropriated half the site for the Botanic 
Garden and the other half for the National Fund project, which 
will be awarded within the next couple of months.
    Senator Bennett. OK. I have now done my duty.

                        Capitol dome renovation

    Mr. Hantman. The second major project which everybody is 
very aware of is the dome project. We had gotten emergency 
funding to the extent of $7.5 million to essentially do 
research into the Dome, to find out what the real scope of the 
problem is. I guess the doctor has to go in and cut the patient 
open a little bit to find out what is in there. Hopefully, 
radiation therapy and things like that will not be necessary.
    We have awarded that first contract, which is really for 
the interstitial space between the inner dome and the outer 
dome, to remove the lead-based paint, to do inspection on every 
plate and every structural member in that area, to be able to 
determine how many cracked pieces of cast iron need to be 
replaced, can we fix them in place, how are the connectors 
faring after 140 years.
    All of this work is going to be underway. We have awarded 
the contract. The contractor should be coming on site this 
month. He will be staging his work between the central rotunda 
steps on the east plaza and the Senate steps, and building 
scaffolding to get up above the base building of the Senate to 
the dome itself. This is projected to be an 18-month project.
    We have requested clearance from our leadership on both the 
Senate and the House side to be able to close the rotunda for a 
period of 3 weeks plus or minus in order to set up the 
scaffolding that we will need to protect the rotunda so that we 
can do that work and allow people to continue to walk through.
    I am not sure, sir, if you have seen our renderings. Rather 
than going back to what had been done in 1959 or so, 1960, when 
work was last done, that required scaffolding from the floor of 
the rotunda all the way up to the Apotheosis, we are trying to 
hang our scaffolding, essentially our netting, from the upper 
levels of the walkways so that they will drape below the column 
level and you will still be able to see essentially, 
Apotheosis, essentially through a doughnut of draperies.
    This is not a containment element relative to removal of 
the hazardous materials, the lead-based paint we have up above. 
That will be done square foot by square foot in a contained 
area within the interstitial space. What this is meant to do is 
protect against any paint or other elements from spalling off 
the inside surface of the rotunda.
    So we will need to close the rotunda itself for several 
weeks to set up this netting and the scaffolding required for 
it, and then ultimately we would have to, I think, at the 
closing stage close it again to remove the scaffolding.
    Part of the design for it, again, was meant to allow us to 
leave that scaffolding in place should we need to have a lying 
in state or a special activity in the rotunda itself, and this 
is the clearance that we are looking for from the leadership, 
because the two to three days we would need to take it down 
would not be adequate to remove scaffolding and spend several 
hundred thousand dollars again putting it back up should we 
need it at that point in time.
    So the project should get underway. We think we will still 
be able to have dome tours for a short period of time, perhaps 
the last week of March and early April, before we seriously get 
started with the removal process itself.
    We have in this year's budget a request for some $28 
million, which is building on what we think the scope of work 
of this work will show us. We have done a lot of inspection 
work over there. I think this work will continue to inform us 
on what the real scope wants to be.
    But we did not want to lose a year in the appropriations--
--

                      Capitol dome renovation cost

    Senator Feinstein. Could I interrupt, with the chairman's 
approval, just on that one point?
    Mr. Hantman. Surely.
    Senator Feinstein. It is my understanding that a few years 
ago the dome project was estimated to cost $3 to $4 million. 
Now you just mentioned $28 million, and it is projected, I 
believe, to cost $35.5 million. That is a huge increase.
    Is the $35.5 million figure now a firm figure?
    Mr. Hantman. This is exactly what I was beginning to talk 
to, Senator.
    Senator Feinstein. Sorry.
    Mr. Hantman (continuing). The issue of the first $7.5 
million, which was an emergency appropriation, was meant to 
help us find out just those facts. Until we get in and really 
do the inspection, we are not going to know what the real 
number wants to be. It would be grabbing at air.
    What we are doing right now in this first phase, the $7.5 
million phase, will be looking at every plate, every structural 
member, all of the components that go into the dome itself, to 
determine what the full scope wants to be.
    The $28 million that we are recommending in this budget 
would build on that $7.5 million, and that would include not 
only remedial work inside the dome, but outside the dome, 
inside the rotunda, all of the work. The original $3 million 
that had been estimated by my predecessor on this was basically 
a quick and dirty paint job on the outside of the dome, and 
even in that sense it did not take into account the EPA 
criteria for contained removal of lead-based paint.
    Senator Feinstein. So what you are saying is we actually at 
this stage have no idea what the total cost is going to be?
    Mr. Hantman. We have a fairly good idea. What we will be 
seeing is----
    Senator Feinstein. And it is what?
    Mr. Hantman. The $7.5 million is the first increment. We 
are requesting $28 million right now for the next phase, and we 
have earmarked some $2 million in an out year if that $28 
million is not adequate. So we are looking at potentially $37.5 
million for the project, which is a project that--much of this 
work has not been touched for 140 years, from the gutters to 
the structural elements to repairing plates.
    Back in 1959-1960 they did some minor work on this area, 
but the balustrades have to be totally replaced. They have 
rusted out. Some of those plates are being held on by rust 
right now. We will be doing repairing of existing plates in 
place, trying not to remove the shell of the dome. In fact, we 
had John Whitman, Christie Todd Whitman's husband, in the other 
day talking about the restoration project they just did in New 
Jersey--a much smaller dome, but learning from their 
experiences and working with them, as we have also in Ohio on a 
similar dome by the same architect on a courthouse. We have 
been doing that kind of investigation.
    Senator Feinstein. Just one last question. Are you saying, 
then, that the firm final figure for the work on the dome is 
$37 million? Or are you saying this is just an estimate of what 
our preliminary stuff might additional cost, it could be much 
more?
    Mr. Hantman. That is our best sense of what it would cost. 
We do not believe it will be much more.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Senator Bennett. If you want, Senator Feinstein, I am sure 
the Architect would be happy to take you on the same tour that 
he took me on, where you walk through and look at some of these 
things.
    Mr. Hantman. We welcome that opportunity.
    Senator Bennett. Until you actually have it pointed out to 
you, you do not realize----
    Senator Feinstein. How much needs to be done.
    Senator Bennett (continuing). How much needs to be done.
    It is incredible to me that this cast iron building that 
was put up 150 years ago has basically had nothing done to it 
except paint in that period.
    Mr. Hantman. It is virtually true.
    Senator Bennett. It is really quite an interesting tour.
    Mr. Hantman. I think it is heartening to know that we did a 
structural analysis of the physical structure, the trusses that 
really hold up the dome, a three-dimensional computerized 
structural analysis to take a look at whether we are really 
deteriorating up there, and we found out that it was well 
designed, well built. We are not in trouble structurally.
    It is really the skin that is the issue right now, and it 
looks wonderfully pristine when it is lit up at night. But we 
would be happy to show you the issues.
    Senator Bennett. Keep it lit. [Laughter.]

               Dirksen Senate Office Building renovation

    Mr. Hantman. The next basic project, Dirksen Senate Office 
Building. The design is virtually complete. We are underway 
with some of the swing space construction in the Russell 
Courtyard. You, Mr. Chairman, of course are going to be very 
directly impacted by this project.
    Senator Bennett. Yes, I am going to have to move out of my 
office.
    Mr. Hantman. Right, into SDG-50, which is well appointed 
for that. It is going to be musical chairs for all of the 
members, as well as the committees, that are inhabitants of 
that building. But we are going to bring it up to the state of 
the art. So we do have $18 million in the fiscal year 2000 
budget request for that as well.
    Senator Bennett. Remind me again how long this is going to 
take and how much money we are going to have each year? Is $18 
million----
    Mr. Hantman. It is one more increment of $18 million.
    Senator Bennett. That would be the following year?
    Mr. Hantman. Correct. The total project cost as we are 
seeing it is $54 million. We have $8.5 million this year and we 
have had----
    Mr. Pregnall. $8.5 million previously.
    Mr. Hantman. $8.5 million previously.
    Senator Bennett. So the bulk will be in fiscal year 2000 
and 2001, and then it will start to taper off?
    Mr. Hantman. That is correct, sir.
    Senator Feinstein. Could I? Does this include the air 
conditioning system as well? Are you looking at that?
    Mr. Hantman. We are looking into the mechanical 
distribution system as well. One of the major issues is the 
flexibility to divide spaces into sub-offices or into large 
open offices at the discretion of the member. It is not there 
now. We have perimeter systems. So we will have air-diffuser 
light fixtures where you will be able to put up partitions and 
control the distribution of air much more reasonably.
    Senator Feinstein. Because there is a wide swing on the 
quality of air in this building, in particularly the hearing 
rooms. Some are fine, like this one. Others are just dreadful. 
Like for example, right now in Judiciary, every public hearing 
since this session the lights go out, everything goes out, and 
the air does not work at all right.
    The Foreign Relations one is the same, very poor air 
quality. I just think you should know that.
    Mr. Hantman. We are very well aware of that, Senator, and 
we are going to be resolving that as part of this problem.
    Senator Bennett. It is interesting to me to discover that 
the Russell Building technologically is probably at the highest 
level of any of the three buildings.
    Mr. Hantman. That is correct.
    Senator Feinstein. That is interesting.
    Senator Bennett. They have gone through and upgraded 
Russell completely and now they are doing it to Dirksen.
    Senator Feinstein. I can tell you, the Hart air is 
terrible. It is all contained, so the bad air goes from one 
office to the other.
    Mr. Hantman. That is the newest building, obviously.
    Senator Feinstein. Anyway.

                            Visitors center

    Mr. Hantman. The last project I just wanted to surface with 
you because I will be coming to you fairly shortly on it is the 
Capitol visitors center. Obviously, $100 million was applied to 
my budget as of last year, basically earlier this year. What I 
owe you folks is an obligation plan, and that is what I am 
working on and am hoping to submit to you and to the matching 
Legislative Branch Appropriations Committee on the House side 
next week.
    This obligation plan is to talk about the planning phase of 
what needs to be done in response to the legislation that was 
passed along with that appropriation. That legislation called 
for a revalidation, a re-examination, of the 1995 plan, the 
components of that plan, the location of the visitors center 
itself.
    In my cover letter to you I will be saying that I have a 
very high degree of comfort and sense of correctness of the 
1995 plan, and I am hoping that we can short-circuit some of 
the criteria that is put in the legislation, specifically 
reporting to at least six different committees and leadership 
on both sides of the House. I will be submitting two schedules 
to you: one, a worst case schedule, assuming one committee 
gives us approval on what we are talking about, another one 
says yes, but change this, another says no, but change that, 
and we will never get concurrence and be able to move ahead.
    There was an editorial in Roll Call not too long ago 
indicating that I was horrendously holding up the project. What 
I am trying to do is respond to what the legislation says and, 
concurrently with that, give you a recommendation of what an 
expedited schedule could be given the fact that we can have a 
review and approval process that we are all comfortable with.
    So that should be coming to you next week in terms of the 
appropriations requirement and I assume, based on the 
legislation, it then has to go to the six committees and 
whatever. So I will be asking you to essentially give us a few 
dollars up front so we can start the process while the big 
considerations are being looked at, so that we can move ahead 
with what is essentially a security and a life safety issue. So 
we will be talking further on that.

                         Operations improvement

    Mr. Hantman. Operations improvement. When I came in here, 
basically FMS systems were nonexistent; work management systems 
were nonexistent. We are trying to build a foundation here for 
this agency so that we can report as necessary to report, 
monitor all the expenditure of funds as necessary for you folks 
to be comfortable that we are monitoring them, for the GAO to 
be comfortable on that.
    We have installed a CAFM system, computer-assisted 
facilities management system, which the Senate did fund us for, 
and it was used for the first time during this selection cycle. 
So the Senate Rules Committee was able to call up on their 
computer screen every suite that the Senators might have, look 
at the musical chairs that we were playing with the changes of 
suites, being able to coordinate it with the Sergeant at Arms 
and their needs to look at it, and make that selection process 
much quicker and much more coordinated.
    We are also beginning to implement that on the House side. 
We have implemented it in the Capitol as well. Demand work 
orders are now being captured on that system as well, so we can 
take a look at how many hours, days it took to perform a 
function, how we are using our time much more efficiently. So 
we think that is a major first step in terms of our 
accountability to the Senate and to the Congress as a whole.
    On HRMD, the human resources management, we do have an 
appendix that talks about all of the issues that we looked at. 
Revitalization of our training program. Upward mobility 
programs have been signed off with the union. We are actively 
negotiating with them on several of these areas.
    Policy standardization across the board is very important. 
Larry Stoffel is here from the Senate Office Buildings, does an 
excellent job; Amita Poole from the Capitol Building itself; 
and of course Bob Miley services the House Office Buildings.
    Now, each one of these areas had basically been doing 
things their own way for many years. Now that we have unions, 
we have a compliance board meeting to standardize procedures 
and policies across the campus to make sure that we are doing 
things fairly, equitably, and getting the job done. This is 
what HRMD is striving to do and I think in the appendix on that 
we talk about many of those issues, and we are hoping to 
continue to build a strong relationship with the union and the 
folks that they represent as part of our agency.

                          Re-engineering plan

    In terms of re-engineering, we have been talking about 
being able to offer selected groups within our organization 
buyouts where it is appropriate. We have gotten approval on the 
first year of the 3-year buyout program from the Senate side. 
We have not yet gotten approval from the House side for that 
same program.
    Part of our goal had been to pay for the buyouts out of 
appropriated funds on salaries for that year. We are now past 
the point of return on this fiscal year where we would no 
longer have funds available to pay off the maximum of $25,000 
that our people would be eligible for on a purely voluntary 
basis. So we will probably be coming back to you with a request 
to expand that 3-year authority to do a fourth year so that 
come October 1st we can do what we had planned to do this 
fiscal year, but we have not been able to do because we have 
not gotten the signoffs on that yet. So we are moving on that, 
however.
    We are also doing training for all supervisory managers, 
skill enhancement programs, etcetera, trying to bring our 
people up to modern management methodologies.

                              Life safety

    Life safety focus. As you pointed out earlier, Mr. 
Chairman, the Russell Building is in pretty good shape. The 
Dirksen Building is going to be moving along as part of this 
project. We have some $16 million earmarked in this budget for 
life safety programs.
    We have centralized life safety across the campus under our 
Executive Officer Lynne Theiss, who is here with us today.
    Senator Bennett. Pardon me. What is your definition of 
``life safety''?
    Mr. Hantman. Emergency means of egress, fire detection, 
sprinkler alarms, separate from the security issues relative to 
the police.
    Senator Bennett. OK.
    Mr. Hantman. Those are two separate but yet interconnected 
issues.
    So we are moving ahead on that. Many egress doors that 
never met code before have been complied with. You will see 
that in the Capitol. You will also see that in the Senate 
office buildings. There are doors that never had emergency 
signs on it, panic hardware, any of that nature; they are being 
retrofitted. In fact, revolving doors will be replaced as well 
for means of egress throughout our Capitol complex. So we are 
moving on that very well.

                     Physical security master plan

    As far as security is concerned, one thing that did not 
come up in the hearing with the Capitol Police Board was the 
master plan we are doing on the physical security side. Part of 
our two-day retreat, we will have a report from our task force 
on physical security that is looking into training facilities 
that the police badly need, what will happen as their staff 
grows and they need additional locker areas, they need 
additional command center functions, offsite inspection for 
trucks, things of this nature, vehicle maintenance facilities.
    All of these elements are part of the master plan and we 
are trying to coordinate that with the Library of Congress, 
with the Supreme Court as well and their need for inspection as 
well as training of their separate police groups as well.
    So we are looking at that. We will be talking about that 
with the Capitol Police Board over the next couple of days and 
ultimately coming back with recommendations on what we think 
that master plan wants to be.

                           Perimeter security

    Relative to the perimeter security program, we just got 
signoff from the House of Representatives last week on the 
perimeter security program for Capitol Square. We had gotten 
signoff from the Senate on the perimeter security programs 
surrounding the Senate office buildings and we are proceeding 
on that. Our construction documents should be complete this 
month. We should be in the ground this summer.
    We will be negotiating with the foundry that prepared the 
design and the castings for the White House. The bollards that 
are surrounding the White House right now have Secret Service 
clearance. They have been designed specifically for certain 
levels of criteria which we are going to be incorporating into 
the Capitol as well.
    We had a kickoff meeting yesterday relative to the 
perimeter security program on the Capitol Square itself, now 
that the House has signed off on it. We are going to start a 
survey to take a look at where all the trees are, how the 
bollards can be integrated into the landscape, what kind of 
gates we might need for State of the Union Addresses or 
Inauguration Addresses, for automobiles or trucks or whatever 
to get in to service the grounds, and all of these issues are 
starting up now, now that we have gotten the clearances to move 
on that.

                        Y2K computer compliance

    Next issue is Y2K. We have taken this very seriously. We 
have meetings every week on Y2K within our organization, and we 
are very much involved with the GAO and they are looking over 
our shoulders as well. We have renovated and validated some 27 
of our 36 mission critical systems. These are internal systems.
    GAO has approved 16 of these 27 systems at this point in 
time and we are confident that the remaining 9 systems will be 
complete in time for the Y2K criteria. We can certainly go into 
that in much more detail. We have charts and graphs if you 
would like at this point, Mr. Chairman.
    The other issue certainly deals with things that are 
relatively beyond our control. I have met personally with 
Chairman John Derick of PEPCO, with D.C. Water. We are talking 
with GSA on the steam supplies they have to the Capitol 
complex. Bell Atlantic, we met with them yesterday. Our fuel 
oil suppliers--all of these issues to find out where external 
suppliers are relative to their ability to support us.
    As you are well aware, Mr. Chairman, I think most of these 
folks have attorneys on their staffs and nobody will guarantee 
anything. But we are fairly comfortable that PEPCO has told us 
that they are in excellent shape relative to this. D.C. Water 
we are checking into further because PEPCO is out of business 
if D.C. Water is not able to do what they need to do.
    So those external issues are very much on our minds. We are 
working on that. What would happen if PEPCO did not provide us 
with the power or the water from D.C.? Basically, we have 
emergency generators that would give us emergency power, 
lighting, essentially to evacuate the buildings. We have over 
13 million square feet up here on the Hill and we do not have 
the capability to have redundant systems to provide power for 
all of our office buildings to be operating.
    We are looking into alternatives should power not be 
available for some elements within the Capitol building itself 
and the availability of additional generating capacity through 
DOD are things that we are looking at, as well as trying to 
guarantee that we will have the water to make systems work in 
the first place.
    If you would like, sir, I could introduce Rick Kashurba, 
who is our Director of IRM, and his staff to talk you through 
where we are, what systems we have been looking at, and where 
we are.
    Senator Bennett. I do not think I will take the time of the 
subcommittee to do that. But we may very well find a time when 
we can go through that.

                      Financial management system

    Mr. Hantman. The next issue is the financial management 
system. We have hired a new project manager, Russ Follin, Russ 
over here. Russ is our key man on this. He has implemented FMS 
systems for five Federal agencies on a consulting basis. He has 
been actively working with four other Federal agencies as an 
internal employee on FMS systems as well.
    We have hired Arthur Andersen to validate our requirements. 
Our requirements are basically complete. GAO is reviewing them 
right now. We are resolving our business practices issues, and 
our targeted completion is for April.
    We have developed a statement of work, an RFP, a project 
plan, which GAO is also reviewing right now. They were actively 
involved with us in selecting both Mr. Follin and looking at 
our criteria as well. They are very comfortable, as we 
understand it, right now with it.
    We expect to put the RFP out this summer, contractor award 
with the fiscal 2000 budget. We are asking for some $3.3 
million for this project in fiscal year 2000. We expect to 
begin implementation the end of this calendar year.
    GAO has provided staff sources to date. They have indicated 
a willingness to continue this, and we touch base with them at 
every step of the way. So we are very comfortable that what we 
are about to go out on the street with will meet our 
requirements.
    Mr. Follin has again seen some horror stories with other 
Federal agencies, learned from that experience, and we are 
trying to make sure that we do not repeat some of those 
mistakes.
    So if there are any further questions on FMS, we can talk 
about that here again, or again it could be a separate hearing.
    Senator Bennett. GAO recommended that this new position 
report directly to you and I understand you have made the 
decision not to have that happen. Do you want to take this 
opportunity to explain to us why you chose to have the 
reporting structure something other than the GAO 
recommendation?
    Mr. Hantman. Most of my senior officers have direct access 
to me at all times. For a day to day reporting and coordination 
basis, working with Stuart Pregnall, our Budget Officer, to 
help coordinate all of that between his areas and other areas 
seemed to make sense.
    This is nothing that I put on the back burner or take for 
granted. I am involved in the process. We have virtually 
constant meetings on this, both the Y2K and the FMS. But on a 
day to day basis, getting it up and running in this way was 
what I thought made the most sense.
    Senator Bennett. Well, I do not want to micromanage or 
second guess your management decisions, but as we got into this 
area and you very aggressively moved to try to make things 
better, this was one very firm recommendation and I wanted to 
give you the opportunity to explain why you have decided to do 
it differently.
    But be aware that we are aware of where you are. We are 
delighted that you are on board, Mr. Follin, and that the kind 
of changes that needed to be made seem to be underway.
    Mr. Hantman. I am confident that we are moving in the right 
direction. We certainly need to be much more accountable than 
this agency has ever been, and that is exactly where we are 
going.

                            Operating budget

    The last issue on the agenda, of course, is the fiscal year 
2000 request. It is a very large request, as Senator Feinstein 
mentioned earlier on. The percentage increases are also 
significant. Two parts, components, of this budget.
    One is the operating budget, at $168.3 million. This 
represents a 10.7 percent increase over last year; 38 percent 
of that 10.7 is mandated pay and benefit increases, which we do 
not control; 33 percent is utility increases; 40 percent of 
that is for water and sewer increases coming to us from the 
District and back charges as well; 17 percent is IRM, which we 
are beginning to implement and move on up, technology-related 
types of costs. So that is basically the 10.7 percent increase. 
We are trying to keep it down.
    Otherwise, part of our re-engineering effort was for us to 
be able to take a look at our staffing levels, how appropriate 
is it, what levels of staff do we need at key areas throughout 
the agency, how much of that work should be looked at for 
outside sources. We were committed through this 3-year re-
engineering effort to cut back on our core staff as a natural 
function of re-engineering, not for the function of downsizing, 
not for the function of privatization, but for good management 
techniques.
    We are hoping to return to you, after the 3-year program is 
implemented, some $4 to $5 million in operating costs. That has 
been our goal and that was the basis upon which we requested 
this 3-year buyout and it was approved. So that is where we are 
on that.

                             Capital budget

    With respect to our capital budget, yes, it is a very large 
number. Over the last two presentations to you, Mr. Chairman--
clearly, Senator Feinstein was not involved in that--we had 
gone through an exercise to take a look at benchmarking, what 
kind of appropriate benchmarking levels we might have as we 
talk about capital projects. We had come up with, as you may 
recall, a 1.7 percent of replacement value of the buildings 
that are under our care.
    We had, for your information, Senator Feinstein, we were 
talking about basically a $3.6 billion replacement value of the 
buildings on Capitol Hill; 1.7 percent basically comes out to 
about a $60 million reinvestment on a cyclical basis each year, 
just to stay steady, not for new projects, not for new 
technology, not for special security projects. That level of 
investment is very appropriate throughout other governmental 
agencies. GSA I think is at 2 percent, the Corps of Engineers 
1.75 percent is what they aim for. Federal depreciation 
allowance from the IRS is 40 years, as you may know, on a 
project, 2.5 percent annually if it converts to that.
    So we think we are very conservative in terms of those 
numbers. Every project we bring before you clearly has to be 
supported in and of itself, but in terms of measuring the 
quantity once they start adding up we think that that $60 
million, that is 1.7 percent, is not a bad benchmark for us to 
look at.
    We had requested some $53 million in last fiscal year for 
capital cyclical projects. I think $46 million was approved.
    Going back over the last half a dozen years, taking a look 
at that benchmark line--again, we have charts on it, which we 
may not need at this point, but we can certainly get into it in 
more detail later--if you look at that $60 million line going 
out over time and the actual appropriations that have been 
given for capital projects, we basically have a deficit of 
about $155 million over the last years that never met that 
line.
    When I came in in 1997 there was $14 million in the capital 
budget, which had come down from $33 million to $30 million to 
$28 million, $24 million, and we were really not reinvesting in 
our infrastructure the way we needed to.
    I appreciate your comment earlier, Mr. Chairman, that some 
things are long overdue, and the comment you made last year 
also when we came to you on our $56 million budget was: If this 
is an average, if this is a mean, you are going to have to go 
above that mean some time to come up with the average. I think 
last year we had projected for this year $111 million. We are 
coming before you with $102 million basically for the cyclical 
maintenance component of that, in addition to the new projects 
that we are looking at.
    So again, many projects here--the Capitol dome, $28 
million; the Dirksen Building, $18 million; $5 million for 
replacement of the chiller on the east plant; $16 million total 
in life safety. In your backup material we break it down by 
category and prioritize it, starting with life safety, 
security, ADA, all of those going down as the highest 
priorities. Cyclical maintenance in there as well, technology.
    So that, depending on where the budget ends up, we can take 
our first priorities and see what we can really afford to do. 
But that is the full exercise that we have gone through, and we 
certainly can talk about any individual project or the total 
scope as necessary.

                     Capital project implementation

    Senator Bennett. I have no problem with the concepts you 
have just outlined. I am a little concerned that there seems to 
be some delay in the implementation of some money we have 
appropriated for you that in fact has not been spent as delays 
have come along.
    Are the delays occasioned by the committee structure you 
have to go through? Have you run into more problems that slow 
you down than you had anticipated in terms of the reactions you 
get back? Why do we have that kind of a backlog building up?
    Mr. Hantman. On the projects that need approval from both 
the Senate and the House, it was interesting because on my 
first anniversary I went before the House Legislative Branch 
Committee and Congressman Vic Fazio asked me how I felt about 
the job right now, what was the biggest surprise that I had 
found and not expected? I spoke before that committee, which 
was chaired by Jim Walsh of New York, and I indicated the 
biggest surprise was really I had expected to be negotiating 
between Democrats and Republicans and that being the biggest 
problem, but I found the biggest problem is the difference in 
philosophy between the House and the Senate.
    That in fact is a reality, certainly relative to the 
perimeter security and the time frame for approving that 
project and some of the other security-related issues. Our re-
engineering effort was signed off on----
    Senator Bennett. Who is the most spendthrift, the Senate? 
[Laughter.]
    Mr. Hantman. I think that I am actually very pleased----
    Senator Feinstein. He is not going to answer. [Laughter.]
    Senator Bennett. He has been around here 2 years. He has 
learned a few things.
    Mr. Hantman. I am actually very pleased on both sides of 
the Capitol rotunda with the concept that I think people, 
members on both sides, are very really--very concerned with the 
conservation of these national landmarks of our heritage here. 
I have been very heartened by the fact that I come before the 
Senate, I come before the House, and I try as a professional to 
present the information, the facts, do a tour, show where the 
walls are falling down, what the issues are all about, and when 
people recognize that they say: We have to fix it.
    So I think that has happened. Certainly it happened with 
the dome. It is happening on the visitors center as well, 
although it takes a little longer, and which is why I am going 
to be giving you two schedules in this obligation plan for the 
visitors center. If we can work out methodologies that make 
sense, we can move with alacrity. If we cannot, I have found 
that my expectations, whether it is on re-engineering or 
perimeter security, I have not been able to get the kind of 
approvals or reviews as I would like to get, so things have to 
fall back.
    Unfortunately, some of these things are, just like PEPCO, 
beyond my control.

                           Senate restaurants

    Senator Bennett. One very minor question, and you will get 
it on the Rules Committee from Senator Santorum. You last year 
predicted that the Senate restaurants would be----
    Senator Feinstein. Oh, yes.
    Senator Bennett. You have already gone through that?
    The Senate restaurants would be $200,000 in the black in 
1998 and $600,000 in the black in 1999. Would you care to take 
another stab at that one?
    Mr. Hantman. Let me introduce Lynne Theiss, who is director 
of the restaurants, and I have promoted her to be our Executive 
Officer as well.
    Ms. Theiss. Good morning, Senator.
    Senator Bennett. Good morning. I assume that 
congratulations are due.
    Ms. Theiss. Yes, sir.
    We had a very successful process working with the Rules 
Committee last year of offering two buyouts to the Senate 
restaurant employees. In that process, approximately 42 
employees left voluntarily, some that were at retirement age, 
and we basically found in the review by GAO and KPMG, who are 
the outside auditors who come in and do the records on the 
Rules Committee, that one of the problems, we had too much 
labor, we had redundant systems.
    Senator, you may recall that in the old days the Senators 
dining room was serviced strictly from the basement kitchen in 
the Capitol. We spent a great deal of money several years ago 
to renovate the pantry, but we still kept all the cooks. So we 
had double sets of cooks because the other set of cooks were 
doing the public dining room only several years ago.
    Through attrition, we were hoping that they would naturally 
leave when they became eligible. So we offered a buyout and we 
found out that they were waiting for that opportunity, which is 
one of the reasons why we went forward with the AOC's re-
engineering package, understanding that there was a need, that 
people were waiting for the opportunity given to other 
Legislative Branch employees.
    At this point, with the 40 employees gone, that is almost 
$700,000 in payroll you are looking at as a savings. We have, 
again with the Rules Committee's approval, made some 
organizational changes as far as the operations, changing where 
we have some services being offered, extending some hours, and 
starting to open up facilities that were not opened adequately.
    Some of the opportunities that will be coming out very 
shortly in the spring for the Senators dining room will be 
afternoon tea on Thursday afternoon, because we know Tuesdays, 
Wednesdays, and Thursdays are normally late night sessions. 
That being the case, we are saying let us do some transition 
work and have afternoon tea available and then in the evening 
have an actual dinner being available in the dining room, 
versus using just the inner sanctum, which was very, very 
casual.
    This way, if you want to have family come in, if there are 
other groups that want to come in, we can utilize those 
resources. It was basically an underutilized operation in the 
Capitol.
    Over here in the office buildings, our current appraisal is 
that we are ahead of sales from last year by over $300,000 for 
the first quarter, and that is very heartening to see, that 
people are saying these are good changes, let us keep going 
with it.
    There are some operational issues that still have to be 
addressed. You can only squeeze so many people into some of 
these facilities.
    Senator Feinstein. I am not familiar with the term ``ahead 
of sales.'' What does that mean?
    Senator Bennett. The top line is up by $300,000.
    Ms. Theiss. That is correct.
    Senator Feinstein. All right.
    Senator Bennett. We do not have a bottom line yet.
    Senator Feinstein. Oh, all right.
    Ms. Theiss. At this point what we are running into, and we 
have had very good cooperation with the Rules Committee, is 
during the planning process with the Dirksen renovation, so 
that we can still have outside constituents who have used these 
facilities for catering have additional spaces to go to, so if 
we move somebody out we will not have lost revenue even during 
the Dirksen renovation process as well.
    So we are looking for the black this year.
    Senator Bennett. OK. Senator Feinstein, questions?

                   Senate employees child care center

    Senator Feinstein. I would like to ask about something that 
is not as prominent as the dome, but it is the Senate employees 
child care center. What I have been told concerns me greatly. 
That is that this was originally scheduled for groundbreaking 
in the fall of 1996 and to be completed in the fall of 1997. It 
remains incomplete.
    Senator Bennett. I do not think we will meet those dates.
    Senator Feinstein. I do not think so. There have been 
numerous delays in construction and completion of the project. 
There has been contamination of mold at the new site in April 
of 1998, and I am told that this mold contamination was 
preventable. Obviously, it was not prevented. The child care 
board of directors has been given numerous projected completion 
dates by your office and none of these commitments have been 
met.
    To date, construction remains incomplete. No work has been 
done at the site since August of 1998 and mold remediation has 
not been initiated, as projected by the Architect's staff for 
February to April of 1999.
    Now, the questions. Can you explain the reason or reasons 
for the significant delay in completion? Let us start with that 
one.
    Mr. Hantman. Sure. When the mold was first discovered in 
the building, it clearly should have been preventable. It 
should not have happened. The contractor has accepted 
responsibility for that. He had not put the flashing on top of 
the copings.
    We have a cavity wall. It is a brick construction on the 
outside and block on the inside with an air space between. So, 
because we had very heavy wind and rain during that period of 
time in April and preceding that period, water got into some 
portions of the building that was under construction.
    At that point in time it was on schedule. What happened was 
we were concerned about this. We had many meetings with the 
people at the Senate, with the board. We determined that what 
we needed to do was to get a mold remediation program defined, 
do inspections, do tests.
    We hired specialists in this area of contamination. The 
board also hired somebody. We got the NIH, National Institute 
of Health, involved as well to take a look, to have the best 
minds involved, because clearly once you start talking about a 
mold which might have potentially health-related issues to it, 
you wanted to make sure that you got the right program to go 
ahead.
    Once the tests were taken and in fact the mold was 
identified, the specification needed to be determined as to 
what needs to be done to remediate it, what needs to be taken 
out, etcetera. It was found that the sheetrock--basically, this 
mold grows on cellulose-based products. The sheetrock on the 
interior wall surfaces was contaminated up to about six or 
eight inches above the baseboard, and not an awful lot more 
than that.
    The issue here was that the board had been pressing the 
Architect to do the work himself to remediate it, where the 
responsibility from our perspective and from a legal 
perspective basically lay with the contractor. So what we have 
done is to have the contractor--the contractor in fact is on 
the site today with three bidders who have been approved by the 
board's experts as well as our experts as people who are good 
in the field, able to do the work.
    He will pay those bidders if he selects one. We are aiming 
to have this available and completed for the fall semester. We 
have lost a year, there is no doubt about that. Part of the 
issue here has been our expert talking to the board's expert 
talking to the National Institute of Health and having them 
coordinate what they thought the appropriate way was so that 
people could finally say, yes, this is the way to pursue this.
    Senator Feinstein. Was it possible to carry out the work 
concurrently? Everything had to stop?
    Mr. Hantman. Basically, the building is not very far--
Michael, maybe you want to respond to that.
    Mr. Turnbull. The building is not that far from completion, 
but in order not to contaminate anything else we want to do the 
mold remediation first before anything else is done, because we 
want to make sure that the building is totally clean, that our 
consultants and the board consultants have gone through and 
certified that they feel comfortable that the problem has been 
addressed, before we finish up.
    There is really not a lot left. We are 90 percent finished 
with that project.
    Mr. Hantman. So there are some windows to be installed, 
things of that nature. We need to pressure-test the exterior 
brickwork to make sure that there is no further leakage coming 
in. Then we will have to, once the contractor finishes his 
work, we will have to come in and do the interior work and 
things of that nature so that we are complete by August.

              Senate employees child care center priority

    Senator Feinstein. Mr. Chairman, with your permission, I 
would very much like to urge them to raise the priority of this 
project. I mean, it is something that is really important----
    Senator Bennett. It is one of the items that I was going to 
address myself, yes.
    Senator Feinstein (continuing). Employees. And it is rather 
disheartening to see this kind of thing happen, and everything 
just stops and you fall so far behind schedule. For me it is a 
priority and I hope it would be for you.
    Senator Bennett. Yes, yes, absolutely.
    Senator Feinstein. We might say, Mr. Architect, we will be 
watching.
    Mr. Hantman. Yes, ma'am, fully understood.
    Senator Bennett. To put it in perspective, this will become 
Senator Feinstein's Y2K.
    Senator Feinstein. My pet project. We will see if we can 
get it done.
    Mr. Hantman. If you would like a walk-through----
    Senator Feinstein. I would like a walk-through.
    Mr. Hantman. Let us do that.
    Senator Feinstein. I figure there is enough big wheels to 
take care of the dome. I will concentrate on the child care 
center.
    Mr. Hantman. We will arrange that.

                       Visitors center site plan

    Senator Feinstein. All right. Could I ask you with respect 
to the visitors center. I heard the presentation at the Rules 
Committee and was really impressed. Really, I sort of came to 
the conclusion at least that we should move ahead with the 
major one.
    Could you just quickly indicate, is the siting firm? Where 
are you on the design of the center? What is the time line now? 
What are the estimates of funding, and when will you be 
releasing them?
    Mr. Hantman. As I indicated earlier, Senator, I will be 
sending to you next week, it is called an obligation plan, as 
required by the legislation. The Senate in negotiations with 
the House put some language in there that indicated that 
everything that had been done before that formed the foundation 
for the 1995 plan basically needed to be revisited and 
validated, which is why I talk about a worst case schedule.
    We have had some people talk to us about: Is it in the 
right place? Maybe we should do it on the west front? Maybe it 
should be at Postal Square. Maybe it should not be here at all. 
If that kind of direction is given to us during this first 
phase, I do not know how long the process will take.
    Senator Feinstein. Let me just quickly ask you: 
Architecturally, do you think the siting is correct?
    Mr. Hantman. Absolutely, I think it is in the right place.

                        Visitors center security

    Senator Feinstein. And you do not believe it presents a 
threat to the Capitol? Some of those questions have been 
raised.
    Mr. Hantman. Relative to--we have so many doors coming in 
the Capitol right now. With the Capitol Police sitting here 
earlier today, we could have talked about the fact that 
visitors can come through so many entrances right now, it is a 
problem for the members of the police force to know who is a 
Senator, who is a Congressperson in the first place. But when 
you get 95 percent of your visitors who are unknown coming 
through multiple doors, the idea of how do you protect at any 
level of standoff from the entrances or recognize that this 
person is unknown to you, this is a staff door, you should not 
be coming here.
    The concept of the visitors center is that 95 percent of 
the people who come to the Capitol will be coming through the 
visitors center, which is a standoff distance of 300 feet from 
the Capitol itself. That is where the magnetometers will be. 
That is where our restudy really does have to focus to heighten 
our ability to do quick and respectful clearance and prepping 
of people before they get into the visitors center, which would 
give them free access to the Capitol basically beyond there.
    So from a police perspective it makes eminently good sense 
to do it and to give us a nice way for all of our visitors to 
come in to see the Capitol to be oriented to what they are 
going to see when they get in, what the rotunda is all about, 
what the history of our legislative government is all about.
    I talked before about there really being two projects here. 
One of them is the physical facility itself. The other is what 
goes into it, which is why I have suggested at past hearings 
that what we probably want to do--and I am not sure how 
leadership would feel about it--is in parallel with the 
construction documents and the planning of the physical 
facility, which if the existing 1995 plan is found to be 
acceptable by the many committees that we are going before, we 
will go back and we will talk about why the west front is not 
the appropriate place to do it.
    But I plan to do that expeditiously, because I think we are 
in the right location. I think the security issues are being 
addressed very clearly. I think it meets a lot of the needs, 
including circulation from one side of the Capitol to the other 
that this helps expedite, as well as garbage removal, which is 
done in the open right now. All of these issues are addressed, 
I think, very well in this plan.
    But there are many open issues and the letter that I will 
give you indicates what some of those open issues are and what 
we plan to do during this study phase, this planning phase 
which is mandated by the legislation.
    Subsequent to the planning phase, once we get approval to 
move ahead, then we would get into, according to the 
legislation, again an engineering phase, a design phase, a 
construction phase. Quite frankly, engineering and design 
architecture are one phase and I am recommending that we 
eliminate a separate milestone which really does not make a 
whole lot of sense.
    The question of how this is all reviewed at each step of 
the way is important. If we are validating the existing design 
and making changes as necessary for security and what other 
issues that leadership may determine needs to be incorporated 
or modified, the schedule will be a lot shorter than if we 
start from ground zero on the west front, which will not work, 
or another location yet that some folks can bring up.
    So it is a question of how loose the dart-throwing gets, 
and I would like to have a very tight schedule so that we can 
move ahead with something that is very security-related.
    Senator Feinstein. Thank you. I was very favorably 
impressed in Rules when we had that presentation. I forget when 
it was, but it was last year some time. I thought that it is 
really a good start.
    Of course, a lot was really, I think, learned in the 
killing that took place in the Capitol, because the people at 
the magnetometers had no chance. There was no ability to spot 
him coming in, no ability to see him draw his weapon.
    Mr. Hantman. Exactly.
    Senator Feinstein. So those sight lines that you mentioned 
are so important.

                           Visitor entrances

    Mr. Hantman. They are. In fact, Senator Warner had brought 
that up with us while he still had his tenure as chair of that 
committee. One of the things we are looking at is, he had 
suggested investigating how, for the Senate office buildings as 
a start, we could take the magnetometers and move them outside 
the physical structure, because if something blows up inside 
the building what kind of structural damage would be done.
    One of the things we are looking at doing is, he had tasked 
us with on the Russell Building doing a vestibule adjacent to 
the main stairs. We are looking for additional dollars on that 
to reprogram the funds so that we can design that as the 
prototype or at least the model of what we might be able to do 
at Dirksen and Hart to also move some of these facilities 
outside the building. It is more difficult there.
    Senator Feinstein. Particularly this building, if you 
notice you can come in and you are right there. If anybody is 
packing anything, the people at the magnetometers have no 
chance.
    Mr. Hantman. Part of that problem is going to come down to 
an administrative decision by leadership: Are we going to 
direct all members--not all members, but all visitors, to a 
single door where they can be screened, and still have member 
doors, staff doors, so that our business is not interrupted? If 
you are willing to take that step, this makes sense. If you are 
not willing to take that step and visitors can come into any 
door anyway, are we doing the right thing? Does it really 
impact us?
    Senator Feinstein. Thank you, Mr. Chairman.
    Thank you very much.
    Senator Bennett. There was one solution which I hope does 
not go forward, that we simply declare Capitol Hill a national 
park and move.
    Senator Feinstein. I think you are safe on that.
    Senator Bennett. Take the Senate and the House and build a 
secure place for them entirely off Capitol Hill, and then just 
say, we turn this over to the visitors entirely.

                            Parking garages

    Mr. Hantman. One other point that I did not discuss was the 
issue of parking garages. We had talked before about the 
legislative garage, the Russell Garage, and the pending 
improvement of it, whether or not that garage should be 
expanded, things of that nature.
    In presenting our information again to Senator Warner at 
Rules Committee, I think there was agreement that what we 
should look at and what we are requesting is the ability to 
reprogram funds from that legislative garage to take a look at 
the first increments of a possible garage on what is called 
Site 724, Block 724, which is just to the east of the police 
building.
    A 500-car garage could be created on the eastern end of 
that block as a first element, and if the Senate needed the 
spaces or we decided that we do not want parking on Capitol 
Square or the streets, we could ultimately build something like 
a 1,500-car garage 3 levels below grade on that site, with the 
provision that ultimately if the Senate needed more structures 
it could be built on top of that. So we are hoping that we will 
get clearance so that we can begin to look more seriously about 
that site as a possible garage.
    There has been some discussion about possibly putting off 
the restoration of the Russell Garage for a couple of years 
until that is in place, so that we do not inconvenience the 
folks who are parking currently in the legislative garage.

                              Fire safety

    Senator Bennett. One last quick question. The status of the 
smoke detector installation, the Senate side of the Capitol?
    Mr. Hantman. Amita?
    Sorry. Amita Poole is our Superintendent of the Capitol.
    Ms. Poole. We have just completed putting in the backbone 
for the new fire alarm system and starting Monday of this 
coming week we will be installing the smoke detectors in areas 
throughout the Senate side where wiring is complete.

                     Additional committee questions

    Senator Bennett. There will be some additional questions 
that will be submitted for your response.
    [The following questions were not asked at the hearing, but 
were submitted to the Architect for response subsequent to the 
hearing:]
                     Additional Committee Questions
         reengineering in the house and senate office buildings
    Question. In your testimony you indicate that significant re-
engineering has already occurred in your agency and cite the 
consolidation of shops within both the House and Senate office 
buildings which has reduced the number of supervisors. What shops were 
consolidated and how many supervisors were reduced?
    Answer. In the Capitol Building separate House and Senate side 
Heating, Ventilation and Air Conditioning (HVAC) shops were 
consolidated. In both the Senate and House Office Buildings the second 
and third shifts of the HVAC and Plumbing operations were consolidated. 
Grounds maintenance activities of the Library Buildings and Grounds and 
Supreme Court were consolidated under the supervision of the Capitol 
Grounds. These and other initiatives have reduced the number of 
supervisory positions from 306 in January 1998 to 300 as of March 1999.
                        k-9 facility renovation
    Question. What is the status of the K-9 facility renovation?
    Answer. The new K-9 facility is 95 percent complete. Remaining work 
includes the installation of the heating and air-conditioning unit, 
installation of ductwork, installing the ceiling in the food 
preparation area, completion of exterior painting, completing the 
installation of the kennel fencing, and site seeding. Barring any 
significant weather problems, the facility will be completed by April 
2, 1999.
                           fort meade project
    Question. When will the Ft. Meade project be completed and 
available for occupancy?
    Answer. Anticipating the approval of the pending reprogramming 
request, a contract award is planned for April 1999. Based on the April 
award, completion of the first book storage module is scheduled for 
July of 2000.
                aoc financial and budget status reports
    Question. The Architect of the Capital (AOC) has yet to provide 
certain basic reports, such as quarterly financial and budget status 
reports, that the Committee has requested over the past several years. 
Why hasn't the AOC responded to these requests? How and when will the 
AOC provide better financial reports to the committee? When does the 
AOC plan to be fully responsive to this request for financial and 
budget status reports? What plans does the AOC have to provide this 
type of information while it is using its interim financial management 
system? Does the AOC plan to reconcile this information to its budget 
submission?
    Answer. With the implementation of the new Financial Management 
System, the AOC expects to fully comply with the Committee's request 
for quarterly financial statements and budget status reports and to 
provide a reconciliation of the information reflected on these reports 
with the budget submission. We are using GAO's guidance to develop the 
specific requirements for the requested reports in our Request For 
Proposal (RFP) process and we will confirm the requirement with the 
Committee staff prior to issuing the RFP. With the new system we also 
expect to be more responsive to any new requests for information since 
the new system will contain modern report writing tools.
    For the interim period, prior to the implementation of the new FMS, 
we plan to prepare the requested budget status reports and the 
reconciliations with the budget submission by preparing spreadsheet 
based reports containing data from several sources. Upon confirming the 
reporting requirements with GAO and the Committee over the next few 
weeks, we will be able to develop the spreadsheets and take steps to 
begin capturing any currently unavailable required information. We plan 
to come to closure on this issue, and have an agreed to interim 
solution by the end of April, 1999.
    We apologize for not being as responsive as necessary on this issue 
and we will work hard towards meeting your reporting requests as 
quickly as possible. The AOC spent several months in early 1998 working 
with the GAO to create the requested reports based on the reports that 
the GAO provides the Senate. We had originally created a Budget Status 
Report to address this need. However, this report has been determined 
to be inadequate for the Committee's needs due to the combining of 
current and prior year financial information and the lack of project 
status information.
                     annual and multi-year projects
    Question. What is the total number of annual projects funded in 
fiscal year 1999? What number of those projects have been started? What 
number have been completed?
    Answer. A total of 55 annual projects were funded in fiscal year 
1999. All of the projects are in various stages of either construction, 
design or specification development, or procurement. At this time, none 
of the projects are considered 100 percent complete.
    Question. What is the total number of multi-year projects that the 
AOC currently has underway? How many of those projects have been 
started?
    Answer. The AOC has 98 multi-year projects currently underway and 
the majority are under construction. Of the 98 projects, 21 have not 
had funds obligated against them. Nineteen of the 21 projects are 
either in design or specification development, procurement, or are 
awaiting client or oversight approval to proceed.
                              y2k program
    Question. What has been spent to date on your Y2K program, and what 
was requested in your 2000 budget?
    Answer. The AOC has spent a total of $2,537,000 on Y2K programs. 
The significant projects that funds have been spent on include the 
replacement of the accounting system, upgrading the procurement system, 
replacement of the work order system and replacement of noncompliant 
personal computers. It is anticipated that an additional $103,000 will 
be spent on Y2K system initiatives from currently available funds. The 
AOC is requesting $1,444,000 from funds appropriated to the General 
Accounting Office for Y2K compliance and contingency planning 
activities.
                           senate restaurants
    Question. Last year you predicted that the Senate restaurants would 
be $200,000 in the black in 1998 and $600,000 in the black in 1999. 
What was the financial balance in 1998 and what do you currently 
project for 1999 and 2000?
    Answer. The year end financial statements for fiscal year 1998 
(which included appropriated funds and revolving funds) for the Senate 
Restaurants indicates a loss of $607,865. Included in this loss is the 
one time expense for the buyout of $753,282. This expense includes 
approximately $87,300 in terminal leave which would not have been 
charged as well as an increase in replacement labor (approximately 
$70,500) while the Restaurant was being reorganized. The net loss would 
have been approximately $450,100.
    As we have continually noted with the Architect of the Capitol's 
Re-engineering Plan, the savings from the buyouts offered are not 
realized until the following year. Currently, the Senate Restaurants 
project a profit of $261,000 for 1999. Included in the operating 
expenses is the repayment of a contingent fund loan of $275,000 
provided to cover the balance of buyout payments which occurred in 
fiscal year 1999.
    This profit is based on the current operating configuration of the 
Restaurants. We are actively working with the Rules Committee to 
finalize the services offered within the Restaurants and only a 
positive impact on the financial statements is planned.
                       russell courtyard boxwoods
    Question. Please explain why the English Boxwood plants in the 
Russell Courtyard were destroyed. What are your plans for replanting 
the area where the Boxwoods were removed? What are your plans for the 
English Boxwood's that remain in the Russell Courtyard?
    Answer. The boxwoods have overgrown the walkways, impeding the 
passageways for pedestrians, and are in need of replacement. In fact, a 
project was included in the AOC's fiscal year 1998 budget request to 
Renovate and Restore the Russell Courtyard which included the 
replacement of the overgrown boxwoods with smaller ones. This project 
was actually funded by a fiscal year 1997 reprogramming but placed on 
hold because of the then proposed use of the Courtyard. While the 
boxwoods were removed to make way for constructing a building that will 
provide temporary ``swing space'' for various Senate committees during 
renovation of the Dirksen Building, they were slated for removal and 
replacement in any event. We have looked at the option of heavy pruning 
to restore pedestrian access to the walkways, but the appearance of the 
boxwoods would be ruined.
    Accordingly, after the ``swing space'' facility is demolished, we 
plan to remove the remaining boxwoods and replace them all with 
appropriately-sized three to four foot high boxwoods, placed six feet 
away from the edges of the walks. Appropriate annual maintenance 
pruning will assure that the boxwoods' growth is controlled in an 
aesthetic manner. This approach will restore the beauty of the 
courtyard's plantings while improving pedestrian access to the 
walkways.
                          financial statements
    Question. What year will financial statements be available for a 
full audit?
    Answer. FMS is scheduled to be implemented by the end of fiscal 
year 2001. Once FMS is implemented auditable financial statements will 
be available on a monthly accounting period basis. Since FMS is being 
implemented during the end of fiscal year 2001, the first full fiscal 
year for being able to produce an auditable financial statement from 
FMS is fiscal year 2002.
                      financial management system
    Question. Arthur Andersen has spent five months studying AOC's 
financial management system requirements and reviewing financial 
software packages available on the GSA schedule. Although not subject 
to the Federal Financial Management Improvement Act (FFMIA), will the 
AOC financial systems comply?
    Answer. Yes, the financial management system that is purchased and 
implemented by the AOC will comply with Federal financial management 
systems requirements applicable to Federal accounting standards and the 
Standard General Ledger (SGL) at the transaction level as required by 
FFMIA. The AOC considers the requirement for the system to be compliant 
with Federal standards as the most important criteria for selecting a 
financial software package. The AOC is considering only the systems 
offered by the eleven vendors on the GSA Financial Management System 
Software (FMSS) schedule since all of these systems have been certified 
by GSA as being compliant with Federal financial standards. In 
addition, the AOC plans to implement the new system with no software 
modifications, allowing easier migrations to future federally mandated 
software upgrades.
    Question. Will the purchase of your financial management system 
require new hardware? If so, have you done a cost benefit analysis? How 
much funding will be required?
    Answer. The AOC's Business Process Re-engineering plan calls for 
the agency to move all existing applications and the planned integrated 
financial, procurement, human and facilities management systems to a 
Unix/Oracle based platform. This platform was selected because of its 
well documented reliability, scalability, and performance. The 
Information Resource Management (IRM) division has determined that the 
Unix/Oracle platform is a prudent investment to service all 
applications. Funding of the new Unix/Oracle environment is forecasted 
at $4.01 million over the next 5 years. The IRM fiscal year 2000 
operating budget request includes the first increment of $790,000. 
Below are the projected costs by fiscal year:

Fiscal year:
    2000......................................................  $790,000
    2001......................................................   855,000
    2002......................................................   785,000
    2003......................................................   770,000
    2004......................................................   810,000

    Question. Do the financial packages recommended by Arthur Andersen 
also meet the AOC's operational requirements, such as facilities 
management, project tracking and costing?
    Answer. The focus of the Arthur Andersen analysis was on the AOC's 
core financial management requirements, inventory requirements and 
procurement analysis. The requirements for facilities management and 
project tracking/costing was limited to the financial related 
requirements rather than the operational requirements. It was assumed 
that the operational requirements for facilities management and project 
tracking would be performed in a separate system or a module outside 
the core financial system. The analysis indicated if a vendor offered a 
facilities management module or a project tracking module, but there 
was no evaluation performed on whether these modules met AOC 
operational requirements in these areas.
    Question. You are purchasing a financial management system, but 
your requirements also include procurement capabilities which are 
nonfinancial in nature. What weight do you put on your financial 
requirements as opposed to your miscellaneous requirements? Will you 
select a less desirable financial system because of these other 
requirements? If not, how will you distinguish and rate each 
requirement?
    Answer. The financial requirements will carry the most weight in 
the selection of a financial management system for the AOC while the 
procurement requirements will carry very little weight in the selection 
process. The actual criteria that will be used to evaluate vendor 
proposals is currently under development and will be completed prior to 
issuing the Request for Proposal. In order to ensure that we do not 
select a less desirable system, we will coordinate the evaluation 
criteria with the GAO. Additionally, the GAO is going to provide staff 
assistance throughout the evaluation and implementation of FMS. 
Although still under development, the criteria that are expected to 
carry the most weight in the selection of a financial package are as 
follows: Compliant with Federal financial standards; operates in a 3-
tiered client server environment; contains inventory and project 
functionality; provides easy access to information; provides modern 
workflow capabilities; and vendor track record in implementing the 
software.
    The AOC desires to select a modern system that is compliant with 
Federal financial standards, can be easily integrated with other AOC 
systems and will be supported by the vendor in the long term.
    Question. Will these systems produce the reports required by the 
Senate Appropriations Committee?
    Answer. The specifications for the reports required by the Senate 
Appropriations Committee will be included in the Statement of Work for 
the procurement and implementation of the Financial Management System. 
These reports will be available from FMS when FMS is implemented in 
late fiscal year 2001. In addition, the AOC plans to implement a user 
friendly reporting tool to allow easy access to information and the 
production of ad-hoc reports.
    Question. Do the vendors of these systems certify that they are Y2K 
compliant?
    Answer. The AOC is considering only the financial management 
systems that are certified by GSA as being compliant with the Joint 
Financial Management Improvement Program (JFMIP) requirements. The 
JFMIP technical requirements include requirements for the system to be 
Y2K compliant. In addition, the AOC will include a requirement in the 
Statement of Work that all date fields contain a four character year.
    Question. Do these systems have good funds control over project and 
job costs? How will the funds control portion of your financial system 
work?
    Answer. The AOC is considering only the financial management 
systems that are certified by GSA as being compliant with JFMIP 
requirements. The JFMIP requirements include funds control requirements 
to ensure the systems provide basic funding controls over commitments, 
obligations, and expenditures. The AOC will include additional funds 
control requirements in the Statement of Work to provide for the 
capability to establish project and sub-project budgets that are in 
addition to the appropriation budgets. The AOC expects to implement the 
Financial Management System with up to four levels of appropriation 
funds control with the levels differentiated by combinations of fund 
codes, program codes, organization codes, project codes and object 
codes. The AOC expects to implement two levels of project funds control 
to budget by project phase and the activities within a project phase.
    Question. Did your contractor require live demonstrations from each 
vendor in a production environment? If not, how could your contractor 
determine what vendor had the best system?
    Answer. The Arthur Andersen report compared the AOC's stated 
requirements to the software packages offered by vendors on the GSA 
FMSS Schedule. The purpose of the analysis was to identify the packages 
that potentially meet AOC's stated needs. Three vendors were 
recommended, based on the ``down-select'' criteria provided by the AOC. 
An additional vendor was recommended because of being the historical 
market leader. The analysis did not include live demonstrations from 
the vendors. During the proposal process, the AOC will require the 
vendors to perform Operational Capabilities Demonstrations (OCD's) in a 
technical environment similar to AOC's environment. The detailed script 
for the OCD will be prepared by the FMS Project Director and 
coordinated with GAO. The results of the OCD will weigh heavily in the 
selection of a vendor.
    Question. Do these systems meet AOC business needs? If not, what 
amount of customization will be necessary, and what are the estimated 
costs?
    Answer. The Arthur Andersen report indicated that all 9 vendors on 
the GSA FMSS Schedule met AOC's core financial management requirements. 
The report also indicated that 3 vendors potentially meet AOC's 
inventory and procurement requirements in addition to the core 
financial management requirements. The AOC plans to implement the core 
financial system with no customization. No unique AOC financial 
requirements have been identified that would require customization of a 
core financial package. Whether the software packages meet all of the 
AOC's inventory and procurement needs will be determined during the 
procurement process. If the software packages perform the typical 
inventory and Federal procurement functions, there should be no need to 
perform customization. The fiscal year 2000 budget request for the 
implementation of a Financial Management System does not include any 
funding for customization.
    Question. Has the AOC considered having another Legislative Branch 
agency cross service its financial operations instead of implementing 
its own financial system? Did you solicit bids from other Legislative/
Executive agencies to cross service the AOC? How do you know that 
buying and implementing your own system is more cost beneficial than 
cross servicing?
    Answer. The AOC considered having another Legislative Branch agency 
cross service its financial operations instead of implementing a new 
financial system. Most of the Legislative Branch agencies are currently 
operating their financial systems in a main-frame environment with 
software that is near the end of its life cycle. The AOC did not want 
to incur significant implementation costs migrating to an older system, 
and then have to incur the costs again in a few years when the cross 
servicing agency migrated to a more modern system.
    Question. How many employees are devoted full time to the financial 
management system acquisition and implementation project? Have you 
budgeted for the increased financial management system staff in the 
current year? How much will this staff cost in the out years?
    Answer. Currently, there is a project director assigned full time 
to the project. Six additional staff will be hired gradually over the 
next 4-9 months in order to have the full project team on board when 
the software is purchased. Two of the additional staff are planned to 
be hired in July 1999, with the remaining coming on board in the first 
3 months of fiscal year 2000. The cost of the increase in staff for 
fiscal year 1999 is included in our budget. The cost of the staff in 
the initial out years is estimated at $400,000 per year. After the 
complete implementation of the system, the staff will be reduced to the 
resources required to maintain the system.
    Question. How confident are you with your procurement and 
implementation schedule for your financial management system?
    Answer. The AOC's current procurement schedule of purchasing a 
system by the end of calendar year 1999 is considered aggressive. 
Depending on the number of proposals received and ``down-selected'' 
additional time may be necessary to evaluate the vendor proposals, and 
to conduct Operational Capabilities Demonstrations for each package 
under consideration.
    The AOC is confident in the implementation schedule of beginning 
production operations by the end of fiscal year 2001 as long as the 
procurement stays on schedule. A significant delay in the procurement 
would affect the implementation date.
    Question. What business practices will you change as a result of 
implementing a new financial system? What procedures/policy changes 
will you implement?
    Answer. The financial system that is purchased by the AOC is 
expected to provide the configuration flexibility to allow the AOC to 
continue its current business practices if desired. However, it is 
expected that the increase in functionality provided by the new system 
will lead to improvement of certain business practices. The actual 
changes that will occur will be determined during the configuration 
sessions with user groups during the beginning stages of the 
implementation. In order to limit the impact on users, the AOC may 
pursue implementing certain business process changes using a phased 
approach after the initial implementation. An example of a business 
process that will be changed is the ``requisition for goods and 
services'' process. The requisition process will be improved to 
transform a paper intensive process to a fully electronic process.
    Question. What staff changes, if any, do you believe will be 
necessary to implement and operate your new financial management 
system? How much will you save in staff years once you have automated 
your existing procedures?
    Answer. We have determined that additional staff of 6 people (plus 
a project director) is required to implement the Financial Management 
System. This level of staff assumes an implementation where 
considerable contractor support is utilized. The amount of staff 
required to maintain the system after it is implemented has not been 
determined, but it is expected to be less than the AOC staff required 
to implement the system.
    The implementation of a new Financial Management System is not 
expected to affect current staffing requirements in the AOC except in 
the Accounting Division. The Accounting Division may require 1-2 
additional professional staff because of the increase in workload 
required to maintain a standard general ledger, produce financial 
reports and perform reconciliations.
    The implementation of a new financial management system is not 
expected to save staff years. Any savings realized through the 
automation of manual processes will be offset by additional time spent 
on value added processes, such as providing better customer service or 
performing strategic analysis.
    Question. Have you done a skills requirement analysis to determine 
if existing staff will have the necessary skills to operate in a new 
automated environment? If so, what did that analysis reveal?
    Answer. A skills analysis to determine if existing staff have the 
necessary skills required by the new system has been performed for the 
technical staff, but not for the functional staff. The analysis for the 
functional staff is planned to be performed during this calendar year 
prior to the purchasing of the financial management system. Since the 
initial implementation of FMS will most likely involve only the current 
financial system users, it is assumed that the users will have the 
basic skills to operate an automated system. However, the AOC does plan 
to evaluate the users ability to operate in a ``windows and mouse'' 
environment, and if necessary have users attend training classes in 
these areas. In addition, the AOC will also determine if the complexity 
of the new system requires higher level employees such as GS-0510 
accountants rather than GS-0525 accounting technicians.
    The AOC has determined that its technical staff lacks the required 
skills to operate in the new technical environment. In order to obtain 
the necessary skills, the AOC is in the process of hiring staff 
experienced in the new technology and is sending current staff to 
training. It is expected that the technical staff will have 6 months 
experience in the new technical environment by the time the financial 
management package is purchased. The AOC technical staff is then 
expected to receive on-the-job training from the contractor during the 
implementation of the system.
    Question. We recommended that you follow GAO guidance that your 
financial system project director report directly to the Architect. 
However, he reports to the CFO. What is your rationale for not 
accepting the GAO recommendation?
    Answer. The AOC established the organization structure for the 
financial system project director to report to the CFO since this is 
the reporting relationship typically used by Federal agencies. Although 
the AOC is not covered by the CFO Act of 1990, the act specifies that 
the agency CFO should oversee all financial management activities 
including the ``development and maintenance of an integrated agency 
accounting and financial management system''.
    In order to partially comply with the GAO recommendation that the 
financial system project director report directly to the Architect, the 
Architect has issued a Delegation of Authority making the financial 
system project director directly responsible for the proper 
implementation of the financial management system. The financial 
management system project director will continue to report to the CFO, 
but will meet with the Architect on a weekly basis to discuss the 
project status and outstanding issues relative to the implementation of 
the new system. The financial system project director will be the 
primary contact of the Architect for all financial system 
implementation and integration matters.
    Question. You intend to interface some of your present systems with 
the new financial management system. What systems will that be and how 
much will it cost to develop interfaces? When do you anticipate having 
those interfaces completed?
    Answer. The new financial management system will interface with the 
following systems: Human Resource System (currently the USDA payroll 
system); Computer Assisted Facilities Management System (CAFM); and 
Project Tracking System.
    The interface with the existing payroll system will be implemented 
along with the initial implementation of the financial system by the 
end of fiscal year 2001. A preliminary estimate of $160,000 (1,280 
hours) has been developed for contractor support in the design, coding 
and testing of the payroll interface. This estimate assumes the 
interface will be similar to the current interface which updates the 
financial system with payroll and benefit costs on a bi-weekly basis. 
The estimate does not include any additional costs that may be charged 
to the AOC by the USDA for changes in the data format.
    Estimates for the development of interfaces with the CAFM system 
and the Project Tracking System have not been developed. The interfaces 
to these systems are expected to be implemented during the latter 
stages of the implementation towards the end of fiscal year 2003. The 
CAFM system is currently in the beginning stages of implementation at 
the AOC and the current project tracking system may be replaced prior 
to the end of fiscal year 2003. The cost estimates for the CAFM and 
Project Tracking interfaces will be developed by the end of fiscal year 
2000 and included in the fiscal year 2002 budget request.
    Question. Will the AOC seek funding in the future to enhance 
existing non-financial systems? If so, how much, when, and for what 
systems?
    Answer. The following table reflects the AOC's fiscal year 2000 
budget request and future fiscal year requests for non-financial system 
installations. These systems include a Human Resources system, the 
continuation of the installation of the Computer Aided Facilities 
Management (CAFM) system, and the upgrade and continued expansion of 
the agencies computer network. The five year total is $12,282,000. The 
Network Installation and Upgrade project will support all current 
system and e-mail applications as well as the new or expanded Financial 
Management, Human Resources and CAFM systems.

                                            [In thousand of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                               Fiscal year--
                          System                          ------------------------------------------------------
                                                              2000       2001       2002       2003       2004
----------------------------------------------------------------------------------------------------------------
Human Resources..........................................      3,612        800        800        800        800
CAFM.....................................................        350        350        350  .........  .........
Network Installation & Upgrade...........................      1,660        490        390      1,340        540
                                                          ------------------------------------------------------
      Total..............................................      5,622      1,640      1,540      2,140      1,340
----------------------------------------------------------------------------------------------------------------

                          subcommittee recess

    Senator Bennett. Thank you.
    Thank you very much. It has been very informative. We 
appreciate your responsiveness and congratulate you on the 
progress that you have made.
    Mr. Hantman. Thank you very much.
    Senator Feinstein. Thank you very much.
    [Whereupon, at 11:50 a.m., Wednesday, March 3, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2000

                              ----------                              


                       WEDNESDAY, MARCH 10, 1999

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Robert F. Bennett (chairman) 
presiding.
    Present: Senators Bennett and Feinstein.

                      JOINT COMMITTEE ON TAXATION

STATEMENT OF HON. BILL ROTH, VICE CHAIRMAN
ACCOMPANIED BY LINDY L. PAULL, CHIEF OF STAFF

              OPENING STATEMENT OF HON. ROBERT F. BENNETT

    Senator Bennett. The subcommittee will come to order.
    We welcome you to our second hearing on the fiscal year 
2000 budget for the legislative branch of Government. We have 
three panels testifying this morning: the Joint Committee on 
Taxation, the Joint Economic Committee, and the Office of 
Compliance.
    Our first witness will be Senator Bill Roth on behalf of 
the Joint Committee on Taxation, joined by Lindy Paull, the 
Chief of Staff of the Joint Committee. The budget request is 
for $6,256,000 for fiscal year 2000. This includes a cost-of-
living adjustment for staff and a slight increase of $67,000 
for non-personnel expenses.
    Senator Feinstein, we welcome you. You braved your way 
through the storm as the rest of us did, and we are honored 
that you are here. Do you have any opening statement?
    Senator Feinstein. No. Thank you, Mr. Chairman, except to 
welcome the distinguished Senator to our esteemed subcommittee.
    Senator Bennett. Mr. Chairman, we look forward to hearing 
from you.
    Senator Roth. Well, thank you, Mr. Chairman and Senator 
Feinstein. I greatly appreciate the opportunity to appear today 
before the subcommittee on behalf of the fiscal year 2000 
appropriation request for the Joint Committee on Taxation.
    As you well know, Bill Archer and I have submitted a 
written statement, and I ask that this written statement be 
made part of the written record.
    Senator Bennett. Without objection.
    Senator Roth. Mr. Chairman, I will just make a couple of 
brief points regarding this appropriation request. Actually you 
have touched on them already, but I will review them once more.
    As you said, the Joint Committee is requesting an 
appropriation for fiscal year 2000 of $6,256,000. This 
represents a $290,600 increase over the fiscal year 1999 
appropriation. This is a 4.87 percent increase. As you pointed 
out, Mr. Chairman, $223,000 of this amount will be allocated to 
cost-of-living increases for personnel expenses, and the 
remaining $67,000 will be allocated to proposed increases in 
non-personnel expenses.
    Mr. Chairman, increased responsibilities have been assigned 
to the Joint Committee under the IRS Restructuring and Reform 
Act that was passed last summer. The Joint Committee estimated 
during consideration of the IRS Reform Act that these 
additional responsibilities would require approximately 
$290,000 of additional staff resources annually.
    The Joint Committee is requesting 1.5 more FTE's for fiscal 
year 2000 to hire additional staff economists. These economists 
will work on revenue estimates so that the Joint Committee is 
able to respond to more Member requests. I think Lindy said we 
are responding roughly in the 80's.
    Ms. Paull. Right, 80 percent.
    Senator Roth. 80 percent.
    In addition, the additional employees will allow the Joint 
Committee to devote more staff resources to the effort to 
develop macroeconomic estimating capability. I think that is a 
very important development.
    Senator Feinstein. You did say macro.
    Senator Roth. Yes, ma'am. And I think they are making some 
real progress, but they have a ways to go yet.

             report on the state of the Federal tax System

    Under the IRS Reform Act, the Joint Committee is required 
to report at least once each Congress to the Senate Finance 
Committee and the House Ways and Means Committee on the overall 
state of the Federal tax system and to make specific 
recommendations for changes to the tax laws. The IRS Reform Act 
provided that this report is to be done subject to amounts 
being specifically appropriated to the Joint Committee for this 
purpose.
    The fiscal year 2000 appropriation request does not contain 
any amount for this purpose. If the subcommittee decides to 
fund this added responsibility, the Joint Committee estimates 
an additional annual appropriation of $200,000 and three 
additional FTE's would be required.
    Mr. Chairman and Senator Feinstein, I want to thank the 
subcommittee for its continued recognition of the important 
role the Joint Committee plays in the development of revenue 
legislation. I hope that the subcommittee will continue to 
support the operation of the Joint Committee for fiscal year 
2000.

                           prepared statement

    I will be happy to respond to any questions that you may 
have. If I do not know the answer, which will probably be the 
case, I will call on Lindy.
    [The statement follows:]
 Prepared Statement of Representative Bill Archer and Senator Bill Roth
                              introduction
    Mr. Chairman, we appreciate the opportunity to submit this written 
testimony to the Subcommittee on Legislative Branch of the Senate 
Committee on Appropriations on behalf of the fiscal year 2000 
appropriation request for the Joint Committee on Taxation (the ``Joint 
Committee'').
    The funding we are requesting for the Joint Committee on Taxation 
represents the minimum amount necessary to finance the operations of 
the Joint Committee for fiscal year 2000. The Joint Committee provides 
essential services to the Congress that are not duplicated by any other 
Congressional or Executive Branch office. Failure to provide the 
requested funding will jeopardize the ability of the Joint Committee to 
provide these necessary services.
    We want to thank the Subcommittee for its continued recognition of 
the important role that the Joint Committee plays in the development of 
revenue legislation. We are pleased that the Subcommittee has 
repeatedly acknowledged the needs of the Joint Committee, and we hope 
that the Subcommittee will continue to support the operations of the 
Joint Committee for fiscal year 2000.
    Key points relating to the fiscal year 2000 appropriation request 
are as follows:
  --The Joint Committee is requesting an appropriation for fiscal year 
        2000 of $6,256,000, an increase over the fiscal year 1999 
        appropriation of $290,600. This represents a 4.87 percent 
        increase over the fiscal year 1999 appropriation. $223,000 of 
        this amount will be allocated to cost-of-living increases for 
        personnel expenses and the remaining $67,600 will be allocated 
        to proposed increases in nonpersonnel expenses.
  --The Joint Committee's appropriation for fiscal year 1999 of 
        $5,965,400 is less than the $6,019,000 appropriated to the 
        Joint Committee for fiscal year 1995. Despite this reduction in 
        the Joint Committee's appropriation, increased responsibilities 
        have been assigned to the Joint Committee under the Internal 
        Revenue Service Restructuring and Reform Act of 1998 (the ``IRS 
        Reform Act''). The Joint Committee estimated during 
        consideration of the IRS Reform Act that these additional 
        responsibilities would require approximately $290,000 of 
        additional staff resources annually.
  --The Joint Committee is requesting an additional 1.5 FTEs for fiscal 
        year 2000 to hire additional staff economists. These economists 
        will assist in the preparation of revenue estimates so that the 
        Joint Committee is able to respond to more Member requests. In 
        addition, the additional FTEs will enable the Joint Committee 
        to devote more staff resources to the effort to develop 
        macroeconomic estimating capability.
  --Under section 4002(a) of the IRS Reform Act, subject to amounts 
        being specifically appropriated for this purpose, the Joint 
        Committee is required to report at least once each Congress to 
        the Senate Committee on Finance and the House Committee on Ways 
        and Means on the overall state of the Federal tax system, 
        together with recommendations with respect to possible 
        simplification proposals and other matters relating to the 
        administration of the Federal tax system. We leave to the 
        Subcommittee's discretion whether to appropriate additional 
        amounts to the Joint Committee for this purpose for fiscal year 
        2000. The Joint Committee estimates that this additional 
        responsibility would require an additional annual appropriation 
        of $200,000 and 3 FTE's.
    Additional details relating to this appropriation request are 
provided below.
           summary of fiscal year 2000 appropriation request
    The following summarizes the Joint Committee's appropriation 
request for fiscal year 2000:

Personnel Compensation........................................$5,656,000
Nonpersonnel Funding:
    Travel....................................................    12,000
    Rent, communications, and utilities.......................    33,000
    Printing............................................................
    Other services............................................    29,000
    Supplies and materials....................................   154,000
    Equipment.................................................   277,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total fiscal year 2000 request.......................... 6,256,000
           details of fiscal year 2000 appropriation request
Personnel Expenses
    Cost-of-living.--A 3.3 percent cost-of-living adjustment for 
calendar year 1999 and a 4.4 percent cost-of-living adjustment for 
calendar year 2000 are requested. This request would increase the 
appropriation for personnel expenses for fiscal year 2000 by $223,000 
over the fiscal year 1999 appropriation.
    Additional FTEs.--An increase of 1.5 additional FTEs is requested 
for the Joint Committee for fiscal year 2000. These additional FTEs 
would be used to hire additional Joint Committee staff economists to 
assist in the preparation of revenue estimates to respond to Member 
requests. These additional FTEs would not only enable the Joint 
Committee to respond to more Member requests, but would also allow the 
Joint Committee to devote additional resources to the effort to develop 
the capability to incorporate macroeconomic effects in Joint Committee 
revenue estimates for major tax legislation.
    Further, increased responsibilities have been assigned to the Joint 
Committee as a result of the Internal Revenue Service Restructuring and 
Reform Act of 1998 (the ``IRS Reform Act''). Under the IRS Reform Act, 
the Joint Committee is required to prepare a complexity analysis of all 
revenue provisions of widespread applicability to individuals and small 
businesses. In addition, the IRS Reform Act requires the Joint 
Committee to provide staffing and an annual report in connection with 
annual joint hearings of six Congressional committees on the operations 
of the Internal Revenue Service. These hearings will occur during 
calendar years 1999 through 2003. Finally, the IRS Reform Act mandated 
that the Joint Committee conduct a study of the present-law protections 
relating to disclosure of tax returns and tax return information. This 
study is due January 22, 2000, which will require the Joint Committee 
to expend personnel resources on this effort during a portion of fiscal 
year 2000. These additional responsibilities will place a significant 
drain on the personnel resources of the Joint Committee. During 
consideration of the IRS Reform Act, the Joint Committee estimated that 
these added responsibilities would require approximately $290,000 of 
personnel resources per year.
    No additional appropriation is requested to fund these additional 
FTEs. The FTEs can be funded out of the requested personnel 
appropriation through reclassification of certain Joint Committee 
positions and the replacement of departing higher paid employees with 
entry level professional staff.
    If the Subcommittee approves these additional FTE's, the Joint 
Committee's staffing level of 65 FTEs would be less than the level of 
FTE's authorized for the Joint Committee in any fiscal year between 
1980 and 1996.
Nonpersonnel Expenses
    In general.--An increase of $67,600 is requested for fiscal year 
2000 relative to the fiscal year 1999 appropriation. In addition, the 
Joint Committee's expenses in various categories have been reallocated 
to reflect more accurately the actual expenses that are anticipated in 
these categories.
    Rent, communications, and utilities.--The Joint Committee request 
proposes to reallocate $55,000 from this category to other categories 
for fiscal year 2000. The amount requested in this category for fiscal 
year 2000 represents an accurate estimate of the actual expenses that 
the Joint Committee will incur.
    Other services.--It is requested that $29,000 be reallocated to 
this category from other categories for fiscal year 2000. The increase 
in this category is attributable to projected increased needs of the 
Joint Committee to secure consulting services in connection with the 
efforts to develop macroeconomic estimating capabilities. This project 
requires substantial resources. In addition to the work of Joint 
Committee staff, it is necessary for the Joint Committee to contract 
with macroeconomic forecasting firms to assist in the development of 
economic models that will permit the calculation of such macroeconomic 
effects.
    Further, the needs of the Members for immediate responses to 
requests for revenue estimates and the substantial volume of requests 
that the Joint Committee staff receives each year places limitations on 
the ability of the Joint Committee staff to perform certain work 
necessary for the preparation of revenue estimates. To perform 
efficiently, the Joint Committee staff has found it necessary to 
contract from time to time with certain private sector organizations to 
do work that the Joint Committee staff does not have the time or the 
resources to do otherwise.
    Finally, the Joint Committee may find it necessary during fiscal 
year 2000 to contract for consultant services in connection with Joint 
Committee plans to update its document tracking system software and 
hardware; this project is discussed more fully in the equipment 
category below.
    Supplies and materials.--It is requested that $24,000 be 
reallocated to this category from other categories for fiscal year 
2000. The requested increase in this category is attributable to the 
cost of purchasing new on-line information resources for the use of the 
Joint Committee professional staff. It is essential that the Joint 
Committee staff have available the most sophisticated research tools 
available for tax professionals. This expense ensures that the Joint 
Committee staff has access to the same resources that private sector 
tax lawyers and economists utilize on a daily basis. The amount 
requested for fiscal year 2000 in this category reflects a relatively 
modest increase over the actual expenses for fiscal year 1998; the 
amount allocated to this category for fiscal year 1999 is below 
anticipated actual expenses.
    Equipment.--An increase of $69,600 is requested for fiscal year 
2000 over fiscal year 1999 for the purchases of new equipment. 
Anticipated expenses in this category include $60,000 for hardware and 
software maintenance; $50,000 for Xerox maintenance and usage costs; 
and $150,000 for the purchase of document scanners, CD-ROM writers, and 
other storage for expansions of the Joint Committee's document tracking 
system.
    In 1994, the Joint Committee implemented a computerized data base 
to track Member requests. The Joint Committee hopes to begin upgrades 
to this data base system during fiscal 1999 that will lead to the 
purchase of computer hardware (such as scanners) and software during 
fiscal year 2000 to implement these upgrades. Once the upgrades are 
complete, the Joint Committee will have the capability of maintaining a 
complete electronic record of each request received from a Member of 
Congress and to determine at any time the status of such request.
    The purchase of equipment represents the single largest item of 
nonpersonnel expenses for the Joint Committee. The large volume of 
documents that the Joint Committee is required to produce during the 
legislative process requires the use of sophisticated and 
technologically advanced computer and reproduction equipment. The Joint 
Committee staff finds it necessary to upgrade computer software, 
hardware, and reproduction machines frequently to ensure that Members 
receive adequate service.
 review of joint committee on taxation operations during calendar year 
                                  1998
    Attachments A through E provide a summary of the activity of the 
Joint Committee staff for calendar year 1998. This included work on 
Committee and Conference Reports (Statements of Managers) for the 
revenue-related legislation considered by the House Committee on Ways 
and Means and/or the Senate Committee on Finance and conference action 
on revenue-related legislation. A list of these committee and 
conference reports is contained in Attachment A.
Tax legislative reports
    Tax legislative reports worked on by the Joint Committee staff 
relating to legislation enacted in 1998 included:
  --Extension and modification of Highway Trust Fund tax provisions 
        (revenue title in H.R. 2400, Transportation Equity Act for the 
        21st Century).
  --Internal Revenue Service Restructuring and Reform Act of 1998 (H.R. 
        2676), which included major revisions of numerous IRS 
        administration, taxpayer compliance and taxpayer rights 
        provisions, revenue offsets, and technical corrections to 
        recent tax legislation.
  --Tax and Trade Relief Extension Act of 1998 (revenue provisions of 
        H.R. 4328, the Omnibus Consolidated and Emergency Supplemental 
        Appropriations Act, 1999).
  --Internet Tax Freedom Act (S. 442 as reported by the Finance 
        Committee, included in the conference report for H.R. 4328).
    The Joint Committee staff also worked on several other reports on 
tax legislation considered by the tax-writing committees in 1998 but 
not enacted. These included the following areas of tax legislation 
(also listed in Attachment A):
  --H.R. 1432 (revenue-offset provision relating to the employer 
        deduction for severance pay in the African Growth and 
        Opportunity Act), which was passed by the House.
  --H.R. 3249 (Federal Retirement Coverage Corrections Act), which was 
        passed by the House.
  --H.R. 4250 (revenue-offset provisions in the Patient Protection Act 
        of 1998), which was passed by the House.
  --H.R. 4579 (Tax Relief Act of 1998), which was passed by the House.
  --H.R. 4738 (Extension of Expiring Provisions and Other Tax Relief), 
        which was passed by the House.
  --S. 1133 (Parent and Student Savings Account Plus Act), which was 
        reported by the Finance Committee and passed by the Senate as 
        an amendment to H.R. 2646 (see below).
  --H.R. 2646 (Education Savings and School Excellence Act of 1998), 
        the conference report for which was passed by the House and the 
        Senate in 1998 but vetoed by the President.
  --S. 1415 (Tobacco Settlement), which was reported by the Finance 
        Committee and considered by the Senate.
JCT staff publications
    In addition to its work on committee and conference reports, the 
Joint Committee staff published 82 documents during 1998, including 
pamphlets and other documents prepared for committee hearings and 
markups and conference action (see Attachment B). Included in these 
documents was the General Explanation of Tax Legislation Enacted in 
1998, a 320-page comprehensive explanation of tax legislation enacted 
in 1998, and also a Summary of Revenue Provisions Contained in 
Legislation Enacted During the 105th Congress.
    The 1998 staff publications included the Joint Committee staff's 
annual report on estimates of Federal tax expenditures (for fiscal 
years 1999-2003). Other publications included a staff study on tax 
amnesty proposals, analysis of proposals for restructuring of the 
Internal Revenue Service, analysis of individual effective marginal tax 
rates, proposals to reduce the marriage tax penalty, revenue provisions 
contained in the President's fiscal year 1999 budget, and issues 
relating to estate and gift taxes, the individual alternative minimum 
tax, capital gains, tax incentives for savings, tax provisions relating 
to health care and qualified pension plans, and tax complexity for 
small business.
JCT staff investigations and refund review
    During 1998, the Joint Committee staff continued its investigation 
(started in 1997) of whether the Internal Revenue Service's (``IRS'') 
selection of tax-exempt organizations (Code secs. 501(c)(3) and 
501(c)(4)) and individuals associated with such organizations for audit 
has been politically motivated, including an analysis of the selection 
of such tax-exempt organizations for audit for reasons related to their 
alleged political or lobbying activities. This investigation represents 
an important exercise of the Joint Committee's statutorily prescribed 
duty of oversight of the administration of the Federal tax system.
    An on-going, statutorily mandated function of the Joint Committee 
is the review of IRS refunds or credits of income tax, estate and gift 
tax, or any tax on public charities, foundations, pension plans, or 
real estate investment trusts in excess of $1,000,000. The Joint 
Committee staff reviews and reports on such refund cases and makes 
comments or recommendations with respect to the proposal refund case to 
the IRS. The Joint Committee is moving from a calendar year to fiscal 
year reporting of refund activity. Therefore, statistics for 1998 
contained in Attachment E are presented for the period January through 
September. During this period of 1998, the Joint Committee refund staff 
reviewed 439 cases involving $4.8 billion in proposed refunds. The 
Joint Committee staff raised concerns in 55 cases (or approximately 
12.9 percent of the cases). Errors identified by the Joint Committee 
staff produced a net reduction in refunds of $20.4 million in 1998, as 
compared to $14.3 million in 1997. The average annual reduction in 
refunds for the last 8 years is $11.1 million.
Revenue estimates and related analysis
    Attachments C and D show data relating to the Joint Committee's 
revenue estimating activity for calendar year 1998. The Joint Committee 
received 2,729 requests for revenue estimates during 1998, the largest 
number of requests ever received in a single year. These requests 
represent a 32 percent increase in the number of requests over 1997. 
The Joint Committee staff disposed of 85 percent of the requests 
received.
    Since 1985, when data on revenue estimate requests was first 
compiled, the number of requests received annually has increased by 684 
percent.
 anticipated workload of the joint committee on taxation for calendar 
                               year 1999
    During 1999, the Joint Committee's workload will be at least 
equivalent to what it has been in the past several years. The Joint 
Committee will be extensively involved in legislative proposals to 
provide broad-based tax relief to the American taxpayers, expiring tax 
provisions, and social security reform. The Joint Committee staff will 
(1) develop legislative proposals, (2) assist in the drafting of such 
proposals, (3) provide revenue estimates for numerous legislative 
options and amendments, (4) prepare markup documents and committee 
reports, and (5) provide additional economic analysis to the Members.
    In addition to this anticipated legislative activity, beginning in 
1999, the Joint Committee will assume new responsibilities under the 
IRS Reform Act. The Joint Committee staff is now required to prepare a 
complexity analysis for inclusion in Committee and Conference reports 
for all revenue legislation. In addition, the Joint Committee staff is 
required under the IRS Reform Act to conduct two studies during 1999. 
The first study relates to the present-law system of penalties and 
interest and is required to be completed by July 22, 1999. The second 
study relates to the rules governing disclosure of tax return 
information and is due by January 22, 2000. Finally, the Joint 
Committee is required to prepare materials for the use of the Congress 
in connection with joint hearings relating to the operations of the 
Internal Revenue Service that will occur during calendar years 1999-
2003. These additional responsibilities will require significant staff 
resources.
                                summary
    Mr. Chairman, we hope that you will approve the appropriation 
request of the Joint Committee on Taxation. We believe that this 
request is the minimum amount necessary to fund the operations of the 
Joint Committee during fiscal year 2000. These resources will not only 
fund the day-to-day operations of the Joint Committee staff, but will 
also be used to continue our efforts to develop macroeconomic 
estimating capabilities and to perform the additional responsibilities 
of the Joint Committee mandated by the IRS Reform Act. If the requested 
funding is not provided, then difficult decisions will be required 
concerning what staff activities can and should be funded. We hope that 
this Subcommittee will not force the Joint Committee to make these 
decisions.
    Mr. Chairman, we recognize fully the budgetary constraints that 
make your work so difficult. At the same time, we hope that you will 
appreciate the important role the Joint Committee on Taxation plays in 
the analysis and development of tax legislation. We firmly believe that 
the nonpartisan technical tax experts on the Joint Committee staff 
provide a service to the Congress that is not and cannot be duplicated 
by any other Congressional office. Their work every year proves this.
    We respectfully urge the Members of the Subcommittee to respond 
favorably to the Joint Committee's funding request for fiscal year 
2000.
 Attachment A.--1998 Tax-Related Legislative Reports Worked on by the 
                Staff of the Joint Committee on Taxation
                  a. tax committee report explanations
    H.R. 1432 (African Growth and Opportunity Act). H. Rept. 105-423, 
Part 2. (House Ways and Means Committee report on revenue provision for 
the bill relating to employer deduction for severance pay).
    H.R. 2400 (Surface Transportation Revenue Act of 1998). H. Rept. 
105-467, Part 3. (House Ways and Means Committee report on extension 
and modification of Highway Trust Fund tax provisions).
    H.R. 2676 (Internal Revenue Service Restructuring and Reform Act of 
1998). S. Rept 105-174. (Senate Finance Committee report on IRS 
restructuring provisions and tax technical corrections).
    H.R. 3249 (Federal Retirement Coverage Corrections Act). H. Rept. 
105-625, Part 2. (House Ways and Means Committee report on the bill).
    H.R. 4250 (Patient Protection Act of 1998). Technical explanation 
of tax provisions for House Floor consideration of the bill (see JCX-
56-98).
    H.R. 4579 (Tax Relief Act of 1998). H. Rept. 105-739. (House Ways 
and Means Committee report on tax reduction and tax technical 
corrections provisions).
    H.R. 4738 (Extension of Expiring Provisions and Other Tax Relief). 
H. Rept. 105-817. (House Ways and Means Committee report on extension 
of expiring tax provisions, revenue offsets, and tax technical 
corrections).
    S. 442 (Internet Tax Freedom Act). S. Rept. 105-276. (Finance 
Committee report on amendment to the bill).
    S. 1133 (Parent and Student Savings Account Plus Act). S. Rept. 
105-164. (Senate Finance Committee report on education savings 
accounts, other education-related tax provisions, and revenue offsets).
    S. 1415 (Tobacco Settlement). No official report. (Technical 
explanation of Finance Committee amendment to the bill).
             b. tax-related conference report explanations
    H.R. 2400 (Transportation Equity Act for the 21st Century). H. 
Rept. 105-550. (Conference report on the revenue provisions of the 
bill).
    H.R. 2646 (Education Savings and School Excellence Act of 1998). H. 
Rept. 105-577. (Conference report on the bill).
    H.R. 4328 (Tax and Trade Relief Extension Act of 1998). H. Rept. 
105-825 (Division J of Omnibus Consolidated and Emergency Supplemental 
Appropriations Act, 1999). (Conference report on revenue provisions of 
the bill).
       Attachment B.--1998 Joint Committee on Taxation Documents
                            jcs-98 documents
    JCS-1-98--Description And Analysis Of Proposals Relating To The 
Recommendations Of The National Commission On Restructuring The 
Internal Revenue Service, S. 1096, And H.R. 2676 As Passed By The House 
Scheduled for Public Hearings Before the Senate Committee on Finance 
Beginning on January 28, 1998. January 23, 1998
    JCS-2-98--Tax Amnesty. January 30, 1998
    JCS-3-98--Present Law And Analysis Relating To Individual Effective 
Marginal Tax Rates. Scheduled for a Public Hearing by the House 
Committee on Ways and Means on February 4, 1998. February 3, 1998
    JCS-4-98--Description Of Revenue Provisions Contained In The 
President's fiscal year 1999 Budget Proposal. February 24, 1998
    JCS-5-98--Comparison Of Provisions Of H.R. 2676 Relating To IRS 
Restructuring And Reform As Passed By The House And The Senate. May 18, 
1998
    JCS-6-98--General Explanation Of Tax Legislation Enacted In 1998. 
November 24, 1998
    JCS-7-98--Estimates Of Federal Tax Expenditures For fiscal years 
1999-2003. December 14, 1998
                            jcx-98 documents
    JCX-1-98--Present Law And Background Relating To Proposals To 
Reduce The Marriage Tax Penalty. Scheduled for a Public Hearing Before 
the House Committee on Ways and Means on January 28, 1998. January 27, 
1998
    JCX-2-98--Present Law And Background Relating To Estate And Gift 
Taxes. Scheduled for a Public Hearing Before the House Committee on 
Ways and Means on January 28, 1998. January 27, 1998
    JCX-3-98--Present Law And Issues Relating To The Individual 
Alternative Minimum Tax (``AMT''). Scheduled for a Hearing Before the 
House Committee on Ways and Means on February 4, 1998. February 2, 1998
    JCX-4-98--Present Law And Background Relating To Taxation Of 
Capital Gains. Scheduled for a Public Hearing Before the House 
Committee on Ways and Means on February 12, 1998. February 6, 1998
    JCX-5-98--Description Of Chairman's Mark Of An Amendment To S. 1133 
(``Parent And Student Savings Account Plus Act''). Scheduled for Markup 
by the Senate Committee on Finance on February 10, 1998. February 6, 
1998
    JCX-6-98--Present Law And Background Relating To Tax Treatment Of 
``Innocent Spouses''. Scheduled for a Public Hearing Before the Senate 
Committee on Finance on February 11, 1998. February 9, 1998
    JCX-7-98--Description Of Modifications To Chairman's Mark Of An 
Amendment To S. 1133 (``Parent And Student Savings Account Plus Act''). 
Scheduled for Markup by the Senate Committee on Finance on February 10, 
1998. February 10, 1998
    JCX-8-98--Estimated Revenue Effects Of Chairman's Mark With 
Modifications Of An Amendment In The Nature Of A Substitute To S. 1133, 
The ``Parent And Student Savings Account Plus Act''. February 10, 1998
    JCX-9-98--Description Of Revised Modifications To Chairman's Mark 
Of An Amendment To S. 1133 (``Parent And Student Savings Account Plus 
Act''). Scheduled for Markup by the Senate Committee on Finance on 
February 10, 1998. February 10, 1998
    JCX-10-98--Estimated Revenue Effects Of A Revised Chairman's Mark 
With Modifications Of An Amendment In The Nature Of A Substitute To S. 
1133, The ``Parent And Student Savings Account Plus Act''. February 10, 
1998
    JCX-11-98--Present Law And Background Relating To Tax Incentives 
For Savings. Scheduled for a Public Hearing Before the House Committee 
on Ways and Means on February 12, 1998. February 11, 1998
    JCX-12-98--Description Of Revenue Provision In Chairman's Amendment 
In The Nature Of A Substitute To H.R. 1432, The ``African Growth And 
Opportunity Act''. Scheduled for Markup by the House Committee on Ways 
and Means on February 25, 1998. February 23, 1998
    JCX-13-98--Estimated Revenue Effects Of A Chairman's Amendment In 
The Nature Of A Substitute To H.R. 1432, The ``African Growth And 
Opportunity Act''. February 23, 1998
    JCX-14-98--Estimated Budget Effects Of The Revenue Provisions 
Contained In The President's fiscal year 1999 Budget Proposal. February 
24, 1998
    JCX-15-98--Chairman's Amendment Relating To Extension Of Highway 
Trust Fund Excise Taxes And Related Trust Fund Provisions (Revenue 
Title To H.R. 2400). March 25, 1998
    JCX-16-98--Estimated Budget Effects Of A Chairman's Amendment 
Relating To An Extension Of Highway Trust Fund Excise Taxes And Related 
Trust Fund Provisions (Revenue Title To H.R. 2400) On March 26, 1998. 
March 25, 1998
    JCX-17-98--Description Of Senate Finance Committee Chairman's Mark 
Relating To Reform And Restructuring Of The Internal Revenue Service. 
Scheduled for Markup by the Senate Committee on Finance on March 31, 
1998. March 26, 1998
    JCX-18-98--Description Of Senate Finance Committee Chairman's Mark 
Of Tax Technical Corrections Provisions. Scheduled for Markup by the 
Senate Committee on Finance on March 31, 1998. March 26, 1998
    JCX-19-98--Estimated Revenue Effects Of The Senate Finance 
Committee Chairman's Mark Relating To Reform And Restructuring Of The 
Internal Revenue Service (5-year numbers) March 27, 1998
    JCX-20-98--Estimated Revenue Effects Of The Senate Finance 
Committee Chairman's Mark Relating To Reform And Restructuring Of The 
Internal Revenue Service (10-year numbers). March 27, 1998
    JCX-21-98--Description Of Modifications To Senate Finance Committee 
Chairman's Mark Relating To Reform And Restructuring Of The Internal 
Revenue Service And Tax Technical Corrections Provisions. Scheduled for 
Markup by the Senate Committee on Fiance on March 31, 1998. March 31, 
1998
    JCX-22-98--Estimated Revenue Effects Of The Senate Finance 
Committee Chairman's Mark, With Modifications, Relating To Reform And 
Restructuring Of The Internal Revenue Service. March 31, 1998
    JCX-23-98--Description Of Additional Modifications To Senate 
Finance Committee Chairman's Mark Relating To Reform And Restructuring 
Of The Internal Revenue Service And Tax Technical Corrections 
Provisions. March 31, 1998
    JCX-24-98--Description Of Accepted Amendments To Senate Finance 
Committee Chairman's Mark Relating To Reform And Restructuring Of The 
Internal Revenue Service And Tax Technical Corrections Provisions, As 
Modified. March 31, 1998
    JCX-25-98--Estimated Revenue Effects Of Reform And Restructuring Of 
The Internal Revenue Service As Ordered To Be Reported By The Senate 
Committee On Finance On March 31, 1998. April 1, 1998
    JCX-26-98--Present Law And Background On Federal Tax Provisions 
Relating To Health Care. Scheduled for a Public Hearing Before the 
Subcommittee on Oversight of the House Committee on Ways and Means on 
April 23, 1998. April 22, 1998
    JCX-27-98--Comparison Of Transportation Revenue And Related 
Provisions Of H.R. 2400, As Passed By The House And The Senate. April 
27, 1998
    JCX-28-98--Comparison Of The Estimated Budget Effects Of 
Transportation Revenue And Related Provisions Of H.R. 2400, As Passed 
By The House And The Senate. April 27, 1998
    JCX-29-98--Estimated Budget Effects Of S. 1133, The Parent And 
Student Savings Account Plus Act,'' As Passed By The Senate On April 
23, 1998. May 4, 1998
    JCX-30-98--Overview Of Present-Law Tax Rules Relating To Qualified 
Pension Plans. Scheduled for a Public Hearing Before the Subcommittee 
on Oversight of the House Committee on Ways and Means on May 5, 1998. 
May 4, 1998
    JCX-31-98--Description Of Roth Financing Amendment To The 
``Internal Revenue Service Restructuring And Reform Act Of 1998'' As 
Reported By The Senate Committee On Finance. May 5, 1998
    JCX-32-98--Estimated Revenue Effects Of H.R. 2676, The ``Internal 
Revenue Service Restructuring And Reform Act Of 1998,'' As Reported By 
The Senate Committee On Finance And Modified By The Roth Financing 
Amendment. May 5, 1998
    JCX-33-98--Comparison Of Revenue Provisions Of H.R. 2646 Relating 
To Certain Education Savings Tax Incentives As Passed By The House And 
The Senate. May 11, 1998
    JCX-34-98--Comparison Of The Estimated Budget Effects Of The 
Revenue Provisions Of H.R. 2646, As Passed By The House And The Senate. 
May 11, 1998
    JCX-35-98--Description Of Present Law And Proposals Relating To 
Tobacco Tax And Trust Fund And Other Provisions. Scheduled for 
Consideration by the Senate Committee on Finance on May 14, 1998. May 
14, 1998
    JCX-36-98--Estimated Revenue Effects Of A Chairman's Mark For 
Senate Finance Committee Markup Of S. 1415 On May 14, 1998. May 14, 
1998a
    JCX-37-98--Errata--``Description Of Present Law And Proposals 
Relating To Tobacco Tax And Trust Fund And Other Provisions. May 14, 
1998
    JCX-38-98--Estimated Revenue Effects Of An Amendment To S. 1415, As 
Agreed To By The Senate Committee On Finance On May 14, 1998. May 14, 
1998
    JCX-39-98--Comparison Of Tax Technical Corrections Contained In 
H.R. 2676 As Passed By The House And The Senate. May 18, 1998
    JCX-40-98--Distributional Effects Of S. 1415, As Reported By The 
Senate Committee On Commerce, Science, And Transportation. May 18, 1998
    JCX-41-98--Distributional Effects Of An Amendment To S. 1415 As 
Reported By The Senate Committee On Finance. May 18, 1998
    JCX-42-98--Estimated Revenue Effects Of H.R. 2676, The ``Internal 
Revenue Service Restructuring And Reform Act Of 1998,'' As Passed By 
The Senate On May 7, 1998. May 20, 1998
    JCX-43-98--Estimated Budget Effects Of The Conference Agreement 
Relating To The Transportation Revenue And Trust Fund Provisions Of 
H.R. 2400 (Title IX). May 22, 1998
    JCX-44-98--Comparison Of The Estimated Budget Effects Of H.R. 2676, 
The ``Internal Revenue Service Restructuring And Reform Act Of 1998,'' 
As Passed By The House And The Senate. May 28, 1998
    JCX-45-98--Description And Analysis Of Revenue-Related Provisions 
Of S. 1415 Relating To National Tobacco Policy As Modified By The 
Manager's Amendment. June 3, 1998
    JCX-46-98--Estimated Budget Effects Of The Conference Agreement On 
The Revenue Provisions Of H.R. 2646. June 16, 1998
    JCX-47-98--Disclosure Report For Public Inspection Pursuant To 
Internal Revenue Code Section 6103(p)(3)(C) For Calendar Year 1997. 
June 16, 1998
    JCX-48-98--Description Of Possible Proposals Relating To The 
Individual Alternative Minimum Tax (``AMT''). Scheduled for a Public 
Hearing Before the Subcommittee on Oversight of the House Committee on 
Ways and Means on June 23, 1998. June 22, 1998
    JCX-49-98--Description Of Possible Proposals To Reduce Tax 
Complexity For Small Business. Scheduled for a Public Hearing Before 
the House Committee on Ways and Means on June 23, 1998. June 22, 1998
    JCX-50-98R--Summary Of The Conference Agreement On H.R. 2676, The 
Internal Revenue Service Restructuring And Reform Act Of 1998. June 24, 
1998
    JCX-51-98--Estimated Budget Effects Of Titles I-VIII Of The 
Conference Agreement Relating To H.R. 2676, The ``Internal Revenue 
Service Restructuring And Reform Act Of 1998''. June 24, 1998
    JCX-52-98--Description Of Revenue And Social Security Provisions 
Included In The Chairman's Amendment In The Nature Of A Substitute To 
H.R. 3249, The ``Federal Retirement Coverage Corrections Act''. June 
24, 1998
    JCX-53R-98--Listing Of Expiring Tax Provisions, 1998-2007. June 30, 
1998
    JCX-54-98--Description Of Revenue Provisions To Be Considered In 
Connection With A Markup Of Trade Matters. Scheduled for Markup by the 
Senate Committee on Finance on July 21, 1998. July 20, 1998
    JCX-55-98--Estimated Budget Effects Of Revenue And Trade Provisions 
To Be Considered In Connection With A Markup Of Trade Matters. 
Scheduled For Markup By The Senate Committee On Finance On July 21, 
1998. July 21, 1998
    JCX-56-98--Description Of Revenue Offsets For Medical Savings 
Account Provisions Contained In H.R. 4250, The ``Patient Protection Act 
Of 1998''. July 23, 1998
    JCX-57-98--Estimated Budget Effects Of Medical Savings Account 
Provisions In H.R. 4250, The ``Patient Protection Act Of 1998,'' And 
Revenue-Offset Provisions Of An Amendment To Be Offered To The Bill. 
July 23, 1998
    JCX-58-98--Description Of S. 442, The ``Internet Tax Freedom Act,'' 
And A Proposed Chairman's Amendment In The Nature Of A Substitute. 
Scheduled for Markup by the Senate Committee on Finance on July 28, 
1998. July 24, 1998
    JCX-59-98--Background And Present Law Relating To Funding 
Mechanisms Of The ``E-Rate'' Telecommunications Program. July 31, 1998
    JCX-60-98--Description Of Major Provisions Contained In The 
``Taxpayer Relief Act Of 1998''. Scheduled for a Markup by the House 
Committee on Ways and Means on September 17, 1998. September 15, 1998
    JCX-61-98--Description Of Tax Technical Corrections In The 
``Taxpayer Relief Act Of 1998''. Scheduled for Markup by the House 
Committee on Ways and Means on September 17, 1998. September 15, 1998
    JCX-62-98--Estimated Budget Effects Of The ``Taxpayer Relief Act Of 
1998''. September 15, 1998
    JCX-63-98--Distributional Effects Of The ``Taxpayer Relief Act Of 
1998''. September 15, 1998
    JCX-64-98--Description Of An Amendment In The Nature Of A 
Substitute To The Provisions Contained In H.R. 4579, The ``Taxpayer 
Relief Act Of 1998''. Scheduled for a Markup by the House committee on 
Ways and Means on September 17, 1998. September 17, 1998
    JCX-65-98--Estimated Budget Effects Of An Amendment In The Nature 
Of A Substitute To H.R. 4579, The ``Taxpayer Relief Act Of 1998''. 
September 17, 1998
    JCX-66-98--Description Of Provisions In H.R. 4738. Scheduled for 
Markup Before the House Committee on Ways and Means on October 9, 1998. 
October 9, 1998
    JCX-67-98--Description Of Tax Technical Corrections Contained In 
H.R. 4738. Scheduled for Markup Before the House Committee on Ways and 
Means on October 9, 1998. October 9, 1998
    JCX-68-98R--Estimated Revenue Effects Of H.R. 4738. Scheduled for 
Markup by the Committee on Ways and Means on October 9, 1998. October 
9, 1998
    JCX-69-98--Description Of An Amendment In The Nature Of A 
Substitute To The Provisions In H.R. 4738. Scheduled for a Markup by 
the House Committee on Ways and Means on October 9, 1998. October 9, 
1998
    JCX-70R-98--Description Of Provisions In S. 2622, The Tax Relief 
Extension Act Of 1998. October 10, 1998
    JCX-71-98R--Estimated Revenue Effects Of S. 2622, The ``Tax Relief 
Extension Act Of 1998''. October 10, 1998
    JCX-72-98--Estimated Budget Effects Of H.R. 4738, As Passed By The 
House Of Representatives On October 12, 1998. October 13, 1998
    JCX-73-98--Estimated Budget Effects Of Tax And Trade Provisions Of 
H.R. 4328, The ``Omnibus Consolidated And Emergency Supplemental 
Appropriations Act, 1999''. October 20, 1998
    JCX-74-98--Summary Of Expiring Tax And Trade Provisions And Other 
Revenue Provisions Contained In H.R. 4328, The Omnibus Consolidated And 
Emergency Supplemental Appropriations Act, 1999. October 20, 1998
    JCX-75-98--Summary Of Revenue Provisions Contained In Legislation 
Enacted During The 105th Congress. November 19, 1998.

Attachment C.--Joint Committee on Taxation revenue estimate requests

        Calendar year                                    No. of requests

1985..............................................................   348
1986..............................................................   474
1987..............................................................   420
1988..............................................................   900
1989.............................................................. 1,290
1990.............................................................. 1,286
1991.............................................................. 1,461
1992.............................................................. 2,350
1993.............................................................. 2,380
1994.............................................................. 1,259
1995.............................................................. 2,278
1996.............................................................. 1,792
1997.............................................................. 2,079
1998.............................................................. 2,729

             ATTACHMENT D.--105TH CONGRESS REQUEST DATA \1\
                        (As of January 13, 1999)
------------------------------------------------------------------------
                                          Requests   Requests   Percent
               Requestors                 Received    Closed     Closed
------------------------------------------------------------------------
Ways and Means Committee:
    Republicans........................      1,036        887       85.6
    Democrats..........................        368        318       86.4
Senate Finance Committee:
    Republicans........................      1,205      1,042       86.5
    Democrats..........................        800        693       86.6
Non-Ways and Means Committee:
    Republicans........................        403        359       89.1
    Democrats..........................        182        152       83.5
Non-Senate Finance Committee:
    Republicans........................        462        387       83.8
    Democrats..........................        484        387       80.0
Others.................................         50         48       96.0
                                        --------------------------------
      Total............................      4,990      4,273       85.6
------------------------------------------------------------------------
\1\ Totals include both revenue and non-revenue requests.

                       Attachment E.--Memorandum
                                                  October 28, 1998.
To: Chief of Staff, Joint Committee on Taxation
From: Senior Refund Counsel
Subject: Refund Section--Operations Report January 1-September 30, 1998 
    \1\
---------------------------------------------------------------------------
    \1\ Pursuant to our discussions, our report will now be on a fiscal 
year ended September 30. This transition period will be a short nine-
month period.
---------------------------------------------------------------------------
    This is a report on the more significant developments in this 
Office during this period.

                                summary
    Volume.--Refund Cases--439 reports were received during this 
period. The total dollar amount of refunds was $4,836,746,304.

------------------------------------------------------------------------
         Reports received           1995      1996      1997      1998
------------------------------------------------------------------------
Examination Division............       425       375       457       334
Appeals Division................       132       101       124        92
Department of Justice...........        20        25        18        12
Chief Counsel...................         2         5         3         1
                                 ---------------------------------------
      Total.....................       579       506       602       439
                                 =======================================
Concerns \1\....................        79       104        88        58
------------------------------------------------------------------------
\1\ Includes 12 post review deficiency cases for 1995, 16 for 1996, 4
  for 1997, and 3 for 1998.

    Post Review.--The Service reports 64 large deficiency cases to us 
on an annual basis. During this reporting period, we received 44 of 
these cases and wrote 3 concerns.
    Other Action.--(1) We transmitted for consideration of legislative 
action 7 issues that arose in various cases.
    (2) We transmitted memoranda suggesting the Service reconsider its 
position in two areas, and one memorandum alerting them to an issue of 
industry importance.
    Exhibits and Appendices provide detailed information on most of the 
foregoing.
    Errors identified by us in 1998 and prior years, and settled in 
1998 produced a net reduction in refunds of $20.4 million. The average 
annual reduction for the last 8 years is $11.1 million. Such 
corrections also reduced ATNOLCF's, $46 million, AMFTC's $9 million, 
and regular tax credits $4.5 million. In addition, one joint committee 
reporter informed us of savings of $600,000 from corrections made 
before the case was submitted to us, that resulted from memoranda we 
had written in an earlier case.
    We hope that in spite of our decreased staffing we are 
satisfactorily accomplishing our assigned portion of the Committee's 
mission and meeting your expectations. We look forward to a productive, 
challenging year.

                         EXHIBIT I.--REPORTS TO JC AS REQUIRED BY IRS CODE SECTION 6405
                                [From January 1, 1998 through September 30, 1998]
----------------------------------------------------------------------------------------------------------------
                                               No. of               Cumulative
                   Month                       cases    Cumulative    monthly   Dollar receipts     Cumulative
                                              received     total      average                    dollar receipts
----------------------------------------------------------------------------------------------------------------
January....................................         37          37          37     $347,022,310     $347,022,310
February...................................         48          85          42      458,508,696      805,531,006
March......................................         62         147          49      776,532,808    1,582,063,814
April......................................         43         190          47      305,529,092    1,887,592,906
May........................................         53         243          48      354,459,118    2,242,052,024
June.......................................         54         297          49    1,293,518,368    3,535,570,392
July.......................................         62         359          51      766,793,099    4,302,363,491
August.....................................         35         394          49      190,355,756    4,492,719,247
September..................................         45         439          48      344,027,057    4,836,746,304
----------------------------------------------------------------------------------------------------------------


                 EXHIBIT II.--JOINT COMMITTEE CASES RECEIVED IN BY TYPES OF TAXPAYER AND SOURCE
                                [From January 1, 1998 through September 30, 1998]
----------------------------------------------------------------------------------------------------------------
                                            Amount    Percent                                  Amount    Percent
----------------------------------------------------------------------------------------------------------------
            TYPES OF TAXPAYERS                                        SOURCE OF REPORTS
Individuals..............................        23      5.24   Examination.................       334     76.08
Estates..................................         7      1.59   Appeals.....................        92     20.96
Trusts...................................         1      0.23   Justice.....................        12      2.73
Corporations.............................       408     92.94   Tax Court...................         1      0.23
                                          ---------------------                              -------------------
      Total..............................       439    100.00         Total.................       439    100.00
----------------------------------------------------------------------------------------------------------------


           EXHIBIT III.--JOINT COMMITTEE MONTHLY RECEIPTS--REFUND REPORTS FROM EXAMINATION AND APPEALS
                                [From January 1, 1998 through September 30, 1998]
----------------------------------------------------------------------------------------------------------------
                              Month                               Examination  Cumulative   Appeals   Cumulative
----------------------------------------------------------------------------------------------------------------
January.........................................................          22           22         13          13
February........................................................          39           61          8          21
March...........................................................          51          112          9          30
April...........................................................          36          148          6          36
May.............................................................          41          189         12          48
June............................................................          43          232          9          57
July............................................................          39          271         20          77
August..........................................................          28          299          7          84
September.......................................................          35          334          8          92
----------------------------------------------------------------------------------------------------------------


              EXHIBIT IV.--1998 JOINT COMMITTEE ON TAXATION CONCERNS ON REFUND REPORTS FROM IRS \1\
----------------------------------------------------------------------------------------------------------------
                                                                                                   Total No. of
                                                                   Examinations       Appeals        concerns
                                                                                                      issued
----------------------------------------------------------------------------------------------------------------
Number of concerns issued.......................................              40              15              55
Percent of total concerns issued................................              73              27             100
Total reports received..........................................             334              92             426
----------------------------------------------------------------------------------------------------------------
\1\ Number of Concerns does not include 3 on deficiency cases.

    Senator Bennett. Thank you very much.
    So, the budget does not include the $200,000 and three 
additional FTE's. Would you ask us to do that? That is not a 
lot of money.
    Senator Roth. I think my personal answer, Mr. Chairman, 
would be yes. I think that there is great merit in making a 
careful examination of the Internal Revenue Code. It would be a 
very, very considerable undertaking on the part of the Joint 
Committee, but I will have to tell you, the more I have looked 
into the IRS, the Tax Code, the complexity, the fact that 
different experts come out with different answers, it is 
critically important that we move ahead with reform.
    Senator Bennett. Well, I recall during the health care 
debate in the 103rd Congress I quoted James Madison on the 
floor when he said, laws must be understandable, and made the 
point that the 1,300 pages that were offered to us as the 
health care law were absolutely impenetrable. The then chairman 
of the Finance Committee, Senator Moynihan, took the floor and 
said, we have long since gone beyond the time when laws were 
understandable. Consider the Internal Revenue Code, which no 
one understands and which is three or four times as voluminous 
as the piece of legislation that the Senator from Utah is 
complaining about.
    I think if we can resolve it for $200,000, we probably 
should do it.
    Senator Roth. I would be very supportive of that approach.
    Senator Bennett. I have to ask the standard question. You 
have a lot of hardware and software, a significant equipment 
budget, are your systems Y2K compliant? Have you dealt with 
that challenge?
    Ms. Paull. Yes, our systems are. We currently produce lots 
of tables that include the year 2000 and beyond, and so we have 
already had a check-out and we are in good shape.
    Senator Bennett. I wish I could say that was the case for 
everyone who comes before us.
    Senator Roth. I think that is where our risk is, Mr. 
Chairman, when we do work with outside organizations whether or 
not they have made the necessary changes.
    Senator Bennett. All right. Senator Feinstein, I have no 
further questions.
    Senator Feinstein. Just one, if I may, Mr. Chairman.
    Senator Bennett. Sure.
    Senator Feinstein. Senator, just one quick question on the 
additional----
    Senator Roth. Make it easy. [Laughter.]
    Senator Feinstein (continuing). On the additional FTE's. In 
your remarks, you mentioned three missions. One is the 
complexity analysis of the revenue provisions. I trust that 
means recommendations for simplification of the Tax Code. The 
second is the annual report in connection with the hearings of 
the six congressional committees, and the third is the present 
law protections relating to disclosure and tax reform 
information.
    Are those the three areas, or is there more for these 
people to do?
    Senator Roth. There is more. For example, a study is being 
taken and is to be available I think in July on penalties and 
interest. I think this is a critically important study because 
the number of penalties and interest are a major concern of 
mine, particularly in light of the complexity and lack of 
understanding of the Tax Code. People can work in good faith 
and try to do what is right or they may have made an honest 
mistake, and yet they are subject to significant penalties, as 
well as interest. I think this is a matter that cries for 
further study. There may be other matters.

                     simplification of the Tax Code

    Senator Feinstein. Is there now no kind of oversight, 
review process in the sense of recommendations for change?
    Ms. Paull. Well, part of the Joint Committee's mission is 
to look at the Tax Code and make recommendations on how to 
simplify the Code. We have a project going on right now and we 
have done several projects in the past to make some 
recommendations on simplification.
    But the additional appropriations would be to cover all of 
the Tax Code, not just single out areas where we think priority 
attention ought to be given. So, it would be a much more 
comprehensive effort than we do today in trying to identify the 
worst parts of the Tax Code and make recommendations to address 
that.
    In addition, we did absorb in our budget some of the duties 
that were given to us under the IRS restructuring bill, the two 
studies that were mentioned, as well as the complexity analysis 
and the coordination of the joint hearings. So, it is really 
this big effort, looking through the entire Tax Code and making 
a recommendation, that would really be a much larger 
undertaking than we could absorb in our budget today.
    Senator Feinstein. You are asking for this up to the year 
2003, or this is a permanent addition?
    Ms. Paull. The comprehensive report is once every Congress. 
What we are asking for is an annual appropriation of $200,000 
and three FTE's to devote those resources to that once-a-
Congress report.
    Senator Feinstein. On an ongoing basis.
    Ms. Paull. That is correct.
    Senator Feinstein. Thank you very much.
    Senator Bennett. Let me revisit that. Is there any similar 
effort going forward in the Library of Congress Congressional 
Research Service?
    Ms. Paull. I am not aware of that, but the IRS 
restructuring bill does ask the IRS to perform a similar 
function on an annual basis. Their first report will be due 
March of the year 2000.
    Senator Roth. I think there is great merit in duplication.
    Senator Bennett. I see a group of experts with different 
patrons----
    Senator Roth. Exactly.
    Senator Bennett (continuing). Gathering around the table 
and swapping ideas. So, I am not suggesting you do not need it 
if the Congressional Research Service has it, but when we get 
the Library of Congress before us, we may ask them if their 
Congressional Research Service has some experts that are 
working on this. So, the IRS will come and say this is how we 
think, the Joint Committee on Taxation comes and says this is 
how we think, and the Congressional Research Service says this 
is how we think. Maybe we will get some fertile ideas coming 
out of that kind of exchange.
    Senator Roth. Right. It is a major undertaking and it is 
extraordinarily difficult.
    Senator Bennett. It is. I was involved in Senator Dole's 
effort to try to come up with an idea, and we finally settled 
on saying it will take us 2 years. [Laughter.]
    Thank you very much. We appreciate your being here and the 
work you do.
    Ms. Paull. Mr. Chairman, if I might also leave some 
background pamphlets that we did in response to your concerns 
and the subcommittee's concerns about access to our services by 
other Members than the tax-writing committees so they can 
understand what we do and how to use our services.
    Senator Bennett. We have some statistics on that.
    Ms. Paull. Yes, I know. We are very interested in making 
sure everybody uses our services and has equal access.
    Senator Bennett. Well, I noticed the one group that has the 
highest response. You might be interested, Senator Feinstein. 
We raised the issue that their staff only responds to people 
from the Ways and Means and the Finance Committees. You will 
find now that on the Ways and Means Committee, Republicans get 
85.6 of their questions answered and the Democrats 86.4; the 
Senate Finance Committee Republicans, 86.5 and the Democrats, 
86.6. But non-Ways and Means Committee Republicans are 89.1. 
That is the highest level, and the lowest level is non-Finance 
Committee Democrats. I wonder if that reflects the Speaker who 
would be a non-Ways and Means Committee Republican? The Speaker 
may be the one who has driven that number higher. [Laughter.]
    Ms. Paull. The leadership certainly usually needs 
information quickly when they ask for it.
    Senator Bennett. Since the Leader over here is a Finance 
Committee Republican----
    Ms. Paull. But if you would look at the absolute numbers in 
the Senate, non-Finance Committee members, it is a factor that 
there are a lot more amendments that get offered on the Senate 
floor than they do in the House. You can see the absolute 
numbers are high.
    Senator Bennett. Well, your overall response: 85.6 percent. 
You mentioned that in your testimony, which is why I did not 
pursue it in the questions. Your desire to get that up is 
recognized and we appreciate your concern.
    Senator Roth. Thank you very much.
    Senator Bennett. Thank you.
    Senator Feinstein. Thank you.
                        JOINT ECONOMIC COMMITTEE

STATEMENT OF HON. CONNIE MACK, CHAIRMAN

                            opening remarks

    Senator Bennett. We welcome Senator Connie Mack, the 
Chairman of the Joint Economic Committee that has requested 
$3,200,000 for fiscal year 2000, which is a slight increase 
over fiscal year 1999 to provide accommodation for cost-of-
living for staff and nondiscretionary agency contributions.
    Senator, we welcome you and look forward to your testimony.
    Senator Mack. You just made my statement. [Laughter.]
    I do have a couple of comments that I will make.
    But first of all, let me say what a pleasure it is to be 
back with the committee, this time sitting on this side of the 
desk.
    Senator Bennett. Senator Mack and I--when he was the 
chairman of this subcommittee--cut the Joint Economic Committee 
back, so he has to live with that now that he is the chairman.
    Senator Mack. Well, as a matter of fact, if I remember 
correctly, it was about a 24 percent cut in real terms and we 
reduced the staff from about 50, 51 to 38, which was in 1994.
    Senator Bennett. 1995.

                Joint Economic Committee budget request

    Senator Mack. 1995? Yes.
    We have the same number of personnel now as we did after we 
made the cut. We have held it steady during that period of 
time.
    I just have a short statement that I would like to present.
    The Joint Economic Committee, as you have indicated, 
requests $3.2 million for fiscal year 2000. This budget request 
reflects the anticipated cost-of-living adjustments and 
incremental nondiscretionary agency contributions.
    The 106th Congress will confront a host of important 
economic issues that will have a far-reaching impact for the 
next 2 years and the coming millennium. It is my hope that the 
upcoming debates on Social Security, tax reform, and the 
budget, among many other economic issues, will be better 
informed by analyses provided by the Joint Economic Committee. 
I am committed to providing Congress with quality research that 
will help us make the best possible decisions for this country.
    These are truly exciting times. A technological revolution 
has produced the emergence and integration of world financial 
markets to create a global economy. As much of the world 
struggles to adapt to the changes demanded by these new 
realities, the United States stands as a beacon to economic 
growth. The way in which this Congress addresses the many 
economic issues before it will affect the long-term economic 
health of our country, as well as the paths which many other 
nations will follow.
    Producing and disseminating accurate economic research and 
analysis will be the hallmark of this Congress' Joint Economic 
Committee. Only through the use of accurate research can we 
promote the informed policy debates that are crucial to the 
formation of sound economic policy. It is my judgment that this 
can be accomplished within the budget request that I have made.
    Again, Mr. Chairman, as I mentioned a moment ago, we have 
held the staff positions to the same number now, 1995, 1996, 
1997, 1998, 1999, and this will be into the year 2000. At the 
same time that we have made those reductions, we have been able 
to produce quality information and information that is of 
benefit to the Congress. I would hope that you would be 
supportive of our budget request.

                           prepared statement

    The increase you mentioned is to cover inflation, but there 
is a component over which we have no control over, the 
nondiscretionary agency contributions.
    [The statement follows:]
               Prepared Statement of Senator Connie Mack
    Mr. Chairman, and members of the Subcommittee, thank you for the 
opportunity to appear before you this morning as Chairman of the Joint 
Economic Committee. I am happy to be here. The Joint Economic Committee 
requests $3,200,000 for fiscal year 2000. This budget request reflects 
the anticipated cost of living adjustments and incremental 
nondiscretionary agency contributions.
    The 106th Congress will confront a host of important economic 
issues that will have a far-reaching impact for the next two years and 
the coming millennium. It is my hope that the upcoming debates on 
Social Security, Tax Reform, and the Budget, among many other economic 
issues, will be better informed by analyses provided by the Joint 
Economic Committee. I am committed to providing Congress with quality 
research that will help it make the best possible decisions for this 
country.
    These are truly exciting times. A technological revolution has 
produced the emergence and integration of world financial markets to 
create a global economy. As much of the world struggles to adapt to the 
changes demanded by these new realities, the United States stands as a 
beacon to economic growth. The way in which this Congress addresses the 
myriad of economic issues before it will affect the long-term economic 
health of our country, as well as the paths which many other nations 
may follow. For these reasons, this Congress must possess the ability 
to gather and utilize the most accurate economic data available. My 
staff and I are committed to providing this data in a concise and 
accessible manner so that we may meet the challenges that face us and 
make the best possible decisions for the 21st century.
    Producing and disseminating accurate economic research and analysis 
will be the hallmark of this Congress' Joint Economic Committee. Only 
through the use of accurate research can we promote the informed policy 
debates that are crucial to the formation of sound economic policy. It 
is my judgment that this can be accomplished with this budget request.
    I thank you and welcome your questions.

    Senator Bennett. You have covered all of the issues that I 
had as questions.
    Do you have any questions Senator Feinstein?
    Senator Feinstein. No questions. A piece of cake.
    Senator Mack. A piece of cake. That is right.
    Senator Bennett. Thank you very much for all you do.
    Senator Mack. Thank you very much.
    Senator Bennett. Thank you. We appreciate your coming in.
                          OFFICE OF COMPLIANCE

STATEMENT OF RICKY SILBERMAN, EXECUTIVE DIRECTOR
ACCOMPANIED BY:
        PAM TALKIN, DEPUTY EXECUTIVE DIRECTOR FOR THE SENATE
        GARY GREEN, GENERAL COUNSEL
        BETH HUGHES-BROWN, ADMINISTRATIVE AND BUDGET OFFICER

                       introduction of Associates

    Senator Bennett. We recognize officially Ms. Ricky 
Silberman who is the Executive Director of the Office of 
Compliance. If you want to introduce the people who are with 
you.
    Ms. Silberman. I do indeed. Mr. Chairman and Senator 
Feinstein, this is the Deputy Executive Director for the 
Senate, Pam Talkin, who has been here before; Gary Green, 
General Counsel of the Office of Compliance; and Beth Hughes-
Brown, our Administrative and Budget Officer. We are honored to 
be here today to present to you the office's fiscal year 2000 
budget.
    I know you will be pleased to hear that this year we are 
once again asking for less money than we received last year: 
$2.076 million for fiscal year 2000, which is a half percent 
decrease from our fiscal year 1999 budget. We have actually 
sustained a decrease of over 20 percent over the past 3 years 
that the office has been in existence.
    The majority of our expenditures continue to be in 
personnel costs and personal services contracts. For example, 
section 215 of the CAA, which applied portions of the 
Occupational Safety and Health Act to the legislative branch, 
vests in the General Counsel the authority to conduct 
inspections and investigate health and safety complaints. 
During this past fiscal year, requests for inspections and 
investigations under section 215 have increased significantly. 
OSHA is proving to be one of the most significant 
responsibilities that we have under the act.
    The nature of some of these requests has required expert 
guidance in the performance of a wide range of occupational 
safety and health analyses, and assistance in the preparation 
of technical reports. Gary Green, our General Counsel, who 
enforces OSHA, ADA, and the labor-management portions of the 
CAA, is here to address any questions that you may have in this 
area.
    The strictly confidential alternative dispute resolution 
system, which Congress provided legislative branch employees in 
the CAA, continues to be a model of effectiveness. I think it 
is probably the single most important reason why our costs 
continue to go down. It is based on the principle that an 
informed regulated community and early resolution of disputes 
is most cost effective and best for employees and employing 
offices. Indeed, the process has proved so effective that the 
Board of Directors has recommended that Congress provide the 
private and Federal sectors ``with the same efficient and 
effective method of resolving disputes that the legislative 
branch now enjoys.''
    This recommendation was made in the biennial section 102(b) 
study recently submitted to Congress. In that study, the Board 
is required to review and report on the applicability to 
Congress of employment laws passed subsequent to the CAA, and 
that report also included the Board's evaluation of the 
comprehensiveness of coverage of the CAA laws to the three 
largest instrumentalities, a task that was left to the future 
time when the CAA was passed. Those three instrumentalities are 
the Library of Congress, the General Accounting Office, and the 
Government Printing Office. We have sent along copies of the 
102(b) study to members of the committee, and we have one 
available if anybody would like to see it.
    We have also attached with our submission for your 
information the section 301(h) report, and that contains the 
statistics which the office is required to maintain on employee 
use of the office.
    The office is mandated to provide a comprehensive program 
of education and information, and that includes briefings for 
Senate employing offices, as well as a number of publications 
regarding rights and responsibilities under the Congressional 
Accountability Act. These education and information activities 
and the publication of reports and studies account for most of 
the printing and postage costs and much of the cost of 
materials requested for fiscal year 2000.
    Mr. Chairman, we acknowledge and appreciate your leadership 
of and interest in addressing the year 2000 compliance in 
legislative branch agencies. We have made good use of the 
guidance of the GAO team working at your behest in this past 
year. We have assessed, tested and, when necessary, revised and 
replaced the mission-critical systems that could be affected at 
the turn of the century. We have gone into considerable detail 
in our written statement as to what we have done. I will go 
into it if you like or skip over it and you can ask questions 
which I will not be able to answer, but Beth Hughes-Brown will 
absolutely be able to answer.
    When we first went into business over 3 years ago, Beth 
came in and said, you know, there is a real problem looming in 
the future, and she has been on top of this. We are very proud 
of the fact that we are totally compliant at this point with 
the exception of something that we have no control over and 
that is the telecommunication systems. We have a redundant 
system in place with cell phones just in case we need it.
    So, moving right along, looking to the future of the Office 
of Compliance, we have conducted an analysis and evaluation of 
office functions and operations in terms of future needs. Our 
reduced workload, as I said earlier, in counseling, mediation, 
and hearings seems to be stabilized at really a much reduced 
level. However, we have had an increased demand in OSHA and 
other activities, and we are reorganizing and reallocating our 
resources. We believe we will be able to further trim our 
budget by reducing staff by attrition within the next year. We 
are already moving to do that, but of course if the Congress 
were to increase the office's authority and responsibility, as 
recommended in the 102(b) report, a reassessment is going to be 
necessary.

                           prepared statement

    We are very proud of the work of this office, and I would 
like to take this opportunity to thank you and Christine 
Ciccone for the support which has unfailingly been afforded to 
us in the nearly 4 years since Congress passed the CAA and 
since the Office of Compliance was begun.
    We will be delighted to answer any questions you may have.
    [The statement follows:]
                 Prepared Statement of Ricky Silberman
    Thank you, Mr. Chairman and Members of the Committee. As the 
Executive Director of the Office of Compliance, I am honored to be here 
to present to you the Office's year 2000 budget. With me are my 
colleagues the statutory officers: Deputy Executive Director for the 
Senate, Pam Talkin; Jim Stephens, Deputy Executive Director for the 
House; General Counsel, Gary Green and Beth Hughes-Brown, 
Administrative and Budget Officer.
    This year we once again are asking for less money than last: $2.076 
million for fiscal year 2000, a 0.5 percent decrease from our fiscal 
year 1999 budget, and a decrease of more than 20 percent over the past 
three years. The majority of our appropriation expenditures continue to 
be in personnel costs and personal services contracts. For example, 
Section 215 of the CAA, which applied portions of the Occupational 
Safety and Health Act to the legislative branch, vests in the General 
Counsel the authority to conduct inspections and investigate health and 
safety complaints. During this past fiscal year, requests for 
inspections and investigations under Section 215 have increased 
significantly. The nature of some of these requests required expert 
guidance in the performance of a wide range of occupational safety and 
health analyses, and assistance in preparation of technical reports. 
Gary Green, our General Counsel, who enforces the OSHA, ADA, and other 
sections of the CAA, is here to address any questions you may have.
    The strictly confidential alternative dispute resolution system, 
which Congress provided legislative branch employees in the CAA, 
continues to be a model of effectiveness. It is based on the principle 
that an informed regulated community and early resolution of disputes 
is most cost effective and best for employees and employing offices. 
Indeed, the process has proved so effective that the Board of Directors 
has recommended that Congress provide the private and federal sectors 
``with the same efficient and effective method of resolving disputes 
that the legislative branch now enjoys.''
    This recommendation was made in the biennial Section 102(b) Study 
recently submitted to Congress in which the Board is required to review 
and report on the applicability to Congress of employment laws passed 
subsequent to the CAA. That report also included the Board's evaluation 
of the comprehensiveness of coverage of the CAA laws to the three 
largest instrumentalities--the Library of Congress, the General 
Accounting Office, and the Government Printing Office. I've brought 
copies of the 102(b) Study with me today for you and the members of the 
Committee. We have also attached for your information the Section 
301(h) report of the statistics which the Office is required to 
maintain and publish on employee use of the Office.
    The Office provides a comprehensive program of education and 
information including monthly briefings for House employing offices, 
quarterly newsletters which are sent to all legislative branch 
employees, and a comprehensive manual for employing offices on rights 
and responsibilities under the Congressional Accountability Act. 
Education and information activities, in addition to the publication of 
reports and studies, account for most of the printing and postage costs 
and much of the cost of materials requested for fiscal year 2000.
    We acknowledge and appreciate your leadership, Mr. Chairman, in 
addressing year 2000 compliance in legislative branch agencies. We have 
made good use of the guidance of the GAO team working at your behest in 
the past year, to assess, test, and when necessary revise or replace 
the mission critical systems that could be affected at the turn of the 
next century. We have had a certain degree of advantage over some other 
agencies due to our small size, recent startup, and most importantly, 
due to the fact that our internal systems are completely PC-based. All 
of our personal computers are Y2K compliant, in terms of hardware, 
software, and networking and operating systems. All of our peripheral 
equipment, including printers, faxes, modems, TDD's, copiers, postage 
meters, scanners, and the technical equipment needed to conduct OSHA 
inspections, are compliant as well, and have been tested for 
interoperability issues. Our e-mail system, voice mail system and 
recorded information line are compliant and ready.
    External systems include accounting, our web page, and payroll. The 
Office is cross-serviced by the Library of Congress for accounting and 
disbursement purposes, and the Library loaded the new compliant version 
of the Federal Financial Systems software in production mode last June. 
It has passed all tests, including interface issues. Our web page is 
maintained on a GPO server, which has been fully tested, and we access 
the server by a dial-up software that is also compliant. We are cross-
serviced by the National Finance Center for payroll purposes, and all 
newly compliant NFC systems have been in production mode since 
September, 1998. Direct deposit could be a problem for some employees, 
since NFC has no control over banks, but with such a small number of 
employees, the Office will generate replacement hard copy checks if 
necessary.
    The only area where the Office has insufficient control over our 
vendors and their component vendors is in telecommunications. Our phone 
instruments are fully compliant, as are the switches we lease. We are 
not satisfied with the assurance we've received to date from our 
telecommunications vendors, and our phone system is one of our most 
critical systems. Therefore, we have a contingency plan in place, and 
will be procuring cell phones for essential staff members late this 
year.
    Finally, Mr. Chairman, the Office of Compliance has conducted an 
analysis and evaluation of Office functions and needs. In light of our 
reduced workload in counseling, mediation and hearings and the 
increased demand in OSHA and other activities, we have reorganized and 
reallocated our resources. We believe we'll be able to further trim our 
budget by reducing staff by attrition within the next year or two. 
We're very proud of the work of the Office and I would like to take 
this opportunity to thank you and Christine Ciccone for the support 
which has been unfailingly afforded to us in the nearly four years 
since the passage of the CAA.
    We'd be delighted to answer any questions.
                                 ______
                                 
  Office of Compliance Section 301(H) Report to Congress--January 1, 
                         1998-December 31, 1998
                              introduction
    The Congressional Accountability Act (CAA) generally applies 
provisions of eleven federal labor and employment laws to over 20,000 
covered congressional employees and employing offices. The Office of 
Compliance (Office), an independent agency in the legislative branch, 
was established in the CAA to administer and enforce the Act and 
provide a process for the timely and confidential resolution of 
workplace disputes. Section 310(h) of the CAA requires that the Office 
of Compliance: * * * compile and publish statistics on the use of the 
Office by covered employees, including the number and type of contacts 
made with the Office, on the reason for such contacts, on the number of 
covered employees who initiated proceedings with the Office under this 
Act and results of such proceedings, and on the number of covered 
employees who file a complaint, the basis for the complaint, and the 
action taken on the complaint.
    This third annual report, which provides information for the period 
from January 1, 1998 through December 31, 1998, begins with a summary 
of the authority and responsibilities of the Office of Compliance.
          office of compliance authority and responsibilities
    The CAA establishes the Office of Compliance with a Board of five 
members, who serve on a part-time basis, and four statutory appointees: 
the Executive Director, Deputy Executive Director for the Senate, 
Deputy Executive Director for the House, and the General Counsel. The 
Office is charged with providing alternative dispute resolution 
procedures, adjudicative hearings and appeals, for covered legislative 
branch employees and education and information on the CAA to members of 
Congress, other employing offices, and employees of the legislative 
branch. The Board is required to adopt substantive regulations for 
implementation of certain provisions of the CAA and the Executive 
Director to adopt rules governing the procedures of the Office. The 
Office of the General Counsel enforces the provisions of sections 210 
and 215, relating to health and safety and public access requirements, 
including investigation and prosecution of claims under these sections, 
and periodic inspections to ensure compliance. Additionally, the 
General Counsel investigates and prosecutes unfair labor practices 
under section 220 of the CAA.
    The CAA applies the rights and protections of provisions of the 
following eleven labor and employment statutes to covered employees 
within the legislative branch: title VII of the Civil Rights Act of 
1964; the Age Discrimination in Employment Act of 1967; title I of the 
Americans with Disabilities Act of 1990; the Rehabilitation Act of 
1973; the Family and Medical Leave Act of 1993; the Fair Labor 
Standards Act of 1938; the Employee Polygraph Protection Act of 1988; 
the Worker Adjustment and Retraining Act; chapter 43 of title 38 of the 
U.S. Code (relating to veterans' employment and reemployment); the 
Americans with Disabilities Act of 1990 relating to public services and 
accommodations; the Occupational Safety and Health Act of 1970; and 
chapter 71 of title 5 of the U.S. Code (relating to federal service 
labor-management relations).
         third annual report--january 1, 1998-december 31, 1998
Number of Contacts Received by the Office of Compliance: 544
    Employees and employing offices may, at any time, seek informal 
advice and information on the procedures of the Office and the rights, 
protections, and responsibilities afforded under the CAA. The office 
responds to all inquiries on a confidential basis.
    544 requests for information from covered employees, employing 
offices, the public, unions, and the press were made by phone and in 
person from January 1, 1998 to December 31, 1998. Contacts were as 
follows:

Employees.........................................................   302
Employing offices.................................................   159
Public............................................................    66
Unions............................................................    14
Press.............................................................     3
Recorded Information line.........................................   141

    In addition, the Office of Compliance website proved to be a 
frequent and efficient means for covered employees, covered employing 
offices and the general public to access information on the CAA.
Reasons for Employee Contacts
    302 covered employees contacted the Office asking questions under 
the following sections: (note: Aggregate numbers will not necessarily 
match category totals as a single contact may involve more than one 
section or subsection of the CAA, and/or more than one issue or alleged 
violation.)

------------------------------------------------------------------------
Section                       Description                       Contacts
------------------------------------------------------------------------
    201Rights and protections under title VII of the Civil          74
        Rights Act of 1964, the Age Discrimination in
        Employment Act of 1967, the Rehabilitation Act of
        1973, and title I of the Americans with
        Disabilities Act of 1990
    202Rights and protections under the Family and Medical          36
        Leave Act of 1993
    203Rights and protections under the Fair Labor                  27
        Standards Act of 1938
    204Rights and protections under the Employee Polygraph   .........
        Protection Act of 1988
    205Rights and protections under the Worker Adjustment    .........
        and Retraining Notification Act
    206Rights and protections relating to veterans'          .........
        employment and reemployment
    207Prohibition of intimidation or reprisal                       7
    210Rights and protections under the Americans with               1
        Disabilities Act of 1990 relating to public
        services and accommodations; procedures for remedy
        of violations
    215Rights and protections under the Occupational Safety          2
        and Health Act of 1970; procedures for remedy of
        violations
    220Application of chapter 71 of title 5, United States          11
        Code, Relating to Federal service labor-management
        relations
     NAQuestions regarding the general application of the           33
        CAA
     NAQuestions on matters which were not cognizable under        136
        the CAA
------------------------------------------------------------------------

    The 302 employee contacts were for information regarding:

Assignments.......................................................     9
Benefits..........................................................     1
Compensatory time off.............................................     4
Compensation......................................................     7
Demotion..........................................................     2
Discharge.........................................................     1
Discipline........................................................     8
Equal pay.........................................................     2
Evaluation........................................................     6
Exemptions under the Fair Labor Standards Act.....................     4
General questions regarding statutory requirements................    39
Harassment........................................................    28
Hiring............................................................     5
Hours of work.....................................................     4
Leave.............................................................    37
Leave eligibility.................................................     3
Overtime pay......................................................    11
Promotion.........................................................    25
Reasonable accommodations.........................................     5
Reassignment......................................................     1
Recordkeeping.....................................................     2
Scheduling........................................................     4
Termination.......................................................    18
Terms and conditions of employment................................    11
Time off..........................................................     1
Requests for written materials....................................     5

Number of Proceedings Initiated by Covered Employees: 60
    Pursuant to title IV of the CAA, the Office of Compliance provides 
dispute resolution in the form of counseling and mediation. A 
proceeding under the CAA is initiated by an individual employee's 
request for counseling alleging a violation of the CAA.\1\
---------------------------------------------------------------------------
    \1\ It should be noted that the alleged unlawful application of a 
single policy of an employing office may involve multiple individual 
claims.
---------------------------------------------------------------------------
    60 employees from the following employing offices filed formal 
requests for counseling:

The Architect of the Capitol......................................    30
Capitol Guide Service...................................................
Capitol Police....................................................     6
Congressional Budget Office.............................................
House of Representatives (non-member or committee offices)........     4
House of Representatives (member offices).........................     9
House of Representatives (committee office).......................     1
Senate (non-Senator or committee offices).........................     6
Senator...........................................................     3
Senate (committee office).........................................     1
                                                                  ______
      Total employee counseling requests..........................    60

    These 60 requests for counseling alleged violations under the 
following sections of the Congressional Accountability Act: (Please see 
note above regarding aggregate numbers.)

------------------------------------------------------------------------
Section                        Description                        Cases
------------------------------------------------------------------------
    201Rights and protections under title VII of the Civil          61
        Rights Act of 1964, the Age Discrimination in
        Employment Act of 1967, the Rehabilitation Act of
        1973, and title I of the Americans with Disabilities
        Act of 1990
    202Rights and protections under the Family and Medical           5
        Leave Act of 1993
    203Rights and protections under the Fair Labor Standards         2
        Act of 1938
    207Prohibition of intimidation or reprisal                      27
------------------------------------------------------------------------

    Workplace issues raised by employees requesting counseling under 
the CAA fell into the following categories: (Please see note above 
regarding aggregate numbers.)

Assignments.......................................................     3
Benefits..........................................................     1
Compensation......................................................     2
Demotion..........................................................     2
Discharge.........................................................     3
Discipline........................................................     2
Equal pay.........................................................     1
Harassment........................................................    14
Hiring............................................................     3
Layoff............................................................     1
Leave.............................................................     7
Overtime Pay......................................................     2
Promotion.........................................................    20
Reasonable accommodations.........................................     1
Reassignment......................................................     4
Scheduling........................................................     1
Selection.........................................................     3
Suspension........................................................     1
Termination.......................................................    21
Terms and conditions of employment................................     3

Results of the Proceedings
    Counseling.--Of the 60 counseling requests received between January 
1, 1998 and December 31, 1998, and the 11 pending on January 1, 1998: 
11 cases closed during or after counseling, but before mediation--0 
settled and 11 sought no further action; 2 cases were pending at the 
end of 1998; 58 requests for mediation were filed.
    Mediation.--58 mediation requests received between January 1, 1998 
and December 31, 1998. In addition, on January 1, 1998 there were 12 
cases pending in mediation, and 13 cases which had completed mediation 
and were in the open period for filing a complaint. Of those 83 cases:
  --49 cases closed during or after mediation
    --18 cases were settled (including one case that settled after 
            District Court suit)
    --in 28 cases, no further action was taken by the covered employee 
            after mediation ended
    --4 civil actions were filed in District Court (one of which was 
            settled);
  --13 cases were pending in mediation on December 31, 1998;
  --10 cases had completed mediation and were in the time period when a 
        complaint could be filed;
  --12 complaints were filed after mediation ended.
    Complaints.--If the dispute remains unresolved after counseling and 
mediation, an employee may elect to file a civil action in the district 
courts of the United States or to file a complaint with the Office. If 
a complaint is filed with the Office, a Hearing Officer is appointed to 
hear the case and issue a decision.
    Twelve complaints were filed with the Office between January 1, 
1998 and December 31, 1998 and one complaint was pending on January 1, 
1998.
Basis of Complaints
    The complaints filed during 1998 involved the following issues: 
alleged discrimination in assignments based on race and gender; alleged 
failure to provide a reasonable accommodation for an employee with a 
disability (2 cases); alleged retaliatory discipline; alleged 
termination based on age; alleged termination based on national origin, 
race and color; alleged discrimination based on race and disability; 
alleged termination based on age and disability; alleged termination 
based on age and gender; alleged failure to promote based on gender; 
alleged failure to promote based on gender and race; alleged harassment 
and termination based on race and in retaliation for opposing practices 
made unlawful by the CAA.
Action Taken on Complaints
    Any party aggrieved by a Hearing Officer's decision may file a 
petition for review of the decision by the Board of Directors of the 
Office.
    During January 1, 1998-December 31, 1998:
    Hearings.--2 hearing officer decisions were issued; 6 cases were 
settled or otherwise resolved before the hearings concluded; 5 
complaints were pending either with hearings scheduled for early 1999 
or awaiting Hearing Officer decisions.
    Appeals.--No petitions for review of Hearing Officer decisions were 
filed with the Board; 3 petitions were pending on January 1, 1998; 2 
Hearing Officer decisions were not appealed and became the final 
decisions of the Office.
    Board action.--3 Board decisions were issued in 1998; No petitions 
for review of Hearing Officer decisions were pending on December 31, 
1998.
    Judicial review.--1 Petition for review was filed; One court 
decision was issued on a petition for review filed in 1997. The U.S. 
Court of Appeals for the Federal Circuit upheld the Board's decision.
Labor-Management Relations
    The Office carries out the Board's investigative authorities under 
section 220 of the CAA, involving issues concerning the appropriateness 
of bargaining units for labor organization representation, the duty to 
bargain, and exceptions to arbitrators' awards.
    During January 1, 1998-December 31, 1998:
  --2 representation petitions were filed;
  --1 Board decision was issued clarifying that several newly 
        encumbered positions were included in a previously certified 
        unit;
  --2 Board Decisions and Directions of Election were issued, one of 
        which set aside the results of the initial election because of 
        objectionable conduct and ordered a second election (prior to 
        the holding of the second election, the labor organization 
        withdrew its representation petition);
  --2 election agreements were entered into by the parties and approved 
        by the Executive Director on behalf of the Board;
  --2 elections were conducted. As a result of the elections, one labor 
        organization was certified as the bargaining representative of 
        employees;
  --2 petitions were pending on December 31, 1998: a representation 
        petition filed by a labor organization seeking to represent a 
        unit of approximately 19 employees, and a unit clarification 
        petition seeking to resolve the unit status of certain 
        employees in a bargaining unit certified in 1997.
The Office of the General Counsel
    The Office of the General Counsel is responsible for matters 
arising under three sections of the CAA: section 210--Public Services 
and Accommodations under the Americans with Disabilities Act of 1990; 
section 215--Occupational Safety and Health Act of 1970; and section 
220--unfair labor practices under chapter 71, of title 5, United States 
Code.
    58 requests for Information and Technical Assistance were made from 
January 1998 through December 1998 under the following sections:

Section 210: Public Services and Accommodations under the 
    Americans with Disabilities Act of 1990.......................    14
Section 215: Occupational Safety and Health Act of 1970...........    41
Section 220: Unfair Labor Practices under chapter 71, of title 5, 
    United States Code............................................     3

    From January 1998 through December 1998, the following actions 
occurred:

Section 210:
    Charges filed.................................................     1
    Cases closed..................................................     1
    Cases pending as of December 31, 1998...............................
Section 215:
    Requests for inspections filed................................    21
    Cases closed..................................................    18
    Cases pending as of December 31, 1998.........................     3
Section 220:
    Unfair Labor Practice charges filed...........................    14
    Complaints issued.............................................     1
    Cases closed..................................................     9
    Cases pending as of December 31, 1998.........................     5

                      Workload and OSHA experience

    Senator Bennett. Thank you very much.
    I am delighted that the demands on some of your services 
are going down, which shows that Congress is beginning to 
understand some of the things that they have to do and they do 
not need to come running to you for advice and counsel.
    I am not surprised that the increase in OSHA is there. I 
remember when I was in the private sector, I walked into a 
company and they had a little sign hanging on the wall that 
said, if you think OSHA is a small town in Wisconsin, you are 
in real trouble. [Laughter.]
    So, we are beginning to discover what business people have 
discovered.
    At some point I would like to visit with you about what we 
have learned about OSHA that might be used to amend the law 
with respect to OSHA. I remember Senator Kempthorne and others 
were finding horror stories of OSHA requirements that defied 
all common sense. Someone was fined for improperly storing a 
toxic substance, and it turned out it was a squeeze bottle of 
Joy detergent that they put under the sink. Someone said that 
is improper storage of a toxic substance, and it is something 
every one of us does in our own homes all the time. There are 
not very many toddlers in the congressional work place who 
might get it and even fewer who might drink it. I think that 
was a case of regulatory overkill.
    One of the reasons I supported the CAA was because I wanted 
Congress to begin to understand those kinds of experiences. We 
had them routinely in the business world and legislators just 
kind of laughed us off. Now if we can have some examples of 
legislators who are really upset by some of the regulatory 
excesses, maybe we can change the law. You have become the 
repository of those kinds of examples. So, at some point I 
would like to come talk to you about that.
    Ms. Silberman. Well, we would like to talk to you about it 
as well. Our experiences in OSHA have been very interesting. 
Generally we have found that the Congress and the congressional 
employees are working in important ways in much safer 
circumstances because of the OSHA regulation. Now, we like to 
think that we are not unreasonable regulators, and I know that 
the law has been put to very good use, and particularly in the 
area of flammable substances. You all were working under 
conditions that were dangerous to you and that we have been 
able to correct.
    Senator Bennett. I am sure that is true. I am not in any 
way suggesting that OSHA should be repealed, just maybe fine 
tuned a little here and there.
    Senator Feinstein, do you have any questions?
    Senator Feinstein. Thanks, Mr. Chairman.

                     potential additional Authority

    Ms. Silberman, I gather from your comment if you were to 
get the enhanced authority, you would need an additional budget 
allocation. Is that correct?
    Ms. Silberman. We are not sure of that, Senator. One of the 
experiences that we have had is that in the beginning, at least 
when we got the original authority, there was a front-loading, 
of necessity, for publications of materials, for education and 
information, and of course, in any new law there is a lot of 
activity in the beginning.
    My guess is that if we were to get the Library of Congress, 
the GAO, and the GPO in the way that the Board has recommended, 
that we might need some increase from what we have now reduced 
ourselves to. I have been loathe to get us into a situation 
where we would take these reductions and then get the increased 
authority and not be able to do it.
    But I think we are OK. So far, we are certainly OK. 
Everybody has been wonderful about being realistic about what 
the needs of this office are, and I would trust that that would 
continue if we were to get the increased authority.
    Senator Feinstein. Could I ask you, is the enhanced 
authority you are referring to on page 3 of your executive 
summary? Are those the recommendations for changes?
    Ms. Silberman. There are recommendations in two areas which 
actually interrelate. One set of recommendations has to do with 
those areas of the CAA laws, the 11 CAA laws, which were not 
made applicable by Congress when it passed the CAA.

                 Enforcement authority for retaliation

    Senator Feinstein. Well, one of the things that intrigued 
me was this prohibits intimidation or reprisal for opposing any 
practice made unlawful by the act or for participation in any 
proceeding under the act. What is that all about?
    Ms. Silberman. Well, that is retaliation. Congressional 
employees are protected from retaliation under the CAA, but it 
is a general protection for which the Office of Compliance has 
no enforcement authority.
    Senator Feinstein. But what kind of retaliation could there 
be?
    Ms. Silberman. Well, for coming to file a claim at the 
Office of Compliance, people could get fired. People can be 
demoted. People can be intimidated. It is the one area, I have 
to tell you, that our experience in 3 years is that we have 
insufficient enforcement authority. The report goes into that. 
The reason for that is that----
    Senator Feinstein. Are you saying that a Member of Congress 
or a Member of the Senate would punish somebody for filing a 
report?
    Ms. Silberman. A Member of Congress or a Member of the 
Senate is an employer in the sense that one is an employer 
under the private sector. So, it is possible that that could 
happen.
    But you also have to remember that there are 22,000 
employees covered under the CAA. They include the Architect of 
the Capitol, the Capitol Police, and other small and larger 
legislative entities.
    But reprisal and retaliation is the single most serious 
institution-threatening act that can be taken under many of 
these laws. It is true in the private sector. When I was Vice 
Chairman of the EEOC, those were the complaints that we took 
most seriously, and it is true in the other enforcement 
agencies.
    But you have to remember that under the CAA, the employees 
of the legislative branch have access to this wonderful 
alternative dispute resolution system. There is no 
investigation, and there is no enforcement of the law other 
than to go to court or to go into an adjudicative hearing.
    Retaliation is the one area where mediation and counseling 
does not seem to work as well. People are concerned about using 
it because they are concerned about the act itself.
    We have gone into that at some length, and there is a lot 
more about it in the report which I commend to you. We were 
asked by Congress, when you passed the CAA, to every 2 years 
review the effectiveness of the CAA in terms of new laws that 
have been passed and also our recommendations as to how it has 
worked. This was the report that was issued on January 1st of 
this year that has a lot of interesting stuff in it and I do 
commend it to you.
    Senator Feinstein. Could I ask you another question?
    Ms. Silberman. Sure.

                       additional record keeping

    Senator Feinstein. What kind of additional record keeping 
would be required of Members?
    Ms. Silberman. There is no record keeping required of 
Members, although there is considerable record keeping required 
in the private sector. That is another area of the law that 
Congress did not extend to itself which is part of the private 
sector law. This falls along the lines of what the Chairman was 
asking me before. The CAA does not completely apply the laws 
that are applied in the private sector, whether it is in OSHA--
and certainly under the Fair Labor Standards Act.
    The lack of record keeping requirements is another omission 
that the Board looked to, and we believe that it would be very 
helpful both to Senators and Congressmen and other employing 
offices, as well as to employees when employees file a claim, 
if there were some record keeping so that we could use that for 
a factual analysis. But there is no record keeping requirement. 
Early on our Board decided that that was not a change that they 
would be able to make under the standards that were established 
under the CAA, that it would take a legislative change to make 
record keeping requirements necessary.
    Senator Feinstein. Thank you.
    Ms. Silberman. Thank you.
    Senator Feinstein. Thanks, Mr. Chairman.
    Senator Bennett. Thank you.
    I am interested in following up on Senator Feinstein's 
comment. The complaints that were actually filed. You say 12 
complaints were filed. These are those that are unresolved.
    Ms. Silberman. That is right. That is correct.
    Senator Bennett. How many employees do you deal with?
    Ms. Silberman. There are slightly over 22,000 employees.
    Senator Bennett. So, 12 complaints out of 22,000 is really 
quite an amazing record of accomplishment.
    Ms. Silberman. Well, yes, I think so. This is not a culture 
of complaint we have found. On the other hand, we also think 
that the law has worked as a deterrent and there has been 
widespread compliance. That is why when we went to do this 
102(b) report, the Board was very careful to try and look to 
those areas in which we thought that change was necessary. In 
general, I would like to reiterate again and again that the 
alternative dispute resolution system is really working and 
working well.
    Senator Bennett. I looked down this list of 12. There is 
only one that says retaliation for opposing practices made 
unlawful by the CAA.
    Ms. Silberman. I think that that is a result of the fact 
that retaliation claims are seldom made if there is little hope 
of--the nature of the complaint is such that you have to 
provide the kind of protection that will make it possible for 
those complaints to be brought.
    Senator Bennett. Well, thank you very much. This is very 
interesting.
    Ms. Silberman. Thank you and thank you all again for your 
unfailing support.
    Senator Bennett. We appreciate it.
    I do have one last question. It appears that the Office of 
the Architect of the Capitol has been a source of a number of 
complaints. You have a Deputy Executive Director for the House 
and a Deputy Executive Director for the Senate. Who is 
responsible for complaints when they do not come from either 
the House or the Senate?
    Ms. Talkin. I take on the Architect as well.
    Senator Bennett. You take on the Architect as well. 
[Laughter.]
    Ms. Talkin. As it were, that responsibility.
    Senator Bennett. I just wanted to make sure that it was not 
falling between the cracks.
    Ms. Talkin. Not at all.
    Ms. Silberman. They represent the major number of 
complaints that we get in all the areas. Of course, in the OSHA 
area, it is particularly true because they bear responsibility 
for the Senate and the House and the buildings.
    Thank you very much.

                          subcommittee recess

    Senator Bennett. Thank you very much.
    The subcommittee is recessed.
    [Whereupon, at 10:16 a.m., Wednesday, March 10, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2000

                              ----------                              


                       WEDNESDAY, MARCH 17, 1999

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Robert F. Bennett (chairman) 
presiding.
    Present: Senators Bennett and Feinstein.

                          LIBRARY OF CONGRESS

STATEMENT OF HON. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        MARYBETH PETERS, REGISTER OF COPYRIGHTS
        WINSTON TABB, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
        RUBENS MEDINA, LAW LIBRARIAN
        LINDA WASHINGTON, DIRECTOR, INTEGRATED SUPPORT SERVICES
        KENNETH E. LOPEZ, DIRECTOR OF SECURITY
        HERBERT S. BECKER, DIRECTOR, INFORMATION TECHNOLOGY SERVICES
        FRANK KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE 
            BLIND AND PHYSICALLY HANDICAPPED
        BEN BENITEZ, ACTING DIRECTOR, OFFICE OF THE ASSOCIATE LIBRARIAN 
            FOR HUMAN RESOURCES SERVICES
        JOHN D. WEBSTER, DIRECTOR, FINANCIAL SERVICES
        KATHY A. WILLIAMS, BUDGET OFFICER

              OPENING STATEMENT OF HON. ROBERT F. BENNETT

    Senator Bennett. Good morning. The subcommittee will come 
to order.
    This is our third hearing on the Legislative Branch budget 
for the fiscal year 2000. We will have one more hearing next 
Wednesday.
    As it comes to no surprise to anyone, because of my 
interest in the Y2K problem and area with respect to the 
Legislative Branch, we may have additional hearings in April on 
that issue. It would be very personally embarrassing to me if 
the rest of the government were ready and the one area where I 
have some leverage in the Legislative Branch were not ready.
    So we are reserving the right to have another hearing in 
April if it is necessary on that issue.
    Our first panel this morning is the Library of Congress and 
the Congressional Research Service, both of which are of great 
value and importance to the Congress.
    We welcome Dr. James Billington, the Librarian of Congress, 
Mr. Dan Mulhollan, the Director of the Congressional Research 
Service, and General Scott, the Deputy Librarian of Congress. 
We are always happy to have you as well, sir.

                             Budget request

    The Library is requesting $383.7 million in appropriated 
funds; $33.1 million in authority to use receipts, which is a 
5.5 percent increase over the fiscal year 1999 model. Of that 
amount, $71.2 million is for the Congressional Research 
Service.
    So we will hear a specific defense of those numbers from 
this panel.

                           prepared statement

    Senator Feinstein, do you have any opening comments?
    Senator Feinstein. I would ask to put those in the record, 
Mr. Chairman. I look forward to the hearing.
    Senator Bennett. Without objection, it will be in the 
record.
    [The statement follows:]

             Prepared Statement of Senator Dianne Feinstein

    Mr. Chairman, I join you in welcoming our witnesses here 
today. This is the third of our hearings on the fiscal year 
2000 budget, and we have a very heavy agenda this morning 
starting with the distinguished Librarian of Congress, Dr. 
Billington, who will testify along with his colleagues, Mr. Dan 
Mulhollan, the Director of the Congressional Research Service, 
and Ms. Marybeth Peters, the Register of Copyrights. The 
Library of Congress performs very valuable and important 
functions, not only for the Legislative Branch in that it is 
Congress' library--a vast storehouse of materials and 
information that we use in the Congress--but it is also the 
world's largest and most comprehensive library. And, yet, the 
budget of the Library of Congress is very well managed. I note 
from materials that you provided, Dr. Billington, that the 
Library has experienced a decline of 13 percent in full-time 
equivalent positions (FTE's) since 1992. We look forward to 
receiving your testimony.
    Following the Library, I also look forward to welcoming Mr. 
David Walker, the Comptroller General of the United States, who 
is appearing before the subcommittee for the first time since 
his confirmation in November of last year. I note that Mr. 
Walker is assuming the comptrollership from a very 
distinguished predecessor, Mr. Bowsher, who successfully 
negotiated a 25 percent, congressionally-mandated funding 
reduction over a two-year period, 1995-1997. I note that since 
1992, the FTE level at the General Accounting Office has 
decreased by 39 percent. So, I also look forward to receiving 
the testimony of the Comptroller General.
    Finally, Mr. Chairman, on this busy morning, I join you in 
receiving the testimony on this year's budget of the Government 
Printing Office from the Public Printer, Mike DiMario. GPO, as 
well, has been required to undertake cuts in its budget in 
recent years, and I welcome the testimony of Mr. DiMario in 
support of his budget request.
    Thank you, Mr. Chairman.

    Senator Bennett. Dr. Billington, we welcome you. We are 
glad you are recovered from yesterday's indisposition. We are 
delighted to have you here.

               opening remarks by dr. james h. billington

    Dr. Billington. Thank you, Mr. Chairman. Let me first 
present my colleagues. This is the Deputy Librarian, General 
Donald Scott. With me also are Winston Tabb, the Associate 
Librarian for Library Services; Rubens Medina, Law Librarian, 
Linda Washington, Director of Integrated Support Services, 
Kenneth Lopez, Director of Security, Herbert Becker, Director 
of Information Technology Services, Marybeth Peters, the 
Register of Copyrights, Daniel P. Mulhollan, Director of the 
Congressional Research Service, Frank Kurt Cylke, Director of 
the National Library Service for the Blind and Physically 
Handicapped, Ben Benitez, Acting Director of Human Resources 
Services, John Webster, Director of Financial Services, and 
Kathy Williams, Budget Officer.
    Senator Bennett. You probably should not have done that 
because my businessman's brain is immediately adding up the 
tab. [Laughter.]
    We welcome you all.
    Dr. Billington. Thank you, Mr. Chairman.
    I appreciate having the opportunity to appear before this 
subcommittee and thank you for your continued support now and 
over the years.
    Let me briefly highlight a few points from my full 
statement, already submitted.

                           Library's mission

    The Library of Congress is a totally unique institution 
with its national mission to serve the Congress and to 
facilitate the creative use of the world's knowledge for the 
good of our Nation.
    Fiscal year 2000 is a milestone year for the Library, which 
will be 200 years old on April 24, 2000. It is the oldest 
Federal cultural institution and the largest and most diverse 
collection of knowledge ever assembled in one place.
    By creating it, sustaining it, and using it, and by 
mandating it to serve other libraries and the Nation, as well 
as the Congress, the Congress of the United States has been, 
quite simply, the greatest patron of libraries in world 
history.
    The world of libraries is rapidly changing in the 
electronic age, and the Library of Congress is both leading and 
embracing this change in order to sustain its central role in 
America's unique system of providing free public access to 
knowledge.
    The Library is now not only offering access here on Capitol 
Hill to objects containing knowledge, but also has become a 
leading provider of free electronic information for citizens in 
every State--functioning 24 hours per day, receiving 3.5 
million electronic transactions every working day.
    We are in the midst of a dramatic transition from just 
receiving, processing, and serving primarily artifactual 
materials--this is to say, paper books and serials, films and 
tapes--to also receiving and serving the rapidly increasing 
number of materials that are available only in digital form.
    This chart (indicating) illustrates this dual function, 
with physical objects only on this side (indicating) and 
digital objects that are available everywhere throughout the 
Nation.

                          Library's challenges

    We have embraced the leadership challenge of blending the 
rapidly emerging electronic network with the still expanding 
traditional book culture. The world's production of books 
increased more than 6 percent last year, even as this 
electronic explosion was occurring.
    But we are also receiving and serving this material in 
digital form in order to better serve the Congress and the 
Nation.
    We have two key current overriding initiatives for meeting 
our strategic objectives, as illustrated here (indicating): 
providing massive digital access to information and, at the 
same time, streamlining and reengineering our handling of 
access to books and other traditional containers of knowledge.
    The three initiatives for which we are requesting added 
funding in this budget year are those that clearly help us meet 
both of these key objectives, that is to say, both the digital 
objective and the reengineering of traditional functions--the 
global legal network, the Electronic Copyright Office, and the 
electronic resources for storing so that we can retrieve 
digital collections. These contribute to both of these 
overriding objectives.
    While we have been the national leader in digitizing major 
archival collections for free educational use throughout the 
country, now we must develop an electronic repository of 
hardware and software for efficient storage and retrieval of 
digital materials originating elsewhere so that we can answer 
the questions that will come from the Congress and from the 
Nation about materials only available in those forms.
    Our ultimate goals are, again, as illustrated in this chart 
(indicating), are to provide usable knowledge in all formats 
that support the Congress and democratic government as well as 
memory and information resources for all Americans, especially 
for young people for educational purposes in their local 
communities, and, finally, to provide seamless one-step 
knowledge navigation in a secure electronic environment.
    So that is our future, as we see it, and our Digital 
Futures Task Force is now at work to draw up a blueprint for 
the electronic part of the Library's future.

                         Library's bicentennial

    The Bicentennial Year--next year--of the Library will be a 
decisive time for developing integrated, automated systems and 
for initiating staff succession programs in order to sustain 
and enhance the Library's critical role as a trusted knowledge 
navigator for Congress and the Nation.
    The proposed fiscal year 2000 budget supports the Library's 
mission and strategic plan which chart our course into an 
increasingly electronic future.
    Libraries being a link in this human chain that connects 
what happened yesterday and what is recorded almost exclusively 
in book and traditional form with what might take place 
tomorrow, they must not only include but also bring together 
traditional and digitized materials.

                             Budget request

    The Library's budget request totals $383.7 million in net 
appropriations and $33.1 million in authority to use receipts, 
representing a net increase of 5.5 percent, or $20 million, 
over fiscal year 1999.
    Most of this increase--83 percent, in fact, or $16.6 
million--is needed simply to fund mandatory pay raises driven 
largely by the January 2000 pay raise of 4.4 percent and 
unavoidable price level increases. The other $3.4 million of 
the $20 million total increase is needed to meet critical 
growing workload increases net of program decreases, which are 
also considerable this year.
    The Library has 591 fewer actual FTEs than in 1992. We are 
doing a great deal more work. Moreover, we must hire and begin 
mentoring skilled professionals to replace our very large 
number of expected retirees. About 45 percent of our staff will 
be eligible to retire by the year 2004.
    The Library will be severely strained in the years ahead by 
the need for large-scale personnel training and replacement in 
what are often one-of-a-kind jobs. The Library will be further 
stretched by its necessary commitment both to sustain 
traditional services and to effect our transition into the 
electronic world.
    So we ask the committee's support so that the Library may 
head into the 21st Century with both expanded digital holdings 
and with the systems in place to maximize service for the 
Congress and to all Americans in their local communities.

                          prepared statements

    Mr. Chairman, each of you has a packet of materials 
providing further information about the Library. My colleagues 
and I will welcome any questions that you may ask.
    [The statements follow:]
               Prepared Statement of James H. Billington
    Fiscal year 2000 is a milestone year for the Library of Congress--a 
Year of Great Celebration and Transition. On April 24, 2000, the 
Library will be 200 years old, the oldest Federal cultural institution 
in the country. By creating and sustaining the world's largest and most 
diverse collection of knowledge and mandating it to serve other 
libraries and the nation, the Congress of the United States has been 
quite simply the greatest patron of libraries in history.
    The Congress has continued to support the Library's traditional 
services as well as its new leadership role in delivering free 
electronic information to the nation. The Library's Internet site now 
receives more than three million electronic transactions every working 
day. This phenomenal usage nearly doubles that of the previous year.
    The Library's mission is to make its resources available and useful 
to the Congress and the American people and to sustain and preserve a 
universal collection of knowledge and creativity. To fulfill this 
mission, the Library has amassed an unparalleled collection of more 
than 115 million items, a superbly knowledgeable staff, and cost-
effective networks for gathering the world's knowledge for the nation's 
good.
    People and institutions in the information world are facing 
historic challenges. The world of librarians and libraries is rapidly 
changing, and the Library of Congress is both leading and embracing 
change to sustain its role as a trusted knowledge navigator and 
pathfinder for America's unique system of providing free public access 
to usable information. We are making the transition from a model of 
receiving, processing, and serving primarily artifactual materials 
(e.g., paper books and serials, films and tapes) to a model of also 
receiving, processing, and serving the rapidly increasing number of 
materials available only in digital form (see attachment #1). We are 
also making the transition from a model of primarily serving people 
over age 18 who use our collections in our reading rooms in Washington, 
D.C., to a model of serving people electronically everywhere, 
regardless of age--and contributing directly to K-12 education with the 
American Memory/National Digital Library program.
    The Bicentennial of the Library in fiscal year 2000 will be a 
decisive time for developing integrated automated systems and for 
initiating staff succession programs to sustain and enhance the 
Library's critical role as a trusted knowledge navigator for the 
Congress and the nation. The Library's proposed fiscal year 2000 budget 
supports the Library's mission and strategic plan, which charts our 
course into an increasingly electronic future. Libraries are a link in 
the human chain that connects what happened yesterday with what might 
take place tomorrow; they are the base camps for new discovery in the 
Information Age; they must include and integrate both traditional and 
digitized materials.
    The Library's budget request totals $383.7 million in net 
appropriations and $33.1 million in authority to use receipts--a net 
increase of 5.5 percent ($20 million) over fiscal 1999. Most of this 
increase ($16.6 million) is needed simply to fund mandatory pay raises 
(driven largely by the January 2000 pay raise of 4.4 percent) and 
unavoidable price-level increases; $3.4 million (of the $20 million 
total increase) is needed to meet critical growing workload increases 
(net of program decreases).
    Growing workload decreases total $8.25 million, including a $4.8 
million decrease resulting from higher copyright fee receipts, a $2.25 
million decrease resulting from two no-year projects (i.e., Meeting of 
the Frontiers and Lewis and Clark Bicentennial) that were funded in 
fiscal 1999, and a $1.2 million decrease resulting from a planned 
reduction in the Integrated Library System project costs.
    Growing workload increases totaling $11.6 million are offset by the 
decreases of $8.25 million which result in a net increase of $3.4 
million. Major increases include: $4.8 million for automation building 
blocks; $1.6 million for a staff succession program; $1.4 million for 
improved collections security; $.7 million for the Copyright 
registration process (funded by receipts); $.7 million for the Law 
Library; $1.5 million for a multi-year James Madison building 
workstation modernization project; and $.3 million for operational 
funding of the National Audio-visual Conservation Center.
                             early history
    The Library of Congress is a living monument to the remarkable 
wisdom of the Founding Fathers who saw access to an ever-expanding body 
of knowledge as essential to a dynamic democracy. The Library's three 
buildings are named for Thomas Jefferson, John Adams, and James 
Madison. With the support of these Presidents, the Congress established 
the Library in 1800 as soon as it moved to the new capital city of 
Washington and established the Joint Committee on the Library as the 
first Joint Committee of the Congress in 1802.
    Jefferson, in particular, took a keen interest in the new 
institution. After the British burned the Capitol and the Library 
during the War of 1812, Congress accepted Jefferson's offer to 
``recommence'' the Library and purchase his multi-lingual 6,487-volume 
collection (then the finest in America) at a price of $23,950. It 
contained volumes in many languages on everything from architecture to 
geography and the sciences. Anticipating the argument that his 
collection might seem too wide-ranging for Congress, Jefferson said 
that there was ``no subject to which a Member of Congress might not 
have occasion to refer.''
    Jefferson's ideals of a ``universal'' collection and of sharing 
knowledge as widely as possible still guide the Library. With 
Congressional blessing and support, the Library has grown to serve the 
Congress and the nation more broadly in ways that no other library has 
ever done--largely as a result of four milestone laws: (1) the 
copyright law of 1870, which stipulated that two copies of every book, 
pamphlet, map, print, photograph, and piece of music registered for 
copyright in the United States be deposited in the Library; (2) the 
1886 authorization of the first separate Library of Congress building 
that contained openly accessible reading rooms and exhibition space for 
the general public; (3) the 1902 law that authorized the Library to 
sell its cataloging records inexpensively to the nation's libraries and 
thus massively help to subsidize the entire American library system; 
and (4) the law in 1931 that established the program in the Library to 
create and supply free library materials to blind and physically 
handicapped readers throughout the country. Congress thus established 
the basis both for the continued growth of the collections and for the 
extension of the Library's services to citizens everywhere.
    In 1914, Congress created the Legislative Reference Service (LRS) 
as a separate entity within the Library of Congress to provide 
specialized services to ``Congress and committees and Members 
thereof.'' In 1946, the Congress granted LRS further statutory status 
within the Library and directed it to employ specialists to cover broad 
subject areas. Congress renamed the LRS the Congressional Research 
Service (CRS) in 1970 and enhanced its analytical capabilities by 
defining its policy role for the Congress and emphasizing research 
support to the committees of Congress.
    More recently, a series of Congressional statutes have created 
within the Library of Congress the American Folklife Center (1976), the 
American Television and Radio Archives (1976), the National Center for 
the Book (1977), the National Film Preservation Board (1988), and the 
National Film Preservation Foundation (1996)--further extending the 
Library of Congress' national role.
                       library of congress today
    The core of the Library is its incomparable collections--and the 
specialists who interpret and share them. The Library's 115 million 
items cover more than 530 miles of shelf space and include almost all 
media through which knowledge and creativity are preserved and 
communicated.
    The Library has more than 27 million volumes, including 5,700 
volumes printed before the year 1500; 12 million photographs; 4 million 
maps, old and new; 2 million audio recordings; 800,000 motion pictures, 
including the earliest movies ever made; 4 million pieces of music; 50 
million pages of personal papers and manuscripts, including those of 23 
Presidents of the United States as well as hundreds of thousands of 
scientific and government documents.
    New treasures are added each year. Recent acquisitions, to name a 
few, include: papers of Supreme Court Justice Ruth Bader Ginsburg 
covering her career before appointment to the Court; an addition of 
2,000 items to the papers of Supreme Court Justice William J. Brennan; 
a collection of 500,000 items of Pamela Harriman, diplomat and 
political figure; the Martha Graham Archives, documenting the 
contribution of this pioneer in American dance; 32,000 papers of poet 
Edna St. Vincent Millay; additional organizational papers to 
collections already at the Library of the National Urban League and 
NAACP National and Washington Bureau; a large addition to the papers of 
architect I.M. Pei; sixty drawings of Pat Oliphant, the political 
cartoonist; text, images, and audio files representing a full 
``snapshot'' of the public World Wide Web (some 500,000 Websites) 
donated by Brewster Kahle, President and Founder of Alexa Internet; 
three rare portraits of Georgia O'Keeffe by master photographer Alfred 
Stieglitz; and a Map of Philadelphia from 1752 with the first 
illustration of Independence Hall.
    Every workday the Library's staff adds approximately 10,000 new 
items to the collections, after organizing and cataloging them, and 
finds ways to share them with the Congress and the nation--through on-
line access across the nation, through in-person access in the 
Library's reading rooms, and through cultural programs that feature the 
Library's collections and reach across the country.
    Major annual services include delivering more than 530,000 
congressional research responses and services, processing more than 
640,000 copyright claims, cataloging nearly 300,000 books and serials, 
and circulating more than 22 million audio and braille books and 
magazines to blind and physically handicapped individuals all across 
America. The Library also provides free on-line access, via the 
Internet, to its automated information files, which contain more than 
75 million records--to Congressional offices, Federal agencies, 
libraries, and the public. The Library of Congress programs and 
activities are funded by four salaries and expenses (S&E) 
appropriations, which support congressional services, national library 
services, copyright administration, library services to blind and 
physically handicapped people, and management support. A separate 
appropriation funds furniture and furnishings.
                       automation building blocks
    The Library is putting in place automation building blocks that 
will ensure a solid foundation for continuing into the next century its 
historic leadership role of delivering information services to the 
Congress and the Nation, setting bibliographic standards (saving 
libraries hundreds of millions of dollars by supplying them with 
bibliographic data), and providing free electronic access to knowledge 
and information for life-long learners everywhere.
    Key automation building blocks for the future include:
    Integrated Library System (ILS).--The ILS is scheduled to be 
operational at the beginning of fiscal year 2000 and will change the 
work patterns for more than half the Library's staff. The fiscal year 
2000 budget incorporates a planned decrease of $1,197,000 (from 
$3,544,000 to $2,347,000), which is $270,000 less of a decrease than 
projected two years ago in the original budget because of higher 
software maintenance costs. The ILS will coordinate and make more 
efficient all the Library's basic functions, such as acquisitions, 
cataloging, and research and loan services but will require a major 
redirection of resources to implement. As a result, the Library 
projects a slight short-term increase in its arrearage during fiscal 
years 1999 and 2000. The Library expects that any major savings from 
the ILS would begin to accrue at the end of fiscal year 2000 and begin 
appearing in the Library's fiscal year 2001 budget.
    Electronic Resources Information Project.--An important phase of 
the transition to an increasingly electronic future is the development 
of an approach to handling digital materials. The Library is requesting 
a fiscal 2000 increase of $964,764 for an initiative that consists of 
two parts: (1) a three-year project, at $520,836 per year, to develop 
and implement policies and procedures and the access management system 
necessary for incorporating into its collections and services the 
electronic products the Library acquires from others via copyright 
deposit, gift and purchase; and (2) a permanent base increase of 
$443,928 to fund the technical staff necessary to support the handling 
of electronic services in the custodial divisions. Just as the National 
Digital Library Program provided national leadership for the transition 
to a digital environment through conversion of archival materials 
delivered on the Internet, the Electronic Resources Information Project 
will provide leadership in the integration of material in electronic 
form into our traditional operations with books and other hard copy 
materials. This effort is a necessary initial step and a key part of 
the comprehensive plan for integrating all digital collections.
    Global Legal Information Network (GLIN).--GLIN is a cooperative 
international network in which nations are contributing electronically 
the full, authentic text of statutes and regulations to a database 
hosted by the Law Library of Congress. GLIN is the digital future of 
the Law Library, and an increase of $396,000 is requested to support 
GLIN's expanding from 12 to approximately 30 countries by the year 
2004: an addition of three to four countries per year. The Library 
plans to use receipts provided by participants and sponsors of GLIN to 
help support GLIN development, but these receipts will not be 
sufficient to ensure success until a critical mass of countries is 
achieved.
    Copyright Office Electronic Registration, Recordation and Deposit 
System (CORDS).--CORDS is the electronic future of the Copyright Office 
and provides the public with an electronic means to submit copyright 
claims and documents which streamline internal processing. Development, 
as well as testing, will continue through successive phases with an 
increasing number of electronic registrations over the Internet. In the 
year 2004, the Library expects to receive at least 100,000 works (out 
of a total of more than 700,000 works) in digital form--such as census 
data, films, music, encyclopedias, scientific papers, and legal 
documents. An increase of $143,988 (funded by receipts) is requested to 
expand the CORDS system into new formats, provide on-line customer 
support, support increasing digital storage needs, and enhance 
technical capabilities.
    Automation Infrastructure Support.--An increase of $3,250,000 is 
requested to fund automation infrastructure support items: (1) $1.9 
million to upgrade the Library's digital voice switch, which has been 
in operation for more than a decade and will not be able to support the 
Library's growing telecommunications requirements in the 21st century; 
(2) $600,000 to increase computer server storage and capacity, which is 
necessary to meet the growing demand of the millions of transactions 
processed daily; (3) $500,000 to fund additional security and disaster 
recovery measures, which are becoming increasingly critical with the 
growth of on-line systems; and (4) $250,000 to support the first phase 
of a central financial management system replacement project.
    The Library is undertaking an institution-wide planning effort to 
coordinate these building blocks and other digital initiatives in order 
to provide the most effective information services for the 21st 
century. The Library is also seeking advice and counsel from the 
National Academy of Sciences as part of our planning process. The 
overall transition to modern electronic services Library-wide will be a 
multi-phase, multi-year process (see attachment #2). Re-engineering 
traditional functions and adding digital content are critical elements 
of the planning (see attachment #3).
    Fiscal year 2000 marks the end of the initial five-year National 
Digital Library (NDL) program, and the Library will present, in next 
year's budget, its plans for the future of our digital programs. The 
highly successful NDL program serves as a catalyst for institutional 
change, in addition to making possible access by millions of Americans 
to the Library's vast holdings. A recent PC Magazine review of the Top 
100 Websites stated: ``We've raved about The Library of Congress for 
years, and it just keeps getting better.'' We plan to build on our 
successful five-year NDL program to ensure public availability of 
additional high-quality content.
    With regard to the Library's Year 2000 (Y2K) readiness for 
automated operations, the Library has identified 99 mission critical 
systems and is on-schedule for making these systems Y2K compliant by 
September 30, 1999 (see attachment #4). The General Accounting Office 
conducts regular reviews of our progress in reaching Y2K compliant 
automated operations and reports quarterly to the Congress on our 
progress.
                           succession program
    The Library's ability to serve Congress and the nation depends in 
large part on its expert staff, particularly those who have intimate 
familiarity with the special collections or fluency in foreign 
languages. In 1996, Library Services undertook an analysis of its 
vulnerability to retirements and determined that by fiscal year 2004 50 
percent (1,077) of its staff would be eligible for retirement. An 
additional concern is the need to provide upward mobility opportunities 
for motivated technicians who have demonstrated their ability to move 
into professional positions. To respond simultaneously to both of these 
needs, the Library requests $1,010,016 to initiate a cost-effective 
Library Services Career Enhancement and Succession Plan that will give 
existing staff opportunities to advance to critical professional 
positions while also enabling the Library to recruit a new corps of 
junior technicians. Without the additional funding for technician 
positions, our newly promoted (and higher paid) curators will be forced 
to devote time to technician-level assignments, which would not be a 
cost-effective use of resources.
    The Congressional Research Service faces a similar challenge. One-
half of CRS' staff of analysts, attorneys and reference librarians will 
be eligible to retire by the year 2006. To address this challenge, CRS 
began a research capacity risk assessment process in 1996 and 
identified the specific subject areas where staff were likely to retire 
in the next few years. CRS foresees reduced analytic capacity in a 
significant number of subject areas as early as the year 2000; these 
losses will accelerate and affect almost every area of legislative 
support to the Congress by 2004. Rebuilding this capacity requires a 
multi-year learning period during which new staff develop the breadth 
and depth of knowledge of the specific issues as well as of the 
legislative process. To meet these challenges, CRS has developed a 
multi-year plan to begin hiring replacement staff. In fiscal 1999, the 
Congress provided $435,858 to begin this hiring process, using the 
Graduate Recruit Program and the Law Recruit Program. The fiscal 2000 
request seeks $559,052 to continue to hire staff to ensure the 
continuity of services to the Congress, while remaining within the 
full-time equivalent level provided in the fiscal 1999 budget.
         security of library staff, collections and facilities
    During 1998, the Library's House and Senate oversight committees 
approved our comprehensive Security Plan, and the Congress approved 
supplemental appropriations totaling $16,975,000 for the Library's 
physical security. These two Congressional actions provide a framework 
for the security of the Library's collections, facilities, staff, 
visitors and other assets. As a result, additional security measures 
will be put in place during fiscal years 1999 and 2000: the recruitment 
of additional police, the installation of entry screening equipment at 
all public entrances, the design and installation of additional 
perimeter security enhancements, and the design and development of an 
improved intrusion detection system. The Library is working with the 
Capitol Police and the Architect of the Capitol to complete a 
memorandum of understanding, which will ensure proper coordination of 
all security efforts.
    The supplemental appropriations in fiscal 1999 did not provide 
additional funds for collections physical security initiatives. Thus, 
for the fiscal year 2000 budget, the Library is requesting an increase 
of $1,352,201 to support three key collections security enhancements.
    Reader Registration.--The Library's Security Plan specifies, as a 
minimum standard, the identification of all patrons requesting material 
from the collections. The Library is requesting an increase of $466,791 
to implement this minimum standard in all reading rooms.
    Marking and Tagging Library Materials.--The Library's Security Plan 
specifies, as a minimum standard, the marking and tagging of most 
material. The Congress approved and funded the marking and tagging of 
materials received via copyright deposit starting in fiscal 1999, and 
the Library requests $476,378 to expand marking and tagging to other 
sources of acquisitions (i.e., gifts, exchanges, purchases).
    Contract Security Monitors.--The Library is requesting an increase 
of $370,188 to improve the enforcement of security standards by placing 
security monitors in five additional reading rooms where unique 
materials often of great value are used--Law, Geography and Map, Music, 
Prints and Photographs, and Rare Book and Special Collections. Contract 
security monitors are now used in the Manuscript and Main reading rooms 
to ensure that each patron is registered, enforce personal belongings 
restrictions, monitor the activities of visitors, and examine materials 
being removed. The Library asks that this successful program be 
expanded to these five additional important reading rooms.
                              law library
    The Law Library of Congress maintains the largest collection of 
legal materials in the world and also houses a unique body of foreign-
trained lawyers to supply legal research and analysis, primarily for 
the Congress, on the laws of other nations, international law, and 
comparative law. More than 200 jurisdictions are covered by Law Library 
specialists, some 80 percent of the sovereign entities of the world 
that issue laws and regulations. The Law Library utilizes this talent 
to maintain and develop the breadth and depth of a demanding 
collection, as well as to provide reference services whenever either 
chamber is in session (as mandated by the Congress). These are daunting 
responsibilities. The U.S. Courts, the executive branch, and the legal 
community also depend heavily on the Law Library's collections.
    The Law Library has been creative in attempting to meet its 
responsibilities, particularly with the development of its Global Legal 
Information Network, but funding for 8.5 FTE's ($548,852) is crucially 
required. The funding would ensure adequate staffing for research and 
reference services, improve the security of the rare book room 
collections, and improve book retrieval services. The Law Library is 
also requesting $188,250 for contractual services to maintain the 
filing of looseleaf inserts. The integrity and currency of legal 
publications--which contain laws, administrative rules and regulations, 
and legal interpretations--must be maintained to be of continuing value 
to the Congress.
                            copyright office
    The Library's Copyright Office promotes creativity and effective 
copyright protection--annually processing more than 650,000 claims 
(representing more than 850,000 copies of works transferred to the 
Library) of which 550,000 claims are registered for copyright. The 
Copyright Office also responds annually to more than 395,000 requests 
for information.
    On July 1, 1999, the Copyright Office plans to increase its filing 
fees and other statutory fee services. The new schedule of proposed 
fees was presented to the Congress for consideration at the beginning 
of February. The basic filing fee for registering a claim will increase 
from $20 to $30, and other statutory fees, such as those for filing 
renewals or recording a document, will also increase. These increases, 
coupled with the fee changes for special services which went into 
effect July 1, 1998, represent increases in some cases of as much as 
225 percent. We expect fee increases to boost the Office's receipts by 
$4.8 million in fiscal year 2000. The new fee structure should provide 
70 percent cost recovery for registration, recordation and related 
services. The Register's statement provides a more detailed explanation 
of the proposed increase.
    The ability of the Copyright Office to serve the nation effectively 
requires restructuring and streamlining operations. The Library 
requests approval to use part of the additional receipts ($694,212) to 
redesign the workflow and to bolster its core staff of examiners, which 
will ensure the timely processing of claims for registration. To 
improve public service, efficiency, security, cash management, and 
contain costs, the Copyright Office must redesign its workflow and hire 
additional examiners.
    The Library also requests authority to use part of the additional 
receipts to fund further growth of the CORDS effort ($143,988, see 
automation building blocks) and to fund newly imposed storage costs 
($268,204) levied by the National Archives and Records Administration.
   national library service for the blind and physically handicapped
    The Library administers a 67-year-old cooperative effort with state 
and local agencies and the United States Postal Service to provide free 
braille and recorded materials for blind and physically handicapped 
persons. The Library selects and produces full-length books and 
magazines in braille and on recorded disc and cassette and provides 
special playback equipment. We distribute reading materials and 
playback machines to a network of cooperating regional and subregional 
(local) libraries, who circulate those materials to eligible borrowers 
and returned to libraries by postage-free mail.
    The fiscal year 2000 budget maintains program services by funding 
mandatory pay and price level increases totaling $1,209,000. The budget 
also supports the exploration of alternative digital technological 
possibilities that would provide a less costly, more efficient, 
internationally acceptable, user-friendly delivery system.
                     library buildings and grounds
    The Architect of the Capitol (AOC) is responsible for the 
structural and mechanical care and maintenance of the Library's 
buildings and grounds. In coordination with the Library, the AOC has 
requested a capital budget of $9,405,000, an increase of $6,238,000. 
The AOC capital budget includes funding for six projects totaling 
$6,350,000 in appropriations, that were requested by the Library. 
Library-requested projects, as well as AOC identified projects, are 
prioritized based on critical need and in accordance with both the 
Library's Strategic and Security Plans. The six projects support four 
important areas: (1) the security of our collections by providing 
additional electronic card readers, alarm devices, and other 
protections ($1,400,000); (2) the preservation of the Library's 
collections as a result of improved environmental conditions for 
exhibit space ($450,000); (3) the support for and oversight of initial 
construction efforts at the National Audio-visual Conservation Center 
($500,000); and (4) the acquisition of additional storage space by 
funding a second collections storage module at Fort Meade, Maryland 
($4,000,000). Properly storing the Library's collections in secure, 
safe, and environmentally sound facilities is the most important step 
toward preserving our collections for future generations.
    I urge the Committee to support the Architect's Library Buildings 
and Grounds budget and his position that reinvestment in the existing 
infrastructure is necessary and a prudent measure for the long-term 
support of legislative branch operations.
                    audio-visual conservation center
    The Library's House and Senate oversight committees have approved a 
Master Plan option for the renovation of the National Audio-visual 
Conservation Center in Culpeper, Virginia, which provides for the donor 
to retain ownership of the center through Phase I (2001). As a result, 
the Library requests an increase of $290,000 to fund fiscal 2000 
operating costs, which are estimated to be $509,000. When ownership of 
the Center is transferred to the AOC, these operating costs will be 
reallocated between the AOC and the Library, in accordance with normal 
Library Buildings and Grounds budget practices. In August 1998, the 
Library began to store film at the center.
                 national film preservation foundation
    The Library is requesting an increase of $250,000 to fund the 
government's matching grant in accordance with section 209 of Public 
Law 104-285. To date, the National Film Preservation Foundation has 
received pledges totaling $1.2 million ($500,000 in actual receipts) 
from private persons and State and local governments. The $250,000 
increase would fund the government's matching share and support the 
preservation of our film heritage.
        james madison building workstation modernization project
    The Library is requesting an increase of $1,528,000 to begin a 
five-year accelerated workstation modernization project in the James 
Madison building. We have replaced employee workstations in the Thomas 
Jefferson and John Adams buildings with modern furniture and equipment 
as a result of the renovation project. Furniture and equipment 
installed 20 years ago in the James Madison building, during an era of 
typewriters and long before the introduction of personal computers, 
must now be replaced to provide for ergonomically correct workstations 
in all three of the Library's Capitol Hill buildings. Poor workstation 
design contributes to the risk of injuries and lower staff 
productivity. An increase is required to complete the project within 
five years instead of the 16 plus years the current level of resources 
would require.
                          proposed legislation
    During the 105th Congress, the Library's oversight and 
Appropriations Committees agreed upon authorizing legislation for the 
American Folklife Center (AFC) and the National Audio-visual 
Conservation Center. The Library is moving expeditiously to secure all 
appointments to the AFC board and to realize the master plan for the 
Culpeper site approved last December. During the last Congress, we also 
secured legislation for a commemorative coin to be issued in April 2000 
in observance of the Library's Bicentennial. In discussing the 
Library's plans for its Bicentennial with our oversight committees, we 
stressed the continuing need for the Library to have improved statutory 
authority for its revolving and reimbursable funds. The 105th Congress 
approved a revolving fund to improve the accountability and statutory 
basis for the Cooperative Acquisitions Program. We will be seeking 
similar authority during this Congress to address the business 
operating needs of the Federal Research Division and FEDLINK, each of 
which serves a wide constituency within the Federal government. The 
bill is our top legislative priority for the 106th Congress. Passage of 
such legislation would address a critical element of our five-year 
legislative plan to improve and stabilize the Library's business 
operations.
                      office of inspector general
    The Library requests an increase of $139,343 to fund two 
professional auditors in the Office of the Inspector General. The two 
auditors would concentrate on reviews of the Library's physical 
security and automated systems, both areas of critical importance to 
our operations.
                         library's bicentennial
    The Library will use its Bicentennial in the year 2000 less to 
celebrate our past than to leave a legacy for the future. We have 
crafted--almost entirely with privately raised funds--a multi-faceted 
Bicentennial Program ``to inspire creativity in the years ahead by 
stimulating greater use of the Library of Congress and libraries 
everywhere.'' Bicentennial projects include: reconstituting Thomas 
Jefferson's original library through private donations; a ``Favorite 
Poem'' project spearheaded by the Library's Poet Laureate; a national 
photography contest, ``Beyond Words: Celebrating America's Libraries,'' 
jointly conducted with the American Library Association; and a ``Local 
Legacies'' project to document unique local traditions from 
congressional districts throughout the nation for possible inclusion in 
the American Folklife Center's collections.
    The kick-off event later this year for the Bicentennial will be a 
symposium on the Frontiers of the Mind in the 21st Century, which will 
bring together at the Library leading thinkers in various disciplines 
to talk about the way their field will change in the 21st century. The 
concept of ``Gifts to the Nation'' is central to the Bicentennial 
effort. The Library itself is a Congressional ``Gift to the Nation.'' 
Sharing the Library's collections and information about the Congress 
with Americans in their local communities through an expanded National 
Digital Library is the Library's major gift to the nation.
                                summary
    The Library's budget request for fiscal year 2000--a net increase 
of 5.5 percent over fiscal 1999 or $20 million--supports the building 
blocks for realizing our strategic priorities. Most of this increase 
($16.6 million) is needed to fund mandatory pay raises (driven largely 
by the January 2000 pay raise of 4.4 percent) and unavoidable price-
level increases.
    By funding the Library's fiscal year 2000 budget request, the 
Congress would support the major transition of staff and operations 
that must take place to permit the Library to head into the 21st 
century with the foundation in place to provide the maximum service to 
the Congress and to its constituents.
    For fiscal year 2000, we submit a budget request that will enable 
the Library of Congress to continue to make major contributions to the 
work of the Congress and to the creative life of the American people.
[GRAPHIC] [TIFF OMITTED] T08MA17.013

                             [Attachment 1]
[GRAPHIC] [TIFF OMITTED] T08MA17.014

                             [Attachment 2]
[GRAPHIC] [TIFF OMITTED] T08MA17.015

                             [Attachment 3]

                                 ______
                                 
                 Prepared Statement of Marybeth Peters
    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to present the budget request of the Copyright Office for 
fiscal year 2000. For more than 100 years the role of the Office has 
been one of leadership in the establishment of U.S. copyright policy 
and service to the nation. The record has been one of solid 
achievement, and this year is no different.
    During fiscal year 1998, the Copyright Office continued to advise 
the Congress on national and international issues and provided valuable 
assistance to the United States Trade Representative and other 
executive branch agencies.
    It also continued to create and maintain the on-line catalog of 
copyright and mask work registrations and recorded documents, to 
administer the various compulsory licenses and statutory obligations, 
to further the effort to create a workable automated registration, 
recordation and deposit system, and to offer technical, legal, and 
educational assistance in the international arena.
    The Copyright Office's public services include, responding to 
copyright information and reference requests in person, over the 
telephone, through written correspondence, and electronically through 
the Web; producing and supplying Copyright Office forms, circulars, 
studies, regulations, and other publications in paper and digital 
format; maintaining a 24-hour forms hotline and fax delivery service; 
providing up-to-date information digitally via the Copyright Office 
Website and through an electronic mailing list.
    In fiscal year 1998, the Office processed 644,639 claims, 
representing over 800,000 works, registered 558,645 claims, 
representing more than 700,000 works, recorded 14,368 documents, that 
included more than 250,000 titles, and responded to 395,456 information 
requests. It transferred to the Library approximately 850,000 copies of 
works at a value of $26,991,775. The Office collected $15,559,001 for 
registration, recordation and related services and approximately 
$217,000,000 in royalty fees for compulsory licenses.
Fiscal Year 1999 Focus
    In fiscal year 1999, the Copyright Office will focus on five 
activities: Maintaining and enhancing the policy role of the Copyright 
Office in domestic and international copyright matters; continuing the 
development, testing, and implementation of the Copyright Electronic 
Registration, Recordation, and Deposit System (CORDS); improving the 
efficiency and timeliness in registration processing and in providing 
copyright reference and information services; enhancing the security of 
copyright deposits and records through the application of anti-theft 
devices to the collections and the adoption of other measures; and 
implementing Copyright Office fee setting legislation.
Policy Role
    The Digital Millennium Copyright Act (DMCA), enacted on October 28, 
1998, supports and enhances the policy role of the Copyright Office in 
domestic and international copyright matters. The DMCA resulted in the 
most extensive changes to Copyright Law since the general revision in 
1976. It was the result of nearly two years of intensive activity in 
the Congress, and the Copyright Office was privileged to work 
extensively with committees in both the House and Senate throughout the 
legislative process.
    Not only did the Copyright Office play a significant role in 
advising the Congress on matters relating to the DMCA, but the Act 
itself ensured that the Office will continue to play a leading role in 
copyright policy in the future. Section 401 of the Act confirms the 
authority of the Copyright Office to carry out the policy and 
international functions that it has carried out under more general 
statutory language for many years.
    On several of the substantive issues addressed in the DMCA the 
affected parties were very far apart, requiring Congress to craft a 
number of delicate compromises. One of these compromises establishes a 
new important and difficult activity for the Librarian of Congress and 
the Register of Copyrights--an ongoing administrative-rulemaking 
proceeding to evaluate the impact of the law's new prohibition on 
circumventing technologies that protect works from unauthorized access 
to determine whether users of ``particular class[es] of works'' would 
be hindered in their ability to make noninfringing uses of such works 
by virtue of the new anti-circumvention rules. If so, the Librarian, 
upon recommendation of the Register of Copyrights, will exempt such 
persons from the ban on acts of circumvention.
    There were a number of issues that were not ripe for resolution in 
the DMCA. Several matters under consideration--from distance education 
to encryption research--required further study. All six of those 
studies will be carried out either under the auspices of the Copyright 
Office or with the Office's participation within the next two years.
Copyright Electronic Registration, Recordation, and Deposit System 
        (CORDS)
    In fiscal year 1999 the Office will continue the development, 
testing, and implementation of CORDS, which, when fully developed, will 
allow all Internet users to submit electronically claims to copyright, 
copies of copyrighted works, and documents such as assignments and 
licenses.
    CORDS has no other prototypes available to build on; it is breaking 
totally new ground, and is doing so in a rapidly changing technical 
environment. It involves the use of many new technologies emerging with 
the growth of the Internet, including applying digital signature 
technology that authenticates the source and integrity of 
communications with far more depth of reliability and security built 
into it than basic FTP (file transfer protocol) or Email 
communications-based systems.
    In January 1999, the Library of Congress and the Copyright Office 
signed a landmark cooperative agreement with UMI that enables 
electronic submission of applications and deposits of doctoral 
dissertations and master's theses. This historic agreement also makes 
UMI the first partner to submit large numbers of copyright claims 
(20,000 annually, 400 per week) electronically through CORDS, which 
will be processed online.
    In the fiscal year 2000 budget request, the Copyright Office 
requests funding for (1) hiring one automation specialist (GS-13) and 
(2) increasing digital storage capability for CORDS. This will permit 
the Office to receive and process an increasing number of claims 
electronically at a substantial savings in staff time and physical 
storage space.
Registration Operations
    The Copyright Office's goal is timely, quality service. Throughput 
time is a major concern to the copyright community. Despite valiant 
efforts by supervisors and staff, registration has gone from the norm 
of six to eight weeks in 1993 to six to eight months today. This is 
clearly unacceptable. Annually, we process approximately 650,000 claims 
to copyright covering more than 800,000 works and more than 1,000,000 
deposit copies per year, received with a fee in most cases, to be 
processed and routed through many stations in a function-based 
operation. At the end of fiscal year 1993, the Office had an inventory 
of 30,000 registration claims to be processed. Normal on-hand ranges 
for claims to be examined have historically been 30,000 to 45,000.
    Beginning in fall 1993, the examiner staff began to decline because 
of retirements, buyouts, budgetary constraints, and resignations. Over 
the next three years, the Examining division lost 26 FTE's, or 38 
percent, of its examiner staff. Hiring freezes caused by the Copyright 
Office budget constraints, and the development of the new Library of 
Congress hiring system prevented the Office from replacing examiners 
until 1997. Today, there are 52 examiners on staff, only 80 percent of 
1993 levels.
    To compensate for reduced staff, the Examining Division has held 
facilitative sessions with staff, offered overtime, cross-trained and 
utilized staff from other divisions, initiated the use of email and fax 
correspondence with applicants, streamlined correspondence with 
frequent applicants, networked correspondence preparation, and 
initiated better use of technician staff to process uncomplicated 
claims.
    Although these measures are effective in reducing more backsliding, 
they are not sufficient to recoup the losses. Sixteen new examiners 
have been hired and are becoming productive; however, the arrearage 
remains at 125,000 claims. While the division may be able to hold the 
arrearage at the current level when the new hires are fully trained, 
there are not enough examiners to reduce the backlog and achieve 
currency.
    To build a cadre of copyright examiners sufficient to ensure the 
issuance of timely copyright registration certificates will require the 
funding to hire eight additional examiners (GS-7) which is requested in 
the fiscal year 2000 budget.
    We are also seeking authority to reimburse the National Records 
Center ($268,204) for storage of Copyright Office records.
            Restructuring the Registration Process in Fiscal Year 2000
    To effectively serve the public and the copyright community in the 
new Millennium, the Copyright Office must restructure and streamline 
the registration and recordation processes. Funding for this effort is 
included in the fiscal year 2000 budget request. Restructuring will 
improve public service, enhance operational efficiency and security, 
contain costs, respond to the need to acquire and process works fixed 
in new formats, and meet the demands of the copyright community for a 
reduction in the claims arrearage and the speedier processing of 
claims.
    This initiative entails: hiring eight additional copyright 
examiners (GS-7) to achieve and maintain currency in registration of 
copyright claims and one automation specialist (GS-13) and increasing 
digital storage capability for CORDS, as stated earlier; hiring a 
project manager, (GS-15) NTE 5 years, who is an expert in Copyright 
Office procedures, to oversee and coordinate the restructuring project 
throughout the planning and implementation phases, work with the 
contractors, head up a task force of Copyright Office staff, 
communicate with and collect input from management, staff, unions, and 
customers, and evaluate the statutory impact, if any, of restructuring; 
and hiring a consultant to conduct a process redesign study to develop 
and implement a restructuring plan for the Office's major registration 
processing operations and associated functions to enhance operational 
efficiency and reduce handling of materials.
    There are numerous benefits to restructuring the registration 
process. The value of our records is greatest when up-to-date 
information on new works is expeditiously made available to the public. 
Increased staff and more efficient operations will maximize the 
timeliness of additions to and public accessibility of our records. 
Office restructuring and electronic filing via CORDS for a growing 
percentage of applicants are needed to maintain reasonable operating 
costs in future years and keep user fees, which are based on cost, from 
escalating to levels unacceptable to the Congress and beyond the means 
of copyright owners, particularly individual authors. Restructuring 
will permit better control over material and result in fewer 
opportunities for misplacement and pilferage. Increasing the use of 
electronic filing via CORDS will reduce the quantity of materials that 
require physical handling and storage.
Security Program
    The Library of Congress has embarked on a major security effort 
with regard to its collections. The Copyright Office with the Library 
of Congress has developed a multi-year plan to improve security. In 
fiscal year 1998, the Copyright Office conducted five Risk Assessments, 
that identified control weaknesses and developed plans of action to 
reduce our vulnerability. In fiscal year 1999, the Copyright Office 
began implementing these plans. Additionally, the Office received 
fiscal year 1999 funding to install card readers, institute ownership 
markings and bar coding systems, and security devices for print and 
non-print material.
Fee Increases
    On February 1, 1999, I submitted to Congress a proposed schedule of 
fees for filing copyright claims, recording documents and providing 
related services. These fees would replace the fees specified in 
section 708(a)(1)-(9) of the copyright law. Our goal is to implement 
these and other new fees on July 1, 1999. Our proposal would increase 
the filing fee for basic (as opposed to supplementary or renewal) 
registrations from $20 to $30. Other statutory fees, such as those for 
recording a document, researching our records and providing a report of 
our results, will increase to levels necessary to recover costs. The 
new fee structure is expected to provide 70 percent cost recovery for 
registration and related services. In fiscal year 2000, higher fees are 
expected to increase the Office's receipts by $4.8 million, fund the 
budget initiatives and reduce the Office's net appropriation by 
$2,336,000.
    With respect to increasing our fees, I followed the provisions of 
the Technical Amendments Act, effective November 13, 1997, which 
require the Register of Copyrights to conduct a study of costs incurred 
by the Office for the registration of claims, the recordation of 
documents, and for other related services. On the basis of the study 
and public policy considerations, and subject to congressional review, 
registration, recordation and related statutory fees may be raised to 
recover reasonable costs, including an adjustment for inflation. 
However, the new fees must be fair and equitable and support the 
objectives of the copyright system.
    The Office worked with two consulting firms. One firm provided cost 
accounting expertise that produced an in-depth analysis of copyright 
costs; the other provided expertise in the new federal ``Managerial 
Cost Accounting Standards.'' In order to address the need for fees to 
be fair and equitable and to give due consideration to the objectives 
of the copyright system, I sought information from authors, copyright 
owners, the general public and from the Library of Congress.
    The Office published a notice of proposed fee increases that 
contained two alternative preliminary fee schedules, each of which 
would recover the costs for providing registration and other statutory 
services, and requested written comments on the two fee schedules and 
offered the public the opportunity to testify orally at a public 
hearing. The Office received significant input from the intended 
beneficiaries of the copyright system and users of Copyright Office 
services. Organizations representing authors and small publishers urged 
the Office to set fees lower than the amounts required to fully recover 
basic registration expenses, noting that registration is required for 
enforcement of a copyright, and that registration before infringement 
takes place is generally necessary to obtain the crucial remedies of 
statutory damages and attorneys' fees.
    Many commenters mentioned the hardship higher fees would impose on 
individual authors, noting that the Internet has decreased their 
ability to regionalize the sale of their works--sales are now global. 
They urged that the fee be kept at its current level and asserted that 
the lower fee for individual authors proposed in the second schedule 
was too high and would result in decreased applications for copyright 
registration.
    I evaluated all testimony and comments and took into account the 
possibility that a large increase in fees could result in a concomitant 
decline in registrations which would jeopardize the stability of the 
registration system and have a long-term effect on user fee revenues. 
It would also erode the Office's receipt of valuable deposits, which 
form the underpinning of the Library's Americana collections. The 
schedule of fees sent to Congress proposes increasing the basic 
registration fee by 50 percent; however, some other fee services would 
increase by as much as 225 percent.
Justification
    Determining an exact figure for an appropriation reduction in 
fiscal year 2000 is an extremely difficult task because of the 
uncertainties related both to the precise fees to be assessed and the 
impact on demand for services. Further, a fee increase carries its own 
costs, including handling claims arriving with insufficient fees, 
which, during the first several months, may represent nearly half of 
all submissions. History demonstrates that any fee increase negatively 
affects demand for services for at least the first year following the 
increase. The Office's income projections are based on an expected 20 
percent decline in demand for registrations, the fee service which 
provides the largest amount of revenue.
    Since income in fiscal year 2000 depends on an unpredictable 
decline in demand and the possibility that our proposed fees might not 
meet with Congressional approval, and thus might not be implemented at 
all, the Office believes it is essential to adopt a conservative 
approach and request a moderate net appropriation reduction and a 
moderate Offsetting Collections Authority increase for fiscal year 
2000. If, as is hoped, income exceeds expenditures, the Office can 
apply that income toward an appropriation reduction for fiscal year 
2001, a year where income projections can be calculated with more 
certainty based on a half year's experience under the new fee 
structure.
Summary
    In its fiscal year 2000 budget request, the Office is seeking 
authority to fund new initiatives. They include the funding to hire 
eight examiners (GS-7), one project manager for our restructuring 
efforts (GS-15) and one automation specialist (GS-13) and funding to 
increase our digital storage capacity ($70,000), and to conduct a 
process engineering study ($400,000) to restructure our processes plus 
equipment and software ($16,000) for the project manager. We are also 
seeking authority to reimburse the National Records Center ($268,204) 
for storage of Copyright Office records.
    Funding our operational improvements, including increasing our 
digital storage space for claims that are submitted through CORDS, 
would support our efforts to become more efficient, to improve public 
service, and to transition to the global networked society of the 21st 
century. Approval of our request would still allow you to reduce the 
Office's net appropriation by $2,336,000.

    Senator Bennett. Thank you very much.
    I have a few questions, some of which I will submit to you 
in writing. But first I think the thing we should do now is 
this.
    Mr. Mulhollan, since we are also going to focus on your 
budget as an independent part of the overall Library budget, 
perhaps we ought to have you make a few comments before I get 
into questions. Then the questions can go back and forth.

                 opening remarks by daniel p. mulhollan

    Mr. Mulhollan. Thank you, Mr. Chairman.
    It is a pleasure to appear before you and Senator Feinstein 
to discuss the fiscal year 2000 budget request for CRS. I want 
to thank this subcommittee for the support it has given to CRS 
in the past, for the confidence you have shown in us, and for 
the close working relationship that you have made possible.
    As the shared resource of Congress, I believe our request 
will continue to permit CRS to provide the highest level of 
legislative assistance both economically and efficiently.
    Our budget request contains only those funds necessary to 
maintain services to the Congress now and into the future.

                        CRS request for funding

    Our request for funding has two components. The first is to 
cover mandatory costs of personnel, which constitute 90 percent 
of CRS's total operating budget. The other 10 percent of costs 
are allocated for the tools required to perform research and 
analysis.
    We are also asking that the fiscal year 2000 appropriation 
cover cost increases due directly to the effects of inflation.

                          CRS succession plan

    A second component of the request is to fund the second 
year of our 3 year succession plan for maintaining research 
capability, one of a number of steps we have taken to preserve 
institutional memory and to insure continuity of service.
    The plan is designed to insure this analytic expertise for 
Congress by enabling current staff to transfer to new staff 
their institutional memory, knowledge of the legislative 
process, and commitment to confidentiality, objectivity, 
timeliness, accuracy and responsiveness.
    As in the past, we have made every effort to hold down 
costs and, at the same time, insure continued Congressional 
access to our expertise and high productivity. Let me assure 
you that we remain committed to work with our fiscal year 1999 
budgeted full-time equivalent positions.
    Mr. Chairman, Senator Feinstein, in the past year we have 
taken steps to insure that CRS remains a cost effective shared 
resource to the Congress. Our activities are designed to secure 
our research and analytic capacity and to facilitate access to 
our services.
    Some examples include: a large-scale realignment of our 
staff resources, which entails clustering experts and their 
subject responsibilities around major public policy issues, 
thereby broadening the policy context of research units; 
refining the focus on the current legislative agenda of the 
Congress; and streamlining research management.

                             CRS home page

    We have also been enhancing the CRS home page to meet 
Congressional needs, including making all CRS products 
available electronically--more than 2,800--and piloting a new 
service, which we call electronic briefing books, as well as 
expanding our capacity to link CRS products to legislation.
    Further, as part of our continuing efforts, we are 
developing and testing a more sophisticated legislative 
planning system and continuing our professional development 
details for CRS staff.
    In terms of support for the research process, I would like 
to bring you up to date on three activities.

                           CRS Y2K compliant

    First, as a result of early planning, all of CRS's mission 
critical computer systems, for which we are directly 
responsible, are now Y2K compliant.
    A second activity, support for the Legislative Information 
System, is also progressing on track. In 1998, CRS, with the 
Library, completed the major tasks approved by the oversight 
committees and in 1999, our primary focus is on insuring that 
the requirements for Y2K are fully addressed.
    The major task now is to complete the work for exchanging 
legislative data between the Library and each chamber.
    The target date for completion of this work is the end of 
June.

                          CRS security issues

    Information security issues also remain a high priority 
because of our technical link to Congressional systems and our 
own confidential relationship with you. We are implementing 
recommendations that arose from a 1997 National Security Agency 
study and our own continuing review of the security of all CRS 
systems.

                  public dissemination of CRS products

    Finally, as the subcommittee is aware, legislation has once 
again been introduced to make the entire inventory of CRS 
products on the CRS home page directly available to the public 
via the Internet.
    We appreciate the sponsors' expression of the high regard 
for our products and the usefulness of these products in 
informing the public's understanding of the legislative issues. 
We also appreciate that this year the sponsors have sought to 
address some of the concerns previously identified which would 
adversely affect our ability to service Congress if this 
proposal is implemented.
    However, I consider myself obligated to call to the 
committee's attention certain unintended consequences still 
presented by the current version of these proposals. With the 
committee's permission, I would like to submit for the record 
analyses which focus on the legal issues, costs, and other 
implications of these bills.
    Senator Bennett. Without objection.
    Mr. Mulhollan. Thank you.
    [The statement follows:]
               Prepared Statement of Daniel P. Mulhollan
    Mr. Chairman and Members of the Subcommittee: It is a pleasure to 
appear before you today to discuss the fiscal year 2000 budget request 
for the Congressional Research Service. I first want to thank this 
Subcommittee for the support it has given to CRS in the past and to 
express my gratitude for the confidence you have shown in the Service 
and the close working relationship which you have made possible.
    My testimony presents the CRS budget request for your 
consideration, outlines briefly how your continued support will allow 
us to offer improved services to the Congress, and describes ways in 
which CRS is meeting the changing needs of the Congress by efficient 
and effective use of staff and other resources.
    Mr. Chairman, as we at CRS meet the challenges of the new year and 
take advantage of the opportunities arriving in the new millennium, we 
remain focused on meeting the many needs of the Congress and we remain 
committed to supporting your policy deliberations throughout the 
legislative process. We are dedicated to the values imbued in the 
Service's charter--namely, to provide the Congress with comprehensive 
research, analysis, and information services that are on-time, 
objective, non-partisan, and confidential. We also remain vigilant to 
ensure that we provide cost-effective services to the Congress. As a 
shared resource serving all Members and committees, I believe that CRS 
provides the highest level of legislative assistance economically and 
efficiently.
                           crs budget request
    The budget request I submit today contains only those funds 
necessary to maintain CRS services to the Congress, now and into the 
future. Our request for fiscal 2000 is $71,255,000, an increase of 
$4,131,000 over fiscal 1999. This requested increase has two 
objectives: (1) to sustain current services and cover the increased 
cost of our current staff and nonpersonals, and (2) to fund the second 
year of our three year succession plan for maintaining research 
capacity, preserving the institutional memory, and ensuring continuity 
of service over the next few years, as half of our staff become 
eligible to retire.
    We have made every effort to hold down costs and at the same time 
ensure continued congressional access to our expertise and high 
productivity. Our request for maintaining current services covers 
mandated increases in compensation, namely cost-of-living increases 
($3,424,148) and price level increases in nonpersonals ($147,800).
    The second part of the request will help us ensure that we can 
maintain our research capacity and services to the Congress at a time 
when many of our most expert and experienced staff will retire. The 
funding requested, $559,052, will permit CRS to continue to hire entry 
level staff in anticipation of this large number of retirements. Let me 
assure you that we remain committed to work within our fiscal 1999 
budgeted full-time equivalents.
                      maintaining current services
Analytic and Information Research Expertise
    CRS is the only resource available to the Congress that is 
dedicated to providing balanced, nonpartisan, and confidential policy 
analysis to Members and congressional staff at all stages of the 
legislative process. We have worked hard to ensure that we offer these 
services in the most efficient and effective manner possible. In fiscal 
1998, CRS responded to more than 560,000 congressional requests for 
research, analysis, and information, assisting every Member and 
committee of the Congress. In fiscal 1998, responding to congressional 
needs, CRS created over 1,000 new reports and issues briefs, 
distributed over 632,000 of these documents, and our analysts prepared 
over 2,400 confidential memoranda for the use of individual Members and 
staff.
    Examples of CRS research support during the second session of the 
105th Congress underscore the breadth and range of assistance we 
provide to the Congress. CRS analysts and information specialists 
provided assistance to Members and staff on issues such as banking 
regulatory reform; biomedical research and applications; campaign 
finance reform; changes in clean air mandates; elementary and secondary 
education reform; food regulation and agricultural income support; 
foreign policy and regional issues; impeachment; patient protection 
legislation; and IRS reform.
    I am also pleased to report that the bipartisan leadership asked 
CRS to conduct the official policy orientation for the United States 
Senate, held at the Library in December, and the new Member issues 
seminar for the House of Representatives, held in Williamsburg, 
Virginia in January. Both programs were well attended and by all 
accounts were extremely informative and useful to the new Members.
Management Initiatives
    Recognizing the high expectations of the Congress and its standards 
for excellence, we have launched several initiatives designed to better 
tailor our services to congressional needs and to exploit rapidly 
evolving technology supporting research and communications. CRS strives 
not only to respond expeditiously, but also to deliver its products and 
services in the manner and form that Congress finds most useful. 
Illustrations of this are interdisciplinary team responses to 
legislative requests on particularly complex issues, such as 
presidential impeachment, holocaust victim compensation, terrorism, and 
health care financing; electronic briefing books on the CRS Home Page 
providing quick electronic access to information, analysis, and key 
documents on current issues such as social security reform, the tobacco 
settlement, electric utilities deregulation, and global climate 
control; direct fax deliveries of the weekly CRS Legislative Alert to 
assist in preparing for floor action each week; enhanced access to our 
products through more effective indicators of product contents; and the 
development and testing of CRS legislative planning services to provide 
Congress an easily accessible online source of CRS experts, products, 
and services for issues on the legislative agenda.
    In the next year and continuing into the twenty-first century, the 
Congress will work in an increasingly interdependent, fast-paced 
environment which will generate intensified needs for readily available 
and reliable analysis, research, and information. The Congress likely 
will face several important and distinctive challenges that we have 
seen building in the past few years: growing complexity of legislative 
policy questions, polarization of policy issues, sizeable Member and 
staff turnover, increasing reliance on, and pressure generating from, 
advancements in technology, growing proliferation of information 
resources, and given the devolution of Federal responsibilities to the 
states, the difficulty in obtaining authoritative and comparable state 
data, and continued focus on the budget constraints, with consequent 
pressure for policy initiatives through appropriations or revenue 
changes. CRS is prepared to assist you as you face these challenges.
Technology Initiatives
    Besides commitments to these management initiatives, CRS has made 
some important strides in technological improvements to our existing 
services. New online search capabilities make it possible for 
congressional users to find relevant information more quickly and 
predictably on the CRS Home Page. The number of accessions to the Home 
Page by the Congress has increased from 135,825 to 238,385 in the past 
year, an increase of 75 percent.
    Last year, in addition to creating electronic briefing books, we 
developed more efficient document delivery on the CRS Home Page by 
providing a more complete collection of full-text CRS reports and 
introducing public policy literature abstracts online. We have also 
undertaken an effort to highlight timely CRS products that analyze 
current legislative issues, providing a searchable database with direct 
links to relevant legislation and other CRS products.
    In 1997, CRS began formal planning to prepare for the digital 
conversion issues presented by the year 2000 (Y2K). We undertook a 
comprehensive examination of our systems, with necessary conversions 
and testing scheduled for completion well in advance of the year 2000. 
I can report that all of our ``mission critical'' systems are now 
compliant. We will continue to work with the Library to ensure that we 
meet all requirements under the GAO Year 2000 review of legislative 
branch entities.
    Complementary efforts are under way to provide staff with efficient 
work stations through needed upgrades in hardware and software, network 
enhancement, expanded sharing of data, and improvements in 
communications technology. CRS has given special attention on matters 
related to information security--issues which we are treating as high 
priority, both because of our confidential relationship with you, our 
clients, and because of our technical links to congressional systems.
   developing and maintaining an information and research capability
    In the years since the passage of the Legislative Reorganization 
Act of 1970, CRS has continuously sought to fulfill its mandate ``to 
develop and maintain an information and research capability'' [2 U.S.C. 
166(d)(8)] to perform its responsibilities under that act in supporting 
the legislative work of the Congress. It has done so by building, 
maintaining, and strengthening its research and information capacity 
which covers all the subjects of legislative work undertaken by the 
Congress.
Succession Planning
    In implementing the Legislative Reorganization Act of 1970, CRS 
hired several hundred staff in the 1970's. Many of these staff are 
still in CRS, and have, over the subsequent decades, become the core 
experts on whom Congress relies for research and analysis. Individually 
and collectively they have developed in-depth knowledge of the public 
policy areas they cover and have accumulated valuable institutional 
memory about how the Congress has dealt with these subjects. Eligible 
retirees, many of whom have spent 30 years providing expert policy 
analysis and research to you and your predecessors, will be exceedingly 
difficult to replace.
    Since many of these staff will be retiring soon, CRS will lose 
expertise in a significant number of areas, including public finance, 
social security, health, constitutional law, biomedical policy, natural 
resources policy, macroeconomics, and military personnel. And, by 2006, 
when fifty percent of all current CRS staff will have become eligible 
to retire, the losses will affect virtually every major legislative 
issue area.
    The second circumstance that leads us to make this budget request 
is that between fiscal 1992 and 1998, CRS staffing decreased by 122 
full-time equivalents (FTE's) as a result of government-wide budget 
reductions. Consequently, CRS was unable to fill behind many of the 
resignations, deaths or retirements of its professional staff, and 
therefore does not now have a normal distribution of senior and junior 
staff, which would have provided an orderly transfer of institutional 
knowledge when experts retire.
    In response to the future wholesale loss of senior experts, we have 
developed an ongoing process to assess and address this heightened risk 
to our analytic and research capacity. We conducted a staff survey of 
retirement plans to gain detailed information about the scope of the 
problem, and undertook an assessment of the impact of individual 
retirement plans on overall analytic capacity, by subject area, through 
2006. We also developed a number of strategies to provide more 
flexibility in assigning work to current staff, including details and 
organizational adjustments. However, such measures do not, by 
themselves, address the urgent problem of training replacement staff 
and positioning them to meet your analytic and research needs in time 
to avoid serious disruptions in the quality, level, breadth, and 
timeliness of service.
    Last year, we instituted our multi-year plan designed to ensure 
that CRS can maintain its analytic expertise despite the retirement of 
significant numbers of CRS staff now and continuing in the near future. 
The plan provides for hiring a limited number of new staff in key issue 
areas before experts retire. This will enable current staff to transfer 
institutional memory on issues, knowledge of the legislative process, 
and commitment to CRS service qualities of confidentiality, 
objectivity, timeliness, accuracy, and responsiveness, and to assist 
new staff in developing trust relationships with clients. In fiscal 
1999, Congress provided $435,858, which allows CRS to use the Graduate 
Recruit and Law Recruit Programs and begin hiring in some of the 
highest risk areas. For fiscal 2000, CRS is requesting $559,052 for 
phase two, to permit filling positions in additional high risk areas.
    To work independently, entry-level staff, who are already well-
trained in their disciplines, must acquire and refine skills and 
ability to (1) understand the legislative/budget procedures as 
practiced; (2) examine issues from an unbiased, nonpartisan 
perspective; (3) present analysis and research in a manner and form 
that best meets the clients' legislative needs; and (4) develop and 
maintain contacts with subject experts in academia, government 
agencies, and elsewhere.
    Newly hired staff work closely with senior analysts in an 
apprenticeship capacity, whereby the senior staff can share their 
knowledge and experience in their discipline within the legislative 
context. CRS found during the period since the 1970 Legislative 
Reorganization Act that it takes a number of years for an entry level 
analyst to develop subject expertise and knowledge of the legislative 
environment in order to handle complex issues in the thorough, 
confidential and timely manner of a senior analyst.
Realignment--Deploying Resources Strategically
    In addition to our succession efforts, we have undertaken a large 
scale redeployment of CRS staff resources to secure the capacity of our 
research and analysis for future Congresses.
    Planning for this effort included meeting with House and Senate 
leadership and with individual Members to discuss the work of the 
Service and how it could better meet their needs, soliciting input from 
CRS staff on a wide range of issues, examining CRS workload and 
distribution of work, assessing implications of potential loss of 
expertise through retirement and succession planning to deal with such 
losses, and identifying strategic issues and implications for CRS of 
the changing characteristics of the Congress. Throughout these 
discussions and evaluations the Service emphasized the importance of 
maintaining high-quality responses to congressional requests, 
strengthening interdisciplinary interchanges among CRS staff to improve 
those responses, and enhancing communications between CRS and the 
Congress as well as within CRS itself. Implementation of this 
realignment of our staff resources follows an agreement with the 
Congressional Research Employees Association (International Federation 
of Professional and Technical Engineers, Local 75), to resolve concerns 
about the realignment.
    This initiative aligns our staff resources more closely to the 
legislative needs of the Congress by clustering experts and their 
subject responsibilities around major public policy issue areas, 
broadening the policy context of research units, refining the focus on 
the current legislative agenda of the Congress, and streamlining 
research management.
    In addition to the succession initiative and the realignment, we 
are undertaking a number of important activities to build research 
capacity within current resources. Examples of these include: 
establishment of professional development details for CRS staff; 
institution of a visiting scholars program to bring temporarily to CRS 
respected experts who work in emerging issue and discipline areas; 
operation of professional volunteer programs using gratuitous services 
contracts; and use of contracts to perform tasks for the Congress 
requiring knowledge and skills not resident in the Service and not 
needed on a long-term basis.
 special congressional directives: legislative information system (lis)
    Mr. Chairman, as you know, CRS has been tasked to coordinate the 
development of an online retrieval system to meet the requirements of 
both the Senate and the House for the most accurate, up-to-date, and 
complete legislative information available. The Library has been tasked 
to provide the technical support for the development of that system.
    The initial impetus for this effort came from the Committee on 
Appropriations, which directed the Library to study duplication among 
the various bill tracking systems maintained by the House, Senate, GPO, 
and the Library. Subsequently, the Senate Committee on Rules and 
Administration and the Committee on House Administration approved a 
plan for each chamber to be responsible for the creation and management 
of its own legislative information, and for a coordinated retrieval 
system to be developed and maintained by CRS and the Library.
    During 1998, CRS and the Library completed the major tasks approved 
by the oversight committees. These efforts focused on adding 
legislative files and much of the retrieval functionality required by 
new and occasional congressional users as well as by expert users. 
Significant work was also begun on improving system availability, 
response time, and security. Major collaborative efforts with the 
Senate and House were undertaken to begin planning for development of 
Y2K-compliant systems for the exchange of data.
    In 1999 our primary focus will be on ensuring that the requirements 
for Y2K are fully addressed. The LIS retrieval software has already 
been successfully tested by the Library. The major task now confronting 
us is to complete the work begun last year on the systems for 
exchanging legislative data between the Senate and the Library and 
between the House and the Library. In the Senate, we are working 
closely with the Secretary of the Senate and the Sergeant At Arms to 
ensure that this work is completed on schedule. In the House, we are 
working closely with the Clerk of the House and the Chief 
Administrative Officer. The target date for completion of this work by 
the Senate, House and Library is the end of June.
    During fiscal 2000, CRS will work on LIS tasks which were deferred 
in order to take care of immediate Y2K concerns, and others which will 
depend upon the satisfactory completion of the 1999 tasks, as well as 
any additional requirements which emerge from the House and Senate. CRS 
and the Library are uniquely qualified to play this role for the 
Congress. While LIS development has placed a strain on CRS resources, 
we have to date been able to accomplish these tasks and meet evolving 
requirements utilizing existing staff. We expect to be able to continue 
to do so. Our realignment formally recognizes our long-term commitment 
to developing and improving the LIS by institutionalizing the LIS 
function within our Office of Information Resources Management.
           distribution of crs written products to the public
    Once again this year legislation has been introduced to make the 
entire inventory of CRS products on the CRS Home Page directly 
available to the general public via the Internet. We certainly 
appreciate this expression of the high regard of the sponsors for CRS 
products and their usefulness of these products in informing the 
public's understanding of legislative issues before the Congress. We 
also appreciate that this year the sponsors have sought to address some 
of the concerns which were identified and which would adversely affect 
our ability to serve Members and committees if this proposal is 
implemented. However, I consider myself obligated to call to the 
Committee's attention certain unintended consequences still presented 
by the current version of these proposals. With the Committee's 
permission I would like to submit for the record analyses which focus 
on the legal issues, costs, and other implications of these bills, 
which are attached to my testimony. In particular, you will note that 
the preliminary estimate by the Congressional Budget Office found that 
last year's proposal could cost CRS as much as $7 million each year; 
the current bills do not alter the assumptions on which that estimate 
is based.
                               conclusion
    Mr. Chairman, I fully appreciate the budgetary constraints 
confronting this Subcommittee as it crafts the appropriation for the 
Legislative Branch, and it is for that reason that our request is 
limited to the funds essential to sustain our current efforts. Our 
highest priority is to provide the Congress with efficient, cost-
effective support that meets your highest standards for quality, 
comprehensiveness, accuracy, objectivity, and nonpartisanship.
    I am committed to ensuring that CRS is a key resource to the 
Congress for analytic and information support for its legislative 
activities in the demanding years ahead. Its singular combination of 
expertise, its strong interdisciplinary approach to addressing complex 
legislation, its sensitivity to and understanding of the congressional 
environment, its commitment to nonpartisanship, its access to a wealth 
of data and sources, and its information technology environment 
uniquely position the Service to assist the Congress as it faces the 
challenges of the last days of the twentieth century and well into the 
twenty-first century.
    Thank you for allowing me to come before you and other members of 
this committee today to present our budget request, share some of our 
recent accomplishments, and outline our plans for the upcoming years.
                                 ______
                                 
    Congressional Policy Concerning the Distribution of CRS Written 
                 Products to the Public--March 9, 1999
    The following discussion reviews congressional policy concerning 
distribution of CRS products to the public and addresses issues for 
consideration by the Congress in determining whether to alter current 
policy regarding public availability of various CRS products, such as 
Reports and Issue Briefs.
    As set forth below, CRS at present is precluded by law from general 
public distribution of its materials without prior approval by a 
congressional oversight committee. The Congress has actively exercised 
its oversight authority regarding CRS publication practices and has 
developed and promulgated standards to be applied in evaluating 
specific proposals. Current guidelines from the Joint Committee on the 
Library and other congressional bodies, issued in 1980, restrict the 
vast majority of CRS written products to congressional use and 
distribution to the public on a selective basis only.
    Many years of congressional consideration of this issue reveal 
serious concerns about the institutional and legal consequences likely 
to result from the wholesale direct public distribution of CRS products 
with a potentially large circulation (e.g., CRS Reports and Issue 
Briefs).
background on current congressional policy concerning the distribution 
                 of crs written products to the public
Summary
    Congress has historically reserved to itself control over the 
dissemination of CRS products to the public on the principle that CRS, 
as an extension of congressional staff, works exclusively for the 
Congress.
    To maintain congressional control over dissemination, a provision 
has been included in CRS annual appropriations acts since fiscal year 
1952 requiring prior oversight committee approval for any CRS 
publication (as noted above, ``publication'' refers to wholesale 
release of CRS products directly to the public).
    Congress has never authorized the wholesale public dissemination of 
CRS analytical products such as Reports or Issue Briefs (and has seldom 
authorized publication of other products), whether by CRS or the 
Congress, but rather has preferred to rely on congressional release of 
individual products on a case-by-case basis.
    To further indicate the degree of congressional control over CRS 
products, Congress, the courts, and administrative tribunals have 
declared CRS communications to the Congress to be privileged under the 
Speech or Debate Clause of the Constitution and to be under the custody 
and control of the Congress. These determinations have assured the 
maintenance of confidentiality in CRS relationships with congressional 
clients, a critical element of CRS effectiveness and an expectation of 
those who seek its assistance.
Current Restrictions and Guidelines
    At present, CRS is precluded by law from general public 
distribution of its materials without prior approval by one of its two 
congressional oversight committees. This restriction results from a 
limitation that has appeared in CRS' annual appropriations acts in each 
year since fiscal year 1952. This provision reads as follows: 
``Provided, That no part of this appropriation may be used to pay any 
salary or expense in connection with any publication, or preparation of 
material therefor (except the Digest of Public General Bills), to be 
issued by the Library of Congress unless such publication has obtained 
prior approval of either the Committee on House Oversight or the Senate 
Committee on Rules and Administration.'' \1\
---------------------------------------------------------------------------
    \1\ For the current version of this provision, see Pub. L. 105-55, 
111 Stat. 1190 (1997).
---------------------------------------------------------------------------
    The most recent policy statement from Congress regarding the 
publication of CRS written products came in 1980. In a communication, 
dated March 21, 1980, the Joint Committee on the Library reaffirmed: 
``Congressional policy that the circulation of CRS materials prepared 
specifically for congressional use be limited to the Congress, and that 
the long-standing policy of confidentiality in the work of CRS for 
individual congressional clients should be maintained. We believe that, 
as in the past, CRS and its oversight committees should consider the 
publication of only those CRS products whose release to the general 
public would be compatible, both in terms of cost and product content, 
with the CRS's obligations to the Congress.''
    The 1980 guidelines were developed subsequent to a 1978 proposal to 
CRS by the National Conference of State Legislatures (NCSL) under which 
CRS would have received access to the files of State research materials 
abstracted by the NCSL, and also would have had the opportunity to 
order copies of desired items for use in answering congressional 
inquiries. In return, CRS would have provided the NCSL with periodic 
listings of CRS Reports (called ``multiliths'' at that time) and with 
only one copy of those CRS Reports which the NCSL requested. Under this 
proposal the NCSL also would have gained access to certain files from 
the Library of Congress's SCORPIO system, including CRS Issue Briefs.
    On September 27, 1978, the Joint Committee on the Library held a 
hearing to consider the CRS-NCSL exchange proposal. At the hearing, the 
Committee concluded that any transmission of CRS material contained in 
SCORPIO to non-congressional users via computer terminal would 
constitute a ``publication'' and thus, under the terms of the language 
contained in CRS's annual appropriations legislation (noted above) 
would require the prior approval of either the Committee on House 
Administration or the Senate Committee on Rules and Administration. 
Moreover, members of the Joint Committee expressed serious reservations 
about any activity that might divert CRS resources and priorities from 
its statutory responsibilities to Congress. Finally, members of the 
Committee expressed the view that it was appropriate for Members of 
Congress, rather than CRS, to determine whether and to what extent 
various CRS products should be publicly disseminated. As a result, no 
action was taken to implement the proposed CRS-NCSL exchange.
    The March 21, 1980 guidelines were followed later that month (March 
27, 1980) by enactment of a Senate Resolution. (S. Res. 396, 96th 
Congress). The Senate resolved: ``That it is the determination of the 
Senate that the communications of the Congressional Research Service to 
the members and committees of the Congress are under the custody and 
control of the Congress and may be released only by the Congress, its 
Houses, committees and members, in accordance with the rules and 
privileges of each House.'' \2\
---------------------------------------------------------------------------
    \2\ 126 Cong. Rec. 6892 (March 27, 1980). This Senate Resolution 
directed the Senate Legal Counsel to represent the Senate and CRS in 
respect to a Federal Trade Commission administrative law judge's 
``sweeping subpoena [on behalf of oil companies involved in a FTC 
proceeding] to the Congressional Research Service for documents which 
discuss the oil industry and governmental policy in relation to it.'' 
Id. The Resolution stated that ``the communications between the 
Congressional Research Service and the members and committees of the 
Congress are an integral part of the legislative process and privileged 
under the Speech or Debate Clause of the Constitution.''
---------------------------------------------------------------------------
    Senate Majority Leader Byrd, in introducing the Resolution, noted 
CRS' role in advising members and committees on legislative issues and 
that CRS ``thereby provides a service to the Members and committees of 
Congress which is equivalent to that performed by the staffs of Members 
and committees.'' \3\
---------------------------------------------------------------------------
    \3\ Id.
---------------------------------------------------------------------------
    Over the years, and at the request of CRS, the Joint Committee on 
the Library has authorized a very limited number of CRS publications 
for broader distribution through depository libraries, the sales 
program of the Superintendent of Documents, and to the public through 
individual purchases. In addition, several CRS products are published 
as the result of specific statutory authorization: the Digest of 
General Public Bills and Resolutions (Bill Digest); \4\ and three 
publications for which CRS has been given responsibility by the 
Librarian of Congress: the Constitution of the United States of 
America, Analysis and Interpretation (Constitution Annotated); \5\ and 
the national high school and college debate topic manuals.\6\
---------------------------------------------------------------------------
    \4\ 2 U.S.C. 166(d)(6).
    \5\ 2 U.S.C. 168.
    \6\ 44 U.S.C. 1333.
---------------------------------------------------------------------------
Current Accessibility of CRS Written Products
    With few exceptions, congressional offices are the exclusive source 
for distributing CRS Reports and Issue Briefs to the public. Member 
offices use CRS products to develop their own understanding of policy 
issues and options and to inform their constituents regarding these 
issues and options. The principles of representative government and of 
legislative accountability hold that representatives have an obligation 
to provide their constituents with the information and understanding 
required in order to exercise democratic citizenship; that is, the 
democratic idea that the authority of those who govern rests on the 
consent of those who are governed, calls for democratic consent to be 
fully informed and enlightened.
    It is well known, both in Washington, D.C. and by interested 
parties throughout the country, that constituents may obtain copies of 
CRS written products through a Member or Committee of Congress. In 
addition, congressional offices often respond directly to constituent 
requests for information on particular subjects by sending copies of 
CRS Reports and Issue Briefs. For example, during fiscal year 1998, 
over 500,000 printed copies of CRS Reports and Issue Briefs were sent 
to congressional offices. Some percentage of these are sent on to 
constituents--either because constituents asked for them specifically 
or as a means of answering constituent requests for information.\7\
---------------------------------------------------------------------------
    \7\ CRS has not undertaken to survey congressional offices to 
determine this precise percentage.
---------------------------------------------------------------------------
    Three changes during the past year have enhanced Members' and 
Committees' ability to make CRS products available to constituents in 
electronic format through congressional home pages. First, CRS has more 
than doubled the number of CRS products available in the popular 
hypertext (HTML) World Wide Web format. Over the past year, several 
hundred CRS reports have now joined issue briefs in being made 
available in HTML format. Second, CRS has made all CRS documents 
available in portable document format (PDF). This special format allows 
Members to easily print high-quality, professional-looking copies of 
any CRS product from their own offices at any time.
    Third, CRS has greatly simplified finding the right CRS product 
online. The Legislative Information System now carries a direct link to 
all CRS products. And, new CRS search pages and changes in the search 
technology applications allow Members and Committees and staff to more 
readily locate the CRS products they need. This upgrade makes it easier 
for Members and Committees to add Issue Briefs and Reports to their own 
home pages for their constituents to the extent such availability is 
deemed appropriate by Members and Committees.
  issues associated with the wholesale release of crs products to the 
                                 public
Institutional Issues
    The direct, wholesale dissemination by Congress of Reports and 
Issue Briefs would have significant effects on the policies, resources, 
and institutional culture that CRS utilizes in serving the Congress.
    First, CRS' mission is to support the Congress exclusively. Given 
its limited resources, CRS can undertake services to non-congressional 
entities (such as the public) only at the expense of direct support of 
the Congress. While the direct and indirect costs associated with 
disseminating Reports and Issue Briefs are difficult to estimate with 
precision, it is clear that significant resources would have to be 
diverted from congressional services. For example, with wider product 
distribution, particularly to users of the Internet/World Wide Web, CRS 
is more likely to get calls, comments, and requests for additions and 
changes that would place a burden on CRS analysts, distracting them 
from their work for Congress. In particular, outside parties may judge 
and question CRS papers on the basis of standards other than the 
standards CRS has developed to meet congressional needs (e.g., 
timeliness, non-partisanship, balance, objectivity). It is reasonable 
to anticipate that the volume of communications between CRS and the 
public, currently manageable, would rise substantially and affect the 
Service's ability to meet the needs of congressional requester. Any 
mechanisms developed by CRS to shield analysts from these demands would 
of course also involve resource commitments.
    Second, CRS analysts now direct their writings, focused on 
legislative issues, to congressional audiences. The closeness of CRS to 
the legislative process and the sensitivity of the Service's 
traditional culture of exclusively supporting Congress' legislative 
needs shape the nature and content of its written products. If CRS 
written products were routinely available on a wholesale basis to 
academic and other professional peers outside the Congress, CRS 
analysts might become more conscious of the need to address views, 
methods, disciplines, and expectations of non-congressional 
professional peers, with the result that CRS written work could shift 
away, or appear to shift away, from its current emphasis on the 
congressional audience.
    With an awareness that a CRS Report would be disseminated to the 
public, Members may increase the number of confidential requests that 
they place with CRS in order to ensure that they are provided an 
opportunity--should they so desire--to reflect and consider questions 
that emerge from evolving legislative proposals before they have to 
respond to public inquiry about the resulting issues. This increase in 
confidential requests requiring more tailored responses would diminish 
the ability of CRS analysts to prepare reports that are generally 
available to Congress and that serve a broader congressional audience. 
With this increase in tailored analysis would come the necessity of 
duplicating more analysis because of the demand of those Members who 
request that their examination of a legislative proposal remain 
confidential at that point in the legislative process.
    A third, related concern is potentially increased pressure from 
interest groups and lobbying organizations on CRS analysts concerning 
the content of their reports and the impact this pressure may have on 
serving the direct needs of the Congress for analysis and information 
that is non-partisan, objective, and balanced. Enhanced internal 
mechanisms would have to be developed to ensure that communications 
with interested parties did not deflect CRS analysts from producing 
products that are free from advocacy and bias, resulting in a further 
diversion of resources from direct service to Congress.
    Fourth, CRS staff serve by statute as an extension of Member and 
committee staff. The release by Congress of CRS Reports and Issue 
Briefs may set a precedent leading to greater pressure to have studies 
prepared by congressional staff for Members' exclusive use (e.g., 
committee staff studies distributed to entire committee membership) to 
be disseminated directly to the general public. It might be difficult 
for Congress to articulate a convincing rationale for granting public 
access to the Service's work but denying equivalent access to materials 
prepared by other shared staff (e.g., committee staff) that are 
distributed to more than one Member. Thus, a policy of providing 
Members' constituents with the same materials that Members themselves 
draw upon to make legislative decisions could have serious implications 
for the functions of staff and their relationship with Members.
Legal Issues
    This section considers three pertinent legal issues associated with 
the wholesale dissemination of CRS products to the public. The first 
two issues involve the speech or debate clause of the Constitution and 
the third deals with intellectual property questions.
    1. Widespread electronic dissemination to the general public of CRS 
Reports and Issue Briefs would be more likely than dissemination 
pursuant to current policy to precipitate litigation in which speech or 
debate clause immunity would not be a defense.
    Since its 1972 ruling in United States v. Brewster, the Supreme 
Court has limited the immunity afforded under the speech or debate 
clause \8\ to ``legislative acts,'' which were distinguished from a 
range of activity described as ``entirely legitimate'' but unprotected 
by the speech or debate clause because it was considered to be 
``political in nature.'' \9\ In several cases relevant to the 
applicability of speech or debate immunity to the public distribution 
of CRS products, the Court has relied on the dichotomy established in 
Brewster to hold that congressional activities intended to inform the 
general public are outside the scope of the speech or debate clause. 
Notably, in Doe v. McMillan, the Court found that the clause might not 
protect the Public Printer and the Superintendent of Documents from 
liability for distribution of a committee report, which contained 
material alleged to have invaded individual privacy rights, beyond 
``the legitimate legislative needs of Congress * * *.'' \10\
---------------------------------------------------------------------------
    \8\ U.S.Constitution, Art. 1, Sec.  6, clause 1.
    \9\ 408 U.S. 501, 509, 512 (1972).
    \10\ Doe v. McMillan, 412 U.S. 306, 324 (1973). The Court remanded 
for a determination as to whether the extent of distribution by the 
Public Printer and the Superintendent of Documents had exceeded ``the 
legitimate legislative needs of Congress, and hence the limits of 
immunity.'' Id. On the remand, the lower courts upheld the claim of 
immunity as to the Public Printer and Superintendent of Documents (374 
F. Supp. 1313 (D.D.C. 1974), aff'd, 566 F.2d 713 (D.C.Cir. 1977), cert. 
denied, 435 U.S. 969 (1978)), but the court of appeals expressly 
reserved the question of the availability of immunity ``in a case where 
distribution was more extensive * * *.'' 566 F.2d at 718. Apparently 
the only copies distributed outside the federal government in the 
events that precipitated the suit in McMillan were approximately 172 of 
796 copies that had been distributed to various federal agencies.
---------------------------------------------------------------------------
    The dissemination (by Members and/or their aides, by CRS, or by a 
congressionally designated entity) to the general public of CRS 
products would not be viewed as a legislative act but would be 
considered to be an exercise of Congress' representational function, 
for which speech or debate immunity is not available.\11\ Those engaged 
in public distribution of CRS products, as well as CRS analysts who 
prepare the products, may be vulnerable to a variety of administrative 
and judicial proceedings. In such actions, litigants might seek, for 
purposes of discovery, the files of CRS analysts or litigants might ask 
for damages or injunctive relief barring further distribution of a 
particular report or issue brief. Litigants might also claim damages in 
suits alleging copyright infringement.
---------------------------------------------------------------------------
    \11\ See, e.g., Doe v. McMillan, supra; Hutchinson v. Proxmire, 443 
U.S. 111 (1979).
---------------------------------------------------------------------------
    It would seem that these kinds of actions would be more likely to 
occur as a result of widespread electronic dissemination to the general 
public of CRS products than from the current practice of limited 
distribution (e.g., dissemination by a congressional office of a single 
hard copy of a particular CRS product to a constituent or incorporation 
of a CRS product in a committee report or hearing).
    2. Widespread electronic public dissemination of CRS products would 
jeopardize the confidentiality of CRS files and hamper a claim of 
constitutional immunity by CRS.
    Widespread electronic circulation of CRS products to the general 
public could set CRS on a course accompanied by uncertain legal 
consequences.\12\
---------------------------------------------------------------------------
    \12\ As one legal journal has observed, in addressing the Internet 
and other computer-related issues, the courts are on ``uncharted 
water.'' Thou Shalt Not Trespass--Even in Cyberspace, New Jersey 
Lawyer, Sept. 1, 1997, at p. 10.
---------------------------------------------------------------------------
    An inevitable consequence of widespread distribution of CRS 
products to the general public would be an increase in public awareness 
of the research and analysis prepared by the Service for Congress, 
which could escalate the efforts of litigants to obtain, for purposes 
of discovery, CRS analysts' files. These discovery attempts might seek 
not only information and data used to develop CRS Reports and Issue 
Briefs but also related material from the Service's files.
    Speech or debate immunity may provide a valid defense in such 
discovery proceedings if the subject of the proceedings is a protected 
legislative act.\13\ However, it is noted that, even in those cases in 
which CRS succeeded in defending against discovery efforts, the 
litigation would place a burden on CRS and other congressional 
resources \14\ and could put judges in the position of arbitrating 
disputes concerning the confidentiality of communications between CRS 
and Congress.\15\ Claims of speech or debate immunity would be subject 
to review by the courts, potentially including in camera inspection of 
material as to which a claim of privilege is made \16\ and segregation 
of protected from non-protected material.\17\ Arguably, this type of 
judicial sifting of legislative branch materials would impinge upon the 
interest in confidentiality served by the speech or debate clause.\18\
---------------------------------------------------------------------------
    \13\ See, e.g., Brown & Williamson Tobacco Corp. v. Williams, 62 
F.3d 408 (D.C.Cir. 1995) .
    \14\ Discovery attempts to obtain CRS file materials have often 
been defended by the offices of House General Counsel or Senate Legal 
Counsel. See, e.g., S. Res. 291, 101st Cong. (resolution directing 
Senate Legal Counsel to represent a CRS attorney in Smith v. IRS, No. 
3778-89 (Tax Ct. 1990)).
    \15\ See In re Grand Jury Investigation, 587 F.2d 589 (3d Cir. 
1978); United States v. Eilberg, 507 F. Supp. 267 (E.D.Pa. 1980).
    \16\ See, e.g., Benford v. American Broadcasting Co., 98 F.R.D. 42 
(D.Md. 1983), rev'd on other grounds sub nom. In Re Guthrie, 733 F.2d 
634 (4th Cir. 1984).
    \17\ See, e.g., United States v. Helstoski, 442 U.S. 477, 488 n.7 
(1979).
    \18\ The courts are divided on the question of whether the speech 
or debate clause was intended to ensure confidentiality for 
legislators. Compare Brown & Williamson Tobacco Corp., 62 F.3d at 420 
with In re Grand Jury Investigation, 587 F.2d at 597.
---------------------------------------------------------------------------
    Further, for two reasons, it is uncertain whether Congress would 
prevail in litigating such matters. First, it is possible that a court 
would not precisely differentiate among the information in the 
superficially similar types of documents in a CRS subject file and 
would grant litigants access not only to publicly available information 
but also to confidential communications between the Service and 
congressional offices. Second, in previous instances in which CRS has 
been involved in litigation or agency proceedings, the judicial or 
agency decision has emphasized that CRS performs a legislative function 
and that its staff functions as an adjunct of Member and committee 
staff.\19\ With wider dissemination of CRS products to the general 
public, this longstanding perception of the Service and the nature of 
its communications to the Congress could be altered, eventually putting 
at risk speech or debate protection for the Service's confidential 
work. In other words, extensive involvement by CRS in the direct public 
information function could lead courts and administrative agencies to 
reconsider their perception of CRS as playing a significant and unique 
support role in the legislative process, and thus some day might hamper 
a claim of immunity even in an instance in which CRS was fulfilling its 
legislative function.\20\ 
---------------------------------------------------------------------------
    \19\ See Webster v. Sun Oil, 731 F.2d 1 (D.C.Cir. 1984) and 790 
F.2d 157 (D.C.Cir. 1986) (communications to CRS analyst are within 
scope of common law privilege for communications to a legislative 
body); In re Exxon Corporation, 95 F.T.C. 919 (1980) (FTC subpoena for 
CRS documents barred by speech or debate immunity and separation of 
powers doctrine; CRS performs an ``essentially legislative function'').
    \20\ See, Doe v. McMillan, note 9, supra.
---------------------------------------------------------------------------
    3. There is some risk of assertion of copyright infringement if CRS 
materials are made available online to members of the general public.
    United States copyright protection is not available for U.S. 
Government works.\21\ Those portions of a public document authored by 
the U.S. Government are in the ``public domain''--freely and widely 
available to the public without restrictions placed on their 
dissemination. However, the government's inclusion of copyrighted 
material in a government publication does not thrust that material into 
the public domain or impair the rights of the copyright owner.\22\
---------------------------------------------------------------------------
    \21\ 17 U.S.C. Sec.  105.
    \22\ The legislative history of the Copyright Act contains the 
following statement: ``The committee here observes: (1) there is 
nothing in section 105 that would relieve the Government of its 
obligation to secure permission in order to publish a copyrighted work; 
and (2) publication or other use by the Government of a private work 
would not affect its copyright protection in any way.'' H.R. Rep. No. 
1476, 94th Cong., 2d Sess. 60 (1976).
---------------------------------------------------------------------------
    CRS may incorporate preexisting material in its written responses 
to congressional requests. Although such material is often from public 
domain sources, in certain instances the material, appropriately 
credited, may be from copyrighted sources. To the extent that the 
material is copyrighted, CRS either: obtains permission for the use; 
\23\ considers its information-gathering function protected by the 
speech or debate clause; or believes that the use falls under the 
``fair use'' doctrine of the Copyright Act \24\ as applied in the 
context of the legislative process.
---------------------------------------------------------------------------
    \23\ Although CRS obtains permission to reproduce certain 
copyrighted works, the permissions are generally based on legislative 
use and the expectation that dissemination is limited to Members of 
Congress.
    \24\ Copyright Act of 1976, Act October 19, 1976, Pub. L. No. 94-
553 (codified as amended at 17 U.S.C. Sec. Sec.  101 et seq.). See 17 
U.S.C. Sec.  107.
---------------------------------------------------------------------------
    The exclusive rights \25\ of the copyright owner are qualified or 
limited by enumerated exceptions.\26\ Unless excused by a statutory 
exception, the unauthorized use of a copyrighted work is considered an 
infringement. Fair use is one of the limitations on the copyright 
owner's exclusive rights and may be invoked as an affirmative defense 
to a claim of copyright infringement.
---------------------------------------------------------------------------
    \25\ 17 U.S.C. Sec. Sec.  106, 106A.
    \26\ 17 U.S.C. Sec. Sec.  107-120.
---------------------------------------------------------------------------
    The copyright statute does not expressly include congressional use 
of copyrighted works as a fair use. However, both the House and Senate 
Reports on the Copyright Act of 1976 include the ``reproduction of a 
work in legislative or judicial proceedings or reports'' among examples 
of fair use.\27\ The legislative history also contains an observation 
that publication of copyrighted material in Congressional documents 
would constitute fair use ``[w]here the length of the work or excerpt 
published and the number of copies authorized are reasonable under the 
circumstances, and the work itself is directly relevant to a matter of 
legitimate legislative concern * * *.'' \28\
---------------------------------------------------------------------------
    \27\ See H.R. Rep. No. 1476, 94th Cong., 2d Sess. 65 (1976); S. 
Rep. No. 473, 94th Cong., 1st Sess. 61-62 (1975) quoting REPORT OF THE 
REGISTER OF COPYRIGHTS ON THE GENERAL REVISION OF THE U.S. COPYRIGHT 
LAW, 87th Cong., 1st Sess. 24 (Comm. Print 1961) (hereafter REGISTER'S 
REPORT).
    \28\ See H.R. Rep. No. 1476, Id. at 73.
---------------------------------------------------------------------------
    Thus, in an infringement action, a court might regard the 
publication of copyrighted material in a Congressional document for 
legitimate legislative purposes as a ``fair use.'' If, however, the use 
is outside of such legislative purposes, it is possible that a 
traditional fair use analysis might result in liability for copyright 
infringement. Wider dissemination outside the confines of Congress 
would further complicate the ``fair use'' question.\29\
---------------------------------------------------------------------------
    \29\ Moreover, if CRS products were generally available to the 
public, the construction of these products may be affected, with the 
potential consequent loss when material, such as copyrighted maps or 
graphs, may be withheld in the writing of the paper with the 
foreknowledge that the paper could be widely disseminated and thereby 
subject to different ``fair use'' guidelines than those applicable to 
work for legislative use only. Therefore, public availability may 
perforce shape selected CRS products so that their contents no longer 
bring to bear the best information and analysis to assist Members in 
their decisionmaking.
---------------------------------------------------------------------------
    The copyright laws do not contain an exemption from copyright 
infringement for unauthorized use of copyrighted materials by the U.S. 
Government. Subsection 1498(b) of Title 28 of the U.S. Code provides 
that the exclusive remedy of a copyright owner for copyright 
infringement by the United States is an action against the United 
States in the U.S. Court of Federal Claims ``for the recovery of * * * 
reasonable and entire compensation * * * including the minimum 
statutory damages * * *.'' Speech or debate clause immunity is not 
waived under Sec.  1498(b); however, activities outside of the 
legislative sphere would not be shielded from a copyright infringement 
action.\30\
---------------------------------------------------------------------------
    \30\ As originally enacted, Sec.  1498 applied only to suits for 
patent infringement against the United States. In 1960, Congress 
amended Sec.  1498 to give its consent to suits for copyright 
infringement against the United States; Section 2 of Pub. L. 86-726 
provided: ``Nothing in this Act shall be construed to in any way waive 
any immunity provided for Members of Congress under article I of 
section 6 of the Constitution of the United States.''
    Section 2 was added to the House bill by Senate amendment in order 
``to emphasize the fact that no immunities for Members of Congress 
under article I of section 6 of the Constitution shall be waived by the 
enactment of this legislation.'' See S. Rep. No. 1877, 86th Cong., 2d 
Sess. (1960) as reprinted in 1960 U.S.C.A.A.N. 3444. Presumably, speech 
or debate clause protection would protect Congressional use of 
copyrighted material that is used to further legitimate legislative 
activities that are part of the legislative processes (e.g., 
copyrighted material inserted into the Congressional Record or 
congressional document). See Copyright Office Memorandum of May 26, 
1958 reprinted in 1960 U.S.C.A.A.N. at 3456. Congress did not waive its 
speech or debate clause immunity when it amended Sec.  1498. However, 
insofar as activities outside of the legislative sphere (e.g., 
political activities or public information activities) are concerned, 
it would appear that Sec.  1498(b) would not shield Congress from a 
copyright infringement action.
---------------------------------------------------------------------------
    In summary, where permission has been granted to CRS to use 
copyrighted material, it has likely been based on legislative purpose 
and limited to selective distribution of hardcopy by Members of 
Congress. If access is broadened to wholesale release to members of the 
general public, such release may be outside the scope of ``legitimate 
legislative purpose.'' If a CRS product, containing substantial 
copyrighted material (albeit with appropriate credit) is made available 
to the general public without permission and outside the confines of 
traditional fair use, liability is possible. In this regard, 
distinctions can be made between the selective distribution of hardcopy 
CRS products by Members and Committees and wholesale, potentially 
world-wide distribution of CRS products on the Internet. Violation of 
any of the exclusive rights of the copyright owner may give rise to an 
action for copyright infringement. Although the extent of copyright 
owners' rights in the online environment is still evolving, wholesale 
distribution of CRS products via the Internet--unlike the current 
practice--would likely implicate copyright owners' performance and 
public display rights, \31\ as a matter of direct infringement, and may 
implicate rights of reproduction and public distribution \32\ either as 
a matter of direct, vicarious or contributory infringement. On the 
other hand, under a ``fair use'' analysis, there is likely less effect 
upon the potential market of the copyright owner in the case of 
selective hardcopy distribution than in the case of wholesale 
distribution on the Internet. Selective distribution of hardcopy CRS 
products by Members may not constitute ``publication'' in the copyright 
sense.\33\
---------------------------------------------------------------------------
    \31\ 17 U.S.C. Sec. Sec. 106(4),(5).
    \32\ 17 U.S.C. Sec. 106(1), (3).
    \33\ 17 U.S.C. Sec. Sec. 101,106(3).
---------------------------------------------------------------------------
                               conclusion
    To review, Congress has historically regarded CRS as an extension 
of its own Member and committee staff. CRS' relationship with Congress 
is confidential and exclusive; in order to preserve this relationship, 
Congress has determined as a matter of policy that CRS products are to 
be distributed to non-congressional users through congressional offices 
on a selective basis. Proposals to disseminate CRS products directly to 
the public would fundamentally change this longstanding congressional 
policy, with potentially significant institutional and legal 
consequences for CRS and current congressional operations and 
practices.
                                 ______
                                 
  Legal Issues Presented by Proposals for the General Release of CRS 
               Products to the Public--February 24, 1998
    This paper considers significant legal issues implicated by 
proposals involving the general release of Congressional Research 
Service (CRS) products such as Reports and Issue Briefs. (Issues of 
policy and technology posed by the general release of CRS products are 
beyond the scope of this analysis.) Specifically, attention is given to 
three pertinent legal issues, the first two involving the Speech or 
Debate Clause and the third dealing with intellectual property 
questions. This study assumes that CRS products would be published by 
CRS itself and identifies adverse legal consequences that would result 
from such publication. Publication of CRS products by the Congress 
would have corresponding legal consequences but these would be 
exacerbated in the case of direct public dissemination by CRS 
itself.\1\
---------------------------------------------------------------------------
    \1\ This study addresses, inter alia, issues relating to the speech 
or debate clause that were raised in the statement of Senator McCain 
upon introduction of S. 1578, 105th Cong. (providing that the Director 
of CRS is to make specified CRS products, including Reports and Issue 
Briefs, available on the Internet) and in a letter inserted by Senator 
McCain in the Congressional Record from Stanley Brand, former General 
Counsel to the House of Representatives (hereafter, Brand letter). 144 
Cong. Rec. S123-25 (daily ed. Jan. 28, 1998).
---------------------------------------------------------------------------
    1. Dissemination of CRS products on the Internet \2\ would not be 
cloaked with constitutional immunity.
---------------------------------------------------------------------------
    \2\ The Internet has been described by the Supreme Court as ``a 
unique and wholly new medium of worldwide human communication.'' Reno 
v. American Civil Liberties Union, 117 S. Ct. 2329, 2334 (1997). 
Commentators have observed that ``novel and unsettled'' legal questions 
are raised by cyberspace (Decisions Reflect Nature of Media, National 
Law Journal, Aug. 11, 1997, at p. B8) and that in addressing the 
``Internet and computer-related issues'' the courts are on ``uncharted 
water.'' Though Shalt Not Trespass--Even in Cyberspace, New Jersey 
Lawyer, Sept. 1, 1997, at p. 10.
---------------------------------------------------------------------------
    Members of Congress are protected by art. I, Sec. 6, cl. 1, of the 
Constitution, which provides in part that ``for any speech or debate in 
either House, [Senators and Representatives] shall not be questioned in 
any other place.'' The clause performs two related functions. First, it 
protects the ``independence and integrity of the legislature,'' and 
second, it ``reinforce[s] the separation of powers * * *.'' \3\ The 
clause ``applies not only to a Member but also to his aides insofar as 
the conduct of the latter would be a protected legislative act if 
performed by the Member himself.'' \4\
---------------------------------------------------------------------------
    \3\ United States v. Johnson, 383 U.S. 169, 178 (1966)(footnote 
omitted). See also United States v. Brewster, 408 U.S. 501, 507 (1972).
    \4\ Gravel v. United States, 408 U.S. 606, 618 (1972).
---------------------------------------------------------------------------
    In early decisions, the Supreme Court interpreted the clause 
broadly and considered it as protecting activity beyond the walls of 
the chamber.\5\ However, in recent years the Court has constricted the 
range of actions shielded by the constitutional provision.\6\ Beginning 
with its decision in 1972 in United States v. Brewster, the Court has 
limited the protection of the clause to ``legislative acts.'' \7\ In 
that case, the Court explained that ``a legislative act has 
consistently been defined as an act generally done in Congress in 
relation to the business before it. In sum, the Speech or Debate Clause 
prohibits inquiry only into those things generally said or done in the 
House or the Senate in the performance of official duties and into the 
motivation for those acts.'' \8\ In another frequently quoted 
description of the scope of the privilege, the Court declared that, in 
addition to actual speech or debate in either House, the clause applies 
only to acts which are ``an integral part of the deliberative and 
communicative processes by which Members participate in committee and 
House proceedings with respect to the consideration and passage or 
rejection of proposed legislation or with respect to other matters 
which the Constitution places within the jurisdiction of either 
House.'' \9\
---------------------------------------------------------------------------
    \5\ See, e.g., United States v. Johnson, 383 U.S. 169, 180 (1966); 
Kilbourn v. Thompson, 103 U.S. 168, 203-04 (1880).
    \6\ For a detailed historical review of the restricted reading 
placed upon the clause by the courts, see Walker, Constitutional Law: 
Narrowing the Scope of Speech or Debate Clause Immunity, 68 Temple L. 
Rev. 377 (1995).
    \7\ 408 U.S. 501, 509 (1972).
    \8\ Id. at 512.
    \9\ Gravel, 408 U.S. at 625.
---------------------------------------------------------------------------
    In Brewster, the Court distinguished protected legislative acts 
from a range of activity described as ``entirely legitimate'' but 
unprotected by speech or debate immunity because it was considered to 
be ``political in nature.'' \10\ In several cases of relevance to the 
applicability of speech or debate immunity to the general public 
distribution of CRS products, the Court has relied on the dichotomy 
established in Brewster to hold that congressional activities intended 
to inform the general public are outside the scope of the speech or 
debate clause.\11\ Thus, the Court has held that the clause did not 
protect a Member from liability for allegedly defamatory remarks in 
newsletters and press releases based almost entirely on the Member's 
statement to the Senate, which had appeared in the Congressional 
Record.\12\ The Court has further held that the clause did not preclude 
a grand jury from questioning a Member's aide in regard to possible 
criminal liability for arranging for the private publication of the 
Pentagon Papers, which previously had been inserted by the Member in a 
subcommittee hearing record.\13\
---------------------------------------------------------------------------
    \10\ 408 U.S. at 512.
    \11\ In dicta in Brewster, the Court indicated that newsletters to 
constituents, news releases, and speeches delivered outside of Congress 
would not be protected by speech or debate immunity. Id.
    \12\ Hutchinson v. Proxmire, 443 U.S. 111 (1979). See also Chastain 
v. Sundquist, 833 F.2d 311 (D.C.Cir. 1987) (Member's press release and 
communications to executive branch not protected by speech or debate 
immunity or common law official immunity), cert. denied, 487 U.S. 1240 
(1988). In a recent ruling in a defamation suit based on a Member's 
statement in a television interview concerning the status of an 
appropriations bill, speech or debate immunity was not available but 
the Member successfully invoked a statutory mechanism (28 U.S.C. 
Sec. 2679 (Westfall Act)) providing for substitution of the United 
States as the defendant. Williams v. United States, 71 F.3d 502 (5th 
Cir. 1995).
    \13\ Gravel, 408 U.S. at 609-10, 622.
---------------------------------------------------------------------------
    Perhaps most importantly, in Doe v. McMillan, a suit filed against, 
inter alia, various Members, their staffs and consultants, the Public 
Printer, and the Superintendent of Documents, seeking declaratory and 
injunctive relief and damages based on the publication of an official 
committee report that included material alleged to invade plaintiffs' 
privacy, in an opinion written by Justice White, the Court held that 
individuals ``such as the Superintendent of Documents or the Public 
Printer or legislative personnel, who participate in distribution of 
[legally] actionable material beyond the reasonable bounds of the 
legislative task, enjoy no speech or debate clause immunity.'' \14\ 
Justice Douglas, in a concurring opinion joined by Justices Brennan and 
Marshall, would have extended speech or debate immunity to ``a 
legislator's function in informing the public'' because that task ``is 
essential to maintaining our representative democracy.'' \15\
---------------------------------------------------------------------------
    \14\ 412 U.S. 306, 315, 324 (1973). However, the Court held that 
the actions of the Members, their staffs, and consultants in preparing 
the report and ordering that it be printed were protected by speech or 
debate immunity. Id. at 313.
    \15\ Id. at 328. Justice Blackmun, in an opinion concurring in part 
and dissenting in part that was joined by Chief Justice Burger, 
considered the informing function to be ``an essential attribute of an 
effective Legislative Branch,'' and believed that the opinion of the 
Court effectively curtailed that function and thereby violated ``the 
historical tradition signified textually by the speech or debate clause 
and underlying our doctrine of separation of powers.'' Id. at 334. The 
suggestion in Justice Douglas's concurrence that speech or debate 
immunity should protect the informing function has not been adopted by 
the Court in subsequent cases. In fact, in Hutchinson v. Proxmire, 443 
U.S. at 130, the majority opinion approved the views expressed in 
Justice White's opinion for the Court in McMillan.
---------------------------------------------------------------------------
    The Court in McMillan remanded for a determination as to whether 
the extent of distribution by the Public Printer and the Superintendent 
of Documents had exceeded ``the legitimate legislative needs of 
Congress, and hence the limits of immunity.'' \16\ On the remand, after 
a detailed factual inquiry which revealed that there had been quite 
limited public distribution of the report, the lower courts upheld the 
claim of immunity as to the Public Printer and Superintendent of 
Documents.\17\ The court of appeals on the remand expressly reserved 
the question of the availability of immunity ``in a case where 
distribution was more extensive, was specially promoted, was made in 
response to specific requests rather than standing orders, or continued 
for a period after notice of objections was received.'' \18\
---------------------------------------------------------------------------
    \16\ 412 U.S. at 324-25.
    \17\ 374 F. Supp. 1313 (D.D.C. 1974), aff'd, 566 F.2d 713 (D.C.Cir. 
1977), cert. denied, 435 U.S. 969 (1978). Based on affidavits submitted 
by the Public Printer, other material in the record, and a memorandum 
of the Public Printer filed upon appeal of the district court's ruling, 
``it was determined that in addition to 2,557 copies of the report 
distributed within the Congress and its staff, 796 copies were 
distributed to various federal government agencies based on statutory 
requirements and standing orders. Another 796 copies were retained in a 
security cage [and were not distributed because of the litigation]. * * 
* About 54 `extra' copies were retained by the Printer for internal use 
and for distribution in case of spoilage.'' 566 F.2d at 715. Apparently 
the only copies distributed outside the federal government were 
approximately 172 of the 796 copies that had been distributed to 
various federal agencies. Specifically, ``about 92 copies were 
distributed to members of the public who maintained standing orders for 
all committee reports'' and ``about 80 copies were automatically 
delivered to foreign legations with standing orders for all committee 
reports under 44 U.S.C. Sec. 1717 * * *.'' Id. at 716.
    \18\ Id. at 718.
---------------------------------------------------------------------------
    Under the caselaw reviewed above, the dissemination to the general 
public of CRS products--by CRS \19\ or by Members and/or their aides 
\20\--would not be considered a legislative act \21\ but would be 
viewed by the courts as an exercise of Congress' representational 
function, for which speech or debate immunity is not available.\22\ 
Those engaged in public distribution of CRS products, as well as CRS 
analysts who prepare the products, may be vulnerable to a variety of 
judicial and administrative proceedings. In such actions, litigants 
might seek, for purposes of discovery, the files of CRS analysts or 
litigants might ask for damages \23\ or injunctive relief barring 
further distribution of a particular report or issue brief.\24\ 
Litigants might also claim damages in suits alleging copyright 
infringement. It would seem that these kinds of actions would be more 
likely to occur as a result of widespread electronic dissemination to 
the general public of CRS products than from limited distribution 
(common under current practice) by a congressional office of a single 
hard copy of a particular CRS Report or Issue Brief to a constituent.
---------------------------------------------------------------------------
    \19\ See Doe v. McMillan, 412 U.S. at 318 (immunity of 
Superintendent of Public Documents and of Public Printer was 
coextensive with that of Members of Congress whom they served).
    \20\ Under the Court's holding in Gravel, 408 U.S. at 618, speech 
or debate immunity applies to a Member's aide ``insofar as the conduct 
of the * * * [aide] would be a protected legislative act if performed 
by the Member himself.''
    \21\ In determining whether the extent of distribution exceeds the 
legislative needs of Congress, and thus is outside the bounds of speech 
or debate immunity, the courts may consider various factors relating to 
the distribution, including the number of copies circulated and the 
purposes for which they were circulated. See Doe v. McMillan, 374 F. 
Supp. 1313 (D.D.C. 1974), aff'd, 566 F. 2d 713 (D.C.Cir. 1977), cert. 
denied, 435 U.S. 969 (1978).
    \22\ In his remarks upon the introduction of S. 1578, Senator 
McCain observed that, by providing for the dissemination of CRS 
research products via the Internet, Members would be fulfilling their 
role of informing the public. Senator McCain recognized that an issue 
exists as to the applicability of speech or debate immunity to 
exercises of the informing function. 144 Cong. Rec., supra note 1, at 
S123.
    \23\ See Doe v. McMillan, supra (invasion of privacy).
    \24\ Id.
---------------------------------------------------------------------------
    It has been suggested that speech or debate clause concerns raised 
by legislation providing for the dissemination of certain CRS products 
via the Internet might be addressed by including in such legislation 
language stating that ``nothing herein shall be deemed or considered to 
diminish, qualify, condition, waive, or otherwise affect applicability 
of the Constitution's speech or debate clause, or any other privilege 
available to Congress, its agencies or their employees, to any CRS 
product made available on the Internet under this bill.'' \25\ The 
effect of the suggested language is uncertain. (1) Would the courts 
characterize the language as ``self-serving'' and disregard it? (2) 
Even if not disregarded, would the effect of the language be to deny 
immunity to the dissemination of CRS products on the Internet? The 
suggested language would not immunize CRS products but would simply 
seek to have the courts treat ``any CRS product made available on the 
Internet'' in the same way that they would treat any other information 
disseminated by Congress or its agents to the general public--i.e., as 
unprotected.\26\ (3) Because the proposed language applies only to CRS 
products made available on the Internet, would it have any impact on 
concerns with regard to the effect of dissemination of Service products 
to the general public on attempts to gain access to CRS files? \27\
---------------------------------------------------------------------------
    \25\ The Brand letter proposes that the quoted language be included 
in S. 1578, 105th Cong. See note 1, supra.
    \26\ See notes 11-18 and accompanying text, supra.
    \27\ See pp. 5-8, infra.
---------------------------------------------------------------------------
    2. Public dissemination of CRS products might jeopardize the 
confidentiality of CRS files and hamper a claim of constitutional 
immunity by CRS.
    Extensive distribution of CRS products to the general population 
would increase public awareness of the research and analysis prepared 
by the Service for Congress and could thereby intensify efforts by 
litigants to obtain, for purposes of discovery, the files of CRS 
analysts who prepare the products. These discovery attempts might seek 
not only information and data used to develop CRS Reports and Issue 
Briefs but also related material from the files.\28\
---------------------------------------------------------------------------
    \28\ See In the Matter of Exxon Corporation, et al., FTC Docket No. 
8934, Application of November 6, 1978, at p. 18 (at request of 
respondents in agency proceeding, FTC administrative law judge issued 
subpoena seeking discovery of, inter alia, CRS ``reports on the oil 
industry in connection with House and Senate subcommittee studies of 
the oil industry and in connection with congressional preparation of 
bills relating to energy matters''), subsequent ruling, In re Exxon 
Corporation, 95 F.T.C. 919 (1980); Chapman v. Space Qualified Systems 
Corp., 647 F. Supp. 551, 552 (N.D.Fla. 1986) (seeking discovery from 
GAO investigator of various materials, including ``all working 
documents'' related to a GAO investigation conducted at the request of 
a congressional committee, executive branch inspector general reports 
provided to GAO, and communications to GAO from Congress or 
congressional staff). See also Smith v. IRS, No. 3778-89 (Tax Ct. 1990) 
(litigants obtained subpoena calling for the testimony of an attorney 
in the American Law Division of CRS and for the production of 
background materials used by the attorney in preparing a memorandum for 
a Member of the Senate). It might be noted that, with some frequency, 
litigants are seeking in discovery not only documents and depositions 
from congressional support agencies but also from Members of Congress 
and congressional staff. See, e.g., Brown & Williamson Tobacco Corp. v. 
Williams, 62 F.3d 408 (D.C.Cir. 1995); In the Matter of the 
Applications of the City of El Paso, Texas, 887 F.2d 1103 (D.C. Cir. 
1989); Minpeco, S.A. v. Conticommodity Services, Inc., 844 F.2d 856 
(D.C.Cir. 1988); Miller v. Transamerican Press, Inc., 709 F.2d 524 (9th 
Cir. 1983); United Transportation Union v. Springfield Terminal Ry., 
132 F.R.D. 4, 6 (D.Me. 1990) (litigant who had previously engaged in 
``sweeping discovery,'' including depositions from, and document 
production by, House and Senate aides, also sought internal 
congressional communications); Common Cause v. Bolger, 574 F. Supp. 
672, 673-74 (D.D.C. 1982) (three-judge court), aff'd mem., 461 U.S. 911 
(1983).
---------------------------------------------------------------------------
    The speech or debate clause may provide a valid defense in such 
discovery proceedings if the subject of the proceedings is a protected 
legislative act.\29\ However, even in instances in which CRS succeeded 
in defending against such discovery efforts, such litigation would 
place a significant burden on congressional resources \30\ and could 
make judges the arbiters of disputes concerning the confidentiality of 
communications between CRS and Congress.\31\ Claims of speech or debate 
immunity would be subject to judicial review \32\ which might include 
in camera inspection of material as to which a claim of privilege is 
made \33\ and segregation of protected from non-protected material.\34\ 
Such judicial screening of legislative branch materials arguably 
impinges upon the interest in confidentiality served by the speech or 
debate clause.\35\
---------------------------------------------------------------------------
    \29\ See, e.g., Brown & Williamson Tobacco Corp., supra (exercise 
of Congress' investigative power). The speech or debate clause has been 
held to be a valid defense in an attempt to obtain access to CRS 
materials prepared to aid Congress in considering legislation. See In 
Re Exxon Corporation, supra. The role of the speech or debate clause as 
a defense in such litigation is discussed in the Brand letter, supra 
note 1.
    \30\ In actions in which litigants have sought access to its files, 
CRS has generally been represented by the Office of Senate Legal 
Counsel or the House General Counsel. For example, in Smith v. IRS, 
supra, the CRS employee involved was represented by the Senate Legal 
Counsel pursuant to S. Res. 291, 101st Cong.
    \31\ See In re Grand Jury Investigation, 587 F.2d 589 (3d Cir. 
1978); United States v. Eilberg, 507 F. Supp. 267 (E.D.Pa. 1980).
    \32\ In United States v. Nixon, 418 U.S. 683, 703-05 (1974), the 
Court rejected the President's contention that the separation of powers 
doctrine barred judicial review of a claim of executive privilege, and 
in support of judicial authority in such a case the Court cited several 
speech or debate clause cases in which it had interpreted the immunity 
of Members. Id. at 704, citing Doe v. McMillan; Gravel; Brewster; and 
Johnson.
    \33\ ``Courts have conducted in camera hearings, with participation 
by adverse parties, to determine whether materials subpoenaed from 
Members of Congress were within the speech or debate privilege.'' 
Raveson, Unmasking the Motives of Government Decisionmakers, 63 
N.C.L.Rev. 879, 968 n.523 (1985) (citing In Re Grand Jury 
Investigation, 587 F.2d 589, 596-97 (3d Cir. 1978); In Re Possible 
Violations of 18 U.S.C. 201, 371, 491 F. Supp. 211, 213-14 (D.D.C. 
1980)). The Brand letter, supra note 1, states that in camera review is 
not routinely used by the courts to settle disputes concerning the 
applicability of speech or debate immunity. If in camera review is 
employed relatively infrequently, congressional concern over the 
judiciary's use of this technique may be alleviated but not eliminated.
    The case of Benford v. American Broadcasting Co., 98 F.R.D. 42 
(D.Md. 1983), was cited in a previous CRS discussion of the possibility 
of in camera inspection of material when a claim of privilege is 
raised. The Brand letter comments that in camera inspection of House 
documents was not ordered by the court in that case. It is correct that 
the court did not order such an inspection. However, in denying a 
congressional committee's motion to intervene to obtain a protective 
order from a litigant's subpoena seeking in discovery material as to 
which speech or debate immunity was claimed, the district court stated 
that it ``should examine the relevant documents * * * in camera * * 
*.'' Id. at 45 n.2. (The opinion in Benford is convoluted because of 
the procedural complexity of the lengthy litigation involved. However, 
the court's position with regard to in camera review is clarified by a 
subsequent ruling in the same litigation, in an opinion by the same 
judge. Benford v. American Broadcasting Co., 565 F. Supp. 139, 141 
(D.Md. 1983), rev'd on other grounds sub nom. In Re Guthrie, 733 F.2d 
634 (4th Cir. 1984). In that subsequent ruling, the court expressly 
reserved ``the right to examine in camera'' documents as to which a 
claim of speech or debate privilege was raised. Id. at 143.)
    \34\ The Court in Nixon upheld the authority of the district court 
to segregate privileged material (to be returned to the President) from 
material that would be admissible in the judicial proceedings for which 
they had been subpoenaed. 418 U.S. at 714-16. Segregation of protected 
from non-protected material has also been upheld in the speech or 
debate context. See, e.g., United States v. Helstoski, 442 U.S. 477, 
488 n.7 (1979).
    \35\ See generally Evidentiary Implications of the Speech or Debate 
Clause, 88 Yale L.J. 1280, 1286-87 n.30 (1979). The courts are divided 
on the question of whether the speech or debate clause was intended to 
ensure confidentiality for legislators. Compare Brown & Williamson 
Tobacco Corp. v. Williams, 62 F.3d at 420 with In re Grand Jury 
Investigation, 587 F.2d at 597.
---------------------------------------------------------------------------
    Moreover, there is no assurance that CRS would prevail in 
litigating such matters. Two concerns might be highlighted. The first 
stems from the mix in CRS files which commonly include, inter alia, 
material from research sources in the public domain, confidential CRS 
memoranda for Congress, and communications between Congress and the 
Service. Because the information contained in the different types of 
documents in a particular CRS subject file is superficially similar, 
and because the Service's work for Congress is cumulative in nature 
(i.e., a CRS Report often builds upon the general analysis developed in 
response to specific requests from Members and congressional 
staff),\36\ there may be a risk that a court would not precisely 
differentiate among the types of documents and would grant litigants 
access not only to publicly available information but also to 
confidential communications between the Service and congressional 
offices.
---------------------------------------------------------------------------
    \36\ For example, an analyst may prepare a CRS Report on the 
economic implications of a tax cut on the basis of, inter alia, 
academic studies on the subject and some of the general factual 
information and analysis that had been included in a confidential 
memorandum previously prepared for a Member of the Ways and Means 
Committee who requested an assessment of a draft bill. Of course, 
because of the confidential relationship of CRS with its congressional 
clients, none of the specific analysis of the draft bill included in 
that memorandum would appear in, or be reflected, in the CRS Report.
---------------------------------------------------------------------------
    The second concern arises from the fact that, in previous instances 
in which CRS has been involved in litigation or agency proceedings, the 
judicial or agency decision has emphasized that CRS performs a 
legislative function and that its staff functions as an adjunct of 
Member and committee staff.\37\ With wider dissemination of CRS 
products to the general public, this longstanding perception of the 
Service and the nature of its communications to the Congress could be 
altered, eventually putting at risk speech or debate protection for the 
Service's confidential work. In other words, extensive involvement by 
CRS in the direct public information function could lead courts and 
administrative agencies to reconsider their perception of CRS as 
playing a significant and unique support role in the legislative 
process, and thus some day might hamper a claim of immunity even in an 
instance in which CRS was fulfilling its legislative function.
---------------------------------------------------------------------------
    \37\ See Webster v. Sun Oil, 731 F.2d 1 (D.C.Cir. 1984) and 790 
F.2d 157 (D.C.Cir. 1986) (communications to CRS analyst are within 
scope of common law privilege for communications to a legislative 
body); Smith v. IRS, No. 3778-89 (Tax Ct. 1990) (protecting from 
compulsory process background materials used by CRS staff in preparing 
reports and memoranda for Members); In re Exxon Corporation, 95 F.T.C. 
919 (1980) (FTC subpoena for CRS documents barred by speech or debate 
immunity and separation of powers doctrine; CRS performs an 
``essentially legislative function''). Cf. Browning v. Clerk, U.S. 
House of Representatives, 789 F.2d 923, 929 (D.C.Cir.) (personnel 
actions held to be protected by speech or debate immunity if the 
``employee's duties were directly related to the due functioning of the 
legislative process'') (emphasis in the original), cert. denied, 479 
U.S. 996 (1986).
---------------------------------------------------------------------------
    3. There is some risk of assertion of copyright infringement if CRS 
materials are made available on-line to members of the general public.
    CRS may incorporate preexisting material in its written responses 
to congressional requests. Although such material is often from public 
domain sources,\38\ in certain instances the material may be from 
copyrighted sources.\39\ To the extent that the material is 
copyrighted, CRS either: obtains permission for the use; \40\ considers 
its information-gathering function protected by the speech or debate 
clause; \41\ or believes that the intended use falls under the ``fair 
use'' doctrine of the Copyright Act.\42\
---------------------------------------------------------------------------
    \38\ For example, prior CRS Reports; other government publications.
    \39\ CRS's uses of copyrighted material are appropriately credited.
    \40\ Although CRS obtains permission to reproduce certain 
copyrighted works, the permissions are generally based on legislative 
use and do not explicitly cover electronic dissemination.
    \41\ U.S. Const., art. 1, Sec. 6, cl. 1. Speech or debate clause 
protection extends to activities within the sphere of legitimate 
legislative activity (generally considered to be matters that are an 
integral part of the deliberative process by which members participate 
in legislative proceedings) rather than activities that are 
representational or political in nature. When CRS performs a 
legislative function, the speech or debate clause shield provides 
protection from copyright infringement claims. See CRS's purposes and 
duties as set forth in 2 U.S.C. Sec. 166(d); see also Webster v. Sun 
Oil, supra n.27.
    \42\ Copyright Act of 1976, Act October 19, 1976, Pub. L. No. 94-
553 (codified as amended at 17 U.S.C. Sec. Sec. 101 et seq.). Fair use 
is a judicial doctrine codified for the first time in the Copyright 
Act. See 17 U.S.C. Sec. 107. Although the Act does not define ``fair 
use,'' the Act lists four illustrative factors, based on prior case 
law, to be considered when determining whether a use made of a work is 
a fair use: (1) the purpose and character of the use, including whether 
such use is of a commercial nature or is for nonprofit educational 
purposes; (2) the nature of the copyrighted work; (3) the amount and 
substantiality of the portion used in relation to the copyrighted work 
as a whole; and (4) the effect of the use upon the potential market for 
or value of the copyrighted work.
---------------------------------------------------------------------------
    United States copyright protection is not available for U.S. 
Government works.\43\ Those portions of a public document authored by 
the U.S. Government are in the ``public domain''--freely and widely 
available to the public without restrictions placed on their 
dissemination. However, the government's inclusion of copyrighted 
material in a government publication does not thrust that material into 
the public domain or impair the rights of the copyright owner.\44\
---------------------------------------------------------------------------
    \43\ 17 U.S.C. Sec. 105. Sec. 101 defines a ``work of the United 
States Government'' as ``a work prepared by an officer or employee of 
the United States Government as part of that person's official 
duties.'' While works of the U.S. Government are not protected under 
U.S. copyright laws, protection may be available under the statutes of 
certain other countries.
    \44\ The legislative history of the Copyright Act contains the 
following statement:
    The committee here observes: (1) there is nothing in section 105 
that would relieve the Government of its obligation to secure 
permission in order to publish a copyrighted work; and (2) publication 
or other use by the Government of a private work would not affect its 
copyright protection in any way. (H.R. Rep. No. 1476, 94th Cong., 2d 
Sess. 60 (1976).)
---------------------------------------------------------------------------
    The exclusive rights \45\ of the copyright owner are qualified or 
limited by enumerated exceptions.\46\ Unless excused by a statutory 
exception, the unauthorized use of a copyrighted work is considered an 
infringement. Fair use is one of the limitations on the copyright 
owner's exclusive rights and may be invoked as an affirmative defense 
to a claim of copyright infringement.\47\
---------------------------------------------------------------------------
    \45\ 17 U.S.C. Sec. Sec. 106, 106A.
    \46\ 17 U.S.C. Sec. Sec. 107-120.
    \47\ A bright-line approach to fair use is difficult if not 
impossible; courts examine the fair use defense on a case-by-case 
basis.
---------------------------------------------------------------------------
    The copyright statute does not expressly include congressional use 
of copyrighted works as a fair use. However, both the House and Senate 
Reports on the Copyright Act of 1976 include the ``reproduction of a 
work in legislative or judicial proceedings or reports'' among examples 
of fair use.\48\ The legislative history also contains an observation 
that publication of copyrighted material in Congressional documents 
would constitute fair use ``[w]here the length of the work or excerpt 
published and the number of copies authorized are reasonable under the 
circumstances, and the work itself is directly relevant to a matter of 
legitimate legislative concern * * *.'' \49\]
---------------------------------------------------------------------------
    \48\ See H.R. Rep. No. 1476, 94th Cong., 2d Sess. 65 (1976); S. 
Rep. No. 473, 94th Cong., 1st Sess. 61-62 (1975) quoting REPORT OF THE 
REGISTER OF COPYRIGHTS ON THE GENERAL REVISION OF THE U.S. COPYRIGHT 
LAW, 87th Cong., 1st Sess. 24 (Comm. Print 1961) (hereafter REGISTER'S 
REPORT).
    \49\ See H.R. Rep. No. 1476, Id. at 73. A ``matter of legitimate 
legislative concern'' is not defined. In a speech or debate clause 
context, protection extends to activities within the sphere of 
legitimate legislative activity which is generally considered to be 
matters that are an integral part of the deliberative and communicative 
processes by which members participate in legislative proceedings. Such 
matters are distinguished from those activities that are political in 
nature and further interests distinct from legislative responsibility. 
See Gravel v. United States, supra n.2; United States v. Brewster, 
supra n.1. The republication of intra-Congressional material outside 
Congress has been held not to be a protected legislative activity. See 
Miller v. Transamerican Press, Inc., supra n.21; Hutchinson v. 
Proxmire, supra n.10 at 127-28 (1979). Although obtaining information 
pertinent to potential legislation is one of the ``things generally 
done in a session of the House'' concerning matters within the 
``legitimate legislative sphere'' (see Kilbourn v. Thompson, 103 U.S. 
168, 204 (1881)), Congress's ``informing function'' protected by the 
speech or debate clause as part of the legislative function is that of 
informing itself about subjects susceptible to legislation, not that of 
informing the public. See Hutchinson v. Proxmire, at 132-33.
---------------------------------------------------------------------------
    In an infringement action, a court might regard the publication of 
copyrighted material in a Congressional document for legitimate 
legislative purposes as a ``fair use.'' If, however, the use is outside 
of such legislative purposes, it is possible that a traditional fair 
use analysis might result in liability for copyright infringement. 
Wider dissemination outside the confine of Congress would further 
complicate the ``fair use'' question. While courts appear to be 
applying the same fair use analysis in infringement actions involving 
the electronic environment as in more traditional environments, the 
application of fair use in the electronic environment is still 
developing.
    The copyright laws do not contain an exemption from copyright 
infringement for unauthorized use of copyrighted materials by the U.S. 
Government. Subsection 1498(b) of Title 28 of the U.S. Code provides 
that the exclusive remedy of a copyright owner for copyright 
infringement by the United States is an action against the United 
States in the U.S. Court of Federal Claims ``for the recovery of * * * 
reasonable and entire compensation * * * including the minimum 
statutory damages * * *.'' \50\ Speech or debate clause immunity is not 
waived under Sec. 1498(b); however, activities outside of the 
legislative sphere would not be shielded from a copyright infringement 
action.\51\ The one case interpreting Sec. 1498(b) narrowly construed 
the governmental waiver--relying on general construction of such 
waivers and on prior interpretation of a similar provision.\52\]
---------------------------------------------------------------------------
    \50\ Damages are limited to ``reasonable and entire compensation.'' 
The available remedies do not include the other remedies for 
infringement available under the Copyright Act against infringing 
parties such as: injunctions; impoundment and disposition of the 
infringing articles; recovery of full costs and attorney's fees.
    The subsection provides that before such an infringement action is 
instituted, ``the head of the appropriate department or agency of the 
Government, as the case may be, is authorized to enter into an 
agreement with the copyright owner in full settlement and compromise 
for the damages accruing to him by reason of such infringement and to 
settle the claim administratively out of available appropriations.''
    \51\ As originally enacted, Sec. 1498 applied only to suits for 
patent infringement against the United States. In 1960, Congress 
amended Sec. 1498 to give its consent to suits for copyright 
infringement against the United States; Section 2 of Pub. L. 86-726 
provided: Nothing in this Act shall be construed to in any way waive 
any immunity provided for Members of Congress under article I of 
section 6 of the Constitution of the United States.
    Section 2 was added to the House bill by Senate amendment in order 
``to emphasize the fact that no immunities for Members of Congress 
under article I of section 6 of the Constitution shall be waived by the 
enactment of this legislation.'' See S. Rep. No. 1877, 86th Cong., 2d 
Sess. (1960) as reprinted in 1960 U.S.C.A.A.N. 3444. Presumably, speech 
or debate clause protection would protect Congressional use of 
copyrighted material that is used to further legitimate legislative 
activities that are part of the legislative processes (e.g., 
copyrighted material inserted into the Congressional Record or 
congressional document). See Copyright Office Memorandum of May 26, 
1958 reprinted in 1960 U.S.C.A.A.N. at 3456. Congress did not waive its 
speech or debate clause immunity when it amended Sec. 1498. However, 
insofar as activities outside of the legislative sphere (e.g., 
political activities) are concerned, it would appear as if Sec. 1498(b) 
would not shield Congress from a copyright infringement action.
    \52\ Auerbach v. Sverdrup Corp., 829 F.2d 175 (D.C. Cir. 1987) 
(holding that the government only waives immunity under Sec. 1498(b) 
for third-party infringements that are authorized or consented to by 
the government rather than for any copyright infringement that a third 
party may choose to undertake). The Auerbach case, relying on the 
legislative history of this provision, is the sole case construing 
Sec. 1498(b). Sec. 1498(a), the sister provision waiving immunity for 
patent infringements, has been interpreted more often--courts holding 
that such waiver is limited to direct governmental infringement.
---------------------------------------------------------------------------
    The protection of intellectual property rights in the information 
age and the balance between copyright owners' exclusive rights to 
control the uses of their creative works and the public's right of fair 
use of and access to copyrighted works are being addressed by Congress 
\53\ and the courts.
---------------------------------------------------------------------------
    \53\ In December 1996, the World Intellectual Property Organization 
(WIPO) adopted two new intellectual property treaties--the WIPO 
Copyright and WIPO Performances and Phonograms Treaties. The Copyright 
Treaty covers copyright protection for computer programs and for 
databases as intellectual works, and uses of copyrighted works in 
digital electronic environments, including transmissions over the 
Internet. The Administration's treaty implementation bills (S. 1121 and 
H.R. 2281) were introduced at the end of July 1997. Alternative WIPO 
implementation bills (S. 1146 and H.R. 2180) also address additional 
Internet policies issues. See U.S. Library of Congress. Congressional 
Research Service. World Intellectual Property Organization Performances 
and Phonograms Treaty: An Overview (CRS Report for Congress 97-523A); 
and U.S. Library of Congress. Congressional Research Service. Online 
Service Provider Copyright Liability: Analysis and Discussion of H.R. 
2180 and S. 1146 (CRS Report for Congress 97-950A). See also H.R. 3048, 
introduced in November 1997, which implements the WIPO treaties and 
updates United States copyright laws to accommodate the developments of 
digital technology (addressing, e.g., ``fair use,'' ``first sale,'' and 
distance learning). H.R. 2652, the ``Collections of Information 
Antipiracy Act'' would create sui generis protection, distinct from 
copyright protection, for collections of facts, data or works of 
authorship. Government collections of information are excluded. 
Exceptions address acts such as the extraction of insubstantial parts 
of collections of information; independent gathering of information; 
non-profit educational, scientific or research uses; and extraction for 
news reporting. The bill responds to the Supreme Court's decision in 
Feist Publications v. Rural Telephone Service Co., 499 U.S. 340 (1991) 
which held that comprehensive collections of facts arranged in 
conventional formats were not protected and could not be 
constitutionally protected under copyright. For an overview of 
legislative proposals introduced in the 104th Congress, see U.S. 
Library of Congress. Congressional Research Service. Copyright 
Proposals for the National Information Infrastructure (CRS Report for 
Congress 95-1166A).
---------------------------------------------------------------------------
    In summary, where permission has been granted to CRS to use 
copyrighted material, it has likely been based on legislative purpose 
and limited to the print (rather than the electronic) environment.
    If access is broadened to members of the general public, 
congressional release may be outside the scope of ``legitimate 
legislative purpose.'' In such cases, a traditional fair use analysis 
may not provide an affirmative defense to an infringement action and 
liability could attach.\54\
---------------------------------------------------------------------------
    \54\ Liability, however, would be limited by the exclusive remedies 
provided for in 28 U.S.C. Sec. 1498(b). Copyright owners may not wish 
to assume the costs associated with Sec. 1498(b) litigation in light of 
the limited damages that are available under this section.
---------------------------------------------------------------------------
    The copyright law is intended to foster the creation and 
dissemination of intellectual works for the public welfare and to 
reward authors for their contribution to society. Striking a fair 
balance between the authors' exclusive rights to control the 
dissemination of their works and the public interest \55\ is ever more 
challenging in the electronic environment.
---------------------------------------------------------------------------
    \55\ REGISTER'S REPORT, supra n.39 at 6:
    Within reasonable limits, the interests of authors coincide with 
those of the public. Both will usually benefit from the widest possible 
dissemination of the author's works. But it is often cumbersome for 
would-be users to seek out the copyright owner and get his permission. 
There are many situations in which copyright restrictions would inhibit 
dissemination, with little or no benefit to the author. And the 
interests of authors must yield to the public welfare where they 
conflict. * * * While some limitations and conditions on copyright are 
essential in the public interest, they should not be so burdensome and 
strict as to deprive authors of their just reward * * *.
---------------------------------------------------------------------------
    Public interest in dissemination of government documents must be 
weighed against the legitimate governmental purposes that are served in 
the Government's exercise of due diligence in not infringing copyrights 
(e.g., restricting the public's use of proprietary information 
incorporated in a government document). Although it may be possible to 
limit liability to some extent by taking certain diligent measures,\56\ 
some degree of liability may continue to exist. There is some risk of 
assertion of copyright infringement if CRS materials containing 
proprietary material (and intended to support congressional needs) are 
made available on a wholesale basis on-line to members of the general 
public.
---------------------------------------------------------------------------
    \56\ For example, notifying the public that although there are no 
restrictions on the replication of CRS materials--copyrighted materials 
contained therein may not be used without permission of the copyright 
owner.
---------------------------------------------------------------------------
                                 ______
                                 
 Attachment A.--Congressional Budget Office Preliminary Cost Estimate, 
       S. 1578--CRS Website for Public Use, Preliminary Worksheet

 SUMMARY OF CBO PRELIMINARY WORKSHEET FOR S. 1578 [105TH CONGRESS]--CRS
                       WEBSITE FOR PUBLIC USE \1\
------------------------------------------------------------------------
                                            Lower bound     Upper bound
                                             estimate        estimate
              Cost elements                  (includes       (includes
                                             start-up      costs of full
                                              costs)         phase-in)
------------------------------------------------------------------------
Direct Costs (programmers; financial            $220,300        $467,963
 costs of increased interactions with
 the public)............................
Indirect Costs (start-up plus added              358,560         202,051
 product review procedures, tracking,
 legal and administrative costs)........
Additional demand (costs of increased          1,292,060       6,460,300
 number of congressional and public
 requests)..............................
                                         -------------------------------
      Estimated Added Costs.............       1,870,920       7,130,314
                                         ===============================
Estimated Added Costs as a percent of               2.90           11.04
 fiscal year 1998 budget................
------------------------------------------------------------------------
\1\ S. 393 and H.R. 654, bills introduced in the 106th Congress, are
  similar to S. 1578 (105th Congress). Accordingly, the estimated costs
  of implementing the current bills would appear to be generally
  comparable to the estimated costs contained in the CBO preliminary
  worksheet for S. 1578.

    Mr. Mulhollan. In particular, I would like to note that the 
preliminary estimate by the Congressional Budget Office found 
that last year's proposal could cost CRS as much as $7 million 
each year. The current bills do not significantly alter the 
assumptions on which that estimate is based.
    Mr. Chairman, Senator Feinstein, I fully appreciate the 
budgetary constraints before this subcommittee as it crafts 
appropriations for the Legislative Branch. It is for that 
reason that our request is limited to the funds essential to 
sustain our current efforts.
    Our top priority is to provide Congress with efficient, 
cost effective support that meets your highest standards for 
quality, comprehensiveness, accuracy, objectivity, and 
nonpartisanship.
    Thank you.
    Senator Bennett. Thank you very much.

     reprogramming fiscal 1999 funding to evaluate Personnel system

    The Library is requesting authority to reprogram $400,000 
in fiscal year 1999 funds to evaluate the personnel system. 
What do you hope that evaluation will accomplish?
    Will it result in savings in personnel costs or is it aimed 
primarily at trying to increase efficiency with costs remaining 
where they are? Give me a feel for this.
    Senator Bennett. I think the Deputy Librarian will address 
this most efficiently.
    General Scott. Thank you, Mr. Chairman.
    The Library of Congress is currently facing a unique 
opportunity and challenge in that 45 percent of our workforce 
will be eligible to retire by the year 2004.
    Currently we have about 125 people that we replace every 
year. When we extrapolate a fraction of that 50 percent over 
each year between now and 2004, we could be inundated with more 
than twice the number that we would normally have to replace 
were we not to embark on a contingency that would allow us to 
hire and fill vacancies in a timely manner and also take 
advantage of this opportunity to streamline our system.
    The deliverables that we would hope to accomplish, with 
your approval of this reprogramming process, are these:
    We would develop a short-term plan that would help us to 
replace people in excess of the numbers that we normally have 
to deal with--that's short-term. We would also be able to start 
an integrated plan that would see us design, examine, and 
implement pilots that would streamline our entire hiring 
process for the out-years.
    For this money we would be getting immediate help in terms 
of a contingency plan. We would also obtain outside help with a 
transformation plan that we would devise and implement over the 
next 4 years.
    Senator Bennett. This calls on a crystal ball, but do you 
have any sense about available applicants? You commented, Dr. 
Billington, that this is a unique kind of employment with 
almost one-of-a-kind sort of jobs there. As the body of 
expertise represented by your present personnel ``graduates,'' 
if you will, is there a pool of people willing to come into 
this kind of work behind them? Or should there be some 
recruiting efforts connected with your evaluation?
    General Scott. Yes, sir, we have surveys that both CRS and 
Library Services have conducted which have identified the 
professionals who, if they left, would create a tremendous 
void. With that, we have developed a succession plan including 
recruitment to backfill the critical spaces should those staff 
leave next year or the year after. We do have a plan in place 
that would allow us to fill those critical positions.
    Dr. Billington. Let me just add a word on that and then Mr. 
Mulhollan may want to say something more.
    As General Scott pointed out, we do have not only this plan 
to recruit these people but a specific plan. Because these jobs 
are so one-of-a-kind, you cannot just hire somebody, so to 
speak, off the street or out of some other position because 
nothing is quite analogous to most of the jobs in the Library 
of Congress.

                          Succession planning

    So the succession planning, which is an important part of 
our budget submission this year, would bring in some people who 
could be mentored by the people who are in, in effect, mission 
critical positions. This is particularly important where there 
is collective memory in CRS, and I am sure Mr. Mulhollan will 
speak to this. But it is also important in Library Services, 
where for these immense collections there is knowledge that is 
in people's heads. Here we have a very small turnover; 17 to 20 
years is about the average time of service. So it is very 
important that the knowledge in their heads be transported, 
transformed, be passed on, as it were, to other employees.
    That is why the succession planning that we are applying 
for this year and that you were kind enough to begin helping us 
within CRS last year is so important, both to CRS and to 
Library Services. We want to continue to have efficient 
navigators through this great storehouse of information.
    You may want to add to that, Mr. Mulhollan.

                        CRS recruitment program

    Mr. Mulhollan. What the Congressional Research Service did 
back in 1996 is survey the roughly 300 people who are eligible 
to retire. We had over 95 percent participation.
    What we then did is an analysis of those who said they 
would be retiring in 2000, 2002, 2004, and 2006. Two-thirds of 
those eligible between now and 2006 told us that they would be 
retiring during that period of time.
    Senator Bennett. You do not allow them to believe in odd-
numbered years, then? [Laughter.]
    Mr. Mulhollan. We are clustering there. We think in terms 
of Congresses.
    We then identified people in each subject area. Say that we 
had 6 people as a baseline for January 1, 1997. If we had 6 
people in Natural Resources and 3 of those were retiring by 
2002, we would say that we were at 50 percent risk.
    We then established an aggressive recruitment program 
throughout the country, including Utah and California. We went 
to the public policy schools and the graduate schools, and met 
with the deans and the heads of the public policy schools. We 
told them about a program where we use law and graduate recruit 
programs to recruit at the law schools and graduate schools 
once we identify those subject areas most at risk. Then we 
began recruiting, trying to get the best and the brightest in 
the country, to serve the Congress.
    Gratefully, a large number of young people are captured by 
serving, to help insure the continuing functioning of 
democracy.
    In some business schools it is a little harder, to be 
perfectly frank. They would have to make a sacrifice. We are 
talking about only being able to offer a third of the salaries 
that they could get on the outside. There are some public 
policy schools where we face the same problems as well.
    Notwithstanding that--we pushed for public service--we then 
align those subject areas to where our greatest risk is in 
trying to get them to come in during the summer. We have 20 
grad recruits this coming summer, in 1999, in various areas. We 
fund them for the summer. If they like us and we like them, we 
can offer them a position and they will have another year to 
complete their Master's or their Ph.D.
    That is the major recruitment program that we have revived 
to meet this challenge.
    When we bring them on-board into CRS, it takes quite a 
while, even if you have a Ph.D. in economics, to be able to 
work in this environment. Some schools are very strong in 
giving students some of these skills in addition to the 
knowledge of their discipline our new employees need to be able 
to compartmentalize. This is because, as an analyst, you have 
to work with the Majority and Minority in one chamber and 
compartmentalize so that the information that you receive from 
one never interferes or gets shared with the other.
    So it takes time to carry four compartments, as an example, 
to learn how you can manage serving both chambers and both 
sides of the aisle, as well as understanding your discipline in 
the context of the writing of law.
    We say that it takes between 3 and 5 years to do that kind 
of training and, hopefully, with the people who have been here 
for 20-plus years, we can pass on that knowledge and skill.
    Senator Bennett. Thank you very much.
    That is very helpful and it is encouraging that you are 
doing this kind of detail.

                              ILS project

    The Integrated Library System originally was projected to 
cost $15 million over 7 years. It now is estimated that it will 
cost $270 more in fiscal year 2000 and $17 million over the 
course of the project.
    Can you go over that with us, why the project is over 
budget, whether it is still on time, whether there will be 
further increases that we might look for?
    Dr. Billington. Again, I would look to our Chief Operating 
Officer, General Scott, on this matter.
    General Scott. Yes, sir.
    As you pointed out, Senator, we estimated a figure that 
proved to be less than the actual contract value in two areas: 
the 5-year contract cost for hardware maintenance is $700,000 
higher than we estimated. The 5-year contract cost for software 
maintenance is $1.2 million higher than we estimated.
    Both of those came in higher on the final contract than 
what we had originally expected.
    We believe that the ILS program will add the anticipated 
increase in equipment and maintenance costs to the Library's 
request for funding beginning in 2001. We think that what we 
are going to ask for will satisfy the maintenance and the 
software costs for those out-years.
    Dr. Billington. Those original estimates were made by an 
outside company, Abacus Abacus, in 1996. So they were estimates 
that were professionally given to us from the outside on the 
basis of market conditions at that time. They were not as far-
seeing as they might have been.
    Senator Bennett. Senator Feinstein.

                  impact of the potential Retirements

    Senator Feinstein. Mr. Chairman, let me just for a moment 
go back to the subject that you raised.
    I am a big fan of the Library. If I were in your shoes, Dr. 
Billington, I just don't know, but a loss of almost 50 percent 
of the institutional memory of the institution in this short 
period of time would really concern me very greatly.
    Could I ask you this question? Are most of these 
retirements on one level or are they spread throughout the 
institutional hierarchy?
    Dr. Billington. I think they are spread fairly evenly 
throughout the institution. But they are particularly 
potentially devastating in terms of the curators, for instance, 
of our foreign and special collections.
    There was a great deal of hiring in the immediate post-war 
period and after Sputnik. It was very big. People are now 
reaching retirement age throughout the system.
    I can give you the exact breakdown in terms of the levels.
    Senator Feinstein. But a lot of them are on the level of 
curator?

                   Career enhancement succession plan

    Dr. Billington. A lot of them are at the curatorial level, 
yes. This is why we think it is extremely important to have 
succession planning. That is particularly important.
    The career enhancement succession plan that we submitted to 
you is designed to help insulate us largely from the 
retirements of the professional staff who are primarily in 
grades GS-12 and GS-13.
    These are pretty substantial; 25 percent, actually, of 
Library Services staff are already eligible for retirement. 
There will be added another 25 percent in the following 5 
years. It is a very immediate problem.
    In fiscal year 1998, 40 retired. We have not had that 
devastating a retirement problem yet. We are talking about 
those who are eligible to retire. They don't have to retire. 
Still, it is a very serious problem. This is why we have to 
have some overlap with people coming in. This is why the 
succession planning is so important that we have presented to 
the committee this year.
    Senator Feinstein. So by ``succession planning,'' you would 
essentially mean a staggering of the retirements?
    Dr. Billington. Well, we cannot determine, once people are 
eligible to retire, when they will retire. Most employees who 
have served that long have a certain loyalty and dedication to 
their work and to see that it continues to be performed well. 
We expect a lot of voluntary cooperation to avoid creating a 
sudden rush.
    But since we cannot control it, we feel it is very 
important to hire people, particularly in some of the areas 
where we are very highly dependent on individuals with an 
immense amount of knowledge which cannot really be written down 
and easily transferred.
    Senator Feinstein. Name some of those areas just so I can 
get a sense of it.
    Dr. Billington. There are curators who have for instance an 
extraordinary knowledge of the history of American music, for 
which we have one curator in particular of whom I am thinking, 
though there are several who have extensive knowledge that is 
really unequalled anywhere else. Of course, we have, by far, 
the largest collection of American music in the world--in all 
forms, sheet music, recorded sound, et cetera.
    The entire entertainment industry depends, in many ways, on 
the memory of some of these people.
    Another example would be in conservation. We give 400,000 
items conservation treatment--technical, chemical conservation 
treatment--of one kind or another every year. There are people 
who know the whole history of different efforts of 
conservation, who can tell by the feel of different materials 
exactly what is the appropriate thing to use. Those are all 
highly, highly technical skills.
    Or, there are staff members who are knowledgeable in some 
foreign language area who are very difficult to replace. In the 
Law Library, we have staff who know both the language and the 
legal systems of Third World countries which can suddenly 
become important.
    Senator Feinstein. Let me ask you this. Take, for example, 
just the music aspect of it. Is it possible to ask your 
curators to give you, say, a year's notice of when they might 
retire so that you can begin to reach out into the effective 
communities?
    Dr. Billington. That is a very good suggestion. In fact, 
generally they do give us pretty good notice. Our curators are 
such dedicated folks that they have as much of a concern as you 
and I do that the continuity be maintained. So we usually get 
pretty good notice.
    But that is a good idea and perhaps we ought to make that a 
standard operating procedure.
    It is very important to know that one of the marvels of 
having the depth of such collections as we have is that the 
staff who work with them acquire just immense knowledge for 
which there is no equal. You cannot hire any professor of music 
in the country that will have the same knowledge.
    Senator Feinstein. Right. That is evident. When I came back 
here, why that Library was just astounding. So it really hit me 
when you said that you were expecting a 40 percent retirement 
within, essentially, a 5 year period of time. That kind of 
means a whole turnover in the focus of the institution.
    Dr. Billington. They are eligible for retirement. But we 
cannot lose them all at once.
    Senator Feinstein. And there is not a mandatory age for 
retirement, either. I mean, people can stay if they wish.
    Dr. Billington. That's right. Generally speaking, people 
can stay on.
    Senator Feinstein. Do you think that will be the case?
    Dr. Billington. We hope so and we think so. But, again, 
these staff members have served a long time and we cannot 
dictate to them.
    Senator Feinstein. Yes, life changes.
    Dr. Billington. With less FTEs than we had some years ago, 
the burdens of people are increasing. As they get older, 
sometimes that is difficult. For instance, our special 
collections normally serve a few professional scholars, but 
they are now producing materials that are going out on the Web 
for school children. We are getting tremendous usage from the 
Web and the National Digital Library.
    Staff members have a new obligation to communicate their 
knowledge to a national audience. It's not just professional 
scholars but now it is everyone from school children to 
retirees. There is a big usage of our National Digital Library 
by people who have retired who are developing interests, 
intellectual interests, through the use of this material. That 
is a responsibility of our curators as well.
    The work burden is heavy. But we can do this rationally if 
we receive the help that we are requesting from the committee 
this year.

                            Personnel system

    Senator Feinstein. Now if I understand you correctly, you 
are also reprogramming $400,000 to take a look at the personnel 
system. That is a separate reprogramming?
    Dr. Billington. Yes.
    Senator Feinstein. And that is expected to achieve what in 
your view?
    Dr. Billington. I will let General Scott address that.
    General Scott. Thank you, Senator Feinstein.
    Our personnel system at the Library of Congress is 53 years 
old and we have many provisions which prevent us from hiring in 
a timely manner.
    On average, it takes us about 125 days to get a vacancy 
through the entire process. We would take advantage of this 
opportunity, since we have this window in which we have so many 
people leaving, to examine alternatives to the traditional 
hiring process which would give us greater flexibility in 
direct hire authority. It also could give us the opportunity to 
have pay-per-performance rather than the current system which 
is pay-by-tenure, so to speak.
    The $400,000 that we are asking to be reprogrammed would 
give us the opportunity to have a contingency in the event that 
a fraction of the people that we are talking about choose to 
leave next year.
    The numbers are these: if our current FTE base remains the 
same, about 4,600 employees, 50 percent of that number would be 
over 2,000. If just 10 percent of those retired next year, we 
would be adding over 200 vacancies on top of the normal 125. 
With this money, we could develop a plan for how we will get 
these additional people hired in the event that 10 percent 
decide to go next year?
    The money will also help us to realize pilots to streamline 
the hiring process and improve the classification process, so 
that over the next 2 to 3 year period we could examine, improve 
and implement mechanisms that work, with the end result of a 
new hiring process for the Library of Congress that is both 
flexible and fair.

                        Copyright fees increase

    Senator Feinstein. Thank you very, very much.
    I have just one quick question on the Copyright fee 
increase. You have increased your most frequent fee from $20 to 
$30, a 50 percent increase. Is there much objection to that 
from the Copyright related public?
    Coming from a big intellectual property State, I am just 
curious here.
    Dr. Billington. Ms. Peters will address that.
    Ms. Peters. We went to the Congress to seek help; it passed 
a law which put in place the system that we now have, which 
required the Copyright Office to have outside consultants do a 
cost analysis of all of our fee services.
    The cost analysis for the basic registration fee was $45. 
The legislation also allows us to take into account fairness, 
equity, and the objectives of the system. So basic proposal was 
$45; we had an alternative proposal which would have given a 
subsidy to individual authors. Our ultimate decision, however, 
was $30.
    So I can tell you that most people are happy with the $30, 
compared to the $45.
    Senator Feinstein. Now that's a good way of doing it. 
[Laughter.]
    Ms. Peters. The other thing is that I met with every author 
group before we even made our proposal. The reaction on the 
whole has been rather favorable.
    So we do not expect much objection.
    Senator Feinstein. What you are saying, though, is even at 
the $30 level, that does not really cover costs?
    Ms. Peters. No.
    We went to full cost recovery for all fee services except 
the basic registration fee. Fees will bring in 70 percent of 
the money that it takes to operate the Copyright Office. We 
have programs, such as our policy programs, public information 
programs and the mandatory deposit system which brings material 
into the Library of Congress from people who choose not to 
register their works, that are covered by appropriated funds.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Senator Bennett. Do you have any additional questions?
    Senator Feinstein. No. I think that completes it for me, 
Mr. Chairman. But I would just say that I am the biggest fan of 
both CRS and the Library. I think this is one of the very best 
things the Federal Government does.
    Senator Bennett. I agree absolutely.
    I have one last question. Mr. Mulhollan, you mentioned this 
in your remarks, but I want to get it focused and crystallized.

                concerns of putting CRS products online

    Senator McCain has introduced legislation to require 
posting of CRS products on the Internet. While this bill is 
different from the one introduced to the last Congress, I am 
assuming that you are still concerned about the impact that it 
would have and I would like to give you an opportunity to 
comment on the impact of the new bill so when it comes up on 
the floor or wherever, we will have the benefit of your 
specific comment on the bill issue.
    Mr. Mulhollan. Thank you, Senator.
    Again, I appreciate the compliments inherent in the measure 
and the proposal itself, and the changes it made, one of which 
is to have the CRS material on the Senate website. I do believe 
it intends to try to address some of the legal issues we had 
identified.
    As you recall, speech and debate protections are focused on 
the legislative function, not the informing function. As a 
result, the concern would be that if the wholesale 
dissemination of the Service's products are put up, the courts 
would see us as having an informing function, not focused on 
legislation.
    The Senate Legal Counsel is currently defending CRS against 
a discovery right now in fact. We have always won these 
discoveries, particularly leading with the speech and debate 
protections, and sustained the position that our sole client is 
Congress and that as our work is focused on the Congress, it is 
a legislative function.
    The concern that I have is that the basis of most of those 
works that are distributed to all Members of Congress, is the 
research for the confidential memoranda--there were 2,400 last 
year--and briefings that we did on our research. The risk is 
that underpinning could be exposed and be on a court docket 
under discovery because they would go behind the report to get 
original, and confidential material.
    So that is still a primary concern. So I am looking to 
those measures.
    The Senate Rules and Administration Committee took 
seriously the concerns and sent out a Dear Colleague letter 
last year that urged members and committees to select those 
items that they deemed appropriate for use by their 
constituents and to place them on their Web sites.
    That's fine. CRS products have always been placed in 
committee hearings and submitted for the record, as chosen by 
that Member.
    The concern is not that the selection will not be there but 
the wholesale dissemination of the Service's products. That, I 
think, is a critical role. I believe, as a matter of principle, 
as we discussed last year, it is appropriate for a constituent 
to go to the Senator, whom they elect and for whom they have 
responsibilities, when they have a question on legislation, not 
to an unelected bureaucracy. We serve you and support you on 
those issues.
    Another concern, of course, is the fact, as you very well 
know, that the Legislative Branch is severely constrained in 
funding. We anticipate, as part of the cost estimate, that 
those costs range between $2 million and $7 million, and that, 
in fact, it would represent a shift of focus of scarce 
resources to a public function and away from serving Congress.
    To be perfectly frank, I feel that we are doing our best to 
help Congress with legislation. But I feel that Congress needs 
more help and that, anything that shifts resources away from 
Congress and to serving the public, will diminish our capacity 
to help with the legislative function.
    In addition, over time it may shift our focus. The concern 
is that--and I am someone who pays attention and everyone tries 
to maintain their professional ties--if the products become 
more and more open as public documents, it could shift 
analysts' focus to their association and their professional 
expertise rather than the legislative work at hand and this is 
the focus that we are trying to get for you.
    Senator Bennett. Thank you. I appreciate that and we 
appreciate your frankness last year. I am glad to have an 
update on the legislation this year. I have decided not to co-
sponsor that particular piece of legislation.
    Thank you very much. We appreciate your coming and we will 
do our very best to give you the support you need.
                       GENERAL ACCOUNTING OFFICE

STATEMENT OF DAVID M. WALKER, COMPTROLLER GENERAL OF 
            THE UNITED STATES

                           welcoming remarks

    Senator Bennett. Our second witness is Mr. David Walker, 
Comptroller General of the United States.
    We are delighted to welcome you sir, if for no other 
reason, than that I will no longer have to hear Senator Dorgan 
complain about the fact that the office is still vacant.
    I always joined in those complaints with him. I never 
criticized him because I think his crusade to get that done was 
very well placed.
    We miss Senator Dorgan on the subcommittee. But we are 
delighted you are here. We look forward to hearing your plans 
for the agency. You have been there for all of 6 months. So, 
naturally, you have all of the answers by now. [Laughter.]
    I also want to acknowledge Jim Hinchman. His services as 
Acting Comptroller General during the interim period were very 
much appreciated. He had a difficult job to execute.
    We want you to know, Mr. Hinchman, that the committee 
appreciates your stewardship of the agency during some 
difficult times. When we went through the downsizing experience 
the full burden fell on you.
    Mr. Walker, your agency was in good hands while it was 
waiting for your arrival.
    Mr. Hinchman. Thank you, Mr. Chairman.
    Senator Bennett. The GAO requests $388.9 million for fiscal 
year 2000. As an old retailer, I know the difference in price 
points and the ``.9'' sounds good.
    This is a 9 percent increase over the fiscal year 1999 
level.
    I do want to make one other comment--again, my obsession 
with Y2K problems. The Y2K issue would not be as close to a 
resolution as it is if it were not for the GAO.
    Of all the agencies in the government, the GAO has been the 
most forthcoming, has had the highest level of expertise, and 
the greatest amount of candor than any government agency that 
we have dealt with.
    Wearing my other hat, as chairman of the Senate Committee 
on the Year 2000, I can tell you we would not have been able to 
function without the GAO and without the high level of 
professionalism and honesty that they have brought to that 
challenge.
    So, while we were cutting you back on the one hand, we were 
giving you additional duties on the other, and the agency has 
responded magnificently well.
    Senator Feinstein.
    Senator Feinstein. I think he ought to stop while he is so 
far ahead, Mr. Chairman. Those were very nice comments. 
[Laughter.]
    Mr. Walker. Can I get my pension today, Mr. Chairman? 
[Laughter.]
    Senator Feinstein. Mr. English just mentioned to me that 
this is Mr. Walker's first time here. It might be appropriate 
to put a biographical sketch in the record.
    Senator Bennett. I think that would be appropriate.
    If you could, furnish us with what you think is appropriate 
for the committee. We would appreciate that.
    Mr. Walker. I would be happy to, Mr. Chairman.
    [The information follows:]

                 Biographical Sketch of David M. Walker

    David M. Walker was sworn in on November 9, 1998 at the age 
of 47, as the 7th Comptroller General of the United States in 
the agency's 77-year history. Before coming to GAO, Mr. Walker 
served at Arthur Andersen & Company in Atlanta as a partner and 
global managing director of the firm's human capital services 
practice. Mr. Walker was head of the firm's work in helping 
organizations maximize their investments in human capital. He 
also was in charge of the firm's employee benefit plan audit/
assurance and independent fiduciary/risk management practices, 
and served on the board of Arthur Andersen Financial Advisors. 
His work, international in scope, involved engagements in a 
wide range of public and private sector organizations, 
including government, financial services, institutional funds, 
insurance, transportation, manufacturing, health care, 
professional services, telecommunications, utilities, 
agriculture, defense contracting, retail, real estate, and 
energy. He is a co-author of the recent book ``Delivering on 
the Promise: How to Attract, Manage, and Retain Human 
Capital''; and the author of ``Retirement Security: 
Understanding and Planning Your Financial Future'', published 
in 1997.
    After graduating from Jacksonville University in Florida 
where he earned a B.S. degree in accounting in 1973, Mr. Walker 
who is a CPA and registered investment advisor, worked in 
auditing at Coopers & Lybrand and Price Waterhouse, and in 
regional operations management with Source Services 
Corporation, an international human resources consulting and 
search firm, and Coopers & Lybrand. His 12 years of federal 
experience--from 1983 to 1995--included service as acting head 
of the Pension Benefit Guaranty Corporation, as Assistant 
Secretary of Labor for pension and welfare benefit programs, 
and as a public trustee of the Social Security and Medicare 
trust funds. Mr. Walker has also earned an SMG certificate in 
public policy from Harvard's John F. Kennedy School of 
Government.
    Mr. Walker was born on October 2, 1951 in Birmingham, 
Alabama, was married in 1970 to Mary Etheredge, and is the 
father of two grown children, Carol and Andrew.

    Senator Bennett. He comes from the private sector of 
consulting and accounting. I have forgotten which was your 
firm--Arthur Andersen?
    Mr. Walker. Arthur Andersen most recently and Price 
Waterhouse Coopers previously.
    Senator Bennett. We are delighted to have you here. We 
welcome you. We hope this will always be if not a happy at 
least a somewhat satisfying annual experience for you.

                      highlights of GAO activities

    Mr. Walker. Thank you, Mr. Chairman, Senator Feinstein. It 
is a pleasure to be here.
    As you noted, Mr. Chairman, I am new in the job--4 months 
on the calendar but 6 months on the clock. You were probably 
going by the clock, I would imagine. We have had some fairly 
long hours lately.
    I would like to add my thanks, as well, to your remarks 
about Jim Hinchman. He did an excellent job during the 2-year 
tenure under very difficult circumstances. The appointment 
process dragged on for about 16 months after it got started. It 
went from me being patient to being persistent, to persevering, 
to pain. But, finally, it got done.
    Senator Bennett. Not to panic, of course. [Laughter.]
    Mr. Walker. No, not to panic. I did not get to that point 
or else I would not be here. [Laughter.]
    Mostly it was every other word beginning with ``P'' that I 
can think of, Senator. But, fortunately, it is over and I only 
have to go through it one time in my life. So I am looking 
forward to the next 14 years and 8 months.
    It is truly an honor and a pleasure to be part of the GAO 
team. As you have probably heard me say before, I believe the 
GAO is one of the best, if not the best, agencies in the 
Federal Government and clearly one of the most important.
    As you know, we are a multidisciplinary professional 
services organization. I have headed several multidisciplinary 
professional services organizations before in the private and 
public sectors. I have had two prior presidential appointments 
before taking this third one. I previously served as a public 
trustee of Social Security and Medicare and as Assistant 
Secretary of Labor for ERISA. I also ran the Pension Benefit 
Guaranty Corporation. I ran Arthur Andersen's Human Capital 
Services practice globally and now have responsibility for the 
GAO.
    The Congress is our client. We are a service organization. 
This has to be first and foremost in our mind. We have to be 
client focused. We have a number of initiatives underway to 
enhance our client focus and to support the Congress even 
better than we have in the past.
    We are your front line troops. Quite candidly, Mr. Chairman 
and Senator Feinstein, at a time when there has been 
significant downsizing and we have experienced a 39 percent 
head-count reduction from our peak in 1992 and at a time where 
Congress itself has had a significant downsizing in staff, 
increased staff turnover, and less average tenure on 
Congressional staff. GAO is going to be more important in the 
years ahead in order to put the Congress on a level playing 
field with the Executive Branch, regardless of who is in charge 
of the Executive Branch.
    We are going to be increasingly important.
    Our name is somewhat of a misnomer. We are called the 
``General Accounting Office,'' and that is a challenge because 
when you say ``accounting,'' people tend to stereotype you. But 
the fact of the matter is less than 25 percent of what we do is 
about accounting and auditing.
    Accountability is what we are all about. We do accounting, 
we do auditing, we do investigations, we do program reviews, we 
do policy analysis, we render legal judgments--it is all about 
accountability.
    We are committed to three core values--which I think are 
important to articulate--to serve the Congress and the American 
people. The first is accountability. That is what we do. We 
help the Congress oversee the Executive Branch. We help make 
sure that the government works for the benefit of the American 
people.
    The second is integrity. That is how we do what we do--
professional, objective, fact based, nonpartisan, 
nonideological, fair and balanced.
    Third, reliability, is how we want what we do to be 
received by the Congress--timely, accurate, useful, clear, and 
candid. It's just the facts. We say what we mean, we mean what 
we say, and we try to help the Congress do a better job for the 
American people.
    Our objectives are generally three. First, I think it is 
our job to help the Congress continuously improve the economy, 
efficiency, and effectiveness of the Federal Government for the 
benefit of the American people.
    Second, we want to be a world class organization that leads 
by example. We are the agency that reviews others. It is 
imperative, therefore, that we be as good or better than any 
other agency. Otherwise we would be hypocrites, and I don't 
like being a hypocrite. I won't be a hypocrite.
    Third, working together in a partnership, as we have on Y2K 
and many other areas, we cannot only make a difference in 
economy, efficiency, and effectiveness, but, hopefully, we can 
also help to improve the people's confidence in and respect for 
their government, which I think we would all hope to achieve.
    With regard to our budget request, I am not asking for any 
FTE increases. I believe it would be premature and 
inappropriate to do that. I am only 4 months on the job. I have 
done a lot of due diligence, I have done a lot of work, but I 
need to do more in order to be able to make a considered 
judgment on FTE levels.
    I am asking for some targeted investments to help us 
improve our efficiency and effectiveness in order to increase 
our flexibility such that we can improve our timeliness and 
better serve the Congress, and to understand how best to 
prepare ourselves for the 21st Century. I will touch on those 
in a few minutes.
    As far as results, I think it is important to consider the 
results; 96 percent of our work is Congressionally directed. 
That is up from about 33 percent, when Elmer Staats left in 
1980. About 4 percent is self-initiated now. Our service is 
both to the Majority and Minority.

                          Self-initiated work

    Senator Bennett. Run through those numbers again. You said 
96 percent and that is up from 33 percent.
    Mr. Walker. Right.
    Senator Bennett. Do you mean 33 percent was self-directed 
and now it is down to 4 percent?
    Mr. Walker. Well, actually, about 66 percent was self-
directed when Elmer Staats left in 1980. You are correct and I 
think it is good to clarify it for the record. About 66 percent 
was self-directed in 1980, when Elmer Staats left office, and 
now it is down to 4 percent.
    Senator Bennett. Now it is down to 4 percent. All right.
    Mr. Walker. This is one of the consequences of the 
downsizing, because our mandates are going up, and our 
Congressional requests are going up. But obviously we have 39 
percent less staff. Something has to give. We have improved 
productivity, we have improved efficiency, but what gives is 
self-initiated work.
    I think, importantly, I would like to provide for the 
record, if it is all right, Mr. Chairman, three ``Top Ten'' 
lists that we have put together to try to help the Congress 
understand the benefits of GAO.
    [The information follows:]
                     Top Ten Self-Initiated Topics
Savings and Loan Crisis
    Before the savings and loan situation reached crisis proportions, 
GAO advised the Congress that the thrift industry's problems were not 
just related to a then unfavorable interest rate spread, but that a 
much larger asset quality problem existed. GAO's annual financial 
statement audits of the deposit insurance funds and additional analyses 
of industry and regulatory problems showed that serious internal 
control weaknesses and deficient corporate governance as well as 
weaknesses in the regulatory structure were major factors contributing 
to the failure of thrifts and the subsequent cost to the taxpayers. 
GAO's work contributed to the development of legislation to address 
these identified weaknesses.
Year 2000 Computing Challenge
    In early 1997 GAO alerted the Congress, through its High Risk 
series, to the government's exposure to Year 2000 risks. Working 
closely with the Congress, GAO issued over 70 reports detailing 
specific findings, made over 100 recommendations to agency heads and to 
the President's Council on Year 2000 Conversion to improve readiness 
and produced a set of three essential guides to help domestic and 
international organizations structure programs to confront the problem.
Information Security
    During the last 4 years, GAO has played an instrumental role in 
focusing attention on actions needed to mitigate an alarming and 
increasing array of information security risks. From national security 
to personal privacy, GAO has issued numerous reports identifying 
weaknesses and recommending corrective actions. GAO's reports have 
spurred congressional hearings on the topic, which have clarified the 
issues and set expectations for process and system reforms.
Nuclear Cleanup
    In the early 1980's GAO began sounding the alarm about the 
ineffective safety oversight of the Department of Energy's nuclear 
facilities as well as the massive problems it faced in attempting to 
address the legacy of environmental contamination created by decades of 
nuclear weapons production. GAO also was the first to alert the 
Congress that the cost of cleanup would be over $100 billion--an 
estimate that has now grown to $235 billion.
Medicare
    GAO reported to the Congress that excess payments were being made 
to Medicare home health providers and Medicare HMO's. The home health 
care industry was growing rapidly--from $2.7 billion in 1989 to $17.8 
billion in 1997. During this growth, the government's scrutiny of 
contractors was decreasing. As for the Medicare HMO program, in one 
state alone, GAO identified over $1 billion in excess payments. The 
Congress spurred partially by such reports enacted the 1997 Balanced 
Budget Act provisions to curtail excess payments for such services.
DOD Purchasing and Inventory
    Knowing that many of the Department of Defense's purchasing and 
inventory management goals were not dissimilar from private industry's, 
GAO devised a methodology to match DOD's practices against the best 
practices of industry and to demonstrate in its reports and testimonies 
better ways of doing business. In the inventory area the work has 
produced budgetary savings, legislative actions and improvements in 
DOD's operations. With regard to purchasing, top DOD management has 
incorporated GAO's recommendations into its own ``acquisition reform'' 
initiatives.
Food Safety
    In 1992, GAO started a series of reviews that have highlighted 
fundamental weaknesses in government systems to ensure food safety. 
First, GAO pointed out that the poultry and meat inspection system 
which had been designed around the turn of the century to protect 
against health threats from diseased animals was no longer effective, 
hampered by inflexible legal requirements and outdated, labor intensive 
inspection methods. GAO also reported that testing for chemicals in 
food products could not detect or prevent contaminated food from 
entering the food supply. Since then a new approach to food safety 
regulation has been adopted that requires a scientific monitoring 
system and microbial testing for overall sanitary conditions.
Reengineering IRS
    IRS collects $1.7 trillion a year to fund the federal government 
and likely has more interactions with the American public than any 
other government agency. GAO has, over many years, expressed concerns 
over management weaknesses at IRS and how those weaknesses are 
manifested in the treatment of taxpayers. In fact, 70 GAO reports were 
cited in the 1997 Report of the National Commission on Restructuring 
the IRS that led the way for the Restructuring and Reform Act of 1998 
which promises improvements in IRS' internal management and computer 
modernization as well as the treatment of taxpayers.
Aviation Safety and Security
    From air traffic control to aircraft maintenance to airport 
security, GAO has brought the need for improvements to the Congress' 
attention. GAO's report and testimony in the wake of the Valujet 
tragedy contributed to the Federal Aviation Administration's decision 
to make oversight of new airlines a top priority. GAO's testimony on 
foreign aircraft repair stations influenced the Congress to retain 
FAA's ability to certify and oversee these stations. In 1996 GAO 
recommendations led to legislation that required new security measures 
and require periodic reports to the Congress from FAA on the progress 
and efforts to improve aviation security.
Children's Healthcare
    Beginning in 1994, GAO began assessing the health insurance status 
of children and state programs aimed at expanding coverage for low-
income children. GAO issued numerous reports and testified on the 
issues that resulted in widely quoted analyses documenting the failure 
to enroll almost 3.4 million eligible children into Medicaid. 
Subsequently, the Congress and the Administration enacted the state 
Children's Health Insurance Program. This is the largest health program 
implemented since Medicare and Medicaid and is funded at a level to 
reach about half the nation's estimated 9 to 11.6 million uninsured 
children.
           Top Ten Fiscal Year 1998 Financial Accomplishments
HUD Reserves
    Based on GAO's testimony, Congress rescinded $3.65 billion from 
HUD's assisted housing program because the large project reserves for 
section 8 housing far exceeded needs.
DOE Fund Management
    GAO recommended that DOE develop a more effective methodology for 
analyzing its unneeded funds. As a result, DOE identified about $1.8 
billion in excess funds.
F-22 Fighter
    GAO concluded that DOD planned to begin purchasing F-22 fighters 
before they had demonstrated that the aircraft would operate 
successfully. DOD subsequently delayed its plans to begin purchasing 
thereby eliminating 22 F-22 fighters and reducing the program requests 
for fiscal years 1998 and 1999 by about $1.6 billion.
Disability Benefits
    To ensure that only the truly disabled were receiving benefits, GAO 
recommended that the Social Security Administration (SSA) increase its 
reviews of disability cases to identify person who, because of their 
current health condition or work status, were no longer eligible for 
benefits. In response, legislation was enacted that increased the 
number of reviews, and these additional reviews resulted in benefit 
terminations that saved the government about $1.5 billion over a two-
year period.
IRS Tax Systems
    GAO recommended that IRS should restructure its Tax Systems 
Modernization program to address management and technical weaknesses 
and that the Congress limit funding until improvements are implemented. 
IRS is in the process of restructuring and funding was reduced by about 
$1.1 billion.
F/A-18 Aircraft
    GAO's analysis showed that, for its cost, a new version of the F/A-
18 aircraft offered only marginal operational improvement over existing 
versions. In response, DOD reduced its plan buy from 1,000 to 548 
aircraft, which reduced costs by about $1.02 billion in fiscal years 
1998 and 1999.
DOE Budget
    GAO suggested, as a result of its budget scrub work, that the 
Congress reduce portions of the Department of Energy's (DOE) request 
for its Environmental Management program; Congress reduced DOE's 
funding by about $773.9 million.
Medicaid Drug Costs
    GAO recommended to the Health Care Financing Administration that 
drug costs in the Medicaid program could be reduced if states installed 
automated systems to identify, prospectively, inappropriate 
prescriptions as well as those that could have adverse reactions. 
Estimated cost savings from implementing this suggestion totaled about 
$668 million fiscal years 1998 and 1999.
Superfund Contract Funds
    GAO recognized that the Environmental Protection Agency was not 
recovering and using funds from Superfund contracts that were no longer 
needed. In addition, GAO informed the Congress that EPA was not using 
recent and more conservative data for estimating its budget needs. 
Congress did not provide the requested $650 million.
Medicare Oxygen Cost
    GAO learned that Medicare payments for home oxygen were more 
generous than home oxygen payments made by the Veterans Administration. 
As a result, Congress reduced Medicare rates for home oxygen by 25 
percent in fiscal year 1998 and an additional 5 percent in fiscal year 
1999, reducing costs over a two-year period by about $633 million.
         Top Ten Fiscal Year 1998 Non-Financial Accomplishments
Surface Transportation Act
    The Intermodal Surface Transportation Efficiency Act expired at the 
end of fiscal year 1997. GAO's analyses and testimony in November of 
1997 showed that individual states lacked sufficient funds to continue 
planned highway projects. Congress acted quickly and subsequently, on 
December 1, 1997 the President signed the Surface Transportation Act 
Extension that provided the needed funding.
Competitive Contracting
    For several years GAO had reported that despite DOE's policy to use 
competitive contracting procedures, limited competition actually 
occurred. In response, Congress--as part of the fiscal year 1998 
appropriations act for DOE--precluded DOE from using appropriations for 
contracts that were not competed except in very limited circumstances.
IRS Computer Security
    GAO summarized the computer security weaknesses identified at five 
IRS facilities that put critical federal operations and assets at risk. 
In response, IRS not only mitigated many of the risks associated with 
those facilities, but also responded to GAO's recommendations for 
entity-wide security management. IRS centralized the responsibility for 
security and privacy issues in an office charged with establishing and 
enforcing standards and policies for all major security programs 
including, but not limited to physical, data, and systems security.
Year 2000
    To help federal agencies mitigate Year 2000 risks, GAO produced 
guides on business continuity and contingency planning and on testing. 
These guides are being used by the executive branch and are the 
foundation for Year 2000 business continuity and contingency planning 
and testing, which are critical elements to addressing this urgent 
computing challenge. These guides are also being widely used in the 
private sector and by other governments. In addition, GAO's reports and 
testimonies on Year 2000 readiness have included dozens of 
recommendations that have been adopted. For example, the President's 
Council on Year 2000 Conversion, in response to GAO's recommendation, 
adopted a sector-based focus to increase awareness and has begun 
developing a national assessment.
Defective Parts
    In 1994 and again in 1998, GAO found that DOD was selling excess 
aircraft parts that were defective and could cause flight safety 
problems. In response, DOD established a program and has identified 
over 20,000 such items. These defective items are now sold as scrap.
Cooperative Threat Reduction Program
    The United States had agreed--as part of the Cooperative Threat 
Reduction Program--to contribute funds for the construction of 
facilities in Russia to destroy chemical weapons. GAO had reported 
that, not only was the U.S. portion of the construction costs 
uncertain, but, despite U.S. funding, the U.S. did not have inspection 
rights. In response, Congress included language in the 1998 Defense 
Authorization Act limiting U.S. contributions and requiring such 
inspection access.
Health Care Financing
    GAO reported that DOD had incorrectly billed the Health Care 
Financing Administration (HCFA) for facilities' services provided to 
Medicare-eligible persons. The facilities are paid by the Defense 
Department for such services and are not supposed to bill Medicare. In 
response, DOD and HCFA have undertaken joint actions to preclude this 
from happening again.
Employment Training
    GAO identified 163 federal employment-training programs and found 
that many provided similar services to similar target groups. Specific 
differences among the programs' funding cycles and eligibility 
requirements hampered officials in providing needed services. Using 
GAO's work, the Workforce Investment Act of 1998 overhauled the 
structure of these programs and established 3 target groups and funding 
streams: youth, adults, and dislocated workers.
Financial Derivatives
    GAO recommended that financial regulators improve their oversight 
of all major over-the-counter derivative dealers. The securities and 
futures regulators worked with major U.S. securities firms and 
developed a voluntary self-regulatory framework-consistent with the 
intent of GAO's recommendations-for derivative activities.
Employee Buy-outs
    GAO's analyses of the government's use of buy-outs for reducing the 
workforce identified areas for improvement. More specifically, GAO 
recommended that agencies conduct strategic and work force planning 
prior to receiving the buyout authority. Congress subsequently passed 
legislation that incorporated the intent of this recommendation.

                          benefits of GAO work

    Mr. Walker. One of those lists is our Top Ten list of self-
initiated work--things like the savings and loan crisis, Y2K, 
and other issues that will resonate with both of you that 
started out as GAO self-initiated work. Fortunately, leaders 
like you and others picked up the ball, ran with it, and made a 
difference. But my concern is if we don't have some reasonable 
flexibility to do self-initiated work, who is going to be 
looking at the horizon and beyond?
    Realistically, the Congress tends to be focused on more 
immediate concerns and for understandable reasons. But somebody 
has to be focused on the horizon and beyond before issues 
become crises, and if not GAO, then who?
    So we are going to try to do what we can to improve our 
efficiency, but also to try to get some additional flexibility 
to do a little bit more self-initiated work.
    On our return on investment in fiscal year 1998, we had $58 
in financial benefits for every dollar invested in GAO. The 
average return on investment for the last 6 years has been $52 
for every dollar invested.
    I have had a significant amount of activity ongoing in the 
last 4 months--a new strategic planning process; an outreach 
effort with the Congress in order to understand what we are 
doing well, what we could do better, and how we might be able 
to address those concerns; and a variety of other issues that 
are noted in my testimony.
    I think it is important, Mr. Chairman, to note that the 
strategic investments that we are asking for are in several 
areas. One is human capital. We are a people business. We are a 
professional services organization; 81 percent of our 
expenditures relate to people.
    We are experiencing similar challenges to what were 
mentioned by the Library of Congress and CRS. About 50 percent 
of our Senior Executive Service will be eligible to retire by 
the year 2004. About 30 percent of our evaluators and auditors 
and investigators will be eligible to retire by the year 2004.
    We had a 5-year hiring freeze. We had to impose this hiring 
freeze in order to make the drastic cuts that were necessary to 
come in line with our reduced budget levels.
    That has left a gap in the pipeline with regard to 
experience that we have just now started to begin filling 
within available resources. We have to take a hard look at 
recruiting and succession planning, and we are doing that.
    This is because people are our intellectual capital. We 
provide intellectual capital for the Congress, we provide 
intellectual capital for the Nation. It is critical that we do 
that.
    We are asking to be put on a level playing field with the 
Executive Branch for performance rewards. Both of you know that 
we cannot compete with the private sector for compensation. We 
just hope that we can continue to attract bright and dedicated 
people who want to serve their country and make a difference. 
It is getting tougher, frankly. But, fortunately, there are 
still those out there who will do it.
    We cannot expect to compete with the private sector on 
money, but we need at least to be able to compete with the 
Executive Branch. Right now, we are in a situation where we 
cannot compete with the Executive Branch because our 
performance reward system is not adequately funded.
    Therefore, we need to get at least on a level playing field 
with the Executive Branch because we are the best recruiting 
source for the Executive Branch. For example, many of the IG's 
and the CFO's came from GAO. It is not that we don't want to 
contribute, we do. But we don't want to have a fundamental 
disadvantage to see our people leaving because of economics 
within the government.
    We need to undertake a strategic assessment of our human 
capital policies and programs to better align our performance 
and management reward systems with our strategic plan, to look 
at the issues of recruiting, succession planning, and training. 
Training is an area where we need additional targeted 
investment.
    Information technology is important, Mr. Chairman. As you 
know, we have worked with you on the Y2K issue. We want to make 
sure we are not going to have a problem on Y2K. As a result, 
there is a small targeted amount that we are asking for in 
conjunction with laptops in order to help deal with that 
situation.
    Then last, but not least, are work processes. With regard 
to work processes, every 5 years I believe any organization 
needs to take a hard look at its work processes to reengineer 
them, to try to achieve a better balance between quality, 
economy, efficiency, and timeliness.
    We need to do that, in part to try to get that 4 percent 
self-initiated work up to a more reasonable level of about 15 
percent. But, in part, quite frankly, it is to improve our 
timeliness and responsiveness.
    There is one last thing, Mr. Chairman, which is travel.
    More and more of our work is requiring us to go overseas: 
the World Bank, IMF, nuclear activities in Russia--just to give 
you three examples. We need some supplementation to be able to 
meet the desires and needs of the Congress to address these 
issues and the changing global environment.

                           prepared statement

    Mr. Chairman, Senator Feinstein, that concludes my prepared 
remarks and I would be most pleased to answer any questions 
that you might have.
    [The statement follows:]
                 Prepared Statement of David M. Walker
    Mr. Chairman and Members of the Subcommittee: It is a great 
pleasure for me to appear before you today as the Comptroller General 
of the United States. I am delighted and honored to be a member of the 
General Accounting Office (GAO) team.
    GAO has consistently been viewed as one of the most respected 
agencies in the federal government. It provides the Congress and the 
American people with timely, accurate, clear, candid, and useful 
information on current, emerging, and longer-range government 
operational and program issues. GAO is a multi-disciplinary, 
professional service organization that helps the Congress fulfill its 
oversight responsibilities. Compared to private sector professional 
service organizations, GAO's work is more diverse, more complex, and 
more important, because we are doing the people's work. In addition, 
while many organizations may assert their ability to do some of the 
audit evaluation and analytical work that GAO does, they cannot come 
close to the level of independence, diversity of skills or years of 
institutional knowledge of GAO. In fact, GAO is a brand name that is 
recognized and valued not only in the United States but also around the 
world.
        gao: committed to accountability, integrity, reliability
    GAO is dedicated to ``good government'' through its commitment to 
three core values: accountability, integrity, and reliability. These 
core values describe what we do, how we do it, and how we want it to be 
received.
    Accountability describes the nature of GAO's work. GAO helps the 
Congress oversee federal programs and operations to assure 
accountability to the American people. GAO's evaluators, auditors, 
lawyers, economists, public policy analysts, information technology 
specialists, and other multi-disciplinary professionals seek to enhance 
the economy, efficiency, effectiveness, and credibility of the federal 
government, both in fact and in the eyes of the American public. GAO 
accomplishes its mission through a variety of activities that include 
financial audits, program reviews, investigations, legal support, and 
policy and program analyses.
    Integrity describes the high standards that GAO sets for itself in 
the conduct of its work. GAO takes a professional, objective, fact-
based, non-partisan, non-ideological, fair, and balanced approach to 
all of its activities. Integrity is the foundation of reputation, and 
GAO's approach to its work assures both.
    Reliability describes GAO's goal for how its work is viewed by the 
Congress and the American public. GAO produces high quality reports, 
testimony, briefings, legal opinions, and other products and services 
that are timely, accurate, useful, clear, and candid.
                             goals for gao
    I have three primary goals for GAO. First, I believe that GAO 
should be a world-class organization, one that leads by example. In 
every major operational area, from strategic planning to financial 
affairs, information technology, human capital practices, and client 
service, GAO should be the federal government's model for best 
practices. We are the agency that reviews others. As a result, we must 
lead by example. Second, I believe that GAO is fundamentally about 
``good government,'' and that GAO should play a major role in helping 
to continuously improve the economy, efficiency, effectiveness, 
accountability, and integrity of the federal government. Third, I 
believe that what Americans think of their government and of their 
public servants is important, and that one goal of GAO's activities 
should be to improve the public's respect for and confidence in their 
government.
         gao today: service to the congress and american people
    GAO provides an invaluable service to the Congress and the American 
people. It makes significant contributions to congressional oversight 
and decision making. As illustrated below, over the past 7 years, the 
percentage of GAO's audit work conducted at the direction of the 
Congress has increased.
[GRAPHIC] [TIFF OMITTED] T08MA17.003


    In fiscal year 1992, about 82 percent of GAO's audit work was 
conducted for a congressional committee, member of the Congress, or 
legislative mandate; the comparable figure in fiscal year 1998 was 96 
percent. Of particular note during this period is the almost three-fold 
increase in audit time spent on congressionally mandated reviews. 
Having such a large proportion of GAO's work congressionally directed, 
however, limits our flexibility in initiating program reviews under 
GAO's basic legislative authority. Much of this work is frequently 
requested by congressional committees having jurisdiction over the 
issues under review. These self-initiated reviews have contributed 
significantly to helping the Congress identify and address important 
emerging and longer-term national issues. For example, in 1990, GAO 
began work on its biennial ``High Risk'' series that has helped shed 
light and focus attention on problems related to government operations 
at greatest risk of fraud, abuse, waste and mismanagement and the 
billions of dollars that are at stake. GAO also fulfills other 
important functions, such as issuing government auditing and financial 
management standards for all levels of government entities and legal 
decisions on matters involving government revenues and expenditures.
    As I stated previously, GAO's work must be, among other things, 
non-partisan and non-ideological. As illustrated in the following 
graphic, GAO has continuously honored the requests of the majority and 
minority parties of the Congress over this 7-year period, regardless of 
who was in power. The American people will decide who the majority and 
minority parties are, but we must serve both. At the same time, the 
majority party, whichever party that is, will obviously command greater 
resources from GAO, since with majority status comes the responsibility 
for setting the legislative agenda. At the same time, the minority 
party, whichever party that is, must have access to some GAO resources. 
In addition, we hope to encourage more bipartisan and bicameral 
requests on issues of mutual interest and concern.
[GRAPHIC] [TIFF OMITTED] T08MA17.004

Return on Investment
    GAO provides significant financial benefits in return for the 
dollars that the Congress and the American people invest in it. In 
fiscal year 1998, for every dollar invested in GAO, the American people 
received a financial benefit of $58. For example, the Congress 
rescinded $3.65 billion in funding for assisted housing programs as a 
result of GAO studies showing that large project reserves for Section 8 
housing far exceeded needs. As illustrated in the following table, the 
return on the investment in GAO has averaged over $20 billion over the 
last 7-year period.

      FINANCIAL RETURN ON INVESTMENT IN GAO (FISCAL YEAR 1992-1998)
------------------------------------------------------------------------
                                             Financial
                                             Benefits      Benefits per
               Fiscal year                  (Dollars in       Dollar
                                             millions)     Appropriated
------------------------------------------------------------------------
1992....................................         $36,191             $82
1993....................................          14,529              33
1994....................................          19,456              45
1995....................................          15,831              36
1996....................................          17,265              46
1997....................................          20,935              63
1998....................................          19,716              58
                                         -------------------------------
      Average...........................          20,560              52
------------------------------------------------------------------------

    In addition to these financial benefits, GAO's work resulted in or 
contributed to numerous improvements in the efficiency and 
effectiveness of government operations and services, thereby enhancing 
taxpayers' confidence and trust in their government. For example, to 
help federal agencies mitigate Year 2000 risks--an issue that has been 
of particular interest to you, Mr. Chairman--in 1998, GAO produced 
guides on business continuity and contingency planning and on testing. 
The executive branch, the private sector, and other governments both in 
the U.S. and around the world are using these guides, and many of GAO's 
recommendations on Y2K issues have been adopted.
         opportunities to enhance gao services to the congress
    In the short time that I have been in office, I have discovered 
that GAO has done a lot of things right over the past years. But I also 
believe in continuous improvement and in leading by example. Based on 
information gathered during my nomination and confirmation process, 
meetings with congressional members and GAO's senior management team, 
and visits to GAO headquarters and field offices, I have identified a 
number of areas in which I believe that GAO can strengthen its services 
to the Congress and the American people. Let me share with you some of 
my preliminary observations and how I plan to go about addressing them.
Actions Initiated Thus Far
    During this fiscal year, I am taking a number of actions to enhance 
GAO's operations and services to the Congress. I have already begun to 
implement a new strategic planning process, which will be completed 
before the end of the year, if not sooner. We will be taking a broader, 
thematic look at the issues facing the government and the nation, while 
employing a multi-dimensional matrix management approach for addressing 
these issues. My goal is to take advantage of GAO's strength as a 
multi-disciplinary professional services organization and build a body 
of work to help the Congress deal with these emerging issues in a 
timely fashion, before they become crises.
    I am also taking steps to enhance GAO's interface with its client--
the Congress. GAO must make sure it has clearly defined, transparent, 
and consistent guidelines governing our relations with the Congress, no 
matter which party is the majority and which is the minority. By the 
end of this year, I also plan to have a program in place for gauging, 
through direct contact with congressional leaders and members, the 
level of satisfaction with GAO's products and services. I personally 
will meet at least annually with the top congressional leaders, and 
other top GAO executives will meet with key committee leaders.
    Last, I also am instituting a matrix management approach to how GAO 
does its work. Matrix management means taking an integrated approach to 
mission accomplishment, transcending the boundaries among 
organizational components and functions, so that the capacity of the 
whole will exceed that of its parts. The issues with which the Congress 
must contend are often multidimensional and cross-cutting, and the 
questions coming GAO's way will be increasingly diverse, complex, and 
demanding. Matrix management is a key to helping the Congress find 
integrated solutions to the complex issues facing the nation. 
Importantly, GAO is a major asset to the Congress in this regard, since 
it is one of the most, if not the most, diverse and experienced 
professional services firm on earth. In addition, all GAO professionals 
are dedicated public servants who put the interests of the Congress, 
the nation, and the American people ahead of their own personal 
interests.
Longer-Term Actions
    Because of the important role that it has in government, GAO needs 
to be a strong, well-managed organization that sets the standard for 
``good government'' and leads by example. However, as a result of 
actions taken to achieve its recent downsizing, GAO is facing several 
immediate human capital, technology, and work process challenges that 
must be addressed. At the same time, each of these areas needs an in-
depth study to determine the best course of action over the longer-term 
before any major changes or new investments are made. After all, we 
must make sure that we are getting the most from our current resource 
allocation before we ask for more.
    GAO's past 7 years.--In 1992, GAO began its downsizing efforts with 
the implementation of a hiring freeze. This was soon followed by a 
1995, congressionally mandated, 25-percent nominal funding reduction 
over 2 years. This funding reduction, however, did not take into 
account uncontrollable inflation and mandatory pay increases, and 
separation costs for staff leaving GAO service. As a result, GAO had to 
take dramatic actions to achieve the mandated funding reduction in such 
a short time period, which ultimately resulted in a much larger 
reduction in staff than contemplated. It instituted a reduction-in-
force; closed regional offices; imposed a 5-year hiring freeze; 
eliminated performance rewards; curtailed technology investments; and 
reduced travel, training, supplies, and other support costs to achieve 
the overall mandated reduction in spending. GAO is now facing a number 
of critical human capital, information technology, and work process 
challenges that it needs to address.
    GAO is a much smaller organization today than it was in 1992. 
During the 7-year downsizing period, GAO's full-time equivalent (FTE) 
staffing level was reduced by 39 percent. As illustrated below, GAO had 
a staffing level of 5,325 FTE's in fiscal year 1992. By fiscal year 
1998, its staffing level was reduced to 3,245 FTE's.
[GRAPHIC] [TIFF OMITTED] T08MA17.005


    During its downsizing, GAO reduced the number of its field offices 
from 30 in fiscal year 1992 to 16 locations today. This reduction 
included closing 4 major field offices, 8 sublocations, and 2 overseas 
offices, as illustrated in the following graphic.
[GRAPHIC] [TIFF OMITTED] T08MA17.006


    While GAO has recently begun taking steps toward reinvigorating its 
organization and workforce following the downsizing period, I believe a 
number of things need to be addressed to make GAO as strong as it needs 
to be to effectively and efficiently fulfill its mission and serve the 
needs of the Congress and the American people. The following represent 
some of the key human capital, technology, and work process issues that 
GAO faces today.
    Human capital issues.--Human capital is GAO's most important asset. 
As illustrated in the following graphic, over 80 percent of its 
resources are devoted to its workforce in the form of compensation, 
benefits, rewards, and training. As outlined below, a number of GAO's 
human capital programs have been detrimentally affected by its past 
downsizing. A top priority of my tenure at GAO, as well as an area of 
review for GAO in the rest of government, will be human capital issues. 
No organization can maximize its economy, efficiency, and effectiveness 
without assuring the appropriateness and effectiveness of its human 
capital (people) strategies. This is especially true in the case of 
professional service organizations.
[GRAPHIC] [TIFF OMITTED] T08MA17.007


    As illustrated in the following graphic, GAO's hiring freeze lasted 
5 years before it was completely lifted at the beginning of fiscal year 
1998. Until 1998, its separations far exceeded its new hires.
[GRAPHIC] [TIFF OMITTED] T08MA17.008


    The 5-year hiring freeze has had several significant effects on 
GAO's workforce composition and its ability to recruit and retain high 
caliber, skilled staff. First, as illustrated in the following graphic, 
GAO's median age increased from 41 in fiscal year 1992 to 47 today.
[GRAPHIC] [TIFF OMITTED] T08MA17.009


    As a consequence, the percentage of GAO staff eligible for 
retirement is also steadily increasing. About 33 percent of GAO's 
current staff will be eligible for retirement by the end of fiscal year 
2004. This represents a four-fold increase from today and poses a major 
challenge for the agency. As illustrated in the following graphic, 
almost 60 percent of GAO's current SES and more than one-third of its 
current evaluator and related staff will reach retirement age by the 
year 2004. This also represents an approximate four-fold increase from 
current eligibility levels.
[GRAPHIC] [TIFF OMITTED] T08MA17.010


    In addition to these workforce-aging issues, GAO's compensation 
package is not on a level comparable to that of the executive branch. 
To help achieve its mandated funding reduction, GAO eliminated its 
performance rewards and recognition programs in fiscal year 1993. As a 
result, GAO has been on an uneven playing field with the executive 
branch in its ability to recruit and retain high caliber and skilled 
staff. Last year, GAO lost more than 50 experienced staff to other 
federal agencies, 20 percent of who were management. GAO also has been 
losing staff to the private sector, such as CPA and other professional 
firms. GAO recently implemented a new performance awards program in 
fiscal year 1998. However, this program is only modestly funded, and we 
need to quickly return to a level playing field with the executive 
branch.
    Training is another key issue that GAO and its staff have been 
facing. As illustrated in the following graphic, the amount of 
resources devoted to external training for GAO's staff has declined 
over the past 7 years. While GAO also conducts internal training 
courses, due to the diversity of the skills, knowledge, and technology 
needed by our workforce, we must supplement this internal training with 
selected external technical and specialty training. This is 
particularly important for individuals who need to maintain 
professional certifications in their chosen field.
[GRAPHIC] [TIFF OMITTED] T08MA17.011


    World-class professional service organizations similar to GAO's 
multi-discipline workforce invest nearly 6 percent of their budgets in 
training staff. When staff time and other overhead costs for training 
are included, GAO's total investment in training its staff was less 
than 4 percent in fiscal year 1998. For GAO to continue providing 
timely and high quality service to the Congress, it needs to conduct a 
comprehensive reassessment of its workforce skills and invest greater 
resources in training its staff. One specific area in which GAO needs 
to increase staff training is the use of the new technology and 
software application packages that are being implemented throughout the 
organization.
    Technology issues.--GAO is on target for ensuring that its systems 
are Year 2000 compliant. As of December 31, 1998, GAO had completed 97 
percent of the renovation--conversion, replacement, or retirement--
phase of its 28 mission critical systems. GAO expects to complete the 
renovations and validations of these systems by the end of March 1999. 
GAO's recent upgrade of its desktop and network hardware and software 
platforms ensures that these systems are Y2K compliant as well.
    As illustrated in the following graphic, from fiscal years 1992 to 
1995, GAO made major technology investments to improve the efficiency 
and effectiveness of its mission-related operations. However, beginning 
in fiscal year 1996, GAO had to significantly reduce these investments 
to help achieve the 1995 mandated funding reduction.
[GRAPHIC] [TIFF OMITTED] T08MA17.012


    Additional resources are now needed to address some immediate and 
continuing critical information technology needs. One short-term 
priority will be to replace non-Y2K compliant laptop computers and 
software packages that are no longer vendor-supported. In addition, the 
agency needs to embark on a comprehensive review of its overall 
information technology strategy, with an eye toward striking a balance 
between wants, needs, and affordability.
    Work Processes.--Over the past several years, GAO made substantial 
changes to its work processes and significantly improved the way it 
conducts its work. As a result, the timeliness and average costs of its 
reviews have improved. However, GAO must be open to continuous 
improvement to strike an appropriate balance between timeliness and 
quality and other factors in light of constrained resources and reduced 
flexibility. I believe that a comprehensive reassessment of such 
processes should be conducted every 3 to 5 years, with other 
enhancements being made continuously. Thus, a comprehensive review is 
planned after GAO's strategic planning process is completed.
                    fiscal year 2000 budget request
    Let me move on to the specifics of GAO's fiscal year 2000 budget 
request for $388,948,000. I am committed to making GAO as economical, 
efficient, and effective in its operations as possible. GAO needs to 
take a long-term look at what it needs to maintain its effectiveness in 
an environment of scarce resources. With your support, I will conduct a 
comprehensive review of GAO's needs and resources over the next year.
    In the meantime, for fiscal year 2000, I am not seeking additional 
staff above our fiscal year 1999 funded level of 3,275 FTE's or funding 
for any major new initiatives. I am requesting funds to permit GAO to 
maintain its current operations, while adding a few modest increases to 
address several critical existing programs that have not been 
adequately funded over the past few years.
    The funding level increase I am requesting provides for the 
following:
    Uncontrollable Mandatory Costs.--$24,874,000 is needed to cover 
uncontrollable mandatory costs. Of this amount, $17,589,000 is needed 
to cover mandatory pay and benefits increases resulting primarily from 
federal cost-of-living and locality pay adjustments, and increased 
participation in the FERS retirement system. In addition, $7,285,000 is 
being requested to offset uncontrollable reductions in GAO's fiscal 
year 1999 appropriation base. This amount consists of $6,685,000 that 
was transferred to GAO in fiscal year 1998 to meet fiscal year 1999 
needs, which will not be available in fiscal year 2000, and $600,000 
for anticipated declines in reimbursements for GAO audits of government 
corporations.
    Uncontrollable Costs for Inflation.--$1,081,000 is requested to 
cover uncontrollable price-level increases in transportation, lodging, 
printing, supplies, contracts, and other essential mission support 
services, based on OMB's 2-percent inflation index.
    Critical Needs.--To help GAO get back on track following its 
downsizing, $6,825,000 is requested for several critical human capital, 
work process reengineering, travel, and information technology needs. 
Additional details about each of these follow.
  --Human capital.--$2,500,000 is being requested to permit GAO to 
        administer its performance awards for both SES and non-SES 
        staff at a level comparable to that of the executive branch to 
        help ensure our ability to attract and retain top quality staff 
        with specialized skills. GAO also is requesting $750,000 to 
        increase training for its staff to maximize their use of new 
        technology and software application packages that are being 
        implemented. In addition, during the upcoming year, we plan to 
        begin conducting a comprehensive review of our human capital 
        policies, practices, utilization, and needs. It is expected 
        that this study will identify some important new initiatives, 
        and $500,000 is being requested to provide contract and other 
        support for the study and to develop the initiatives.
  --Work process reengineering.--$500,000 is being requested to 
        reengineer GAO's work processes to increase its responsiveness 
        to and interface with the Congress and enhance the quality, 
        timeliness, efficiency, and usefulness of its products and 
        services.
  --Travel.--$875,000 is being requested to meet increased demands for 
        travel, particularly foreign travel, that is necessary as a 
        result of recent congressionally mandated reviews and overseas 
        office closures during GAO's downsizing. These mandates include 
        reviews of such issues as the International Monetary Fund, 
        international Y2K readiness, nuclear weapon arsenals, and war 
        zone reviews in the Balkans and Middle East.
  --Information technology.--$1.7 million is being requested to support 
        several critical information technology needs. Of this amount, 
        $1 million is needed to fund essential fiscal year 2000 needs, 
        including replacing non-Y2K compliant laptop computers and 
        printers, and upgrading outdated system software that is no 
        longer vendor-supported. Also, $200,000 is needed to develop 
        and implement an information technology disaster recovery 
        process. Similar to its human capital study, GAO also plans to 
        conduct a comprehensive review of its information technology 
        during the next year. Thus, $500,000 is requested to provide 
        contractor and other needed support to conduct this 
        comprehensive review and begin developing initiatives that the 
        review will identify.
                           concluding remarks
    Former Comptroller General Charles A. Bowsher and Acting 
Comptroller General James F. Hinchman did an exceptional job in leading 
and steering GAO through several difficult years. As I have stated 
previously, I have inherited one of the best agencies in the federal 
government. At the same time, there is always room for improvement, and 
improvement must be continuous in these challenging times.
    GAO needs to lead by example and maximize its capacity in an 
environment of limited resources. To accomplish this objective, GAO 
needs to make several targeted and strategic investments in human 
capital (e.g., training, performance measurement and rewards systems) 
and information technology to help its employees ``work smarter.'' The 
dollars that I am seeking will help GAO begin addressing some of these 
critical needs and remain competitive in recruiting and retaining high 
caliber and skilled staff. In addition, these funds will help GAO gain 
a better understanding of its human capital, work processes, and 
technology needs and identify the best and most economical and 
effective course of action to pursue to address them in the years 
ahead.
    GAO needs the dollars that I am requesting to effectively 
transition into the 21st century and to continue providing the valuable 
service that we have so traditionally provided the Congress and the 
American people. The actions taken to achieve the mandated spending 
reductions have left little flexibility in our budget to make the 
needed enhancements that I believe are critical to maintaining GAO as a 
strong, effective, and viable operation into the next century. I 
respectfully request your support of our fiscal year 2000 budget 
request.
    This concludes my statement. I would be pleased to answer any 
questions the Members of the Subcommittee may have.

                             Travel request

    Senator Bennett. Thank you very much.
    As I look over at the list of questions that we prepared, I 
think you covered virtually all of them in your opening 
statement. So I will turn to Senator Feinstein while I look for 
something else. [Laughter.]
    Senator Feinstein. You know, Mr. Chairman, when I was mayor 
and I did the budget every year, I would always go immediately 
to the department's travel budget because it always was sort of 
interesting to see. This is the first time since I have been 
Ranking on this committee that I see travel at $875,000.
    Mr. Walker. Do you mean as far as the request? Is that what 
you are saying?
    Senator Feinstein. Yes.
    Why is it so high?
    Mr. Walker. The reason it is so high is, number one, we 
have reduced the number of field offices that we have from 40 
to 16. We have closed all of our offices overseas as part of 
the downsizing. We used to have an office in Frankfurt to be 
able to deal with European issues. We used to have an office in 
Hawaii to deal with Asian issues. Those have all been closed. 
So, as a result, we have to travel more just to be able to 
cover the same types of issues that we otherwise would have.
    Second, the nature of the requests, Senator, that we have 
been receiving in recent years have really been more 
international in scope, for example what is going on in Bosnia, 
changes in Europe, the financial crisis in Asia, World Bank and 
IMF activities among other things. What about the mass transit 
systems in Europe and whether they might serve as a model for 
what we might need to look at here?
    So, as a result, to meet the needs of the Congress and, 
given our reduced number of offices and locations, we have to 
travel more.
    Senator Feinstein. Just for fun, can I get a breakdown of 
these travel plans, please, as well as last year's?
    Mr. Walker. Absolutely, Senator. We will work with you on 
how much detail you are looking for.
    Senator Feinstein. Just how it was spent.
    Mr. Walker. Sure, we would be happy to do that.
    Senator Feinstein. And how you plan on spending this.
    Mr. Walker. Sure.
    [The information follows:]

    Travel is an essential element of GAO's emphasis on the 
quality of its work. Audit and evaluation work must be 
sufficiently representative in scope and in the number and type 
of locations covered to assure the validity of GAO's 
conclusions and recommendations. For these reasons, time must 
be spent on-site to observe first-hand where federal dollars 
are being spent throughout the United States and in foreign 
locations.
    The additional funds requested for fiscal year 2000 are 
needed to cover increased travel demands, particularly overseas 
assignments, resulting from Congressional requests, such as 
reviews of the International Monetary Fund, international Year 
2000 readiness, the Bosnia conflict, emerging foreign markets, 
and safeguarding nuclear weapons arsenals. These mandates 
require a higher level of overseas travel than what GAO has 
normally experienced. Also, our travel requirements have 
increased in recent years due to the closure of 14 field and 
overseas offices since fiscal year 1992.
    In fiscal year 1998, 90 percent of our travel funds were 
used for mission essential travel. Travel for executive 
direction and support, training, and other administrative 
activities accounted for the remaining funds. About 5 percent 
of the trips taken by audit and evaluation staff were to 
overseas locations. On average, evaluators spent almost 18 days 
in travel status at an average per capita cost of about $3,200.
    Since fiscal year 1992 there has been a steady decline in 
both the time and amount spent on travel. In fiscal year 1992, 
travel funds represented about 5 percent of GAO's 
appropriation, compared to 3 percent since fiscal year 1998. 
However, in 1992 GAO began its downsizing efforts with the 
implementation of a hiring freeze. The hiring freeze was soon 
followed by a 1995, congressionally mandated, 25-percent 
nominal funding reduction over 2 years. This funding reduction 
necessitated a reduction-in-force, closure of regional and 
overseas offices, and reductions in available travel funds. 
Travel funds used in fiscal 1998 are less than half the amount 
spent in fiscal year 1992.
    GAO's downsizing, combined with annual increases in airline 
fares and per diem rates, necessitated changes in our business 
practices. Therefore, as early as fiscal year 1992 GAO began 
implementing a number of practices to reduce travel costs and 
maximize funds available for mission essential travel. 
Technology enhancements through the GAO-wide network using a 
data collection and analysis application, electronic mail, and 
videoconferencing have helped GAO improve data and 
communications exchanges, and reduce travel requirements 
between headquarters and field locations.

                         Offsetting collections

    Senator Feinstein. Thank you very much.
    Thanks, Mr. Chairman.
    Senator Bennett. Thank you.
    I do have one question that was not covered.
    The income from receipts for audit work performed by GAO 
for other agencies has been consistently declining every year. 
I assume this is because the agencies use their IG's.
    Mr. Walker. Or external auditors.
    Senator Bennett. Or external auditors, contracted with 
private sector firms.
    Now you are projecting an additional decrease of $600,000 
in receipts and you are asking Congress to make that up.
    There is a little bit of a disconnect there. If, in fact, 
you are not doing the work and that is why you are not getting 
the receipts, why should we pay for it?
    Mr. Walker. Senator, I appreciate your comment. I think the 
way that I would characterize it is this. We have the people. 
We have to pay the people. We already have backlogs with regard 
to our work. We are already down to only 4 percent in 
discretionary jobs. Therefore, we have more than enough work 
for these people to do. And yet, we are going to lose the 
revenues that otherwise we were getting.
    So, we would like to keep them gainfully employed, meeting 
the needs of the Congress. But we have to be able to pay them 
to do that.

                     Additional committee questions

    Senator Bennett. OK.
    I have nothing further. Thank you very much.
    Mr. Walker. Thank you very much, Mr. Chairman and Senator 
Feinstein.
    Senator Bennett. We welcome you to the committee for your 
first appearance and look forward to seeing you regularly.
    Senator Feinstein. Thank you.
    Mr. Walker. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
                     Additional Committee Questions
    Question. During the Committee's last quarterly briefing, GAO had 2 
additional mission-critical systems that need to be renovated, 9 
systems which remain to be validated, and test and contingency plans 
which need to be finalized.
    Will GAO meet the March 31 executive branch deadline and have the 
remaining 2 systems renovated?
    Have test and contingency plans been finalized?
    Answer. All mission-critical systems requiring remediation were 
renovated, validated, and implemented by March 31, 1999. GAO has 
obtained either vendor certification of Year 2000 compliance or 
developed test plans for all mission-critical systems. In addition, as 
of March 31, all interfaces between mission-critical systems were 
tested.
    GAO also has developed plans to perform ``end-to-end'' testing of 
all systems that it directly controls and will require that ``end-to-
end'' testing be performed by the computer centers that operate its 
administrative systems. GAO has already tested the movement of data 
among its mission-critical administrative systems. In addition, we have 
participated with NFC in testing the Payroll/Personnel system, and are 
working with NFC to test the interface from the Payroll/Personnel 
system into the Financial Management System.
    GAO is well along in the process of developing both business 
continuity and contingency plans. We have analyzed our core business 
processes, identified their supporting systems, and are now developing 
the specific procedures that would allow staff to operate outside of 
the headquarters building. In addition, we are developing comprehensive 
``Zero Day'' plans to focus on the critical 5-day period of the century 
rollover--December 30, 1999 to January 3, 2000--to ensure that January 
3 is an uneventful, business-as-usual day. The contingency plans for 
most systems will be completed by the summer. Our contingency plans 
involve changes in our operating procedures, are largely manual, and 
are not dependent on new technology.
    Question. The income from receipts for audit work performed by GAO 
for other agencies has been consistently declining every year as more 
agencies use their Office of Inspector General (OIG) or contract with 
private sector firms for their audits. This year GAO projects an 
additional reduction of $600,000 in receipts and asks for Congress to 
make up that difference in appropriated funds.
    Have you looked into why agencies are no longer using GAO for their 
audit work?
    Shouldn't there be a decrease in the FTE level if the demand for 
these services is reduced?
    Answer. The reduction in corporate audit receipts from $2 million 
in fiscal year 1999 to $1.4 million in fiscal year 2000 is attributable 
to the audit of FDIC's financial statements. GAO has been working with 
the FDIC OIG to further increase OIG involvement in the audits of 
FDIC's financial statements. This involvement began with the 1996 
audits as a long-term training effort to progressively increase the 
level of OIG responsibility in the financial audits so that the OIG 
would be qualified and experienced to take over the audits if the 
opportunity occurs. GAO has statutory responsibility to perform the 
annual financial audits under the provisions of Section 17(d) of the 
Federal Deposit Insurance Act, as amended (12 U.S.C. 1827(d)).
    Although GAO's FTE's for performing the reimbursable audit at FDIC 
have declined, other areas within GAO are experiencing increasing 
demands for staff resources. As noted in our response to question 3, 
resource demands for congressional mandates and requests continue to 
increase.
    Question. In your testimony you indicate that the percentage of 
GAO's audit work conducted at the direction of Congress has increased 
from 82 percent in 1992 to 96 percent in 1998.
    Do you have any rationale for that increase?
    What is the significance of those figures?
    Answer. In both fiscal years 1992 and 1998, requests from 
committees and individual members were about 74 percent of audit 
resources used. Resources spent on congressional mandates, however, 
increased from 8 percent in fiscal year 1992 to 22 percent in fiscal 
year 1998. This increase, coupled with the steady volume of 
congressional requests, limits GAO's flexibility to conduct self-
initiated reviews.
    Question. GAO has been making large investments in technology. Last 
year GAO estimated that by the end of fiscal year 1998, 80 percent of 
staff IT stations would be upgraded.
    How much have you spent on IT since fiscal year 1996?
    What percentage of staff remain to be upgraded?
    Answer. During fiscal years 1996 and 1997, GAO significantly 
curtailed IT operating costs and deferred most technology investments. 
Because of the constrained budget environment during this period, GAO's 
principal focus in information resources and technology had been to 
upgrade existing systems to ensure they remain current and continue to 
operate in the year 2000. In fiscal years 1996 through 1998, GAO spent 
$10.4 million on IT investments, including upgrades to network 
components such as servers, workstations, and other peripheral 
equipment, Windows95 operating system, MSOffice Suites application 
software, and the telecommunications network. Some of these 
investments, such as network equipment and workstations, were obtained 
under lease-to-purchase agreements. These improvements have provided 
GAO with a fully integrated set of applications that has reduced 
document creation time, streamlined document production, and ensured 
Year 2000 compliance. As of January 1999, all staff workstations have 
been upgraded.
    Question. You have indicated an increase in the volume of work 
requested by Congress.
    How many requests did you receive in fiscal year 1998 from 
Committee Chairmen or Ranking Members?
    How many requests did you receive from Members of Congress?
    Were there any requests that you were not able to satisfy? How 
many?
    Answer. In fiscal year 1998, GAO received 1,531 requests from the 
Congress for audit work. The sources of these requests were as follows: 
1,081 requests (71 percent) were initiated by Committee Chairmen or 
Ranking Members; 334 requests (22 percent) were initiated by Members; 
101 requests (7 percent) were new mandates contained in public laws or 
committee reports; as well as 15 requests (less than 1 percent) from a 
member of the congressional leadership, officer of Congress, or 
congressional task force.
    Decisions to undertake individual assignments are influenced 
heavily by the source of the request. The Legislative Reorganization 
Act of 1970, as codified in 31 U.S.C. 717, requires the Comptroller 
General to respond to legislative mandates and committee requests. As a 
matter of policy, we interpret committee requests to include requests 
from both committee Chairs or Ranking Minority Members. Requests from 
individual Members are undertaken to the extent possible.
    While scope and timing adjustments are frequently negotiated with 
requesters, GAO is generally able to satisfy the needs of most 
congressional requests. Issue area managers with a significant backlog 
of requests will often work with congressional staff to help prioritize 
the requests, respond to the earliest doable requests, might postpone a 
specialized request to await the availability of staff with the 
requisite expertise, or might postpone a small non-urgent request for a 
more important time-critical request. In addition, some of the requests 
have a future due date or require another event before GAO can begin 
work. Currently, there are about 400 requests for GAO assistance where 
we have not initiated work.
    GAO is taking a number of actions to enhance its operations and 
services to and interface with its client--the Congress. GAO must make 
sure it has clearly defined, transparent, and consistent guidelines 
governing our relations with the Congress, no matter which party is the 
majority and which is the minority. By the end of this year, we plan to 
have a program in place for gauging, through direct contact with 
congressional leaders and members, the level of satisfaction with GAO's 
products and services. The Comptroller General will personally meet at 
least annually with top congressional leaders, and other top GAO 
executives will meet with key committee leadership.
                       GOVERNMENT PRINTING OFFICE

STATEMENT OF MICHAEL F. DiMARIO, PUBLIC PRINTER
ACCOMPANIED BY:
        ROBERT T. MANSKER, DEPUTY PUBLIC PRINTER
        FRANCIS J. BUCKLEY, JR., SUPERINTENDENT OF DOCUMENTS
        WILLIAM GUY, BUDGET DIRECTOR

                           welcoming remarks

    Senator Bennett. Our next witness is Michael DiMario, the 
Public Printer.
    Good morning, sir.
    Mr. DiMario. Good morning, Mr. Chairman.
    Senator Bennett. The Government Printing Office requests a 
total of $128.5 million for Congressional printing and binding, 
the Superintendent of Documents, and the Revolving Fund.
    It will come as no surprise to you, Mr. DiMario, that I 
will be listening very carefully to your comments about GPO's 
preparedness for the Y2K. GAO, from whom we have just heard, 
has expressed concern about your ability to be ready. You know 
my concern here.
    So I look forward to going into that in some detail.
    Senator Feinstein, do you have any comment?
    Senator Feinstein. No, I do not. Thank you, Mr. Chairman.
    Senator Bennett. Thank you.
    Mr. DiMario, we welcome you.
    Please proceed.

                       Public Printer's statement

    Mr. DiMario. Mr. Chairman, Senator Feinstein, I am pleased 
to be here this morning to present GPO's appropriations request 
for fiscal year 2000.
    With me on my left is Bob Mansker, the Deputy Public 
Printer. On my right is Francis Buckley, the Superintendent of 
Documents. Also with us is Bill Guy, GPO's Budget Officer, who 
is here behind me.
    In the interest of time, I will summarize my prepared 
statement which has been submitted for the record.
    Senator Bennett. It will appear in the record.
    Mr. DiMario. Thank you.
    For fiscal year 2000, we are requesting a total of $128.5 
million. The request includes $82.2 million for the 
Congressional Printing and Binding appropriation and $31.2 
million for the Superintendent of Documents programs.
    It also includes $15 million for GPO's Revolving Fund for 
extraordinary expenses associated with air conditioning 
replacement, elevator renovation, and ensuring Y2K compliance.
    Most of the new funds we are requesting for Congressional 
printing and binding, or $5.8 million, are to cover anticipated 
workload increases.
    After a period of reduced workload in the 105th Congress, 
we anticipate a return to workload levels more consistent with 
historical trends during the 106th Congress. A majority of the 
increase for the Superintendent of Documents, or $1.1 million, 
is for the Federal Depository Library Program planned 
electronic collection.
    Managing and expanding this collection is crucial to the 
objective of transitioning the Depository Library Program to a 
more electronic basis.
    The request of $15 million for the Revolving Fund includes 
$8.1 million for extraordinary expenses required to ensure Y2K 
compliance, $6 million for our air conditioning system, which 
is in critical need of replacement, and $900,000 for necessary 
elevator renovation.
    Without a direct appropriation, financing these unusual 
capital expenses through the Revolving Fund will require us to 
reimburse the fund through rate adjustments.
    Finally, we are requesting an increase in the statutory 
ceiling on employment of full time equivalents, or FTEs, to 
3,550. We have reduced employment levels by 33 percent over the 
past decade and by more than 25 percent since 1993.
    Our employment levels are now dangerously low. Overtime 
utilization has increased by 11 percent in the past year. Our 
ability to continue providing mission critical support to 
Congress is being jeopardized by continued attrition and 
reductions in our FTE ceiling.

                           prepared statement

    Mr. Chairman, this concludes my opening remarks and I would 
be pleased to answer any questions you may have.
    [The statement follows:]
                Prepared Statement of Michael F. DiMario
    Mr. Chairman and Members of the Subcommittee, I am pleased to be 
here to present the appropriations request of the Government Printing 
Office (GPO) for fiscal year 2000.
                gpo's mission: keeping america informed
    A commitment to public access to Government information is deeply 
rooted in our system of Government. GPO is one of the most visible 
demonstrations of that commitment. For more than a century, our mission 
under the public printing and documents statutes of Title 44, U.S. 
Code, has been to fulfill the needs of the Federal Government for 
information products and to distribute those products to the public.
    Formerly, GPO's mission was accomplished through the production and 
procurement of traditional printing technologies. However, a generation 
ago we began migrating our processes to electronic technologies, and in 
1993 Congress amended Title 44 with the GPO Electronic Information 
Access Enhancement Act (Public Law 103-40), which requires us to 
disseminate Government information products online. This Act is the 
basis of GPO Access, our Internet information service.
    Today, GPO is dedicated to producing, procuring, and disseminating 
Government information products in a wide range of formats--print, CD-
ROM, and online. In GPO the Government has a unique asset that combines 
a comprehensive range of conventional production and electronic 
processing, procurement facilitation, and multi-format dissemination 
capabilities to support the information life cycle needs of Congress, 
Federal agencies, and the public:
  --We provide print and electronic information products and services 
        to Congress and Federal agencies through in-plant processes and 
        the purchase of information products from the private sector. 
        For Congress, we maintain a capability to fully support the 
        information product needs of the legislative process, working 
        in close cooperation with leadership offices, committees, 
        Members, and staffs in each Chamber.
  --We disseminate Government information to the public in print and 
        electronic formats through a low-priced sales program and a 
        reimbursable program, and to Federal depository libraries 
        nationwide where the information may be used by the public free 
        of charge. We provide a number of ancillary dissemination 
        services, including cataloging and indexing Government 
        information products, distribution of Federal information under 
        international exchange agreements, and distribution of Federal 
        documents to recipients designated by law.
  --We disseminate a massive volume of information online via the 
        Internet with GPO Access. Between 10 million and 15 million 
        documents are retrieved by the public every month using this 
        system. We strongly support the increased dissemination of 
        Government information in electronic formats, and GPO Access 
        today is one of the leading Federal sites on the Internet. Our 
        home page, at www.access.gpo.gov, provides free public access 
        to more than 70 Federal databases from all three branches of 
        the Government, a growing number of agency Government 
        Information Locator Service (GILS) sites, and associated 
        locator and Pathway aids. The titles currently available on GPO 
        Access include the recent report of the Senate Special 
        Committee on the Year 2000 Technology Problem, headed by 
        Chairman Bennett, Investigating the Impact of the Year 2000 
        Problem.
    Value of GPO Services.--GPO's value to Congress, Federal agencies, 
and the public is well established. Our programs reduce the need for 
duplicative production and procurement facilities throughout the 
Government. As multiple studies by the General Accounting Office, the 
Office of Technology Assessment, GPO's Inspector General, and others 
have shown, GPO achieves significant taxpayer savings through a 
centralized production and procurement system. Our dissemination 
programs represent the Government's most comprehensive and effective 
means for providing public access to Government information, which is 
increasingly valuable to all Americans in the Information Age.
    We provide all of our services in a non-partisan, service-oriented 
environment that emphasizes the primacy of the customer's requirements 
for timeliness, quality, security, and economy. We are dedicated to 
achieving the greatest access and equity in information dissemination 
through printed publications, CD-ROM, and online information 
technologies. Our electronic and traditional technologies 
simultaneously enable us to facilitate the re-engineering of 
information products to satisfy the Government's changing information 
requirements, and to preserve and protect public access to Government 
information for all of our citizens.
    Most importantly, GPO's skilled and dedicated employees are 
committed to serving Congress, Federal agencies, and the public. They 
demonstrated this once again during the production of the various 
publications associated with the report of independent counsel Kenneth 
Starr. These voluminous, high-profile publications were required by 
Congress under the very demanding circumstances of short turnaround 
time and tight security constraints. In each case, our employees were 
able to produce the documents within the required deadlines and provide 
public access in both print and electronic forms, all in record-
breaking time, earning the praise of House Judiciary Committee Chairman 
Hyde. Under the close direction of the Appropriations Committees, we 
also produced the Omnibus Appropriations bill at the end of the 105th 
Congress under tight deadlines. GPO's performance demonstrated once 
again that our employees have the skills and the ability to provide for 
Congress's information needs under virtually any circumstance. They are 
indeed our greatest and most valuable asset.
    More than a century ago, Congress in its wisdom designed a system 
in GPO for keeping America informed. That system continues to serve a 
vital purpose today.
                fiscal year 2000 appropriations request
    For fiscal year 2000, we are requesting a total of $128,459,000. 
The request includes $82,214,000 for the annual Congressional Printing 
and Binding Appropriation and $31,245,000 for the annual Salaries and 
Expenses Appropriation of the Superintendent of Documents. Our request 
also includes $15,000,000 for GPO's revolving fund, to remain available 
until expended, for extraordinary expenses associated with the 
replacement of our air-conditioning systems, elevator renovation, and 
to ensure Year 2000 (Y2K) compliance in our computer systems. As our 
budget submission shows on pages I-2 and I-3, GPO's appropriations have 
remained relatively stable over the past decade while declining 
substantially in real purchasing power.
    The Congressional Printing and Binding Appropriation is critical to 
the maintenance and operation of our in-plant capacity, which is 
structured to serve Congress's information product needs. This 
appropriation covers the costs of congressional printing such as the 
Congressional Record, bills, reports, hearings, documents, and other 
products. Each year, a substantial volume of this work is 
requisitioned. In fiscal year 1998, more than 1.3 billion copy pages of 
congressional products were produced at an average cost of about 5 
cents per page, inclusive of all prepress work, printing, binding, and 
delivery. This appropriation also covers database preparation work on 
congressional publications disseminated online via GPO Access.
    The majority of the Superintendent of Documents Salaries and 
Expenses Appropriation is for the Federal Depository Library Program 
(FDLP). While some of the funding for this program is for salaries and 
benefits, most is for printing and distributing publications (including 
publications in CD-ROM and online formats) to depository libraries. 
This appropriation also covers other statutory distribution 
responsibilities, such as cataloging and indexing and international 
exchange distribution of U.S. Government publications, and provides the 
majority of funding for the operation of GPO Access. GPO's other major 
distribution functions, the sales program and agency distribution 
services, are funded entirely by revenues earned and receive no 
appropriated funds.
            congressional printing and binding appropriation
    The items covered by our request of $82,214,000 for the 
Congressional Printing and Binding Appropriations are as follows:

                        [In millions of dollars]

                                                               Estimated
        Category                                             Requirement

Congressional Record (including the online Record, the Index, and 
    the bound Record).............................................  22.1
Committee hearings................................................  18.0
Miscellaneous Printing and Binding (including letterheads, 
    envelopes, blank paper, and other products)...................  13.9
Bills, resolutions, amendments....................................   9.8
Miscellaneous Publications (including the Congressional Directory, 
    the U.S. Code, and serial sets)...............................   4.9
Committee Reports.................................................   3.8
Business and Committee Calendars..................................   2.5
Documents.........................................................   2.4
Details to Congress...............................................   2.0
Committee Prints..................................................   1.7
Document Envelopes and Franks.....................................   1.1
                                                                  ______
      Total.......................................................  82.2

    Part of the increase in our appropriations request over the current 
year is due to changes in product prices. Price increases are 
anticipated to increase our funding requirements by $1,899,000 over the 
current year base, due to the increased costs of employee compensation 
and benefits (based on existing wage contracts), utilities, 
maintenance, materials, and supplies. We are continuing to work to 
minimize the impact of these costs.
    The majority of the increase in our request, however, is due to 
projected workload, or volume, increases. An increase of $5,850,000 
over the current year base is required due to anticipated workload 
increases, based on historical trend data. After a period of reduced 
workload in the 105th Congress, we anticipate a return to workload 
levels more consistent with historical trends during the 106th 
Congress. Most of this increase ($4,366,000) is projected for the 
Congressional Record program, including the daily Record, the bound 
Record, and the Record index. Historical data indicates an increase in 
Record pages in a second session year. Other increases are projected 
for bills, resolutions, and amendments; committee reports, 
miscellaneous printing and binding, business and committee calendars, 
documents, and committee prints. Partially offsetting workload 
reductions are projected for miscellaneous publications (since the 
Congressional Directory is printed in a first session year), details to 
Congress, and hearings. (We have begun work on the Congressional 
Directory for the 106th Congress.) While these estimates are based on 
historical factors and represent our best estimates as to the projected 
workload for the first session of the 106th Congress, actual workload 
may vary.
    Legislative Information Systems.--We continue to participate with 
both the House and the Senate in the development of new legislative 
information systems that will expand the capability to create and 
utilize electronic information products in Congress and potentially 
reduce GPO's printing costs. One objective of these systems is the 
adoption of Standard Generalized Markup Language (SGML) to permit the 
submission of machine-readable keystrokes requiring less processing by 
GPO prior to final production. We are supporting initiatives in both 
Chambers to facilitate the sharing of information.
    Computer-to-Plate Technology.--We are acquiring state-of-the-art 
computer-to-plate (CTP) technology that will reduce costs, improve 
press-ready plate quality, and expedite the processing of prepress work 
on many congressional products, including the Congressional Record. The 
new systems are already in limited operation. CTP technology makes it 
possible to send electronic text and image files directly to automated 
platemaking devices, eliminating the need for film negatives and 
additional labor-intensive manual processes. We are constantly 
monitoring industry for other technological improvements that can be 
used in GPO's operations.
                  salaries and expenses appropriation
    The programs covered by our request of $31,245,000 for the Salaries 
and Expenses Appropriation of the Superintendent of Documents are as 
follows:

                        [In millions of dollars]

                                                               Estimated
        Program                                             Requirements

Federal Depository Library Program................................  26.8
Cataloging and Indexing Program...................................   3.3
By-Law Distribution Program.......................................    .6
International Exchange Program....................................    .5
                                                                  ______
      Total.......................................................  31.2

    Mandatory pay increases and price level changes represent $842,000 
of the requested increase of $1,981,000. Mandatory pay increases 
account for $358,000 of this amount. The majority of the increase, 
$484,000, reflects price level changes calculated at the assumed rate 
of inflation for the year, or 2.3 percent.
    FDLP Electronic Collection.--A total of $1,077,000 over the current 
year base is requested for workload changes, primarily for expenditures 
associated with managing the Federal Depository Library Program (FDLP) 
electronic collection. The collection consists of electronic sources 
that are within the scope of the FDLP and with which GPO has various 
levels of involvement: (1) core congressional and regulatory products 
that reside permanently on GPO servers; (2) other remotely accessible 
products managed by either GPO or by other institutions with which GPO 
has established formal partnership agreements; (3) remotely accessible 
electronic Government information products that GPO identifies, 
describes, and links to, but which remain under the control of the 
originating agencies; and (4) tangible electronic Government 
information products distributed to Federal depository libraries. The 
collection also has defined responsibilities for life cycle management 
of electronic Government information products to ensure permanent 
availability, as well as responsibilities for assisting users in 
locating information resources.
    The collection already consists of over 140,000 electronic titles, 
including over 85,000 titles on GPO Access itself and almost 48,000 
additional titles at agency sites that we link to through our 
electronic locator services. We are beginning to work with agencies, 
depository libraries, and other partners to ensure permanent access to 
these products so they can continue to be used by the public well into 
the future. Projected expenditures associated with this plan include 
increased server space and connection capacity for agency originated 
files that GPO archives; data conversion and migratory costs to prevent 
technological obsolescence; software to improve searching capabilities; 
and software to manage data archiving for electronic collection titles. 
We also anticipate personnel costs associated with a collection manager 
and reimbursement to Production areas for collection support.
    An additional $62,000 increase is required to fund depreciation 
arising from asset acquisitions, including the establishment of a 
training center for online access to Government information, new 
software for the Monthly Catalog of Government Publications, upgrades 
to our automated depository distribution system, and other 
improvements.
    We are also requesting an increase in the statutory limitation on 
travel, from $150,000 to $175,000, due primarily to the increasing cost 
of travel. These funds cover travel by depository library inspectors to 
libraries around the Nation, travel by GPO staff to attend various 
library association conferences and meetings, travel of members of the 
Depository Library Council to Council meetings to serve in an advisory 
capacity to the Public Printer, and travel by GPO staff nationwide to 
provide training in the use of GPO Access.
    FDLP Transition.--The transition to a more electronic FDLP is 
continuing, as projected in Study to Identify Measures Necessary for a 
Successful Transition to a More Electronic Federal Depository Library 
Program (June 1996), as required by Congress in the Legislative 
Appropriations Act for Fiscal Year 1996. The development of the FDLP 
electronic collection concept is an important element of that 
transition. Approximately 34 percent of all titles disseminated to 
depository libraries in fiscal year 1998 were in electronic format.
                             revolving fund
    Fiscal Year 1998 Performance.--After a period of net losses in the 
early 1990's, GPO completed a second consecutive year of positive 
bottom line results in fiscal year 1998, generating net income of about 
$1,000,000 on total revenues of approximately $723,000,000. However, 
losses were sustained in our procurement and sales areas, and we are 
reviewing options to restore each of these programs to a sound 
financial basis. During the year, an audit of GPO's fiscal year 1997 
financial reports and systems was conducted by KPMG Peat Marwick, Inc., 
under contract with the General Accounting Office. The audit resulted 
in a clean opinion, as have previous GPO financial audits. KPMG has 
recently completed an audit of GPO's finances for fiscal year 1998. 
This audit also resulted in a clean opinion on the financial 
statements.
    Infrastructure Costs.--Our appropriations request includes a 
request for $15,000,000 for the revolving fund, to be available until 
expended, to cover the cost of necessary improvements to GPO's 
infrastructure and systems. The request includes $8,100,000 for 
reimbursement of extraordinary expenses required to ensure Y2K 
compliance (including equipment repairs, replacement, testing, and 
contingency planning); $6,000,000 for our air conditioning system which 
is in critical need of replacement; and $900,000 for necessary elevator 
renovation. Without a direct appropriation, financing these 
extraordinary capital expenses through the revolving fund will require 
us to reimburse the fund through rate adjustments. As these costs are 
not related to the direct provision of printing and information product 
services, their impact on our rate structure will be detrimental to our 
ability to carry out our mission to provide cost-effective and 
economical products and services. The installation of our air 
conditioning system in 1974 was funded by a direct appropriation to the 
revolving fund, and we request that these extraordinary costs be funded 
similarly.
    FTE Level.--We are requesting an increase in the statutory ceiling 
on employment of full-time equivalents (FTE's) to 3,550, the level 
established for fiscal year 1998. GPO is now at its lowest employment 
point in this century. We have reduced employment levels by 33 percent 
over the past decade, and by more than 25 percent since 1993. Our 
employment levels are now dangerously low. Overtime utilization has 
increased by 11 percent in the past year. While we were able to perform 
the demands placed on us for production of the Starr report and Omnibus 
Appropriations bill materials, our ability to continue providing this 
level of service is being jeopardized by continued attrition and 
reductions in our FTE ceiling.
    Due to the age of our workforce, we need to replace essential 
skills. For example, GPO's prepress area is an area with potentially 
critical staff shortages. The prepress area is essential to Congress--
it is where the Congressional Record, bills, reports, hearings, and all 
other documents essential to the legislative process are assembled for 
timely delivery both in print and electronic formats. Critical staffing 
shortages in these areas threaten GPO's ability to perform its mission. 
In addition, our expanding electronic mission requires an infusion of 
new technical skills that are not readily available in-house.
    Finally, we need additional staffing to fulfill the recommendations 
of the Booz-Allen & Hamilton, Inc., management audit of GPO conducted 
last year at the request of Congress. The auditors said ``[GPO's] 
Production [Department] must take aggressive action to adequately 
recruit, train, and retain staff in critical skill areas;'' ``GPO's 
information systems security program has been undermined by staff 
reductions and budget cuts;'' GPO's Position Management Branch ``lacks 
effective resources;'' and that GPO's aging workforce ``leaves the 
agency at risk of instability.'' It is becoming increasingly evident 
that GPO must place more emphasis on maintaining a highly skilled 
workforce of sufficient size to fulfill the demands placed upon it and 
to guard against sacrificing the future of the agency as we seek cost 
savings today. A restoration of our FTE ceiling to 3,550 will provide 
us with the flexibility we need to make important additions to our 
workforce.
                   miscellaneous legislative changes
    We are proposing to change section 3709 of the Revised Statutes (41 
U.S.C. 5) by striking out ``$25,000'' and inserting in lieu thereof 
``$100,000''. This would increase GPO's small purchase threshold 
consistent with the simplified acquisition threshold of $100,000 in 
operation for other Federal agencies. The change would have no material 
impact on our Printing Procurement Program, where we will continue to 
advertise procurement opportunities for jobs of all dollar values. 
However, it would help streamline the acquisition process we use to 
acquire materials and supplies for our use, including paper and 
equipment.
    As a technical correction, we are also proposing that the last 
sentence of section 5595(b) of Title 5 U.S.C., as added by section 
309(a)(2) the Fiscal Year Legislative Branch Appropriations Act, should 
be amended by striking ``(a)(1)(G)'' and inserting ``(a)(1)(C)''.
                     retirement incentive authority
    The Legislative Branch Appropriation Act, 1999, provides authority 
for a ``buyout'' retirement incentive program for GPO. The Act requires 
GPO to submit a plan to the Joint Committee on Printing (JCP), or any 
applicable successor committees, by January 15, 1999. We sent a letter 
to the Chairman of the JCP by that date, stating that GPO will not 
offer a retirement incentive at this time based on the services 
required of us and our already reduced workforce. However, the letter 
also stated that, should this situation change and a retirement 
incentive is required within the 3-year period authorized by the 
legislation--particularly to avoid or minimize the need for involuntary 
separations--we will develop the requisite plan for the approval of the 
JCP or any applicable successor committee.
                       status of y2k preparedness
    We have been reporting to the General Accounting Office (GAO), 
operating under the direction of Chairman Bennett, on the preparation 
of our computer systems for compliance with Y2K requirements. The 
software used in processing the Congressional Record was repaired, 
tested, and verified as Y2K compliant in February 1998. The hardware 
utilized for Record processing was tested and found to be Y2K 
compliant. A live system test of the transmission of Record data from 
the Office of the Secretary of the Senate was successfully conducted 
for Y2K-specific conditions.
    At this date, all 40 of our active mission-critical systems have 
been assessed. All 40 have been renovated. Thirty-five of the 40 
systems have been validated and implemented. These 35 systems include 
100 percent of the mission-critical systems used in producing 
congressional information products and services. Validation and 
implementation have yet to be completed on our new integrated 
processing system (sales of publications program), new general ledger 
package (financial), PROBE system (for reporting job costs), mainframe 
conversion (administrative and procurement systems), and automated 
depository distribution system (depository library program). A major 
concern remains the ongoing drain through attrition of information 
technology (IT) professionals from GPO who are assisting in the Y2K 
preparedness effort. In order to assure Y2K compliance, we are looking 
to acquire contracting services for independent validation and 
verification to supplement the stretched resources of our in-house IT 
areas.
           status report on management audit recommendations
    The conference report on the Fiscal Year 1999 Legislative Branch 
Appropriations Bill (H. Rpt. 105-734, p. 42) required GPO to submit an 
annual report, concurrent with the submission of the annual budget 
request, on the status of implementation actions on recommendations 
contained in the Booz-Allen & Hamilton report, ``Management Audit of 
the Government Printing Office'' (May 21, 1998). This report contained 
95 recommendations for action affecting 7 GPO areas: Overall (3); 
Marketing, Sales, and Distribution (27); Procured Printing Services 
(8); In-Plant Production (13); Human Resources (24); Financial 
Management (12); and Information Technology (8). Implementation action 
in the various affected GPO areas has been classified according to 
``action planned,'' ``action ongoing,'' ``action completed,'' ``action 
deferred,'' ``action taken as needed,'' or ``no action currently 
planned.''
    Of the 95 recommendations, action is being taken in a total of 71 
cases: action is either planned (8 cases), ongoing (60 cases), or 
completed (3 cases). This means that GPO either plans to act, is 
currently acting, or has acted affirmatively on approximately 75 
percent of the recommendations contained in the Booz-Allen & Hamilton, 
Inc., final report. These include recommendations on planning, program 
modernization, ensuring financial stability, promoting intra-agency 
communications, and improving information technology capabilities as 
well as ensuring preparedness for Y2K. Many of the recommendations for 
which action is ``ongoing'' are essentially open-ended and would not be 
expected to reach a formal ``completion'' stage.
    On the remaining recommendations, action has been deferred in 3 
cases; in 15 cases action will be taken as necessary; and in 7 cases no 
action is currently planned (on one recommendation under Sales, 
Marketing, and Distribution there have been two actions). The 
recommendations for which no action is currently planned include those 
to which we objected in our formal comments [i.e., changing the 
statutory mission of GPO's sales program (the current program is 
consistent with statutory direction and longstanding Government 
information dissemination policy); adding an additional shipping charge 
to our publications prices (these costs are already included in our 
publications prices); implementing a just-in-time inventory system 
(this would reduce competition and increase costs in ordering necessary 
supplies); conducting a study on outsourcing the Congressional Record 
(language in the Legislative Branch Appropriations Act for Fiscal Year 
1999 directs a joint House/Senate study on the cost-effectiveness of 
producing all congressional documents); implementing a pay-for-
performance compensation plan (contraindicated by Office of Personnel 
Management studies); creating a Director of Finance position (the 
current structure is sufficient to GPO's needs and the creation of a 
new management position goes against GPO efforts to reduce managerial 
levels); and implementing activity-based costing (GPO's current 
financial operations, as evidenced by recent audits, are sound, 
although this could be explored in the future)].
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I would be pleased to answer any questions you may 
have.

                         Y2K compliant systems

    Senator Bennett. Thank you. Let's talk about Y2K.
    Mr. DiMario. Yes, sir.
    Senator Bennett. In GAO's briefing on the status of Y2K 
efforts, they tell us that documentation has only been provided 
for 2 of 40 mission critical systems, that 38 remain to be 
implemented. They also state that test and contingency plans 
need to be developed.
    Now your testimony, as I understand it, says that only 5 
systems remain to be validated and implemented.
    This is a fairly big gap between their view and what you 
are telling us.
    Mr. DiMario. Yes, sir.
    Senator Bennett. Can we talk about that?
    Mr. DiMario. Yes, sir.
    The information that I have received from our people--and 
we have with us Mr. Vince Arendes, whom I have named as the Y2K 
Program Manager in GPO, and Bob Mansker, who is our Deputy 
Public Printer. I have assigned Bob the specific duty of 
dealing with the Y2K compliance. I did that on the first day 
that he came to work for us. I indicated at previous hearings 
that he was assigned that duty.
    The data that we have been given by our people, which is 
beyond the last reporting period to GAO, is that of the 74 
systems that we have, 40 potentially are impacted by Y2K and 
are mission critical systems. Of those 40, all have been 
renovated and there are 5 that haven't been validated and 
implemented.
    Those are the 5 that we are talking about that have not 
been validated and implemented. Within the 40, we have also 
identified 18 mission critical products and services. Those 
have all been validated and are implemented. These include 
those programs in support of the Congress.
    Now I can bring Mr. Arendes to the table because he has 
more detail on it. But if GAO is giving you that report, it is 
in direct conflict with what I have been told.
    Senator Bennett. I remember when we discussed this with you 
in previous hearings. You were talking about new equipment that 
would come in and that would be the solution in many parts. You 
would not try to remediate your present equipment, you would 
simply replace it with new equipment.
    Mr. DiMario. That is true in certain instances. The 
mainframe is an example. We have acquired a new mainframe. It 
is being installed and operational, that mainframe system.
    Senator Bennett. You say it is being installed and 
operational? It is one or the other.
    Mr. Mansker. It has been installed.
    Senator Bennett. It has been installed and it is 
operational now?
    Mr. Mansker. They are now completing the loading of all the 
information. It should be within a month, I think, before it is 
fully operational.
    Senator Bennett. What kind of software is on it? Is the 
software subject to a Y2K problem? Is it new software, written 
just for it?
    Mr. Mansker. It will be fully Y2K compliant.
    Senator Bennett. Do you have contingency plans in case it 
is not?
    Mr. DiMario. Most of the operating software is proprietary 
for which we have the developer's Y2K certification. Part of 
the contingency is the continuation of the current network 
operating system which is run on ``Banyon Vines'' software, and 
there is a provision to make that ``Banyon Vines'' software Y2K 
compliant for the short-term as a backup. But it is not 
something that we can rely on in the long run.
    We have included that, in fact, as part of our request for 
monies for Y2K compliance a small amount of money for that 
``Banyon Vines'' provision.

                          Y2K compliance costs

    Senator Bennett. You have $8.1 million in here for Y2K 
costs.
    Mr. DiMario. Yes, sir.
    Senator Bennett. Compared to what? How much have you spent 
up until now on this? What percentage of your Y2K budget to get 
this thing fixed does $8 million represent?
    Mr. DiMario. We project approximately $25.6 million to be 
spent on Y2K.
    Senator Bennett. So the $8 million would take you to $33 
million?
    Mr. DiMario. No, sir. We are asking for $8.1 million to 
allow us to reimburse part of the $25.6 million for Y2K 
expenditures that we're making, because we are pulling the 
money out of the Revolving Fund now.
    It is the same issue as the elevators, which we have not 
renovated, and the air conditioning. That money is in a 
temporary fund. The Revolving Fund is intended to be a 
temporary funding mechanism created by law, 44 U.S.C. 309. That 
provision has certain specific language. So money is obtained 
through charges, charges against the benefiting appropriations, 
and then it is placed in the Revolving Fund.
    Certain monies have been expended for Y2K that are out of 
pocket. They are not sunk costs, like labor costs for GPO's own 
employees.
    When I say $25.6 million, I am including all of our costs.
    Senator Bennett. What I am trying to get at is this. Let's 
say your Y2K total bill is $25 million.
    Mr. DiMario. $25.6 million. That's what we project to 
invest in it.
    Senator Bennett. What portion of that $25 million have you 
already spent and what portion remains unspent?
    Mr. DiMario. We have spent $19.1 million up through fiscal 
year 1998. That is my understanding.
    Senator Bennett. How about fiscal year 1999? This is an 
appropriation for fiscal year 2000, of course.
    Mr. DiMario. Right. We are including $8.1 million for 2000. 
In fiscal year 1999, I don't know the specific amount that we 
have. Bill Guy might have that.
    Mr. Guy. It's about $6 million this year.
    Senator Bennett. OK. Let me understand these numbers.
    You spent $19.9--let's round it up to $20 million--through 
fiscal year 1998.
    Mr. DiMario. That's right.
    Senator Bennett. You're going to spend another $6 million 
in fiscal year 1999.
    Mr. DiMario. Right.
    Senator Bennett. And you did not budget for any in fiscal 
year 2000?
    Mr. DiMario. For fiscal year 2000, we are asking for $8.1 
million.
    Senator Bennett. Yes, I understand that. My question is 
this: is that reimbursing some of this $26 million?
    Mr. DiMario. Yes, it is. It is reimbursing money that was 
spent.
    Senator Bennett. How much of it is reimbursing and how much 
of it is additional spending?
    Mr. DiMario. I believe it is all reimbursement.
    Mr. Guy. It is almost all reimbursement.
    Mr. Mansker. I think it is only about $400,000 for fiscal 
year 2000.
    Mr. DiMario. And it is not reimbursement for our labor, and 
other sunk costs. Our labor costs and all other sunk costs we 
are taking out of the Revolving Fund. These are employees who 
were on hand. That represents most of the total cost, leaving 
$8.1 million in out of pocket cost for which we are asking 
reimbursement. That is for the hardware and software that we 
have had to purchase specifically----
    Senator Bennett. Wait. Let me understand those numbers.
    You tell me it's $19 million in labor?
    Mr. DiMario. Principally labor costs and other sunk costs, 
about $17.5 million.
    Senator Bennett. And we have $26 million that we have 
identified here. Is that $26 million all for hardware, so that 
your total costs for Y2K would be adding the labor to the 
hardware?
    Mr. DiMario. No, sir.
    Senator Bennett. Or is there some mixing here?
    Mr. DiMario. I think we are asking for the difference 
between $17.5 million in sunk costs and the $25.6 million that 
we have in our Y2K program. That is our total Y2K effort.
    The $19.6 million is money we have expended through fiscal 
year 1998.
    Mr. Mansker. Senator, approximately $25.6 million is the 
totality of our cost for Y2K. We estimate that about $6 million 
of that is in-house labor costs; $19 million of it would be the 
rest of it.
    Mr. DiMario. That's correct. I am misstating it.
    Mr. Mansker. Now, about $8 million of what we are asking 
for comes from that $19 million, for expenses that we would not 
otherwise have expended had it not been for the Y2K problem.
    We would not have had to change a lot of the computers and 
were not planning to do all of that without the Y2K problem 
coming along.
    So what we are asking for in this budget, in the 
appropriations process, the $8 million, is not only 
reimbursement for what we have spent in that regard that we 
would not be planning to spend without Y2K coming along, but 
also for what we have to do in that regard this year as well as 
completing the thing.
    So $8 million is what--of the $25 million total--is what we 
would not be planning to spend had Y2K not come along.
    Senator Bennett. OK. I understand that.
    I won't beat this horse any further.
    Mr. DiMario. I apologize. I was misreading my note with 
respect to the amount for sunk labor costs.
    Senator Bennett. That is no problem.
    I would have a much higher comfort level if GAO's 
assessment of where you are and your assessment of where you 
are were closer. So can I ask you to sit down with GAO and show 
them the documentation?
    Mr. Mansker. Senator, we have been doing that on a regular 
basis. I, as Deputy Director of the Agency, have sat in on 
these meetings.
    I have come away very comfortable with what our 
conversations with GAO have been. These figures represent what 
I have gotten from those meetings.
    Now I would love to have GAO here, right now.
    Senator Bennett. We will contact GAO and see if we can't 
bring these things together.
    I will leave you with one last comment. I do urge you to 
lay out some contingency plans.
    Mr. Mansker. We have those, sir.
    Senator Bennett. OK. Lay out some contingency plans so you 
know what to do in case the remediation that you are expecting 
in fact turns out to have some problems and difficulties.
    Mr. Mansker. Last year, sir, you were very concerned and I 
am sure you still are about the Congress getting its products.
    Senator Bennett. That's right.
    Mr. Mansker. We have tested from both ends, from the Senate 
over to GPO, and it works. We know it works. It is tested.
    Mr. DiMario. The Senate contractor from the Sergeant at 
Arms Office, Mitreteck, came over to GPO. They validated. We 
have transmitted back and forth. I believe that information was 
conveyed to staff.
    Senator Bennett. That is reassuring. Let's make sure.
    Mr. DiMario. We are doing the same thing with the Federal 
Register.
    Mr. Mansker. Yes.
    Mr. DiMario. We are completely compliant with the Federal 
Register and with the Executive Branch. We are attempting right 
now to do the same thing with the House. On the House side, I 
believe because of the GAO briefings on the House side, again, 
I think a briefing at which your staff may have been in 
attendance, hearing what we were doing with the Senate, the 
House was asked by Appropriations staff to get together with 
GPO and to validate the interchange between the two of us.
    Senator Bennett. Thank you.
    Senator Feinstein.

                           Employment levels

    Senator Feinstein. Thank you, Mr. Chairman.
    I wanted to ask you about the increase in your Full Time 
Equivalents, which run from about 3,383 to 3,550. Where are 
these FTEs going to be utilized?
    Mr. DiMario. Throughout GPO we are in the same situation 
that GAO explained and the Library of Congress explained. Our 
employment base has gotten older and older. We have been on a 
hiring freeze for 10 years.
    When I came to GPO in 1971, we had 8,500 employees. We 
currently have 3,383. That is the current ceiling.
    We have gotten down to where in every area of GPO--every 
area--we are losing skill and talent. We have approximately a 
third or greater of our employees in our Production Department, 
in the main areas, eligible for retirement. We have not brought 
new blood in anywhere in the agency to speak of. We have a 
limited program of hiring distinguished college graduates, if 
we can get them, out in the marketplace.
    We are hurting in the computer field, the I-T area. It is 
just very difficult to get these professionals.
    We are hurting in every single area in the office. So to 
delineate where they are would mean to name each of these 
groups.
    But we need people and we need to bring them in and train 
them in systems. We, this year, because of the Starr report and 
issues facing the Congress, faced some monumental delivery 
issues. We performed, we thought, extremely well in the 
circumstances.
    We delivered to the Congress, both the House and the 
Senate, products that they needed to carry on their work in the 
impeachment process, in the important activities that were 
going on, and that workforce has been challenged. It has been 
overloaded.
    I just cannot tell you--I have the highest respect for my 
people.
    You cannot find people who are more dedicated, more 
professional, more willing to do the work. And what we have 
done over and over and over is just to cut the activity and not 
replace people.
    I am telling you that, in my professional judgment, we have 
gone too far. We need to do something and put a brake on it.
    All I am asking is to put us back to the level that we were 
at a year ago.
    Senator Feinstein. So these 100-plus people go where?
    Mr. DiMario. Some will go into the Production Department. 
Some will go in our Data Systems area. Some will go in our 
Documents area. They will go in various places throughout the 
organization.
    It is not 100 going to one area.
    Mr. Mansker. Senator Feinstein, we could begin with a list 
of where certain numbers would go from time to time. But right 
off the top of my head I can tell you that there are 3 needed 
in personnel. If you want me to outline some further, I could.
    We have a backlog of job descriptions that, because of 
vacancies not filled, are really getting to be of concern.
    In our Bindery, we have positions that need to be filled 
because we are not being able to get certain products out in a 
very timely manner. We could go on like that.
    Production has asked for 10 people just recently.
    Mr. DiMario. We have already contracted out about 75 
percent to 80 percent of the work under a policy initiative. 
The policy initiative is to contract out as much as possible. 
We are doing that and we continue to look at that effort.
    But there are some functions that we necessarily have to be 
prepared to do internally with direct hires.
    We have contracted out parts of the police organization. We 
have contracted out portions of industrial cleaning functions. 
We are doing those kinds of things to cut the numbers and to 
try to keep just the professional staff that we need to run the 
place.
    But it is very, very difficult. After 35-plus years of 
service, I will tell you that it is the most difficult time to 
manage when you are facing manpower shortages over and over 
again.
    In my 6-plus years in this job, I have attempted to do 
everything that the Congress has asked us to do and to do it in 
a timely fashion. But it reaches a point when you really have 
to say that there is just a point where we need to have some 
brake on it. At least allow us to regroup.
    We have been examined over and over. I cannot tell you how 
many GAO and other audit functions have happened, how many 
times people are sent into the office, over and over and over 
again. That consumes manpower.
    We have people who are just dedicated to doing nothing but 
answering questions.
    Senator Feinstein. I gather there is a small conflict. 
Let's just see if we can clear it up.
    What is your current on-board level?
    Mr. DiMario. My understanding of the current on-board is, I 
believe, 3,316. For on-board I would have to ask my personnel 
director. We have people leave every day. We have people who 
come on board every day.
    Senator Feinstein. I think it would be useful if we got 
that straightened out because I am told it is 100 less than 
your FTE ceiling.
    Mr. DiMario. I believe it is.
    Mr. Mansker. You're talking about actually on-board as 
opposed to the FTE level?
    Senator Feinstein. Right. So, in other words, you have 100 
fewer people than you could have and yet you are asking for 
more, 100 more?
    Mr. DiMario. On any given day, your FTE level, you may not 
reach that level because you are hiring people and some people 
may decide to retire, some people may get injured, they may go 
on a sick/injured list.
    Senator Feinstein. So you are saying you are never up to 
your full budgeted force?
    Mr. DiMario. You may be and you may exceed the FTE at a 
given point. For the year, you cannot exceed the FTE number.
    We asked for that kind of specific language a couple of 
years ago, that it was an FTE count at the end of the year. If 
it was an FTE count on a daily basis, we would never be able to 
exceed it.
    Mr. Mansker. The on-board number drops considerably after 
the first of the year because there are a lot of retirements.
    When the list comes through of separations as well as 
hiring, the separations right after January were very large 
because of retirements. That drops the on-board. But you 
immediately turn around and try to start filling them.
    Mr. DiMario. We've got vacancy announcements out. We are 
trying to hire people to fill those jobs.
    Mr. Mansker. So that is going to go back up and the average 
will be much higher than the number of current on boards.
    Senator Feinstein. Are you saying you always function at 
100 below your on-board level?
    Mr. DiMario. No, no.
    Mr. Mansker. No.
    Mr. DiMario. The number varies day by day. On-board 
strength--you are always hiring. People leave. It's true.
    That number will change on a daily basis.
    Senator Feinstein. I don't doubt that. But maybe the best 
way to pursue this is to ask you to present it in writing to 
us.
    Mr. DiMario. Sure.
    Senator Feinstein. In this way we would have the monthly 
on-board levels for the past year, in writing.
    Mr. DiMario. Sure.
    Senator Feinstein. Then maybe we can take a look at that 
with some clarity. I would appreciate that very much.
    [The information follows:]

GPO monthly on-board employment, March 1998-February 1999

1998:
    March......................................................... 3,506
    April......................................................... 3,489
    May........................................................... 3,474
    June.......................................................... 3,455
    July.......................................................... 3,439
    August........................................................ 3,445
    September..................................................... 3,435
    October....................................................... 3,409
    November...................................................... 3,397
    December...................................................... 3,387
1999:
    January....................................................... 3,330
    February...................................................... 3,316

                      Integrated processing system

    Senator Feinstein. Let me ask you one quick thing about the 
IPS system.
    Mr. DiMario. Yes. Mr. Buckley can answer that.
    Senator Feinstein. What has been the cause of the delays?
    Mr. Buckley. The Integrated Processing System is to replace 
our order management process, the whole order management 
process, from taking orders, the control of the inventory, 
financial reporting, producing picking tickets for shipping the 
materials, et cetera.
    It is replacing 18 old legacy systems that were not 
integrated previously. So it is quite a complex process.
    We have received delivery from our contractor of the basic 
system and modifications. But there are a number of bugs in the 
software that we are now testing and having remediated. So the 
delays have been, actually, in integration of the new software 
that we are getting and testing it for all of the very complex 
functions that we do, both in terms of orders for single 
publications and orders for subscriptions. We operate quite a 
complex order fulfillment process in the sales program because 
we are a governmental function, and because of the variety of 
publications and products that we offer.
    Senator Feinstein. When will it be fully implemented?
    Mr. Buckley. August 1 is my goal.
    We will be able to test and should have it, the critical 
systems, tested and operational, within a month. But then we 
will go through a process of training the staff before we 
actually implement it on August 1.
    Mr. DiMario. When I brought Mr. Buckley on board, the one 
program I asked him to pay personal attention to and told him 
that he was required to be responsible for was IPS, to bring 
that system in because I believe it to be so critical to the 
system.
    It's exactly the same thing that I did when I hired Mr. 
Mansker. I asked him to pay attention to and manage the Y2K 
program.
    So those two programs have had the two highest level 
people, subordinate to me, responsible for those programs--
short of managing them myself.
    Senator Feinstein. I think I got the answer, which is that 
you expect it to be fully operational August 1. That will go 
down in the record.

                          Delinquent payments

    Let me ask you about your procured printing services.
    It is my understanding that some of the agencies are 
delinquent in paying you and that has some impact on your 
operations. Which agencies account for most of the 
delinquencies?
    Mr. DiMario. In the past, the Department of Defense has 
been the agency that has been most delinquent. They always run 
behind.
    Bob may have some more definitive information on it. But we 
have attempted to work with the Department of Defense. I have 
spoken to their manager, their Defense Automated Printing 
Service on it. We have seen some improvements in the past on 
it.
    But that was the most delinquent single agency.
    Mr. Mansker. That is still the agency that is most 
delinquent. However, we are working with them on Treasury's 
electronic payment system and on a new credit card system of 
payment which I think will greatly improve that.
    Senator Feinstein. Thank you very much
    Thank you, Mr. Chairman.
    Senator Bennett. Thank you.

                     Additional committee questions

    We have some additional questions which we will submit to 
you in writing.
    Mr. DiMario. Yes, sir.
    Senator Bennett. We thank you for being here and good luck 
to you on these various challenges.
    Mr. DiMario. Thank you.
    Senator Bennett. We will work closely with you.
    Thank you for being here.
    Mr. DiMario. Thank you, Mr. Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
                     Additional Committee Questions
    Question. GPO testified before the House Legislative Subcommittee 
last month that it would complete the implementation phase by the end 
of March. GPO's testimony today states that 5 systems remain to be 
implemented. Will those 5 systems be completed in the next 2 weeks?
    Answer. No, the 5 systems that we addressed in our testimony before 
the Senate are replacement projects that for various reasons have 
encountered delays and now have implementation dates beyond March 1999.
    Question. Based on GPO's assessment that it has tested 35 systems, 
and has 5 remaining, do you have test and contingency plans in writing 
for the remaining 5 systems and when do you anticipate completing 
testing?
    Answer. The current status of the 5 replacement projects follows:
    New Integrated Processing System.--At the present time we are 
reviewing and testing the contractor's modified system that has been 
delivered and installed. This review is identifying processing and 
program errors that are being submitted to the contractor for software 
repairs. This phase is scheduled to be completed by the end of April 
1999. The next phase will be a full functional test and the final phase 
will be to train all Documents personnel on the new system. This 
training will be completed within 3 months and the implementation of 
the new Integrated Processing System is scheduled for August 1, 1999.
    New General Ledger Package.--The new General Ledger database 
software has been installed and 11 months of data for fiscal year 1998 
have been loaded. Our testing plans call for finalizing fiscal year 
1998 and loading data for fiscal year 1999 through the financial 
reporting period of February 1999. After parallel testing the financial 
statements for March and April, the live implementation of the new 
General Ledger is planned for the end of May 1999.
    PROBE System.--We are currently testing the new system hardware and 
software. Implementation of the new system devices for the first area 
selected for installation is planned for the beginning of May 1999. The 
replacement devices will continue to be installed throughout all areas 
of GPO with a completion date for full implementation of all collection 
devices (110) scheduled for September 1999.
    Mainframe Conversion Project.--The new mainframe has been installed 
and the OS 390 operating system has been loaded and tested. The switch 
over to the new system is currently planned for the third weekend in 
April 1999. At that time, all of GPO's mainframe application systems 
will be operational in the new OS 390 environment. However, not all of 
the other proprietary system software components that are needed for 
the applications to run will be at their Y2K compliant versions. The 
migration to a fully Y2K compliant platform on the mainframe will take 
an additional 2 months. The scheduled Y2K verification and 
implementation date for all existing mainframe applications on the new 
mainframe platform is the end of June 1999.
    Automated Depository Distribution System.--The proposal for the 
replacement equipment and software changes required to upgrade the 
existing Lighted Bin System is ready to be submitted to the Joint 
Committee on Printing (JCP) for approval. The entire project is 
scheduled for completion within 180 days after the JCP approval is 
received.
    Question. The request includes $15 million for the revolving fund 
for items that a business would consider capital expenses--Y2K costs, 
air conditioning, and elevator renovations. It is my understanding that 
GPO is supposed to build into its charges overhead costs which are then 
deposited in the revolving fund and used for these types of projects. 
Even if you discount for the Y2K problem, why is GPO requesting funds 
to pay for items that should have already been budgeted for in the 
pricing structure?
    Answer. You are correct, in part, that the ``GPO is supposed to 
build into its charges overhead costs which are then deposited in the 
revolving fund and used for these types of projects.'' That statement 
can only be implemented if the GPO is allowed to do so.
    Title 44, Section 309 specifically states that ``the Public Printer 
shall provide capital for the fund'' for the Agency's necessities 
``except building structures and land.'' The air conditioning system 
and the elevators, as installed real property, are considered to be 
within the exception which requires appropriations--just as occurred in 
1974 when the Congress directly appropriated $7.4 million for the 
current air conditioning system.
    Until 1990, GPO operated on the policy of covering all of the 
necessary expenses of the Agency, other than building structures and 
land, through funds that were deposited in the revolving fund. The 
revolving fund maintained a reasonable balance to adequately achieve 
our planning objectives. We were able to keep approximately $50 million 
of uncommitted-unrestricted funds for that use. If the revolving fund 
was significantly reduced by needed expenditures, we would adjust our 
prices to recover to the adequate position.
    In that year, however, the process was changed by the Joint 
Committee on Printing. By their directive, we were not permitted to 
raise our prices on our printing products. The directive of the Joint 
Committee remained in effect for four years, and the impact on the 
revolving fund and our operations was catastrophic. The burden of 
increased costs of raw materials and labor had to be borne by the funds 
in the revolving fund--thereby eliminating the needed funds ``that 
should have been budgeted for in the pricing structure?''
    In those years when the directive of the Joint Committee was in 
effect, our operating losses skyrocketed--not because of the manner in 
which we were operating, rather because of the restrictions that was 
placed on us by the Joint Committee. It was not until Chairman Thomas, 
after seeing the devastating effect the directive had on our 
operations, directed us to recover our costs of operations through our 
pricing structure did we begin to come out of our dilemma.
    Y2K costs which we seek to recover through direct appropriation 
have also come from the already severely depleted revolving fund. We 
seek an appropriation for only $8.1 million, which does not take into 
account any expenditures that were already in the planning schedule 
prior to Y2K becoming an issue nor any labor costs of GPO employees. 
The appropriations request is an accounting of only those funds that 
would otherwise not have been spent.
    And, Senator, in addition to all the above, the Congress directed 
us to use up to $11 million of revolving fund money to fund our own 
appropriation for Congressional Printing and Binding in 1998, of which 
$3.7 million was required.
    For the past two years, we have recovered to the point of positive 
incomes slightly above break-even. Even with the end-of-year positive 
balance, our uncommitted-unrestricted money continues to be severely 
diminished and is impacted by congressional work schedules. We do not 
draw direct appropriations; we only draw from the Congressional 
Printing and Binding appropriation when we provide support to the 
Congress.
    So, to recap the situation, our appropriations request includes $15 
million for the revolving fund for capital expenses--Y2K costs, air 
conditioning, and elevator renovations for two reasons: (1) Title 44, 
Section 309 takes ``building structures and land'' out of the 
classifications that are designated to be funded by the revolving fund, 
and (2) Even if one concludes differently from (1) above, the 
managerial directives of the Congress since 1990 have virtually 
destroyed our ability to pay for these projects out of the revolving 
fund without severely endangering our ability to timely recover the 
committed-unrestricted funds of the revolving fund that are used during 
lean periods of production.
    Question. The budget requests $6 million for an air conditioning 
system. Last year when this issue was raised this Committee directed 
GPO to seek authorization from the oversight committee for a total plan 
for capital upgrades. Have you developed a total plan and secured 
approval from the authorization committee?
    Answer. In 1996 and again last year, we submitted an appropriation 
request for $6 million for air conditioning repairs--the same amount 
that we are requesting this year. The need is even greater now. We are 
fortunate that the system prevailed during a relatively mild summer. We 
sought authorization from the Joint Committee on Printing and submitted 
``a total plan for capital upgrades''.
    The approval of our request was entangled in the Joint Committee's 
efforts to get S. 2288 through the Senate; however, we were never given 
any reason, other than verbal, for inaction on our request. At this 
time, we are hopeful that the Joint Committee will approve this project 
in the very near future; however, we must have the funding available to 
accomplish the needed repairs.
    Question. The testimony noted that the procurement and sales areas 
lost revenue. How does the procurement area lose revenue when a 
surcharge is placed on each printing job? Does GPO have a plan to turn 
the procurement and sales areas around?
    Answer. GPO's Printing Procurement Program seeks to fully recover 
its costs through a surcharge of 6 percent (with a ceiling of $15,000 
per job) and historically comes very close to this goal with a slight 
surplus or loss at the end of each year. This program fully recovered 
its costs in fiscal year 1996 and had a modest under recovery in fiscal 
year 1997 of only .4 percent. However, the unexpected drop in paper 
prices to historic lows during the past year, along with a $1,000,000 
cost allocation for the Booz-Allen Hamilton study combined for an under 
recovery of 1.5 percent, or $7 million during fiscal year 1998.
    To deal with this under recovery, GPO has been actively reducing 
its operating costs as it implements a new LAN-based computer system 
throughout the Printing Procurement Department. This new system will 
provide both personnel savings and speed the processing of orders. 
Additionally, with the assistance of our customer agencies, we have 
undertaken a review of the surcharge system and rates, and are 
establishing new simplified purchasing agreements to increase work and 
improve services. Paper prices now appear to be recovering and 
experienced a modest increase last quarter. We are hopeful that these 
combined efforts will result in full recovery of costs for the printing 
procurement program during fiscal year 1999.
    In fiscal year 1998, the Sales Program under recovered costs by 
$3.6 million on revenue of $60.6 million. This compares to net income 
of $1.8 million in fiscal year 1997 on revenue of $67.8 million. 
Revenue from key Sales Program products has been declining in recent 
years. Reasons for this decline include increased access to these 
products through competitive print and online products offered for sale 
by private sector entities or other Government agencies such as the 
National Technical Information Service (NTIS), as well as through no-
fee access via GPO's web site. In addition, a decline in Government 
agency publishing has resulted in fewer printed information products 
available through the Sales Program. Sales Program management is 
currently conducting an intensive review to determine ways to increase 
revenue, decrease expenses, and introduce more print and electronic 
products into the program.
    The Sales Program is taking a number of steps to increase the 
availability of its products through the use of electronic commerce. 
The program's online Sales Product Catalog (SPC) is accessible by the 
public via GPO's web site, and in the next few weeks, new encryption 
software will ensure secure ordering. The electronic file of the SPC 
can also be downloaded via FTP from GPO's Federal Bulletin Board. The 
program is establishing an online Government bookstore on the World 
Wide Web and has begun listing selected sales titles on the Amazon and 
Barnes and Noble booksellers web sites.
    The Sales Program is also working with publishing agencies to 
increase the number of their salable products in GPO's sales inventory. 
General customer satisfaction and product-specific customer surveys are 
being used to understand and improve Sales Program services to the 
public. A new category of sales products deemed to be of historical 
significance has been created to ensure long-term public access to such 
titles.
    Question. The testimony notes that overtime utilization has 
increased by 11 percent in the past year and that employment levels are 
dangerously low. What has GPO done to cross train current employees 
from areas that are under utilized to assist in areas that are busier 
and require overtime?
    Answer. Under separate cover, we have transmitted to you the number 
of employees on board at GPO at this time. We have continued to cut 
staff in all areas of the Agency in order to reach the congressionally 
mandated number of FTE's--3,383--a number we feel is dangerous for the 
Agency's effort to timely deliver and quality product to the Congress.
    We have stated this fact in testimony before the Congress for the 
past two years. There is only one area in the GPO where there is any 
hint of under utilization. In the recently acquired computer-to-plate 
operation, we are working to provide cross training to those 
individuals who will be put out of their current positions by this new 
technology. In the next two years, we hope to be able to assimilate all 
of the effected men and women into new areas.
    Because of the continued congressionally mandated reductions in 
FTE's, there are no additional under utilized workforces at GPO. 
Because there is no need whatsoever for a mandated ``reduction in 
force--RIF,'' we were not in a position to offer our employees the 
``buyout'' that was authorized in the last year's appropriation 
legislation. Just the opposite is our need--rather than a RIF, we must 
have the ability to correctly and adequately staff our production and 
management functions to guarantee timely and quality products to 
Congress.
    With 232 ``fill actions'' actively progressing toward fulfillment 
in GPO, it is vital that we return to the level of 3,550 FTE's 
authorized by Congress last year. We will continue to cut positions 
where it is possible. The record of our success in that field should 
not be ignored when considering our only request to take a ``breather'' 
from the cuts that have transformed GPO in the past two decades from a 
workforce of 8,500 to our current level. GPO will offer retraining 
opportunities to any employees that may become underutilized due to 
changes in technology and workload mix.
    Question. GPO has been delivering depository library materials 
electronically for a number of years. How many depository libraries 
have no computer access?
    Answer. Electronic distributions to the depository libraries 
consist primarily of online Government information products, typically 
accessible via the World Wide Web. A minor percentage of electronic 
distributions are CD-ROM products. Based on the results from GPO's most 
recent Biennial Survey of Depository Libraries, only 32 of the 1,358 
responding depository libraries (2.4 percent) reported no plans to 
provide Internet access for the public by January 1, 1999. The same 
survey responses indicated that only 29 depository libraries (2.1 
percent) lacked the capability to use CD-ROM's.
    Question. At last years hearing we discussed the possibility of 
renting excess space at the GPO building to another government agency. 
Have you looked into that possibility?
    Answer. We have no plans at this time to lease space in the main 
GPO building. As we indicated last year, the available space is 
limited, as are the opportunities for renting space. GPO is working 
with a landlord to return 25,000 square feet of leased warehouse space 
located in Laurel, Maryland.
                       NONDEPARTMENTAL WITNESSES

STATEMENT OF JANET S. ZAGORIN, CHAIR, AMERICAN BAR 
            ASSOCIATION STANDING COMMITTEE ON THE LAW 
            LIBRARY OF CONGRESS
ACCOMPANIED BY WILLIAM ORTON, FORMER REPRESENTATIVE IN CONGRESS FROM 
            UTAH AND MEMBER, AMERICAN BAR ASSOCIATION STANDING 
            COMMITTEE ON THE LAW LIBRARY OF CONGRESS

    Senator Bennett. Our last panel is the American Bar 
Association, from which we have two witnesses: Ms. Janet 
Zagorin, who chairs the American Bar Association's Standing 
Committee on the Law Library of Congress. She is accompanied by 
one of my constituents, former Congressman Bill Orton from 
Utah. He is a member of the Committee on the Law Library of 
Congress and has testified before us previously.
    I assume that the clock has run and we don't have to swear 
you in at this time. [Laughter.]
    Mr. Orton. I think so. Yes.
    Senator Bennett. That was one of the more interesting 
experiences of my new chairmanship, where I didn't know how to 
do it. He should have handed me a piece of paper telling me how 
to do that.
    We welcome you both and look forward to your testimony.
    Ms. Zagorin. Thank you very much, Mr. Chairman and Senator 
Feinstein. We are very honored to be able to speak to you this 
morning.
    Senator Bennett. We apologize for the length of your wait 
today.
    Ms. Zagorin. That's fine. We are very grateful that you 
allowed us to speak once again. I am certainly honored that 
Bill is a member of our committee now and is going to 
participate in my testimony.
    This committee has always been very supportive, the ABA is 
supportive of the Law Library of Congress. As I think you know, 
we have had a standing committee at the ABA for close to 70 
years now to support the Law Library of Congress. So it is an 
enormous commitment on our part because we think that the Law 
Library, contrary to what some people may have thought, becomes 
a much more important part of our culture and plays a much more 
important role, particularly as we approach the Millennium. 
Technology and the need for information I think become much 
more powerful.
    It is essentially your law library. It is the library 
across the street from you and for every member of Congress, 
and it is accessible to every member of State or Federal 
Governments and your staffs. I think most of you probably use 
it for some very, very sophisticated, confidential, timely, and 
critical information.
    I think, as we see changes in information technology and as 
we see changes in just the role of government throughout the 
United States, as well as throughout the world, we think that 
the Law Library becomes the library across the street 
essentially for every citizen.
    I mean, you and Bill come from a State that is very far 
away from Washington, D.C. And yet, I think the Law Library has 
as much impact there as it certainly has in the State where I 
live, in New York, or in California, if not more.
    Senator Bennett. California is even farther away. 
[Laughter.]
    Ms. Zagorin. And I learned that at the library. [Laughter.]
    But it is not really farther away in certain respects.
    I know that you heard testimony this morning about numbers 
and about dollars. Bill and I really want to summarize my 
written testimony and make a couple of key points.
    We think that the need to have access to what is there--and 
you can see that from the charts I provided to you--to what is 
the largest legal collection in the world is an unbelievable 
accomplishment of this democracy. It has been accomplished over 
200 years.
    It contains our failings, our weaknesses, from the slave 
codes of every jurisdiction to our greatest triumphs.
    We think that we at the ABA are committed to making sure 
that this access to information for students, for senior 
citizens, whether they need to know about Medicare information, 
Congressional debate, access to information on foreign 
jurisdictions, this collection must be both maintained and 
enhanced.
    In addition to being that kind of library for every citizen 
in the United States, I think that we have an opportunity here 
that goes way beyond what I think are very modest dollars. This 
committee was very, very supportive of our request for the Law 
Library last year.
    But I think that the opportunity is, again, as we look 
around our world and look around our country, it is there. We 
want to show what the strength of a democratic Nation is and 
the rule of law. We believe very fervently that there is a 
nonpartisan and completely I think meaningful way to show that; 
that Congress is willing to open its Law Library to access by 
anyone, anyone who can get on the Internet and look at the Web 
page.
    I think the more people who go on-line for information, 
from school children to people in China, to people around the 
world who are looking for models for the rule of law, models 
for democracy, show that it speaks volumes that this Congress 
allows--I mean, obviously, not your confidential CRS reports--
but people can get on and see the Law Library of Congress.
    We provide in this country access to every statute, every 
decision, regulations, Congressional debate, amendments to 
bills, and access even to the foreign law collection of the 
United States as well. It becomes a very powerful tool without 
a lot of statement.
    I mean, we no longer do at the State Department some of the 
publications that many of us believed were a very valuable 
expression of the rule of law and models.
    I think that if the Law Library of Congress expands its 
role in GLIN, about which you probably heard this morning, the 
Global Legal Information Network which brings countries 
together, increases the digitized material that is available 
from our historic collections and on-line currently on the Web 
page, this costs some money--to digitize and provide 
information. Many of the agencies that you heard from are 
putting their material there. It is all in the Library of 
Congress. It is all at the Law Library.
    We would like to be able to see that immediately up on 
their Web page.
    I think that it has a very, very deep and resonant impact 
on our citizenry to say that this is a democracy, this is what 
it means, you see the good and the bad.
    I think the request of this hearing has been fairly modest 
for what we believe is an impact that can go well beyond the 
dollars.

                           prepared statement

    So I think Bill might have a word or two to say. But we 
really would appreciate it if you would support the Law 
Library's request.
    [The statement follows:]
                 Prepared Statement of Janet S. Zagorin
    Mr. Chairman and Members of the Subcommittee, the American Bar 
Association (ABA) appreciates the opportunity to speak in support of 
the fiscal year 2000 Legislative Appropriations budget. My name is 
Janet Zagorin and I am Chair of the American Bar Association Standing 
Committee on the Law Library of Congress. Accompanying me is Bill 
Orton, former Member of Congress from Utah, and a member of the ABA 
Standing Committee on the Law Library of Congress. We are here at the 
request of Philip Anderson, President of the Association. In my non-
volunteer life, I am a law librarian. I am currently the Director of 
Practice Development at the law firm of Cadwalader, Wickersham & Taft. 
I appreciate the opportunity to testify on behalf of the ABA in support 
of the budget request of the Library of Congress and its Law Library.
    The American Bar Association is the world's largest professional 
organization representing a large and diverse voluntary membership of 
over 400,000 attorneys nationwide. The ABA created the Standing 
Committee on the Law Library of Congress in 1932, as a measure of its 
dedication to preserving our nation's Law Library and its vast 
collection of legal literature and sources. Since its inception, the 
Standing Committee has consistently acted as the Association's liaison 
and voice of the legal profession concerning the continued development 
and operation of the Law Library of Congress.
    On behalf of the Association, I commend the Congress for having 
established one of the most prestigious and comprehensive legal 
collections in the world. This year, the Law Library has asked for a 
modest increase in its funding, which we believe is the minimum 
appropriation required if the Law Library is to continue to provide 
first-rate research service to Congress, maintain its role as an 
innovator in the delivery of electronic information, and preserve its 
treasures for future generations.
    I know that you are facing many difficult choices as you 
contemplate the Legislative Branch budget, but I hope that you will 
spare our nation's Library in those efforts. As in recent years, the 
Library has requested only the vital essentials and a reasonable 
increase to continue to meet the demands of its strategic plan and a 
rapidly changing world. The Law Library, likewise, must be able to 
continue to maintain its role as the ultimate legal resource center for 
our citizens. In spite of shrinking resources, the Law Library 
continues to provide service to the public at large in American law 
through its reading room, and on foreign and comparative law on a 
priority basis through legal specialists in its research directorate. 
An enhanced web site for the Law Library to further facilitate access 
to legal reference services is being developed.
    The Law Library is extremely grateful for the support of the 
Committee on Appropriations. As you may be aware, in the past, the 
Library has undergone significant reductions in staffing and services. 
While the funding the Law Library received last year enabled the Law 
Library to maintain and improve certain areas, the Library is still 
forced to confront the considerable downsizing that took place in 
previous years. We ask for Congress' continued support in granting the 
Library the resources it needs to develop, maintain, and preserve its 
collection and its reference services, and to prevent further erosion 
of its workforce.
    Faced with the necessity of developing a leading presence in the 
electronic age while maintaining its preeminent legal collection, the 
Library of Congress must have adequate funding to remain a leader in 
serving the Congress and the nation. While the Library is a critical 
resource available to every citizen of our country, immediate access to 
the great resources of the Law Library should be made more available to 
everyone--from isolated senior citizens to urban school children--via 
the internet. This, however, can only be accomplished by increased 
funding for the Law Library's technical support team. Even with the 
generous funding Congress granted last year, the Law Library is unable 
to achieve the level of research services it believes Congress deserves 
and requires. For example, the Law Library must support its entire 
research program with a staff of seven, and the largest legal 
collection in the world has only two part-time staff responsible for 
the filing of one million loose-leaf pages annually. We believe that 
proper funding for the Law Library's technical support team and 
computer systems is vitally important to ensure the integrity of the 
Law Library's collections and to provide Congress with the services 
upon which it must depend!
    Fiscal year 2000 will be a ``Year of Great Transition,'' for the 
Library of Congress. One of the Library's building blocks for this 
transition is the expansion of the Global Legal Information Network 
(GLIN). GLIN is the digital future of the Law Library. What began as a 
simple card file over fifty years ago has grown into an international 
network of the world's legislative bodies sharing via the Internet the 
full text of their nation's laws and regulations. The GLIN database 
contains information on over 70,000 laws and regulations from 46 
countries, and provides Congress with a direct link to foreign, 
comparative, and international laws.
    The Law Library is also contributing approximately 40 percent of 
the digital information to the Library's National Digital Library 
program. Through a program entitled, A Century of Lawmaking for a New 
Nation, the Law Library is making available through the Internet the 
debates and documents of the first 42 Congresses including debates on 
ratification of the constitution, the records of the federal 
convention, and the debates and laws of the Continental Congress. The 
ABA hopes that you will approve the budget request which will enable 
the Library to continue adding Congressional records to the internet. 
The funding requested for the Library's automation projects, including 
GLIN, will undoubtedly strengthen and enhance its efficiency and 
effectiveness internally and globally, in serving the Congress, in 
expanding public access to its invaluable collections, and in 
sustaining its role as the leader and progressive host of this vast 
knowledge.
    Giving the Library of Congress and its Law Library the support it 
needs to preserve the knowledge and ideas, that sustain us as a 
community and a nation, would be a significant gift to our country and 
to the Library in its bicentennial year, which will be celebrated in 
2000. It is the oldest Federal cultural institution in our country, 
serving Congress as its priority client, all Federal Agencies, as well 
as state and local governments. But it is also important to remember 
that the nation at large is served by the Library. As technology and 
the information age advance, new opportunities to serve Congress and 
the nation are available, but at the same time new challenges exist 
that make support for the Library even more crucial. At this critical 
time, it is imperative that we continue to support this great 
institution as we move into the new millennium.
    In this turbulent and challenging world, the Law Library represents 
a powerful reaffirmation that we are a democratic nation of laws and 
that access to our laws is and should remain open and free. Mr. 
Chairman and Members of the Subcommittee, the American Bar Association 
appreciates your courtesy in allowing me to appear before you today. We 
hope that you will look most favorably upon the budget request of the 
Library of Congress and its Law Library.

[GRAPHIC] [TIFF OMITTED] T08MA17.000


[GRAPHIC] [TIFF OMITTED] T08MA17.001


[GRAPHIC] [TIFF OMITTED] T08MA17.002


    Senator Bennett. Thank you.
    Bill?
    Mr. Orton. Thank you, Senator Bennett and Senator 
Feinstein, first for the privilege of speaking with you for 
just a few minutes and second for your historic support of the 
Library of Congress and the Law Library of Congress in 
particular.
    We thank you for the generosity that the committee has 
shown over the past few years.
    I recall when I first came to Congress that we had an 
annual deficit of over $350 billion. We are now in a surplus.
    To do that, to get there, the Congress had to cut budgets. 
There has been an impact for those budget cuts.
    The Law Library of Congress, I think we all can be very 
proud of them for what they have been able to accomplish with 
the few resources that they have. But just practically 
speaking, if you were to grant them their entire budget request 
this year, it still would not put them back to the level of 
staffing at which they were in 1994, when we started cutting 
those budgets dramatically.
    As a practical matter, to show you the impact of those 
staff reductions, the law is an ever-changing field. To keep up 
with the law, many services that report the various changes in 
statutes, cases, regulations, et cetera, issue weekly and 
oftentimes daily update sheets.
    Those sheets come into the Library of Congress and if they 
are not posted, you don't have the current law.
    They are, right now, millions of pages behind in posting 
those updates, simply because they do not have the clerical 
support to do it.
    If you don't have a current statute before you, you cannot 
rely on the accuracy of the information you are getting from 
your own library.
    So it seems to me that you have two choices: either abolish 
the library or fund it adequately to provide you with current, 
up-to-date information.
    Senator Bennett. Are you suggesting that the request we 
have gotten from the Library is too low and that we should 
increase it?
    Mr. Orton. Being out of Congress, I would even encourage 
you to up it, you know, give them more than they asked to let 
them get back to the staff levels at which they have been 
previously.
    They have a number of things going on beyond just operating 
the library, as well. Janet mentioned GLIN. You heard from both 
Dr. Billington and Dr. Medina previously. They have adequately 
laid out the background for their needs.
    But as the American Bar Association, as a group of this 
culture and country who rely on the law, we rely on the Law 
Library as well and we would encourage you to fully fund them, 
to provide the request--it is the Congress' library--so that 
you can rely on it and know that you are getting current, up-
to-date information. Then we, as the legal community, can rely 
upon it and all of your constituents and our colleagues and 
citizens in this country all can rely upon that library.
    So we thank you for what you have done in the past and urge 
you to meet the needs that they have submitted.
    I don't know if you have any questions.
    Senator Bennett. I think you have made the case in very 
compelling fashion. We appreciate your interest and your time 
to come in here to do this.
    Mr. Orton. Thank you very much.
    Ms. Zagorin. We thank you very much on behalf of the ABA.
    Senator Bennett. Do you have any further questions? If you 
do, you are presiding.
    Senator Feinstein. May I ask just one quick question?
    Senator Bennett. As I say, if you have further questions, 
then you are presiding. You can then take whatever time you 
want.
    Mr. Orton. And while you are presiding, you can up the 
request.
    Senator Feinstein (presiding). All right, then. I will 
finish and close up.
    Ms. Zagorin. Thank you, Senator.
    Senator Feinstein. I have just a quick question. These 
other libraries, do they do the updates as well? And do they 
make it available to everybody?
    Ms. Zagorin. Those are the five largest law library 
collections in the United States. As you see, the Law Library 
has the largest collection, built over 200 years, the smallest 
book budget and the smallest staff.
    They all have the same access to materials. But they do not 
provide access to Congress. Nor do they provide access to 
citizens.
    You may pay to use their libraries. If you are a wealthy 
law firm like mine or a corporation, you can have a 
subscription. They are not open to the public except for the 
depository part.
    Senator Feinstein. So does one have to pay to use the 
Congressional Library? No?
    Ms. Zagorin. No. It is completely open. Any citizen 
anywhere, anybody, can come in.
    Senator Feinstein. Is it the only resource that is 
completely open?
    Ms. Zagorin. Except for the public library system that you 
would have in each city or State.
    Senator Feinstein. Right.
    Ms. Zagorin. They log on to this overall Web that the 
Library of Congress, the Law Library, has. But the Law Library 
is the only one that has complete access and has the collection 
that it has. You can even get reference help.
    You may go to the Law Library or call up, or have your 
State library call, and get research--from anywhere.
    Senator Feinstein. I think you have made a good point. I 
would certainly be supportive of your request.
    Ms. Zagorin. Thank you very much. We think it is so 
important.
    Senator Feinstein. I thank you very much for taking the 
time to do this.
    Ms. Zagorin. It is important to all of us.
    Thank you very much.

                          subcommittee recess

    Senator Feinstein. Thank you.
    There being no further business, we will recess the 
meeting.
    Thank you.
    [Whereupon, at 11:51 a.m., Wednesday, March 17, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2000

                              ----------                              


                       WEDNESDAY, MARCH 24, 1999

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Robert F. Bennett (chairman) 
presiding.
    Present: Senators Bennett and Stevens.

                              U.S. SENATE

                 Office of the Secretary of the Senate

STATEMENTS OF:
        GARY SISCO, SECRETARY OF THE SENATE
        TIMOTHY S. WINEMAN, FINANCIAL CLERK OF THE SENATE

              OPENING STATEMENT OF HON. ROBERT F. BENNETT

    Senator Bennett. Good morning. The hearing will come to 
order. This is our last hearing on the Legislative Branch 
budget request for fiscal 2000. I am delighted that we are 
moving along in the pattern that we are and will have completed 
the Legislative Branch hearings by the end of March.
    Before we begin with our witnesses, I will surprise no one 
by raising my favorite subject, Y2K. I have been warning all of 
the agencies that come before this subcommittee on how 
important it is and how personally embarrassing it would be, 
after all the noise I have made on this subject, if everybody 
else is compliant and the Senate is not. I understand that word 
has gotten out and we are going to be buried with more 
information than we want today, so I look forward to that.
    I have a statement from Senator Craig, a member of the 
subcommittee who was not able to be here, and it will be placed 
in the record at this point.
    [The statement follows:]

              Prepared Statement of Senator Larry E. Craig

    Mr. Chairman, I want to thank you for holding this hearing 
today. The Sergeant at Arms, the Secretary of the Senate, and 
the Congressional Budget Office all provide services which are 
vital to each of us. I would also like to take a second and 
welcome the new Sergeant at Arms, James Ziglar, to his first 
budget hearing. I look forward to many more hearings with Mr. 
Ziglar.
    There are several important issues that this committee is 
addressing, and I don't want to discount them. However, the 
issue that I want to focus on today is the changes that are 
taking place with the Computer Information Services (CIS) that 
the Sergeant at Arms, the Secretary of the Senate, and the 
Senate Rules Committee are involved with.
    As the Committee is aware, last July Senate offices were 
notified by the Senate Rules Committee and the Sergeant at Arms 
that the online services which are offered to Senate offices 
were going to be dramatically changed. The Senate, through its 
Legislative Information Service (LIS), will provide the bulk of 
online legislative research. Services not provided by LIS may 
be purchased by outside vendors, either by the Senate or by 
individual offices. The Committee had concerns with the 
proposal and voiced these concerns with language in the fiscal 
year 1999 Legislative Branch Appropriations Conference Report.
    The temporary program, valid through the end of this 
calendar year, works to address the temporary concerns of 
offices who were feared they would lose key research 
capabilities they rely on. However, it does not address the 
fundamental question of where these changes are headed and why 
they are taking place.
    Over the last few years, my office has been pleased with 
the CIS offerings and has taken advantage of them, perhaps more 
than many offices. My staff has been pleased with what the 
private sector has to offer. While many of my staff also use 
LIS, there are many weaknesses in LIS for one simple reason--
LIS does not compete with other vendors and, therefore, does 
not have an incentive to be bigger, better, and faster than the 
competitors.
    This raises a key point. Several private sector companies 
already take legislative information and compile it into a 
searchable, online format. They are not simply taking 
information we generate and selling it back to us. They are 
adding value to it and we are paying for that. However, they 
also sell their service to private entities. Consequently, we 
are not covering the entire cost of their operation. We share 
it with all of their customers. This being the case, why is the 
Senate duplicating the efforts of the private sector?
    I also want to address concerns about Senate offices losing 
services they have come to rely on. For starters, there are 
several services which are offered by the private sector which 
are not offered by LIS. From detailed summaries and analysis of 
bills and committee hearings to extensive databases of 
periodicals and legal documents, the outside services offer a 
wealth of information that Senate offices depend on.
    I hope that as this process moves forward, the Sergeant at 
Arms, the Rules Committee, and the Secretary of the Senate will 
ensure that the Senate's staff and Members have the research 
tools they need while ensuring that our tax dollars are spent 
wisely.

    Senator Bennett. Our first witness is the Hon. Gary Sisco, 
Secretary of the Senate, and we want to welcome Mr. Tim 
Wineman, who took over the job of Financial Clerk last year 
after Stewart Balderson retired. Mr. Wineman, we recognize that 
this is your first hearing before the subcommittee in this 
position and we are delighted to have your willingness to serve 
in this position and look forward to hearing from you.
    The Secretary's budget request is $15.7 million. I note 
that this is the third year that Mr. Sisco has asked for a 
level budget, with only the adjustment for the mandatory cost 
of living increase. I recognize that there are often times when 
you cannot do that, but I am delighted that when you can do it, 
you do do it, and we appreciate you being here.
    So Mr. Sisco, we will hear from you, and you can introduce 
Mr. Wineman if he has information for us at the appropriate 
time.

            statement of gary sisco, secretary of the senate

    Mr. Sisco. Thank you, Mr. Chairman. I am pleased to be here 
this morning and, as you indicated, Tim is here with me. Tim is 
the Financial Clerk and has been since last May 1, and I would 
note that in his capacity as Financial Clerk he has submitted 
to the committee a budget for the entire Senate. My testimony 
this morning will be targeted just to the budget of the 
Secretary of the Senate. Tim is also responsible for the 
financial management information system, or FMIS, that we will 
hear more about later.
    My full statement has been filed with the committee, 
including the annual reports of each of the 24 departments of 
our office. This morning I will be brief. I will include Y2K, 
our budget request, and then I would like to make a comment or 
two on the Capitol Visitor Center.
    Senator Bennett. Please.

                    fiscal year 2000 Budget request

    Mr. Sisco. First, the budget request. As you indicated, for 
the third year in a row we are proposing a budget that holds 
the line on administrative expenses and reflects an increase in 
the payroll area for the COLA only. In dollars, that is 
$15,713,000, $14,202,000 for salaries, and $1,511,000 for other 
expenses. It is an increase of $508,000, or 3.3 percent, over 
our fiscal year 1999 appropriation of $15,205,000.
    From an operational standpoint, that is our request. The 
two major projects that are ongoing are the financial 
management information system, or FMIS, which I just mentioned, 
that Tim is responsible for, and a legislative information 
system, or LIS.
    We will continue to be funded for those for the remainder 
of fiscal year 1999, and for 2000, using the existing budgets 
that we have, and I do not project the need to request any new 
money for these two projects in 1999, or 2000. The only 
possible request may be to reprogram some of the unused funds 
from the appropriations we have already been provided in the 
administrative area.

                             Y2K compliance

    Now, to Y2K and the compliance status of the computers in 
the Office of the Secretary. While the Sergeant at Arms ensures 
Y2K compliance for all the computer equipment in the Senate, 
the Office of the Secretary has worked closely with the Office 
of the Sergeant at Arms to ensure, first, that FMIS and LIS are 
engineered from the beginning to be Y2K-compliant, and, second, 
that all other computers and systems used in the Office of the 
Secretary are Y2K-compliant.
    We are on course to replace, repair, or retire anything 
that is not fully compliant. Most of that work is already done, 
and the rest will be completed no later than the end of 
September.

                                  FMIS

    In terms of Y2K and the development of the FMIS, FMIS 
replaces a conglomeration of more than a dozen financial 
systems scattered throughout the Senate, none of which are Year 
2000 compliant, and provides a single Y2K-compliant financial 
management system for both the general ledger and for 
purchasing.
    Specifically, the KPMG Peat Marwick FAMIS 4.0 system, the 
financial accounting management information system, is the 
technology for the general ledger system, and KPMG's second 
package, called ADPICS 4.5, the advanced purchasing and 
inventory control system, is the purchasing system that we are 
using. These two software packages from KPMG are commercial 
off-the-shelf packages already in use in the Federal 
Government, and they are warranted by KPMG to be Y2K-compliant. 
Even though KPMG has warranted that, these systems are so 
important to our financial operations that we are going to do 
independent testing and verification over the summer, and we 
are now preparing to select an independent contractor to help 
us test those two systems to double-check and make sure that 
they are compliant.
    The new general ledger system is based on the standard 
general ledger of the Federal Government, and it converts the 
general ledger from a cash basis of accounting to an obligation 
and accrual-based accounting system. This is a mandate that has 
been there for a while. The system uses OMB object codes so 
that the budget authority and expenditures can be reported 
throughout the Senate and consistent with other Federal 
agencies, and FMIS will also deliver the capability to produce 
a consolidated audit of all financial statements for the entire 
Senate, beginning with fiscal year 2000. Again, that is part of 
our mandate.
    Tim and the Disbursing Office staff will also be upgrading 
the payroll system to Y2K compliance by the end of September, 
but they are not installing a new system. The payroll system 
will be made compliant by a software upgrade, which is the 
Integral 9.5 system. It is a Year 2000 compliant version of the 
Integral payroll system that is already used by the Disbursing 
Office. It is a proven product, already in use in a number of 
other places, and it also is warranted by the vendor.
    We have the original vendor installing the upgrade in the 
Disbursing Office, and it is being acceptance-tested at the 
present time, so we do not anticipate a problem there.

                                  LIS

    Shifting to the legislative information system, this also 
is a mandated system, with the objective of providing desktop 
access to the content and status of all Senate legislative 
information and supporting documents. Year 2000 compliance is 
being engineered, as a part of the LIS system development, by 
replacing the non-Y2K-compliant LEGIS system that the Senate 
has used for some time.
    To ensure that LIS meets the needs of all the Senate users, 
the LIS Project Office, which is comprised of personnel from 
the Secretary's Office, the Sergeant at Arms, the Library of 
Congress, KPMG, and a representative from the Rules and 
Administration Committee, has established a user group to 
collect the needs and priorities of the Senate offices. We sent 
out questionnaires and got feedback from those questionnaires, 
and major enhancements to the system have been based on the 
user feedback.
    For example, users can now perform detailed searches for 
particular amendments by amendment number, by bill number, by 
the date introduced, or by the Senate sponsor, and users can 
also now print entire amendments from their desks using their 
personal computers.
    We have all roll call votes from the 101st Congress to date 
available online for access by Senate staff through their 
personal computers.
    Our new LIS home page provides a link to a menu of the 
latest official committee scheduling and subcommittee 
scheduling reports. This makes it easier for committees to 
schedule hearings at times that avoid or reduce conflicts with 
meetings of other committees or subcommittees that have some of 
the same Senators as members. We have got all that computerized 
comprehensively for the first time.
    The new document management system, or DMS, of the LIS will 
replace the existing LEGIS system. The DMS will collect, 
manage, store, retrieve and report various types of data by 
tracking information in different formats from ``A'' to ``Z'', 
from ``A'', the time something is introduced into the 
legislative system, until ``Z'', when it goes to the National 
Archives.
    The DMS implementation phase is progressing and it will be 
finished in August of 1999. This schedule also allows time to 
complete the thorough testing that we began on February 26, 
1999. DMS end-to-end testing components have been identified 
and the LIS Project Office is actively addressing the Y2K 
compliance of the external interfaces.
    DMS will interface with the amendment tracking system. The 
committee scheduling systems--the other ones that I mentioned--
and these interfaces will also be Y2K-compliant.
    The Office of the Secretary is providing training for the 
Senate clerks, systems administrators, and the end users. Since 
each audience has distinct needs, the training approach is 
highly customized. Every effort is being made to provide a 
comprehensive training program for the users of the new system.
    The successful implementation to date of these two systems, 
FMIS and LIS, has depended on the outstanding cooperation and 
dedication and funding of this committee along with many other 
organizations that are involved in one of the systems, or both 
of the systems, including the Rules Committee and the Office of 
the Sergeant at Arms, the Senate Member offices, and the 
committee offices, the Library of Congress and the 
Congressional Research Service, the General Accounting Office, 
and last but not least, the Government Printing Office. We have 
all worked together to get to this point in the development of 
FMIS and LIS.

                             Other systems

    For other systems within the Secretary's Office, we have an 
information systems department that in conjunction with the 
Sergeant at Arms has made an assessment of the Y2K compliance 
of all other hardware and software within our office--that is, 
all non-FMIS and non-LIS systems, hardware and equipment. We 
have carefully thought through plans that are on course to 
replace or upgrade all of the noncompliant systems, systems 
programs and applications in a timely fashion.
    We began this process in May of 1998, with a detailed 
assessment by Mitretek, an outside firm, to look at all 
computer-related activity in conjunction with the Y2K Project 
Office of the Sergeant at Arms. The assessment was finished in 
December of 1998.
    During 1998, all of the personal computers within our 
office were updated or replaced with compliant hardware, and so 
from a hardware standpoint we are totally compliant.
    Even more importantly, the outdated network transfer method 
of transmitting the text of our legislation, and all the other 
work that we do in print, from the Capitol to the Government 
Printing Office has been replaced. Legislation is now 
transferred electronically to GPO via a Y2K-compliant gateway.
    The last major Y2K projects include a mainframe used by our 
stationery room and our gift shop, which is not a part of the 
Senate computer center. The mainframe will be replaced by 
servers. The Sergeant at Arms will provide Y2K-compliant 
hardware and software for the Office of Printing and Document 
Services, and this will be the last major replacement. That is 
on course for completion not later than the end of September 
1999.
    Further details on Y2K are in the full statement, in the 
information systems section of the annual reports.

                         Capitol visitor center

    The last topic I want to touch on is the Capitol Visitor 
Center. The 105th Congress took an important step by 
authorizing the visitor center and appropriating $100 million 
for the Architect of the Capitol to use for planning, 
engineering, and designing and to construct the visitor center.
    At that time, the best cost estimates of the Architect for 
building it, furnishing it, and finishing the exhibits and 
addressing security enhancements totaled $159 million. The 
legislation that was passed last year anticipated that the $100 
million would be supplemented by a private fundraising plan. 
The Secretary and the Clerk of the House were to develop that, 
and recommend it back to the Congress, and we have been working 
on that.
    We have had the Pew Charitable Trusts, which recently took 
the lead in giving and successfully raising funds to improve 
the Independence Mall region in Philadelphia, and which has 
contributed to many projects of major educational and cultural 
importance to the country, and other trusts and other 
individuals contact our two offices--that is, my office and the 
office of the Clerk of the House--and have offered on an 
unsolicited basis their financial support and expertise and 
other support to help with the Capitol Visitor Center project.
    With the level of interest in the visitor center that has 
been apparent, a private fundraising campaign could readily 
raise, in my opinion, $70 million.
    If you combine the $70 million and the $100 million that is 
appropriated, for a total of $170 million, that would cover the 
last best estimate of $159 million that the Architect provided 
last fall for the cost of the project, and would leave us an 
$11 million contingency.
    In addition, the Capitol Preservation Commission at the 
present time has a balance of $26.6 million, which was raised 
privately, and which could be made available for the visitor 
center project, if the commission voted for that and it were 
needed. And to the extent that a fundraising campaign raises 
more than what is needed for the initial cost, which I believe 
could be done, the excess could be reserved for expanded 
exhibits or for an endowment for long-term maintenance and 
future educational programs and new visitors' services. If we 
got aggressive in a fundraising campaign, we could even pay 
back the $100 million appropriation to the extent that was the 
will of the Congress.

                          prepared statements

    With the project being authorized for the first time, with 
the $100 million appropriation this past year, and with a 
successful fundraising campaign, the vision of the Senate for a 
modern visitor center to receive the public and provide 
accurate and complete information about the Congress and how it 
works, and to meet modern security requirements, is well within 
reach. I am committed to help fulfill this vision at the 
direction of the Senate, and work with the House to make a 
visitor center a reality.
    Thank you, Mr. Chairman. I will be happy to answer any 
questions you might have.
    [The statements follow:]
                    Prepared Statement of Gary Sisco
                    fiscal year 2000 budget request
    As the Committee is aware, the Office of the Secretary has 
requested freeze-level budgets, except for (COLA's), each year since 
fiscal year 1997. The fiscal year 2000 request again maintains level 
funding, excluding inflation, even as the responsibilities and workload 
of the Office have become greater than ever.
    I respectfully propose an operational budget for the Office of the 
Secretary for fiscal 2000 of $15,713,000, consisting of $14,202,000 for 
salaries and $1,511,000 for expenses.
    The requested budget is an increase of $508,000, or 3.3 percent, 
over the fiscal year 1999 appropriation of $15,205,000. The entire 
increase is to the salaries side of the budget, and is accounted for by 
a projected cost of living adjustment (COLA), as follows: $104,000 for 
the annualization of the 1999 calendar year COLA (3.1 percent for 
October through December 1999); and $404,000 for the calendar year 2000 
COLA estimate (3.9 percent for January through September 2000).
    The amount requested for expenses is the same as the fiscal year 
1999 budget of $1,511,000, and this figure has been maintained for the 
past three fiscal years.
    While the Office of the Secretary has held the line on 
administrative expenses, the change in format adopted last year is 
carried forward and will be permanent. Before 1999, line items were 
based on expense categories (some for as little as $500). The fiscal 
year 1999 budget grouped expenses by department, using the Office of 
Management and Budget (OMB) object classification codes that are 
standard throughout the Federal Government. The new format is necessary 
for FMIS, and also facilitates management within the Office of the 
Secretary by making it easier to control the expenses incurred by the 
users in particular departments. There is no change from fiscal year 
1999 to fiscal year 2000 in the budget figures submitted by department.
    With the approval of the Committee on Appropriations, the Office of 
the Secretary has utilized administrative expense savings to help fund 
annual expenditures for the FMIS and LIS strategic planning 
initiatives. The Office of the Sergeant at Arms has also contributed to 
LIS. Utilizing existing budgetary resources has made it unnecessary to 
request additional funds for these mission-critical projects. FMIS and 
LIS will continue to be funded using existing budgetary resources to 
the greatest extent possible for the remainder of fiscal year 1999 and 
for fiscal year 2000.
           implementing the mandated systems of fmis and lis
    With respect to both systems, two points are key: (1) No new funds 
were requested for fiscal year 1999 or are requested for fiscal year 
2000; and (2) Year 2000 compliance is being engineered into the new 
systems.
Financial Management Information System (FMIS)
    FMIS, a mandated update to the financial management systems of the 
Senate, is consolidating and replacing a conglomeration of stand-alone 
financial systems located throughout the Senate, none of them Year 2000 
compliant, with a single financial management system that is warranted 
to be Year 2000 compliant, while converting the general ledger from 
cash-basis accounting to obligation- and accrual-basis accounting based 
on the Standard General Ledger of the Federal Government, and having 
the capability to produce consolidated, auditable financial statements.
    The mandate is being implemented on schedule, the result of 
considerable effort by the entire staff of the Disbursing Office, many 
staff members of the Sergeant at Arms, and the primary outside 
contractor, KPMG Peat Marwick.
    There are four major phases of the FMIS strategic initiative: 
Replace, Rollout, Report, and Reengineer. The main components of the 
Replace phase include the replacement of the Disbursing Office general 
ledger system (DOVES), the upgrading of the Sergeant at Arms mainframe 
core financial system to support the financial management operation for 
the Senate on a single, Year 2000 compliant platform, and the 
replacement and deployment of an automated procurement system within 
the Offices of the Secretary and the Sergeant at Arms. These tasks were 
completed October 1, 1998.
    The selection of the Senate for the core financial and procurement 
systems are the KPMG Federal FAMIS 4.0 and ADPICS 4.5 products that are 
both warranted by KPMG to be Year 2000 compliant. Federal FAMIS 
(Financial Accounting Management Information System) is the general 
ledger system that replaces a conglomeration of more than a dozen 
existing systems. ADPICS (Advanced Purchasing and Inventory Control 
System) is an upgrade to the purchasing system used by the Sergeant at 
Arms, and replaces purchasing capabilities of several other systems 
throughout the Senate. The FAMIS and ADPICS products are being 
integrated so that the Senate may instantly record the procurement 
activity as a financial event on the general ledger. The ADPICS product 
is also being used as the front end voucher preparation system that 
will replace the systems currently being used by the Member Offices and 
Committees.
    The Rollout phase of FMIS involves the distribution of the 
financial and purchasing systems throughout Member Offices, Committees, 
and other administrative offices of the Senate. The two main tasks in 
this phase are the training of functional staff and technical support 
of the offices once they are online. The third phase of FMIS is Report, 
referring to financial reporting. The Disbursing Office has developed a 
classification structure that will enable entity level reporting and 
the general ledger structure necessary to create proprietary financial 
statements. One of the major tasks in the reporting phase is the 
development and integration of a fixed asset module that will provide 
timely asset valuation and allow the financial staff to depreciate the 
value of equipment used by the Senate. Another major reporting task is 
the complete revision of the Report of the Secretary of the Senate to 
extract data from FMIS more efficiently than was the case in previous 
systems. Development and distribution of financial reports to FMIS 
users will also be a major focus of the reporting phase of FMIS.
    The Reengineer phase will be the final phase of FMIS. Consistent 
with the strategic initiatives adopted by the Senate, the Disbursing 
Office intends to implement the FMIS vision for a secure, paperless, 
fully integrated financial system complete with signature 
authentication, optical scanning, storage and retrieval of documents.
    Several financial policy decisions have been made during the 
implementation that will have an immediate impact on the financial 
reporting capabilities of the Senate. The Disbursing Office has adopted 
the Standard General Ledger used by the Federal Government. This 
decision will enable the Senate to prepare standard financial 
statements consistent in form and content with other federal agencies. 
Also adopted is the object classification for expenditures of the 
Office of Management and Budget (OMB). This decision will enable the 
categorization of budget authority and expenditure reporting 
consistently throughout the Senate and consistent with the other 
federal agencies.
    These changes are essential. In addition, however, to replacing 
non-Y2K systems, the Disbursing Office has had to replace a 
conglomeration of stand-alone financial systems located throughout the 
Senate. Member Offices currently utilize the SOAS99 system to prepare 
vouchers and Committees use the Senate Committee Expense Accounting 
System (SCEAS). These systems were developed internally by the Senate 
to provide offices with a front-end capability to create vouchers and 
track individual budgets and they were, for the most part, easy to use. 
The Disbursing Office, however, is carrying out the two-fold mandate of 
the Senate to: Implement a single financial management system with COTS 
technology that is Year 2000 compliant; and account for funds on the 
obligation and accrual basis, with the capability to produce auditable, 
consolidated financial statements.
    It was therefore necessary for the Senate to move in a new 
direction.
    The successful implementation of FMIS to date has depended on the 
outstanding cooperation and dedication of the Committee on 
Appropriations, the Committee on Rules and Administration, the Office 
of the Secretary, the Office of the Sergeant at Arms, and the Member 
and Committee offices.
Legislative Information System (LIS)
    LIS is a mandated system (2 U.S.C. 123e) with the objective of 
providing desktop access to the content and status of all Senate 
legislative information and supporting documents.
    One of the early accomplishments in the LIS project was the 1997 
implementation of an Amendment Tracking System (ATS). This system 
enables the Bill Clerk to scan floor amendments as received at the 
desk. Within twenty minutes, Senators and staff can view the text of an 
amendment from their personal computers. During the past year, this 
system had two major enhancements implemented. These enhancements offer 
status and statements of purpose when provided by the sponsors and 
enable users to perform detailed searches for particular amendments by 
amendment number, bill number, date introduced, or sponsor. System 
reliability was improved and a method was implemented for easier 
printing of the entire amendment (a frequently requested requirement). 
During the coming year, the Amendment Tracking System will be 
interfaced with the new Document Management System that is being 
implemented as a core component of LIS.
    An anecdote related by a staffer tells how ATS has proven to be 
timely, accurate, and authoritative: The staffer had received a copy of 
an amendment via fax from one of the policy groups, but when the 
staffer printed it from the LIS Amendment Tracking System, it was clear 
that the faxed version was already out of date. (On their way to 
delivering amendments to the clerks, Senators sometimes make 
handwritten changes.) ATS provided a timely and accurate scanned 
photographic reproduction of the amendment copy as the Senator filed 
it.
    Also in 1998, a new Committee Scheduling application was developed 
and implemented, replacing the old, difficult to use system. The 
committee scheduling capability enables the Daily Digest Office to 
better schedule committee and subcommittee meetings and to allow all 
Senate users to retrieve information about committee meetings and 
hearings. Reports available from the new system include: Today's 
Meetings/Hearings, Scheduled Meetings/Hearings, Member's Individual 
Schedules, Specific Committee Schedules and Conflicts, and Combined 
Schedules for Members of a Specific Committee. The web-browser 
implementation provides convenient access from all Senate user PC's. In 
the coming year, the Committee Scheduling application will be 
interfaced with the new Document Management System.
    The LIS Document Management System (DMS) development began in 
August 1998. The DMS is to provide a central repository for all Senate 
information including legislation and support documentation. The system 
will collect, manage, store, retrieve, and report various types of data 
by providing accessibility, management, and tracking of information in 
various formats. The LIS DMS, by transmitting data to the Library of 
Congress retrieval system, will serve a wide user base, often with 
different, and sometimes unique, sets of requirements: clerks of the 
Secretary of the Senate, Senate Library, Senate members and staff, the 
House of Representatives, Library of Congress, Congressional Research 
Service, Government Printing Office, and the public. The primary 
objective of Phase I, initiated in 1998 and to be completed in June, 
1999, is to deliver a Year 2000 functional replacement for the existing 
LEGIS system with the ability to support document attributes, external 
interfaces, legacy data conversion, and reporting. Phase II, also to be 
completed in 1999, is to incorporate textural data and ad hoc reporting 
in the DMS. Interfaces to the Senate Amendment Tracking System and the 
Committee Scheduling System are to be established.
    As the Legislative Information System and Document Management 
System (LIS/DMS) are intended to serve varied groups of users, many 
with unique requirements, the Office of the Secretary and Senate Office 
of Education and Training provide LIS training with the primary 
objective to prepare Senate staff to test, use, maintain, and support 
the LIS/DMS. Training is provided for Senate clerks, system 
administrators, and end users; since each audience has distinct needs, 
the training approach is highly customized. It might be noted here that 
although every effort is being made toward a comprehensive training 
program, many end users have reported that the LIS is so ``user-
friendly'' and the published materials are so helpful that they do not 
feel the need to take time from the job to attend training sessions.
Y2K compliance
    The Sergeant at Arms ensures Year 2000 compliance in the Senate. 
The Office of the Secretary can report, however, that Y2K compliance is 
being engineered in the FMIS and LIS strategic initiatives, and that a 
Y2K assessment has been made of all other hardware and software within 
the Office, with a schedule in place to complete the timely replacement 
or upgrade of all non-compliant systems, programs, and applications.
    The FMIS project, as noted above, is consolidating and replacing a 
conglomeration of stand-alone financial systems located throughout the 
Senate, none of which was Year 2000 compliant, with a single financial 
management system that is warranted to be Year 2000 compliant. The 
current FMIS applications presently used in the Disbursing Office and 
the Sergeant at Arms consist of two modules, FAMIS and ADPICS, that the 
vendor, KPMG, has warranted compliant. Y2K compliance will be verified 
in early summer, 1999, through independent testing, e.g, by a non-KPMG 
consultant.
    Separately, FMIS will ensure that the Senate payroll system is Year 
2000 compliant through an upgrade of the existing software supplied by 
the original vendor. The upgrade package is the Integral 9.5 version of 
its package now in use. With the upgrade package, Integral supplies 
step-by-step instructions, and the vendor thoroughly tested the package 
before released to its customers. Y2K conversion of the payroll is now 
in acceptance testing, and will be completed before October 1, 1999.
    The LIS project, now composed of the Amendment Tracking, Committee 
Scheduling, and Document Management systems, will replace the current 
LEGIS mainframe application in August, 1999. Y2K compliance will be 
ensured by the system replacement.
    Other Y2K projects now underway in the Office of the Secretary, 
scheduled for completion no later than the end of summer, 1999, include 
the replacement hardware and software for the Office of Printing and 
Document Services, and the mainframe replacement for the Stationery 
Room and Gift Shop.
    The Office of the Secretary Information Systems Department, in 
conjunction with the Sergeant at Arms Y2K Project Office, has assessed 
Y2K readiness and compliance for all existing hardware and software 
systems installed in this Office. This process began in May, 1998, with 
a detailed assessment by the Mitretek Group of all computer-related 
activity. The assessment, completed in December, provides a detailed 
risk analysis of the mission critical functions. During this same time 
frame, and in parallel with the assessment, all personal computers 
within the Office were updated or replaced with compliant hardware. 
Even more importantly, the outdated network transfer method of 
transmitting the text of legislation from the Capitol to the Government 
Printing Office was replaced. Legislation is now transferred 
electronically to GPO via Y2K-compliant gateways.
    Further details regarding Y2K compliance within the Office of the 
Secretary may be found in the attached annual reports submitted by the 
departments. Every step in ensuring Y2K compliance within the Office of 
the Secretary is taken in conjunction with the Sergeant at Arms.
                  personnel challenges for the future
    As discussed in the reports for the last two years, there are 
positions in the Office of the Secretary--particularly but not 
exclusively within the legislative departments--that are essential to 
the constitutional responsibilities of the Senate, and that require 
institutional knowledge and experience to master, but have little 
comparability to executive-branch or private-sector occupations. Those 
positions that especially depend on institutional knowledge and 
experience will always present the Senate with a major challenge.
    The past twelve months have seen the death of the Legislative 
Clerk, and the actual or announced retirements of the Financial Clerk, 
the Journal Clerk, the Executive Clerk, the Daily Digest Editor, the 
Chief Reporter of Debates, and the Director of the Office of Printing 
and Document Services.
    In all cases, the Office of the Secretary has maintained and will 
continue to maintain the essential functions that these departments 
perform. All of these positions have been filled with highly capable 
individuals, and there are now no vacancies in any department head 
position, nor in any deputy position. This depth is creditable to the 
concrete steps taken in past years to identify incumbent employees and 
prospective new hires who are highly qualified, appropriately 
experienced, and committed to the Senate for the long term to meet the 
high professional standards the Senate requires and to become qualified 
to assume greater responsibilities.
    The Office of the Secretary intends to continue to focus on skill 
development, under which highly qualified employees are offered 
opportunities to learn additional skills. This focus is to ensure that 
there are trained resources in every function, that all of the 
legislative departments are fully staffed by individuals who have 
significant on-the-job training and experience, and that the careers of 
at least two individuals are developed with the potential to succeed to 
each department head responsibility. Through the development of 
additional skills, these individuals may come from within or without 
the specific departments that they may be asked to head.
    The above objectives are being accomplished within personnel 
authorizations. The Disbursing Office expects soon to add approximately 
ten new positions to assist in implementation of FMIS and the 
restructuring of its functional units that are responsible for 
financial management, but even with these positions, the Office of the 
Secretary will remain below the 241 to 252 positions authorized by this 
Committee for fiscal year 1999.
                 vision for the capitol visitor center
    The heroism of Officers Jacob Chestnut and John Gibson, who died 
last summer while preserving the lives of Members, staff and visitors, 
brought renewed attention to the need to go forward with the Capitol 
Visitor Center project to address both security needs and enhance the 
educational experience for visitors.
    The 105th Congress appropriated $100,000,000 to the Architect of 
the Capitol for the planning, engineering, design, and construction of 
the Capitol Visitor Center. [Public Law 105-277, the Omnibus 
Consolidated and Emergency Supplemental Appropriations Act, 1999.] 
These funds may not be spent, however, until approved by the 
appropriate authorizing and appropriating committees of both the Senate 
and the House. Additionally, these funds, which are available until 
expended, are to be supplemented by private fund-raising.
    While the Architect of the Capitol is charged with the planning, 
engineering, design, and construction of the Visitor Center, the Office 
of the Secretary, in conjunction with the Office of the Clerk of the 
House of Representatives, has undertaken responsibility for 
recommending a plan for the private fund-raising efforts. At the 
request of the Majority Leader, I have also offered my assistance to 
the Architect, as appropriate, to facilitate and expedite completion of 
the Visitor Center.
    With regard to private fund-raising efforts, the existing Capitol 
Preservation Fund has a balance derived from private funds of about 
$26,600,000, which could be made available for the Visitor Center 
project. The Office of the Secretary (along with the Office of the 
Clerk of the House of Representatives) is currently evaluating the most 
appropriate means for raising up to $70,000,000 in additional private 
funds. Funds raised over and above the costs of construction and 
initial furnishing, currently estimated at $159,000,000, could be 
reserved for long-term maintenance and future educational programs and 
visitor services.
    The Pew Charitable Trusts (which recently took the lead in 
successfully raising funds to improve the Independence Mall region in 
Philadelphia and which has contributed to many projects of major 
educational and cultural importance) and other trusts, individuals, and 
corporations are eager to provide support. Staff of the Secretary and 
Clerk are also evaluating the need to establish a 501(c)(3) entity to 
conduct the fund-raising.
    For nearly 200 years, the Capitol has stood as the greatest visible 
symbol of representative democracy in the world. As the workplace of 
the elected representatives of the people, the Capitol is--and must 
remain--a working office building, a museum, and an open tourist 
center. Since 1859, when the present Senate and House wings of the 
Capitol were completed, the Nation has undergone tremendous growth. 
With that growth, our citizens visit in increasing numbers each year. 
The nineteenth-century design does not and cannot accommodate the 
numbers, either in terms of providing information about how Congress 
carries out its constitutional responsibilities, or in terms of meeting 
modern security requirements, an issue that the Sergeant at Arms and 
the Architect of the Capitol, as members of the Capitol Police Board, 
have spoken to in previous hearings before this Committee.
    As all know, during peak season, from March through August, 
visitors face excessively long lines, with little shelter from the 
Washington summer's heat and humidity. (The Office of the Attending 
Physician has reported providing emergency treatment to more than a 
dozen visitors a week for heat-induced illness.) While it is sufficient 
to say that entry to the Capitol should not have to be an endurance 
test, it is equally apparent that the visit itself must be made more 
informative and enjoyable. Visitors face congested corridors and a lack 
of basic facilities such as restrooms and water fountains. Exhibits are 
few, and many priceless documents and artifacts of America's history 
are not on public display. Tours are crowded and abbreviated; during 
the summer, tours do not see either the Senate or House Chambers. There 
is no information center to inform visitors about the Capitol and the 
history and constitutional role of Congress, or simply to help visitors 
find their Member offices, and there are few suitable rooms for Members 
to meet with visiting groups of constituents.
    With the $100,000,000 appropriation this past year, and a 
successful $70,000,000 fund-raising campaign, the vision of the Senate 
for a modern Visitor Center to receive the public, provide accurate and 
complete information about Congress, and meet security requirements is 
well within reach. The entire Office of the Secretary is committed to 
helping to fulfill this vision and make it a reality sooner.
                           impeachment trial
    Throughout the trial of the impeachment of President William 
Jefferson Clinton, the Office of the Secretary carried out 
extraordinary responsibilities while maintaining day-to-day services.
    In advance of the trial, the Sergeant at Arms and I prepared a 
memorandum for the Senate leadership concerning arrangements for the 
trial.
    During the trial, the Legislative Clerks read aloud the texts of 
matters pending on the floor, called the roll, and maintained vote 
tallies, and performed other duties unique to the trial, such as the 
logging and storage of evidentiary material. The Journal Clerk 
maintained The Journal of the Proceedings of the Senate for the 
Impeachment of William Jefferson Clinton, President of the United 
States as required by the Constitution and Senate Rules. The 
impeachment journal will be a vitally important official resource for 
the Senate and for legal scholars and historians. The Parliamentarian 
advised the Chief Justice and the Senate on the Rules of Procedure and 
Practice in the Senate When Sitting on Impeachment Trials and the 
Procedure and Guidelines for Impeachment Trials in the United States 
Senate. The Official Reporters of Debates kept a stenographic record 
throughout the trial and prepared the transcripts for printing in the 
Congressional Record. By unanimous consent, Senators were permitted to 
insert their own closed remarks in the Record, insert prepared 
statements, or add additions to closed session remarks, all of which 
were processed by the Official Reporters.
    The Office of Senate Security provided a secure conference room for 
conduct of depositions, and took receipt of all deposition transcripts 
and videotapes from the contractors that produced them. Printing and 
Document Services handled the distribution of the 29 printed volumes of 
trial materials, containing a total of 15,756 pages. That office had to 
obtain temporary space provided by the Rules and Administration 
Committee to store the documents. The office will subsequently, of 
course, distribute the full proceedings ordered printed as a Senate 
Document. The Senate Historical Office developed an inventory of 
official records presented to the Senate in compliance with the 
impeachment trial rule, and the office will identify for preservation 
and eventual public access all substantive trial-related records and 
provide for their orderly transfer to the National Archives. The 
Historical Office will also produce an oral history, based on 
interviews with the trial's key participants, and A Documentary History 
of United States Senate Impeachment Trials, 1798-1999, that will 
present a chronology of key dates, a brief history of the issues that 
led to the trial, and the abridged text of key documents for each of 
the Senate's seventeen impeachment trials.
    The budget summary and apportionment schedule, and the compilation 
of annual reports submitted by the Office of the Secretary departments, 
follow.
                                 ______
                                 
Office of the Secretary of the Senate Fiscal Year 2000 Budget Summary, 
        Apportionment Schedule, and Departmental Annual Reports

                             BUDGET SUMMARY
------------------------------------------------------------------------
                                                    Amount       Percent
------------------------------------------------------------------------
Fiscal Year 1999:
    Payroll Budget............................      13,694,000      90.1
    Operating Expense Budget..................       1,511,000       9.9
                                               -------------------------
      Total...................................      15,205,000     100.0
                                               =========================
Suggested Fiscal Year 2000 Budget Request:
    Payroll Budget............................      14,202,000      90.4
    Operating Expense Budget..................       1,511,000       9.6
                                               -------------------------
      Total...................................      15,713,000     100.0
------------------------------------------------------------------------


                         APPORTIONMENT SCHEDULE
------------------------------------------------------------------------
                                      Amount
                                    available      Budget
                                   fiscal year    estimate
               Item                    1999     fiscal year   Difference
                                   (Public Law      2000
                                     105-275)
------------------------------------------------------------------------
Executive Office.................     $718,100     $718,100  ...........
Administrative Services..........      463,800      463,800  ...........
Legislative and Legal Services...      329,100      329,100  ...........
                                  --------------------------------------
      Total......................    1,511,000    1,511,000  ...........
------------------------------------------------------------------------

                      Departmental Annual Reports
                        Legislative Departments
                               bill clerk
    The Bill Clerk records official actions of the Senate, keeps an 
authoritative historical record of Senate business, enters daily 
legislative activities and votes into the automated legislative status 
system, and prints all introduced, submitted and reported legislation. 
In addition, this office assigns numbers to all bills and resolutions.
Legislative Activity
    The legislative materials processed by the Bill Clerk during the 
105th Congress are as follows:

Senate Bills...................................................... 2,655
Senate Joint Resolutions..........................................    60
Senate Concurrent Resolutions.....................................   130
Senate Resolutions................................................   314
Amendments Submitted.............................................. 3,820
House Bills.......................................................   507
House Joint Resolutions...........................................    31
House Concurrent Resolutions......................................    98
Measures Reported.................................................   621
Roll Call Votes...................................................   612
Relations with GPO
    The Government Printing Office has responded in a timely manner to 
the Bill Clerk's request for the printing of bills and reports, 
including the printing of priority matters for the floor. The record on 
specific GPO printings for the second session is summarized below:
  --Star Prints: The number of Star Prints (reprints) authorized was 
        14.
  --``Bates List'': Overnight rush printing was ordered on 29 pieces of 
        legislation.
  --At the end of the Second Session, 64 House passed measures were at 
        the desk. In the past the bill clerk would print these bills as 
        ``Received'' with the required quantity for each of 800 copies. 
        The exact language in now available on the web as a House 
        engrossed bill, so these bills were not printed, resulting in a 
        savings to the Senate of approximately $51,230.05.
Legislative Information System (LIS)
    LEGIS: The office continued working with KPMG and the Senate 
Computer Center reviewing the legislative information processed by this 
office, including reviewing vote and some data input screens.
    Amendment Scanning: During the second session of the 105th Congress 
the final Amendment Tracking System (ATS) was finalized. All Senate 
staff can view a copy of all proposed pending amendments of 25 pages or 
less.
                              daily digest
    The Daily Digest section of the Congressional Record provides a 
concise accounting of all official actions taken by the Senate on a 
particular day. All Senate hearings and business meetings (including 
joint meetings and conferences) are scheduled through the Daily Digest, 
reported on daily, and are published in the Congressional Record.
Chamber Activity
    The Senate was in session a total of 143 days, for a total of 1,095 
hours and 5 minutes. There were 4 quorum calls and 314 record votes.
Committee Activity
    Senate committees held 711 hearings and 172 business meetings 
(total 883), contrasted with 552 hearings and 184 business meetings 
(total 736) during the Second Session of the 104th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest and are published in the Congressional Record and are entered in 
the mainframe-based legis system (currently being replaced by a web-
based applications system). Meeting outcomes are also published by the 
Daily Digest in the Congressional Record each day.
Government Printing Office
    The Daily Digest continues to send the complete publication at the 
end of each day to the Government Printing Office electronically. The 
Digest also continues the practice of sending a disk along with a 
duplicate hard copy to GPO, even though GPO receives the Digest copy by 
electronic transfer long before hand delivery is completed, adding to 
the timeliness of publishing the Congressional Record. The Digest 
continues to discuss with GPO problems encountered with the printing of 
the Daily Digest section. Corrections or transcript errors have become 
very infrequent due to the ability of electronic transfer.
Staff Changes
    The Daily Digest announces the retirement of Thomas G. Pellikaan, 
Editor, and the promotion of Linda E. Sebold to the position of Editor.
                            enrolling clerk
    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House.
    During 1998, 91 enrolled bills (transmitted to the President) and 
11 concurrent resolutions (transmitted to Archives) were prepared, 
printed, proofread, corrected, and printed on parchment.
    A total of 521 additional pieces of legislation was passed or 
agreed to by the Senate, requiring processing from this office.
    New computers installed in early 1998 doubled the speed at which 
bill pages are composed. The data retrieval system was changed during 
the year so that the office can now pull the bill files from the 
Government Printing Office (GPO) by FTP via the Internet, and, rather 
than going through GPO for Legislative Counsel files, the office can 
retrieve them directly from the Legislative Counsel computer storage 
area with a direct internet connection. This has greatly improved 
retrieval speed for the necessary files.
                            executive clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Executive Journal at the end of 
each session of Congress. The Executive Clerk also prepares daily the 
Executive Calendar as well as all nomination and treaty resolutions for 
transmittal to the President.
Nominations
    During the Second Session of the 105th Congress, there were 648 
nomination messages sent to the Senate by the President, transmitting 
20,225 nominations to positions requiring Senate confirmation and 27 
messages withdrawing nominations previously sent to the Senate during 
the session. Of the total nominations transmitted, 336 were for 
civilian positions other than lists in the Foreign Service, Coast Guard 
and Public Health Service. In addition, there were 1,532 nominees in 
the ``civilian list'' categories named above. Military nominations 
received this session totaled 18,443 (6,070 in the Air Force, 5,479 in 
the Army, 5,047 in the Navy and 1,847 in the Marine Corps). The Senate 
confirmed 20,302 nominations this session and 133 nominations were 
returned to the President pursuant to the provisions of paragraph six 
of Senate Rule XXI at the sine die adjournment of the 105th Congress.
Treaties
    There were 26 treaties transmitted to the Senate by the President 
during the second session of the 105th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 105-33 through 105-58).
    The Senate gave its advice and consent to 53 treaties with various 
conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.
Executive Reports and Roll Call Votes
    There were 12 executive reports relating to treaties ordered 
printed for the use of the Senate during the second session of the 
105th Congress (Executive Reports 105-14 through 105-25). The Senate 
conducted twenty-nine roll call votes in an executive session, 17 on or 
in relation to nominations and 12 on amendments to and final passage of 
the NATO Accession Treaty.
Executive Communications
    In April, the responsibility for executive communications, 
petitions and memorials sent to the Senate by the executive branch, 
state legislatures, local governments, organizations and/or citizens 
were placed under the direction of the Executive Clerk. The growth in 
the number of these items has increased exponentially, requiring the 
addition of a full-time clerk to process them. Due to the reporting of 
a vacancy requirement of Public Law 105-77, the number of 
communications for the 106th and future Congresses will continue to 
increase dramatically. From April through the end of the Second 
Session, 3,125 or 41 percent of all executive communications received 
during the 105th Congress, and 182 petitions and memorials were 
processed by the new clerk. Also during this period, the writing of the 
abstracts for the Congressional Record was adapted and improved to 
better serve the needs of the agencies, GAO, and the National Archives.
Development of the new LIS
    The staff has consulted regularly with KPMG and the Senate Computer 
Center concerning the development of the portion of the new LIS 
pertaining to the processing of nominations and treaties. In addition, 
staff have been meeting regularly with the CRS staff at the Library of 
Congress charged with developing the retrieval system for the new LIS 
database, and have spent many hours explaining the processing 
procedures of the nominations and treaties in the Senate to help them 
develop the best possible systems for in put and retrieval.
Staff Changes
    The Executive Clerk's Office announces the retirement of David G. 
Marcos as Executive Clerk and the promotion of Michelle Haynes to that 
position.
                             journal clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Senate Journal that is in effect the 
index of legislative action. The Senate Journal is published each 
calendar year.
    The office is responsible, pursuant to its constitutional duties 
and under the provisions of the Senate rules, to produce The Journal of 
the Proceedings of the Senate for the Impeachment of William Jefferson 
Clinton, President of the United States, in addition to the regular 
Senate Journal, for this year of 1999.
    The 1998 volume will go to the Government Printing Office for 
distribution in the spring of this year. The completion of the 1998 
Journal will not affect the progress of the two Journals for 1999.
Staff Changes
    The Journal Clerk's Office announces the retirement of William D. 
Lackey, Jr., as Journal Clerk and the promotion of Patrick Keating to 
that position.
                           legislative clerk
    The Legislative Clerk sits at the Secretary's desk in the Senate 
Chamber and reads aloud bills, amendments, the Senate Journal, 
Presidential messages, and other such materials when so directed by the 
Presiding Officer of the Senate. The Legislative Clerk calls the roll 
of members to establish the presence of a quorum and to record and 
tally all yea and nay votes. This office prepares the Senate Calendar 
of Business, published each day that the Senate is in session, and 
prepares additional publications relating to Senate class membership 
and committee and subcommittee assignments. The Legislative Clerk 
maintains the official copy of all measures pending before the Senate 
and must incorporate into those measures any amendments that are agreed 
to. This office retains custody of official messages received from the 
House of Representatives and conference reports awaiting action by the 
Senate. This office is also responsible for verifying the accuracy of 
that information entered into the LEGIS system by the various offices 
of the Secretary. In addition, this office is very involved in the 
Secretary's multi-year, comprehensive program to redesign and rebuild 
the Senate's system for the collection and management of its 
Legislative Information Services (LIS).
Summary of Activity
    The Second Session of the 105th Congress completed its legislative 
business and adjourned on October 21, 1998. During 1998, the Senate was 
in session for 1,095 hours over 143 days and conducted 314 roll call 
votes. There were 363 measures reported from committees, 506 total 
measures passed, and there were 246 items remaining on the Calendar at 
the time of adjournment. In addition, there were 2,180 amendments 
submitted.
Legislative Information System (LIS)
    When LIS replaces the current LEGIS system, extensive training and 
retraining will be required to convert from the current mainframe to a 
document management system (DMS). As staff become more familiar with 
the new capabilities LIS will provide, there may be added benefits such 
as a history of legislation in the Calendar of Business, which could 
then be included in the Journal at the end of each session.
Amendment Scanning
    In 1997, the Secretary's office began scanning certain pending 
amendments to Senate offices. The main concern was, and continues to 
be, that there be little or no disruption in the way an amendment is 
processed and distributed on the Senate floor. In 1998, the office 
implemented improvements to the amendment scanning system which 
resulted in faster scanning to a wider audience and reduced keyboarding 
by the Bill Clerks. Undoubtedly, this project will need to undergo 
further enhancements as the LIS project progresses.
Staff Changes
    The Senate tragically lost R. Scott Bates (1948-1999) on February 
5, 1999. David Tinsley was promoted to the position of Legislative 
Clerk.
                office of official reporters of debates
    The Official Reporters of Debates prepare and edit for publication 
in the Congressional Record a substantially verbatim report of the 
proceedings of the Senate, and serve as liaison for all Senate 
personnel on matters relating to the content of the Record. The 
transcript of proceedings, submitted statements and legislation are 
transmitted, in hard copy and electronically, throughout the day to the 
Government Printing Office. The Chief Reporter functions as editor in 
chief and the Coordinator functions as technical production editor of 
the Senate portion of the Record.
Accomplishments
    The Official Reporters continue to use the computer-aided 
transcription system, and have experimented with new software 
throughout the year. As noted in previous reports, the workload of this 
office has not decreased but, by providing GPO electronic as well as 
paper copy, the overall workload at GPO (i.e., not having to rekey 
every word this office transmits to them) is reduced and, as a result, 
the overall production cost of the Record.
Morning Business
    The Morning Business Unit has dealt effectively with a marked 
increase of items being processed through their office. The number of 
communications has continued to increase since the passage of Public 
Law 104-121 (the Contract with America Advancement Act of 1996).
Goals
    The goals for the coming year include: increasing the volume of 
electronic submissions to GPO by continually informing and educating 
staff of the e-mail process and the proper format and deadlines for 
submitting statements; adapting the new LIS system to daily operation; 
continuing to cross-train transcribers in the tasks performed by the 
Coordinator; and and experimenting with new software for the Reporters.
Cost Savings
    The office continues to save substantial sums by eliminating 
duplication in printing, and Senators are consistently informed about 
the two-page rule.
                            parliamentarian
    The Parliamentarian advises the Chair, Senators and their staff as 
well as committee staff, House members and their staffs, administration 
officials, the media and members of the general public on all matters 
requiring an interpretation of the Standing Rules of the Senate, the 
precedents of the Senate, unanimous consent agreements, as well as 
provisions of public law affecting the proceedings of the Senate. The 
Office of the Parliamentarian is responsible for the referral of all 
legislation introduced in the Senate, all legislation received from the 
House, as well as all communications received from the executive 
branch. The office worked extensively with Senators and their staffs to 
advise them of the jurisdictional consequences of particular drafts of 
legislation, and evaluated the jurisdictional effect of proposed 
modifications in drafting.
    The office continues to analyze and advise Senators on a great 
number of issues arising under the Congressional Budget Act of 1974. 
The Byrd Rule on extraneous matter in reconciliation bills can cause a 
great deal of parliamentary maneuvering.
    The atmosphere that surrounded the parliamentary process in 1998 
resulted in an unprecedented number of questions that this office was 
asked to resolve. These questions often required hours of very 
difficult and contentious meetings with competing groups of staff. At 
every stage of the budget cycle, this office was called upon to 
arbitrate large numbers of budget and appropriation related questions. 
The Parliamentarian's Office was constantly asked to answer questions 
during consideration on the Senate floor, of the budget resolution and 
the appropriations bill that followed.
    Concerns about the use of the budget surplus promises to keep the 
congressional budget process (with all of its parliamentary complexity) 
in the forefront of the legislative agenda.
                     printing and document services
    Printing and Document Services documents Senate printing expenses 
and functions as GPO liaison to schedule and/or distribute Senate bills 
and reports to the Chamber, Senate staff, and the public; provides page 
counts of Senate hearings to commercial reporting companies, orders and 
tracks all paper and envelopes provided the Senate, provides general 
printing services for Senate offices, and assures that Senate printing 
is in compliance with Title 44, U.S. Code, as it relates to Senate 
documents, hearings, committee prints, and other official publications.
Total Publications
    During the second session of the 105th Congress, 647 publications 
(hearings, committee prints, Senate documents, Senate Publications) 
were printed. This compares with 504 publications printed during the 
second session of the 104th Congress, or an increase of about 28 
percent.
Hearings Transcripts and Billing Verifications
    Billing Verifications are the vehicle by which reporting companies 
request payment from a committee for their transcription services. 
During 1998, commercial reporting companies and the corresponding 
Senate committees were provided a total of 919 billing verifications of 
Senate hearings and business meetings (including hearings which were 
canceled or postponed, but still requiring payment to the reporting 
company). This averages 38 hearings/meetings per committee. Compared 
with 1,105 billing verifications in 1997, there was a decrease of about 
17 percent in the number of hearings processed.
    Commercial reporting companies charged the Senate approximately 
$447,268 to prepare 69,855 transcript pages of the spoken portions of 
Senate hearings (compared to 1997 figures of $585,956 to prepare 89,020 
transcribed pages) for an average annual cost of about $18,636 per 
committee, and an average of 2,910 spoken transcript pages per 
committee during 1998. In 1997, the average annual cost per committee 
was $29,903, and an average of 4,239 spoken transcript pages.

----------------------------------------------------------------------------------------------------------------
                                                                                                      Percent
                                                                       1997            1998          Increase/
                                                                                                     Decrease
----------------------------------------------------------------------------------------------------------------
Billing Verifications...........................................           1,105             919             -17
Transcribed Pages...............................................          89,020          69,855             -22
Average Pages/Committee.........................................           4,239           2,910             -31
Transcribed Pages Cost..........................................        $585,956        $447,268             -24
Average Cost/Committee..........................................         $29,903         $18,636             -38
----------------------------------------------------------------------------------------------------------------

Requisitions
    Printing and Document Services prepared 5,564 printing requisitions 
during fiscal year 1998, authorizing GPO to print Senate work, 
exclusive of legislation and the Record. This is a decrease of about 6 
percent over fiscal year 1997.
Paper, Letterhead, and Envelopes
    Printing and Document Services provides and maintains an accounting 
of blank paper, letterheads, and envelopes for all Senate offices. The 
total blank sheets and letterheads ordered in 1998 were about 99.2 
million sheets, a decrease of 3.3 million sheets compared to 1997. In 
1998, the Senate used about 8.4 million envelopes, compared to 7.9 
million in 1997.
Mini Document Room
    Printing and Document Services serves the combined leadership by 
coordinating the distribution of all Senate-introduced and Calendar 
bills, reports, resolutions, and conference reports, including all 
legislation which has passed the House. Distribution is made to the 
Chamber, the Office of the Secretary, and leadership offices. Data 
entry to the legislation and DocuTech databases is the responsibility 
of this section.
Cost Accounting Projects and Duties
    In addition to the ability to advise offices about turnaround and 
the method of reproduction, while assuring compliance with Title 44 
U.S.C., Printing and Document Services also provides accounting 
information needed by offices. Ultimately, this data enables the 
Secretary to provide oversight information to the Rules Committee and 
the Joint Committee on Printing.
The Service Center
    The Service Center (located in SH-B-07) is staffed by experienced 
GPO printing specialists who provide Senate committees and the Office 
of the Secretary with complete publishing services for hearings, 
committee prints, and preparation of the Congressional Record. Services 
include keyboarding, proofreading, scanning, and composition.
    As a result of these services, committees have been able to 
decrease and/or eliminate overtime costs associated with the 
preparation of hearings, and can now publish in a more timely manner. 
Committees may also realize additional savings because the work done in 
the Service Center is chargeable to the committee as performed (as 
opposed to having a full-time staff member or detailee assigned to 
printing functions). Finally, by providing the ability to process what 
would otherwise be backlogged work, utilization of the Service Center 
may preclude the need to assign additional staff or GPO detailees to 
publishing duties.
    During 1998, the Service Center assisted 14 committees with the 
preparation of 138 hearings, committee prints, and Senate Documents 
including the tributes to Senators Ford, Bumpers, Kempthorne, Glenn, 
and Coats. This represents over half of all Senate committees which 
have printing responsibilities. Looked at from another perspective, the 
Service Center has assisted with about 21 percent of the publications 
printed in 1998.
Congressional Record
    In 1998, 12,730 pages were printed for the Senate, 14,622 pages 
were printed for the House (includes Digest, Extension of Remarks, 
Proceedings, and Miscellaneous pages), for a total of 27,975 pages. 
This is a total of 683 more pages than in 1997.
    There were a total of 1.4 million copies printed and distributed in 
1998. That includes 295,323 to the Senate, 241,945 to the House, and 
827,732 to Executive Branch agencies and the public at large.
    Total approximate cost to produce the Record was $14 million. Based 
upon the per cent of content and distribution quantities, the 
proportional Senate cost was $6.3 million, the House was $6.9 million, 
and all other recipients $800,000. Per copy cost was about $8.86 
(Record costs are based upon GPO estimated appropriation costs, not 
including costs to produce the Record Index or microfiche copies).
Legislation
    Data is captured regarding all printed versions of all measures 
considered in the Senate. Beginning this Congress, all versions and 
distribution of House measures are included. For brevity, the following 
information is summarized by major category of legislation, such as 
Senate bills. Each category includes the successive versions in which 
all measures were printed during their legislative cycle (such as a 
Senate bill which is introduced, reported, and printed as passed), 
including star prints. Information relating to specific versions of all 
legislation is available, as is the additional number of copies ordered 
printed for the Document Room (see Docutech Project) and committees.
    The following table is for the second session of the 105th 
Congress. The Number of Pages column refers to the number of original 
pages, including blanks, within the categories listed. The total number 
of printed pages is not shown, but is available. Costs are rounded to 
the nearest hundred, and are based upon estimated GPO appropriation 
rates.

----------------------------------------------------------------------------------------------------------------
                                                                         Number
                           Measure                              Count   of Pages    Senate Cost     Total Cost
----------------------------------------------------------------------------------------------------------------
Senate Bills................................................     1,448    30,334       1.900,000       2,800,000
Senate Reports..............................................       256    10,186         736,100         933,100
Sen. Res....................................................       200       556          42,200          58,200
S.J. Res....................................................        34       148          10,100          15,000
S.Con. Res..................................................        89       376          22,800          37,600
House Bills.................................................     2,312    39,947       1,500,000       6,100,000
H. J. Res...................................................        50       152           4,250          16,300
H. Con. Res.................................................       209       736          19,600          76,500
H. Conf. Reports and Reports................................       436    26,884         437,300       2,500,000
Treaties/Exec...............................................        40     2,007         179,300         183,700
Public Laws.................................................       151     2,674         347,400         380,300
                                                             ---------------------------------------------------
      Totals................................................     5,225   114,000       5,200,000      13,100,000
----------------------------------------------------------------------------------------------------------------

Document Services
    The Document Services section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Office of the Secretary, Senate committees, and the 
Government Printing Office, to ensure the most current version of all 
material is available, and that sufficient quantities are in storage to 
meet projected demand.
    The primary responsibility of this section is to provide services 
to the Senate. However, the responsibility to the general public, the 
press, and other government agencies is virtually indistinguishable 
from services provided to the Senate. Requests for material are 
received at the walk-in counter, through the mail, by FAX, and recorded 
messages. Recorded messages and FAX messages operate twenty-four hours 
a day, and are filled the same day they are received, as are mail 
requests.
Summary of Annual Statistics
    The following chart is a summary of activities and trends in 
Document Services from 1988 through 1998.

----------------------------------------------------------------------------------------------------------------
                                                         Calls      Public       Staff        Fax       Counter
           Calendar year/Congress/session              received      mail        phone      request    requests
----------------------------------------------------------------------------------------------------------------
1988: 100/2ND.......................................     107,871      20,579      79,163         N/A         N/A
1989: 101/1ST.......................................     114,580      24,415      85,488         N/A         N/A
1990: 101/2ND.......................................     154,497      23,322      96,330         N/A         N/A
1991: 102/1ST.......................................     158,714      29,301      94,503         N/A         N/A
1992: 102/2ND.......................................     144,478      21,634      64,543         N/A         N/A
1993: 103/1ST.......................................     135,035      23,679      64,752         N/A         N/A
1994: 103/2ND.......................................     128,463      20,460      54,919       4,934         N/A
1995: 104/1ST.......................................     134,062      22,704      45,466      10,182         N/A
1996: 104/2ND.......................................     110,742      15,140      35,479       8,043         N/A
1997: 105/1ST.......................................      60,296      12,739      23,672       7,261         N/A
1998: 105/2ND.......................................      35,116       8,131      13,850       5,162     113,862
----------------------------------------------------------------------------------------------------------------

Docutech Project
    The following tables summarize quantities and costs associated with 
on-demand (supplemental) printing of bills and reports during the first 
and second sessions of the 105th Congress. The first table compares on-
site printing requests. The second table indicates work printed for 
other government agencies by GPO in order to more fully employ the 
machine. Costs are based upon a charge of two cents per page.

----------------------------------------------------------------------------------------------------------------
                                                             Run    Original                    Cost      Total
                                                  Count    Length     Pages    Printed Pages    Each      Cost
----------------------------------------------------------------------------------------------------------------
Document Services:
    1997:
        Totals................................       946    31,593    45,832       2,100,000     $1.33   $41,995
        Daily Averages........................       4.4       146     212.2           9,712       N/A   $194.43
    1998:
        Total.................................      42 3    23,904    25,442       1,700,000    $1.4 2   $33,959
        Daily Averages........................       3.6       142     187.7           9,786       N/A   $195.86
Agencies 1998:
    Totals....................................       747   379,986    92,941       7,500,000       .28   150,079
    Daily Averages............................       2.5     1,267     309.8          25,008       N/A   $500.26
----------------------------------------------------------------------------------------------------------------

Staff Changes
    The Office of Printing and Document Services announces the 
retirement of Barry J. Wolk as Director and the appointment of Linda 
Daniels to that position.
                     office of captioning services
    The Office of Captioning Services provides real-time captioning of 
Senate Floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate Floor proceedings to Senate 
offices via the Senate Intranet.
General Overview
    Caption quality continues to be the number one priority. Peer 
reviews are conducted on a weekly basis. The office average for 
accuracy was down slightly for 1998 because of changes to the error 
scoring methodology.
    The Senate Library and the Internet provide reference information. 
The office library was updated with current-year volumes of select 
reference materials. House and Senate Internet and House and Senate 
public web sites are a great assistance.
Technology Update
    Year 2000 Compliance (Y2K) concerns of the Secretary of the Senate 
were addressed beginning early in 1998. In July of 1998 the office was 
able to demonstrate Y2K Compliance by operating all systems on-air 
during broadcast as if it were July of 2001. This one-day demonstration 
was preceded by months of testing, upgrading hardware, evaluating 
software, monitoring file creation and manipulation, and getting a 
written ``Y2K Compliant'' confirmation from the system vendors.
    The Senate Recording Studio continues to refine a system to capture 
the caption data stream, time stamps the captions and stores them in a 
searchable database. The text files in the database are linked to audio 
and video files which can be subsequently played on personal computers. 
Additional improvements to this service are anticipated during 1999.
1999 Objective
    The technology currently used for real-time captioning is not 
Microsoft Windows compatible. The office is evaluating a Windows-based 
Computer-Aided Transcription and Captioning system which is Y2K 
compliant.
    The testing, evaluation and integration of this new technology into 
the office is incorporated in individual goals and objectives for 1999. 
It is hoped this updated technology will be online in late 1999, in 
time for the Second Session of the 106th Congress.
                         special projects--lis
    The Legislative Information System (LIS) is a mandated system (2 
U.S.C. 123e) with the objective of providing desktop access to the 
content and status of all Senate legislative information and supporting 
documents. The Special Projects office manages the project, oversees 
the Senate's outside contractor, KPMG Peat Marwick, and coordinates LIS 
training for Senate users.
    One of the early accomplishments in the LIS project was the 1997 
implementation of an Amendment Tracking System (ATS). This system 
enables the Bill Clerk to scan floor amendments as they are received at 
the desk. Within twenty minutes, Senators and staff can view the text 
of an amendment from their personal computers. During the past year, 
this system had two major enhancements implemented. These enhancements 
offer status and statements of purpose when provided by the sponsors 
and enable users to perform detailed searches for particular amendments 
by amendment number, bill number, date introduced, or sponsor. System 
reliability was improved and a method was implemented for easier 
printing of the entire amendment (a frequently requested requirement). 
During the coming year, the Amendment Tracking System will be 
interfaced with the new Document Management System that is being 
implemented as a core component of LIS.
    An anecdote related by a staffer tells how ATS has proven to be 
timely, accurate, and authoritative: The staffer had received a copy of 
an amendment via fax from one of the policy groups, but when the 
staffer printed it from the LIS Amendment Tracking System, it was clear 
that the faxed version was already out of date. (On their way to 
delivering amendments to the clerks, Senators sometimes make 
handwritten changes.) ATS provided a scanned photographic reproduction 
of the amendment copy as the Senator filed it.
    This last year, the focus of the LIS was on analyzing and reviewing 
systems requirements, on the review of related projects and initiatives 
at the Senate and other agencies, and on gathering information integral 
to the implementation of the LIS. Considerable progress was made in 
1998 toward the goal of producing bills and resolutions using the 
Standard General Mark-up Language (SGML). At the direction of the 
Committee on Rules and Administration and the Committee on House 
Administration, the Secretary and the Clerk are developing a common 
standard for document exchange. SGML, widely used for commercial 
publishing, is the standard being developed for exchanging legislative 
information.
    The Secretary and Clerk held two document analysis workshops in 
1998 with representatives from the Senate, House, and legislative 
branch agencies in attendance. The first workshop was held to define 
the structure of bills and resolutions, the first step in the 
development of the Bill Document Type Definition (DTD). Using the 
findings from the workshop, Mulberry Technologies completed the Bill 
DTD in July 1998. The second workshop was held in late 1998 to identify 
the structure of conference reports and to begin the conference report 
DTD development process. The contractor completed the analysis of the 
workshop and the Senate and House Data Managers are reviewing it.
    Concurrent with the DTD development process, the Secretary's 
Office, supported by KPMG, completed an evaluation of SGML Editing 
Environments that could be deployed in the Senate for the creation of 
SGML documents. The results of that evaluation may be further analyzed 
in conjunction with the House before a decision on SGML editors is 
finalized.
    Efforts for the current year will focus on determining 
implementation strategies. Through participation in the Legislative 
SGML Coordinating Committee and the Legislative SGML Technical 
Committee, this Office continues to work closely with the House of 
Representatives to ensure that LIS is compatible with the House 
information systems for purposes of data exchange.
    Also in 1998, a new Committee Scheduling application was developed 
and implemented, replacing the old, difficult to use system. The 
committee scheduling capability enables the Daily Digest Office to 
better schedule committee and subcommittee meetings and to allow all 
Senate users to retrieve information about committee meetings and 
hearings. Reports available from the new system include: Today's 
Meetings/Hearings, Scheduled Meetings/Hearings, Member's Individual 
Schedules, Specific Committee Schedules and Conflicts, and Combined 
Schedules for Members of a Specific Committee. The web-browser 
implementation provides convenient access from all Senate user PC's. In 
the coming year, the Committee Scheduling application will be 
interfaced with the new Document Management System.
    The LIS Document Management System (DMS) development began in 
August 1998. The DMS is to provide a central repository for all Senate 
information including legislation and support documentation. The system 
will collect, manage, store, retrieve, and report various types of data 
by providing accessibility, management, and tracking of information in 
various formats. The LIS DMS, by transmitting data to the Library of 
Congress retrieval system, will serve a wide user base, often with 
different, and sometimes unique, sets of requirements: clerks of the 
Secretary of the Senate, Senate Library, Senate members and staff, 
legislative branch agencies--House, CRS, and LOC, Government Printing 
Office, and the public. The primary objective of Phase I, initiated in 
1998 and to be completed in June, 1999, is to deliver a Year 2000 
functional replacement for the existing LEGIS system with the ability 
to support document attributes, external interfaces, legacy data 
conversion, and reporting. Phase II, also to be completed in 1999, is 
to incorporate textural data and ad hoc reporting in the DMS. 
Interfaces to the Senate Amendment Tracking System and the Committee 
Scheduling System are to be established.
    For 1999, the strategic focus of LIS development must be on 
becoming Year 2000 compliant. The decision to develop the DMS system to 
replace the existing LEGIS was made; therefore, the DMS production 
release must take place as scheduled to allow adequate time for 
thorough system testing in a production environment and to allow 
sufficient time for end to end testing with external system interfaces.
    The LIS Project management meets weekly at Project Office and 
Project Managers meetings and performs the coordination and integration 
of LIS projects. To ensure user inputs into the LIS, Project management 
meets regularly with House and Senate user groups.
LIS Communications
    While the LIS project is well under way, and large portions of the 
system have been successfully introduced to users throughout the 
Senate, LIS is still a work in progress. The announcement and promotion 
of change activities associated with LIS must be carefully organized. 
It is not only critical that changes to the system be announced quickly 
and effectively, but also that the appropriate messenger and 
communications vehicle be identified well in advance. The LIS 
communications plan attempts to address these issues by pinpointing the 
LIS systems that will be enhanced during the second and third years of 
LIS implementation and outlining a clear and concise means of 
communicating necessary information to key users. Two key components of 
the communications plan are the establishment of the LIS User Group and 
the production of informational materials and marketing tools.
    The LIS User Group collects requirements and priorities of Senate 
offices to ensure that enhancements to LIS meet the needs of as broad a 
range of Senate researchers as possible. This group will also be used 
as a test group to provide feedback on enhancements to the system 
before they are introduced to the Senate as a whole. The requirements 
and feedback provided by this User Group will be recorded and factored 
into decisions the Project Plan proceeds.
    The Project Office is seeking the active involvement of a broad 
spectrum of Senate staff (Legislative Directors, Legislative 
Assistants, Press Secretaries, and Systems Administrators) to make a 
commitment to participate in this LIS User Group through the completion 
of LIS implementation.
    LIS informational materials and marketing tools are designed to 
ensure that Senate staff know what resources are available. These 
materials are continually updated and distributed to a wide range of 
staffers throughout the Senate. The Office of the Secretary has already 
developed several ``Quick Cards'' to provide users with key information 
on how to use the Amendment Tracking, Committee and Subcommittee 
Scheduling and the Roll Call Vote Tracking systems.
    These cards have proven to be effective tools and, though they will 
need to be continually updated, will remain in circulation. As 
enhancements are made to the system, the need to create additional 
``Quick Cards'' may also become apparent.
LIS Training
    The Legislative Information System and Document Management System 
(LIS/DMS) are intended to serve varied groups of users, many with 
unique requirements. The primary objective of LIS training is to 
prepare Senate staff to test, use, maintain, and support the LIS/DMS.
    Following establishment of the Senate Office of Education and 
Training and recruitment of an LIS trainer, an instructional needs 
analysis was completed in October, 1998. Several audiences were 
identified for LIS/DMS training: Senate clerks, system administrators, 
including Secretary of the Senate Information Systems/Computer staff as 
well as Sergeant at Arms application development personnel, Help Desk 
personnel, Enterprise IT personnel, and end users. A training plan 
submitted in November, 1998, summarized the instructional analysis, 
described instructional methods and training resources, and outlined 
the training curriculum for each audience. In addition, the training 
plan included recommendations for vendor-supplied technical training 
for developers and those involved in supporting and maintaining the 
LIS/DMS.
    Since each audience has distinct needs, the training approach is 
highly customized. The curriculum includes labs and practical exercises 
to reinforce skills and the use of realistic scenarios to enable 
authentic assessment. Reference materials and other resources are being 
prepared to assist staff after training has occurred. Two training 
guides, one for system administrators and another for the Senate 
clerks, will be available for reference. The training team is also 
developing on-line help for the LIS/DMS. While the training guides and 
training sessions are geared toward roles, the on-line help focuses of 
specific system functions and screens.
    The initial training session for Senate clerks is scheduled for 
March, 1999, and is to prepare the clerks for their role in user unit 
and system testing. A second training session is scheduled in May, 
1999, to prepare for User Acceptance testing and system production. 
This session will cover any system changes implemented after user 
testing and serve as a refresher course before actual production 
begins. Each session contains two components, one for common system 
functions and a second customized component for each office, focusing 
on office-specific tasks relating to the LIS/DMS. During the initial 
production period, onsite help will be provided by the LIS trainer in 
the Office of Education and Training to help ease the transition from 
LEGIS to the LIS/DMS.
    Training for the system administrator group is scheduled for May, 
1999. Each group involved in the technical administration of the LIS/
DMS will participate in the training modules appropriate for the 
responsibilities they will assume with the new system.
    End user training is currently offered once a month to Members and 
member office staff through the Office of Education and Training. This 
class is based on the LIS website on www.congress.gov. Modifications to 
the existing LIS user interface will be incorporated into future 
classes.
    It might be noted here that although every effort is being made 
toward a comprehensive training program, many end users have reported 
that the LIS is so ``user-friendly'' and the published materials are so 
helpful that they do not feel the need to take time from the job to 
attend training sessions.
                         Administrative Offices
                           disbursing office
          front counter--administrative and financial services
    The Front Counter is the main service area of all general Senate 
business and financial activity. It is the receiving point for most 
incoming expense vouchers, payroll actions, and employee benefits 
related forms, and is the initial verification point to ensure that 
paperwork received in the Disbursing Office conforms to all applicable 
Senate rules, regulations, and statutes.
    The Front Counter is the first line of service provided to Senate 
Members, Officers, and employees. All new Senate employees (permanent 
and temporary) who will be working in the Capitol Hill Senate offices 
are administered the required oath of office and personnel affidavit 
and provided verbal and written detailed information regarding their 
pay and benefits. Authorization is certified to new and state employees 
for issuance of their Senate I.D. card. Cash advances are issued to 
Senate staff authorized for official Senate travel and travelers' 
checks are available for a non-profit basis to assist the traveler. 
Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes, laws, and Senate regulations in our commitment to provide the 
highest degree of customer service. Senate entities, in the course of 
official duties, receive cash and checks as part of their daily 
business. These funds are submitted through the front counter, become 
part of the accountability of the Senate for federally appropriated 
funds, and are processed through the general ledger system.
General Activities
    The Front Counter: Issued approximately 1,500 cash advances for 
official Senate travel; received more than 18,000 checks from Senate 
entities; administered oath and personnel affidavits to more than 3,500 
new Senate staff; and maintained brochures for 18 Federal health 
carriers and distributed approximately 4,000 brochures to staff during 
the annual FEHB open season.
                   central human resources department
    During 1998, the Senate Disbursing Office initiated a plan to merge 
the functions and responsibilities of the Payroll Section and Employee 
Benefits Section into one department that supports the central human 
resource needs of the Senate. The Central Human Resource Administration 
(HR) is to maintain and administer payroll processing, retirement, 
health insurance, life insurance, and other central human resource 
programs to provide responsive, personal attention to Members and 
employees on a non-biased and confidential basis.
    The Senate's internal organizational structure is decentralized 
among 160 offices. Each of these offices are separate accounting 
locations and are the statutory appointing authority of their staff as 
well as the certifying officer to obligate funds. Flexibility to manage 
human resources at the distributed location best serves the Senate. 
Office specific and personal employee data not required for payroll 
purposes is maintained at the distributed office level.
    The Disbursing Office staff in these sections are experienced in 
their respective fields and have extensive background knowledge of the 
other sections involved. To best utilize their skills for the Senate's 
benefit, and in order to provide a stimulating work environment for 
staff, cross training the staff and rotating them on a monthly basis 
between functions, was determined to be the best direction. After 
training is finished, the Disbursing Office will be able to provide 
eleven central HR counselors who will have comprehensive knowledge of 
all areas related to payroll, retirement, life and health insurance, 
the Thrift Savings Plan (TSP), social security, employment verification 
and investigation, and other central HR related benefits.
                            payroll section
    The Payroll Section maintains the Human Resources Management System 
and is responsible for the following: processing, verifying, and 
warehousing all payroll information submitted to the Disbursing Office 
by Senators for their personal staff, by Chairmen for their committee 
staff, and by other elected officials for their staff; issuing salary 
payments to the above employees; maintaining the Automated Clearing 
House (ACH) FEDLINE facilities for the normal transmittal of payroll 
deposits to the Federal Reserve; distributing the appropriate payroll 
expenditure and allowance reports to the individual offices; issuing 
the proper withholding and agency contributions reports to the 
Accounting Department; and transmitting the proper Thrift Savings Plan 
(TSP) information to the National Finance Center (NFC), while 
maintaining earnings records for distribution to the Social Security 
Administration, and maintaining taxable earnings records of employees 
for W-2 statements, which are prepared by this section. The Payroll 
Section is also responsible for the payroll portion of the Report of 
the Secretary of the Senate.
General Activities
    Calendar Year 1998 started out with the processing of more than 800 
Federal Employees' Health Benefits (FEHB) forms, along with 600 Thrift 
Savings Plan (TSP) open season forms, and just over 4,000 cost-of-
living increases, all of which became effective on January 1, 1998. The 
second open season for TSP produced an additional 600 forms that became 
effective July 1, 1998.
    The U. S. Capitol Police (USCP) transferred from the Senate to the 
National Finance Center (NFC) payroll system March 1, 1998. Although 
nearly 700 officers were transferred off the Senate Payroll/Personnel 
system, two months of salary records were maintained on the Payroll/
Personnel system to issue W-2's for Calendar Year 1998. The members of 
the USCP payroll personnel team have remained in close contact with the 
Disbursing Office for guidance on operational procedures. It should be 
noted that the reporting of salaries and positions of their Officers 
and employees are still being reported in the Report of the Secretary 
of the Senate.
    The Payroll Section worked with the Human Resources Division of the 
Sergeant at Arms to restructure and reorganize the employees under 
their jurisdiction. The new structure provided better methods for 
monitoring employee costs within their jurisdiction. When the format 
was completed, the Payroll Section provided the Sergeant at Arms with a 
data information file that greatly helped the movement of employees 
within the Payroll/Personnel system. The new structure became effective 
June 1, 1998.
    The annual Integral Conference was held in San Diego, California in 
August. The Conference was used to study and review the upgrade to the 
9.5 system. Special attention was paid to organizations using both 9.5 
and the OS/390 system to produce payrolls. It was noted that 
organizations who had not chosen to upgrade to the 9.2 or 9.3 systems 
were now upgrading to Integral's 9.5 system because of its superior Y2K 
concept. It was noted that organizations that had chosen the Client/
Server as a processing system were again reviewing mainframe operations 
to regain functionality and increase processing speed. Both concepts 
are limited by the Client/Server systems. The Integral Conference for 
1999 will be held August 22-25, 1999 in New Orleans, Louisiana.
    During the summer, the Payroll Section made use of interns to 
microfilm payroll check registers for the period January 1, 1990-
December 31, 1995. As a result of this project, we removed 50 boxes of 
paper from the office and valuable payment records were permanently 
stored on microfilm.
    The Section has been working with the members for the FAMIS project 
to create a cost accounting structure for the payrolls. Over 900 new 
department/location numbers were created in the system to be able to 
report at a lower level within an office to more accurately allocate 
costs of the offices. An extract of payroll cost was created to 
automatically post payroll information into FAMIS. Payroll supplied the 
system accountants with office expenditure reports to assist in the 
verification of system totals.
Year 2K Project Activities
    The Year 2000 Project for the conversion of the Payroll/Personnel 
system has progressed to the acceptance testing stage. On March 1, 
1999, the Information Technology Department of the Office of the 
Sergeant at Arms released the Integral 9.5 version of the program to 
the Human Resources Division of the Disbursing Office for review and 
extensive acceptance testing.
    The Y2K upgrade of the Payroll/Personnel system acceptance testing 
was scheduled to occur after 1998 year-end work for payroll reporting 
was completed and after the massive amount of payroll actions generated 
by a new Congress was completed. It was also decided, in order to 
mitigate risk, that the Y2K payroll project not coincide with the 
higher profile and significantly greater effort underway with the 
Financial Management Information System (FMIS) mandate. The program 
plan further provided for up to six months of acceptance testing and 
parallel processing with final implementation to occur no later than 
October 1, 1999.
    The Payroll/Personnel project to update the current system began in 
April of 1997. The first phase of the project required the members of 
the programming team to begin to convert the Senate specific files to a 
Y2K compliant format. There are two Senate specific (built in-house) 
systems. The Office Allowance system, which controls payroll expense 
distribution, and the History DataBase system, which maintains 
employees' service and retirement histories. Both segments of this 
phase of the project were completed by February 1998.
    The second phase of the project was to install Integral's Y2K 
compliant version of the Payroll/Personnel system. Integral expanded 
its programming format to both accommodate converting the six-digit 
dating system to an eight-digit dating system, and allow for future 
expansions and upgrades of its system. In the upgrade package, Integral 
supplies step by step instructions and the system's programming has 
been thoroughly beta tested before being released to its customers. The 
Senate has always made it a practice to install a product only after 
other customers have used it for at least six months and have some of 
the bugs worked out. Once the program was installed and verified, 
consultants and Senate programmers began to convert 9.3 Integral files 
and retrofit Senate modifications. By following a strict upgrade 
schedule, the programmers involved completed their conversion by 
December 31, 1998. At this point the IT team converted the online 
employee data and ran a trial payroll. Finally a comparison of the two 
systems was made, and in every case the payroll data matched dollar for 
dollar.
    The final phase of acceptance testing begins in March 1999, 
checking the operating functionality and input load testing. The 
Disbursing Office team in charge of testing has been involved in almost 
a dozen conversions and two major implementation projects, and are 
experts in both the Integral and Senate programs. Once completed, both 
the 9.3 and 9.5 systems will be parallel tested for certification of 
accuracy. The Disbursing Office is confident that the Y2K 9.5 version 
of the Payroll/Personnel system will be operational on or before the 
October 1, 1999 deadline. The OS/390 processing system will provide the 
needed Y2K compatible production system.
                       employee benefits section
    The Employee Benefits Section (EBS) primary responsibilities are 
administration of Senate employees' health and life insurance and 
retirement programs for the Senate. The Section's work includes 
research and verification of prior Senate or other federal service for 
new appointees. EBS prepares these forms for payroll input and after 
they are returned, verifies the accuracy of the information when the 
Official Personnel Folder is received. Employment verifications for 
loans, the Bar, the Federal Bureau of Investigation, the Department of 
Defense, and for outside insurance are completed in EBS. Unemployment 
claim forms are completed, and employees are counseled. Department of 
Labor billings for unemployment paid to Senate employees are checked in 
EBS and submitted by voucher to the Accounting Section to be paid. 
Designations of Beneficiaries for FEGLI, CSRS, FERS, and for unpaid 
compensation are filed and checked by EBS.
General Activities
    The annual FEHB Open Season was held, with over 800 employees 
changing plans. A great number of FEHB plans changed and the changes 
had to be updated manually.
    The FEHB Open Season Health Fair was attended by about 900 
employees, a great showing. Because the Fair is so well run and there 
have been many requests of this sort, it was opened it to all employees 
on the Hill, including House and Architect employees.
    There again were 2 TSP Open Seasons, and the employee changes 
remained about the same as normal, 1 in 7.
    Mortgage rates, still being low, kept employment verifications 
coming in at a rapid pace, averaging 140 per month.
    Seminars were held for the 8 outgoing Members' staffs, as well as 
for Committees facing reorganization. Information disseminated included 
retirement, health and life insurance, and unemployment.
    Counseling, retirement planning, and processing were normal in 
1998. Since most of the Members leaving were long term Members who were 
retiring, the retirement caseload for early 1999 will be heavy, and so 
counseling in advance during 1998 was heavy. Total retirement cases 
processed equaled 87 (47 CSRS + 40 FERS).
    The annual Integral Conference was held in San Diego, California in 
August. Staff used the Conference to review the 9.5 upgrade for the 
Payroll/Personnel system, and to finalize Y2K planning and strategies 
to meet deadlines. This Conference emphasized that the Client/Server 
movement was shifting BACK to mainframes such as the OS/390 and 
introduced new products to work with this smaller mainframe. They 
demonstrated that they will continue to support mainframe products, 
since a number of companies have tried Client/Server and concluded 
mainframe or minicomputers would better serve where large amounts on 
online memory were a necessity as it is in the Senate. This was very 
helpful as the Sergeant at Arms has now purchased and is installing a 
new OS/390 system.
    The Payroll and Benefits Sections' Supervisors attend Integral 
User's Conferences annually, and each Conference consists of working 
sessions (usually 9 to 10 in 3 days) with topics ranging from problems 
found by other users during implementations/migrations, to visions of 
future enhancements of the systems.
    Work was finished on the 9.5 release plans of the Integral Payroll/
Personnel system, which got us well on the way to the year 2000 
requirements, as well as upgrading many aspects of the payroll system 
processing. The implementation date is set for October 1999, although 
it will probably be done months earlier.
    Telephone inquiries, although not specifically tracked, appear to 
be at record levels, with the Benefits staff of 7 pressed to answer 
calls quickly enough to keep lines open.
    With the USCP transferred from the Senate to the NFC payroll system 
March 1, 1998, this Section single handedly completed the transfer. All 
aspects of the movement of about 700 staff off the Senate payroll, 
including all payroll and benefits records and computer data went off 
without a hitch and was completed within one month of the transfer. The 
USCP was extremely complimentary regarding the Benefits Section's 
performance.
                 disbursing office financial management
    During fiscal year 1998, the Disbursing Office restructured its 
functional departments that were responsible for financial management. 
In previous years, these responsibilities were carried out by the 
combined efforts of the Accounting, Audit, and Financial Management 
Systems Development Sections. In order to execute the Senate's mandates 
to install an integrated financial management system that replaces 
current stand alone systems that are not Year 2000 compliant and in 
order to prepare consolidated, auditable financial statements, it was 
necessary to reorganize these departments.
    Headed by the Chief Financial Officer, the mission of Disbursing 
Office Financial Management (DOFM) is to coordinate all central 
financial policies, procedures, and activities to produce an auditable 
consolidated financial statement for the Senate and to provide 
professional customer service, training and confidential financial 
guidance to all Senate accounting locations. DOFM is segmented into 
four functional departments: Accounting, Budget, Financial Systems, and 
Policy and Control. The CFO coordinates the activities of the four 
functional departments, establishes central financial policies and 
procedures, acts as the primary liaison to the HR Administrator, and 
carries out the directives of the Financial Clerk of the Senate. The 
new functional department responsibilities are diagramed below:
[GRAPHIC] [TIFF OMITTED] T08MA24.000


    The CFO continues to participate in the Legislative Branch 
Financial Manager's Council. This group was formed with the lead of the 
General Accounting Office and Library of Congress to help coordinate 
and standardize accounting and financial reporting practices throughout 
the Legislative Branch. Participation enhances the planning effort in 
converting to the standard general ledger of the government and 
implement obligation and accrual basis accounting.
    The most significant event and activity of the past year for 
Disbursing Office Financial Management has been the change of 
management responsibility for the Senate's Financial Management 
Information System (FMIS), and the implications of this change on the 
DOFM. In May of 1998, responsibility for the planning and execution of 
the Senate's Financial Management Information System (FMIS) was 
assigned to the Disbursing Office. In June the Financial Clerk of the 
Senate designated the CFO as the new Project Director. The following 
paragraphs will give a status of FMIS and what was accomplished in the 
past six months.
FMIS Project Background and Strategic Initiatives
    There are four major phases of the FMIS strategic initiative: 
Replace, Rollout, Report, and Reengineer. The Disbursing Office is 
currently proceeding with the replacement phase of FMIS. The general 
tasks associated with this phase include: replacing the Disbursing 
Office general ledger system (DOVES); upgrading the Sergeant at Arms 
mainframe core financial system on October 1, 1998 to support the 
financial management operation for the Senate on a single, Year 2000 
compliant platform; and replace and deploy an automated procurement 
system within the offices of the Secretary and the Sergeant at Arms 
offices on October 1, 1998. The Senate's selection for the replacement 
of the core financial and procurement systems are the KPMG Federal 
FAMIS 4.0 and ADPICS 4.5 products.
    Federal FAMIS (Financial Accounting Management Information System) 
is the general ledger system that replaces a conglomeration of more 
than a dozen existing systems (see attached schedule). ADPICS (Advanced 
Purchasing and Inventory Control System) is an upgrade to the 
purchasing system used by the Sergeant at Arms and replaces purchasing 
capabilities of several other systems throughout the Senate. The FAMIS 
and ADPICS products are being integrated so that the Senate may 
instantly record the procurement activity as a financial event on the 
general ledger. The ADPICS product is also being used as the front end 
voucher preparation system that will replace the systems currently 
being used by the Member Offices and Committees.
    The Rollout phase of the FMIS initiative began in February, 1999. 
The Rollout involves distributing the financial and purchasing systems 
throughout the Member Offices, Committees and other administrative 
offices of the Senate. The two main tasks in this phase are the 
training of functional staff and technical support of the offices once 
they are online. The Disbursing Office will proceed methodically with 
the distribution of the system throughout fiscal year 1999 in order to 
provide as much support as possible to offices during the conversion. 
In February, 1999 the eight new Member offices came online together 
with a pilot group of four existing Member offices (two Republican and 
two Democratic) that have been selected for the pilot program by the 
Office Managers of the Senate. In March of 1999, all users of the 
Senate Committee Expense Accounting System (SCEAS) will be converted to 
FMIS. Finally, starting in May of 1999, blocks of twenty offices will 
be converted to FMIS, with the goal of complete Senate-wide conversion 
by September 30, 1999.
    During fiscal year 1999, the Disbursing Office will process all 
financial transactions for Senate Offices in FMIS. This decision will 
greatly reduce the complexity of the Rollout phase of the project. 
Expense reimbursement requests are created from existing systems within 
Senate Offices and forwarded to the Disbursing Office. The Disbursing 
Office is reclassifying the vendor numbers, expense and account 
classification into FMIS format, performing the data entry, and 
maintaining all of the Senate accounts. Currently, offices have to 
reconcile with Disbursing Office records on a monthly basis. Upon 
conversion, an office will have direct access to the account that the 
Disbursing Office has been maintaining throughout the fiscal year, thus 
eliminating the need for data conversion from one system to another.
    The third phase of FMIS is Reporting. The Disbursing Office has 
developed a classification structure that will enable entity level 
reporting and the general ledger structure necessary to create 
proprietary financial statements. Many gaps still exist in the 
information that is required for these financial statements. The most 
obvious of these information gaps is asset valuation. One of the major 
tasks in the reporting phase of the project is the development and 
integration of a fixed asset module that will provide timely asset 
valuation and allow the financial staff to depreciate the value of 
equipment used by the Senate. Another major reporting task is the 
complete revision of the Report of the Secretary of the Senate to 
extract data from FMIS more efficiently than was the case in previous 
systems. Development and distribution of financial reports to FMIS 
users will also be a major focus of the reporting phase of FMIS.
    Reengineering the technical environment is the fourth phase of 
FMIS. The FMIS vision is for a secure, paperless, fully integrated 
financial system complete with signature authentication, optical 
scanning, storage and retrieval of documents. The challenge in this 
phase will be the critical assessment of commercially available 
technology to find the best solution for the Senate's business needs. 
During fiscal year 1999, the Disbursing Office will develop the program 
plan to be followed to attain this vision.
FMIS Project Status
    The core FAMIS and ADPICS systems were delivered by KPMG to the 
Senate for acceptance testing on September 21, 1998. The Senate's 
acceptance testing of FAMIS and ADPICS was aggressively managed to 
complete accelerated testing of core functions in less than two weeks 
(the original program plan called for six months of testing). Most of 
the functional financial staff of the Disbursing Office and Sergeant at 
Arms participated in the acceptance testing and completed an 
extraordinary amount of work under the intense pressure of completing 
the fiscal year-end activities and reporting, as well as meeting 
acceptance testing deadlines. The efforts paid off, as successful 
acceptance testing confirmed the decision to convert to the new system 
for fiscal year 1999. On October 1, a purchase order for the Office of 
the Secretary was posted ``live''. Also by October 1, the Disbursing 
Office had successfully developed and installed the Senator's Office 
Accounting System version 1999 (SOAS99) for Member Offices and received 
the first SOAS99 voucher. SOAS99 is an upgrade of the existing SOAS 
system which incorporates much of the accounting classification 
structure of FMIS which will ease the transition to FMIS for Member 
Offices. On October 18, 1998 final accounting fiscal year closing of 
the DOVES system was completed. On October 19, the FAMIS check writing 
system produced the first check payment. Over the course of the last 
several months, DOFM has continued the transition to operation of the 
new financial system, and is developing the operational procedures and 
accounting structure to accommodate all of the Senate's financial 
transactions. The scale of the conversion has forced DOFM to rewrite 
every single accounting transaction. Initial efforts prioritized the 
transactions by volume, and worked first on Member Office transactions, 
then Sergeant at Arms, Committees, Revolving Funds, and Office of the 
Secretary.
    During the initial installation, the Disbursing Office executed 
concurrent system acceptance testing, staff training, and the 
reclassification of accounting transactions from cash basis to 
obligation and accrual basis. Also throughout the initial installation, 
significant system performance issues contributed to delays in the 
payment of the Senate's bills. A system performance project has been 
initiated, bringing the technical staffs of the Sergeant at Arms and 
KPMG together with the Disbursing Office on a daily basis to address 
immediate and long term system performance issues. The early problems 
have been resolved and payments are now being processed within 14 days 
after the Disbursing Office receives the required documentation. The 
support and patience of the Senate community as the Disbursing Office 
became proficient in transaction processing, and as system performance 
issues were resolved was tremendous, and the Disbursing Office 
expresses its thanks.
    Several financial policy decisions have been made during the phase 
one implementation that will have an immediate impact on the Senate's 
financial reporting capabilities. The Senate has adopted the Standard 
General Ledger (SGL) used by the majority of the Federal Government. 
This decision will enable the Senate to prepare standard financial 
statements consistent in form and content with other federal agencies. 
Also adopted is the object classification for expenditures of the 
Office of Management and Budget (OMB). This decision will enable the 
categorization of budget authority and expenditure reporting consistent 
throughout the Senate and consistent with the other federal agencies.
FMIS Keys to Success
    Successful implementation of a financial management system, or any 
complicated task for that matter, cannot be achieved without the proper 
resources, the proper management of those resources, and the 
cooperation, dedication, and work ethic of each individual involved in 
the project. Efforts thus far with FMIS have been fortunate to have 
resources made available by the Senate and particularly by the 
Secretary of the Senate and the outstanding efforts of those 
individuals in the Disbursing Office and Sergeant at Arms who have 
worked many long days, nights, and weekends to bring the project back 
on schedule. The cooperation between the Offices of the Secretary of 
the Senate and the Sergeant at Arms during this aggressive 
implementation has been tremendous.
                         accounting department
    The Accounting Department combines the functions of the Accounting 
and Audit Sections in the former Disbursing Office configuration. The 
goal in the combination of the Sections was to combine responsibilities 
that were functionally related, such as accounts payable, in order to 
maximize efficiencies in the delivery of service to the Senate.
    The Accounting Department has several functional responsibilities 
including:
  --Maintain the Senate's financial records and statements.
  --Maintain general ledger accounts and other accounting records in 
        FMIS.
  --Ensure adherence to appropriation limitations established by the 
        Legislative Branch Appropriations Act, and Title 2 of the 
        United States Code.
  --Perform various GL account reconciliations (Suspense, Clearing 
        accounts).
  --Reconcile fixed assets with Sergeant at Arms fixed asset management 
        module in FMIS.
  --Process accounts payable for the Senate and coordinate 
        disbursements.
  --Provide accurate and timely reports to Senate distributed 
        accounting locations.
  --Establish and maintain internal controls over financial processes.
  --Design and manage monthly and year-end closing processes and 
        procedures.
  --Prepare audited consolidated financial statements and notes in 
        compliance with the latest FASAB and OMB requirements.
  --Manage the annual financial statement audit with GAO or independent 
        auditors.
General Activities
    During fiscal year 1998, the Accounting Section and the new 
Accounts Payable Department processed nearly 90,000 expense 
reimbursement vouchers for payment on 66,719 United States Treasury 
checks issued. Accounting Operations processed 1,780 deposits for items 
ranging from receipts received by the Senate operations, such as the 
Stationery Room, to canceled subscription refunds from Member offices. 
General ledger maintenance also prompted the entry of 8,573 adjustment 
entries that include the entry of all appropriation and allowance 
funding limitation transactions, all accounting cycle closing entries, 
and all non-voucher reimbursement transactions such as payroll 
adjustments, stop payment requests, travel advance and repayments, and 
limited payability reimbursements.
Financial Reporting Requirements--External
    Monthly financial reporting requirements to the Department of the 
Treasury include a Statement of Accountability that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also reported to the 
Department of the Treasury on a monthly basis is the Statement of 
Transactions According to Appropriations, Fund and Receipt Accounts 
that summarizes all activity at the appropriation level of every penny 
disbursed by the Secretary of the Senate through the Financial Clerk of 
the Senate. All activity by appropriation account is reconciled with 
the Department of the Treasury on a monthly and annual basis. The 
annual reconciliation of the Treasury Combined Statement is also used 
in the reporting to the Office of Management and Budget as part of the 
submission of the annual operating budget of the Senate.
    The Accounting Department also transmits all Federal tax payments 
on a monthly basis for Federal, Social Security and Medicare taxes 
withheld from payroll expenditures, as well as the Senate's matching 
contribution for Social Security and Medicare to the Federal Reserve 
Bank on a monthly basis. The Department also performs quarterly 
reporting to the Internal Revenue Service (IRS) and annual reporting 
and reconciliation with the IRS and the Social Security Administration. 
Payments for Senate employee withholding for state income taxes are 
reported and paid on a quarterly basis to each state with applicable 
state income taxes withheld. Monthly reconciliations are performed with 
the National Finance Center regarding the Senate's employee withholding 
and agency matching contributions for the Thrift Savings Plan. All 
employee withholdings and agency contributions for life and health 
insurance, and federal retirement programs are transmitted to the 
Office of Personnel Management on a monthly basis. Any adjustment to 
employee contributions to any of the health, life and retirement plans 
from previous accounting periods are also processed by the Accounting 
Department.
    One of the key components of implementing FMIS on an extremely 
tight schedule this past year was the decision to utilize DOFM 
functional staff for acceptance testing of the system. Beginning in 
July, DOFM managers worked with KPMG to develop training materials for 
ADPICS and FAMIS. DOFM staff were trained on the basic functions of the 
system in August and September and moved directly into acceptance 
testing of the system in September. While maintaining current reporting 
responsibilities and closing out old systems, the efforts of DOFM staff 
supported the decision to migrate to FMIS in October. Throughout the 
fall, DOFM Accounting Department staff have been executing the design 
and reclassification of all accounting transactions for operation in 
FMIS. The key development efforts have focused upon the check writing 
module and travel transactions. The Accounting Department has worked 
diligently over the past year to improve the service that is provided 
to the Senate customer base: Member Offices, Committees, and 
Leadership, and support offices. Despite early system performance 
issues that resulted in delays in the Senate's payment cycle, the staff 
of DOFM are currently processing all of the Senate's bills in less than 
two weeks from when the proper documentation is received in the 
Disbursing Office.
Financial Reporting Requirements--Internal
    Internally, the Accounting Section prepares and transmits ledger 
statements monthly to all Member offices and all other offices with 
payroll and non-payroll expenditures. These ledger statements detail 
all of the financial activity for the appropriate accounting period 
with regards to official expenditures in detail and summary form. On a 
semiannual basis all committee ledgers are reconciled with the 
Accounting Section records, and the results are reported to the 
Committee on Rules and Administration. Also, on a semiannual basis, the 
Accounting Department prepares necessary reports and information to be 
included in the Report of the Secretary of the Senate. On a monthly and 
semiannual basis, a complete reconciliation of the Senate payroll is 
performed. Substantial effort in the Reporting Phase of FMIS will 
require extensive work to modify existing reports and develop new 
reports to meet the internal and external reporting requirements of 
DOFM.
                     accounts payable audit section
    The Accounts Payable Audit Section of the Accounting Department is 
responsible for auditing vouchers and answering questions regarding 
voucher preparation, identifying duplicate payments vouchered by 
offices, monitoring payments related to contracts, training new Office 
Managers and Chief Clerks about Senate financial practices, training 
Office Managers in the use of the Senate's Financial Management 
Information System, and producing the Report of the Secretary of the 
Senate. The Section also maintains the Senate's central vendor file and 
monitors the Fund Advance Tracking System (FATS) by ensuring that 
advances are charged correctly, vouchers repaying such advances are 
entered, and balances adjusted for reuse of the advance funds. An 
``aging'' process is also performed to ensure that advances are repaid 
in the time specified by the advance regulations.
General Activities
    Participated in various seminars sponsored by the Office Manager 
groups, Secretary of the Senate, Sergeant at Arms, and the Library of 
Congress.
    Performed the following training sessions for individual offices: 
new Office Managers/Chief Clerks, 35; SOAS users, 26.
    Assisted the audit staff of the Committee on Rules and 
Administration with the drafting of changes to the travel regulations.
    The number of active American Express accounts has grown 
approximately 10 percent from 700 to 765 accounts over the period 
January-September 1998. This has increased the amount of time necessary 
to work with offices in the submission of the expense claims. The 
Senate has had to work through a change of vendors for the travel card 
as of November 1998. These accounts are being monitored on a monthly 
basis, and when necessary, offices are encouraged to submit the expense 
voucher in a more timely manner.
    The number of Rocky Mountain Bank Card Accounts has increased from 
23 to 40 offices actively using the card. This necessitates an active 
participation in the training of the offices and the monitoring of the 
account to avoid the payment of finance changes that may accrue to this 
account. The Senate has had to also work through a change of vendors 
for the procurement card as of November 1998.
    Work was completed involving the Sergeant at Arms and Committee on 
Rules and Administration for a ``Memo of Understanding'' between the 
Senate and the U.S. Postal Service. This memo provides a more efficient 
method of billing and easier reconciliation of same. Several meetings 
were held between all parties and are still occurring to resolve some 
issues.
    The system, established through the use of cc:Mail and/or voice 
mail, for the research of vouchers in 1997 has received favorable 
comments. Office Managers and Chief Clerks use cc:Mail and/or voice 
mail to make inquiries concerning a payment status for an expense or 
where it might be in the process. This procedure has allowed for an 
increase in staff productivity as individual staff designated to 
monitor the inquiry line devote time to this effort rather than having 
multiple staff being interrupted as each call was received.
Automation Report
    The implementation of SOAS 99 in Senatorial Offices provides the 
interim process for the period October 1998 through the transition to 
the new Senate FMIS. SOAS 99 introduces offices to the concepts of 
index and object codes which are crucial to the Senate's FMIS.
    Audit Staff attended 30+ seminars conducted by KPMG on the 
operation and performance of the ADPICS and FAMIS systems prior to 
implementation in October 1998.
    Future objectives are to provide for a successful Rollout to the 
initial pilot group of 12 offices, followed by the Committee 
implementation as their new funding period begins March 1999, and 
finally Member offices in groups of 20, spaced April-September 1999, to 
send staff to KPMG training classes for the FMIS system and the ADPICS 
system (and any other modules that the Senate might procure), and to 
participate in user conferences sponsored by KPMG.
                           budget department
    A key component of the continued restructuring of DOFM is the 
development of a Budget Department. The primary responsibilities of the 
Budget Department will be to compile the annual operating budget of the 
United States Senate for presentation to the Committee on 
Appropriations. The development of specialists in the budget area will 
allow current staff with dual responsibilities in Accounting to focus 
their efforts on general ledger activity.
    Other responsibilities of the Budget Department will be as follows:
  --Responsible for the formulation, presentation and execution of the 
        budget for the Senate.
  --Provide a wide range of analytical, technical and advisory 
        functions related to the budget process.
  --Coordinate efforts among central and distributed financial 
        organizations to produce an integrated budget plan for the 
        Senate.
  --Prepare justification requests for requested appropriations.
  --Provide expert advice to Senate officials on budgetary policy.
  --Prepare necessary documentation and provides historical reference 
        resource for the Committee on Appropriations.
  --Act as budget officer for the Office of the Secretary, assisting in 
        the preparation of testimony for the hearings before the 
        Committee on Appropriations and the Committee on Rules and 
        Administration.
  --Provide advice and recommendations on the discretionary use of 
        funds by distributed accounting locations.
  --Provide assistance to the Committee on Appropriations in drafting 
        Legislative Branch Appropriations Bills and accompanying 
        reports and schedules.
  --Manage complete information of financial management budgetary 
        precedents and controls, and OMB and Treasury Department 
        guidelines and regulations governing the acquisition and use of 
        Federal Funds.
  --Monitor budget execution and recommend necessary transfer and 
        reprogramming of funds at the entity and agency level.
  --Review budget estimates with the distributed accounting locations, 
        making recommendations, pointing out budget limitations, and 
        significant deviations from past years.
  --Analyze obligations, expenditures, and receipts in relation to 
        approved work programs and appropriated funds, making 
        investigations and recommendations involving the proper 
        utilization of these funds.
                      financial systems department
    Another key component of the DOFM restructuring plan during 1998 
was the establishment of a Financial Systems Department. While not yet 
fully staffed, a key manager was brought on board who proved to be 
instrumental in the development and execution of the FMIS project.
    The following functions are the responsibility of the Financial 
Systems Department: Develop FMIS classification structure and perform 
table maintenance; establish and maintain system security features; 
provide FMIS support to system users Senate-wide and perform software 
acceptance testing of new releases; develop ad hoc reports upon 
request; automate vendor and employee payments; manage and maintain the 
Senate's vendor file; and perform general ledger account creation and 
field structure in FMIS.
                     policy and control department
    The final component of the restructuring of DOFM planned for 1999 
is the development of a financial Policy and Control Department. The 
initial function of this department will be to work with GAO and an 
external vendor to perform an auditability assessment of the Senate's 
financial management structure. This task will identify information 
gaps in the Senate's operations that will be necessary to fill in order 
to prepare auditable financial statements.
    Additional responsibilities of the Department are as follows:
  --Develop and maintain comprehensive financial management policy and 
        procedures manual to the transaction level.
  --Incorporate policy changes published in the Federal Register, OMB 
        Circulars, and other relevant legislation into CFM.
  --Coordinate with the Financial Systems Department to incorporate 
        policy changes into financial systems and incorporate FMIS 
        system changes at the transaction level into the procedures 
        manual.
  --Provide a counseling and reference service for distributed 
        accounting locations regarding Senate financial procedure.
  --Perform internal audit function within financial management 
        organization.
  --Prepare recommended financial policy and procedures manual for 
        distribution to all Senate accounting locations.
  --Serve as liaison with federal agencies such as JFMIP, GSA, and 
        FASAB.
  --Provide expertise in developing RFP's, SOW's, and serve on 
        evaluation panels.
  --Manage the Senate's debt collection process.
  --Provide and coordinate internal and external FMIS training and 
        certifying officer training.
Staff Changes
    The Disbursing Office announces the retirement of Stuart F. 
Balderson as Financial Clerk and the promotion of Timothy S. Wineman to 
that position.
                       office of human resources
    The Office of Human Resources implements and coordinates human 
resources policies, procedures, and programs for the Office of the 
Secretary of the Senate including hiring; training; performance 
management; job analysis; compensation planning, design, and 
administration; leave administration; records management; recruiting 
and staffing; employee handbooks and manuals; internal grievance 
procedures; employee relations and services; and organizational 
planning and development.
Quality of Life Initiatives
    The Office of the Secretary continued to focus on quality of life 
programs during the past year. After successfully testing new hours of 
operation for non-floor-dependent employees and a flexible-hour work 
schedule, the Secretary approved a permanent change to both 
initiatives. While offices in direct support of the Senate Chamber must 
follow the work schedule of the Senate, all other offices must be open 
from 9:00 a.m. to 5:30 p.m., as opposed to 6:00 p.m. previously. The 
Office was able to implement this program without altering the start 
time by reducing the lunch period from one hour to one-half hour. 
Employees desiring longer lunch periods may schedule them through the 
Secretary's flexible-hour program. The newest ``family friendly'' 
initiative, and a key feature of flexible scheduling, is the ``core 
hours,'' a set time where everyone must be present for duty. With core 
hours set at 10:00 a.m.-4:00 p.m., employees can, for example, request 
approval from their supervisor to flex for early-morning or late-in-
the-day medical appointments, parenting responsibilities, and the like. 
The program is, therefore, a win-win situation for the Office as well 
as the employee.
Human Resources Management System (HRMS)
    In mid-1998, Human Resources and Systems Application specialists 
from the Office of the Secretary and the Sergeant at Arms formed a team 
to study the problem of maintaining large amounts of employee data 
without a adequate data base. Since that time, systems requirements 
were identified and various vendor software applications were 
evaluated. Lawson Software was selected to fill this void. System 
training will begin in March 1999. A powerful, fully integrated system, 
Lawson will provide both organizations with everything needed to 
execute essential day-to-day activities while taking full advantage of 
state-of-the art technology in other areas like the internet and 
intranet. Targeted to be on-line in June 1999, employees will be able 
to make changes to their personal information in a completely 
automated, paperless process. They will be able to check on sick leave 
and annual leave balances, for example, and report time worked in the 
automated time and attendance system.
Intern Program
    The Office hosted 28 interns during the summer of 1998. Serving in 
11 different departments, these interns made many worthwhile 
contributions to the goals and objectives of the organization and 
received a unique educational and work experience.
                             senate library
    The Senate Library provides legislative, legal, business, and 
general reference services to the United States Senate. The 
comprehensive legislative collection consists of congressional 
documents dating from the Continental Congress. In addition, the 
Library maintains executive and judicial branch materials and an 
extensive book collection on politics, history, and biography. These 
sources plus a wide array of online systems assist the Library staff in 
providing confidential, timely, and accurate information services.
Administration
    The second year of budget review delivered an additional $3,070.33 
reduction in operating expenses. These savings were in addition to more 
than $11,000 in 1997 reductions. The eliminated materials will not 
compromise service. The money saved will allow for the purchase of core 
materials as costs increase and for the purchase of materials for the 
restored Capitol library. A second important budgetary success was 
implementing favorable fixed-fee pricing for all commercial databases 
that allows for unlimited searching and printing.
Russell Building and Capitol Libraries
    In April 1997, the Secretary requested that the Library develop 
plans for a new Russell Building library facility and for the 
renovation of the historic third-floor Capitol space. The Minneapolis 
design firm of Meyer, Scherer and Rockcastle (MS&R) submitted 
preliminary Russell Building plans that were approved in September. 
Demolition of the Russell space began in late December 1997. Progress 
highlights during 1998 included design planning, selecting equipment 
and furniture, bidding for all materials, removing hazardous materials, 
installing mobile shelving, upgrading electrical and air-handling 
equipment, and exposing the corridor's natural brick. As demolition 
continued, Russell Building interior plans were finalized by October 
1998. Once the mobile shelving was completed, Library staff and Moving 
Masters, a professional moving company, transferred 100,000 volumes 
from the Capitol to the Russell Building. The second phase of the move 
took place during February 1999. The opening date for the Russell 
Building Library was February 22, 1999.
    Simultaneous to the Russell Building project was the planning for 
the renovation of the historic Senatorial Reading Room. MS&R worked 
closely with Architect of the Capitol staff to design the restoration 
of the historic room to its nineteenth-century appearance.
Information Services
    During 1998, Information Services responded to 37,542 Senate 
requests, sent 5,432 deliveries, and 5,076 faxes. Information Services 
conducted 38,045 searches for news, legal, and business information on 
the Library's outstanding selection of online commercial services. The 
Senators' Reading Room was used by 6,841 patrons; 201,498 photocopies 
were produced; and micrographics use increased by 42 percent over the 
previous year. The optical disk system, providing documents scanned by 
the Library of Congress, continued to be popular with more than 2,162 
items reproduced. In October, the Library inaugurated an electronic 
request mailbox (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="227047444750474c4147625147410c454d54">[email&#160;protected]</a>) and a Telecommunications Device for 
the Deaf (TDD). The two new services allow for 24-hour access, which 
better meets the needs of state offices, staff who work late, and 
special-needs patrons.
Acquisitions
    The Library ordered 259 books during the year, a decrease of 19 
percent from the 1997 total. Selected book purchases have been made for 
the Capitol location, but most Capitol books will be ordered just 
before the September opening to ensure current editions. For the second 
year, all standing-order accounts were critically reviewed; several 
were discontinued and others will be received during alternating years.
    The Library received 3,155 committee hearings, an increase of 19 
percent over the previous year; 158 committee prints, a 49 percent 
decrease over the previous year; and 1,187 congressional reports and 
documents, which is a new statistical category. A continuing 
acquisitions problem is the practice by some committees of providing 
documents only through the Internet, thus bypassing traditional 
printing. The Library has undertaken the task of ensuring that all 
``Internet-only'' congressional materials are placed in the permanent 
collection. The Government Printing Office's Depository Library Program 
provided the Library (without charge) with 10,510 items, including 
3,841 paper and 6,669 microfiche titles, a 13 percent increase over 
1997. In addition to congressional materials, the program provides core 
judicial and executive branch publications.
Cataloging
    The cataloging of congressional documents dramatically increased 
over 1997 totals. The cataloged items included 959 new House committee 
hearings, which was an impressive 97 percent increase over 1997 totals. 
In addition, the cataloging of House committee prints increased 108 
percent and government document microforms increased 36 percent 
increase over 1997 totals. The cataloging of newly arriving Senate 
committee hearings and Senate committee prints increased 124 percent 
and 103 percent, respectively. The ambitious retrospective project of 
cataloging the Library's collection of historic committee hearings 
produced records for 549 House hearings and 2,191 Senate hearings. This 
important project will provide identification and access not only to 
the Senate Library, but to libraries worldwide.
Automation
    DataTrek, the Library's online cataloging and acquisitions system, 
continued to have problems in 1998 that included incorrect set-ups and 
recurring errors in the serials and acquisitions modules. Year 2000 
compliance necessitated software upgrades and after the review of 
available systems it was determined that DataTrek provided the best 
alternative through their new Graphical Library Automation System 
(GLAS) software. In preparation for GLAS, a faster NT server with 
Windows NT, was installed to reduce system maintenance, release storage 
space on the Secretary's server, and provide for a more stable 
platform. The decision to remain with DataTrek was based on cost, the 
pending Library move, and a less-demanding record conversion, but the 
upgrade should be considered an interim solution.
           office of the senate chief counsel for employment
    The Office of the Senate Chief Counsel for Employment (``SCCE'') is 
a non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (``GERA''), which allowed Senate employees to file claims of 
employment discrimination against Senate offices. With the enactment of 
the Congressional Accountability Act of 1995 (``CAA''), Senate offices 
are now subject to the requirements, responsibilities and obligations 
of 11 employment laws. The SCCE is charged with the legal 
representation of Senate offices in all employment law matters at both 
the administrative and court levels. Also, on a day-to-day basis, the 
office provides legal advice to Senate offices about their obligations 
under employment laws. Accordingly, each of the 180 offices of the 
Senate is an individual client of the SCCE, and each office maintains 
an attorney-client relationship with the SCCE.
Background
    Each of the SCCE attorneys came to the office after having 
practiced as employment law litigators in major, national law firms 
representing Fortune 100 corporations. All services the office provides 
are the same legal services the attorneys provided to their clients 
while in private practice. The areas of responsibilities of the SCCE 
can be divided into the following categories: Litigation (Defending 
Against Lawsuits); Mediations to Resolve Lawsuits; Court-Ordered 
Alternative Dispute Resolutions; Preventive Legal Advice; Union Drives, 
Negotiations and Unfair Labor Practice Charges; OSHA/ADA Compliance; 
Layoffs and Office Closings In Compliance With the Law; and Management 
Training Regarding Legal Responsibilities.
Litigation (Defending Against Lawsuits); Mediations; Alternative 
        Dispute Resolutions
    The SCCE represents each of the 180 employing offices of the Senate 
in all court actions (including both trial and appellate courts), 
hearings, proceedings, investigations, and negotiations relating to 
labor and employment laws. The SCCE handles cases filed in the District 
of Columbia and cases filed in any of the 50 states. The SCCE 
represents a defendant Senate office from the inception of a case 
through U.S. Supreme Court review. The office handles all work 
internally without the assistance of outside law firms or the 
Department of Justice.
    During 1998, the SCCE defended Senate offices in 17 cases (which 
required approximately 6,599 attorney work hours). The SCCE either won 
or successfully negotiated a resolution to 8 of those cases; 2 were 
withdrawn by the complainants after several mediation sessions with the 
SCCE; and 7 are currently pending. Five of the 17 cases were filed in 
U.S. District Courts. This number is significant because one jury trial 
in federal court typically generates over 2,500 attorney work hours per 
year, whereas a 1-day administrative hearing typically generates 
approximately 500-600 work hours.
    Additionally, the SCCE successfully represented Senate employing 
offices in 4 unemployment compensation hearings. In no instance was the 
employee awarded compensation.
Preventive Legal Advice
    At times, a Senate office will become aware that an employee is 
contemplating suing, and the office will request the SCCE's legal 
advice and/or that the SCCE negotiate with the employee's attorney 
before the employee files a lawsuit. The successful resolution of such 
matters substantially reduces an office's liability.
    Also, the SCCE advises and meets with Members, Chiefs of Staff, 
Office Managers, Staff Directors, Chief Clerks and General Counsels at 
their request. The purpose of the advice and meetings are to prevent 
litigation and to minimize liability in the event of litigation. For 
example, on a daily basis, the SCCE advises Senate offices on matters 
such as disciplining/terminating employees in compliance with the law, 
handling and investigating sexual harassment complaints, accommodating 
the disabled, determining wage law requirements, meeting the 
requirements of the Family and Medical Leave Act, and management's 
rights and obligations under union laws and OSHA.
    Between January and December 1998, the SCCE has had more than 2,066 
conferences with Members, Chiefs of Staff, Office Managers, Staff 
Directors, Chief Clerks and General Counsels to provide legal advice.
Union Drives, Negotiations And Unfair Labor Practice Charges
    In 1998, the SCCE successfully defeated one union drive and 
assisted in the contract review and collective bargaining negotiations 
of a union that won its election in 1997.
    The SCCE also represents Senate offices when unfair labor charges 
are brought against it. The investigation, negotiation and 
administrative proceedings associated with an unfair labor charge can 
require as many attorney work hours as that of any claims of 
discrimination filed with the Office of Compliance. During 1998, the 
SCCE defended against 3 unfair labor charges brought against Senate 
offices.
OSHA/ADA Compliance
    The SCCE provides advice and assistance to Senate offices by 
assisting them with complying with the applicable OSHA and ADA 
regulations; representing them during Office of Compliance inspections; 
advising State offices on the preparation of the Office of Compliance's 
Home State OSHA/ADA Inspection Questionnaires; assisting offices in the 
preparation of Emergency Action Plans (in 1998 the SCCE distributed to 
all Senate offices a sample Emergency Action Plan that could easily be 
completed to meet each office's needs); and advising and representing 
Senate offices when a complaint of an OSHA violation has been filed 
with the Office of Compliance or when a citation has been issued.
Layoffs and Office Closings In Compliance With the Law
    The SCCE provides legal advice and strategy to individual Senate 
offices regarding how to minimize legal liability in compliance with 
the law when offices reduced their forces.
    In addition, pursuant to the Worker Adjustment and Retraining 
Notification Act (``WARN''), offices that are closing must follow 
certain procedures for notifying their employees of the closing and for 
transitioning them out of the office. The SCCE tracks office closings 
and notifies those offices of their legal obligations under the WARN. 
In 1998, the SCCE advised 8 Senate offices of their legal obligations 
under this law.
Management Training Regarding Legal Responsibilities
    In 1998, in an attempt to find a more efficient and cost-effective 
way of providing Members' state offices with necessary management 
training, the SCCE, in conjunction with the Senate Recording Studio, 
introduced in the Senate 2-way interactive internet seminars. This 
process allows the SCCE to give legal seminars to Member offices here 
in D.C. and simultaneously to broadcast them to state offices via the 
internet. The state offices access the seminars (by audio and video) on 
their PC's at no cost to the state offices. The state office 
participants are also connected by telephone cable so that they can 
fully participate in the seminars by asking questions, as would any 
member of the audience in D.C. The SCCE introduced this concept in the 
Senate, and, to date, is the only office that has used the internet in 
this 2-way interactive method. The seminars are extremely cost-
effective because they eliminate the need for an attorney to travel to 
the state offices, and they reduce legal problems by ensuring that all 
managers understand their legal obligations under the CAA. These 
seminars have been very well received by Member offices; 82 state 
offices participated in 1998.
    The SCCE conducted 63 legal seminars during 1998. Most of these 
seminars were broadcast simultaneously over the internet to state 
offices. Among the topics covered was ``Preventing and Addressing 
Sexual Harassment in the Workplace.'' That topic was necessitated by 
two recent Supreme Court decisions.
    Additional seminars the SCCE conducted for Senate office managers 
were: The Congressional Accountability Act of 1995: What Managers Need 
to Know About Their Rights and Obligations; Managers' Obligations Under 
the Family and Medical Leave Act; The Legal Pitfalls of Hiring the 
Right Employee: Advertising, Interviewing, Drug Testing and Background 
Checks; Disciplining, Evaluating and Terminating an Employee Without 
Violating Employment Laws; Management's Obligations Under the Americans 
With Disabilities Act; and Equal Pay for Equal Work: Management's 
Obligations Under the Equal Pay Act.
    Also, in December 1998, the SCCE provided an extensive overview of 
a Senate office's legal obligations under the CAA to the Senators-Elect 
and their Chiefs of Staff during the Secretary of the Senate's 
orientation program. During this presentation the SCCE provided the 
Senators-Elect and their staff with a quick reference guide entitled 
``Organizing and Managing a Senate Office in Compliance with the Law,'' 
as well as other written materials to assist the Senators-Elect in 
setting up their new offices. In January 1999, the SCCE provided a 
similar presentation to all Office Managers, both new and existing, to 
review a Senate office's legal obligations under the CAA.
    Finally, the SCCE continues to publish its bi-monthly newsletter 
that it distributes to all Senate offices. The newsletter is designed 
to provide Senate offices with information concerning developments in 
labor and employment laws.
Administrative/Miscellaneous Matters
    The SCCE provides legal assistance to employing offices in 
preparing employee handbooks/office policies, supervisors' manuals, 
sample job descriptions, interviewing guidelines, and job evaluation 
forms.
    The SCCE also reviews all regulations issued by the Office of 
Compliance and advises the Senate as to whether the regulations should 
be approved, modified, or not approved.
                office of conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. Initiatives include mass 
deacidification, phased conservation for books and documents, 
collection surveys, and contingency planning for disaster response and 
recovery.
Work Prepared for Senate Leadership
    For more than twenty years the office has bound a copy Washington's 
Farewell Address for the annual Washington's Farewell Address ceremony. 
This year, a volume was bound for and read by Senator Mary Landrieu.
    At the direction of the Secretary of the Senate, and through the 
Office of Interparliamentary Services, marbled paper slipcases were 
fabricated for the book, The United States Capitol: Photographs by Fred 
J. Maroon, and were presented to 18 dignitaries during Senate Trips.
    At the request of the Senate Democratic Leadership, 48 folders were 
embossed with the name of each Senator. Six hundred thirty-five items 
were matted and framed, this included resolutions, photographs, and 
letters.
    The office fabricated 12 leather bound notebooks for the Senate 
Majority Leader and one for the Assistant Majority Leader.
    In conjunction with the newly created Leader's Lecture Series, the 
office prepared several presentation pieces. Each guest speaker 
received a leather bound box for speeches, a leather bound notebook, 
and a matted and framed rare print. In addition, photographs 
representing each speakers careers were matted and framed for display 
at the reception following each historic speech. This years guest 
speakers included The Honorable Mike Mansfield, The Honorable Howard H. 
Baker, Jr., and The Honorable Robert C. Byrd.
Senate Library
    In 1998 conservation treatments were completed for 421 volumes of a 
7,000 volume collection. Also this year, the office prepared and sent 
668 books from the Senate Library to the Government Printing Office 
(GPO) for binding.
    In a effort to preserve valuable nineteenth-century Senate 
documents, the Office of Conservation and Presentation, in cooperation 
with the Senate Library, rebound a complete set of the Annals of 
Congress, the Congressional Debates From 1789-1824. These volumes are 
very rare. While the Senate Library has several sets in storage, every 
volume is in need of major repair and restoration. The Office of 
Conservation and Preservation will continue in 1999 to assist the 
Senate Library in their effort to save these irreplaceable historical 
documents.
Office of the Senate Curator
    The office assisted the Office of the Senate Curator in the 
preparation and installation of museum quality exhibition labels for a 
public presentation of 30 black and white photographs.
    At the direction of the Office of the Senate Curator, the office 
installed 14 oversized black and white photographs of Capitol images. 
These photographs were eventually displayed in Hart 902.
Miscellaneous Projects
    The office continues to utilize its spray deacidification system, 
encapsulation, and dry mounting press. This year the office deacidified 
43 items, encapsulated 59 items, and dry mounted 177 items.
    The office continues conservation treatment of Appropriation Bills 
1877-1943. This year the office completed 36 books. There are 
approximately 260 books remaining for treatment. These books are apart 
of the Appropriations Committee collection.
                       office of senate security
    The Office of Senate Security (OSS) is responsible for the 
administration of classified information, personnel security, 
counterintelligence and classified computer security programs in Senate 
offices and committees. OSS also serves as the Senate's liaison to the 
Executive Branch in matters relating to the security of classified 
information in the Senate.
Classified Meetings
    OSS secure conference facilities were utilized on 987 occasions 
during 1997. This is a 4 percent increase in the utilization of OSS 
facilities over 1997 levels. Four hundred fifteen hearings, meetings or 
briefings were conducted in OSS' three conference rooms. In addition, 
OSS provided Senators and staff secure telephones, secure computers, a 
secure facsimile machine and secure areas for reading classified 
material on 572 occasions in 1998.
Document Control
    The Senate received or generated 3,704 classified documents 
consisting of 158,711 pages during 1998. This is an 8 percent increase 
in the number of documents received during 1997. Overall, Senate 
Security completed 7,614 document transactions and handled 318,389 
pages of classified material during calendar year 1998.
Personnel Security
    OSS workload in the personnel security area remained steady during 
1998. Personnel security investigations were initiated on 139 Senate 
employees. Seventy-five investigations were completed, and the 
remainder of the investigations (64) are pending completion by the 
Department of Defense or the Federal Bureau of Investigation. OSS also 
completed 116 routine security clearance termination actions during 
1998.
Security Education
    OSS conducted or hosted 65 security briefings for Senate staff. 
Topics covered included: information security, counterintelligence, 
security managers' responsibilities; office security management; and 
introductory security briefings.
                         senate stationery room
    The Senate Stationery Room provides stationery items for sale to 
Senate offices and others authorized to use the service. The Stationery 
Room maintains an inventory and selects a variety of stationery items 
adequate to meet the needs of the Senate personnel, maintains 
individual stationery accounts for Senators, Committees, and Offices, 
issues bills and statements and receives reimbursement for all 
purchases, delivers merchandise to Senatorial offices, and advertises 
for bids and awards contracts for Senate stationery supplies.

Fiscal Year 1998 Statistical Operations

Gross Sales...................................................$3,000,341
Sales Transactions............................................    89,897
Generated Purchase Orders.....................................     6,073
Vouchers Processed............................................     7,481
Metro Fare Media Sold.........................................     6,709

    The reporting categories for statistical operations of the 
Stationery Room for fiscal year 1998 saw increases in these categories: 
Sales transactions were up by 330. Vouchers processed for vendor 
payments were up by 109. Metro Fare Media sold were up by 1,085.
    The Stationery Room and the Operation Division reviewed the new 
procedure in which a flag will be inserted into a Tyvek envelope, 
sealed, mailing label and postage tape placed on the front of the 
envelope. The benefits are: the Tyvek envelopes are supplied by the 
Postal Service to the Operations Divisions and the envelopes store flat 
thus using less space; the time spent in packaging each flag will be 
greatly reduced; the UPS will deliver the flags in 2 to 3 days instead 
of 10 to 14 days (Parcel Post), and since these packages will have a 
like appearance to all other Priority mail, fewer flags will be lost 
and will save some time in tracking lost flags. This process will make 
mailing the flags easier and more efficient.
    By direction of the Secretary of the Senate and the Rules 
Committee, the Metro Fare Subsidy was increased from $21 to $40 on 
November 1, 1998. This has led to a significant increase in the use of 
Metro.
    Fiscal year 1998 was a very busy year for the Stationery Room 
staff. The Stationery Room has undertaken a remodeling project in 
conjunction with its Y2K update. Since it would be necessary to 
establish new computer cables and locations for new computers in the 
Stationery Room with a certain amount of disruption to the sales area, 
it was determined that this would be a time to remodel. This project 
was predicted to take about four months without interrupting daily 
sales. The Stationery Room has not had a face lift of this proportion 
since it moved the entire operation from the Russell building to the 
Dirksen building in 1980, approximately nineteen years ago.
    With the work of the Secretary of the Senate, Rules Committee and 
the Architect of the Capitol, this project is turning into a great 
success. The Stationery Room has been able to replace damaged shelving, 
paint the entire store, pull new computer cables to work stations and 
replace the drab worn carpet with new carpeting. The new look of the 
Stationery Room is clean, modern and professional.
    Between February and April of 1999, the Stationery Room will have 
completed its testing and installation of its Y2K software, giving it a 
complete revised look and operation for the twenty-first century.
                      interparliamentary services
    The Office of Interparliamentary Services is responsible for 
administrative, financial, and protocol functions for all 
interparliamentary conferences in which the Senate participates by 
statute, for interparliamentary conferences in which the Senate 
participates on an ad hoc basis, and for special delegations authorized 
by the Majority and/or Minority Leaders. The office also provides 
appropriate assistance as requested by other Senate delegations.
    The statutory interparliamentary conferences are: North Atlantic 
Assembly; Mexico-United States Interparliamentary Group; Canada-United 
States Interparliamentary Group; and British-American Parliamentary 
Group.
    In May, the 39th Annual Meeting of the Canada-U.S. 
Interparliamentary Group was held in Nantucket, Massachusetts. 
Arrangements for this successful event were handled by the IPS staff.
    As in previous years, all foreign travel authorized by the 
Leadership is arranged by the IPS staff. In addition to delegation 
trips, IPS provided assistance to 11 individual foreign trips. Several 
other trips were scheduled, but were canceled or postponed after most 
of the advance work had been completed. Also, Senators and staff 
authorized by committees for foreign travel continue to call upon this 
office for assistance with passports, visas, travel arrangements, and 
reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader, 
the Minority Leader, and the President Pro Tempore, IPS staff also 
assist staff members of Senators and committees in filling out the 
required reports.
    Known by many in the Senate as the ``protocol office'', 
Interparliamentary Services maintains regular contact with the Office 
of the Chief of Protocol, Department of State, and with foreign embassy 
officials. Official foreign visitors are frequently received in this 
office and assistance is given to individuals as well as to groups by 
the IPS staff. The staff continues to work closely with other offices 
of the Secretary of the Senate and the Sergeant at Arms in arranging 
programs for foreign visitors. In addition, IPS is frequently consulted 
by individual Senators' offices on a broad range of protocol questions. 
Occasional questions come from state officials or the general public 
regarding Congressional protocol.
    On behalf of the Leadership, the staff arranges receptions in the 
Senate for Heads of State, Heads of Government, Heads of Parliaments, 
and parliamentary delegations. Required records of expenditures on 
behalf of foreign visitors under authority of Public Law 100-71 are 
maintained in the Office of Interparliamentary Services.
    Planning is underway for the 38th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group and the British-American Parliamentary Group 
Meeting, both to be held in the United States in 1999. Advance work, 
including site inspection, will be undertaken for the 41st Annual 
Canada-U.S. Interparliamentary Group Meeting, to be held in the United 
States in 2000.
                            senate gift shop
    The Senate Gift Shop provides services to Senators, Senate spouses, 
staff, visiting constituents and U.S. Capitol visitors. Products 
available include a wide variety of souvenir items and fine gifts. 
Services provided include the distribution of educational materials and 
the sale of special order products, custom framing, embossing, 
engraving, and shipping.
    This year's Congressional Holiday Ornament has proven to be a most 
popular collectors item. This was the first ornament of a four-year 
series depicting the early years of the United States Congress.
    Sales of the 105th Congressional plate, The Bicentennial 
Cornerstone plate, and the Tiffany Round box continue to be good.
    In the fall of 1998, the Gift Shop established an Engraving 
Department, allowing better control of the quality and speed of this 
popular service. This state-of-the-art computer driven equipment 
purchased by the Gift Shop will serve for many years to come.
    A major portion of the growth in sales is directly related to 
increases in special order and phone order sales. This continuing 
growth is being supported by the new Shipping Department which was 
equipped with a computerized labeling and tracking system last year.
    Computer upgrades in 1999 will allow replacement of personal 
computers with upgraded machines and software systems. The computers 
(cash registers) currently used at point of sale locations will also be 
replaced and software and screen menus redesigned to better serve sales 
and inventory needs.
                        office of public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; the Senate Code of Official Conduct: 
Rule 34, Public Financial Disclosure; Rule 35, Senate Gift Rule 
filings; Rule 40, Registration of Mass Mailing; Rule 41, Political Fund 
Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.
Federal Election Campaign Act, as Amended
    The Act required 1998 Senate candidates to file quarterly and pre-
election reports, and Senate candidates running in a year other than 
1998 to file semi-annual reports. Filings totaled 8,374 documents 
containing 95,103 pages.
Lobbying Disclosure Act of 1995
    As of September 30, 1998, 4,422 registrants represented 11,813 
clients and employed 18,590 individuals who met the statutory 
definition of ``lobbyist.'' 21,329 lobbying registrations and reports 
totaling 82,349 pages were received and made available to the public.
Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
1998. The reports were available to the public and press by Friday, 
June 12th. A total of 2,512 reports and amendments were filed 
containing 12,982 pages. There were 360 requests to review or receive 
copies of the documents.
Senate Rule 35 (Gift Rule)
    Effective January 1, 1998, the office revised the Senate Rule 35 
travel forms, combining two employee forms into one combined form. The 
Senate Office of Public Records has received over 1,500 reports 
totaling 2,000 pages during fiscal year 1998.
Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages were 569.
Public Inquiries
    From October, 1997, through September, 1998, the Public Records 
office staff assisted more than 3,100 individuals seeking information 
from reports filed with the office. This figure does not include 
telephone assistance. A total of 148,198 photocopies were sold in the 
period.
Automation Activities
    During fiscal year 1998, Public Financial Disclosure reports were 
scanned using optical imaging technology. Starting with documents 
received after January 1, 1998, lobbying reports were also scanned, and 
the office greatly expanded the amount of information available to the 
public regarding the activities of lobbyists. Efforts to allow 
lobbyists to file electronically, as well as to allow the public to 
retrieve filings and data electronically were postponed to insure that 
a new campaign finance system would be operational and Y2K compliant.
                           historical office
    Serving as the institutional memory of the Senate, the Historical 
Office collects and provides information on important events, 
precedents, dates, statistics, and historical comparisons of current 
and past Senate activities for use by members and staff, the media, 
scholars, and the general public. The Office advises senators, 
officers, and committees on cost-effective disposition of their non-
current office files and assists researchers in identifying Senate-
related source materials. The Office keeps extensive biographical, 
bibliographical, photographic, and archival information on the more 
than 1,700 former senators. It edits for publication historically 
significant transcripts and minutes of selected Senate committees and 
party organizations, and conducts oral history interviews with retired 
senior Senate staff.
Leader's Lecture Series
    Majority Leader Trent Lott initiated the Leader's Lecture Series, 
providing a forum for outstanding former Senate leaders and other 
distinguished Americans to share their insights about the recent 
history and long-term practices of the Senate. Beginning on March 24, 
1998, the lectures have been held in the historic Old Senate Chamber 
before an audience of current Senators and specially invited guests 
from the executive branch, the diplomatic corps, the media, and private 
enterprise. The Senate Historical Office, in coordination with the 
Office of Senate Curator and other offices under the jurisdiction of 
the Secretary, has provided editorial and production support for the 
1998 lectures of former Majority Leaders Mike Mansfield, Howard Baker, 
and Robert C. Byrd, as well as the January 20, 1999, lecture by former 
President George Bush. Text of all four lectures is now available on 
the Senate web site and will soon be published as a book.
Editorial Projects
    A History of the Democratic Policy Committee, 1947-1997: To 
commemorate the fiftieth anniversaries of the Senate Republican and 
Democratic Policy Committees, the Historical Office has prepared 
narrative histories of the committees, their members, their staffs, and 
their impact on legislation in the U.S. Senate. In 1997 the Government 
Printing Office published the first of these two volumes, A History of 
the Senate Republican Policy Committee, 1947-1997 (Senate Document 105-
5). Work is nearing completion on the Democratic Policy Committee's 
companion volume.
    Minutes of the Republican and Democratic Party Conferences, 1903-
1964: In 1992 the Senate's party leaders agreed to a recommendation of 
the Advisory Committee on the Records of Congress that the Historical 
Office preserve, edit, and publish the official minutes of each party 
conference, dating from the start of the twentieth century to a period 
thirty years before the present. The Office has now completed work on a 
volume for each conference. Early in 1999, the Government Printing 
Office will produce a 700-page volume of Democratic Conference minutes, 
covering the years 1903 through 1964. A companion volume for Republican 
Conference minutes spanning 1911 through 1964 will appear later in the 
year.
    Biographical Directory of the United States Congress, 1774-1999: 
The Office has revised and updated Senate entries in the Biographical 
Directory of the United States Congress. Since its last print 
publication in 1989, more than half of the database's 1,851 Senate 
entries have been revised or updated, and dozens of new entries have 
been added. Although the next decennial print edition is scheduled for 
publication in 2000, a current version of the database is now available 
online at http://bioguide.congress.gov.
Oral History Program
    The Historical Office opened for scholarly research the transcripts 
of oral history interviews with Kelly D. Johnston, former Secretary of 
the Senate and staff director of the Senate Republican Policy 
Committee. A series of interviews with Charles Ferris, former staff 
director of the Senate Democratic Policy Committee, were also completed 
and are being processed. Additional interviews were also conducted, 
including a series with C. Abbott Saffold, former Senate Democratic 
Secretary.
Member Services
    ``Senate Historical Minutes'': At the request of the Senate 
Democratic Leader, the historian prepared and delivered a ``Senate 
Historical Minute'' at each of fifty-six Senate Democratic Conference 
weekly meetings during the 105th Congress. These 300-word ``minutes'' 
are designed to enlighten members about significant events and 
personalities associated with the Senate's institutional development. 
Most of the ``minutes'' were subsequently published the day following 
delivery in The Hill newspaper. Those prepared in 1997 were assembled 
during 1998 in a booklet entitled Thirty Minutes of Senate History. 
These and future ``minutes'' will be available as a feature on the 
Senate's redesigned home page.
    Senators' Office Records Management and Disposition Assistance: The 
Historical Office assisted members' offices that closed at the end of 
the 105th Congress with planning for the preservation of their 
historical records. Briefings included guidance on archiving 
information from computer systems, assistance with selecting a 
repository, and identification of which information is appropriate for 
historical preservation. All offices of retiring members transferred 
their member's papers to a designated research repository of the 
member's choice. Special assistance was given to defeated incumbents by 
assisting staff with identifying an appropriate repository and focusing 
on the preservation of the core collections.
    Records Management Handbook for United States Senators and Their 
Archival Repositories: The Historical Office issued an extensively 
revised edition of this publication, which features new information on 
the care and management of electronic records.
Educational Outreach
    Senate Office Building Brochures: Senators, staff, and visitors 
frequently seek information on the history and functions of the three 
Senate office buildings. To address this recurring need, the Historical 
Office produced an illustrated brochure for each structure. Copies will 
be distributed through each member's office and from a central location 
within the respective buildings.
    ``This Month In Senate History'': Since September 1996, the Office 
has produced a Senate home page feature entitled ``This Month in Senate 
History.'' The entries for each month highlight approximately twenty 
institutionally significant events that have occurred during that month 
throughout more than 200 years of Senate history. Starting in May 1997, 
the Office also produced a brochure containing the same information, 
which is provided to Senate offices for distribution to constituents 
and other visitors.
    Senate Home Page Redesign: The Historical Office contributed the 
following features to the recently redesigned Senate Web page:
  --A brief history of the U.S. Senate and a chronology of the 
        institution's history.
  --An introduction to the Office's large photo collection, with 
        information about ordering photos, copyright issues, and 
        resources for researchers.
  --A description of the ongoing oral history project, with full text 
        and excerpted text from past oral histories available online.
  --Information on each state and its unique relationship to the 
        Senate.
  --Statistical tables.
  --A collection of Senate ``briefings'' outlining the Senate's role in 
        such duties as nominations, treaties, and impeachments.
  --A collection of ``historical minutes,'' brief vignettes about 
        Senate history.
  --Access to the new online version of the Biographical Directory of 
        the United States Congress, which includes information from the 
        Guide to Research Collections of Former United States Senators 
        and Senators of the United States: A Historical Bibliography.
Photographic Collections
    The Historical Office continued to expand its 30,000-item 
photograph collection by creating a photographic record of historically 
significant Senate events, and by actively seeking photographs of 
former senators. In addition to maintaining and adding to the Office's 
image collection, the photo historian provided photographic reference 
service to the media, congressional offices, academic researchers, and 
the general public. The Office's newly acquired imaging software 
allowed the photo historian to digitize a number of items in the 
collection, a process that will help preserve frequently used 
photographs by storing them in an easily accessible format. Photographs 
can now be scanned, viewed in electronic format, and sent via e-mail.
                        office of senate curator
    The Office of Senate Curator, under the direction of the Senate 
Commission on Art, administers the museum programs of the Senate for 
the Capitol and Senate office buildings. The Curator and staff suggest 
acquisitions, provide appropriate exhibits, engage in research, and 
write and edit publications. In addition, the office studies, 
identifies, arranges, protects, preserves, and records the historical 
collections of the Senate, including paintings, sculpture, and 
furnishings; and exercises supervisory responsibility for those 
chambers in the Capitol under the jurisdiction of the Senate Commission 
on Art.
Exhibitions and Publications
    The initiative to standardize the design of the Secretary's 
educational publications moved forward successfully, with a total of 14 
brochures printed in the new format. Publications produced by the 
office included: The Brumidi Corridors, Senate Art in Stamps; and The 
Vice Presidential Bust Collection. The long awaited Guide to Senate Art 
progressed considerably. New signage was developed for several rooms, 
providing visitors with information on these historic spaces, and 
identification labels were installed for the Vice Presidential Bust 
Collection.
Historic Chambers
    The Curator's staff continued to maintain the Old Supreme Court and 
Old Senate Chambers, coordinating periodic use of both rooms for 
special occasions. The latter chamber was used for three evening 
lectures as part of Senator Lott's Leader's Lecture Series.
Collections: Acquisitions and Management
    The staff processed 20 loans for the Senate leadership, and 
continued to loan and monitor the 450 reproduction prints in the Senate 
collection. The office received and catalogued 13 foreign gifts 
accepted from various foreign governments; a system for promoting the 
transfer of these gifts was established, and 11 gifts were transferred 
to appropriate depositories. The most extensive physical inventory to 
date of the Senate collection was conducted this year using a computer 
generated master list of all collection objects created in the SNAP! 
data base.
Conservation and Restoration
    Several significant paintings and frames received conservation 
treatment, including Patrick Henry by George Matthews and The Battle of 
Lake Erie by William H. Powell. Four marble sculptures were 
substantially restored, and 25 other marble busts were professionally 
cleaned and conserved. A new maintenance schedule was implemented to 
improve the long-term care of the sculpture in the Senate collection. 
Similarly, a training series was initiated to provide the staff of the 
Sergeant at Arms with information on the care and handling of these 
works of art.
    A five-year project to restore the 100 Senate Chamber desks was 
began this fall, and the first ten desks were restored. Also part of 
the project, was the modification to install unobtrusive bumpers on the 
end of each Senate Chamber chair arm to better protect the desks from 
damage.
Collaborations, Educational Programs, Events
    The staff supported the Senate's seminar program by presenting 
periodic addresses on various aspects of the Senate's art and history. 
In a collaborative effort with several offices, the staff participated 
in the development of a four-part program, titled ``Congress & the 
Capitol: Tour Guide Series,'' designed for individuals who conduct 
tours of the Capitol for constituents.
Automation
    The Senate launched a new Virtual Tour of the Capitol at the Senate 
web site, and the staff contributed substantially to this endeavor. A 
new interactive kiosk was installed in the Senate wing of the Capitol. 
Titled ``Welcome to the Digital U.S. Capitol,'' the kiosk provides 
visitors with pertinent information on their state senator, and the art 
in the Capitol related to their state. The staff also worked closely 
with other Senate offices on the redesigned Senate web site.
Objectives For 1999
    Conservation concerns continue to be a priority, with plans to 
conserve additional Senate Chamber desks, frescoes, several historic 
mirrors, five paintings with frames, five sculptures, furniture for the 
Senate Library, and to begin the first phase of conservation of the Old 
Supreme Court Chamber furnishings. Two new exhibitions are scheduled, 
along with additional explanatory pylons for several historic rooms. 
Progress will continue on the Guide to Senate Art. Work will proceed on 
the comprehensive disaster preparedness, response, and recovery plan 
for the Senate collection. A collections management and care policy 
will be developed, and a training manual produced. The office will 
complete a comprehensive strategic plan for the Senate Commission on 
Art, and a Senate Preservation Task Force will be established to 
develop long-term preservation and interpretive policies for the 
Capitol. Projects will be developed for the year 2000 to celebrate the 
200th anniversary of the first meeting of Congress in the Capitol.
                           senate page school
    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the nation's capital, within the 
limits of the constraints imposed by the work situation.
Summary of accomplishments
    The Middle States Association of Colleges and Schools granted the 
Page School accreditation for the next ten years.
    Staff attended a number of staff development workshops including 
computer classes, Advanced Placement training, subject matter specific 
seminars, and a leadership conference. Foreign language tutoring was 
provided to students in French, Spanish, German, Latin, and Russian. 
Staff provided a PSAT preparation course for Pages. New, more sturdy 
computer work tables were provided.
    During the Senate recess, school hours were expanded and many field 
trips were taken to extend the educational experience of Pages. A trip 
to Philadelphia included visits to Independence Hall and the Liberty 
Bell. Local trips included the National Archives and Mount Vernon. Many 
speakers were added to the schedule, including the Senate 
Parliamentarian, the Senate Historian, the Senate Curator, and the 
Senate Librarian. Much of the history and legislative process of the 
Senate was shared with the Pages. Theater outings were also arranged to 
CATS, Barrymore, and The Nutcracker.
    New equipment included a CD player and a LCD projector. A new 
textbook, Problem Solving Strategies, was purchased for math students 
to use. Software to be used in Chemistry and Physics, the Calculator 
Based Laboratory for data acquisition and analysis, was purchased.
    The closing ceremony for first semester Pages took place on January 
22, 1999. New Pages arrived on January 25, 1999.
Summary of plans
    Needs of the incoming Pages are assessed immediately and a schedule 
devised to meet their needs. Foreign language tutors are obtained and 
field trips are planned as time allows.
    Attention will continue to be given to the suggestions in the 
accreditation report of the Middle States Association of Colleges and 
Schools. Advanced Placement training for all staff who have not 
previously received it will be provided as recommended.
    Staff development opportunities will continue to be utilized, 
particularly in content areas. All courses will be reviewed for 
curriculum improvement purposes and materials used will be reviewed as 
well. Software will be investigated as a means by which curriculum 
delivery can be enhanced.
                          information systems
    The staff of the Department of Information Systems provides 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the Government Printing Office (GPO), the Senate Computer Center (SCC), 
and the Senate Office of Telecommunications (Telecom) on technical 
issues and joint projects. The Department provides computer related 
support for the nineteen LAN-based servers in the Office of the 
Secretary of the Senate (three Novell Servers; sixteen Windows NT 
Servers; a proprietary retail computer system in the Stationery Room).
Mission Evaluation
    The primary mission of Information Systems Department is to 
continue to provide a high sustained level of customer satisfaction and 
computer support of all departments with the Secretary of the Senate. 
Emphasis is placed on the creation and transfer of legislation to 
outside departments and agencies. In May and June of 1998, department 
interviews, and goals were assessed, hardware and software applications 
were analyzed, and Year 2000 hardware evaluations initiated.
Improvements to the Secretary's LAN's
    The Senate had chosen Windows NT as the standard network operating 
system in 1997. The immediate support strategy in May of 1998 was to 
enhance existing hardware and software support within the Information 
Systems Department, and augment support from the Sergeant at Arms 
whenever required. The following chart notes the installation of nine 
additional servers in 1998. The Office of the Secretary Network 
encompasses approximately 380 users in the Capitol, the Senate Hart and 
Dirksen Buildings, and the Page School. The LAN operating system is 84 
percent Microsoft based and 16 percent Novell based server software.

----------------------------------------------------------------------------------------------------------------
                                                                                       NT/     Novell
                          Department                             NT/PDC    NT/BDC    Single      4.x     Totals
----------------------------------------------------------------------------------------------------------------
Information Systems...........................................         1     \1\ 1     \1\ 2         1         5
Disbursing....................................................     \1\ 1         1         1  ........         3
Library.......................................................     \1\ 1  ........  ........         1         2
Printing and Document Services................................  ........  ........  \1\ \2\   ........         1
                                                                                           1
Official Reporters............................................  ........  ........  ........         1         1
Employment Counsel............................................         1     \1\ 1  ........  ........         2
Page School...................................................         1  ........  ........  ........         1
Stationery Store/Gift Shop....................................     \1\ 1     \1\ 1     \1\ 1  ........         3
Senate Security...............................................         1  ........  ........  ........         1
                                                               -------------------------------------------------
      Totals..................................................         7         3         6         3        19
----------------------------------------------------------------------------------------------------------------
\1\ NT/PDC--Primary Domain Controllers. Systems Installed in 1998.
NT/BDC--Backup Domain Controllers. Information current as of 2/18/1999.
\2\ Q2/99.

    Support staff of the Sergeant at Arms and the Secretary continue to 
work closely together to support the current LEGIS system, and take an 
a more active role in the current LIS project. In September of 1998, 
the Amendment Tracking application was removed from the Secretary's NT 
Primary Domain Controller. A separate Windows NT Server was added to 
the Secretary's LAN, the hardware and software was configured by 
Secretary staff members, and working with SAA support personnel, an 
updated version of Amendment Tracking software was installed in August 
1998.
    Several additional resources were made available for use by the 
Secretary staff; laptop computers for remote dial-in access to the 
Secretary's LAN, access software to manage NT servers remotely, and 
laptop upgrades for the Legislative and Bill clerk to utilize on the 
chamber floor.
    Several departments have had repetitive tasks automated using the 
macro scripting language in Word Perfect. For the most part, these 
macros are in place to simplify the Windows95 operating system. These 
macros were designed to copy and transfer files from one folder to 
another. These scripts can be replaced by providing staff members with 
a additional training in Windows95.
    Several Departments, namely Disbursing, Office of Public Records, 
Chief Counsel for Employment, Page School, Senate Library, Senate 
Security, and Stationery/Gift Shop have dedicated systems 
administrators and NT servers installed. In most cases, the separate 
systems hold unique applications, and isolated LAN's are set up for 
security reasons. Information Systems continues to provide hardware and 
software support for these department as required and assist in project 
upgrades.
    Disaster Preparedness Plans were established to protect software 
media in 1998. Information Systems now utilizes a fire proof safe to 
properly secure and store software media.
Captioning Services (ST-54)
    The Official Reporters and Captioning services departments utilize 
a separate Novell server. They use specialized software called Computer 
Aided Transcription (CAT) for translating their steno code into 
English. In June of 1998, beta software was evaluated as a possible 
replacement for the older Xscribe CAT software. Also in 1998, the 
Compaq DOS based clients were dual-configured with Windows95, verified 
as Y2K compliant and in July 1998 the internal clocks moved forward to 
the Year 2000.
    Closed caption information was then sent to the Senate Recording 
Studio. While the current operation is qualified as Y2K compliant, 
there are several minor constraints, namely file naming conventions 
that must be used in 2000. New hardware and software will be installed 
in 1999 as soon as replacement software is available.
Official Reporters of debates (ST-41/44)
    The Reporters and Captioning personnel utilize the same caption 
software, with the exception that Captioning Services sends encoded 
output to the Senate Recording Studio, and Reporters send WordPerfect 
files to the Government Printing Office. GPO Detailees add at the final 
stage, added code for MicroComp formats prior to transferring the files 
to GPO. The Reporters are the only office currently who do not run 
Windows95 environments. In March 1999, the Reporter software is being 
upgraded to allow a dual-boot operation between Xscribe and normal 
Win95 applications. This operation has been tested previously in 
Captioning Services.
The Senate Gift Shop LAN (in two separate locations)
    At the request of GAO, for security reasons, the Gift Shop LAN and 
the Stationery LAN must be isolated from each other and neither 
connected to the Secretary's LAN. The Gift Shop LAN houses the 
inventory and transaction records for the Gift Shop. In August of 1998, 
an NT Server was installed by Info systems staff as a Primary Domain 
controller. Working with Telecom, SAA, and Stationery staff and 
consultants, the necessary fault-tolerant components were installed, 
and networking requirements identified to replace the current MAI 
mainframe. In December 1998, Info systems staff developed a standard 
software template, and procedure to install new NT clients. The current 
schedule is to replace the existing MAI mainframe and all existing PC's 
in Q1/99 with Y2K compliant hardware and software. Y2K Testing will 
commence in Q2/99.
The Page School LAN
    The Page School currently has a Windows NT LAN, server version 
3.51. This software version will be upgraded to version 4.0 in 1999. 
Additional hardware and software scanning capabilities were added in 
September 1999. Typical users include the administrative staff, 
teachers, and students. Administrative staff use the Blackbaud program 
for students records and grades. These records are confidential. In 
1998, a new systems administrator joined the Page School, and 
networking protocols were established to administer this NT Server by 
Info system staff remotely from the Capitol. This adds quicker response 
to support questions and problems as they arise.
The Office of Senate Security LAN
    The Office of Senate Security inventories and tracks all classified 
information that comes into the Senate. In the Fall of 1996 their 
system was completely upgraded from a Novell system to a new Windows NT 
LAN with top-of-the-line equipment and a new Document Management System 
was purchased. For security reasons, the computer systems in Senate 
Security cannot be connected to any other system in the Senate so two 
PC's connected to the Secretary's LAN (and not to their LAN) have been 
installed so that staff can have access to cc:mail and the INTERNET. 
Cc:mail upgrades were performed to bring the client version up to at 
least version 6.x.
The Senate Disbursing Office LAN
    By the end of September 1998, during the second hardware 
installation phase, fifty new Windows95 clients were installed in 
Disbursing. No additional changes have occurred with respect to the NT 
Server operation. Also in September, Info system staff resources were 
allocated to assist with the installation of client software for all 
member offices. In October 1998, staff analyzed the NT servers and 
found the following; One Primary Domain Controller (Doves) running SQL 
database is installed in its own domain called \\DO1-SQL\Doves. A 
second Primary Domain Controller is called \\SCC-DO\DO1. The later 
authenticates all standard user account logins, while the Doves Server 
supplies the SQL database information for client connectivity. The 
issue is simply that Windows NT thinks that both servers have the same 
hardware identification. Additionally, a software trust relationship 
must be intact for users to gain accessed to Doves. Should the trust 
relationship decay, network resources are lost. Meeting with SAA 
customer support and the Disbursing system administrator in November 
98, an upgraded NT server hardware configuration was identified and 
ordered from SAA. On February 17, 1999 the upgraded NT server was 
installed in the DO. Additionally Windows NT server software was 
reinstalled on the Doves server correcting the above problems. With 
this initial phase complete, the remainder of the project involves 
adding application and printing services to the new NT server, and 
retiring the original server. This process in on-going and will be 
accomplished in Q2 of 1999.
The Office of Public Records (OPR)
    OPR uses FileNet, a UNIX-based document management and imaging 
system, for maintaining public records such as lobbying forms; campaign 
finance reports; and financial disclosure reports. PC's are available 
to the public for searching, viewing, and printing these documents. 
These six patron systems are scheduled to be replaced in Q2/99. The 
FileNet workflow system includes scanning the original document into 
the database, inputting some data regarding the document, and then 
microfilming it for archival purposes.
    A working group had been established to tackle the many issues 
currently facing OPR, including: upgrading the System Hardware and the 
FileNet; In Q3/98 the server software was upgraded to NT4.0, allowing 
the FileNet application software to be ported to the next higher Y2K 
compliant version.
Bill Clerk (S-123)
    After an existing ATS software glitch caused a major system error 
to the Secretary's NT server in July 1998, a replacement Amendment 
Tracking server was installed in August with upgraded software to index 
and print amendments processed by the Bill Clerk. This server now 
resides in ST-58 and is monitored by SOS for correct performance during 
peak work periods. Scanned amendments are processed automatically by 
the Bill Clerk and personnel in the Copy Center, and printed via the 
network to the Enrolling Clerk, and Daily Digest. Network Printers were 
also allocated and tested for amendment printing in the Reporters 
office. Amendments are then previewed and committed and sent via the 
Senate Fiber Network for posting on the Senate Web server.
Enrolling Clerk (S-139)
    In May of 1998, the Government Printing Office, in conjunction with 
the Senate Office of Legislative Counsel, moved Senate legislative 
documents from a DEC-VAX mainframe located at GPO, to a secure HTTP Web 
server located at SOLC. A separate DECNET PC client which previously 
used DECNET LAT Services networking protocol, was replaced with a 
Windows95 Netscape client to retrieve information directly from SOLC. 
The DEC Mainframe was still utilized until July 1998, when it was 
disconnected at GPO. In August 1998, separate FTP accounts were 
established at GPO to insure that the Enrolling Clerk can retrieve 
documents from GPO, Senate Legislative Counsel, and the House Enrolling 
Clerk offices.
Journal Clerk (S-135)
    With the disconnection of the DEC mainframe noted above, the 
Journal Clerk could no longer retrieve the previous days Congressional 
Record from GPO. After several meetings in August, new networking 
accounts were established to transfer files electronically from the 
Senate to GPO. Effectively, file transfer protocol via the CAPNET 
ETHERNET/INTERNET are now used in place of the previous DEC-NET/Novell 
proprietary gateways. A non-Y2K compliant PC was replaced and upgraded 
in the Journal Clerk office in September 1998, and now files can be 
viewed for accuracy before they are transferred from GPO. In the past 
no error correction was in place.
    In December 1998, beta testing continued for replacing the `` two 
PC's'' for every clerk to one single Windows95 client that will execute 
WordPerfect and Ventura applications to produce camera-ready Journal 
output to be sent to GPO for publication.
Morning Business/Daily Digest/Official Reporters
    On July 30, 1998 when GPO disconnected the SOLC DEC VAX mainframe 
at their facility, all Senate legislation file transfers stopped. It 
was not clear to either SOLC or GPO, that this would happen. Reporters, 
Daily Digest, and Morning Business files were sent via floppy diskette 
to GPO for processing. During the August recess, working with SAA and 
GPO, individual FTP accounts were established for Morning Business, 
Daily Digest, and Reporters. By activating separate accounts at GPO for 
each department, files are now transferred electronically and verified 
at the time of transfer. Log files are verified and track each 
electronic transfer. The older SOS gateway was replaced with a standard 
Windows95 client, running FTP across CAPNET. This new gateway process 
is verified as Y2K compliant. In the event of a gateway failure, files 
can be manually transferred from any FTP client running Windows95.
Senate Library (S-332)
    The primary support goal for the Senate Library was to upgrade and 
replace all existing hardware and software prior to the Library move in 
January 1999. In December 1998, staff replaced all Library Windows 
workstations with 25 Win95 PC's, added a NT4.0 Server, and implemented 
improved network printing for the Senate Library. Only eight of the 25 
personal computers required to be purchased new; the remainder were 
procured simply by cleaning house. During the period of May-August, 
approximately 21 Compaq Deskpro Workstations were refurbished, software 
reinstalled, and application software upgraded for the Library. This 
represent a cost savings of approximately $35,000. Datatrek replacement 
software was purchased to meet Y2K compliancy. Data conversions are 
expected to be completed in Q1/99.
Printing and Document Services (SH-B04)
    In April 1998, SAA contracted Wang to install a new server for 
Printing and Document Services. Wang installed the NT server as a 
Secondary Domain Controller to the Secretary LAN and transported the 
hardware to Postal Square for further engineering. In July 1998, at the 
request of SAA, Info Systems reviewed the ongoing project to determine 
the exact levels of operating system software, and met with OPDS and 
SAA personnel to outline future support requirements. At that point it 
was determined to reinstall the NT system software, reload Microsoft 
SQL Server software, and establish a conduit in order to test links 
between Printing and Document Service and the developing engineers at 
Postal Square. Those items were accomplished in August 1998. At this 
point, project completion is estimated in Q2/Q3 1999 with the transfer 
of this server to Printing and Documents Services. There may be tethers 
to the existing LIS project, and those links will require further 
discovery.
    Presently, on-demand printing is accomplished utilizing a Xerox 
Docutech printing system. A duplicate system is installed at GPO. File 
transfers are shared between these two systems to send documents to 
OPDS. The existing operating system and installed hardware at OPDS is 
not Y2K compliant. GPO will replace non-compliant hardware and software 
for the Docutech in Q2/1999.
Historical Office (SH-201)
    One significant addition to the Historical Office in 1998 was the 
added capability to edit changes made to the Bibliographic Directory of 
the United States Congress. This web site directory (http://
bioguide.congress.gov) provides all bibliographic information from 1774 
to present. Senate historians now have the added features to edit and 
revise the database. Bibliographic information is available to all 
internal Senate web clients who require information on any specific 
Congressional member. The necessary SQL client software was installed 
and network protocols were establish to accomplish this task.
Year 2000 Department Status
    One of the primary goals of the Information Systems Department 
within the Secretary Office is to insure Year 2000 readiness and 
compliance for all installed hardware and software systems.
    Beginning in May of 1998, in conjunction with the Sergeant of Arms 
Y2K Project Office, the Mitretek Group performed a detailed assessment 
of all computer related activity. This assessment did not include the 
ongoing LIS or FMIS project. Completed in December of 1998, this 
assessment provides detailed structure to those mission critical 
functions and vulnerabilities.
    During this same time frame, and in parallel with this assessment, 
all personal computers were either updated and/or replaced with 
compliant hardware. Most importantly the outdated network transfer 
method of moving legislation from the Capitol to the United States 
Government Printing Office was replaced. Legislation is now transferred 
electronically via a Y2K compliant gateway to GPO.
    At present Y2K compliance is mandatory for all new projects. The 
Legislative Information System (LIS), which is composed of the Document 
Management System, Amendment Tracking, and Committee Scheduling will 
replace the current LEGIS mainframe application in August of 1999. The 
Financial Information System (FMIS) application consists of two 
modules, FAMIS and ADPICS, are deemed compliant and in present use in 
Disbursing, SAA, and the Secretary's Office. Other major projects 
include the replacement hardware and software for the Office of 
Printing and Document Services, and the MAI mainframe replacement in 
Stationery/Gift Shop. OPDS is scheduled for completion in August 1999, 
and Stationery completion is targeted for April 1999.
    As of February 1999, over 450 systems within the Office of the 
Secretary have been inventoried and assessed for Year 2000 compliance. 
Software packages that require revision upgrades have been purchased to 
replace existing applications. Efforts are underway to test existing 
applications in March 1999. COTS software testing will include Corel 
Suite 8 applications, CC:MAIL, and FTP File transfers to GPO. Every 
system currently in production passes the YMark200 diagnostic test 
which establishes next century operation.
                interparliamentary services--trips 1998
    January 5-11, 1998--Codel Lott: Panama, Honduras, Nicaragua, 
Guatemala, and Mexico (Senators Lott, Murkowski, Breaux, DeWine and 
Roberts).
    January 11-21, 1998--Codel Domenici: England, Germany, Switzerland 
and Brussels (Senators Domenici, Nickles, Abraham and Hagel).
    May 14-18, 1998--Canada-U.S. Interparliamentary Group: Nantucket, 
Massachusetts. Chairman: Senator Murkowski. Vice Chairman: Senator 
Murray. (Senators Murkowski and Grassley).
    May 22-27, 1998--North Atlantic Assembly: Spring Meeting. 
Barcelona, Spain. Chairman: Senator Roth. Vice Chairman: Senator Biden. 
(Senators Roth and Hutchinson).
    May 23-31, 1998--Codel Nickles/Lieberman: Israel, Cyprus and 
Bosnia-Herzegovina. (Senators Nickles, Lieberman and Reed).
    June 19-21, 1998--Mexico-U.S. Interparliamentary Group: Morelia, 
Mexico. Chairman: Senator Roberts.\1\ Vice Chairman: Senator Dodd. 
(Senators Roberts and Sessions).
---------------------------------------------------------------------------
    \1\ Named Chairman for Morelia conference only. Senator Hutchison 
unable to attend.
---------------------------------------------------------------------------
    June 27-July 5, 1998--Codel Domenici: France and Russia. (Senators 
Domenici, Thompson and Grams).
    November 2-13, 1998--U.N. Framework Convention on Climate Change: 
Buenos Aries, Argentina. Chairman: Senator Hagel. (Senators Hagel, 
Kerrey and Enzi).
    November 9-20, 1998--North Atlantic Assembly: Fall Meeting. 
Scotland, Poland, Lithuania and Denmark. Chairman: Senator Roth. Vice 
Chairman: Senator Bumpers. (Senators Roth, Bumpers, Hatch, Warner, 
Grassley, Mikulski, Akaka, Thompson, Hutchinson, Sessions, Gordon Smith 
and Enzi).
    December 10-12, 1998--Codel Domenici: Honduras and Nicaragua. 
(Senators Domenici and Frist).
      interparliamentary services--official foreign visitors--1998
    January 13--Dr. Ali Mohamed MATAR, Bahrain official (1).
    January 15--Mr. Banzragch ODONJIL, Mongolian official (1).
    January 21--H.E. Binyamin Netanyahu, Prime Minister of Israel (10).
    January 30--Malawi Officials (2).
    February 4--Mr. Wei Jingsheng, Chinese dissident (5).
    February 5--Rt. Hon. Tony Blair, Prime Minister of the United 
Kingdom (6).
    February 10--H.E. Jaroslav SEDIVY, Minister of Foreign Affairs, 
Czech Republic (7). H.E. Laszlo KOVACS, Minister of Foreign Affairs, 
Hungary. H.E. Bronislaw GEREMEK, Minister of Foreign Affairs, Poland. 
Mr. Karel Kovanda, Deputy Minister of Foreign Affairs, Czech Republic.
    March 2--Mr. Giuseppe Lumia, Member of Parliament, Italy (1).
    March 3--USIA Foreign Policy Group (23).
    March 4--Kouassi Gahoun HEBGOR, Member of Parliament, Toga (1).
    March 11--Japanese Parliament Staff Members (3).
    March 12--H.E. Chuan Leekpai, Prime Minister of Thailand (9).
    March 18--H.M. Hussein I, King of the Hashemite Kingdom of Jordan 
(4).
    April 8--Yemen Parliamentarians (5).
    April 29--Bangladesh Parliamentarians (4).
    May 5--Mr. John Brogden, Member of Parliament, Australia (1).
    May 6--Russian Federation Council (8).
    May 7--Professor Romano Prodi, President of Italy (8).
    May 12--Ukrainian Official (1).
    May 14--H.E. Binyamin Netanyahu, Prime Minister of Israel (10).
    June 1--Hungarian Officials (4).
    June 3--Chinese Legislators (8).
    June 4--Bosnian Parliament Staff (4).
    June 24--European Parliament (12).
    June 25--Yugoslav Member of Parliament (1).
    July 9--Croatian Political Leaders (6).
    July 9--H.E. Jerzy Buzek, Prime Minister of Poland (6).
    July 14--Kazakhstan Parliamentarians (4).
    July 17--Moldovan Parliamentarians (4).
    July 31--Multi-Regional Group (18).
    September 17--H.E. Vaclav Havel, President of the Czech Republic 
(7).
    September 15, 18--Mr. Neil Bessell, Member of Parliament, Australia 
(1).
    September 17--Members of Israeli Knesset (4).
    September 22--Korean Government Officials (15).
    September 25--His Royal Highness Prince Abdullah bin Abdulaziz Al-
Saud, Crown Prince of Saudi Arabia (12).
    October 7--Mr. Suen-ming Chiang, Ministry of Justice, Taiwan (1).
    November 4--H.E. Dr. Janez Drnovsek, Prime Minister of Slovenia 
(7).
    November 9--Guyana Member of Parliament (1).
                                 ______
                                 
                Prepared Statement of Timothy S. Wineman
    Mr. Chairman, I appreciate the opportunity to present to your 
Committee, the Budget of the United States Senate for fiscal year 2000.
    Mr. Chairman, the fiscal year 2000 budget estimates for the Senate 
have been included in the Budget of the United States Government for 
Fiscal Year 2000. This Budget has been developed in accordance with 
requests and proposals submitted by the various offices and functions 
of the Senate. The total budget estimates for the Senate are 
$565,567,000, which reflect an increase of $50,876,000, or 9.88 percent 
over the amount appropriated for fiscal year 1999 and does not reflect 
any adjustments to these estimates which may be presented to your 
Committee during these hearings. The total appropriations for the 
Senate for fiscal year 1999 are $514,691,000. An individual analysis of 
the budget estimates for all functions and offices has been included in 
the Senate Budget Book, previously provided to your Committee.
    The budget estimates for fiscal year 2000 are divided into three 
major categories as follows:

Senate Items............................................     $97,540,000
Contingent Expense Items................................     420,053,000
Joint Items of the Senate...............................      47,974,000

    Specifically, Mr. Chairman, the increase for fiscal year 2000 over 
the fiscal year 1999 enacted levels is a result of: (1) $21,601,500 
increase in administrative expenses and capital assets, primarily 
attributable to the request of the Sergeant at Arms and Doorkeeper of 
the Senate; (2) $13,434,000 increase in the budget estimate for 
Senators' Official Personnel and Office Expense Account to fully fund 
the allowances which are under-funded as a result of the consolidation 
of population categories, increases in the populations of various 
states, and the increase in the Legislative Assistance Allowance 
authorized in the Legislative Branch Appropriations Act, 1993, and the 
$50,000 per Member increase in the Administrative and Clerical 
Assistance Allowance authorized by the Legislative Branch 
Appropriations Act, 1999; (3) $11,422,000 for the anticipated 3.9 
percent cost of living increase for fiscal year 2000, and the 
annualization costs of the fiscal year 1999 cost of living adjustment; 
(4) $2,805,500 for personnel adjustments other than the cost of living, 
attributable primarily to the budget request of the Sergeant at Arms 
and the budget request of the Capitol Police; (5) $1,895,000 increase 
in agency contributions applicable to the cost of living adjustments 
and other personnel increase requests; (6) $202,000 decrease in the 
request for the Joint Committee on Printing, for which no fiscal year 
2000 request for funding was submitted; (7) $80,000 decrease in 
requests for overtime.
    Mr. Chairman, I submit for the consideration of your Committee, the 
Budget of the United States Senate for fiscal year 2000.

                         Capitol visitor center

    Senator Bennett. Thank you very much. I am going to ask you 
an unfair question, but it pops into my head listening to you. 
Do you have any idea when the visitors center might be 
completed?
    Mr. Sisco. That is a good question. I believe that the 
Architect has proposed, or is in the process of proposing to 
the House and Senate committees that he is currently reporting 
to, a schedule that would complete the visitor center by 2004.
    That would be his best case scenario, as I understand it, 
given no delays in the decisionmaking processes. I believe that 
to meet that goal he has requested a streamlined structure to 
get answers at the appropriate stages along the way of planning 
and designing and constructing it, so there will not be any 
undue delays.
    I believe he has testified before the House Appropriations 
Committee that if that is not done it could be as late as 2008, 
or 2009, for the visitor center to be completed.
    Senator Bennett. I would have to run for reelection to be 
around for that one. [Laughter.]
    Mr. Sisco. But I do think he can--if we all work together, 
if the plan that was anticipated in the 105th Congress is 
approved by the 106th, and if the Architect is given some 
streamlined decisionmaking apparatus, where he can move along 
in the decisionmaking process while at the same time the House 
and the Senate leadership and committees have oversight over 
how the project is going--then I think it can become a reality 
by 2004.

                      FMIS--Processing of vouchers

    Senator Bennett. Now, the Disbursing Office has done an 
outstanding job, in my opinion, in picking up the FMIS project 
and producing some new financial systems. This is a tremendous 
undertaking. You and your team deserve a great deal of credit 
for it.
    When you undertake a job of this magnitude you always run 
into some glitches, and the press has complained about slowness 
in paying vouchers. I want to give you the opportunity to 
respond to that and tell us where we are.
    Mr. Sisco. I will make just a brief comment, and then I 
would like Tim to address it also. There is no question that 
within the Office of the Secretary and the Disbursing Office we 
got behind in the payment of bills, especially during the 
latter part of the year when we were bringing on the new 
system.
    The people who were running the existing system were 
helping to design the future system and implement the future 
system, had the expertise to do that, and had to do that, so 
they were on overload and we did get behind, and we apologize 
to the individual offices where that occurred.
    To Tim and his team's credit, that was short-lived, and we 
are now paying our bills for the Senate Member offices and 
committees within 14 days.
    I would say this, in the spirit of making sure we all get 
bills paid on time, that we can pay them within 14 days from 
the time that they reach the Disbursing Office. We have sent 
out word to the individual offices and committees, so that 
there not be any undue delay from the time that the vendor 
sends them the bill, maybe at the State office, to the time 
that it makes it to the office up here, and then comes to the 
Disbursing Office. We have a small window of opportunity to pay 
those within, say, a 30-day cycle, so we do ask everyone's 
cooperation on that.
    Mr. Wineman. Thank you, Mr. Chairman. Yes, we did have some 
difficulties in the fall in implementing the new system. Not 
only was it a new system, warranted to be year 2000 compliant, 
and replacing a significant number of systems that were not, 
but we changed all of the accounting processes and 
classifications as we converted to the standard Government 
general ledger and the standard OMB classification expense 
categories, and moved from a cash-based accounting to an 
obligation and accrual basis.
    The training, the acceptance testing, and the tight 
schedule we were on were because we felt it extremely important 
to implement at the beginning of fiscal year 1999. We knew with 
the magnitude of implementing the new system and the other 
accounting changes that there would probably be some 
difficulties, and we wanted to address those now at the 
beginning of this fiscal year, as opposed to having them wait 
until fiscal year 2000 with a very small window.
    As a result, we did get behind. Every accounting 
transaction had to be rewritten, and with some of them there 
were difficulties that we had to work through. There were some 
significant system performance problems as we worked with the 
system longer and put more data into the system, and we did 
cause some hardship to Member staff and some vendors.
    I am pleased to say we have stabilized on the system 
performance side of the issues, and we have addressed most all 
the transaction-level accounting transactions that needed to be 
done in order for us to pay all the bills.
    As the Secretary has testified, we have been paying bills 
within 14 days of the date received in the Disbursing Office 
since the beginning of February, and the majority of those are 
even being done within 7 calendar days. This has had a positive 
ripple effect throughout the Senate offices. They are very much 
aware that their bills are getting paid in a much more timely 
fashion, and I think that to the extent that they can they are 
trying to get them in to us maybe a little bit earlier than 
they might have in the past.
    Our peak performance in our previous system was probably 3 
to 4 weeks in paying bills, and not consistent. Now we are 
consistently paying the bills within the 14 days. That has been 
our mandate and our goal to do, so I am pleased to report that.

                     Office of the Secretary budget

    Senator Bennett. Thank you very much. We appreciate the 
fact that you have only the COLA increase. Are you sure you can 
do the job with no additional funds?
    Mr. Sisco. Yes.
    Senator Bennett. I like that answer.
    Mr. Sisco. I will amplify on that if you would like. We are 
very, very comfortable that we can continue to provide services 
to the Senators and the staffs and compensate our employees 
fairly and on a merit basis for a job well done.
    Senator Bennett. Are FMIS and LIS both on budget and on 
time?
    Mr. Sisco. They both are. We have aggressive plans to 
complete them. We have about $3.4 million in unused funds that 
are available on LIS and about $1.6 million on FMIS, and so I 
am convinced, and all the people who advise me and who are 
doing this, both inside and the outside contractor, believe 
they can do it within budget, and I believe we are on time.
    We have done a tremendous amount of work in the last year, 
especially since last May or so, but throughout the 2 years 
that I have been here, I think the staff of the Secretary's 
Office, in particular the Disbursing Office with FMIS and the 
legislative staff with LIS, have done tremendous jobs with both 
of these systems that have to do with Y2K issues and the 
technology issues in the Senate.
    And I also compliment the Sergeant at Arms and the staff in 
that office for the cooperation that we are getting. We are 
really working in a partnership, and in teamwork to turn the 
lemon into lemonade by using Y2K to update from a technological 
standpoint all the systems in the Senate.
    But that is the long answer. The short answer is yes, I 
think we can do it not only from an operational standpoint, but 
also from a capital standpoint.

                     Additional committee question

    Senator Bennett. Very good. Thank you very much. We 
appreciate you being here, and we appreciate all that you do.
    Mr. Sisco. Thank you, Mr. Chairman.
    Senator Bennett. Thank you.
    [The following question was not asked at the hearing, but 
was submitted to the Office for response subsequent to the 
hearing:]

                     Additional Committee Question

    Question. The Committee commends the Office of the 
Secretary of the Senate for saving $51,230 from the 
Congressional Printing and Binding fund by making available on 
line instead of printing bills ``received'' from the House. The 
conference report accompanying the Legislative Branch Fiscal 
Year 1999 Appropriations Act requested the Secretary of the 
Senate to work with the Clerk of the House and the Public 
Printer to evaluate ways to improve the cost-effectiveness of 
printing Congressional documents and to make appropriate 
recommendations. What is the status of that effort?
    Answer. The Office of the Secretary has worked closely with 
the Clerk of the House of Representatives and the Public 
Printer to develop a Standard Generalized Markup Language 
(SGML) for the Senate and House of Representatives. SGML will 
transmit legislative documents to the Government Printing 
Office (GPO) in an electronic form ready for printing, with 
little need for manual processing. By replacing tasks that GPO 
must now perform manually, SGML will produce significant cost 
savings in congressional printing.
    The most recent report of the status of SGML within 
Congress is found in ``Document Management System Status Report 
and Plan,'' a report submitted on March 15, 1999, by the Clerk 
to the Committee on House Administration. Pursuant to the 
directive of the fiscal year 1999 Legislative Branch conferees, 
the Office of the Secretary assisted the Clerk in gathering 
information needed to prepare this report.
    In brief, SGML is a proven technology, first developed in 
the 1980's and in widespread use in government and industry 
since the early 1990's. By use of a series of electronic codes, 
SGML takes raw text--such as the text of a bill or a committee 
report--and electronically formats that text for further use, 
whether amending, publishing, distributing, or archiving. 
Almost all manual functions are eliminated.
    The SGML Coordinating Committee, which sets overall policy 
direction, consists of staff from the Offices of the Secretary 
and Clerk and the Senate Rules and Administration and House 
Administration Committees. Until the end of 1998, it was led by 
staff of the Joint Committee on Printing. The SGML Technical 
Committee reports to the Coordinating Committee and focuses on 
the technical efforts. The Technical Committee includes staff 
from the Secretary, Clerk, and GPO, as well as technical staff 
from the Senate Computer Center and their House counterparts, 
and staff of other agencies including the Library of Congress 
and the National Archives. The Office of the Secretary is 
currently recruiting an SGML professional to serve on both the 
Coordinating and Technical Committees and otherwise give 
professional direction to the SGML effort in the Senate.
    At this time, the Technical Committee is at work on 
Document Type Definitions (DTD) which are foundational to 
applying SGML to bills, resolutions, and amendments. However, 
as the first production-level SGML project, the Senate and 
House jointly have issued the Biographical Directory of the 
United States Congress: 1774 to Present. This effort, now 
available at http://bioguide.congress.gov, was selected for a 
``trial run'' because the information is structured but not 
overly complex, and because it is highly useful to members, 
staff, and the public. GPO used this SGML product to develop 
the capability to produce a typeset version of the Biographical 
Directory, and the approach taken by GPO here will enable 
typesetting of future SGML documents.
    Within the Senate, the Legislative Information System (LIS) 
is reducing and will continue to reduce printing costs. As 
Senators and staff gain greater familiarity with the 
capabilities of LIS to access and print the text of bills and 
other legislative materials from their desktop computers, 
demand for the GPO-printed versions of the materials declines. 
On-line availability of bills and reports, together with 
Docutech, which is a highly cost-effective means for the 
Document Room to print additional copies of bills and reports 
without reordering from GPO, has allowed the Office of the 
Secretary to reduce Senate printing orders significantly. 
Increasingly in the future, LIS will serve to control Senate 
printing costs through better management of printing orders, 
and reduced associated costs such as storage and distribution.
             Office of the Sergeant at Arms and Doorkeeper

STATEMENT OF JAMES W. ZIGLAR, SERGEANT AT ARMS AND 
            DOORKEEPER
ACCOMPANIED BY:
        LORETTA SYMMS, DEPUTY SERGEANT AT ARMS
        DOYLE G. FREDERICK, CHIEF OF STAFF
        CHARLES CICCOLELLA, CHIEF OF OPERATIONS
        CHRISTOPHER C. DEY, CHIEF FINANCIAL OFFICER

                          Biographical sketch

    Senator Bennett. Thank you. Our next witness is Hon. Jim 
Ziglar, Senate Sergeant at Arms. We recognize and welcome the 
Hon. James Ziglar, accompanied by Loretta Symms, who is well-
known to the committee.
    This is your first appearance officially as the Sergeant at 
Arms before the committee, and we are delighted to have you 
here. We hear good things coming out of your office, and for 
the record, your biography will be placed in the committee 
record so that we have it as a part of the institutional memory 
of the committee.
    [The information follows:]

                 Biographical Sketch of James W. Ziglar

    James W. Ziglar was elected the 35th Sergeant at Arms and 
Doorkeeper of the Senate on October 15, 1998. He serves as 
chief protocol officer and law enforcement officer of the 
United States Senate, and as principal administrative officer 
for most support services provided to Senators and their 
staffs.
    Prior to his election, Mr. Ziglar was a Managing Director 
of PaineWebber Incorporated in the firm's Municipal Securities 
Group. He was a member of the PaineWebber Operating Committee, 
the Municipal Securities Group Executive Committee and served 
as Chairman of the Municipal Securities Group Operating 
Committee. Mr. Ziglar had management responsibility for the 
National Infrastructure Finance Group and the West Coast 
General Markets Group.
    Mr. Ziglar has a total of 23 years of experience in the 
public finance industry as an investment banker and lawyer. In 
addition to his experience in the private sector, Mr. Ziglar 
has worked in various capacities in the federal government. He 
served as Assistant Secretary of the Interior for Water and 
Science (1987-1988), in which capacity he directed the 
operations of the Bureau of Reclamation, the U.S. Geological 
Survey, and the Bureau of Mines. Earlier, Mr. Ziglar served 
variously as an aide to United States Senator James O. Eastland 
(1964-1971), as a legislative and public affairs officer at the 
U.S. Department of Justice (1971-1972), and as a Law Clerk to 
U.S. Supreme Court Associate Justice Harry A. Blackmun (1972 
Term).
    Mr. Ziglar began his career as a lawyer in 1973 and joined 
the investment banking industry in 1980. During his career, Mr. 
Ziglar has worked as an associate at the New York law firm of 
Mudge Rose Guthrie Alexander & Ferdon (1973-1977), a partner at 
the Phoenix law firm of O'Connor, Cavanagh, Anderson, Westover, 
Killingsworth & Beshears (1977-1980), a Senior Vice President 
of Dillon, Read & Co. Inc. (1980-1984), a Managing Director of 
PaineWebber Incorporated (1984-1987, 1990-1998), and a Managing 
Director of Drexel Burnham Lambert Incorporated (1989).
    Mr. Ziglar received his Bachelor of Arts and his Juris 
Doctor degrees from George Washington University. He has served 
as a member of the Board of Directors of the American Water 
Foundation, the American Energy Assurance Council, the National 
Water Resources Association, the International Small Satellite 
Organization, Mercy International Health Services, InterHealth 
Incorporated, the Landon School, and the Harry A. Blackmun 
Scholarship Foundation. In the early 1990's, Mr. Ziglar served 
as a member of the Senior Advisory Group on Water Governance of 
the Advisory Committee on Intergovernmental Relations. 
Recently, Mr. Ziglar served as Chairman of the United States 
Senate Delegation to the National Summit on Retirement Savings. 
In 1988, he was the joint recipient with U.S. Senator Malcolm 
Wallop of the Water Statesman of the Year Award from the 
National Water Resources Association.
    Mr. Ziglar is a native of Pascagoula, Mississippi, and is a 
member of the bars of New York, Washington, D.C., Virginia and 
Arizona.

    Senator Bennett. The Sergeant at Arms budget request is 
$116 million, which is a 23-percent increase over fiscal year 
1999 and includes a request for 15 additional FTE's, so we look 
forward to hearing your explanation for that and justification, 
and you may proceed.

                           Summary statement

    Mr. Ziglar. Thank you, Mr. Chairman. I am pleased to be 
here in my role as Sergeant at Arms. I did have the pleasure of 
coming here as chairman of the Capitol Police Board earlier 
this month, and we appreciate your support.
    I wanted to also introduce, in addition to Loretta, three 
other people who are in the audience, Doyle Frederick, the 
chief of staff, Chris Dey, our chief financial officer, and 
Chick Ciccolella, the chief of operations who on a day-to-day 
basis makes things work.
    I have submitted my testimony for the record, but I would 
like to briefly expand and discuss some of the issues that you 
have just raised.
    First, I would like to do one thing, and that is 
acknowledge and recognize the tremendous contribution that my 
predecessor, Greg Casey, made to modernizing the Sergeant at 
Arms organizational and financial structure. He did a terrific 
job and I think he deserves a lot of gratitude for that. I must 
say he certainly made my job a lot easier. We are down the path 
on many issues that I would have had to start had he not, and 
so I just wanted to put on the record my appreciation for what 
Greg did in this job.
    Second, I want to note in the relatively brief period of 
time that I have had to observe the Sergeant at Arms 
organization, I am convinced it is a first-class professional 
organization, and I am quite proud to be part of that 
organization.
    Now, that is not to suggest that everything is perfect and 
that we do not have challenges going forward into the future. 
We do, and I have tried to define for my own agenda as Sergeant 
at Arms what those challenges are and what I would like to 
address going forward, and it really breaks down into four 
different areas.
    The first area is obviously Y2K, and that is not just 
because you happen to have a particular interest in it, but 
because I share your view that it would not look good if the 
United States Senate found itself crashed on January 1, 2000, 
when we have been preaching to the rest of the world about 
getting its act together, so it clearly is critically 
important, and the number 1 priority.
    The second priority is, I believe we need to develop and 
execute a policy and a methodology for keeping the Senate as 
up-to-date on the cutting edge of technology, and this includes 
everything from the paging system to the E-mail system to the 
document management system. We simply need to keep pace with 
the changing technological environment.
    The third challenge is to do a better job of delivering the 
services that we are supposed to deliver. I think the Sergeant 
at Arms Office does a great job of it now, but there is always 
room for improvement, whether it is the technology side, or 
whether it is delivering the mail. We need to continually work 
at improving the efficiency of the delivery of our services.
    Finally are the matters we talked about earlier in my 
appearance as Capitol Police Board chairman, and those are to 
enhance the security of the Capitol, and to deal with important 
management issues in the Capitol Police Department.
    In fact, tomorrow I will be going over to the House 
Oversight--I think it is called the House Administration 
Committee now, to testify on the Booz-Allen and Hamilton report 
that we just received. In fact, when I was here before I talked 
about our response to that report and how the input from Booz-
Allen can help define the things we can do to make the Capitol 
Police Department a better police department.
    I think I speak for the entire Sergeant at Arms 
organization when I say we are committed to making this work, 
and meeting these challenges as rapidly and as efficiently as 
we possibly can.
    I would like to--if you are agreeable to this, I would like 
to go ahead and discuss the overall fiscal year 2000 budget 
request, and then come back to Y2K at the very end.
    The budget request, as you pointed out, is $116 million, 
which is up $22 million from fiscal year 1999, and that is due 
in large part as a result of major capital items.

    ----------------------------------------------------------------

                       FISCAL YEAR 2000 BUDGET REQUEST OPERATING AND CAPITAL EXPENDITURES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                   Fiscal year--               Fiscal year 2000
                                                     ----------------------------------------   vs. fiscal year
                     Description                                                                     1999
                                                        1997      1998      1999      2000   -------------------
                                                       actuals   actuals   budget    budget    Amount    Percent
----------------------------------------------------------------------------------------------------------------
Operating and maintenance expenditures..............   $83,628   $85,923   $90,654   $94,798    $4,144       4.6
Capital and related expenditures....................    14,048    10,400     3,662    21,337    17,675     482.7
                                                     -----------------------------------------------------------
      Total.........................................    97,676    96,323    94,316   116,135    21,819      23.1
----------------------------------------------------------------------------------------------------------------

    ----------------------------------------------------------------

    I want to look at this budget, or I have tried to look at 
this budget somewhat differently, I guess, than it has been in 
the past, and put it into two components. Because of my 
business background I want to look at the O&M budget, or if you 
will, the operating budget, and then the capital budget to see 
how we are performing and where we are putting our money. Can 
we bring that chart a little closer?
    Senator Bennett. I have a copy.
    Mr. Ziglar. What we have done is, we have gone back to 1997 
and broken it into an operation and maintenance expenditures 
portion and then a capital and related expenditures portion. 
What you will see is that the capital expenditures portion up 
until, obviously, this request, has been going down rather 
dramatically.
    At the same time, our operating budget has been going up, 
but it has been going up primarily due to COLA's and merit 
increases without a lot of other additional costs.
    This year, in terms of the operating and maintenance 
budget, we are asking for a 4.6 percent increase, and let me 
tell you a little bit about what is in that; 3.4 percent of the 
4.6 percent is attributable to COLA's and merit increases, and 
part of the additional 15 people, but not the entire part.
    The other part of that 4.6--1.2 percent--is attributable to 
the commercial information services expansion and upgrade. It 
was a question in my mind as to where we wanted to put that, 
but we have treated the commercial information services project 
development as an operating expense in the past, so to remain 
consistent we put $1.1 million into the operating budget for 
the upgrade of the commercial information services.
    Let me make one other point about the operating side of the 
budget, and that is historically we have not put things like 
PC's, smaller equipment into the capital budget. They have been 
in the operating budget. If we spent $10 million, let us say, 
on PC's in a year, that would show up in the operating budget. 
So there are capital items of short-term duration, rapidly 
depreciating items that are part of the operating budget, which 
would be somewhat differently treated if you were in a business 
environment. That would have something, I am sure, to do with 
the tax implications.
    With respect to the capital component, as you will see, it 
had dropped off through 1999, but we are now proposing an 
increase of $17,675,000 in capital in order to make some big 
expenditures that we need to make on the technology side, and I 
will get into that in a few minutes.
[GRAPHIC] [TIFF OMITTED] T08MA24.001

    Let me make one other point about the budget generally. We 
have another chart here that I would like to show you, because 
I think it tells a very good story about how the Sergeant at 
Arms Office has been functioning. I wish that I could sit here 
and take credit for it, but I cannot, because I have not been 
here long enough to take credit, so I will give credit 
particularly to my predecessor.
    As you will see, the spread between revenues or 
appropriations and expenditures has been rather wide in the 
past. However, in the last few years we have gotten to the 
point where our expenditures have been approximately 98 percent 
of the appropriation. So what that tells me, is that a couple 
of things have happened.
    One, we are getting better at budgeting, and second we are 
also getting better at managing our revenues versus expenses at 
the operating level. And more importantly, what I have 
discovered is that productivity obviously has gone up in the 
Sergeant at Arms operations, because we are doing a lot more 
things with the same basic level of revenue as we have had in 
the past. Quite frankly, going into year 2000, fiscal year 
2000, what I see are a number of projects at the operating 
level, service upgrades and things like that, that we are going 
to be able to do and still maintain basically that same revenue 
line.
    So I am very pleased that we are doing so well in terms of 
running this operation. I think a lot of that credit goes to 
Chick, who has done a wonderful job since he came in as the 
operating head, and so I am encouraged about this organization 
and about its efficiency.
    Going back to the capital component of the budget, as I 
mentioned, this $17 million increase intended to provide 
upgrades to the technology infrastructure in the Senate, and it 
is driven somewhat by the year 2000 issue.
    This budget, the capital budget, helps and supports the 
information technology strategic plan that was put together in 
1997 and was started, the implementation was started in 1998, 
so this is part of trying to address the strategic plan and 
live up to it.
    Even though it is in my written text, let me run through 
for you the components of the additional $21 million that are 
over and above last year's request. $7\1/2\ million can be 
attributable directly to Y2K. Now, $3\1/2\ million of it, or 
$4\1/2\, I guess, would be specifically addressed to the non-
mission critical part of the Y2K effort, and I will show you 
where we are on that in a few minutes. That is money that will 
be spent in the latter part of the year to try to get all of 
our non-mission critical systems compliant.
    There is another $3 million there that, quite frankly, is a 
contingency, and that contingency is dedicated to the mission-
critical systems. Hopefully, we have planned it exactly right, 
and we know exactly how many dollars it is going to cost, but 
you never know when you are going to hit something that is 
going to cost you more money, and so we wanted to put a 
contingency in there.
    Chick promises me we will never have to go into the 
contingency, but I am going to ask him to come up with half of 
it if we do, but we do have a contingency there just in case on 
the mission critical systems, and hopefully we will be giving 
you that money back after we go through this process
    $3\1/2\ million is used for upgrading the data 
communications systems, or the wide area network upgrade, and 
that is a project started in 1997. It is a 5-year project, and 
it has to do with communications between member offices, both 
at the State and Washington, and committees, and it is a very 
large project but one that is moving on quite nicely.
    We then have $4.4 million for the recording studio, and 
that is broken into two components. $2.3 million of it is being 
used on the first phase of creating digital technology in the 
recording studio. Now, we need to do that for several reasons.
    Number 1, the FCC has dictated that by the year 2005 or 
2006 all broadcast will be in digital format, and so if we are 
going to continue to broadcast over C-SPAN the proceedings of 
the Senate and the committees, we are going to need to be in 
digital format, so we are going to need to start that 
migration.
    Maybe even more importantly what we have here is an 
opportunity also to be more efficient in the way that we 
archive the proceedings of the Senate. We can actually send 
this in digital format over to the Library of Congress, and to 
the Archives, and they can record it on their disks, and we 
never have to make the tapes and send them over there and store 
them.
    And the third implication for digital technology is that, 
for example, if you have a committee hearing and you want to, 
in real time, broadcast a piece of that, or use a piece of 
that, a staffer at a desk could pull that off, edit it, and 
have it rebroadcast in real time. It is an amazing technology, 
and it is something we are really being forced to go to, but it 
is something that also will increase the operational efficiency 
of the Senate.
    Just to let you know the magnitude of this project, over a 
number of years it will be, we estimate, about $30 million to 
go completely to digital, and that includes lots of peripheral 
things, not just the machines and that sort of thing.
    The second part of that $4.4 million is $2.1 million for 
robotic cameras in committee rooms. As you know, four of our 
committees already have robotic cameras that are operated from 
a central console over in the recording studio, and they are 
very unobtrusive. They are also much better for security 
purposes.
    We now have seven committees that have taken a liking to 
this, and have requested robotics, so we have put into the 
budget for this year $2.1 million that will be used to equip 
four of the committees and it is not that we are trying to 
discriminate. That is about the limit of what we can get done 
in the fiscal year, because it is not just putting the camera 
up in the corner. It is actually creating a console room or a 
console area so that it can be controlled from there.
    Those decisions are going to be made in consultation with 
you folks and with Rules. We are proposing that the committees 
with the greatest demand for the service have priority, but 
that is certainly up to you and the Rules Committee. We will do 
what you think is best.
    We also, as I mentioned, have $1.1 million for the 
commercial information service upgrade. I have addressed that.
    Another item that I do not think you would find anybody in 
the Senate that would disagree with, and that is, we have $1 
million in here for a new E-mail system. In the 4 months I have 
been around, the E-mail system has been an interesting 
challenge at times. What we are facing here is that cc:Mail, 
which is produced by Lotus, is no longer going to be supported, 
and it is no longer going to be upgraded, and so basically they 
are abandoning cc:Mail, and consequently we are going to have 
to abandon cc:Mail. So we are in the process of coming up with 
a new system that will be more efficient for the Senate.
    We also have in here $1.9 million for training, for human 
resources upgrade, and for contract management. Contract 
management is of particular interest to me, Senator, having 
come from a place where we did do a lot of out-sourcing, if you 
will. I think the Senate does not do as good a job as it should 
in overseeing the many vendors that we have here in everything 
from negotiating the contracts to managing the contracts to 
overseeing, making sure that we get deliverables from those 
contracts, and the quality that we need. I have been looking 
into that, and we want to upgrade the contract management side 
of the business. That is where some of these personnel are 
involved.
    And then finally we have $2.4 million for COLA's and merit 
increases, as I mentioned earlier.
    We recognize that this is a sizeable increase in our 
budget, but I think that you can see that these expenditures 
will, when they are made, and these systems are put into 
effect, increase the operational capabilities of the Senate. We 
sure hope you will support this budget request.
    I would like to turn to Y2K, and I know you have been 
waiting for me to get there. Let me give you my personal 
overview. I am highly confident, not just confident, I am 
highly confident that the Senate's mission-critical systems are 
going to be fully capable of dealing with the Y2K problem when 
we hit January 1, 2000, that we are going to be in good shape.
    When I first got here I got involved in looking at our 
process and where we were and that sort of thing. I had to put 
that aside in terms of the intensity of interest during the 
impeachment trial. But as soon as it was over, I got back into 
it, and I can assure you, that progress continued during the 
impeachment trial. Our folks were doing their jobs very well.
    But I got back into it as soon as impeachment was over at a 
personal level and even went to the point of personally having 
our process validated, and I will explain that to you sometime 
if you are interested. I feel very comfortable we are doing the 
right things to get there.
    Our effort, as you know, started in 1996, but we really did 
not get started in an organized way until 1998, when the 
Project Office was put together.
    Probably the two most important things that we did, it 
would appear to me: one was to bring GAO in and to adopt their 
five-phased approach to it--awareness, assessment, renovation, 
validation, and implementation--and we have been following that 
format very carefully, and GAO has been a partner in this. They 
are looking at what we are doing.
    I actually had them come in and talk to me independent of 
the folks in Postal Square, just making sure that I was 
comfortable that we were doing the right things, and that they 
were comfortable.
    The other thing that we have done that I think is very 
important is that we have hired Mitretek to be a partner to 
help us manage this process. I am--and you will find, Senator, 
I am a skeptic somewhat of outside consultants. I have never 
felt like you consistently get your money's worth from outside 
consultants, and so I will always be a little bit skeptical, 
but this is one where I feel very good about the value-added of 
having Mitretek here and am very confident that their presence 
is a very big plus for us.
    The whole Y2K thing I think has been a blessing in disguise 
for the Senate for the simple reason that it forced or allowed 
the Senate to modernize its technological infrastructure, and I 
think it has forced us to do it in a lot of ways.
    Our approach has been not dissimilar to the approach that a 
lot of Government agencies and other institutions have taken in 
terms of how we approach this issue, and that is to define the 
mission-critical systems and the non-mission-critical systems. 
With respect to the Senate, we had a three-pronged criteria 
based upon the business functions of the Senate.
[GRAPHIC] [TIFF OMITTED] T08MA24.002

    One was legislation; it is obviously the business we are 
in. We are in the business of constituent service, and we are 
required to provide financial management in order to make the 
system work. So we use that criteria to define what was 
mission-critical. Initially we came up with 19 mission-critical 
systems, and since I have gotten here, we have gone through the 
process and have added three more systems that I think probably 
needed to be on the list. We now have 22 mission critical 
systems.
    We have non-mission critical systems that we have defined, 
and there are 43 of those, and those 43 were based upon whether 
or not the Senate could continue to function if those systems 
did not function. Now, we might not function well, and it might 
not be real pleasant to function without some of this stuff if 
we went back to hand ledgers, but the fact is, the Senate could 
continue to function, and so we used that as the criteria, and 
there are 43 of those.
[GRAPHIC] [TIFF OMITTED] T08MA24.003

[GRAPHIC] [TIFF OMITTED] T08MA24.004

    Without going into all of the details of it, if you will 
look at that--and I think you have it in front of you, 
Senator--we are doing quite well on the non-mission-critical 
systems.
    In fact, while I guess there is no guarantee of this, I am 
pretty confident that come January 1, 2000, that even our non-
mission-critical systems are all going to be Y2K-compliant. 
Obviously, our emphasis is on mission-critical, but we are 
doing a lot of work and we are getting there very quickly on 
the non-mission-critical systems.
    With respect to the mission-critical systems, of the 22 
there are 8 now that are either fully tested, validated, ready 
to go, or very near that. Of the remaining 14, you have the 
chart in front of you, and as you can see, we are doing quite 
well. We have our deadlines and I think it is realistic that we 
will meet them and be there well before January 1.
    I wanted to mention a couple of the systems that are there 
because they are of special interest. I will not talk much 
about legislative information and financial management, because 
you have just spent a lot of time with Gary on those.
    We are very comfortable with the legislative information 
system status at the moment. We manage it jointly with the 
Secretary, as you know, and our side of this is the 
technological side of it. The amendment tracking system is up 
and running, the committee scheduling system is up and running, 
and the document management system is getting near to being up 
and running.
    Now, we are in the functional testing stage of the 
amendment tracking, and the committee scheduling system, and we 
will, when we hit the functional testing point on the document 
management system, then start moving into the end-to-end 
testing for Y2K of those systems. We are very comfortable that 
we are coming along very nicely on that.
    The financial management information system has already 
been implemented and, as you know, is in the testing phase now.
    The mainframe which is in front of you there, actually we 
are further along on the mainframe than the chart represents, 
because what happened was the delivery of the new computer was 
much quicker than we thought. It is actually here, it is 
actually installed, and we are actually in the functional 
testing phase, and we will be moving to the Y2K testing phase 
very shortly. I am very pleased about that, because that has 
lots of cascading effects on other things we do around here, so 
we are quite comfortable with where we are on the mainframe.
    Another thing I wanted to mention is the Capitol Police 
radio. I talked to you about that when I was here before as to 
whether or not we were going to try to do a Y2K fix on that 
console or whether we would go for a new one. After a lot of 
analysis, both financial and operational, we have decided that 
the appropriate response here is to go for a new radio console 
for a number of reasons: it was going to be a reasonably 
expensive fix; this console is way outmoded, not being produced 
any more, and has a limited time left on when we can get 
support for it; and maybe more important, it has no redundancy 
in the system, so if it goes down, it is down.
    There are lots of new modular type radio console systems 
that are out there now, and so we are in the process of putting 
together a bid package to find out which one we want to buy and 
which is the most efficient to use.
    The Senate paging system is something that I put down here. 
Maybe in the big scheme of things it may not be all that 
interesting to anybody, but I find it interesting that we have 
a paging system around here that does not work beyond 30 miles 
from here, and considering the fact that you can take a pager 
and go anywhere in the world now and receive a message, it 
seems to me that we are way behind the technological curve 
there.
    We are in a bit of a dilemma. We have to make sure that we 
are Y2K-compliant on the current system, but we want to move to 
a new system, and so we are trying to fix the Y2K problem 
because we cannot get completely to a new system by January 1, 
2000, but in doing that we are strategizing our movement to a 
new pager system, and I think that is really important. I mean, 
it is great to be able to get a page in the Capitol Building, 
but if you cannot get a page in Utah or Mississippi, what good 
is it, and so we are really going to----
    Senator Bennett. I like it. [Laughter.]
    If I get more than 30 miles away from here, they leave me 
alone. [Laughter.]
    Mr. Ziglar. Well, in that case, Senator, we are not going 
to give you a pager. [Laughter.]
    Let me conclude about Y2K by saying it is probably 
unrealistic to expect all of our systems to work, particularly 
the non-mission-critical systems, but I have to tell you that I 
do expect them to work come January 1, 2000, and I think we are 
going to get there. Hopefully, my optimism will be rewarded, 
but I do think we will get there. We obviously are focusing on 
mission-critical systems. We have to, and they will be there, 
and we are confident we are going to be able to conduct 
business on January 1, 2000.
    I would like to end my comments by making the point that 
the fiscal year 2000 budget request in my view is an investment 
in the future. The Senate is going to be well-served by 
improving its systems and managing the new technologies of the 
21st Century, rather than being a victim of those technologies, 
or being at their mercy.

                           prepared statement

    At the Sergeant at Arms Office it is our goal to provide 
the best service and the best technology available for the 
system while protecting the hard-earned dollars of our 
taxpayers. Mr. Chairman, I appreciate this opportunity, and I 
am anxious to answer your questions.
    [The statement follows:]
                 Prepared Statement of James W. Ziglar
    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to appear before you today to present the fiscal year 2000 
funding request for the Office of the Sergeant at Arms and Doorkeeper. 
I am accompanied by: Loretta Symms, Deputy Sergeant at Arms; Doyle G. 
Frederick, Chief of Staff; Charles ``Chick'' Ciccolella, Chief of 
Operations; and Christopher C. Dey, Chief Financial Officer.
    Before I begin my testimony today, I want to publicly thank my 
predecessor, Greg Casey, for a job well-done. During his two-year 
tenure, Greg engineered and executed a successful overhaul of the 
administrative and operating structure of the Sergeant at Arms 
organization. It was an overhaul that was much-needed and the Senate, 
in my opinion, owes him a debt of gratitude. He certainly made my job 
easier.
    Since assuming the duties of Sergeant at Arms in November 1998, I 
have been on a steep learning curve. The impeachment trial provided me 
with an opportunity to witness how the Sergeant at Arms organization 
functions under the most trying of circumstances. What I learned from 
this experience is that the Senate is blessed to have so many 
experienced, loyal, competent and professional employees. The Sergeant 
at Arms operation is a first-class professional organization.
    Although there are many significant challenges facing us in such 
areas as delivery of services, technology upgrades, the potential Y2K 
problem, enhancing Capitol Complex security and strengthening the 
management structure of the Police Department, much progress has been 
made in addressing those challenges.
    My predecessor testified before this Committee on March 12, 1998 
with respect to the fiscal year 1999 budget and the initiatives he was 
then undertaking. Much has occurred since that testimony. Among others: 
there are eight new members of the Senate; we experienced the tragic 
loss of two Police officers; we have replaced or made Y2K compliant 
over 3,000 personal computers; we have upgraded nine major systems 
(Amendment Tracking System, Committee Scheduling System, Republican 
Vote Tally System, Senate Payroll System, Telecommunication Switches, 
Local Telephone Service, Frame Relay Data Network System, Senate Fiber 
Network, and the Senate's Secure Telephones) to enable Y2K compliancy 
(some are still being tested and validated); we have brought online the 
new FMIS system; we have substantially completed the reorganization 
initiated by Mr. Casey; and, of course, we provided support for the 
historic impeachment trial.
    As we go forward, we are focused on the major technology concerns 
of the Senate: the Y2K problem, about which much more will be provided 
shortly; e-mail capability; member office mail systems; and continuing 
development of the Legislative Information System, including the 
Document Management component of LIS, and the Financial Management 
Information System. Also, as you know, we have begun a program to 
replace and make entirely Y2K compliant all the personal computers of 
members of the class of 2001, leadership offices and committees. We 
will provide regular reports to the Committee on the progress of that 
program and related funding requirements.
    On a matter that I know to be of interest to members and staff of 
the Committee, I am pleased to report that the legislation implementing 
the new hair care revolving fund and the requirement that we move to 
significantly reduce operating losses has experienced some success. In 
1997, the operating loss was $350,000; in 1998, the loss was $275,000; 
and in 1999, we project the loss to be in the $150,000 to $200,000 
range. We have put in place significant price increases and have 
adopted a commission-based compensation plan and reduced staffing 
levels. However, we face additional challenges with respect to this 
issue because of the difficulty in reducing the loss further without 
significantly reducing the level of compensation and benefits of the 
employees of the facility. As you know, we worked with the Rules 
Committee to develop a plan that would allow the employees to remain 
eligible for their federal benefits and to retain as much of their 
compensation as possible. While that has been achieved, profitability 
has not. Additionally, we recognize that there remain continuing 
concerns about the appropriate level of salary compensation of the 
staff in the Hair Care facility. We will continue to work with this 
Committee and with the Rules Committee to resolve this matter.
    Our commitment to satisfy the many service needs of the Senate is 
based upon the premise of constant and effective communication with 
those who rely on us for a panoply of services. As you know, we 
established the Office of Customer Relations last year to ensure that 
our Senate customers participate with us as partners in satisfying 
their technology and other service requirements. The Office of Customer 
Relations now is fully staffed and functioning and has been one of the 
real success stories of the reorganization implemented by my 
predecessor.
    As mentioned above, the reorganization of our operations largely 
has been completed. We will continue to monitor the effectiveness of 
the new organizational structure and changes will be made as necessary 
to better deliver services to our Senate customers. I want to assure 
you that we remain committed to the goal of providing the highest 
quality of service to the Senate consistent with protecting the hard-
earned dollars of the American taxpayer.
                    fiscal year 2000 budget request
    Mr. Chairman, it is my intention to devote a substantial portion of 
my testimony to Y2K and related technology issues and initiatives. 
However, I would first like to provide you with an explanation of our 
funding request and conclude my testimony with an extended discussion, 
as outlined above. This request addresses important near term issues 
and funds needed for future technology investments.
    Our Budget Request for fiscal year 2000 is $116 million, which is 
an increase of approximately $22 million from the current fiscal year. 
To put this budget request in some perspective, it is helpful to 
analyze it in two parts. The first part would be categorized as the SAA 
baseline operating budget, i.e., how does this budget compare with 
prior year budgets after excluding major capital items or one-time 
projects or expenditures? The second part would encompass those items 
that reflect non-recurring major capital and related expenditures.
    It should be noted that in three of the four preceding years, our 
appropriation has been less than in the preceding year. In fact, since 
1991, our budget has remained flat or has decreased in all but one 
year. The last appropriation of this size was in 1992 when the budget 
was $120 million.
    In the most recent two fiscal years, our obligations and 
expenditures exceeded 98 percent of our appropriation. We are consuming 
nearly all of our annual funding and are maintaining a larger and more 
complex array of services, interconnecting systems and technologies. 
What this indicates to me is that we are doing a better job of 
budgeting and that we are increasing productivity--we are doing more 
with the same level of resources. To illustrate my point, although our 
aggregate operating and maintenance budget request has been increased 
by 4.6 percent or $4 million over fiscal year 1999, that increase is 
reflected primarily in adjustments for COLA's and merit increases. Yet, 
if you examine the increased work load of fiscal year 1999 over fiscal 
year 1998 and you factor in our expectations that the workload will 
increase yet again as much in fiscal year 2000, the productivity gains 
are substantial. To give you an example of increased workloads, we have 
documented the following: through use of robotic cameras in committee 
hearing rooms, we have covered 12 percent more hearings; we also 
processed 30 percent more mail with fewer staff; introduced video 
streaming services over the wide area network to state offices; and 
expanded our commercial information service program.
    The second part of our fiscal year 2000 Budget Request could be 
characterized as the capital budget component. The current level of 
funding for the Sergeant at Arms operation does not provide for the 
significant capital investments required for the future. We are 
requesting an increase of $18 million for capital investments, to take 
a necessary and substantial step toward building the kind of technology 
infrastructure necessary to meet the challenges of the 21st century. 
This requested increase is driven by the expected costs of completing 
our Y2K compliance project and by the need to fund improved and 
expanded technologies in support of member offices and committees.
    To successfully meet future needs, we must think in terms of multi-
year time horizons from concept to full-scale implementation. This 
budget request recognizes both the increased demand for technological 
solutions to Senate office work problems and the requirement to plan in 
advance for the integration of new technology. We must begin the 
funding and development process now in order to insure that Senate 
needs in 2001, 2002 and beyond are met.
    This budget request fully supports the elements of the Information 
Technology Strategic Plan. The objectives of the plan are: Provide 
integrated information systems; provide our customers with responsive 
information technology and customer support; provide an information 
technology environment that protects sensitive information and supports 
data integrity; leverage emerging technologies; and use best 
information technology management practices.
    In summary form, the requested increase consists of the following:

                                                             In millions

Funding for Y2K solutions for non-mission critical systems as well 
    as a contingency to handle any problems that might occur with 
    the mission-critical systems..................................  $7.5
Funding for upgraded data communications capability for member 
    state offices (WAN upgrade)...................................   3.5
Funding for digital technology for the Senate Recording Studio....   2.3
Funding for installation of robotic cameras in committee rooms and 
    associated control rooms......................................   2.1
Funding for continued support of the recently upgraded commercial 
    information and newswire services.............................   1.1
Funding for a new e-mail system and related products..............   1.0
Funding for annual COLA and merit increases.......................   2.4
Other (training, human resources and contract management).........   1.9
                                                                  ______
      TOTAL.......................................................  21.8

    We do not minimize the size of the requested increase. As can be 
seen above, about one-third of the increase relates to the Y2K problem. 
We believe that the Senate is well prepared for Year 2000. However, no 
one can assure us that some still unforeseen problems will not occur. 
Therefore, we must be prepared to make immediate repairs or replace 
systems which fail. We have included $7.5 million in the fiscal year 
2000 budget request for contingency funding for mission critical 
systems ($3 million); for funding for the completion of the remediation 
of non-mission critical systems ($3.5 million); and funding for 
technical support for these continuing renovations ($1 million).
    The Recording Studio has developed plans to convert all operations 
to digital technology in order to upgrade the quality of our 
production, to more efficiently provide for the archiving and storage 
of recordings of Senate proceedings. This initiative is expected to be 
expensive in terms of the initial equipment and installation costs and 
will be funded over several years. The initial funding requested in the 
amount of $2.3 million will enable the studio to begin studying, 
acquiring and testing the new technology. A major benefit of this 
advanced technology is that it will allow immediate access to video 
recording of floor proceedings which will enable staff to view and edit 
videos from their offices almost instantaneously. Digital technology 
offers faster access to archived video; greater clarity and resolution; 
a more efficient transfer mode to the Library of Congress and the 
National Archives; and reduced physical storage requirements.
    The Recording Studio plans to continue its placement of robotic 
cameras in committee hearing rooms. We currently have requests from 
seven committees for robotic camera coverage. We have included funding 
of $2.1 million to equip four committee and control rooms in our 
request based on the limits of our ability to provide for the 
installation and testing of these systems during fiscal year 2000.
    The Wide Area Network (WAN) Upgrade Project is an integral phase of 
the Senate's overall five-year network upgrade plan which began in 
1997. This upgrade will enable member state offices to efficiently 
conduct Senate business by maximizing the use of emerging and rapidly 
growing technologies. The WAN upgrade will enable member state offices 
to have improved WAN service capacity, capability and quality of 
service. The goal is to enable the convergence of secured data, voice 
and video communication services to state offices in order to leverage 
technologies such as video streaming and multimedia. Our current wide 
area network infrastructure is severely taxed in many state sites, and 
with the expanding deployment of Web based and Web enabled 
applications, we anticipate a corresponding explosion in network 
capacity demands now and into the future. The Senate's five year data 
network implementation plan was validated by an independent data 
network research consulting firm in 1998. This group confirmed the 
soundness of the strategy of using proven technology while protecting 
the Senate's current investments. The firm also verified that the 
proposed data network architecture is sufficiently robust, flexible and 
adaptable for rapid growth as we continue to introduce new technologies 
to our base services.
    During this fiscal year SAA engineers are engaged in feasibility 
studies, research, proofs of concept, design and planning activities 
associated with preparing for implementation of the WAN upgrade during 
fiscal year 2000. Preparatory network engineering to be completed 
during fiscal year 1999 includes: Identifying State Office WAN 
applications, performance requirements and workload categorizing; 
matching the appropriate WAN technology and services; Data Network 
Infrastructure Engineering and Cost Study; and Equipment and Service 
Vendor Procurement and Selection.
    Current planning incorporates a combination of frame relay and 
Internet secured virtual private networks as key underpinnings to the 
WAN infrastructure. Inclusion of ``last mile connectivity'' 
technologies such as DSL/Cable Modem will readily enable high bandwidth 
multi-media services for the state offices.
    We have included $3.5 million in the budget request for fiscal year 
2000 for this initiative. About $2 million in costs are for the 
purchase of higher capacity communications equipment and $1.5 million 
is for recurring usage charges.
    During the past year, the Rules Committee requested that we expand 
the on-line commercial information services provided to Senate offices 
to obtain a broader base of ``newswire'' information on a real time 
basis, to allow more choice in the news service offerings, and to 
acquire legislative information not available from LIS. The expansion 
of these services adds about $1.1 million to our annual operating 
costs.
    We are also seeking funding to replace our existing e-mail 
software. The maker of our current e-mail software has announced that 
it will not develop its product beyond the current design. We have 
begun a planning program to develop our e-mail functional and technical 
requirements and will soon be in position to select a replacement 
product capable of meeting our future needs. This adds about $1 million 
to our budget request.
    We have included $2.4 million within our salary accounts for the 
annual COLA and periodic merit increases. You may recall that last year 
we had all Sergeant at Arms jobs evaluated and classified into a 
unified structure. Formal salary ranges were established. Where 
necessary, we moved staff to the minimum of the new pay scales. We 
expect that this classification structure with formal salary ranges 
will help retain our qualified professionals. This funding request 
allows us to attract and retain the high quality skilled workforce 
needed to maintain current service levels and to implement the 
significant programs described above.
    Lastly, we have included funding to expand our professional 
management training program, to better support our human resources 
program and to greatly improve our contract management capabilities.
                               y2k update
    I now would like to update this Committee on our efforts to ensure 
that the Senate's mission critical systems are capable of operating in 
the Year 2000. At our hearing last year, we set forth the principles of 
our work to ensure operating capability in the Year 2000. Conceptually, 
these principles address problem awareness, system assessment and 
system renovation, validation and implementation. Today, I would like 
to focus on the current status of our work.
    The Year 2000 compliance project is perhaps the most important and 
pervasive information technology project ever undertaken by the Senate. 
The issue facing us is not the complexity of the Y2K technology 
solutions. Indeed, the solutions are often the least of the problem. 
Rather, it is the daunting task of assessing each of the Senate's key 
business functions, determining where we are at risk, and then 
determining what it takes to implement and validate solutions. This 
task is made more complex by having to balance our resources to ensure 
that all this work will be accomplished in time without causing undue 
disruption to the daily business of the Senate. Simply stated, the real 
difficulty lies in the size and scope of the overall Year 2000 effort 
itself.
    Efforts to address the Year 2000 issue were initiated within the 
Sergeant at Arms organization in 1996. However, it was not until the 
formal establishment of the Year 2000 Compliance Project Office in 
January, 1998 that a comprehensive approach was put into place 
specifically to guide Year 2000 related projects and monitor their 
progress. Our Year 2000 Compliance Project Office has assisted in 
defining the Senate's overall direction in terms of program guidelines, 
operating principles, budgeting and reporting. The nature of the Senate 
environment, however, requires a highly decentralized execution in 
terms of assessing, renovating, testing, validating, and implementing 
Year 2000 compliant systems. To assist with the total project, a Year 
2000 Master Plan was developed and has enabled us to intensively manage 
our compliance objectives and assign accountability.
    One of the first steps taken by the project office was the adoption 
of the General Accounting Office's 5-phase approach to Year 2000 
project management. As this process was being implemented, we also 
requested that the General Accounting Office appoint advisors with whom 
we could consult as necessary. I am happy to report that our GAO 
advisors are key partners in our success on Year 2000 projects. Using 
their analytical skills and consulting advice, as well as those of an 
independent on-site contractor, we have been able to augment Sergeant 
at Arms resources, determine the specific risks and vulnerabilities for 
our supported systems, and work to mitigate those risks.
    How were we able to get to this point? We looked at each 
information technology system in use by the Senate, determined whether 
it was mission-critical, and assigned resources where necessary to 
develop plans designed to bring it into compliance. From assessment 
through renovation, validation and implementation, we required each 
system program manager to provide project plans, schedules and 
milestones. We set up a system to monitor and report progress 
centrally. As time went on, it became clear that additional information 
was required and we instituted a rotating schedule of monthly briefings 
on each of the mission-critical projects. Because knowledge and 
cooperation are keys to success in this endeavor, we have opened these 
meetings not only to Sergeant at Arms employees, but also to the GAO 
and the Secretary of the Senate. This exchange has paved the way to an 
open, cooperative forum in which disparate groups function in a fully 
participative and cohesive manner.
    Finally, I would add that throughout our Y2K efforts, we have used 
this enormous challenge to make significant progress in the improvement 
of the Senate's information technology infrastructure. As you will see 
from the discussion of our mission critical systems, we have been able 
to bring the Senate forward in terms of modernizing our computer 
operations from the mainframe enterprise applications to the individual 
desktop work stations.
    What are our mission-critical systems? How were they determined? 
Why did we designate these 22 systems and how do they impact Senate 
offices? The Year 2000 issue is really a business problem more than a 
technology problem. Therefore, we first defined the primary business 
functions of the Senate. Then we identified the information technology 
systems required to support those functions. The top three functions of 
the United States Senate were defined as: (1) the creation of 
legislation, (2) financial management, including payroll, procurement, 
and accounting functions, and (3) constituent services.
    In addition to these three functions, we designated 
telecommunication services, including both our voice and data networks, 
as also mission-critical. In fact, of the 22 mission-critical systems, 
nine are specifically related to the transmission of data between 
offices both in Washington, D.C. and in members' home states.
    We also designated desktop computers, including both hardware and 
software, as mission-critical. These systems support the day-to-day 
operations of member and committee offices. The remainder of the 
mission-critical systems are those which specifically support the key 
business of the Senate, that is, the legislative, financial management 
and constituent services functions. Thus, the Senate's mainframe 
computer, which runs important Senate and Capitol Police applications, 
is mission-critical. Similarly, the Correspondence Management Systems 
and the local area networks in every office, are mission-critical. We 
also designated electronic mail as a mission- critical system.
    Not every system in use by the Senate made the mission-critical 
list. In fact, only 22 of 65 systems were so designated. This is 
because the determination of mission-criticality was made after we 
asked the question, ``Could the Senate continue to function if a 
particular system was not available to users after the century 
changed?'' Often, the answer was `yes' even if it meant that a ``work-
around'' solution would need to be developed. As an example, could the 
Senate function without an automated human resource system to track 
applicants and jobs? The answer was yes. Would it be inconvenient? Yes, 
it would, but these tasks could be completed manually until the system 
was remediated.
    Now, what is the status of our mission-critical systems? Of the 22, 
three are considered fully renovated, tested and implemented. These are 
our telephone switches, Frame Relay system and local phone service. A 
fourth, our long distance service, is awaiting certification pending 
release of test results from a major telecommunications firm and a 
fifth, the secure telephones in many Senate offices and several 
Committees, have been certified by the National Security Agency and we 
are awaiting their certification by GAO. A sixth system, the Senate's 
Fiber Network, requires only upgrades of the routers in the states and 
that is scheduled for completion in April.
    Two additional systems have been renovated and are completing their 
Y2K testing now. These are the Senate's Payroll System and our 
mainframe computer on which it operates. These systems are far along 
and we do not anticipate any setbacks. In fact, Senate staff can rest 
assured that their paychecks will continue to be issued. Thus, of our 
22 mission-critical systems, we can confirm that eight are completed or 
nearly finished and will work in a Year 2000 environment.
    The Senate's Legislative Information System, or LIS, and Financial 
Management Information System, or FMIS--two initiatives managed by the 
Secretary of the Senate, and for which we provide significant support--
are currently being implemented and tested at the same time. Underlying 
the new LIS are two feeder systems for which the Sergeant at Arms has 
responsibility. These are the Amendment Tracking System and the 
Committee Scheduling System. The Amendment Tracking System is already 
up and running and the Committee Scheduling System is fully developed 
and will be Y2K tested with LIS.
    Correspondence Management Systems, which are heavily used in Member 
offices, are also under intense scrutiny. Each of our vendors has been 
tasked to provide documentation on their Year 2000 compliance status 
and the test plans and test results from their own internal Year 2000 
efforts. In addition, we set up a separate laboratory at Postal Square 
for Sergeant at Arms technical staff to validate and confirm the 
vendors' test results.
    With regard to the computer equipment in Senate offices, 32 
percent, or close to 3,000 personal computers, have been installed and 
certified as Year 2000 compliant. An additional effort is underway now 
to inventory, test and remediate all upgradable older PC's to Year 2000 
compliance. Another initiative, a Special Year 2000 workstation and 
server replacement project for selected offices, has been approved by 
this Committee, and is underway.
    As a note of interest, renovating computer hardware is relatively 
simple--you either upgrade this equipment or you replace it. The more 
difficult challenge is the application software loaded on a workstation 
and whether it has been modified or customized. Vendors can certify 
software as Year 2000 compliant based on their internal tests. However, 
many offices may use that software in such a way as to render it non-
compliant based on a calculation they may have entered or by changing 
the manufacturer's intent of use. We are conducting a comprehensive 
inventory in all Senate offices to give us a better idea of the risks 
we may face with this type of installed software.
    The fifteenth and sixteenth mission-critical systems actually 
include two similar systems which are the Vote Tally Systems for the 
Republican and Democratic Policy Committees. These are new products 
which have been developed and are being implemented and tested now. By 
the way, these RPC and DPC systems are a logical back up, or 
contingency plan, for the Senate's Legislative Information System.
    The last six systems are the Radio System in use by the Capitol 
Police, the Senate Paging System, the Group Alert, the Senate's 
Electronic Mail, and two important systems in use by the Senate 
Recording Studio. The Capitol Police will receive a new Year 2000 
compliant radio system which we expect to be installed and operational 
by the end of July. The current radio system is at the end of its 
operational life and cannot be made Year 2000 compliant. The Senate's 
Paging System is in Y2K testing now. We plan to replace components 
which are not compliant and operate with the same system after December 
31st. Additionally, we will take this opportunity to begin to plan for 
a complete replacement of the paging system to meet future anticipated 
needs. The Group Alert system, which supports both the Cloakrooms, is 
being renovated during the next Senate recess. We expect to complete 
this effort next month. The next mission-critical system, the Senate's 
E-mail, is actually a number of components which must all be made Year 
2000 compliant. Then, each component must be tested and the system as a 
whole must be tested. The major component of this system is the office 
mail system or ``cc:Mail'' which is currently being upgraded to the 
Year 2000 compliant version in all offices. The last two systems belong 
to our Recording Studio. These are the ``Flexicart'' system which 
enables us to record video tapes in a computerized manner, and the 
Senate Floor Audio System which provides audio to the TV/Radio rooms 
and the Galleries. Both systems are under contract with the vendors for 
Y2K testing. We will validate and certify the test results ourselves.
    We also oversee a continuous and comprehensive Year 2000 awareness 
effort to keep Senate staff informed. To assist Senate offices with 
their own internal Year 2000 plans, a Senate-only Year 2000 web site 
has been created. This site contains information on such items as how 
to test a PC for Year 2000 compliancy, which non-compliant PC's can be 
upgraded to compliancy, and how to do the upgrade. The Web Site also 
contains a software database with information on the compliance of 
software packages used on a regular basis within the Senate. In 
addition, a business continuity plan template was recently added to 
allow Senate offices to develop a plan for continuity of operations 
specific to their own environment.
    In addition to the systems under the specific responsibility of the 
Sergeant at Arms office, our interaction and interface with other 
Capitol Hill offices and other federal agencies also are being 
investigated. We have conducted Year 2000 Vulnerability assessments for 
the Secretary of the Senate, the United States Capitol Police, and this 
Committee. We have ongoing assessments in both the Architect of the 
Capitol and the Government Printing Office. We are conducting these 
assessments to highlight risks from the Sergeant at Arms point of view 
as opposed to compliancy reports on any of these entities.
    These assessments have been invaluable. For example, the formal 
assessment of the United States Capitol Police was completed in 
September. The summary briefing provided several recommendations for 
further USCP actions to minimize the risk of Year 2000 failures and to 
prepare for recovery from failures should any occur.
    As of today, the Capitol Police are reporting ten of their 19 
mission-critical systems as renovated, validated and implemented. These 
include their local area network, application servers, file servers, 
database servers, workstations, off site delivery application, reports 
processing application, physical security systems such as the Metorex 
200 metal detectors and PDS LAN, and the Intoxilyzer 5000. Other 
systems still under renovation include outside agency applications such 
as the National Finance Center and CJIS/WALES/NCIC; the SafeNet System 
Software for physical security, and applications which reside on the 
Sergeant at Arms mainframe. These cannot be tested until our new 
mainframe upgrade is installed. Additionally, there are the police 
communications systems which include radios, the central dispatch 
console, and alarm and video monitoring systems. The Capitol Police 
have made great strides towards completing their compliancy efforts.
    The issue we are most concerned with is the replacement of the 
Capitol Police radio dispatch console, which is being planned now. We 
intend to ensure that the Capitol Police will continue to be able to 
communicate and dispatch officers on a Year 2000 compliant console and 
provide the life-safety protection for which they are responsible.
    We are also concerned about the Senate's paging system, also 
provided by the same vendor. We are involved in intensive negotiations 
with the vendor to provide the Senate with current and accurate 
documentation on this system.
    I would like to say that every system used in the Senate will work 
and work well in the Year 2000. However, that is unrealistic. Given the 
time frame and the number of systems and variables we face, it was 
prudent to concentrate efforts on those areas deemed most critical to 
the Senate and that, in fact, is the hard decision that was made. I am 
confident, however, in my ability to say that the Senate will be able 
to conduct its business when the clock rolls over to January 1, 2000. 
This will require a continuous and concerted effort on our part and 
will require cooperation from the entire Senate, not just Sergeant at 
Arms employees. The effect of these combined efforts will indeed enable 
the United States Senate to weather the approaching Year 2000 computing 
crisis.
    Mr. Chairman, that concludes my formal testimony. I want to express 
my thanks to the Committee for its continuing support of the Sergeant 
at Arms and I stand ready to respond to any questions you may have.

                               Y2K issues

    Senator Bennett. Thank you very much. We appreciate the 
comprehensive analysis of where you are. You have obviously 
gotten a good start and taken hold of an office that is very 
important to all of us.
    I am a little concerned about the late date on some of 
these Y2K issues. The reason that I will accept your assurance 
that it is all going to work is that in the greater scheme of 
things you are a relatively small operation. If I were getting 
these kinds of dates out of the Defense Department or the IRS 
or some of the others I would be very nervous.
    The General Accounting Office has begun a program of 
leasing their computers. This is a capital budget. Do you want 
to talk about the possibility of leasing for the Senate offices 
rather than purchasing?
    Mr. Ziglar. It is interesting that you raise that question. 
I have not yet raised the specter of that at the Senate office 
level, and as you know, the obsolescence factor of computers 
makes leasing a fairly expensive proposition. I have been, 
however, looking at that issue in the context of the Capitol 
Police and some of their vehicles and equipment that have a 
fairly lengthy lifespan. I have an interest in leasing, and as 
you know, in the right format it can be a very cost-efficient 
way of going, particularly if the person providing the vehicle 
has a tax incentive to do it.
    So the answer is, I have not looked at that in the context 
of the computers and equipment in the Senate offices, but it is 
something I have an interest in and am looking at in the 
context of the police.
    Senator Bennett. I do not know if you are a devotee of C. 
Northcote Parkinson, the author of Parkinson's Law, but one of 
the statements that he makes is that the amount of time spent 
discussing a budgetary issue is in inverse proportion to the 
size of the budget. In other words, the typical business group 
will approve a $43 million nuclear reactor in 17 seconds flat, 
or something, because no one understands it, but they will 
spend 5 hours debating the coffee pot in the day room because 
everybody has an opinion on that.

                               Barbershop

    At the risk of getting into that kind of thing, and where 
we spend an inordinate amount of time talking about something 
that is very low-level expenditure, do you want to talk about 
salaries for the barbershop? [Laughter.]
    Mr. Ziglar. I am very happy you asked that question, 
because the amount of time that we spend on the barbershop, the 
hair care services issue, is out of proportion to the 
expenditure. That is a perfectly good example, I must say.
    We have been attempting to reach parity, if you will, where 
the barbershop shop is not losing money and it is carrying its 
own weight. The hair care services, I am sorry. I come from 
where a barbershop is a barbershop.
    Senator Bennett. I am sorry I led you down that road with 
my question.
    Mr. Ziglar. As you know, we have put it on a commission 
structure. We have changed the level of compensation for the 
barbers in connection with the commission structure. There is 
still a lot of unhappiness there about salary levels, at least 
among some of those barbers there, and we are attempting to 
address it.
    There are a variety of, two or three different ways of 
going about this that we are discussing with your staff and 
with the Rules Committee. In the final analysis, Senator, it is 
probably not the most popular thing to say, but my view is this 
thing ought to be privatized.
    It ought not to be a Senate function, but that is just my 
own personal view of it, and I think they have done that over 
in the House, as I understand it. I think it is working over 
there, and I would in the long term like for us to be able to 
try to consider the option of privatizing. In the short-term 
however, in order to maintain civility, we are looking at 
several options in terms of making adjustments so that people 
who have been here for a long time are not suffering in their 
income as a result of our making changes in the system.
    So I think there is some equity, some fairness we need to 
bring to the process, but in the long term I am not sure that 
this is a function that the Senate ought to be in, but that is 
just my personal view, Senator.
    Senator Bennett. I will not add to the amount of time spent 
discussing this issue, other than to comment, if you want to 
talk about fairness, I do not understand why I have to pay the 
same price that the Majority Leader has to pay. [Laughter.]
    Mr. Ziglar. I am not responding to that one, Senator. 
[Laughter.]
    Senator Bennett. Thank you very much. We appreciate all you 
do, and appreciate your staff, and we will pay close attention 
to the request you made. I think this is a responsible budget 
request, and we will try to respond to it in a responsible way.
    Mr. Ziglar. Thank you very much, Mr. Chairman. We 
appreciate it.
                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DAN L. CRIPPEN, DIRECTOR
ACCOMPANIED BY:
        BARRY B. ANDERSON, DEPUTY DIRECTOR
        POLLY E. HODGES, BUDGET AND FINANCE OFFICER

                         biographical sketches

    Senator Bennett. Our third witness is Mr. Dan Crippen, the 
Director of the Congressional Budget Office. Good morning, sir, 
and he is joined by Barry Anderson, the new Deputy Director of 
CBO, and Polly Hodges, the Budget and Financial Officer.
    As the Sergeant at Arms leaves he seems to be taking all of 
the crowd with him.
    Mr. Crippen, we welcome you to the committee. I understand 
you assumed your position on February 4, and so this is your 
first appearance before the committee. We will submit for the 
record and institutional memory of the committee a copy of your 
biography as well as Mr. Anderson's biography, and we welcome 
you to this most demanding and essential kind of service upon 
which the Congress depends so heavily.
    [The information follows:]

                 Biographical Sketch of Dan L. Crippen

    Dan L. Crippen is the fifth director of the Congressional 
Budget Office. Mr. Crippen, who was appointed in February 1999, 
has served in senior positions in the White House and the U.S. 
Senate and is a specialist in issues relating to the federal 
budget, health care, retirement, trade, and telecommunications.
    From 1987 to 1989, he served as the President's adviser on 
all issues relating to domestic policy, including the 
preparation and presentation of the federal budget. In the 
Senate, he served as chief counsel and economic policy adviser 
to the Senate Majority Leader from 1981 to 1985, working on 
major tax and budget bills as well as other legislation.
    Mr. Crippen also has substantial experience in the private 
sector. Before joining CBO, he was a principal with Washington 
Counsel, a consulting firm. He has also served as executive 
director of the Merrill Lynch International Advisory Council 
and as senior vice president of the Duberstein Group. Mr. 
Crippen has a Ph.D. in public finance.
                                ------                                


                Biographical Sketch of Barry B. Anderson

    Barry B. Anderson has had a lengthy career in the federal 
government. From 1988 to 1998, he was the senior career 
official at the Office of Management and Budget, where he 
directed the analysis behind and the production of the 
President's budget proposals. From 1980 to 1988, he held 
various management and analytic positions at OMB, and from 1972 
to 1980, he was an economist with the General Accounting 
Office.
    Before his appointment as Deputy Director of CBO in 
February 1999, he was a vice president with the Jefferson 
Consulting Group. Mr. Anderson has a B.S. from the University 
of Illinois, an M.B.A. from the University of Washington at 
Seattle, and has done postgraduate work in econometrics at 
George Washington University.

    Senator Bennett. CBO has requested $26.8 million for fiscal 
2000, which is a 4.5 percent increase over the 1999 level, 
which I assume we will be told is once again with the COLA's.
    I will ask you the question that I do not ask anybody else, 
why the COLA is 4.5 percent when inflation in fact is at zero, 
effectively, but that seems to be the way the Federal 
Government works.
    We welcome you here. We are delighted to have you, and look 
forward to your testimony.
    Mr. Crippen. Mr. Chairman, I hope I will be pleasantly 
brief. I would like to introduce, as you already recognized, my 
Deputy, Barry Anderson, and for the record want you to know 
that Barry retired about this time a year ago from the Office 
of Management and Budget after 18 years of service in the 
executive branch. Before that, he worked at the General 
Accounting Office. Frankly, if he had declined my invitation to 
join me, I do not know whether I would have taken this job. He 
is a very valuable resource and is very knowledgeable about how 
these things work.
    With your permission, sir, I will submit my prepared 
remarks for the record and just spend a couple of minutes 
summarizing.

                        Fiscal year 2000 request

    As you said, for fiscal year 2000 we are requesting 
$26,821,000--an increase of 4.5 percent over our fiscal year 
1999 appropriation. That request funds our current staff 
ceiling of 232 full-time-equivalent (FTE) positions. We are not 
asking for any additional positions.
    Personnel costs continue to dominate our budget, accounting 
for 86 percent of the request. Computer-related spending 
accounts for 8 percent, a historical low. Administrative 
expenses use up the remaining 6 percent.
    In order to help offset the 6 percent increase in personnel 
costs that we anticipate for next year, we plan to reduce 
spending for automated data processing by 7 percent.
    Mr. Chairman, as you said, I have only been at the 
Congressional Budget Office (CBO) a few weeks, and I have 
discovered, even though I knew something about CBO before I 
arrived, that there is much more there than meets the eye. Just 
since February 3, when Barry and I moved into our offices, CBO 
has issued seven major reports and studies, presented testimony 
to congressional committees 12 times, and produced 58 cost 
estimates for proposed legislation, all of that in the past 
seven weeks.
    Mr. Chairman, sometime ago you also asked CBO to develop an 
early-warning system to keep the Congress informed of 
fluctuations in spending and revenue patterns, and I want to do 
a 30-second report for you. We developed our Monthly Budget 
Review, which is widely circulated on the Hill and available on 
our Web site. It has actually become one of our most popular 
products, judging from the number of requests we are getting, 
and so it was a very good suggestion you made, and we are glad 
to have implemented it.
    In fact, our products are now available on the Web and in 
hard copy. Virtually the same day we issue a report, we also 
put it up on the Web, and it has been a very popular site. 
Traffic is increasing daily.

               Personnel issues: Recruiting and retention

    Now, Mr. Chairman, despite our apparent productivity, we 
face a continuing challenge to recruit and retain top-quality 
professionals. Indeed, that is my biggest challenge. After we 
get through the first few weeks of dealing with the President's 
budget and the budget resolutions, I desperately need to turn 
to this issue.
    We are well below our FTE ceiling because we are 
increasingly outbid in the job market. Although we understand 
that we cannot radically alter our salary structure, we are 
seeking your permission to offer bonuses for new hires and also 
to reward outstanding performance. Those bonuses will not 
entail additional appropriations but rather a reallocation of 
resources. Our competitors both inside and outside government 
have the authority to offer such bonuses.

                           Y2K status report

    Finally, Mr. Chairman, I want to mention briefly where we 
are on the Year 2000 (Y2K) issue. As you know better than I, it 
is not possible to predict the severity or duration of any 
potential Y2K effect. We are taking what I hope you will agree 
is a commonsense approach. There is nothing in our mission 
around the first of the year that is critical to the operations 
of the Congress.
    Our first priority, as it must be for all agencies, is to 
ameliorate the possibility of a localized problem that might 
hinder our ability to access our computer files. Such a 
scenario would make it difficult for us to supply basic 
information to the Congress on a timely basis. As insurance, we 
will maintain copies of all of our critical data bases. For 
example, the CBO baseline--the primary tool against which we 
measure all legislation and which we normally complete in 
December--will be made available in both hard copy and in 
several stored media forms. We will be able to use it manually 
as well as on computers.
    We have a team that plans to be in the office on New Year's 
Eve to conduct a series of final tests. Live testing is the 
only way to evaluate and respond to any problems that might 
arise; that approach will give us a few days if we need 
additional time to fix things up.
    As with many other agencies, our biggest vulnerabilities 
are those in interconnections outside our purview. Fortunately, 
most of our contact with the outside world consists of 
interconnections with other Federal entities that are taking 
the same prudent steps and that you are monitoring in this 
process. We do not rely on outside, nonpublic vendors to any 
great degree.

                           prepared statement

    With that, Mr. Chairman, I thank you for the opportunity to 
discuss our appropriation request with the committee today. I 
would be happy to address any questions you have.
    [The statement follows:]
                  Prepared Statement of Dan L. Crippen
    Mr. Chairman and Members of the Subcommittee, I am pleased to 
present the fiscal year 2000 budget request for the Congressional 
Budget Office (CBO). The mission of CBO is to provide the Congress with 
the objective, timely, nonpartisan analysis it needs for making 
decisions about the economy and the budget and to furnish the 
information and estimates required for the Congressional budget 
process. CBO does not make policy recommendations; instead, it presents 
the Congress with options and alternatives in a wide range of subject 
areas, all of which have economic and budgetary effects.
    I submit as an attachment to this testimony our latest Director's 
Report on Work Activities of the Congressional Budget Office, which we 
submitted to the Senate and House Committees on the Budget in January. 
That report documents in detail our major work products and activities 
during 1998 and our work plan for 1999. It also includes a statement of 
CBO's policies for preparing and distributing estimates and analyses 
and lists the current membership of CBO's Panel of Economic Advisers.
                        fiscal year 2000 request
    For fiscal year 2000, we are requesting $26,821,000--an increase of 
4.5 percent, or $1,150,000, over our fiscal year 1999 appropriation. 
That request funds our staff ceiling of 232 full-time-equivalent 
positions. We are not asking for any additional positions.
    Personnel costs account for the largest share of CBO's budget--86.2 
percent. Computer-related spending accounts for 7.5 percent, a 
historical low. Administrative expenses account for 6.3 percent, which 
is below our historical average. Specifically, our request:
  --Provides a 6 percent increase in spending for personnel, which 
        comprises annualized fiscal year 1999 pay raises, merit 
        increases for fiscal year 2000 averaging 2 percent of pay, and 
        a 4.4 percent across-the-board pay adjustment in January 2000 
        (the increase in the President's pay assumptions). The budget 
        proposal assumes that performance and recruitment bonuses will 
        be paid for by reduced merit pay raises and savings from staff 
        turnover.
  --Realizes a 7 percent reduction in spending for automated data 
        processing (ADP) and systems and for data and model 
        development. That reduction includes $100,000 in savings from 
        moving the mainframe applications of CBO's Tax Analysis and 
        Health and Human Resources Divisions from House Information 
        Resources to the Library of Congress. (That estimate contains 
        no adjustment for the possible relocation of four mission-
        critical mainframe applications maintained by the Budget 
        Analysis Division.)
  --Spending for all other expenses, such as utilities, printing, and 
        supplies, increases by 2 percent. Price increases averaging 3.8 
        percent are offset by a drop in the demand for spending in 
        several areas, such as copier replacements and graphic arts.
           areas of concern relating to cbo's budget request
    Although CBO should be able to maintain its current workload with 
the funds requested here, the agency is increasingly concerned about 
its ability to offer the salaries and benefits needed to remain 
competitive in today's tight labor market.
    Most CBO employees are economists and other quantitatively skilled 
professionals, all of whom are in particularly high demand. We are 
finding it increasingly difficult to retain our experienced workers, 
which is one reason that CBO's merit pay request for fiscal year 2000 
is so important.
    Attracting top-flight new employees is also a problem that could 
prove critical to our work. Competition for top-quality Ph.D. 
economists is intense; thus, those economists now demand very high 
salaries. The limitations on the compensation we can offer candidates 
have become a major impediment to attracting top talent. With 
increasing frequency we lose qualified people to employers who can pay 
more.
    CBO operates at a disadvantage compared with federal employers that 
can provide locality pay raises and give lump-sum bonuses to attract 
and retain exceptional workers. To help overcome that competitive 
disadvantage, we have requested the authority to give bonuses using 
funds already in our personnel spending base. Those lump-sum payments 
would be used to attract new employees and to reward outstanding 
performance. They would enhance CBO's ability to compete with the 
General Accounting Office, the Congressional Research Service, other 
federal agencies, and the private sector for professional and 
management talent.
    If granted that authority, no more than 1 percent of budgeted 
payroll would be used for recruiting and performance bonuses. At least 
75 percent of the total bonuses awarded would be based on performance, 
and the maximum allowable individual award would not exceed 10 percent 
of the employee's annual salary. Awards to employees would not increase 
their base salary level and hence would not affect contributions for 
retirement and life insurance.
    Also, to relieve growing salary compression, CBO has asked the 
House and Senate Budget Committees to raise the pay rates of the CBO 
Director and Deputy Director by one level each. That change will be 
considered later this year as part of the Budget Enforcement Act of 
1999, as introduced on January 19 by Senate Budget Committee Chairman 
Domenici.
                           y2k status report
    CBO is working closely with the General Accounting Office to ensure 
that all of its ADP and associated computer systems comply with Year 
2000 (Y2K) requirements, and we are making substantial progress. As you 
know, CBO relies on the mainframe computer at House Information 
Resources (HIR) to run its database applications. CBO uses the HIR 
mainframe for a variety of analytic work, but the applications related 
to our budget database are particularly critical for providing timely 
support to the House and Senate Budget and Appropriations Committees. 
We use those applications to track and analyze Presidential spending 
proposals and subsequent Congressional action. The HIR mainframe is the 
repository of the President's annual budget, CBO's baseline 
projections, numerous data sets used by the House and Senate Budget 
Committees in developing annual budget resolutions, and data sets that 
track appropriation and other spending bills as well as associated CBO 
estimates of outlays.
    Last year we shared with you our concern that the scheduled 
retirement of the HIR mainframe in 2000 presented a complex and 
potentially costly challenge to CBO because we would have to relocate 
our mainframe applications. But that is no longer a Y2K issue. HIR has 
revised its mainframe lease so that the House can continue its 
mainframe operations through March 2001. We will therefore be able to 
run our four mission-critical systems on the HIR mainframe computer 
well into 2000.
    CBO is moving aggressively to ensure that the other computer 
systems used by its divisions and individual employees are also Y2K 
compliant. CBO established a Y2K test center with a network that runs 
compliant software and a 2001 system date. Employees are testing all of 
their computer systems--not just those requiring the CBO test network--
to ensure Y2K compliance. To date, 90 percent of our employees have 
completed that reporting requirement. Roughly 10 percent of the systems 
tested have been found to be noncompliant, and those systems are being 
updated or replaced. Those actions will be completed, and all CBO 
systems will be compliant, by October 1, 1999.
    CBO participates in three interagency groups dedicated to Y2K 
planning and cooperation: the House Information Resources Y2K Action 
Team; the Legislative Data Standards Committee--Y2 Task Force; and the 
Legislative Branch Y2K Business Continuity Contingency Planning Group. 
In addition, CBO is coordinating with the Department of Agriculture's 
National Finance Center to ensure that CBO's personnel and payroll 
system will operate accurately in the new millennium.
                  appropriation tracking system update
    CBO is part of the House and Senate database exchange--the All 
Purpose Table system--that tracks and scores actions for the House and 
Senate Appropriations Committees. That system is now being updated and 
will ultimately be replaced by the new Appropriations Decision Support 
System (ADSS). The Committees recently instructed CBO to adopt the new 
system. Because no funds were provided in CBO's fiscal year 1999 
appropriation for that purpose, I wrote to the Committee requesting 
permission to reprogram $195,000 from personnel spending to equipment.
                        managing cbo information
    As we reported last year, CBO's documents are now available on the 
World Wide Web (at www.cbo.gov) in four electronic file formats. In 
addition to its reports and studies, CBO is making all of its general 
work products available on the Web, including papers and memorandums, 
testimonies, unfunded mandate statements, federal bill cost estimates, 
and special analyses such as the Monthly Budget Review and reports on 
the current status of discretionary appropriations. In October, CBO 
posted its 1,000th document on the Web site.
    CBO's Web site is designed to make the information it contains 
widely and immediately accessible to Congressional users and the 
general public. In developing the Web site, CBO consulted with staff of 
the Congressional Research Service to ensure that the site would be 
compatible with the Legislative Information System. More recently, CBO 
improved the cost estimates section to incorporate requests for 
specific information from the staffs of the budget committees. The 
office will continue to work with the Congress, and especially the 
staffs of the budget committees, to ensure that the Web site is as 
responsive as it can be to their informational needs.
    Since it came on-line in August 1997, the CBO Web site has recorded 
almost 5 million hits from a diverse audience of users, including 
Congressional staff, other government offices, news agencies, 
researchers, and students. More than 850,000 pages have been reviewed 
or downloaded by site visitors from 98 countries. Almost 10,000 
requests for information are received each day.
    In conjunction with development of the Web site and to improve 
CBO's responsiveness to the Congressionally mandated Research 
Notification System, CBO has designed and brought on-line a new 
management information system. It enables us to identify and track the 
progress of CBO products from their initiation to their completion.
    The agency has also made substantial progress in processing its 
official documents in keeping with the requirements of the National 
Archives and Records Administration. Those documents range from 
official correspondence and personnel files to the full gamut of CBO 
reports, studies, papers, memorandums, and other products. Within the 
past year, CBO has committed to permanent storage or has destroyed, in 
compliance with regulations, approximately 25 percent of its file 
documents. CBO anticipates continued progress in 1999 in fulfilling the 
legal mandate to preserve records deemed important to the government 
and the public.
                               conclusion
    Mr. Chairman, CBO's recent budget requests have been quite modest. 
Our present proposal represents our best estimate of the amount needed 
to maintain our budget at the current-services level. The requested 
increase of 4.5 percent is less than that requested by the Office of 
Management and Budget, the Congressional Research Service, and the 
General Accounting Office. We believe that this level of funding is 
necessary if we are to continue to serve the Congress in the manner it 
has come to expect.
                                 ______
                                 
   Director's Report on Work Activities of the Congressional Budget 
                          Office--January 1999
    The Congressional Budget Act of 1974 created the Congressional 
Budget Office (CBO) to provide technical support on budget-related 
issues to all committees in the Senate and the House, with primary 
responsibility to the Senate and House Committees on the Budget. The 
office's mission is to provide the Congress with the objective, timely, 
nonpartisan analysis it needs for making decisions about the economy 
and the budget and to furnish the information and estimates required 
for the Congressional budget process. This document summarizes the 
office's major activities during 1998 and its work plan for 1999.
                    cbo's statutory responsibilities
    The Congressional Budget Act of 1974 requires CBO to prepare 
several specific reports to the Committees on the Budget each year, 
including periodic assessments of the economic and budget outlook, and 
to conduct continuing studies on budgetary matters. The act also 
directs CBO to prepare estimates of the costs that the government would 
incur in carrying out the provisions of proposed legislation reported 
by Congressional committees. The Unfunded Mandates Reform Act of 1995 
requires CBO to prepare estimates of the direct costs of all federal 
mandates that are contained in legislation reported by any authorizing 
committee in either House that affect state, local, or tribal 
governments or the private sector. CBO also prepares analytical studies 
on various economic and budgetary matters at the request of 
Congressional committees. A statement of CBO's policies for preparing 
and distributing its estimates and analyses appears in Appendix A.
    CBO is the only part of the legislative branch whose mandate 
includes making economic forecasts and projections. Its forecasts and 
projections involve the major economic variables that affect the 
federal budget--gross domestic product, unemployment, inflation, and 
interest rates. The office does not attempt to forecast cyclical 
fluctuations in the economy more than two years ahead; instead, its 
longer-term projections are based on trends in the labor force, 
productivity, and saving. CBO examines recent data on the state of the 
economy, looks at historical relationships between economic variables, 
analyzes the results from formal economic models, and compares its 
economic projections with those of private forecasters. The office also 
relies on the advice of a distinguished panel of advisers that meets 
twice a year. The current members of that panel are shown in Appendix 
B.
    Economic forecasts and projections are a major ingredient of CBO's 
baseline revenue and spending projections. Those projections provide a 
benchmark for measuring the effects of proposed changes in tax and 
spending laws and serve as the starting point for developing 
Congressional budget resolutions. The projections are based on the 
Congress's most recent budgetary decisions and show what would happen 
if no new policy decisions were made over the 10-year projection 
period. Since many factors besides the major economic variables affect 
the budget projections, CBO closely monitors recent revenue and 
spending patterns and examines a wide range of other available 
information on trends in individual programs. CBO's economic and 
baseline budget projections are published early in the calendar year 
and are updated in the summer.
                    major work products during 1998
    Economic forecasts and baseline budget projections are an important 
part of CBO's work for the Congress, but only a part. During 1998, CBO 
completed more than 2,000 separate work products, including hundreds of 
cost estimates for legislative proposals and various analytic studies, 
papers, and memorandums. CBO also produced a substantial volume of 
letters and notes in response to Congressional inquiries and requests 
for information. In addition, CBO analysts consulted directly with 
Members of Congress, committees, and staff on a variety of issues, 
large and small, that are referred to the office daily.
    A major work product last year was CBO's response to the House 
Committee on Appropriations' report accompanying the Legislative Branch 
Appropriations Bill for 1999. That report directed CBO to provide 
certain information related to its work efforts. In response to that 
directive, the office transmitted to the Congressional leadership on 
July 23, 1998, a five-volume report providing a comprehensive overview 
of CBO's activities. A brief summary of each of the five volumes 
follows.
  --Projecting Federal Tax Revenues and the Effect of Changes in Tax 
        Law describes CBO's models for projecting federal tax revenues, 
        compares projected and actual revenues following recent changes 
        in federal tax laws, and identifies the steps CBO has taken to 
        improve the accuracy of its revenue projections.
  --Comparison of Actual and Projected Deficits, Fiscal Years 1993-1997 
        explains the reasons for differences between estimated budget 
        deficits and actual outcomes during the five-year period. CBO 
        has continued its efforts to improve the accuracy of its budget 
        estimates by searching for new sources of information, but the 
        vagaries of the economy and other factors affecting the budget 
        make complete accuracy elusive. CBO also continues to monitor 
        collection of revenues and program spending in order to provide 
        the Congress with current information on budget outcomes. CBO's 
        Monthly Budget Review, which is based on daily and monthly 
        statements of the Department of the Treasury, has become one of 
        CBO's most popular and frequently requested publications.
  --An Analysis of CBO's Outlay Estimates for Appropriation Bills, 
        Fiscal Years 1993-1997 provides an overview of the accuracy of 
        CBO's estimates in aggregate over the five-year period. CBO's 
        estimates of outlays for appropriation bills were quite 
        accurate overall despite significant deviations for individual 
        spending programs.
  --Description of Economic Models explains the various models that CBO 
        uses to prepare its economic forecasts and analyses of the 
        economic effects of legislative proposals. CBO's models reflect 
        the ways in which government policies can affect the major 
        decisions people make about saving and work. In those models, 
        higher marginal tax rates can reduce work effort, discourage 
        saving, and slow the growth of the economy; changes in 
        entitlement programs for the elderly can influence people's 
        decisions about retirement and saving for the future; and 
        reducing the overall deficit or increasing the surplus can 
        boost the U.S. capital stock, lower interest rates, and raise 
        gross domestic product.
  --CBO's Policies for Preparing and Distributing Its Estimates and 
        Analyses, together with an index of available CBO publications.
Mandated and Other Reports
    Each year CBO publishes a number of reports on the budget and the 
economy as required by the Congressional Budget Act. Those annual 
reports followed a typical schedule in 1998, starting with the release 
of volume one, The Economic and Budget Outlook: Fiscal Years 1999-2008, 
at hearings before the Senate Committee on the Budget on January 28 and 
the House Committee on the Budget on February 5. CBO published an 
update of that report in August. In January, CBO also released its 
annual report on unauthorized appropriations and expiring 
authorizations.
    Although not a mandated report, CBO's analysis of the 
Administration's budget, An Analysis of the President's Budgetary 
Proposals for Fiscal Year 1999, was prepared again at the request of 
the Senate Committee on Appropriations. That report was issued in March 
1998.
    Following consultation with budget committee staff, CBO elected to 
forgo a 1998 update of Reducing the Deficit: Spending and Revenue 
Options in light of the rapidly improving budget picture. However, CBO 
released in May 1998 an update of its Long-Term Budgetary Pressures and 
Policy Options, which explores in some detail the fiscal implications 
pending when the baby-boom generation begins to retire about a decade 
from now. That publication is especially relevant to the current debate 
about Social Security, Medicare, and other entitlement programs.
    Since 1986, CBO has been required by the Balanced Budget and 
Emergency Deficit Control Act to publish three sequestration reports. 
CBO issued the sequestration preview report in January, the update 
report in August, and a final report in November.
    In addition to the reports required by the Congressional Budget 
Act, CBO also issued a review of the Department of Defense's report on 
base realignment and closures, as required by the National Defense 
Authorization Act for Fiscal Year 1998.
Studies and Other Publications
    CBO also analyzes specific program and policy issues that affect 
the federal budget and the economy. Most requests for analyses come 
from the Chairman or Ranking Minority Member of a full committee or 
subcommittee. The leadership of either party in the House or the Senate 
may also request a CBO analysis. In keeping with its nonpartisan 
mandate, CBO does not offer recommendations on policy.
    Studies.--The analyses in CBO's studies generally entail a 
substantial investment of time and resources. CBO issued three such 
studies in 1998.
    In January 1998, CBO published Innovative Financing of Highways: An 
Analysis of Proposals. That study, requested by the Senate Committee on 
Environment and Public Works, reviews several approaches to augment 
traditional sources of funding. The analysis covers changes in rules 
governing federal aid, state infrastructure banks, federal credit 
assistance, and private-sector financing goals.
    In July 1998, CBO released How Increased Competition from Generic 
Drugs Has Affected Prices and Returns in the Pharmaceutical Industry. 
Requested by the Senate Committee on the Budget, that study examines 
the extent to which competition from generic drugs has increased under 
the 1984 Drug Price Competition and Patent Term Restoration Act (also 
known as the Hatch-Waxman Act).
    In December 1998, CBO published Regulatory Takings and Proposals 
for Change. Requested by the Ranking Minority Member of the Senate 
Committee on Governmental Affairs, that study examines the economic and 
budgetary impact of legislative proposals to require federal agencies 
to analyze and compensate private property owners for the effects of 
regulatory action on private property.
    Papers, Memorandums, and Other Documents.--CBO also prepares 
analyses in shorter time frames either at Congressional request or in 
support of CBO's statutory work. Those analyses are usually issued as 
papers or memorandums. Of the 29 such analyses CBO published in 1998, 
20 were requested by House and Senate committees or leaders, and nine 
were undertaken in support of CBO's statutory work.
    For committees in the House, CBO presented an analysis of emergency 
spending under the Budget Enforcement Act (Committee on the Budget); a 
description of CBO's economic models, an analysis of CBO's outlay 
estimates for 1993-1997, and estimates of the revenue effects of 
changes in tax laws (Subcommittee on Legislative of the House Committee 
on Appropriations); an analysis of the macroeconomic effects of the 
Economic Growth Act of 1998, an examination of international data on 
antidumping activity, and an estimate of the amount of federal 
mandatory spending and tax benefits available to low-income working 
families not receiving cash welfare (Committee on Ways and Means); an 
examination of the factors that could affect the relative success of 
the Environmental Protection Agency's rule for limiting nitrogen 
oxides, and a primer on the subject of stranded costs associated with 
deregulation of the electric power industry (Committee on Commerce); 
and a study of the Department of Defense's Advanced Concept Technology 
Demonstration program (Committee on National Security).
    For committees in the Senate, CBO assessed the potential economic 
effects of federal spending on infrastructure and other investments, 
examined federal efforts in the area of global climate change, analyzed 
states' use of surplus funds, and studied two approaches considered 
during the 105th Congress for raising radio spectrum fees (Committee on 
the Budget); examined the impact of fees charged for use of automated 
teller machines (Committee on Banking); and studied housing choices 
available to military personnel and options for enhancing the 
Department of Defense's unmanned aerial vehicle programs (Committee on 
Armed Services).
    In addition, CBO undertook a variety of papers, memorandums, and 
other research related to the continuing review of Social Security. 
Those products included Social Security Privatization and the Annuities 
Market; Social Security and Private Saving: A Review of the Empirical 
Evidence; and, in response to a request from the House Ways and Means 
Committee, a letter analyzing Professor Martin Feldstein's proposal to 
set up private savings accounts financed by tax credits.
    A list of the publications CBO issued in 1998 appears in Appendix 
C.
Cost Estimates
    One of CBO's most important responsibilities is to estimate the 
effect that proposed legislation would have on federal spending or 
revenues for the next five to 10 years. CBO staff members prepare all 
estimates of the impact of legislation on federal spending. However, 
for estimating the impact of legislation on revenues, including income, 
estate and gift, excise, and payroll taxes, CBO is required by the 
Congressional Budget Act to use exclusively the revenue estimates 
provided by the Joint Committee on Taxation.
    CBO is required to provide cost estimates for every bill reported 
by authorizing committees in both the House and the Senate. The office 
also prepares cost estimates at a committee's request for use in the 
early stages of drafting bills, for subcommittee and full committee 
markups, for floor amendments, and for conference agreements. In 
addition, to the extent that resources permit, CBO provides cost 
estimates for legislative proposals at the request of individual 
Members. In all, CBO prepared 678 federal cost estimates during 
calendar year 1998, along with many more informal estimates for 
proposals or options being considered by the Congress.
    Several pieces of major legislation accounted for much of CBO's 
work on cost estimates in 1998. Enacted legislation included the 
Transportation Equity Act for the 21st Century, the Internal Revenue 
Service Restructuring and Reform Act, the Child Support Performance and 
Incentive Act, the Higher Education Amendments, the Strom Thurmond 
National Defense Authorization Act, and the Omnibus Consolidated and 
Emergency Supplemental Appropriations Act. In addition, CBO provided 
numerous cost estimates for legislation that was not enacted, such as 
the proposed tobacco settlement and patients' rights legislation.
    CBO also provided the appropriations committees with estimates of 
outlays for all appropriation bills. The numbers contained in 
appropriation bills usually represent budget authority, and it is 
necessary to estimate the resulting outlays to determine whether the 
bills conform to committee allocations under the Congressional Budget 
Act as enforced by the budget committees. In addition, to assist the 
budget committees, CBO staff members frequently produce scorekeeping 
tabulations of Congressional actions on appropriations and other 
legislation affecting the federal budget.
Federal Mandates Cost Estimates
    The Unfunded Mandates Reform Act of 1995 established new procedures 
designed to ensure that the Congress fully considers the potential 
effects of unfunded federal mandates before imposing them on state, 
local, and tribal governments or the private sector. CBO is required to 
provide statements to authorizing committees about whether reported 
bills contain mandates and, if so, to estimate their costs. Those new 
procedures went into effect at the beginning of 1996.
    In 1998, CBO reviewed more than 500 reported bills and other 
legislative proposals for intergovernmental and private-sector 
mandates. Of the proposals analyzed, 64 contained intergovernmental 
mandates and 75 included private-sector mandates. Six of the 
intergovernmental and 18 of the private-sector mandates had costs 
exceeding the thresholds established in the Unfunded Mandates Reform 
Act.
Testimony
    The CBO Director and other staff members testified before 
Congressional committees 14 times during 1998, addressing a diverse 
array of topics. Nine of those appearances were before House 
committees, and five were before Senate committees. The Director also 
testified before the President's Commission to Study Capital Budgeting.
    The Director of CBO testified before Congressional committees four 
times. In January, she appeared before the Senate Committee on the 
Budget to discuss the economic and budget outlook. In February, she 
testified before the House Committee on Ways and Means on marriage and 
the federal income tax, and before the House Committee on the Budget on 
the economic and budget outlook. In March, she testified before the 
Subcommittee on Legislative and Budget Process of the House Committee 
on Rules on the Line Item Veto Act after one year.
    The Deputy Director of CBO testified on three occasions. In 
February, he testified before the Senate Committee on the Budget and in 
June before the Senate Committee on Governmental Affairs about the 
Unfunded Mandates Reform Act. In June, he appeared before the Task 
Force on Budget Process of the House Committee on the Budget to discuss 
budgeting for emergency spending.
    Other CBO staff testified on seven occasions before House and 
Senate committees. The issues they addressed were retail activities at 
military bases, CBO's budget projections and baselines, budgeting for 
federal insurance programs, the domestic costs of foreign sanctions, 
how states budget and plan for emergencies, automated teller machines, 
and the Work Incentives Improvement Act (S. 1858).
    A list of the Congressional testimony that CBO delivered in 1998 
appears in Appendix D.
Public Information Activities
    CBO continued to manage a diverse array of public information 
activities in response to requests for CBO analyses and data that are 
in the public sphere. The office receives dozens of queries daily from 
Congressional staff, journalists, students, researchers, and the 
general public. CBO provides its publications to an extensive audience, 
mostly in the United States but also in foreign nations.
    In addition, CBO staff meet with visiting delegations from other 
nations that wish to learn more about the Congress and the budget 
process. Those visits are arranged by a variety of groups that promote 
international communication and understanding. In 1998, CBO hosted more 
than 40 such delegations from Czechoslovakia, Germany, Hungary, Italy, 
Japan, Morocco, New Zealand, Panama, Portugal, Russia, South Africa, 
Spain, Ukraine, and other nations.
    To better serve this diverse audience and convey a more accurate 
view of CBO's activities and the budget process, CBO had its general 
information publication, Responsibilities and Organization of the 
Congressional Budget Office, translated into Spanish, Russian, and 
French.
www.cbo.gov
    In 1998, CBO continued to develop its World Wide Web site 
(www.cbo.gov), where all new CBO reports, studies, papers, memorandums, 
testimonies, federal bill cost estimates, and other documents are 
available in several formats. CBO's Monthly Budget Review is updated 
each month and is posted on the Web site as soon as it is available to 
the public. In October, CBO posted its 1,000th document. The Web site 
also includes a list of the publications that CBO has issued since 
1975.
    Work on the Web site has been closely coordinated with the 
development of the Legislative Information System to ensure that the 
site is technically compatible with that system. CBO has recently 
improved the cost estimates section to incorporate requests for 
specific information from the staffs of the budget committees. The 
office will continue to work with the Congress, and especially budget 
committee staffs, to ensure that CBO's Web site is as responsive as it 
can be to their informational needs.
    Since it came on-line in September 1997, the CBO Web site has 
recorded almost five million hits from a diverse audience of users 
including Congressional staff, other government agencies, news 
agencies, researchers, and students. More than 850,000 pages have been 
reviewed or downloaded by site visitors from 98 countries. Almost 
10,000 requests for information are received each day.
    CBO also made substantial progress in processing its official 
documents in accord with the requirements of the National Archives and 
Records Administration. Those documents range from official 
correspondence and personnel files to the full gamut of CBO reports, 
studies, papers, memorandums, and other products. Within the past year, 
CBO committed to permanent or temporary storage or destroyed 
approximately 20 percent of its file documents. CBO anticipates 
continued progress in 1999, fulfilling the legal mandate to preserve 
records deemed important to the government and the public.
                           work plan for 1999
    The Congressional Budget Office expects to publish its series of 
annual reports to the budget committees on a typical schedule in 1999. 
The annual report on the economic and budget outlook, covering fiscal 
years 2000-2009, will be released in late January. The Director will 
testify on that report before the Senate Committee on the Budget. CBO's 
annual report on unauthorized appropriations and expiring 
authorizations was issued in early January.
    In March, CBO will release its analysis of the President's 
budgetary proposals for fiscal year 2000. Also in March, CBO will 
publish Maintaining Budgetary Discipline: Spending and Revenue Options, 
which identifies options that the Congress may find useful for dealing 
with the procedural budgetary restraints--including the caps on 
discretionary spending and the pay-as-you-go procedures that apply to 
direct spending and revenues--that remain in effect until 2002.
    CBO expects to publish about the same number of studies, papers, 
and memorandums in 1999. The issues addressed in those analyses include 
proposed Social Security reforms, market-based student loans, national 
defense, infrastructure development, environmental issues, auctions 
relating to the shift to digital television, and a possible change in 
Puerto Rico's status.
    CBO will not publish a 1999 edition of Long-Term Budgetary 
Pressures and Policy Options. The May 1998 publication addresses many 
vital questions related to Social Security, Medicare, and other 
entitlement programs and will continue to provide a useful framework 
for the debate about long-term policy options for those programs. 
However, an update of CBO's longer-term budgetary projections will be 
included in The Economic and Budget Outlook to be issued this month.
    In 1999, CBO will continue to provide cost estimates for 
legislation, federal mandates cost estimates, and Congressional 
testimony as requested. The office will also continue to process 
records for the National Archives and conduct public information 
activities.
    A complete list of CBO projects scheduled for 1999 appears in 
Appendix E.
                       budget and staff resources
    The Congressional Budget Office's 1999 appropriation is $25.7 
million, an increase of 3.4 percent over its 1998 appropriation of 
$24.8 million. The fiscal year 1999 appropriation provides funding for 
232 full-time-equivalent staff positions, the same level as for fiscal 
year 1998. Most of CBO's appropriation is for staff compensation and 
related personnel costs. For fiscal year 1999, CBO budgeted $21.8 
million for personnel costs; $2.2 million for computer services and 
equipment, data acquisition, and development of computer models; and 
$1.7 million for various administrative expenses.
    The share of CBO's budget allocated for personnel costs continues 
to rise. Personnel expenses have grown to 85 percent of CBO's budget, 
up from 70 percent in 1988, even though the size of CBO's staff has not 
changed significantly over that period. In contrast, the share of 
computer costs has fallen sharply, from 21 percent of total expenses in 
1988 to 8 percent in 1999.
    For fiscal year 2000, CBO is requesting an appropriation of $26.8 
million, an increase of $1.2 million (4.5 percent) over its 1999 
budget. The request fully funds 232 full-time-equivalent positions, the 
same as this year; the higher compensation costs require an increase of 
6 percent in spending for personnel. The 6 percent increase is 
partially offset by reductions in spending for automated data 
processing and computer systems in order to limit the requested 
increase to 4.5 percent.
                                 ______
                                 
    Appendix A.--CBO's Policies for Preparing and Distributing Its 
                         Estimates and Analyses
    The mission of the Congressional Budget Office (CBO) is to provide 
the Congress with the objective, timely, nonpartisan analysis needed 
for economic and budget decisions and the information and estimates 
required for the Congressional budget process. This document describes 
the policies and procedures that CBO follows as it prepares and 
distributes budget estimates and other analytic work for the Congress.
CBO's Statutory Responsibilities
    The basic statute setting forth the duties and functions of the 
Congressional Budget Office is title II of the Congressional Budget Act 
of 1974. Additional responsibilities for budget estimates are contained 
in titles III and IV of that act. Subsequent legislation has affected 
those responsibilities and has added further requirements for specific 
analyses.
    According to title II of the Budget Act, CBO's primary duty is to 
provide budget-related information to all committees of both Houses, 
with priority given first to the information needs of the Committees on 
the Budget and second to the information needs of the Committees on 
Appropriations, Ways and Means, and Finance. With respect to individual 
Members, the only CBO duty stipulated in the act is to provide 
information compiled for committees and additional related information 
that may be requested.
    Title II also requires CBO to prepare several specific reports to 
the Committees on the Budget each year, including periodic assessments 
of the economic and budget outlook, and to conduct continuing studies 
on budgetary matters.
    Titles III and IV of the Congressional Budget Act specify 
additional duties for CBO to carry out in reviewing bills or joint 
resolutions reported from committees of either House. Title III covers 
all bills or joint resolutions that provide new budget or spending 
authority, such as appropriation bills, or that provide an increase or 
decrease in revenues. Title IV covers all bills and joint resolutions 
other than appropriation bills and private relief bills. Under those 
titles, CBO must prepare estimates of new budget authority, outlays, or 
revenues provided by the bills or joint resolutions, or of the costs 
that the government would incur in carrying out the provisions of the 
proposed legislation. The CBO cost estimates are to be included in the 
reports accompanying such bills or resolutions if they are submitted to 
the committees before the reports are filed.
    For estimating the impact on revenues of legislation involving 
income, estate and gift, excise, and payroll taxes, the Congressional 
Budget Act directs CBO to use exclusively the revenue estimates of the 
Joint Committee on Taxation.
    The Balanced Budget and Emergency Deficit Control Act of 1985, the 
Balanced Budget and Emergency Deficit Control Reaffirmation Act of 
1987, and the Budget Enforcement Act of 1990 assign further duties to 
the Congressional Budget Office, such as providing budget estimates for 
the purpose of budget control. That function includes preparing the 
various sequestration reports to the Congress and the Office of 
Management and Budget. The Budget Enforcement Act also requires CBO to 
estimate changes in direct spending and revenues for private relief 
legislation as well as for public bills or joint resolutions.
    The Unfunded Mandates Reform Act of 1995 requires CBO to prepare 
estimates of the direct costs of all federal mandates that are 
contained in legislation reported by any authorizing committee in 
either House and that affect state, local, and tribal governments or 
the private sector. The act also authorizes CBO to prepare analyses and 
studies of the budgetary or financial impact of proposed legislation 
that may significantly affect state and local governments or the 
private sector, to the extent practicable, at the request of any 
committee.
    From time to time, statutes have directed CBO to prepare analytic 
reports on specific subjects. Such reports have included the treatment 
of administrative costs under credit reform accounting, the financial 
risks posed by government-sponsored enterprises, and the desirability 
and feasibility of privatizing the Federal National Mortgage 
Association and the Federal Home Loan Mortgage Corporation.
How Work on CBO's Estimates and Analyses Is Initiated
    The Congressional Budget Office strives to provide federal budget 
and mandate cost estimates for all bills other than appropriation bills 
when they are reported by a full committee of either House. Committee 
staff should notify CBO when bills are about to be ordered reported and 
when cost estimates are needed.
    CBO also prepares cost estimates for proposals at other stages of 
the legislative process at the request of a committee of jurisdiction, 
a budget committee, or the Congressional leadership. For example, CBO 
may prepare cost estimates for a series of bills to be considered by a 
subcommittee, including draft bills not yet introduced, or for 
amendments to be considered during committee markups. Similarly, it may 
prepare cost estimates for floor amendments and for bills that pass one 
or both Houses.
    For appropriation bills, CBO provides estimates of outlays that 
would result from the provision of budget authority. CBO also provides 
the budget and appropriation committees with frequent tabulations of 
Congressional action on both spending and revenue bills so that the 
Congress can know whether it is acting within the limits set by the 
annual budget resolution.
    In addition to statutory reports, or analyses done to directly 
support CBO's statutory work, the office undertakes a number of other 
analyses each year, although only at the request of the Chairman or 
Ranking Minority Member of the relevant committee or subcommittee or 
the Congressional leadership. Also, as time permits, CBO will honor 
requests of individual Members for cost information or other analysis 
of legislative proposals, but it must give priority to committee 
requests.
    By way of definition, a committee request consists of a written or 
oral request by the Chairman or Ranking Minority Member of a committee 
or subcommittee. CBO asks that requests from individual Members be made 
in writing.
How CBO Consults with Committees and Other Requesters of Estimates and 
        Analyses
    When undertaking a cost estimate or an analysis supporting such an 
estimate, CBO analysts contact the staff of the committee of 
jurisdiction and, when applicable, the staffs of the Member sponsoring 
the proposal and the Member requesting the estimate to gather 
background information and discuss the schedule for completing the 
estimate. Budget and mandate cost estimates are based on the text of 
the proposed legislation. CBO analysts consult with the staff of the 
committee of jurisdiction (for a reported bill) or the sponsoring 
Member (for an introduced bill or amendment) when questions of 
interpretation arise, but they draw their own conclusions on an 
impartial and objective basis.
    CBO analysts contact the appropriate staff members if a forthcoming 
CBO estimate shows direct spending costs, mandates that exceed the 
legislative thresholds, or other significant findings. CBO, however, 
does not make judgments about the application of parliamentary points 
of order. After CBO cost estimates have been transmitted, they may be 
revised to correct errors or to incorporate new or updated information.
    When undertaking requested analyses of legislative proposals or 
issues, CBO staff members consult with the requester's staff to reach 
an understanding of the scope and nature of the work to be done. CBO 
analysts draw their own conclusions on an impartial and objective 
basis, as they do when preparing cost estimates. When appropriate, CBO 
staff inform other relevant committees of requests for analytic work 
after advising the requester's staff. As a final step in the 
consultation process, CBO informs the requester's staff of the results 
of the analysis before it releases the material.
Sources of Information and Peer Review Practices
    In preparing its budget estimates and analyses, CBO uses the rich 
data sources available from the government's statistical agencies. 
Those sources include the national income and product accounts, the 
census of manufacturers, the Statistics of Income, the Current 
Population Survey, and various national health surveys. CBO also uses 
information provided by relevant government agencies and industry 
groups to meet specific needs.
    CBO employs standard methods of economic analysis and closely 
follows theoretical and empirical developments in the professional 
literature for economics and related disciplines. In addition, CBO 
frequently calls on outside experts for advice on specific analytic 
matters, such as the outlook for agriculture production, spending 
projections for Medicare and Medicaid, and business prospects in the 
telecommunications industry. For its economic forecasts and 
assumptions, CBO draws on the advice of a distinguished panel of 
advisers that meets twice a year.
    All CBO estimates and analytic products are reviewed internally for 
technical competence, accuracy of data, and clarity of exposition. CBO 
studies are also reviewed by experts outside CBO, and the preface to 
each study cites the many contributors who helped shape the final 
product. Although outside experts and advisers provide considerable 
assistance, CBO is solely responsible for the accuracy of the estimates 
and analyses that it produces. In keeping with its nonpartisan status 
and its mandate to provide objective analysis, CBO does not make policy 
recommendations in any of its analyses.
CBO's Responsibility for Disclosing and Explaining Its Critical 
        Assumptions and Methodologies
    Both the Congressional Budget Act and the Unfunded Mandates Reform 
Act direct CBO to disclose the basis for each budget and mandate cost 
estimate. CBO interprets that directive to include the disclosure of 
the critical assumptions and analytic methodologies used to prepare the 
estimate. All written cost estimates include explanations of the basis 
of the estimate, and CBO supplies further details on request. Similar 
explanations of critical assumptions and methodologies are given in 
CBO's analytic products. It is CBO's policy that its estimates and 
analyses be clearly presented and easy to understand.
How CBO Transmits Its Work to the Congress
    CBO seeks to ensure that key parties in the Congress who are 
involved in any particular issue have equal access to its analytic 
work. Insofar as possible, CBO delivers its cost estimates and analyses 
to all interested parties simultaneously. Requests for confidentiality 
are honored only for cost estimates for legislative proposals that have 
not been made public.
    The Director of the Congressional Budget Office transmits by letter 
all formal budget and mandate cost estimates of legislative proposals 
and all requested analyses. CBO sends its formal cost estimates for 
reported bills and estimates prepared at committee request to the 
Chairman and Ranking Minority Member of the reporting or requesting 
committee. When the requester is a budget committee or individual 
Member, CBO sends a copy of its cost estimate simultaneously to the 
Chairman and Ranking Minority Member of the committee of jurisdiction; 
for an introduced bill or amendment, a copy of the estimate is sent to 
the sponsor as well as the requester. Cost estimates of legislative 
proposals that have not been introduced as a bill or made public are 
transmitted only to the sponsoring Member or requesting committee 
unless CBO is directed otherwise.
    In contrast, informal cost estimates may be transmitted directly by 
CBO staff. Informal estimates are preliminary because they do not 
undergo the same review procedures required for formal estimates.
How CBO Distributes Its Estimates and Analyses
    CBO makes its analytic work widely available to Members of Congress 
and their staffs as well as to the public. The Publications Office 
sends a copy of all CBO reports and studies to each Member. Copies of 
CBO papers, memorandums, and other analyses are available to Members 
and Congressional staff on request.
    The Publications Office also handles requests from the general 
public, other government agencies, and the press. Single copies of CBO 
reports, studies, papers, and memorandums are available at no charge. 
In addition, the Superintendent of Documents at the U.S. Government 
Printing Office carries many CBO reports and studies.
    In September 1997, CBO launched its World Wide Web site 
(www.cbo.gov). The site now includes publications, testimony, and cost 
estimates issued since then as well as many publications from previous 
years. As time and resources permit, CBO will continue to post older 
products that remain relevant and useful. An index of publications 
issued since CBO began operating in 1975, arranged chronologically and 
by subject, will be posted on the Web site.
    The documents on CBO's Web site are available in four formats: 
HTML, PDF, PostScript, and WordPerfect. The multiformat approach makes 
CBO's products accessible to a wide variety of users and for multiple 
purposes. Visitors can browse, search, download, and print documents 
that are on the Web. They can also subscribe to ListServer, a feature 
that enables them to be notified by E-mail when CBO issues a 
publication on a subject of interest to them.
                                 ______
                                 
                Appendix B.--Panel of Economic Advisers
    Dr. Alan J. Auerbach, Robert D. Burch, Professor of Tax Policy and 
Public Finance, University of California.
    Dr. Martin N. Baily, McKinsey & Company.
    Dr. Jagdish Bhagwati, Arthur Lehman, Professor, Columbia 
University.
    Dr. Michael Boskin, Professor of Economics, Hoover Institute, 
Stanford University.
    Dr. Barry P. Bosworth, Senior Fellow, The Brookings Institution.
    Dr. Robert Dederick, Economic Consultant, The Northern Trust 
Company.
    Dr. Martin Feldstein, President, National Bureau of Economic 
Research.
    Dr. Robert J. Gordon, Professor of Economics, Northwestern 
University.
    Dr. Robert E. Hall, Senior Fellow, Hoover Institution, Stanford 
University.
    Dr. Marvin Kosters, Resident Scholar, American Enterprise 
Institute.
    Dr. Anne Krueger, Professor of Economics, Stanford University.
    Dr. N. Gregory Mankiw, Professor of Economics, Harvard University.
    Dr. Allan Meltzer, University Professor, Graduate School for 
Industrial Administration, Carnegie-Mellon University.
    Dr. William D. Nordhaus, A. Whitney Griswold Professor, Yale 
University.
    Dr. Rudolph Penner, Senior Fellow, Urban Institute.
    Dr. James Poterba, Professor of Economics, Massachusetts Institute 
of Technology.
    Dr. Robert Reischauer, Senior Fellow, The Brookings Institution.
    Dr. Sherwin Rosen, Professor of Economics, University of Chicago.
    Dr. Joel Slemrod, Professor of Economics, University of Michigan.
    Dr. John Taylor, Professor of Economics, Stanford University.
    Dr. James Tobin, Yale University, Cowles Foundation for Research in 
Economics.
                                 ______
                                 
                Appendix C.--Projects Completed in 1998
                       mandated and other reports
    The Economic and Budget Outlook: Fiscal Years 1999-2008 (January 
1998)--Volume one in CBO's series of legislatively mandated reports to 
the Congress on the economy and the budget, which includes CBO's 
current economic and budget projections.
    Unauthorized Appropriations and Expiring Authorizations (January 
1998)--An annual report to the Congress listing, by committee of 
jurisdiction, all unauthorized appropriations for the current fiscal 
year and authorizations scheduled to expire before the next fiscal 
year.
    Sequestration Preview Report for Fiscal Year 1999 (January 1998)--
Sets advisory limits for discretionary budget authority and outlays, 
and estimates budgetary effects of pay-as-you-go legislation as well as 
any required sequestration.
    An Analysis of the President's Budgetary Proposals for Fiscal Year 
1999 (March 1998)--Estimates the effects of the President's budgetary 
proposals using CBO's economic and technical assumptions. Requested by 
the Senate Committee on Appropriations.
    Long-Term Budgetary Pressures and Policy Options (May 1998)--Shows 
the long-term economic and budgetary effects of coming demographic 
changes and discusses policy options in defense, taxation, public 
investment, Medicare, and Social Security.
    Review of The Report of the Department of Defense on Base 
Realignment and Closure (July 1998)--An in-depth analysis of 
anticipated cost savings associated with closing and consolidation of 
several military bases that the department deems no longer essential to 
national defense.
    Sequestration Update Report for Fiscal Year 1999 (August 1998)--
Sets advisory limits for discretionary budget authority and outlays, 
and estimates budgetary effects of pay-as-you-go legislation as well as 
any required sequestration.
    The Economic and Budget Outlook: An Update (August 1998)--Updates 
volume one of CBO's annual report to the Congress on the economic and 
budget outlook.
    Final Sequestration Report for Fiscal Year 1999 (October 1998)--
Sets advisory limits for discretionary budget authority and outlays, 
and estimates budgetary effects of pay-as-you-go legislation as well as 
any required sequestration.
                                studies
    Innovative Financing of Highways: An Analysis of Proposals (January 
1998)--Reviews new techniques used at the state and local levels to 
finance transportation systems, considers their applicability at the 
federal level, and looks at the budgetary treatment of such financing 
methods. Requested by the Senate Committee on Environment and Public 
Works.
    How Increased Competition from Generic Drugs Has Affected Prices 
and Returns in the Pharmaceutical Industry (July 1998)--Examines the 
effects of federal regulations and rules on pricing in the 
pharmaceutical industry. Requested by the Senate Committee on the 
Budget.
    Regulatory Takings and Proposals for Change (December 1998)--
Examines the economic and budgetary impact of legislative proposals to 
require federal agencies to analyze and compensate private property 
owners for the effects of regulatory action on private property. 
Requested by the Senate Committee on Governmental Affairs.
                                 papers
    Federal Subsidies of Advanced Telecommunications for Schools, 
Libraries, and Health Care Providers (January 1998)--Estimates federal 
revenues and outlays and outlines CBO's estimating methodology for 
universal service federal mandates. Prepared in support of CBO's 
statutory work.
    An Assessment of the Unfunded Mandates Reform Act in 1997 (February 
1998)--Reviews the activities of CBO during 1997 in carrying out the 
Unfunded Mandates Reform Act of 1995. Prepared in support of CBO's 
statutory work.
    Social Security Privatization and the Annuities Market (February 
1998)--Looks at possible economic effects of privatizing Social 
Security. Prepared in support of CBO's statutory work.
    The Proposed Tobacco Settlement: Issues from a Federal Perspective 
(April 1998)--Analyzes features of legislative proposals that would 
implement and potentially modify the 1997 agreement between industry 
and states' attorneys general. Requested by the Assistant Majority 
Leader of the Senate.
    Antidumping Action in the United States and Around the World: An 
Analysis of International Data (June 1998)--Analyzes use of antidumping 
actions by the United States and foreign countries. Requested by the 
House Committee on Ways and Means.
    The Economic Effects of Federal Spending on Infrastructure and 
Other Investments (June 1998)--Reviews available data on the economic 
value of federal investments in infrastructure, education, training, 
and research and development. Requested by the Senate Committee on the 
Budget.
    Factors Affecting the Relative Success of EPA's Nox Cap-and-Trade 
Program (June 1998)--Analyzes the effects of limiting oxide emissions 
in 22 states and the District of Columbia. Requested by the House 
Committee on Commerce.
    Competition in ATM Markets: Are ATMs Money Machines? (July 1998)--
Analyzes the market for automated teller machines and related policy 
issues. Requested by the Senate Committee on Banking, Housing, and 
Urban Affairs.
    Options for Enhancing the Department of Defense's Unmanned Aerial 
Vehicle Programs (September 1998)--Examines issues related to the 
Department of Defense's acquisition program for pilotless aircraft. 
Requested by the Senate Committee on Armed Services.
    Electric Utilities: Deregulation and Stranded Costs (October 
1998)--Examines the effects of removing barriers to interstate commerce 
in retail electricity markets. Requested by the House Committee on 
Commerce.
    Housing Prices, Housing Choices, and Military Housing Allowances 
(October 1998)--Compares military expense-based and price-based housing 
allowance systems. Requested by the Senate Committee on Armed Services.
    Description of Economic Models (November 1998)--Provides a detailed 
description of the various models used by CBO in preparing its economic 
forecasts and analyses. Requested in the report accompanying the House 
Legislative Branch Appropriations Bill.
    Projecting Federal Tax Revenues and the Effect of Changes in Tax 
Law (December 1998)--Provides estimates of the revenue effects of 
several changes to the tax law beginning in 1978, including separate 
estimates of the revenue effects of changes in the tax rate on capital 
gains. Requested in the report accompanying the House Legislative 
Branch Appropriations Bill.
                              memorandums
    Proposals to Subsidize Health Insurance for the Unemployed (January 
1998)--Analyzes policies designed to assist purchase of health 
insurance for unemployed people for a temporary period. Requested by 
the Senate Committee on Labor and Human Resources.
    Expanding Health Insurance Coverage for Children Under Title XXI of 
the Social Security Act (February 1998)--Provides preliminary 
information about how the states are responding to the State Children's 
Health Insurance Program. Prepared in support of CBO's statutory work.
    Changing the Treatment of Software Expenditures in the National 
Accounts (April 1998)--Examines the impact of changing the treatment of 
software from an intermediate good to an investment good. Prepared in 
support of CBO's statutory work.
    The Line Item Veto After One Year (April 1998)--Analyzes the Line 
Item Veto Act during its first year of operation. Prepared in support 
of CBO's statutory work.
    Estimates of Federal Tax Liabilities for Individuals and Families 
by Income Category and Family Type for 1995 and 1999 (May 1998)--
Continues CBO's analysis of the distribution of federal taxes. 
Requested by the Senate and House Committees on the Budget, the Senate 
Committee on Finance, and the House Committee on Ways and Means.
    Social Security and Private Saving: A Review of the Empirical 
Evidence (July 1998)--Reviews the evidence from a number of studies on 
the impact of Social Security on saving. Prepared in support of CBO's 
statutory work.
    An Analysis of the Potential Macroeconomic Effects of the Economic 
Growth Act of 1998 (August 1998)--Analyzes the macroeconomic effects of 
H.R. 4125, the Economic Growth Act of 1998. Requested by the House 
Committee on Ways and Means.
    Climate Change and the Federal Budget (August 1998)--Examines the 
budgetary and economic implications of efforts to reduce greenhouse 
emissions to 1990 levels between 2008 and 2010. Requested by the Senate 
Committee on the Budget.
    Comparing Federal Employee Benefits with Those in the Private 
Sector (August 1998)--Compares benefits earned by federal employees 
with those earned by employees in the private sector. Prepared in 
support of CBO's statutory work.
    The Department of Defense's Advanced Concept Technology 
Demonstrations (September 1998)--Analyzes the amount of resources the 
Department of Defense has devoted to ACTDs and examines the early 
evidence of benefits and risks. Requested by the House Committee on 
National Security.
    Policy Changes Affecting Mandatory Spending for Low-Income Families 
Not Receiving Cash Welfare (September 1998)--Discusses policy changes 
affecting federal funding for low-income families. Requested by the 
House Committee on Ways and Means.
    Measurement of Employee Benefits in the National Accounts 
(September 1998)--Examines the current methods of estimating employee 
benefits and possible sources of inaccuracy. Prepared in support of 
CBO's statutory work.
    An Analysis of CBO's Outlay Estimates for Appropriation Bills, 
Fiscal Years 1993-1997 (October 1998)--Provides a comparison of CBO's 
outlay estimates for discretionary appropriations with the actual 
outcomes. Requested in the report accompanying the House Legislative 
Branch Appropriations Bill.
    States' Use of Surplus Funds (November 1998)--Provides a brief 
overview of the economic and fiscal situation of the states and 
discusses implications for the federal budget. Requested by the Senate 
Committee on the Budget.
    Two Approaches for Increasing Spectrum Fees (November 1998)--
Analyzes options for using fees to manage radio spectrum for licenses 
that are not sold at auction. Requested by the Senate Committee on the 
Budget.
    Emergency Spending Under the Budget Enforcement Act (December 
1998)--Analyzes whether emergency spending is being used increasingly 
as a means of circumventing constraints of the budget process rather 
than as a response to unanticipated needs. Requested by the House 
Committee on the Budget.
                            other documents
    Letter and attachment to the Honorable Thomas A. Daschle, Senate 
Democratic Leader, Estimated Budgetary Impacts of Alternative Levels of 
Strategic Forces (March 1998).
    Letter and attachment to the Honorable Pete V. Domenici, Chairman, 
Senate Committee on the Budget, The Profitability of Federally 
Guaranteed Student Loans (March 1998).
    Changes in Federal Civilian Employment: An Update (April 1998), 
updates a 1996 memorandum on the same subject.
    Letter and attachment to the Honorable Edward M. Kennedy, Ranking 
Minority Member, Senate Committee on Labor and Human Resources, Using 
Auctions to Reduce the Cost of the Federal Family Education Loan 
Program (July 1998).
    Letter to the Honorable Curt Weldon, Chairman, Subcommittee on 
Military Research and Development, House Committee on National 
Security, regarding the estimated cost of three tactical aircraft 
programs to reflect changes resulting from the 1997 Quadrennial Defense 
Review (July 1998).
    Letter and attachment to the Honorable Bill Archer, Chairman, House 
Committee on Ways and Means, Analysis of a Proposal by Professor Martin 
Feldstein to Set Up Personal Retirement Accounts Financed by Tax 
Credits (August 1998).
    Estimated Budgetary Effects of Alternatives for Producing Tritium 
(August 1998).
    Letter and attachment to the Honorable Thomas A. Daschle, Senate 
Democratic Leader, Improving Russia's Access to Early-Warning 
Information: Preliminary Results (September 1998).
                                 ______
                                 
                              Appendix D.

                            TESTIMONY IN 1998
January 28......................  Senate Committee    The Economic and
                                   on the Budget,      Budget Outlook:
                                   June O'Neill,       Fiscal Years 1999-
                                   Director.           2008.
February 4......................  House Committee on  Marriage and the
                                   Ways and Means,     federal income
                                   June O'Neill,       tax.
                                   Director.
February 5......................  House Committee on  The Economic and
                                   the Budget, June    Budget Outlook:
                                   O'Neill, Director.  Fiscal Years 1999-
                                                       2008.
February 12.....................  Senate Committee    The Unfunded
                                   on the Budget,      Mandates Reform
                                   James Blum,         Act.
                                   Deputy Director.
March 3.........................  Special Oversight   Retail activities
                                   Panel on Morale,    on military
                                   Welfare, and        bases.
                                   Recreation, House
                                   Committee on
                                   National
                                   Security, Deborah
                                   Clay-Mendez,
                                   National Security
                                   Division.
March 11........................  Subcommittee on     The Line Item Veto
                                   Legislative and     Act after one
                                   Budget Process,     year.
                                   House Committee
                                   on Rules, June
                                   O'Neill, Director.
April 1.........................  Task Force on       Budget projections
                                   Budget Process,     and baselines.
                                   House Committee
                                   on the Budget,
                                   Paul Van de
                                   Water, Assistant
                                   Director, Budget
                                   Analysis Division.
April 23........................  Task Force on       Budgeting for
                                   Budget Process,     insurance
                                   House Committee     programs.
                                   on the Budget,
                                   Marvin Phaup,
                                   Special Studies
                                   Division.
June 3..........................  Senate Committee    The Unfunded
                                   on Governmental     Mandates Reform
                                   Affairs, James      Act.
                                   Blum, Deputy
                                   Director.
June 3                            House Committee on  The domestic costs
                                   International       of sanctions on
                                   Relations, Jan      foreign commerce.
                                   Acton, Assistant
                                   Director, Natural
                                   Resources and
                                   Commerce Division.
June 23.........................  Task Force on       Budgeting for
                                   Budget Process,     emergency
                                   House Committee     spending.
                                   on the Budget,
                                   James Blum,
                                   Deputy Director.
June 23.........................  Task Force on       How states plan
                                   Budget Process,     and budget for
                                   House Committee     emergencies.
                                   on the Budget,
                                   Theresa Gullo,
                                   Budget Analysis
                                   Division.
July 15.........................  Senate Committee    Automated teller
                                   on Banking,         machines.
                                   Housing, and
                                   Urban Affairs,
                                   Jan Acton,
                                   Assistant
                                   Director, Natural
                                   Resources and
                                   Commerce Division.
July 29.........................  Subcommittee on     The Work
                                   Social Security     Incentives
                                   and Family          Improvement Act--
                                   Policy, Senate      S. 1858.
                                   Committee on
                                   Finance, Paul Van
                                   de Water,
                                   Assistant
                                   Director, Budget
                                   Analysis Division.
 

                                 ______
                                 
                 Appendix E.--Ongoing Projects in 1999
                       mandated and other reports
    The Economic and Budget Outlook: Fiscal Years 2000-2009 (January 
1999)--Volume one in CBO's series of legislatively mandated reports to 
the Congress on the economy and the budget, which includes CBO's 
current economic and budget projections.
    Unauthorized Appropriations and Expiring Authorizations (January 
1999)--An annual report to the Congress listing, by committee of 
jurisdiction, all unauthorized appropriations for the current fiscal 
year and authorizations scheduled to expire before the next fiscal 
year.
    Sequestration Preview Report for Fiscal Year 2000 (January 1999)--
Sets advisory limits for discretionary budget authority and outlays, 
and estimates budgetary effects of pay-as-you-go legislation as well as 
any required sequestration.
    Maintaining Budgetary Discipline: Spending and Revenue Options 
(March 1999)--Volume two of CBO's annual report to the Congress. 
Identifies some 250 specific options for reducing spending or 
increasing federal revenues that could be used for complying with 
procedural budgetary restraints affecting annual discretionary 
appropriations and changes in permanent spending and revenue laws.
    An Analysis of the President's Budgetary Proposals for Fiscal Year 
2000 (March 1999)--Estimates the effects of the President's budgetary 
proposals using CBO's economic and technical assumptions. Requested by 
the Senate Committee on Appropriations.
    Sequestration Update Report for Fiscal Year 1999 (August 1999)--
Sets advisory limits for discretionary budget authority and outlays, 
and estimates budgetary effects of pay-as-you-go legislation as well as 
any required sequestration.
    The Economic and Budget Outlook: An Update (Summer 1999)--Updates 
volume one of CBO's annual report to the Congress on the economic and 
budget outlook.
    Final Sequestration Report for Fiscal Year 2000 (October 1999)--
Sets advisory limits for discretionary budget authority and outlays, 
and estimates budgetary effects of pay-as-you-go legislation as well as 
any required sequestration.
                         congressional requests
    Economic and Budgetary Effects of a Change in Puerto Rico's 
Status--Looks at the macroeconomic effects of Puerto Rican statehood 
and independence compared with current law. Prepared by the Budget 
Analysis and Macroeconomic Analysis Divisions at the request of the 
House Committee on Resources.
    Economic and Budgetary Issues Raised by the Advisory Council's 
Proposals for Social Security Reform--Examines the macroeconomic, 
budgetary, and distributional effects of the Advisory Council's three 
proposals to reform Social Security. Prepared by the Budget Analysis, 
Macroeconomic Analysis, and Health and Human Resources Divisions at the 
request of the Senate Committee on Finance.
    Raising the Earliest Age for Social Security Benefits--Analyzes the 
impact of options for raising the earliest age at which workers would 
be eligible for Social Security retirement benefits. Prepared by the 
Health and Human Resources Division (HHRD) at the request of the House 
Committee on Ways and Means.
    Student Loans--Analyzes market-based options for reforming the 
federally guaranteed student loan program to ensure a reliable flow of 
capital to students and to target federal subsidies effectively. 
Prepared by HHRD and the Special Studies Division for the Senate 
Committee on the Budget.
    Women and Social Security Reform--Examines changes in spouse and 
survivor benefits under several Social Security reform plans and 
discusses the impact on women of other specific provisions in those 
plans. Prepared by HHRD at the request of the House Committee on Ways 
and Means.
    Projecting the Demand for Long-Term Care Services--Projects 
spending on long-term care services through 2040 and considers policies 
that could alter the demand for those services. Prepared by HHRD at the 
request of the House Committee on the Budget.
    Federal Programs Affecting the Supply and Demand for Health 
Services--Identifies and compares federally funded programs that affect 
the supply of and demand for health services among various groups in 
the population. Prepared by HHRD at the request of the House Committee 
on the Budget.
    Shifts in Financial Intermediation--Examines changes among 
financial intermediaries in their roles as agents between borrowers and 
lenders, providers of financial products, repositories for savings, 
sources of credit, and mediators of risk. Prepared by the Macroeconomic 
Analysis Division (Macro) for the House Committee on Banking and 
Financial Services. (The original request was made by the House 
Committee on Banking, Finance and Urban Affairs.)
    The Economic Impact on the United States of Growth in the 
Developing World--Looks at how the U.S. economy is affected by growth 
in developing countries, with particular attention paid to trade and 
capital flows and wage rates in the United States. Prepared by Macro at 
the request of the House Committee on International Relations.
    A Review of the Literature on the Effects of Reducing Greenhouse 
Gases--Reviews the literature on the economic effects of reducing 
greenhouse gases. Prepared by Macro at the request of the Senate 
Committee on the Budget.
    Personal Bankruptcy--Looks at the impact of personal bankruptcy and 
bankruptcy laws on the efficiency of consumer credit markets. Prepared 
by Macro at the request of the House Committee on the Judiciary.
    Evaluation of S. 2313 and S. 1792--Estimates the macroeconomic 
effects of two proposals to reform the Social Security system. Prepared 
by Macro at the request of several Members of Congress.
    Evaluation of the Ball Plan--Estimates the macroeconomic effects of 
Ball's plan to reform the Social Security system. Prepared by Macro at 
the request of several Members of Congress.
    Foreign Experience with Government Spectrum Fees--Examines 
practices of selected foreign governments in charging governmental 
users of electromagnetic spectrum. Prepared by the Natural Resources 
and Commerce Division (NRCD) at the request of the Senate Committee on 
the Budget.
    The Use of International Trade Sanctions--Analyzes the costs of 
sanctions to the U.S. economy. Prepared by NRCD at the request of the 
House Committee on International Relations.
    Economic Significance of the Current-Account Trade Deficit--
Examines the causes of the trade deficit, its effects on the economy, 
and what, if anything, might be done to reduce or eliminate it that 
would be beneficial rather than detrimental to the economy. Prepared by 
NRCD at the request of the Chairman and the Ranking Member of the 
Senate Committee on Finance.
    Auctions for Digital TV--Updates assumptions underlying forecasts 
of receipts from auctions made possible by the transition to digital 
TV; evaluates the technology, marketplace, and regulatory developments 
that could affect the amount and timing of spectrum to be available for 
auction. Prepared by NRCD for the House Committee on the Budget.
    Financing Options for Airports--Reviews financing options for 
airports that are part of the national plan of integrated airport 
systems but are not large or medium hubs as defined by the FAA; reviews 
how those airports met financial requirements and discusses the role 
that Airport Improvement Program grants play in helping them cover 
operating expenses and meet capital needs. Prepared by NRCD at the 
request of the House Committee on the Budget.
    What Does the Military Pay Gap Mean?--Updates the December 1995 
paper on military pay and the rewards for performance. Prepared by the 
National Security Division (NSD) at the request of the Senate Committee 
on Armed Services.
    Effects of Operations Other Than War on Military Readiness--
Examines the impact on overall readiness of operations such as those in 
Somalia and Haiti and the financial burden such operations place on 
operation and maintenance accounts. Prepared by NSD at the request of 
the Senate Committee on Armed Services.
    The Force Structure of the Navy in the 21st Century--Evaluates 
several force structure options, emphasizing different roles for the 
Navy. Prepared by NSD at the request of the Senate Committee on Armed 
Services.
    The Defense Budget--Analyzes decisions resulting from the 
Quadrennial Defense Review and their implications for future defense 
budgets. Prepared by NSD at the request of the Senate Committee on the 
Budget.
    Efforts to Control Nuclear Proliferation in Russia--Examines 
several cooperative initiatives to control nuclear materials and 
technology and to enhance mutual security. Prepared by NSD at the 
request of the Senate Democratic Leader.
    Dealerting Nuclear Forces--Examines a wide variety of ways in which 
the United States and Russia might reduce the alert rates of their 
nuclear forces. Prepared by NSD at the request of the Senate Democratic 
Leader.
    Transparency in Warhead Dismantlement--Examines options for the 
irreversible dismantlement of U.S. and Russian nuclear warheads. 
Prepared by NSD at the request of the Senate Democratic Leader.
    Options for Providing Medical Insurance Benefits to Military 
Beneficiaries--Reviews and analyzes proposals for making military 
beneficiaries eligible for the medical insurance choices provided 
through the Federal Employees Health Benefits program. Prepared by NSD 
at the request of the Senate Committee on Armed Services.
    The Drawdown of the Military Officers Corps--Describes the tools 
used by the services between 1990 and 1996 to reduce the size of the 
officers corps and the effects of that drawdown on the distribution of 
officers by rank, year of service, and occupation. Prepared by NSD at 
the request of the Senate Committee on Armed Services.
    Analysis of the Effects of Retirement System Changes on Retention--
Examines retention profiles of enlisted personnel to identify the 
impact of the most recent change in the Military Retirement System. 
Prepared by NSD at the request of the Senate Committee on Armed 
Services.
    Enhancing National Security and Military Readiness--Examines the 
effects and costs of additions to the defense program proposed by the 
Joint Chiefs and others. Prepared by NSD at the request of the Chairman 
of the Senate Budget Committee.
    Budgeting for Federal Retirement Costs--Analyzes current and 
alternative means of budgeting for federal pensions with a view toward 
increasing control of costs and security of benefits. Prepared by the 
Special Studies Division (SSD) at the request of the House Committee on 
the Budget.
    Volatility in Discretionary Appropriations--Analyzes how much 
discretionary spending is volatile or unpredictable from year to year, 
which bears on the issue of biennial budgeting. Prepared by SSD at the 
request of the Senate Committee on the Budget.
    Federal Taxes Under Income Tax and Comprehensive Reform Proposals--
Compares federal taxes under current law and various comprehensive tax 
reform options for different family income groups. Prepared by the Tax 
Analysis Division at the request of the Senate Committee on the Budget.
                             other projects
    The Unfunded Mandates Reform Act: A Review of 1998--Reviews the 
activities of CBO during 1998 in carrying out the Unfunded Mandates 
Reform Act of 1995. Prepared by the Budget Analysis Division and the 
Natural Resources and Commerce Division.
    Prepaying Medicare--Analyzes recent proposals to transform Medicare 
into a prepaid system, in which each age cohort contributes sufficient 
amounts during their working lives to fully finance their Medicare 
benefits. Prepared by HHRD.
    Delaying the Age of Medicare Eligibility and Offering an Early Buy-
In--Examines the fiscal and budgetary implications of providing health 
insurance to people who retire before becoming eligible for Medicare. 
Prepared by HHRD.
    A Reassessment of Medicare's Graduate Medical Education Policies--
Examines Medicare policies related to graduate medical education, 
including changes made in the Balanced Budget Act of 1997, and 
considers options to modify those policies. Prepared by HHRD.
    Issues, Choices, and Macroeconomic Consequences of Privatizing 
Social Security--Provides a broad overview of the issues involved in 
moving from the current defined benefit, pay-as-you-go Social Security 
system to a defined contribution, funded system based on private 
accounts. Prepared by Macro.
    Fiscal Consolidations and Short-Term Growth--Analyzes fiscal 
consolidations and their implications for short-term growth in the 
overall economy. Prepared by Macro.
    Social Security Privatization and Administrative Costs--Analyzes 
the administrative costs of creating private retirement accounts. 
Prepared by Macro.
    Social Security Privatization: Experiences Abroad--Examines the 
experiences of other countries in privatizing their public pension 
systems. Prepared by Macro.
    Trends in Public Infrastructure--Looks at long-run returns to 
investment in public infrastructure; contains historical data on 
spending on capital maintenance by federal and state governments in 
major categories. Prepared by NRCD.
    Electric Utility Restructuring and Renewable Energy--Analyzes 
costs, efficiency implications, and distributional effects of a 
federally mandated renewable portfolio standard. Prepared by NRCD.
    Costs of Complying with New Animal Waste Regulations--Analyzes the 
costs to pork and poultry producers of new regulations intended to 
reduce the effects of animal agriculture on water quality. Prepared by 
NRCD.
    Federal Options for Encouraging the Private Market for Natural 
Disaster Insurance--Analyzes failures of the private market to provide 
adequate disaster insurance and examines options for federal support 
for reinsurance markets. Prepared by NRCD.
    Introduction to Probabilistic Scoring--Examines options for 
preparing bill cost estimates when costs are subject to asymmetric 
uncertainties. Prepared by NRCD and the Budget Analysis Division.
    Measuring the Foreign Exposure of U.S. Banks--Examines the measures 
and data used to track the foreign exposure of U.S. banks, undertaken 
in support of CBO's projections of the demands on the Bank Insurance 
Fund. Prepared by NRCD.
    The Privatization of Sallie Mae--Develops a framework for analyzing 
the privatization of government-sponsored enterprises and applies it to 
the privatization of Sallie Mae. Prepared by SSD.
    HUD's Affordable Housing Goals--Examines the effectiveness of HUD's 
affordable housing goals for Fannie Mae and Freddie Mac. Prepared by 
SSD.
    Budget Process Issues for 1999--Examines the major budget process 
issues that the Congress is likely to address in 1999, including 
emergency spending, biennial budgeting, and pay-as-you-go. Prepared by 
SSD.
    Comparing Federal and Private-Sector Compensation for Executives--
Compares the pay and benefits for executives in the federal government 
with those for executives in private firms. Prepared by SSD.
    Federal Unfunded Liabilities--Provides present-value estimates of 
federal liabilities and commitments other than U.S. Treasury debt; 
discusses the meaning and usefulness of such estimates. Prepared by 
SSD.
    Budgetary Treatment of Coin and Currency--Explains how the public 
holding of coin and currency affects the budget; discusses disparate 
treatment in the budget. Prepared by SSD.
    Budgetary Treatment of Personal Retirement Accounts--Analyzes the 
budgetary treatment of Social Security reform proposals that would 
involve personal retirement accounts. Prepared by SSD.
    Fannie Mae and Freddie Mac as Investor-Owned Public Utilities--
Analyzes the unique role played by Fannie Mae and Freddie Mac as 
private, for-profit lending institutions backed by implicit government 
guarantees. Prepared by SSD.
    Capital Budgeting--Provides an assessment of the report of the 
Capital Budgeting Commission, which is scheduled to be released in late 
February. Prepared by SSD.
    Budgeting for Federal Insurance--Analyzes alternative budgetary 
treatments to reduce contingent losses associated with federal 
insurance programs. Prepared by SSD.
    Capital Gains Distributions from Mutual Funds--Analyzes capital 
gains distributions from mutual funds. Prepared by the Tax Analysis 
Division (TAD).
    Using Environmentally Related Taxes to Reduce Income-Based Taxes--
Looks at the concept of using environmentally related taxes to reduce 
income-based taxes. Prepared by TAD.
    Analysis of the Taxpayer Relief Act of 1997--Analyzes the impact of 
the Taxpayer Relief Act on the federal budget and economic growth. 
Prepared by TAD.
    Tax Subsidies for Environmental Infrastructure--Looks at the 
possible use of tax subsidies for environmental infrastructure. 
Prepared by TAD.

                          Reprogramming funds

    Senator Bennett. Thank you for your presentation.
    We have been joined by the chairman of the full committee. 
Good morning. This is the Congressional Budget Office, our 
final witness. Do you have any comment or statement? We would 
be happy to hear it.
    Senator Stevens. Well, I am happy to be here with you. I do 
have a request. We had quite a dialogue on the floor yesterday 
with the Senator from Texas, Mr. Gramm, and we have a 
considerable disagreement over the manner in which reprogrammed 
emergency funds should be treated from the point of view of 
scoring, and I would be very much appreciative if we could 
arrange to get together sometime today or tomorrow and discuss 
the matter with Phil.
    I have taken the position that once we have emergency 
funds, they are outside the budget. If we reprogram those 
funds, we do not need to rescore them. You all have rescored 
them, to the great disadvantage of this committee, and it has 
led to the adoption of an amendment which will have the effect 
of cutting appropriated funds from the omnibus bill by 20 
percent to offset the emergency funds that are in that bill, 
this bill we have just passed.
    We have adopted it last night, but it will be passed when 
the House finishes its version of the supplemental 
appropriations bill today. I think we should find some way to 
reconcile these differences, because the Finance Committee's 
position will mean that we have no ability to reprogram 
emergency funds.
    When we reprogram funds that are within the budget I know 
they have a different scoring and outlay impact. But, I have 
taken the position that funds that are outside the budget to 
start with because they have got an emergency designation 
should not lead to your scoring of those funds as outlays when 
we reprogram them for a new emergency within the same year. I 
would appreciate it if we could find some time to discuss that, 
and discuss its impact on the overall emergency process.
    We face a real question. We must finish this bill by 
tomorrow night.
    Mr. Crippen. We are available at your request any time 
today, tomorrow, tonight. Do you want to do it with Senator 
Gramm at the same time?
    Senator Stevens. Yes. Senator Gramm and I agreed we would 
meet with you jointly and see if we could explore this. Each 
one of us will have staff there.
    We also have a request in to you now for sort of a snapshot 
of what we did yesterday, so we can see before we can get to 
this meeting, how far apart we are, and what the impact is of 
the two amendments that Senator Gramm presented.
    It was my understanding that they were drafted by your 
people, is that right?
    Mr. Crippen. I do not know, Mr. Chairman. This is the first 
I have heard of the issue in any thorough way, and I am not 
aware that they did. I do not know that they did not, either.
    Senator Stevens. Mr. Cortese is here. He would be pleased 
to brief your staff on what we are trying to do, but I would 
like to do it today or tomorrow. I do not know what your hours 
are going to be, but our hours are extremely long. We have 30, 
35 hours to be in session between now and noon on Friday.
    Thank you very much.
    Mr. Crippen. We will do it.
    Senator Bennett. Thank you very much. I have no additional 
questions. Well, let me ask this one. In the last Congress the 
Congressional Budget and Impoundment Control Act was amended to 
make CBO's primary duty its response to the Budget Committees 
with its secondary duty to Appropriations, Ways and Means, and 
Finance, and this is kind of piggy-backing on what Senator 
Stevens had to say, but I know you are brand-new there, but do 
you have any sense that this change has had any impact on CBO's 
service to the Appropriations Committee?
    Mr. Crippen. Certainly not that I am aware of. As you say, 
we are both new, but I do not know where that language came 
from. I could guess, but I will not. It certainly did not come 
from us, and the original statute, as you know, specified the 
order of the committees; but the Budget Committee, the 
Appropriations Committee, and the Finance Committee were the 
three listed for the Senate in the statute.
    We try very hard to do a decent job of responding quickly. 
The only place where some slack is taken up from time to time 
is for requests from individual Members for a cost estimate of 
legislation that they plan to introduce. We price bills that 
are reported from committee, but we also do a lot of advisory 
scoring of bills that are introduced, many of which, as you 
know, have been reported from the committee. So to the extent 
that we have slack or have moved resources, it is in that area 
and not in what the committees need us to do.
    Senator Bennett. Thank you very much. We appreciate your 
being here.

                         conclusion of hearings

    Senator Bennett. Thank you. The subcommittee is recessed.
    [Whereupon, at 11:17 a.m., Wednesday, March 24, the 
hearings were concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Abrecht, Gary L., Chief, U.S. Capitol Police.....................     1
    Prepared statement...........................................     9
Anderson, Barry B., Deputy Director, Congressional Budget Office.   293
    Biographical sketch..........................................   293
Archer, Hon. Bill, U.S. Representative from Texas, prepared 
  statement......................................................    89

Becker, Herbert S., Director, Information Technology Services, 
  Library of Congress............................................   117
Benitez, Ben, Acting Director, Office of the Associate Librarian 
  for Human Resources Services, Library of Congress..............   117
Billington, Hon. James H., Librarian of Congress, Library of 
  Congress.......................................................   117
    Prepared statement...........................................   121
Buckley, Francis J., Jr., Superintendent of Documents, Government 
  Printing Office................................................   189

Ciccolella, Charles, Chief of Operations, Office of the Sergeant 
  at Arms and Doorkeeper, U.S. Senate............................   271
Craig, Hon. Larry E., U.S. Senator from Idaho, prepared statement   217
Crippen, Dan L., Director, Congressional Budget Office...........   293
    Biographical sketch..........................................   293
    Prepared statement...........................................   295
Cylke, Frank Kurt, Director, National Library Service for the 
  Blind and Physically Handicapped, Library of Congress..........   117

Dey, Christopher C., Chief Financial Officer, Office of the 
  Sergeant at Arms and Doorkeeper, U.S. Senate...................   271
DiMario, Michael F., Public Printer, Government Printing Office..   189
    Prepared statement...........................................   190

Feinstein, Hon. Dianne, U.S. Senator from California:
    Prepared statement...........................................   118
    Questions submitted by.......................................    18
Frederick, Doyle G., Chief of Staff, Office of the Sergeant at 
  Arms and Doorkeeper, U.S. Senate...............................   271

Green, Gary, General Counsel, Office of Compliance...............   105
Guy, William, Budget Director, Government Printing Office........   189

Hantman, Hon. Alan M., AIA, Architect of the Capitol, member, 
  Capitol Police Board........................................... 1, 21
    Prepared statement...........................................    23
Hodges, Polly E., Budget and Finance Officer, Congressional 
  Budget Office..................................................   293
Hughes-Brown, Beth, Administrative and Budget Officer, Office of 
  Compliance.....................................................   105

Livingood, Hon. Wilson, Sergeant at Arms, U.S. House of 
  Representatives, member, Capitol Police Board..................     1
Lopez, Kenneth E., Director of Security, Library of Congress.....   117

Mack, Hon. Connie, Chairman, Joint Economic Committee............   103
    Prepared statement...........................................   104
Mansker, Robert T., Deputy Public Printer, Government Printing 
  Office.........................................................   189
Medina, Rubens, Law Librarian, Library of Congress...............   117
Mulhollan, Daniel P., Director, Congressional Research Service, 
  Library of Congress............................................   117
    Prepared statement...........................................   136

Orton, William, former Representative in Congress from Utah and 
  member, American Bar Association Standing Committee on the Law 
  Library of Congress............................................   209

Paull, Lindy L., Chief of Staff, Joint Committee on Taxation.....    87
Peters, Marybeth, Register of Copyrights, Library of Congress....   117
    Prepared statement...........................................   130
Poole, Amita, Supervising Engineer, Capitol Building, Architect 
  of the Capitol.................................................    21
Pregnall, Stuart, Budget Officer, Architect of the Capitol.......    21

Roth, Hon. Bill, Vice Chairman, Joint Committee on Taxation......    87
    Prepared statement...........................................    89

Scott, Donald L., Deputy Librarian of Congress, Library of 
  Congress.......................................................   117
Silberman, Ricky, Executive Director, Office of Compliance.......   105
    Prepared statement...........................................   107
Sisco, Gary, Secretary of the Senate, Office of the Secretary of 
  the Senate, U.S. Senate........................................   217
    Prepared statement...........................................   223
Symms, Loretta, Deputy Sergeant at Arms, Office of the Sergeant 
  at Arms and Doorkeeper, U.S. Senate............................   271

Tabb, Winston, Associate Librarian for Library Services, Library 
  of Con- 
  gress..........................................................   117
Talkin, Pam, Deputy Executive Director for the Senate, Office of 
  Compli- 
  ance...........................................................   105
Theiss, Lynne, Executive Officer, Architect of the Capitol.......    21
Turnbull, Michael G., Assistant Architect of the Capitol.........    21

Walker, David M., Comptroller General of the United States, 
  General Accounting Office......................................   165
    Biographical sketch..........................................   166
    Prepared statement...........................................   174
Washington, Linda, Director, Integrated Support Services, Library 
  of Congress....................................................   117
Webster, John D., Director, Financial Services, Library of 
  Congress.......................................................   117
Williams, Kathy A., Budget Officer, Library of Congress..........   117
Wineman, Timothy S., Financial Clerk of the Senate, Office of the 
  Secretary of the Senate, U.S. Senate...........................   217
    Prepared statement...........................................   265

Zagorin, Janet S., chair, American Bar Association Standing 
  Committee on the Law Library of Congress.......................   209
    Prepared statement...........................................   211
Ziglar, Hon. James W., Sergeant at Arms and Doorkeeper, Office of 
  the Sergeant at Arms and Doorkeeper, U.S. Senate, and Chairman, 
  Capitol Police Board...........................................1, 271
    Biographical sketch..........................................   271
    Prepared statements..........................................6, 284


                             SUBJECT INDEX

                              ----------                              

                        ARCHITECT OF THE CAPITOL

                                                                   Page
Additional committee questions...................................    79
Annual and multi-year projects...................................    81
AOC financial and budget status reports..........................    80
Botanic Garden reconstruction....................................    22
Capital:
    Budget.......................................................    71
    Project implementation.......................................    72
Capitol dome renovation..........................................    62
    Cost.........................................................    63
Dirksen Senate Office Building renovation........................    64
Financial management system......................................69, 82
Financial statements.............................................    82
Fire safety......................................................    79
Five year capital budget, fiscal year 2000.......................    32
Fort Meade project...............................................    80
General introduction and executive summary.......................    23
House and Senate office buildings, reengineering in the..........    80
Human factor.....................................................    38
K-9 facility renovation..........................................    80
Life safety......................................................    67
Office of the Architect of the Capitol, role of the..............    28
Operating budget.................................................    70
    Fiscal year 2000.............................................    29
Operations improvement...........................................    66
Parking:
    Garages......................................................    79
    Maryland Avenue, removal of on...............................    61
Perimeter security...............................................    68
Physical security master plan....................................    68
Re-engineering plan..............................................    67
Russell courtyard boxwoods.......................................    81
Senate employees child care center...............................    74
    Priority.....................................................    76
Senate restaurants...............................................73, 81
Strategic business planning effort: goals and processes for 
  sensible agency re-engineering.................................    37
Visitor:
    Entrances....................................................    78
    Center.......................................................    65
        Security.................................................    77
        Site plan................................................    76
Y2K:
    Computer compliance..........................................    69
    Program......................................................    81

                      CONGRESSIONAL BUDGET OFFICE

Appropriation tracking system update.............................   297
Budget, request, areas of concern relating to CBO's..............   296
Director's Report on Work Activities of the Congressional Budget 
  Office--January 1999...........................................   298
Managing CBO information.........................................   297
Personnel issues: Recruiting and retention.......................   295
Request, fiscal year 2000......................................294, 296
Y2K status report..............................................295, 297

                       GENERAL ACCOUNTING OFFICE

Additional committee questions...................................   186
Budget request, fiscal year 2000.................................   183
GAO:
    Benefits of work.............................................   172
    Committed to accountability, integrity, reliability..........   174
    Goals for....................................................   174
    Highlights of activities.....................................   166
    Opportunities to enhance services to the Congress............   177
    Today: Service to the Congress and American people...........   175
Offsetting collections...........................................   186
Self-initiated work..............................................   168
Travel request...................................................   185

                       GOVERNMENT PRINTING OFFICE

Additional committee questions...................................   204
Congressional printing and binding appropriation.................   192
Delinquent payments..............................................   203
Employment levels................................................   200
Fiscal year 2000 appropriations request..........................   191
GPO's mission: Keeping America informed..........................   190
Integrated processing system.....................................   203
Legislative changes, miscellaneous...............................   195
Management audit recommendations, status report on...............   195
Public Printer's statement.......................................   189
Retirement incentive authority...................................   195
Revolving fund...................................................   194
Salaries and expenses appropriation..............................   193
Y2K:
    Compliance costs.............................................   197
    Compliant systems............................................   196
    Status of preparedness.......................................   195

                      JOINT COMMITTEE ON TAXATION

Appropriation request:
    Details of fiscal year 2000..................................    90
    Summary of fiscal year 2000..................................    89
Federal tax system, report on the state of the...................    88
Joint Committee on Taxation:
    Anticipated workload of the, for calendar year 1999..........    92
    Review of operations during calendar year 1998...............    91
Tax Code, simplification of the..................................   101

                        JOINT ECONOMIC COMMITTEE

Joint Economic Committee budget request..........................   103

                          LIBRARY OF CONGRESS

Audio-visual Conservation Center.................................   127
Automation building blocks.......................................   123
Budget request.................................................118, 121
Career enhancement succession plan...............................   159
Copyright fees increase..........................................   161
Copyright Office.................................................   126
CRS:
    Budget request...............................................   136
    Concerns of putting products online..........................   162
    Distribution of written products to the public...............   140
    Home page....................................................   135
    Public dissemination of products.............................   135
    Recruitment program..........................................   156
    Request for funding..........................................   134
    Security issues..............................................   135
    Succession plan..............................................   134
    Y2K compliant................................................   135
Early history....................................................   122
ILS project......................................................   158
Information and research capability, developing and maintaining 
  an.............................................................   138
James Madison Building workstation modernization project.........   127
Law Library......................................................   126
Legislation, proposed............................................   127
Library buildings and grounds....................................   127
Library of Congress today........................................   123
Library staff, collections and facilities, security of...........   125
Library's bicentennial.........................................120, 128
Library's challenges.............................................   120
Library's mission................................................   119
National Film Preservation Foundation............................   127
National Library Service for the Blind and Physically Handicapped   126
Office of Inspector General......................................   128
Personnel system.................................................   160
    Reprogramming fiscal 1999 funding to evaluate................   155
Retirements, impact of the potential.............................   158
Services, maintaining current....................................   136
Special congressional directives: Legislative information system 
  (LIS)..........................................................   139
Succession planning..............................................   156
Succession program...............................................   125

                          OFFICE OF COMPLIANCE

Additional record keeping........................................   115
Associates, introduction of......................................   105
Authority, potential additional..................................   113
Enforcement authority for retaliation............................   114
Workload and OSHA experience.....................................   112

                       U.S. CAPITOL POLICE BOARD

Additional committee questions...................................    18
Associates, introduction of......................................     4
Booz-Allen and Hamilton report...................................    16
Budget request...................................................     3
Management review................................................    13
Payroll increases................................................    14
Police forces, compatibility with other..........................    11
Security upgrade project.........................................    15
Summary statement................................................     4
Y2K..............................................................     6
    Program......................................................    12

                              U.S. SENATE

                 Office of the Secretary of the Senate

Accounting Department............................................   245
Accounts payable audit section...................................   246
Additional committee question....................................   268
Administrative offices...........................................   239
Bill Clerk.......................................................   229
Budget Department................................................   247
Budget request, fiscal year 2000...............................219, 223
Capitol visitor center.........................................222, 266
    Vision for the...............................................   227
Central Human Resources Department...............................   239
Daily Digest.....................................................   229
Departmental annual reports......................................   229
Disbursing Office................................................   239
    Financial management.........................................   242
Employee benefits section........................................   241
Enrolling Clerk..................................................   230
Executive Clerk..................................................   230
Financial Systems Department.....................................   248
FMIS.............................................................   219
    And LIS, implementing the mandated systems of................   223
    Processing of vouchers.......................................   266
Front counter--Administrative and financial services.............   239
Historical Office................................................   256
Impeachment trial................................................   228
Information systems..............................................   260
Interparliamentary services......................................   255
    Official foreign visitors--1998..............................   265
    Trips 1998...................................................   264
Journal Clerk....................................................   231
Legislative Clerk................................................   231
Legislative departments..........................................   229
LIS..............................................................   220
Office of Captioning Services....................................   236
Office of Conservation and Preservation..........................   253
Office of Human Resources........................................   248
Office of Official Reporters of Debates..........................   232
Office of Public Records.........................................   256
Office of Senate Curator.........................................   258
Office of Senate Security........................................   253
Office of the Secretary budget...................................   268
Office of the Senate Chief Counsel for Employment................   250
Other systems....................................................   221
Parliamentarian..................................................   233
Payroll section..................................................   240
Personnel challenges for the future..............................   226
Policy and Control Department....................................   248
Printing and document services...................................   233
Senate:
    Gift Shop....................................................   255
    Library......................................................   249
    Page school..................................................   259
    Stationery room..............................................   254
Special projects--LIS............................................   237
Y2K compliance...................................................   219

             Office of the Sergeant at Arms and Doorkeeper

Barbershop.......................................................   292
Budget request, fiscal year 2000.................................   285
Summary statement................................................   272
Y2K:
    Issues.......................................................   291
    Update.......................................................   288

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
